<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-201]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 110-201, Pt. 6
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 6

                               PERSONNEL

                               ----------                              

                      MARCH 28 AND APRIL 18, 2007


         Printed for the use of the Committee on Armed Services

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                        2008--Part 6  PERSONNEL


                                                  S. Hrg. 110-201 Pt. 6

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                      MARCH 28 AND APRIL 18, 2007


         Printed for the use of the Committee on Armed Services

                     U.S. GOVERNMENT PRINTING OFFICE
39-440 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

                       Subcommittee on Personnel

                 E. BENJAMIN NELSON, Nebraska, Chairman

EDWARD M. KENNEDY, Massachusetts     LINDSEY O. GRAHAM, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     SUSAN M. COLLINS, Maine
JIM WEBB, Virginia                   SAXBY CHAMBLISS, Georgia
CLAIRE McCASKILL, Missouri           ELIZABETH DOLE, North Carolina

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
  Active Component, Reserve Component, and Civilian Personnel Programs
                             march 28, 2007

                                                                   Page
Chu, Hon. David S.C., Under Secretary of Defense for Personnel 
  and Readiness..................................................
Hall, Hon. Thomas F., Assistant Secretary of Defense for Reserve 
  Affairs........................................................
Jones, Stephen L., DHA, Principal Deputy Assistant Secretary of 
  Defense for Health Affairs.....................................
Rochelle, LTG Michael D., USA, Deputy Chief of Staff, G-1, United 
  States Army....................................................
Harvey, VADM John C., Jr., USN, Chief of Naval Personnel, United 
  States Navy....................................................
Coleman, Lt. Gen. Ronald S., USMC, Deputy Commandant for Manpower 
  and Reserve Affairs, United States Marine Corps................
Brady, Lt. Gen. Roger A., USAF, Deputy Chief of Staff, Manpower 
  and Personnel, United States Air Force.........................

Joint Hearing with the Subcommittee on Readiness and Management Support 
  to Receive Testimony on the Readiness Impact of Quality of Life and 
  Family Support Programs to Assist Families of Active Duty, National 
                 Guard, and Reserve Military Personnel
                             april 18, 2007

Dominguez, Hon. Michael L., Principal Deputy Under Secretary of 
  Defense for Personnel and Readiness............................
Davis, Lynda C., Deputy Assistant Secretary of the Navy for 
  Military Personnel Policy......................................
McLaurin, John, Deputy Assistant Secretary of the Army for Human 
  Resources......................................................
Brady, Lt. Gen. Roger A., USAF, Deputy Chief of Staff for 
  Manpower and Personnel, Headquarters, United States Air Force..
McDonald, Connie, Spouse of an Army Servicemember................
Sumrall, Paula, Spouse of a National Guard Servicemember.........
Hall, Launa, Spouse of an Air Force Servicemember................
Piacentini, Mary, Spouse of an Army Reserve Servicemember........
Raezer, Joyce Wessel, Chief Operating Officer, National Military 
  Family Association.............................................

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

  ACTIVE COMPONENT, RESERVE COMPONENT, AND CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 4:00 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators E. Benjamin Nelson and 
Collins.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, professional staff member; and Gerald J. 
Leeling, counsel.
    Minority staff member present: Diana G. Tabler, 
professional staff member.
    Staff assistants present: David G. Collins and Fletcher L. 
Cork.
    Committee members' assistants present: Eric Pierce, 
assistant to Senator Ben Nelson; Stephen C. Hedger, assistant 
to Senator McCaskill; Mark J. Winter, assistant to Senator 
Collins; and Clyde A. Taylor IV, assistant to Senator 
Chambliss.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. I'll call the subcommittee to order.
    The subcommittee meets today to receive testimony on the 
Active, Guard, Reserve, and civilian personnel programs in 
review of the National Defense Authorization Request for Fiscal 
Year 2008 and the Future Years Defense Program (FYDP).
    I'd like to begin by stating how honored I am to chair the 
Subcommittee on Personnel. It is a great honor, and I look 
forward to my time as chairman. I'm especially grateful to have 
Senator Graham as the ranking member. I am sorry he's not here 
to hear all these nice things I'm going to say about him, but 
I'm going to say them about him in any event. He and I have 
worked together for several years. While he was chairman, I was 
the ranking member, and we always worked well together. 
Whatever the political divisions of the larger Senate, or 
Congress, I've found it quite easy to cross the aisle during my 
time on the Senate Armed Services Committee, and particularly 
this subcommittee. We all want to do what's right by our 
servicemembers and their families. So, I look forward to 
continuing the relationship with Senator Graham.
    I welcome back Senators Kennedy, Lieberman, Collins, 
Chambliss, and Dole to the subcommittee. I thank them for their 
continued service. This year, we welcome two new Senators to 
the subcommittee, Senators Jim Webb and Claire McCaskill. 
They'll bring unique insights and ideas to the subcommittee, 
and I look forward to working with them.
    Of course, to our witnesses, welcome, Secretary Chu. By my 
count, this will be at least your ninth appearance before this 
subcommittee. You probably have not been counting, but you 
should be. We appreciate your service and dedication to our 
servicemembers and their families. You've provided continuity 
and steady leadership in your time with the Department of 
Defense (DOD), and I thank you for that.
    We also welcome today Dr. Stephen Jones, who hails from the 
great State of South Carolina. Senator Graham is well aware of 
your presence here today, and I know that he'll be joining us 
shortly. Dr. Jones is the Principal Deputy Assistant Secretary 
of Defense for Health Affairs.
    Of course, rounding out our first panel is Secretary Thomas 
F. Hall, Assistant Secretary of Defense for Reserve Affairs.
    So, welcome to all of you.
    The second panel will consist of the personnel chiefs from 
each of the Services, and I'll introduce them when the second 
panel is seated.
    We meet today as the fourth year of the war in Iraq comes 
to a close and we enter a fifth. Since the institution of the 
All-Volunteer Force in 1973, the Nation has not faced as 
protracted a conflict as the one it now faces. The force is 
stressed. Both the Active and Reserve components are stretched 
thin. It is all the Services can do to ensure the readiness and 
mission capability of forces deploying, redeploying, and 
redeploying again to Iraq and Afghanistan. Because of this 
stress, soldiers and marines are not getting the training they 
would normally get to ensure their readiness for missions 
outside of the current conflict. The stress is not limited to 
our servicemembers. We must not forget their families. The 
stress on the modern military family is unprecedented. 
According to a recent report by the American Psychological 
Association Presidential Task Force on Military Deployment 
Services for Youth, Families, and Servicemembers, 700,000 
children in this country have at least 1 parent deployed away 
from home. That's mindboggling to consider. In addition to 
those children, there are the spouses, grandparents, aunts, 
uncles, and siblings left to raise the children in the absence 
of their parent or parents. We must never lose sight of the 
families as we consider what measures to take to enhance the 
safety and well-being of our servicemembers. Their family is 
our family.
    We also face issues with the physical disability evaluation 
system. Between the DOD and Department of Veterans Affairs 
(VA), two disparate systems exist that rate disabled veterans 
differently. Moreover, the DOD system is so weighed down with 
bureaucracy that our wounded soldiers have difficulty 
navigating the system, as the recent hearings on the issues at 
Walter Reed Army Medical Center have revealed.
    Meanwhile, we're trying to increase the size of the Army 
and Marine Corps. The administration has belatedly recognized 
that a larger force was, and is, needed. Growing the force 
raises obvious questions about recruiting and retention, as 
well as the right mix of pay, bonuses, and benefits to attract 
and retain America's best young men and women. Also, as we go 
down this road of increasing the Army and Marine Corps end 
strength, we must be sure it's not growth just for the sake of 
growth. The growth in our ground forces must be tied to a 
strategic analysis of the global threat in the short-term, as 
well as the long-term. The growth must be directly tied to the 
force that is needed to combat those threats.
    Increased end strength doesn't come without a cost. While 
not exactly a zero-sum game, there are budgetary tradeoffs to 
growing the force. All of this reflects the reality that we 
face today. Our servicemembers shoulder more responsibility and 
are increasingly asked to do more. With the increased 
requirements comes a cost that is difficult to bear.
    We absolutely must take care of our soldiers, especially 
our wounded soldiers and their families. We cannot have another 
Walter Reed. We must ensure that our soldiers are properly 
trained and equipped to perform the tasks we ask them to 
perform, as well.
    So, on these issues, there can be no compromise. The issues 
we face going forward are difficult, but not insurmountable. I 
look forward to hearing from our witnesses today on the 
programs and priorities DOD has identified to overcome these 
challenges.
    When Senator Graham arrives, we'll ask him for his opening 
statement, but, for the sake of the time factor, we would ask 
you if you would proceed with your opening statements.

 STATEMENT OF HON. DAVID S. C. CHU, UNDER SECRETARY OF DEFENSE 
                  FOR PERSONNEL AND READINESS

    Dr. Chu. Delighted to do so, sir. Thank you for your very 
generous comments in your introductory statement.
    I am privileged to be here today to explain the programs 
proposed by DOD to sustain its people in this long conflict. I 
think you've correctly noted the challenge we face. This is a 
long-distance effort, and the fact that the Nation is pursuing 
it with a volunteer force is a historic decision.
    We do have a joint statement, for the record, which I hope 
you would accept for this hearing.
    Senator Ben Nelson. It will be accepted, without objection.
    Dr. Chu. Thank you, sir.
    It is a lengthy statement, and one might ask, ``Why is it 
so lengthy?'' It is lengthy because it illustrates the 
complexity of sustaining a volunteer force in a long conflict, 
the many different programs that we need to pursue and support 
in order to be successful; and we are very grateful for the 
support that Congress has given us. It has been critical to the 
success we have enjoyed to date.
    I can report, sir, that your All-Volunteer Force is in good 
health today. You can see that good health in the excellent 
retention statistics; the people who have joined us are staying 
with us, and staying with us at high levels, despite the stress 
and the burdens that they and their families bear, that you so 
correctly identified. You can see it also, I think, in the 
success in recruiting. The four Active Services are meeting 
their recruiting goals.
    I do underscore the importance of broad public support for 
service in the military of the United States. This is a subject 
we've discussed before, a subject in which we can all be 
advocates so that when the young man or young woman comes home 
and discusses this prospect, he or she is met with enthusiasm 
and interest, and not with skepticism and doubt. I do think 
that is a challenge, in terms of national attitudes.
    As you noted, sir, DOD is expanding its capabilities. The 
Air Force and the Navy are doing so with a reduction in the 
number of people they think they will need in order to carry 
out their responsibilities. They are, importantly, using the 
funds freed by those reductions in order to bolster the 
investment accounts to buy the new-generation equipment that's 
so essential to our long-term success.
    The Army and the Marine Corps, in contrast, are increasing 
their end strength at the same time the DOD is proposing 
increases in their investment accounts. That does mean that the 
Army, specifically, does receive a larger share of the overall 
DOD budget.
    We are creating additional manpower capacity through one 
other route, and that is the conversion of military billets in 
nonmilitary occupational areas to civil status. Through the end 
of this fiscal year, we anticipate the conversion, department-
wide, of approximately 31,000 billets; and, by the end of 
fiscal year 2013, we think that total will reach 55,000, on a 
cumulative basis.
    We do need some new authorities, sir, and let me highlight, 
if I may, in the fiscal 2008 effort three areas, in particular, 
that enjoy high priority in DOD's proposals.
    First, some modest relief, in terms of grade restrictions 
for mid-career officers and for E-9s. We find, with the advent 
of additional joint headquarters, joint efforts, combined 
efforts, integrated efforts, as some would describe them, where 
we work with nongovernment organizations (NGOs), that we need 
more of those who are equipped to deal with these complex 
issues that we face today.
    Second, we would very much like to seek, from Congress, 
broad demonstration authority to manage officer communities in 
a manner different from that which is constrained by the 
Defense Officer Personnel Management Act. We would restrict 
that authority, in terms of its scope, so that we can try out 
on a limited basis what might be promising ideas for the long-
term for a wider section of the force.
    The third area in which we'd seek new authorities has to do 
with how special pays in the military are constructed and the 
variety of pays and bonuses that we offer in order to provide 
incentive or recompense for the duties that individuals 
undertake. There are now approximately 60 different sections of 
statute on this point. It's often confusing to the individual 
servicemember why he or she is paid this way in this 
circumstance and a different way in another circumstance. It's 
also a significant administrative challenge for the DOD. My 
hope would be that we can bring these separate pay authorities 
under a small number of broader headings that would make them 
more efficient, make them more easily understood by our people, 
and that would, at the same time, make them more effective in 
carrying out our responsibilities to sustain this All-Volunteer 
Force.
    If I may, sir, I would turn to my colleagues, Secretary 
Hall and Dr. Jones, and ask them, very briefly, to say a word 
about their areas of responsibility.
    Thank you, sir.
    [The joint prepared statement of Dr. Chu, Mr. Hall, and Dr. 
Jones follows:]

Joint Prepared Statement by Hon. David S. C. Chu, Hon. Thomas F. Hall, 
                     and Dr. Stephen L. Jones, DHA

                              INTRODUCTION

    Mr. Chairman and members of this distinguished subcommittee, thank 
you for inviting us to be here today.
    We are now in the sixth year of a ``Long War.'' A necessary 
condition for success is the continued viability of our All-Volunteer 
Force. We all agree that the dedication and superb performance of 
Active and Reserve servicemembers and Department of Defense (DOD) 
civilians--our Total Force--are beyond dispute.
    To that Total Force we must also add the families of those who 
serve. Without their strong support and willingness to sacrifice, we 
could not sustain adequate numbers of high-performing soldiers, 
sailors, airmen, and marines. These men and women must go into harm's 
way confident that the welfare of those they hold dear is protected.
    We face two fundamental and related challenges. First, we must 
continue to attract and retain high quality, motivated individuals for 
Active and Reserve military service and we must maintain an 
enthusiastic and skilled civilian workforce.
    Second, we must make hard choices, weighing sufficiency against the 
risks of an uncertain future. As we invest in our human capital, we 
must do so judiciously. While our future challenges may often seem 
without bounds, our resources are not. We must choose wisely.

                        THE ALL-VOLUNTEER FORCE

    Shaping the Force. We will balance our end strength needs--
increasing where we must, decreasing where it makes sense. To that end, 
we propose to permanently increase the end strength of the Army and 
Marine Corps, focusing on combat capability. However, planned 
reductions resulting from transformation efforts in the active Air 
Force and Navy manpower programs, and the Navy Reserve, as stated in 
our fiscal year 2008 President's budget request, balance risk with 
fiscally responsible manpower program decisions.
    To support these programmed strength reductions, we have developed 
an integrated package of voluntary separation incentives. We want to 
recognize the enhancement to the targeted incentive authority that you 
provided us, which allows us to offer monetary incentives to shape the 
military Services by offering these incentives to non-retirement 
eligible officer and enlisted personnel in specific grade, skill and 
year service cohorts. Voluntary incentive tools like this are of 
particular importance when the Air Force and Navy are decreasing in 
size while the Army and Marine Corps are increasing operating strength. 
Our goal is to use these tools sparingly to make sure our forces are 
sized and shaped to be the most effective, flexible and lethal. Only if 
voluntary separations do not suffice would the military departments, as 
a last resort, implement involuntary separation measures such as Early 
Discharge Authority or Selective Early Retirement.
    Military-to-civilian conversions help alleviate stress on the force 
and reduce workforce costs. This initiative replaces uniformed 
servicemembers in activities that are not ``military essential'' with 
DOD civilians or private sector contractors. By the end of fiscal year 
2007, the number of conversions should exceed 31,000. When conversions 
programmed through fiscal year 2013 are completed, the total number of 
conversions should exceed 55,500. In addition, DOD components have 
established goals that could eventually raise this number to over 
62,000.
    When the Navy and the Air Force convert military billets to DOD 
civilian or private sector performance, they reduce their military end 
strength without any loss of combat capability. Because the average 
costs of civilians are less than the average costs of military, there 
are net savings that are used for force modernization, 
recapitalization, and other compelling needs.
    When the Army and Marine Corps convert military billets, both 
Services retain the military end strength so it can be reallocated to 
operating units to increase force capability, thereby reducing the 
pressure on recruiting. Military-to-civilian conversions likewise offer 
both Services a way to man units more quickly at the mid-grade level. 
Because civilians cost less on average than their military 
counterparts, military conversions provide a less expensive way of 
increasing the size of the operating force than an increase to military 
end strength would provide.
Active Duty Recruiting
    During fiscal year 2006, the active duty components recruited 
167,909 first-term enlistees and an additional 12,631 individuals with 
previous military service, attaining over 100 percent of the DOD goal 
of 179,707 accessions.
    While meeting our quantitative goals is important, we also need to 
have the right mix of recruits who will complete their term of service 
and perform successfully in training and on the job. The ``quality'' of 
the accession cohort is critical. We typically report recruit quality 
along two dimensions--aptitude and educational achievement. Both are 
important, but for different reasons.
    All military applicants take a written enlistment test called the 
Armed Services Vocational Aptitude Battery. One component of that test 
is the Armed Forces Qualification Test (AFQT), which measures math and 
verbal skills. Those who score above average on the AFQT are in 
Categories I-IIIA. We value these higher-aptitude recruits because they 
absorb training lessons and perform better on the job than their lower-
scoring peers (Categories IIIB-IV). These category groupings describe a 
range \1\ of percentiles, with Category I-IIIA describing the top half 
of American youth in math and verbal aptitudes.
---------------------------------------------------------------------------
    \1\ AFQT (Math-Verbal) Percentile: I (93-99); II (65-92); IIIA (50-
64); IIIB (31-49); IV (10-30).
---------------------------------------------------------------------------
    We also value recruits with a high school diploma because they are 
more likely to complete their initial 3 years of service. About 80 
percent of recruits who have received a traditional high school diploma 
complete their first 3 years, yet only about 50 percent of those who 
have not completed high school will make it. Those holding an 
alternative credential, such as a high school equivalency or a General 
Educational Development certificate, fall between those two extremes.
    In conjunction with the National Academy of Sciences, the 
Department reviewed how best to balance educational attainment, 
aptitude, recruiting resources, and job performance. With an optimizing 
model we established recruit quality benchmarks of 90 percent high 
school diploma graduates and 60 percent scoring above average on the 
AFQT. Those benchmarks are based on the relationship among costs 
associated with recruiting, training, attrition, and retention using as 
a standard the performance level obtained by the enlisted force cohort 
of 1990--the force that served in Operations Desert Shield/Desert 
Storm. Thus, the benchmarks reflect the aptitude and education levels 
necessary to minimize personnel and training costs while maintaining 
the required performance level of that force.
    For over 20 years, the military Services have met or exceeded the 
Department's benchmarks for quality active-duty recruits (Figure 1).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The quality of new active duty recruits remained high in fiscal 
year 2006. DOD-wide, 91 percent of new active-duty recruits were high 
school diploma graduates (against the goal of 90 percent). This 
compares favorably to the national average in which only about 80 
percent graduate from high school. On the AFQT, 69 percent are drawn 
from the top half of America's youth (versus a desired minimum of 60 
percent).
    Through January, all Services have met or exceeded numerical 
recruiting objectives for the active force. Army achieved 28,407 of its 
26,350 recruiting goal, for a 108 percent year-to-date accomplishment 
(Table 1). The Active Army did fall short of recruits with a high 
school diploma (80 percent versus the desired 90 percent). Although the 
Army is slightly below the desired number of recruits scoring at or 
above the 50th percentile on the AFQT, we look for the Army to achieve 
the DOD benchmark by the end of fiscal year 2007.

                 TABLE 1. FISCAL YEAR 2007 ACTIVE DUTY ENLISTED RECRUITING THROUGH FEBRUARY 2007
----------------------------------------------------------------------------------------------------------------
                                                      Quantity                              Quality
                                      --------------------------------------------------------------------------
                                                                                                 Percent Scoring
                                                                                Percent High      at/above 50th
                                                                               School Diploma     Percentile on
                                        Accessions      Goal      Percent of  Graduate (HSDG);  AFQT (Categories
                                                                     Goal     DOD Benchmark  =    I-IIIA); DOD
                                                                                 90 Percent      Benchmark  = 60
                                                                                                     Percent
----------------------------------------------------------------------------------------------------------------
Army.................................      28,407       26,350        107.8                80                59
Navy.................................      13,001       13,001        100.0                93                73
Marine Corps.........................      11,694       11,357        103.0                95                67
Air Force............................      11,315       11,315        100.0                98                79
                                      --------------------------------------------------------------------------
  Total..............................      64,417       62,023        103.9                90                68
----------------------------------------------------------------------------------------------------------------

Active Duty Retention
    Overall, in fiscal year 2006 we exceeded Active duty retention 
goals across the board. The Army, Air Force, and Marine Corps met 
fiscal year 2006 active duty retention goals in every category. The 
Navy retained in high numbers at the outset of the year, but a focus on 
physical fitness test performance led to an increase in 
disqualification among first-term sailors later in the year. Navy is on 
a planned, controlled path to reshape the force and will continue to 
monitor carefully zone behavior by skill set.
    For fiscal year 2007, active duty retention continues on track 
(Table 2). The Army, Air Force and Marine Corps met or exceeded their 
overall active duty retention missions, although Army lags in the mid-
career category. Historically, Army begins the year slowly and finishes 
strong; thus we are predicting that Army will meet its reenlistment 
goals in all categories, including mid-career, for fiscal year 2007.
    While Navy numbers remain below monthly goals in Zone A and Zone B, 
they should meet their Zones B and C goals at the end of the fiscal 
year, but will be challenged to meet their Zone A target. Navy will 
take necessary actions to influence reenlistment decisions and meet 
reenlistment goals.

    TABLE 2. FISCAL YEAR 2007 ACTIVE DUTY ENLISTED RETENTION THROUGH
                              FEBRUARY 2007
------------------------------------------------------------------------
                                        Reenlisted
                                     Through February       Mission
                                           2007
------------------------------------------------------------------------
Army
  - Initial.......................             12,442             10,384
  - Mid-Career....................              8,203              8,881
  - Career........................              6,188              6,163
Navy
  - Zone A........................              5,079              6,405
  - Zone B........................              3,977              4,432
  - Zone C........................              2,279              2,163
Air Force
  - Zone A........................              7,467              7,500
  - Zone B........................              4,347              4,583
  - Zone C........................              2,664              2,767
Marine Corps
  - First.........................              5,504              3,458
  - Subsequent....................              3,389              3,250
------------------------------------------------------------------------

    Of course, our retention efforts ultimately support the delivery of 
seasoned performers to higher ranks. In recent years, the grade 
proportions have shifted upward slightly as we continue to field weapon 
systems and units with fewer lower-grade positions. This will require 
legislative change to adjust some of our grade structures.
    The Army is the only Service currently using Stop Loss. As of 
January 2007, the Army Stop Loss program affected less than half of one 
percent of the total force (7,148 Active component, 1,537 Reserve, and 
2,053 National Guard soldiers). The active Army Unit Stop Loss program 
takes effect 90 days prior to unit deployment or with official 
deployment order notification, if earlier, and remains in effect 
through the date of redeployment to permanent duty stations, plus a 
maximum of 90 days. Reserve component Unit Stop Loss begins 90 days 
prior to mobilization or with official mobilization alert deployment 
order notification, if later, and continues through mobilization, and 
for a period up to 90 days following unit demobilization. The Secretary 
has directed that we minimize the use of Stop Loss.
Purpose, Missions, and Policies of the Reserve Components
    The Department's use of the Reserve components has changed 
significantly since 1990, and a mission-ready National Guard and 
Reserve Force has become a critical element in implementing our 
national security strategy. The National Guard also remains integral to 
homeland defense missions and will remain a dual-missioned force, 
performing Federal and State missions, exemplified by numerous National 
Guard members who responded to hurricanes, floods, blizzards, and 
wildfires.
    The Reserve components support day-to-day defense requirements, and 
portions of the Reserve have served as an operational force since 
Operation Desert Shield/Operation Desert Storm. This force is no longer 
just a strategic Reserve. Since September 11, 2001, an annual average 
of about 60 million duty days have been provided by Reserve component 
members--the equivalent of adding over 164,000 personnel to the active 
strength each year.
    The Reserve components support the full spectrum of operational 
missions and are currently furnishing about 18 percent of the troops in 
the Central Command (CENTCOM) theater of operations. The Reserve 
components perform a variety of nontraditional missions in support of 
the global war on terror, including providing advisory support teams in 
support of the training that will allow Iraqi and Afghan forces to 
assume a greater role in securing their own countries.
    To assist in this transformation of the Reserve components, the 
Department initiated a ``Continuum of Service'' paradigm aimed to 
provide more flexibility in creating needed capabilities and to ensure 
seamless and cost-effective management of military forces. It 
prescribes both organizational and systemic change in order to more 
effectively manage individuals throughout their military career, while 
meeting the full spectrum of military requirements in peacetime and 
wartime with greater efficiency and economy of resources. The continuum 
of service enhances the spirit of volunteerism by providing more ways 
in which military service can be performed to support DOD missions. The 
continuum provides more extensive opportunities for the part-time force 
to volunteer for extended service. Facilitating transitions between 
levels of participation reflects the convergence of two goals: that of 
an operationally integrated total force and that of a seamless force--
one where members can easily move between full- and part-time status. 
Facilitating these goals was the creation of the ''Operational 
Support'' strength accounting category authorized by Congress in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2005, which 
makes it easier and less disruptive for Reserve component members to 
volunteer to perform operational missions.
    Recognizing that this Operational Reserve is still a Reserve Force, 
our policies continue to support the prudent and judicious use of 
National Guard and Reserve members--something we have emphasized since 
2001. We have focused on husbanding Reserve component resources and 
being sensitive to the quality-of-life of mobilized personnel, their 
families, and the impact on civilian employers of reservists. Our 
policies stress advance notification to aid in predictability, as well 
as now enabling reservists and their families to take advantage of 
early access to medical benefits.
    This Operational Reserve supports ongoing missions where 
appropriate, while providing the additional Reserve capacity needed to 
meet surge requirements or support wartime or contingency operations. 
This new construct allows greater flexibility to perform new missions 
ideally suited to Reserve service, such as ``reach-back'' missions 
(Intelligence, Communications, Unmanned Arial Vehicles, etc.) and 
training missions.
Reserve and National Guard Utilization
    There continues to be considerable discussion about the stress that 
the global war on terror places on the force. Recent guidance from the 
Secretary of Defense established new tenets of Reserve mobilization to 
support our members, their families, and their employers better while 
continuing to meet mission requirements. These principles include 
limiting involuntary unit mobilizations to no more than 12 months, 
followed by a 5 year dwell of no involuntary mobilizations; minimizing 
the use of Stop Loss; managing mobilization of ground forces on a unit 
basis; and emphasizing use of our hardship waiver programs. These 
principles will provide for increased predictability and unit 
integrity; focus on the extreme circumstances facing certain families; 
and, ensure force availability.
    Almost 565,000 Reserve component members have served in support of 
the current contingency since September 11, 2001 and more than 127,000 
have served more than once--with almost all (99 percent) of those 
127,000 volunteering for those tours. Of the current Selected Reserve 
Force of about 831,000 today, slightly more than 47 percent have been 
mobilized. We are monitoring the effects of this usage using the 
metrics of strength achievement, recruiting rates, attrition rates, and 
employer relations through the number of alleged employer mistreatment 
discussed below.
    Although end strength achievement in fiscal year 2006 was less than 
100 percent (97.1 percent) the downward trend of the previous 2 years 
was reversed. The shortfall was primarily in the Army National Guard 
and the Navy Reserve. Fiscal year 2007 projections, based partially on 
first quarter fiscal year 2007 data, indicate we will see continued 
improvement in end strength achievement.
    Department of Labor (DOL) cases involving Reserve component member 
claims of mistreatment by civilian employers have risen from 724 in 
fiscal year 2001 to 1,366 in fiscal year 2006. This is not surprising 
considering the mobilization of nearly a half million Reserve 
personnel, and a usage rate of Reserve component members in 2006 five 
times higher than in 2001 (approximately 60 million man-days in 2006 
compared to 12.7 million man-days in 2001). When normalized for usage, 
the rate of cases is consistent. DOD and DOL have established a 
Memorandum of Understanding that enhances communication and information 
sharing and mobilizes all available government resources for Reserve 
component members.
Reserve Component Recruiting
    In a challenging recruiting environment, the DOD Reserve components 
reversed the downward trend of the preceding 3 years and, cumulatively, 
achieved 97 percent of their fiscal year 2006 recruiting objectives--a 
significant increase over the 85 percent achievement in fiscal year 
2005. Two of the six DOD Reserve components exceeded their recruiting 
objectives--the Marine Corps Reserve and the Air Force Reserve. The 
Army National Guard and Air National Guard came close to making their 
goals, achieving 98 percent and 97 percent, respectively. The Army 
Reserve fell short by 1,653 (achieving 95 percent), and the Navy 
Reserve fell short by 1,458 (achieving 87 percent). The improved 
recruiting results, coupled with low attrition, have helped the Reserve 
components achieve better end strength posture.
    Through February of fiscal year 2007, four of the six DOD Reserve 
components are exceeding their recruiting objectives (Table 3).

                     TABLE 3. RESERVE COMPONENT RECRUITING PERFORMANCE THROUGH FEBRUARY 2007
----------------------------------------------------------------------------------------------------------------
                                                                                                 Percent Scoring
                                                                                Percent High    at or above 50th
Reserve Enlisted Recruiting, Fiscal Year     Goal     Accessions  Percent of   School Diploma     Percentile on
          2007 Through February                                      Goal      Graduate (HSDG)    AFQT (Cat I-
                                                                                                      IIIA)
----------------------------------------------------------------------------------------------------------------
Army National Guard.....................      25,470      26,703         105               93                58
Army Reserve............................      11,600      10,926          94               92                57
Naval Reserve...........................       4,018       3,598          90               92                72
Marine Corps Reserve....................       3,015       3,128         104               95                70
Air National Guard......................       3,724       3,935         106               98                74
Air Force Reserve.......................       2,744       2,811         102               99                70
----------------------------------------------------------------------------------------------------------------

    Quality marks continue to show improvement throughout the Reserve 
components with only a slight shortfall in AFQT levels for the Army 
National Guard (ARNG) and U.S. Army Reserve (USAR). The young men and 
women being recruited today are among America's finest.
    The Army is aggressively pursuing Reserve component recruiting 
through three avenues: (1) extension of the quick ship bonus and 
improvements in the Reserve Partnership Councils; (2) stronger 
incentives, with increased enlistment bonuses for both prior service 
and non-prior service recruits; and (3) increased advertising 
expenditures, including targeted advertising to parents and others who 
influence the decisions of young Americans. Your support of these 
efforts is essential.
Reserve Retention
    The percentage of reenlistment goal achieved increased in fiscal 
year 2006 to 104 percent, up from 100.1 percent in fiscal year 2005. 
This increase, for the fifth straight year, reflects the positive trend 
that we believe will continue in fiscal year 2007, if we maintain the 
course of judicious and prudent use.
    Measuring all losses from the Reserve components, regardless of 
reason, indicates that enlisted attrition remained below established 
ceilings for fiscal year 2006, a very positive trend. The composite 
(officer + enlisted) attrition rate of 18.4 percent was the lowest it 
has been since fiscal year 1991. In fiscal year 2007, through January 
2007, enlisted attrition is on track to remain below ceilings 
established by each Reserve component. We are closely monitoring 
retention/attrition, particularly for those members who have been 
mobilized and deployed to support operations in Iraq and Afghanistan.

                            TABLE 4. RESERVE COMPONENT ATTRITION THROUGH JANUARY 2007
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal Year  Fiscal Year  Fiscal Year
    Selected Reserve Enlisted Attrition Rate (in percent)       2000 YTD     2006 YTD     2007 YTD   2007 Target
                                                              (Jan. 2000)  (Jan. 2006)  (Jan. 2007)   (Ceiling)
----------------------------------------------------------------------------------------------------------------
Army National Guard.........................................         6.90         5.99         6.59         19.5
Army Reserve................................................         8.97         6.54         7.29         28.6
Navy Reserve................................................        10.36        11.56        10.13         36.0
Marine Corps Reserve........................................         9.69         7.72         9.01         30.0
Air National Guard..........................................         4.36         3.61         3.47         12.0
Air Force Reserve...........................................         6.94         4.65         5.60         18.0
DOD.........................................................         7.51         6.24         6.64          N/A
----------------------------------------------------------------------------------------------------------------

    Of all the strategies to help reduce the stress on the force, still 
the first and perhaps most important is rebalancing. Rebalancing 
improves responsiveness and eases stress on units and individuals by 
building capabilities in high-demand units and skills. In 2003, 
rebalancing was defined to include low demand structure to high demand 
structure as well as multiple initiatives such as military-to-military 
conversions, technology insertions, and organization of forces. In 
fiscal year 2006 (post Quadrennial Defense Review (QDR)), the 
definition of rebalancing was refined and updated to reflect solely the 
addition of structure (spaces) from low demand to high demand on 
``stressed'' capability areas. Rebalancing can occur by adding force 
structure to stressed capability areas in the Active component, the 
Reserve component (Guard or Reserve), or any combination thereof.
    The Services continued to improve their Active/Reserve component 
mix by rebalancing approximately 19,000 spaces in fiscal year 2006, for 
a total of about 89,000 spaces to date. The Services have planned and 
programmed an additional 37,000 spaces for rebalancing between fiscal 
years 2007 and 2012. The amount and type of rebalancing varies by 
Service. By 2012, we expect to have rebalanced about 126,000 spaces. 
Rebalancing is a continuous and iterative process. The Department will 
continue to work closely with the Services as they review and modify 
their rebalancing plans to achieve the right mix of capabilities and 
alignment of force structure.
    The mission of the National Committee for Employer Support of the 
Guard and Reserve (ESGR) is directly related to retention of the Guard 
and Reserve Force. ESGR's mission is to ``gain and maintain support 
from all public and private employers for the men and women of the 
National Guard and Reserve as defined by demonstrated employer 
commitment to employee military service.'' Employer support for 
employee service in the National Guard and Reserve is an area of 
emphasis, considering the continuing demand the global war on terror 
has placed on the Nation's Reserve components. The broadbased, 
nationwide support for our troops by employers continues to be superb.
    Through its locally-based network of 3,500 volunteers and its full-
time national staff, ESGR reaches out to both employers and 
servicemembers to help ensure the requirements of the Uniformed 
Services Employment and Reemployment Rights Act (USERRA), 38 U.S.C., 
(sections 4301-4334) are understood and applied. Servicemembers and 
employers may resolve USERRA conflicts by utilizing the free mediation 
and ombudsman services provided by ESGR. ESGR's aggressive outreach 
efforts have resulted in a 50 percent reduction in the number of 
ombudsman cases from 2004 to 2005. ESGR continually increases the 
percentage of cases resolved through informal mediation.
    We established the Civilian Employment Information database and now 
require Reserve component members to register their employers. ESGR has 
established a Customer Service Center hotline to provide information, 
assistance and to gather data on issues related to Reserve component 
service. Used together, these databases enable ESGR to develop personal 
relationships with employers, measure and manage employment issues, and 
advise the Department when developing policies and practices to 
mitigate the impact on employers when a reservist employee is called to 
military duty.

                      COMPENSATION AND MANAGEMENT

Compensation
    The men and women of today's Armed Forces are highly motivated, of 
superior quality, and extremely capable of meeting the national 
security objectives associated with the global war on terror and other 
operational engagements. To sustain this highly-skilled All-Volunteer 
Force, we must continue to work together to ensure a robust and 
competitive compensation package for our wartime professionals. We are 
grateful to Congress for its commitment to improving basic pay, housing 
and subsistence allowances, bonuses, special and incentive pay, and 
other key benefits over the past several years. These enhancements have 
been extremely beneficial to the well-being of the members of our Armed 
Forces and their families.
    Since September 11, 2001, the Department and Congress have worked 
together to increase military basic pay by approximately 28 percent. We 
are appreciative of Congress' support in the NDAA for Fiscal Year 2007 
to increase pay for higher ranking enlisted personnel and warrant 
officers as well as extend the pay table to encourage longer service. 
We have achieved our goal of pay equal to or greater than the 70th 
percentile of private sector pay for those with comparable levels of 
age, education and experience. We continue our strong commitment to 
provide a secure standard of living for those who serve in uniform by 
requesting a 3-percent increase in military pay for all servicemembers 
in the fiscal year 2008 budget. This increase is equal to earnings 
increases in the private sector as measured by the Employment Cost 
Index.
    Servicemembers must be confident that they can afford adequate 
housing when they move in the service of their country. Therefore, the 
housing allowance is one of the key elements of a competitive 
compensation package. The basic allowance for housing increased almost 
80 percent since 2001, as a direct result of the close cooperation 
between the Department and Congress. To ensure the allowance accurately 
reflects the current housing markets where servicemembers and their 
families reside, the Department will continue its efforts to improve 
our data collection.
    A top priority for the Department is ensuring servicemembers and 
their families receive appropriate compensation while members are 
deployed and serving their country in dangerous locations around the 
world. Military personnel serving in Operation Enduring Freedom and 
Operation Iraqi Freedom (OEF/OIF) in a designated combat zone, as well 
as members serving in direct support of these operations, receive 
combat zone tax relief benefits that exclude all pay of our enlisted 
members and most of officers' pay from Federal income tax. These 
servicemembers also receive $225 per month in Hostile Fire/Imminent 
Danger Pay, and those who have dependents receive an additional $250 
per month in Family Separation Allowance. Additionally, members 
assigned in Iraq and Afghanistan qualify for Hardship Duty Pay (HDP)-
Location at the rate of $100 per month, and $105 per month in 
incidental expense allowance.
    The Department is grateful to Congress for its continued support of 
Assignment Incentive Pay (AIP) as a flexible and responsive means for 
Services to appropriately compensate members who are called on to 
extend their service in demanding assignments. Continuing our 
commitment to ensuring appropriate compensation for our combat 
warriors, we urge Congress to support the Department's request for more 
flexible tools with which to manage the deployment of servicemembers. 
We request authorization to modify the definition of deployment, 
eliminate statutory thresholds and management oversight mechanisms, 
repeal a currently-suspended requirement to pay High Deployment 
Allowance and replace it with compensation from HDP, and increase the 
maximum allowed rate for HDP from $750 to $1,500.
    As follow-on to a 2001 comprehensive report to Congress on the 
Uniformed Services Former Spouses Protection Act (USFSPA), the 
Department is requesting Congress' support for a balanced package of 
proposed improvements for both military members and former spouses. Our 
USFSPA proposals are grouped into four major areas: retirement pay; 
Defense Finance and Accounting Service (DFAS) improvements; procedural 
improvements; and Survivor Benefit Plan (SBP). Proposals include 
initiatives to prohibit court-ordered payment of retired pay prior to 
retirement; compute divisible retired pay based on rank and years of 
service at divorce; allow direct payments from DFAS in all cases (not 
just cases with more than 10 years of marriage); and allow split of SBP 
between former and current spouses.
    We must continue to work together to ensure we honor our Active and 
Reserve members with a competitive compensation package. Successful 
execution of the global war on terror demands no less. Therefore, the 
Department discourages the expansion of entitlements and the creation 
of new ones that do not improve recruiting, retention, or readiness in 
a manner commensurate with their cost.
    Last year, the Defense Advisory Committee on Military Compensation 
reviewed matters pertaining to military compensation, examining 
approaches to balancing military pay and benefits and incentive 
structures and made suggestions for improvements that they believe will 
assist us in meeting our recruiting and retention objectives. We are 
using the findings and recommendations of the Advisory Committee's 
report as a starting point for the Tenth Quadrennial Review of Military 
Compensation (QRMC), mandated by statute.
    The Tenth QRMC was tasked to pay particular attention to: (1) the 
potential for consolidation of special pays and bonuses into fewer, 
broader, and more flexible authorities; and (2) the potential need for 
enactment of broader and more flexible authorities for recruitment and 
retention of uniformed services personnel. Currently, the large number 
of special and incentive pays available dilutes the effectiveness of 
the pays to influence behavior, and makes the system unwieldy and 
difficult to administer and oversee. The degree of flexibility among 
the many different pays also varies. Most special and incentive pays 
are narrowly focused, with strict statutory limits on how they are 
disbursed. The QRMC is recommending a proposal which replaces the more 
than 60 pays that now address relatively narrow staffing issues with 8 
pay categories designed to cover a broad range of personnel needs.
Defense Travel Management Office
    Since its establishment in February 2006, the Defense Travel 
Management Office (DTMO) has made major strides toward consolidating 
all DOD commercial travel services in one place--a first for the 
Department. The DTMO serves as the one authoritative, responsible 
agency for commercial travel within the DOD and as a ``single face'' 
both within the Department and to industry. Primary functions are 
commercial travel management, travel policy and implementation, travel 
card program management, travel guidance and procedures, and functional 
oversight for the Defense Travel System.
    Numerous benefits result from having one authoritative, responsible 
agency for commercial travel within the Department. DTMO implemented a 
change management process that includes governance boards to set and 
execute the vision for commercial travel and provide the Services and 
Defense agencies with a forum for articulating their travel needs. This 
is a smart business approach, ensuring consistency and integration of 
focus, policy and implementation across the Department and in dealings 
with industry. We are confident that these efforts will enable us to 
provide the best service to the traveler while ensuring the best value 
for the government.
Sexual Assault Prevention
    The Department's Sexual Assault Prevention and Response (SAPR) 
Program has made great progress during the past year. The DOD Sexual 
Assault Prevention and Response Office (SAPRO) has been established and 
is fully staffed with permanent government employees.
    The Department's implementation instruction (DODI 6495.02) was 
published in June 2006. This instruction forms the framework of a 
comprehensive response structure and protocol that ensures a consistent 
level of care and support worldwide for military victims of sexual 
assault. Both the Directive, published in 2005, and Instruction 
implement a fundamental change in how the Department responds to sexual 
assault with a confidential reporting structure for victims of sexual 
assault. This removes a major barrier to reporting by enabling victims 
to receive medical care without necessarily initiating a criminal 
investigation. Confidential, or restricted, reporting has been 
available since June 2005. After our first full year of restricted 
reporting, analysis indicates that the program is meeting our objective 
of increasing victim access to care and support.
    The Department has an aggressive SAPR training and education 
program that ensures training is conducted throughout every 
servicemember's career at both the unit level and at all professional 
military education programs. SAPRO conducted a worldwide Sexual Assault 
Response Coordinators (SARC) Conference in June 2006, training more 
than 350 SARCs from installations around the world. The military 
Services have implemented ambitious training programs to meet this 
requirement and to provide trained SARCs at all major installations. 
Overall, the Services have provided prevention training to over 1 
million active duty servicemembers. This aggressive training and 
outreach program, along with confidential reporting, will predictably 
result in an increase in the overall number of reported sexual assaults 
in DOD.
    The Department's next steps in 2007 will focus on continued 
guidance to the Services and oversight of their implementation of the 
SAPR program. The Under Secretary of Defense for Personnel and 
Readiness (USD(P&R)) will chair the DOD Sexual Assault Advisory Council 
in April, which is Sexual Assault Awareness Month. A Prevention Summit 
is scheduled for July 2007, which will result in a collaborative 
Service-wide prevention strategy for the military Services. SAPRO will 
conduct site visits to Service programs at selected installations. We 
will use the Defense Task Force on Sexual Assault in the Military 
Services as another source to evaluate the effectiveness of the SAPR 
program.

                               READINESS

Readiness Assessment and Reporting
    The Department must track the current status and capabilities of 
forces across the Department. Over the past year we have increased the 
capabilities of our new Defense Readiness Reporting System (DRRS). DRRS 
contains near real time assessments of military capabilities in terms 
of the tasks or missions that units and organizations are currently 
able to perform. These assessments are informed by the availability of 
specific personnel and equipment. Over the past year, our partnerships 
with United States Northern Command, United States Joint Forces 
Command, United States Pacific Command, and United States Strategic 
Command have produced working, scalable versions of measurement, 
assessment and force management, and contingency sourcing tools. Of 
special interest this year is our work with the Department of Homeland 
Security to develop the National Preparedness System, which will 
provide increased situational awareness and assist the Department to 
integrate and coordinate our response to domestic crisis. Development 
of DRRS will continue through 2008.
Transforming DOD Training
    With your steadfast support, we have achieved significant advances 
in joint training and education, but more progress is urgently needed 
to prepare for complex multinational and interagency operations in the 
future. Our forces must be capable of adapting to rapidly changing 
situations, ill-defined threats, and a growing need to operate across a 
broad spectrum of asymmetric missions, including stability, security, 
transition, reconstruction, joint urban, information operations, and 
disaster response. As a result of these and other changes, the motto 
for our Training Transformation program has evolved with our 
operational experience from ``Training as We Fight'' to ``Train as We 
Operate.''
    Following the direction of the 2006 Strategic Planning Guidance, we 
conducted a Joint Training Program Review. The results of this first-
ever review focused on joint training were approved in September 2006 
by the Deputy Secretary of Defense's Advisory Working Group which 
directed us to consolidate Joint Training Program resources into the 
Combatant Commanders Exercise Engagement and Training Transformation 
(CE2T2) program. Although ``new'' in name, the CE2T2 account simply 
consolidates existing joint training resources. In the past, dollars, 
authorities, and responsibilities were spread over many different 
organizations.
    Among the top objectives for this consolidated account is providing 
the combatant commanders with more direct control of their training and 
exercise funding. It is not new funding or program growth. We ask for 
your support of this account.
    The Department's Training Transformation Program remains focused on 
melding world-class individual Service competencies and training 
capabilities into a cohesive joint capability. We are implementing 
three joint capabilities: Joint Knowledge Development and Distribution 
Capability (joint training and education for individuals), Joint 
National Training Capability (joint unit and staff training), and Joint 
Assessment and Enabling Capability (assessments to answer the question: 
are we truly transforming training?).
    The Joint Knowledge Development and Distribution Capability (JKDDC) 
provides access to Service and DOD Agency learning management systems, 
anywhere and anytime. Populated with over 90 joint courses for 
combatant command (COCOM) staffs, training audiences in NATO, 
Partnership for Peace member nations, the Joint Force Headquarters 
States' Staff (National Guard Bureau staff) initiative, Individual 
Augmentee Training classes, and other programs, the JKDDC Web site 
addresses prioritized COCOM needs and fills individual joint knowledge 
gaps and seams. We have fully integrated JKDDC with Defense Knowledge 
Online and existing U.S. Joint Forces Command Joint Warfighting Center 
programs, including the NATO School. Later this year we expect to 
extend the reach to new learning audiences through the Internet and 
other portals. Two representative courses we provide individuals are 
the Joint Planning Orientation and Joint Interagency Coordination 
Group.
    Joint National Training Capability (JNTC) is providing realistic 
distributed joint context to the Services' and COCOMs' training sites 
and events. JNTC has already moved from discrete ``throw-away after one 
use'' events to a more persistent ``stay-behind'' capability and a 
supporting communications infrastructure. Service and COCOM training 
sites and training events are now being accredited to conduct specific 
Joint tasks and technically certified to Joint standards. Twenty-one 
Service and combatant commander training programs are accredited, 23 
sites are certified, and more are scheduled for this fiscal year. We 
continue to decrease planning time for joint training and mission 
rehearsal exercises. We are distributing joint training over large 
distances to the right training audience for their specific mission 
needs. Jointness is moving from the strategic to the tactical level--
all DOD operations in the global war on terror are joint. We are 
creating a Live, Virtual, Constructive (LVC) environment that supports 
efficient participation of joint forces in appropriate training across 
the country and around the world. This year we are expanding this 
environment to include Australia's Defence Training and Experimentation 
Network. When not utilized for joint training, this LVC environment is 
being used by the Services to improve their own title 10 training 
capability. JNTC will also continue interoperability initiatives such 
as the Open Net-centric Interoperability Standards for Test and 
Training and state-of-the-art PC-enabled models and simulations.
    Our Joint Assessment and Enabling Capability creates a performance 
assessment architecture and uses it as a starting point for the conduct 
of a block assessment and balanced scorecard assessment. Our first 
block assessment will serve as a baseline set of metrics to measure 
Training Transformation. Upon completion of these assessments and 
outcome measurements of Training Transformation missions and programs, 
we will adapt and revise our strategic guidance and programmatics.
    Because of your support and these past investments in joint 
training capability, our deploying forces are now able to be trained 
for their upcoming assigned joint force missions prior to their 
employment in the joint operations areas. Such agility, immediately 
responsive to operational lessons learned from theater and changing 
mission taskings, would not have been achievable a few years ago.
    Training Transformation also focuses on improving DOD's integrated 
operations with other U.S. Government agencies, among levels of 
government, and with our multi-national partners. Integrating DOD 
capabilities better with those of other Federal entities, including the 
Departments of State and Homeland Security, leverages all the elements 
of national power to achieve national security objectives.
    Our Advanced Distributed Learning (ADL) initiative is a key enabler 
of Training Transformation. The initiative is leading the way in 
developing interoperability standards for online learning. While the 
standards are now required within the DOD, they are also being adopted 
as a global standard in education and training. We have formed 
partnerships with other Federal agencies as well as other countries at 
their request, to include Canada, the United Kingdom, Australia, Korea, 
and a consortium of 13 Latin American countries. ADL works to form a 
common framework for sharing education and training programs with 
interagency and international partners.
    Training Transformation has created a capability to tailor 
distributed training to deploying forces. We have transformed our 
training by extensive use of rigorous and relevant mission rehearsal 
exercises based upon and tailored to the combat conditions the unit 
will experience once deployed in theater. Our priority for joint 
training is to establish mission rehearsal exercises for the deploying 
force. Exercise Unified Endeavor 07-1 this past fall prepared Army's 
82nd Airborne Division headquarters and staff for their current 
rotation in Afghanistan to head Combined Joint Task Force 76 (CJTF 76) 
in OEF operations. The exercise inserted near real-time lessons learned 
from the Afghan theater of operations to improve the relevancy and 
rigor of the training. Tailored, realistic joint training tasked 
members of the training audience to conduct joint operations while 
coordinating air, ground, and space forces with the ongoing ground 
campaign and all its related cultural exigencies. The CJTF 76 
leadership also had to work with senior and staff-level representatives 
from NATO, coalition, Afghan, Federal (i.e., Department of State, Drug 
Enforcement Agency, and others), private volunteer, and non-
governmental organizations during each phase of the training and 
mission rehearsal exercise--many of whom deployed to the training 
venues from their in-theater bases. Few of these joint training and 
mission rehearsal capacities and capabilities were in practice pre-
Training Transformation just 4 years ago.
Defense Mishap Reduction Initiative
    As a world-class military, we do not tolerate preventable mishaps 
and injuries. The direct cost of mishaps is over $3 billion per year, 
with estimates of total costs up to $12 billion.
    We have rededicated ourselves to achieve our 75 percent accident 
reduction goal and are aggressively working toward it. For example, the 
Marine Corps has reduced its civilian lost day rate by 62 percent and 
last fiscal year the Air Force achieved the best aviation class ``A'' 
mishap rate in its history.
    To get to the next level in military and civilian injury 
reductions, safety is now a performance element under the new National 
Security Personnel System (NSPS) and in military evaluations. The 
Department is implementing Occupational Safety and Health 
Administration's Voluntary Protection Program (VPP) at over 80 
installations and sites. This program brings together management, 
unions, and employees to ensure safe working conditions. VPP and our 
other accountability programs have the highest visibility and support 
within the Department.
    We also believe that the use of technologies to address many safety 
issues has a demonstrated cost benefit. Safety technologies include 
systems and processes. For example, we are pursuing the Military Flight 
Operations Quality Assurance process to reduce aircraft flight mishaps. 
We are exploring the use of data recorders and roll-over warning 
systems as tools to help drivers avoid wheeled vehicle accidents. Our 
plan is for DOD components to include these and other appropriate 
safety technologies as a standard requirement in all future acquisition 
programs.
Range Sustainment
    Continued and assured access to high-quality test and training 
ranges and operating areas plays a critically important role in 
sustaining force readiness. The ability to test and train effectively 
under realistic conditions, and to adapt our training to meet real-
world contingencies, are fundamental requirements. Training 
transformation calls for significant advancements in the joint nature 
of training and a major change in the way we use our existing training 
infrastructure.
    Ongoing reassignments based on the recent Base Realignment and 
Closure (BRAC) round, the return of forces to the U.S. from Europe and 
Korea, and anticipated increases in Army and Marine Corps total force 
end strength all point to growing demands on testing and training 
assets. Joint mission requirements also add to training complexity. 
However, the supply of land, air, and sea space and frequency spectrum 
we use to test and train effectively is not unlimited, and many other 
interests compete for use of these national resources. The confluence 
of these competing trends makes it clear that encroachment remains a 
powerful challenge to military readiness, and requires a comprehensive 
and continuing response.
    The DOD has mobilized to counter encroachment. Through the DOD 
Range Sustainment Integrated Product Team, the Department seeks to 
mitigate encroachment's impacts and to ensure the long-term 
sustainability of military readiness and the resources entrusted to our 
care. Congressional action on a number of DOD legislative provisions 
has provided increased mission flexibility, and at the same time has 
enabled improved environment management on our test and training 
ranges. The Department is now actively focusing beyond its fence lines 
to engage with local, State, regional, and national stakeholders in 
order to address concerns and build effective partnerships that advance 
range sustainment.
    As we move forward, we are emphasizing cooperative approaches to 
sustainment, such as the acquisition of buffers (lands and easements) 
from willing sellers around our ranges, conservation partnering with 
nongovernmental organizations, increased interagency and multi-state 
coordination on cooperative Federal land use, improved sustainment 
policy and planning for overseas training with our allies, and more 
integrated development of information and decisionmaking tools for 
range management. These initiatives clearly build on our past efforts, 
and will emplace enabling capabilities, tools, and processes to support 
range sustainment goals well into the future.

                      FOREIGN LANGUAGE INITIATIVES

Foreign Language and Regional Expertise Capabilities
    To win the long war the Department must embrace and 
institutionalize foreign language and regional expertise into DOD 
doctrine, planning, contingencies, organizational structure, and 
training, as the QDR directs. The Defense Language Transformation 
Roadmap provides broad goals that will ensure a strong foundation in 
language and cultural expertise, a capacity to surge, and a cadre of 
language professionals. We are taking deliberate steps to incorporate 
language and regional expertise as core competencies into the Total 
Force. Policies, practices and funding will ensure a base of officers 
possessing skills in strategic languages, such as Arabic, Chinese, 
Persian/Farsi, and Urdu.
Fiscal Year 2007 Current Capabilities
    Through guidance in the Roadmap, we are close to completing self-
reported screening of military personnel. The Department learned that 
it had a significant in-house capability not apparent to our management 
systems. Even though our assessment is not yet complete, as of the 
beginning of 2007, the Department had 140,653 Active component; 76,843 
Reserve component; and 24,193 civilian members of the Total Force who 
professed foreign language skills. Of those 8,630 are Arabic speakers, 
6,929 are Chinese speakers and 7,282 are Korean speakers. Until we 
undertook this assessment, the Department did not have any way to 
identify this capability.
    The Defense Language Institute Foreign Language Center (DLIFLC) 
currently enrolls 4,000 students a year in 24 language programs. 
DLIFLC's budget climbed from $77 million in fiscal year 2001 to $203 
million in fiscal year 2007. One of the major DLIFLC programs, launched 
in fiscal year 2006, is the Proficiency Enhancement Program (PEP). PEP 
changed the basic foreign language course by reducing the student to 
instructor ratio, increasing the number of classrooms, creating 
improved and expanded curricula, and expanding overseas immersion 
opportunities. PEP is designed to graduate students at increased 
proficiency levels.
    Since 2001, the DLIFLC dispatched 300 Mobile Training Teams to 
provide targeted training to more than 32,000 personnel. Deployed and 
deploying units received over 200,000 Language Survival Kits (mostly 
Iraqi, Dari, and Pashto). Field support modules outlining the geo-
political situation, cultural facts, and fundamental language skills, 
key phrases and commands are available for 21 countries on the DLIFLC 
Web site. There are 127 online basic and specialized language survival 
courses. Computer-based sustainment training is available as well via 
the Global Language Online Support System (gloss.lingnet.org) which 
supports 12 languages and 6 more language sustainment courses are 
available on the DLIFLC LingNet Web site (www.lingnet.org).
Quadrennial Defense Review
    The QDR provides approximately $430 million through the Future 
Years Defense Program for initiatives to strengthen and expand our 
Defense Language Program. These initiatives include technology, 
training and education, and recruitment. The QDR targets officer 
candidates for foreign language training, with regional and cultural 
training to be embedded in follow-on professional military education. 
It funds the enhancement of the three Service Academies' language 
training of cadets and midshipmen in the strategic languages; grants to 
colleges and universities with Reserve Officers' Training Corps (ROTC) 
programs to incentivize teaching of languages of strategic interest to 
the Department; increased grants to expand the National Security 
Education Program, which provides civilians scholarships and 
fellowships to undergraduate and graduate students in critical 
languages to national security; and expansion and continuation of the 
Army's successful 09L Interpreter/Translator recruiting program. The 
QDR also directed funding for the development of a pilot Civilian 
Linguist Reserve Corps, now renamed The Language Corps; increased 
foreign language proficiency pay based on language in the NDAAs for 
Fiscal Year 2005 and Fiscal Year 2006; enhanced technology at the 
DLIFLC; and centralized accession screening to identify personnel with 
language aptitude.
Pre-accession Language Programs
    Pre-accession language training will focus the Department's effort 
on building language skills in future officers prior to commissioning. 
The three Service Academies expanded study abroad, summer immersion and 
foreign academy exchange opportunities; and added instructor staff for 
strategic languages. The United States Military Academy and the United 
States Air Force Academy now require all cadets to complete two 
semesters of language study; the United States Naval Academy requires 
its nontechnical degree-seeking midshipmen to take four semesters of 
language study. The United States Military Academy and the United 
States Air Force Academy also established two new language majors of 
strategic interest in Arabic and Chinese. The United States Naval 
Academy, for the first time in history, will offer midshipmen the 
opportunity to major in a foreign language. In fiscal year 2007, 
Service Academies received $25.57 million to develop and implement 
their language programs, including curriculum development and hiring of 
staff and faculty to teach more strategic languages.
    The academies are aggressively pursuing increased opportunities for 
their cadets and midshipmen to study abroad and currently have programs 
available in 40 countries. Four-week summer language immersion programs 
are offered as well as semester exchanges with foreign military 
academies. This program has also expanded to semester abroad study 
programs at foreign universities. The NDAA for Fiscal Year 2007 allows 
the Academies to expand foreign academy exchanges from 24 exchanges to 
100 exchanges per academy per year, and this congressional support is 
greatly appreciated.
    ROTC cadets and midshipmen also have expanded opportunities to 
learn a foreign language. The Air Force and Navy often have ROTC 
students participating along with their academy counterparts during 
familiarization and orientation travel opportunities.
    Of the 1,321 colleges and universities with ROTC programs, 1,148 
offer languages. Significantly, many of the languages we need for 
current operations are not widely offered at this time. We are 
beginning a pilot program to provide grants to select colleges and 
universities with ROTC programs to incentivize them to offer foreign 
language courses in languages of strategic interest to the Department 
and the National security community. Increasing the number of less 
commonly taught languages in college curricula remains a challenge in 
which our Senior Language Authority is actively engaged.
Army Interpreter/Translator (09L)
    The Army's 09L Interpreter/Translator program is a true success 
story. The program started as a pilot but was so successful in 
generating over 500 Arabic and Afghani speaking United States soldiers 
that the Army made it permanent. In 2006, the Army formally established 
the 09L Interpreter/Translator as a military occupational specialty 
that will have a career path from recruit through sergeant major. More 
than 317 heritage speakers have successfully graduated and deployed; an 
additional 175 personnel are in the training pipeline. The Army 
continues to expand and develop the program in response to the positive 
feedback from the commanders in the field. The QDR provides $50 million 
over a 5-year period, from fiscal year 2007 to fiscal year 2011, to 
further expand this program.
Foreign Area Officers
    The Department has spent a great deal of effort in managing its 
regional expert cadre--the Foreign Area Officers. DOD Directive 
1315.17, Foreign Area Officer (FAO) Programs, updated in April 2005, 
established a common set of standards for FAOs. Most important, the new 
policies require all of the Services to establish FAO programs that 
both meet the unique demands of the Services and adhere to a common, 
joint set of standards to support joint operations. FAOs shall be 
commissioned officers with a broad range of military skills and 
experiences; have knowledge of political-military affairs; have 
familiarity with the political, cultural, sociological, economic, and 
geographical factors of the countries and regions in which they are 
stationed; and have professional proficiency in one or more of the 
dominant languages in their regions of expertise. In fiscal year 2007, 
over 150 new Foreign Area Officers are scheduled to be developed and in 
the next 5 years over 800 new FAOs will meet a common set of training 
guidelines, developmental experiences, and language and regional 
expertise standards.
Bonus Pay
    In order to encourage servicemembers to identify, improve, and 
sustain language capability we implemented a new Foreign Language 
Proficiency Bonus (FLPB) policy, and, with the support of Congress, 
increased the proficiency bonus from $300 maximum per month, up to 
$1,000 maximum per month for uniformed members. We are currently 
completing the DOD Foreign Language Proficiency Bonus policy to align 
payment for Reserve and Active components by increasing Reserve 
proficiency pay ceiling from $6,000 to $12,000, consistent with section 
639 of the NDAA for Fiscal Year 2006. The maximum FLPB rate increased 
from $150 to $500 per pay period for eligible DOD civilian employees 
performing intelligence duties. DOD policy allows payments of up to 5 
percent of a civilian employee's salary for those civilians who are 
assigned to nonintelligence duties requiring proficiency and who are 
certified as proficient in languages identified as necessary to meet 
national security interests.
National Security Language Initiative
    At the national level, we were proud to be part of the team for the 
President's announcement of the National Security Language Initiative 
(NSLI). The NSLI has three broad goals: expand the number of Americans 
mastering critical languages at a younger age, increase the number of 
advance-level speakers of foreign languages, and increase the number of 
foreign language teachers and their resources. The DOD will support 
NSLI through our National Security Education Program by adding 
fellowships to increase the number of graduates with proficiency in 
Arabic, Chinese, Persian, Hindi and central Asian languages. The 
National Flagship Language Initiative (NFLI) serves as an example of 
how NSLI links Federal programs and resources across agencies to 
enhance the scope of the Federal Government's efforts in foreign 
language education. For example, the NFLI is leading the way in 
developing model kindergarten-through-college (K-16) program that 
creates a language pipeline for students to achieve higher levels of 
language proficiency in our education system. We launched a Chinese K-
16 pipeline with the University of Oregon/Portland Public Schools in 
September, 2005. We have also awarded a grant to Ohio State University 
to implement a State-wide system of Chinese K-16 programs. Finally, we 
awarded a grant to Michigan State University to develop an Arabic K-16 
pipeline project with the Dearborn, Michigan, school district.
    We are also implementing The Language Corps, which will organize a 
cadre of individuals with high levels of language proficiency in less 
commonly taught languages, who agree to be available when needed by the 
Nation. A 3-year pilot has been initiated with a major marketing and 
recruitment plan as we seek to meet our goal of 1,000 Language Corps 
members.

                   THE DEFENSE HUMAN CAPITAL STRATEGY

    Pursuant to the recommendations in QDR 2006, the USD(P&R) appointed 
a Program Executive Officer for the Human Capital Strategy (PEO/DHCS) 
in June 2006. The PEO/DHCS is responsible for developing strategies for 
how to manage the entire workforce (Active and Reserve military, 
civilian, and contractor) of the DOD for the long term. This governing 
structure begins with an Overarching Integrated Product Team (OIPT), 
works through the Defense Human Resources Board (DHRB), and reports to 
the Deputy's Advisory Working Group (DAWG). The USD(P&R) chairs the 
OIPT; membership includes others from within P&R, Military Department 
Assistant Secretaries for Manpower and Reserve Affairs, as well as the 
J-1 from the Joint Staff.
    The most essential element of all human capital strategies is 
inventory management. Effective inventory management requires several 
critical steps:

        <bullet> Determination of the desired age/skill/experience mix 
        (career structure) that is most conducive to performing the 
        organization's tasks now and in the future;
        <bullet> Appropriate Force Generation to attract the right 
        personnel to execute the organization's strategies;
        <bullet> Executing Force Development with a functioning 
        education strategy that combines education, formal training, 
        and on-the-job learning, with the right instructors, trainers, 
        and mentors;
        <bullet> Effective Force Management with fair and workable 
        sorting tools that allow for the identification and proactive 
        management of the three most important components of the 
        workforce: the main body of future workers who will carry most 
        of the responsibility for producing the essential services of 
        the organization; that group of lower performers who will not 
        meet the organization's standards but which must be selected 
        out at the earliest possible point in their careers; and that 
        essential minority which shows potential for senior leadership 
        and which must be selected and groomed through special career 
        management and training;
        <bullet> Career paths and promotion systems that are fair and 
        balanced while also allowing the critical sorting functions to 
        be properly incentivized and performed on a timely basis;
        <bullet> A compensation and benefit structure that allows the 
        organization to attract and retain a critical mass of 
        productive personnel in a cost-effective manner, which means 
        being responsive to the demands and desires of the workforce;
        <bullet> A retirement package that aligns incentives for 
        individuals with outcomes that are most cost-efficient and 
        strategically effective for the organization while being 
        compatible with the known preferences of the workforce;
        <bullet> The ability to shape the workforce rapidly and 
        flexibly when demands for the organization's services are 
        variable, either due to short term exigencies or longer term 
        structural changes in demand, organizational strategies, 
        technologies, workforce's preferences, or competitive pressures 
        in the labor market.

    DOD's workforce is quite complex, consisting of several 
complementary and sometimes overlapping elements. Active duty military 
must work with Reserve component military, and with civilians and 
contractors.
    On the active duty side, experience has shown that the tools we 
have to shape the force through recruiting, training, assignments, 
promotions, compensation, benefits, and retirement are all adequate in 
a steady-state, peace-time setting. However, it is a management system 
with limited flexibility, built on notions of perceived fairness and 
equity, that is not readily adaptable to the realities of military 
inventory requirements: the system is very cumbersome when we must grow 
or decrease total authorizations in any significant numbers, and the 
force needs to be made more robust and cost effective in meeting short-
term contingency demands that are likely to continue during the present 
long war. For the future, changing and variable demands will continue, 
and technological changes, along with severe pressure from an ever more 
competitive labor market, will require imaginative rethinking and 
restructuring of many military occupations.
    This future will demand careers of different lengths, different 
career patterns, different grade structures, different training 
strategies--and therefore considerably more flexibility across Services 
and occupations in how to apply and use force shaping tools to 
construct effective and cost-efficient Active duty forces that attract 
and retain the best qualified personnel. Similar changes will be 
required on the Reserve side.
    For DOD civilians, the NSPS allows managers to take constructive 
steps to match the workforce to the demands of the workplace. Equally 
important, we must develop methods for selecting and grooming young 
civilians for future senior leadership positions. DOD needs to design 
attractive career paths that allow personnel to plan their futures 
better, and not just think of a career as a succession of different 
jobs that happen to become available at random intervals--as is 
presently the case for many civilian workers.

                         THE DOD CIVILIAN FORCE

Human Capital Planning
    DOD civilian employees have supported the global war on terror here 
and on the front-line of battle and helped build democracies in 
Afghanistan and Iraq. They are a critical component as DOD works with 
the Department of State to place expanded Provincial Reconstruction 
Teams in Iraq. Just as agile military forces are needed to meet a 
mission characterized by irregular, catastrophic and disruptive 
challenges, the Department needs agile and decisive support from our 
DOD civilians. It is only through the integration of DOD civilian 
employees that we can realize the potential of a Total Force. At the 
same time, it is important to ensure that benefits remain balanced and 
commensurate with the commitments we are requesting our DOD civilians 
to make.
    The Department civilian strategic human capital planning focuses 
human capital investments on long-term issues. Guiding principles are 
continually reviewed and refreshed in the Department's Human Capital 
Strategic Plan (HCSP). Our 2006-2011 HCSP recognizes the need to 
refocus civilian force capabilities for the future--a civilian 
workforce with the attributes and capabilities to perform in an 
environment of uncertainty and surprise, execute with a wartime sense 
of urgency, create tailored solutions to multiple complex challenges, 
build partnerships, shape choices, and plan rapidly.
    Our HCSP is based upon the 2006 QDR. As noted earlier, the QDR 
calls for an updated, integrated human capital strategy for the 
development of talent that is more consistent with 21st century 
demands. As a human capital strategy, it aims to ensure DOD has the 
right people, doing the right jobs, at the right time and place, and at 
the best value. The HCSP is delineated by a DOD-wide set of human 
resources goals and objectives that focus on leadership and knowledge 
management, workforce capabilities, and a mission-focused, results-
oriented, high-performing, diverse workforce. These goals and 
objectives incorporate a competency-based occupational system, a 
performance-based management system, and enhanced opportunities for 
personal and professional growth.
    The NSPS provides the mechanism for implementation. This modern, 
flexible human resources management system improves the way DOD hires, 
compensates, and rewards its civilian employees, while preserving 
employee protections and benefits, veterans' preference, as well as the 
enduring core values of the civil service. NSPS provides a performance 
management system that aligns performance objectives with DOD's mission 
and strategic goals.
    In April 2006, the Department began implementing the human 
resources provisions of NSPS and converted approximately 11,000 non-
bargaining unit employees to the new system, followed by 66,000 in 
October 2006 through February 2007. This spring, an additional 35,500 
will transition to NSPS, for a total of approximately 113,000 employees 
functioning in this results-oriented, performance-based system. The 
Department placed great emphasis on communication and training--both 
were critical to our transition plan. We wanted to ensure employees and 
supervisors were fully informed and ready. As of February 2007, more 
than a half million instances of training have occurred on the 
functional elements of NSPS, performance management, as well as 
behavioral skills necessary for an effective transition.
    The initial 11,000 employees recently completed the first appraisal 
cycle under the performance management system. As a result of feedback 
we received from our workforce throughout the first cycle, we are 
already making some adjustments. For instance, both supervisors and 
employees expressed the need for additional training on writing job 
objectives and self assessments. As a result, we expanded our training 
in both of these areas to facilitate these important aspects of the 
performance management system. To complement the immediate feedback we 
received, we are developing a comprehensive plan for assessment and 
longer term evaluation of the system.
    While a lawsuit filed by some unions resulted in the labor 
relations, adverse actions, and appeals provisions being enjoined, the 
Department moved forward with implementing those elements of the human 
resources management system that were not enjoined (classification, 
compensation, performance management, staffing, and workforce shaping 
provisions). The Department elected to implement these provisions to 
nonbargaining unit employees until the litigation concerning the other 
parts of NSPS is resolved. We expect a decision on the appeal in early 
2007.
    We will continue to use a spiral approach to incrementally phase-in 
the rest of the eligible DOD workforce over the subsequent 2 to 3 
years, upgrading and improving NSPS as we go forward. We are currently 
in the early stages of designing NSPS for our blue collar workforce and 
met with our unions to seek their input into the design. We will 
continue to collaborate with the unions as we move forward with NSPS 
design and implementation.
Acquiring, Developing, and Retaining Civilians
    The Department's civilian workforce supports DOD's national 
security and military missions. Technological advances, contract 
oversight, and complex missions have generated the need for more 
employees with advanced education and more sophisticated technical 
skills. Additionally, there must be a very active campaign to recruit, 
train, and develop a diverse workforce. We take seriously the 
responsibility to foster and promote an environment that is attractive 
to individuals from all segments of society.
    In 2005, the Department launched the Hiring Heroes campaign to 
reach out to the injured and disabled men and women who fought and 
served on behalf of our Nation. The Department offers over 700 diverse, 
challenging, and rewarding occupations for those veterans who want to 
continue to serve their country as DOD civilian employees. The 
Department is committed to providing disabled veterans who want to 
serve our country as a DOD or Federal civil servants the opportunity to 
do so. The Hiring Heroes campaign demonstrates this commitment. The 
Department has hosted eight Hiring Heroes career fairs at various major 
medical facilities, including Walter Reed and Brooke Army Medicals 
Centers, with over 1,600 servicemembers and their spouses in 
attendance. Six additional events are planned for 2007. We also 
maintain the Defense Web site specifically designed for our disabled 
veterans--www.DODVETS.com. This web portal serves as a resource of 
employment information for veterans, their spouses, and managers. 
Through our efforts, many servicemembers have been offered positions at 
various DOD and Federal agencies, but more important, they have been 
exposed to a network of both DOD and Federal recruiters dedicated to 
helping them transition back to productive employment where and when 
they are ready. We continue work with other Federal agencies, including 
the Department of Veterans Affairs (VA) and the DOL, to provide job 
training, counseling, and reemployment services to seriously injured or 
wounded veterans.
    We have dedicated an office within the Department to help us 
transform the way we attract and hire talented civilian employees. 
Under its lead, we have developed a comprehensive outreach program with 
colleges, universities and professional and heritage associations; 
reenergized our branding and marketing materials; and revamped our Web 
site to align with the interests of those whom we are trying to 
attract. Our nationwide recruitment campaign takes us to college and 
university campuses where we personally invite talented individuals to 
serve the Department. Since the fourth quarter of fiscal year 2006 
through the end of February 2007, our DOD recruiters made 31 
recruitment visits. An additional 26 visits are planned through fiscal 
year 2007, budget permitting. In one of these visits alone, the 
Department made 60 job offers to engineering students, primarily of 
Hispanic origin. Efforts such as these will help ensure the Department 
has the diverse, talented workforce it needs to meet the challenges of 
the 21st century.
    The Department launched another innovative program in fiscal year 
2007, known as the DOD Student Training Academic Recruitment program. 
Under this program, DOD hired two honors level students, located at the 
University of Puerto Rico Mayaguez and at Michigan Tech University. The 
students are responsible for developing and executing a marketing plan, 
through which students with DOD mission critical skills are made aware 
of and are encouraged to consider employment with the Department. We 
continue to leverage technology including, importantly, the Internet, 
to educate and interest talent from a variety of sources. We have 
recently updated our Web site with vignettes of current Department 
employees, who discuss their work and the satisfaction they realize 
from it, as well as the benefits of working for the Department. We 
believe these testimonials will further our efforts to have the 
Department viewed as an ``Employer of Choice''.
    Under the Office of Personnel Management's new ``Career Patterns'' 
initiative, the Department has begun a comprehensive analysis of our 
workforce to identify the recruitment strategies that will enable the 
Department to recruit and retain the talent we need for the 21st 
century. Focusing first on our mission critical occupations, we are 
analyzing the occupational demographics and are developing recruitment, 
compensation and work life initiatives, which address the many 
dimensions of our applicant candidate pool. In direct support of this 
initiative, the Department has established policies on proficiency pay 
for positions requiring language, on new approaches to telework, and on 
new appointing authorities for scientists and mathematicians.
    As the Chair of the Federal Chief Human Capital Officer's 
Subcommittee for Hiring and Succession Planning, the USD(P&R) 
personally works with a number of other Federal agencies and the Office 
of Personnel Management to streamline and improve the Federal hiring 
process. The subcommittee has made a number of recommendations, the 
benefits of which we hope to see over the next several years.
    Workforce planning takes on a special importance with the expected 
exodus of Federal employees over the next decade. Significant to this 
equation are DOD career Senior Executive Service (SES) members, 67 
percent of whom are eligible to retire in 2008. Recently, P&R hosted a 
DOD Diversity Summit for key public and private sector personnel to 
discuss possible barriers to diversity in DOD executive development 
processes and to identify successful practices in other organizations 
that may have transferability to DOD. We also continue to conduct 
outreach programs in various parts of the country in an effort to 
inform students about our career opportunities and to encourage them to 
enter academic programs that will help prepare them for such careers.
    Our HCSP ensures the continuity of world class, civilian leaders 
who are fully capable of leading DOD's efforts within a larger national 
security context. To meet this goal, the Department launched an 
initiative aimed at the deliberate identification, development, 
management, and sustainment of senior executive leadership for the 
Department's 21st century requirements. This effort will expand the 
current, enduring executive leadership competencies to include 
knowledge of joint matters and building an enterprise-wide perspective 
acquired through a portfolio of diverse experiences. The definition of 
``joint matters'' expands beyond that prescribed in Goldwater-Nichols 
Act to recognize the realities of today's multinational and interagency 
operating environment. Further, cultural awareness and regional 
expertise are part of the required core competencies. In the conflicts 
and wars faced by the Department, cultural awareness, language and 
regional expertise become key skills needed by every leader.
    To build a qualified and talented pipeline to sustain leadership 
continuity, the HCSP provides for the identification and closing of 
leadership competency gaps and strengthening of the talent pipeline to 
ensure continuity of diverse and capable leaders. To ensure the 
deliberate development of our current and future leaders, we are 
instituting a new joint civilian leader development system that will 
have at its core a future-focused framework of competencies based on 
the Office of Personnel Management Executive Core Qualifications, but 
strengthened with the DOD-unique requirements that will enable the 
Department to accomplish its national security mission in today's 
complex environment and beyond.
    Our DOD joint civilian leader development framework is being 
designed to produce world-class leaders with an Enterprise-wide 
perspective for leadership positions across the continuum from entry to 
executive level. Building upon existing programs, the framework 
ultimately will include a series of DOD-sponsored courses, programs and 
other learning opportunities, designed to meet the specific competency 
requirements of the civilian Defense leader. These opportunities will 
serve as retention incentives for high performing DOD employees and 
will also support DOD initiatives to increase diversity in the senior 
ranks.
    The Defense Leadership and Management Program (DLAMP) will be a key 
building block of the new leader development framework. Through a 
comprehensive program of Professional Military Education, formal 
graduate education, and courses in national security strategy and 
leadership, DLAMP ensures that the next generation of civilian leaders 
has the critical skills to provide strong leadership in a joint 
interagency and multinational environment. In the last few years, DLAMP 
has produced a pool of 435 individuals who have met program goals, thus 
creating a pipeline of well-qualified senior leaders for tomorrow's 
challenges.
    All existing leader development programs, including DLAMP, are 
currently under review to ensure alignment with the new competency-
based framework and related initiatives that are under way strengthen 
the SES corps. Following implementation of program changes planned for 
fiscal year 2008, DLAMP will be renamed and its successor will become 
the senior-level program of the new joint leader development framework. 
We are confident that ensuring alignment of our programs with the DOD-
wide competency model and best practices in private and public sector 
leader development will further position us for strong civilian 
leadership in the decades ahead.
    The Department recently reviewed the foreign national (FN) human 
resources program, which covers over 70,000 workers in some 22 
countries to ensure alignment with the Department's 21st century 
requirements. The Department employs the FN workforce under various 
laws, treaties, and international agreements, host nation labor 
policies and labor union contracts. The current FN human resources 
policies have evolved over many decades. It has been over 20 years 
since there was a comprehensive review of the FN human resources 
program. To launch the review, the Department hosted a worldwide 
conference of U.S. and FN human resources personnel. They offered 
enlightened thinking and a set of recommendations to help refine the 
current FN human resources program. The Department is considering these 
recommendations.
    The Department also has been engaged in establishing Status of 
Forces Agreements (SOFAs) with new NATO partners, such as Romania, 
Poland, Bulgaria, and the Czech Republic. As part of these SOFAs, the 
Department has developed a new framework for FN employment which will 
ensure a ready, capable and agile FN workforce.
    The Department has established and fully implemented the Pipeline 
Reemployment Program. The program enables partially recovered employees 
with job related injuries and illnesses to return to work. The program 
supports the President's Safety, Health, and Return-to-Employment 
(SHARE) initiatives by assisting each Department installation in 
reducing lost days resulting from injuries. DOD organizations will have 
resources and funding to reemploy partially recovered injured employees 
for up to 1 year. Returning injured employees to suitable productive 
duty, as soon as they are able, improves that employee's sense of value 
to the organization while minimizing the cost of workers' compensation 
disability payments. To date, the Pipeline program has returned 400 
employees to productive positions, and saved the Department 
approximately $364 million in lifetime cost charges.
Civilian Force Shaping
    A number of initiatives influence the size and shape of the 
Department's civilian workforce. The most significant are upcoming BRAC 
actions, global repositioning of deployed military and civilians, 
competitive sourcing, and military-to-civilian conversions. The DOD is 
committed to providing comprehensive transition tools and programs to 
assist our valued employees and their families as these force shaping 
initiatives are implemented.
    Since the first BRAC round in 1988, the Department has reduced the 
civilian workforce by more than 400,000, with less than 10 percent of 
that number involuntarily separated. To mitigate the impact of these 
force shaping initiatives on our civilians, the Department has 
aggressively sought and obtained authority for several essential 
transition tools assuring that drawdowns or reorganizations are handled 
in the most efficient and humane manner possible, while ensuring we 
have the talent needed to effectively continue Department operations. 
Employees adversely affected by BRAC may be offered the opportunity to 
separate voluntarily under the Voluntary Early Retirement Authority or 
the Voluntary Separation Incentive Payment program, or both. 
Involuntarily separated employees are also eligible for a number of 
post-separation benefits and entitlements, including: temporary 
continuation of health insurance for 18 months, with the Department 
paying the employer portion of the premium; severance pay, with a lump-
sum payment option; and, unemployment compensation.
    The Department will continue to seek regulatory and legislative 
changes to assist employees affected by these actions in transitioning 
to other positions, careers, or to private employment. We are 
continuing to establish and foster employment partnerships with Federal 
agencies, State, county and local governments, trade and professional 
organizations, local Chambers of Commerce, and private industry. For 
example, DOD is partnering with the DOL to provide BRAC installations 
outplacement assistance under their Workforce Investment System (WIS). 
The WIS consists of over 3,000 State One-Stop Career Centers prepared 
to offer assistance such as retraining, career counseling, testing, and 
job placement assistance.
Emergency Planning
    We have taken great strides this past year to ensure we have plans 
in place to continue our operations and safeguard our employees in 
times of crisis. Significant planning has gone into Pandemic Influenza 
preparedness. We have developed a human resources practitioner guide 
for use by managers and human resource practitioners in planning for, 
and executing actions during emergencies, which include nuclear, 
chemical and biological attacks, natural disasters, as well as a 
resources practitioner guide for use during a pandemic crisis. We have 
supported this guide with exercise criteria to assess our plans and 
refine them as needed. We plan to have a series of exercises over the 
course of the next year to ensure we are prepared should an emergency 
occur, particularly a pandemic.
    As the Chair of the Federal CHCO Emergency Preparedness 
Subcommittee, the USD(P&R) is able to leverage the expertise and best 
practices of other Federal Agencies and influence the Office of 
Personnel Management to ensure new policies will meet the Department's 
needs.

                       THE MILITARY HEALTH SYSTEM

Sustaining the Military Health Benefit
    The Department is firmly committed to protecting the health of our 
servicemembers and to providing world-class healthcare to its more than 
9 million beneficiaries.
    The fiscal year 2008 Defense Health Program funding request is 
$20.7 billion for Operation and Maintenance, Procurement and Research, 
and Development, Test and Evaluation Appropriations to finance the 
Military Health System (MHS) mission. We project total military health 
expenditures, including personnel expenses, to be $40.5 billion for 
fiscal year 2008. This includes payment of $10.9 billion to the DOD 
Medicare Eligible Retiree Healthcare Fund.
    The Department is challenged by the growing costs of the MHS. We 
need important changes in our well-regarded health benefit program, 
TRICARE, to sustain a superior benefit for the long term. We need the 
help and support of Congress to achieve this goal. Our fiscal year 2008 
budget request assumes savings of $1.9 billion from reform proposals 
(as projected last year for fiscal year 2008); we await the interim 
report of the DOD Task Force on the Future of Military Healthcare as a 
basis for dialogue with Congress on how these should be shaped.
    As the civil and military leaders of the Department have testified, 
we must place the health benefit program on a sound fiscal foundation 
or face adverse consequences. Costs have more than doubled in 6 years--
from $19 billion in fiscal year 2001 to $39 billion in fiscal year 
2007--despite MHS management actions to make the system more efficient. 
Our analysts project this program will cost taxpayers at least $64 
billion by 2015. Healthcare costs will continue to consume a growing 
slice of the Department's budget, reaching 12 percent of the budget by 
2015 (versus 4.5 percent in 1990).
    Over the last 13 years, the TRICARE benefit was enhanced through 
reductions in co-pays, expansions in covered services (particularly for 
Medicare-eligible beneficiaries), new benefits for the Reserve 
component, and other additions, but the premiums paid by beneficiaries 
have not changed. The benefit enhancements have come at a time when 
private-sector employers are shifting substantially more costs to 
employees for their healthcare.
    The twin effect of greater benefits for DOD beneficiaries at no 
change in premiums, coupled with reduced benefits for military retirees 
employed in second careers in the private sector, has led to a 
significant increase in military retirees electing to drop their 
private health insurance and become entirely reliant on TRICARE for 
their health benefit. Some employers actively encourage this shift 
through incentives to their employees.
Management
    The Department has initiated several management actions to use 
resources more effectively and help control the increasing costs of 
health care delivery. The MHS continues to implement a prospective-
payment system in a phased, manageable way which provides incentive for 
local commanders to focus on outputs, rather than on historical 
budgeting. We are confident this budgeting approach will ensure our 
hospitals and clinics remain high-quality, highly efficient medical 
institutions in service to our patients.
    In addition, the MHS has recently composed a new strategic plan for 
the future. Through this plan, the MHS is strengthening its commitment 
to military medical forces, to our warfighters, and to our Nation's 
security. The MHS strategic plan takes important steps toward 
consolidating administrative and management functions across the MHS, 
and it will strengthen joint decisionmaking authorities.
    With implementation of the BRAC recommendations, the major medical 
centers in San Antonio and the national capital area will be 
consolidated. These BRAC actions provide us the opportunity to provide 
world-class medical facilities for the future while streamlining our 
health care system and creating a culture of best practices across the 
Services.
    Under the BRAC recommendations, we are also developing a medical 
education and training campus (METC) that will colocate medical basic 
and specialty enlisted training at Fort Sam Houston, Texas. By bringing 
most medical enlisted training programs to Fort Sam Houston, we will 
reduce the overall technical-training infrastructure while 
strengthening the consistency and quality of training across the 
Services.
    In the meantime, we are doing everything we can to control our cost 
growth. We are executing our new TRICARE regional contracts more 
efficiently, and we are demanding greater efficiency within our own 
medical facilities. However, one area--pharmacy--is particularly 
noteworthy. Nearly 6.7 million beneficiaries use our pharmacy benefit, 
and in fiscal year 2006, our total pharmacy cost was more than $6 
billion. If we did nothing to control our pharmacy cost growth, we 
project pharmacy costs alone would reach $15 billion by 2015.
    To address this issue we are taking every action for which we have 
authority: promoting our mandatory generic substitution policy; joint 
contracting with VA; launching a home-delivery promotion campaign; and 
making voluntary agreements with pharmaceutical manufacturers to lower 
costs.
    These efforts are working. But recent legislation passed by 
Congress and other regulations limit our ability to control costs in 
the fastest growing area of pharmacy--the retail sector. In the retail 
venue, our top 50 brand-name medications cost twice as much as the same 
drug dispensed through our military treatment facility or home-delivery 
venues.
    You can help us by allowing DOD to make appropriate changes in the 
structure of our pharmacy benefit. These changes will accelerate use of 
our new home-delivery program, enhance the use of generics, and give us 
greater leverage when negotiating with pharmaceutical manufacturers.
    Another area in which we need your assistance is restoring the 
flexibility to manage Defense Health Program resources across budget 
activity groups. Our new healthcare contracts use best-practice 
principles to improve beneficiary satisfaction, support our military 
treatment facilities, strengthen relationships with network providers, 
and control private-sector costs.
    Our civilian partners must manage their enrollee healthcare and may 
control their and the system's costs by referring more care to our 
military treatment facilities in the direct-care system. As noted 
earlier, we have implemented a prospective-payment system that creates 
the financial incentive for our military treatment facilities to 
increase productivity and reduce overall costs to the Department.
    Funds must flow freely between the military treatment facilities 
and the private sector, based on where care is actually delivered. 
Capping Defense Health Program private-sector-care funds inhibits the 
Department's ability to provide the TRICARE benefit in the most 
accessible, cost-effective setting.
    Armed Forces Health Longitudinal Technology Application (AHLTA)--
DOD's comprehensive, global electronic health record and clinical data 
repository--significantly enhances MHS efforts to build healthy 
communities. AHLTA constructs a life-long, computer-based patient 
record for each and every military health beneficiary, regardless of 
their location, and provides seamless visibility of health information 
across the entire continuum of medical care. This gives providers 
unprecedented access to critical health information whenever and 
wherever care is provided to our servicemembers and beneficiaries. In 
addition, AHLTA offers clinical reminders for preventive care and 
clinical-practice guidelines for those with chronic conditions.
    In November 2006, the MHS successfully completed worldwide 
deployment of AHLTA, which began in January 2004, at all 138 DOD 
military treatment facilities. Additional components to AHLTA are yet 
to be unveiled, including a new inpatient module. To enhance continuity 
of care and save the taxpayers money, DOD and the VA will collaborate 
and plan to develop a joint inpatient electronic health record system 
for Active duty military personnel and veterans. A requirements study 
is presently underway.
    We are working with industry experts to design and develop the 
government requirements for TRICARE's third generation of contracts (T-
3). The Managed Care Support Contracts are TRICARE's largest and most 
complex purchased-care contracts. Others include the TRICARE Pharmacy 
Program (TPharm), the TRICARE Dual Eligible Fiscal Intermediary 
Contract (TDEFIC), the active Duty Dental Contract, the National 
Quality Monitoring Contract, and the TRICARE Retiree Dental Contract.
    The Balanced Scorecard has guided the MHS through the strategic 
planning process over the last 5 years and helps the MHS manage 
strategy at all levels of the organization. Military treatment 
facilities remain at the core of the MHS, and the TRICARE structure 
promotes increased involvement of the military commanders in 
determining the optimum approach to healthcare delivery within each 
region. Military commanders' accountability and responsibility for 
patient care in their communities is centered on sound business 
planning and resourcing to meet their planned production.
    The three TRICARE Regional Directors are actively engaged in 
managing and monitoring regional health care with a dedicated staff of 
both military and civilian personnel. They are strengthening existing 
partnerships between the Active Duty components and the civilian 
provider community to help fulfill our mission responsibilities.
Force Health Protection
    Force Health Protection embraces a broad compilation of programs 
and systems designed to protect and preserve the health and fitness of 
our servicemembers--from their entrance into the military, throughout 
their military service to their separation or retirement, and follow-on 
care by the VA. Our integrated partnership for health between 
servicemembers, their leaders and healthcare providers ensures a fit 
and healthy force and that the continuum of world-class healthcare is 
available anytime, anywhere.
    In 2006, we recorded remarkable war-wounded survival rates, the 
lowest death-to-wounded ratio in the history of American military 
operations, and the lowest disease non-battle injury rate. Our military 
medical personnel have performed extraordinarily on the battlefield and 
in our medical facilities in the United States. Our investments in 
people, training, technology and equipment have paid major and historic 
dividends. We have established new standards in virtually every major 
category of wartime medicine:

        <bullet> Lowest Disease, Non-Battle Injury Rate. As a testament 
        to our medical readiness and preparedness, with our preventive-
        medicine approaches and our occupational-health capabilities, 
        we are successfully addressing the single largest contributor 
        to loss of forces--disease.
        <bullet> Lowest Death-to-Wounded Ratio. Our agility in reaching 
        wounded servicemembers, and capability in treating them, has 
        altered our perspective on what constitutes timeliness in life-
        saving care from the golden hour to the platinum 15 minutes. We 
        are saving servicemembers with grievous wounds that were likely 
        not survivable even 10 years ago.
        <bullet> Reduced time to evacuation and definitive tertiary 
        care. We now expedite the evacuation of servicemembers 
        following forward-deployed surgery to stateside definitive 
        care. We changed our evacuation paradigm to employ airborne 
        intensive-care units. Wounded servicemembers often arrive back 
        in the United States within 3-4 days of initial injury.

    Our successful efforts to prevent loss of life from battle injuries 
have consequences. Many of our wounded servicemembers have worked 
heroically to regain their skills to the greatest extent possible. Of 
particular note, among the approximately 612 individuals who have had 
major limb amputations, approximately 7 percent have returned to duty.
    Our most important preventive health measures in place for 
servicemembers today--immunization programs--offer protection from 
diseases endemic to certain areas of the world and from diseases that 
can be used as weapons. These vaccines are highly effective, and we 
base our programs on sound scientific information that independent 
experts have verified. Insect-repellant-impregnated uniforms and 
prophylactic medications also protect our servicemembers from endemic 
diseases during deployments.
    Since January 2003, environmental health professionals have 
analyzed more than 5,000 theater air, water, and soil samples to ensure 
that forces are not unduly exposed to harmful substances during 
deployments.
    We published a new DOD Instruction, ``Deployment Health,'' in 2006. 
Among its many measures to enhance force health protection is a 
requirement for the Services to track and record daily locations of DOD 
personnel as they move about in theater and report data weekly to the 
Defense Manpower Data Center. We can use the data collected to study 
long-term health effects of deployments and mitigate health effects in 
future conflicts.
    We continue to monitor the health affects of our servicemembers 
exposed to depleted uranium (DU) munitions. DOD policy requires urine 
uranium testing for those wounded by DU munitions. We also test those 
in, on, or near a vehicle hit by a DU round, as well as those 
conducting damage assessments or repairs in or around a vehicle hit by 
a DU round. Additionally, the policy directs testing for any 
servicemembers who requests it. Each servicemember returning from a 
deployment is asked about possible DU exposure. More than 2,215 
servicemember veterans of Operation Iraqi Freedom have been tested for 
DU exposures. Of this group, only nine had positive tests, and these 
were due to fragment exposures.
    Testing continues for veterans exposed to DU munitions from the 
1990-1991 Persian Gulf War. Of the 74 victims of that war in a VA 
medical follow-up study, only a quarter of them have retained DU 
fragments in their bodies. To date, none have developed any uranium-
related health problems. This DU follow-up program is in place today 
for all servicemembers with similar exposures.
    Among the many performance measures the MHS tracks is the medical 
readiness status of individual members, both Active and Reserve. The 
MHS tracks individual dental health, immunizations, required laboratory 
tests, deployment-limiting conditions, Service-specific health 
assessments, and availability of required individual medical equipment. 
We are committed to deploying healthy and fit servicemembers and to 
providing consistent, careful post-deployment health evaluations with 
appropriate, expeditious follow-up care when needed.
    Medical technology on the battlefield includes expanded 
implementation of the Theater Medical Information Program and Joint 
Medical Work Station in support of OIF. These capabilities provide a 
means for medical units to capture and disseminate electronically near-
real-time information to commanders. Information provided includes in 
theater medical data, environmental hazards, detected exposures, and 
such critical logistics data as blood supply, beds, and equipment 
availability.
    With the expanded use of the Web-based Joint Patient Tracking 
Application, our medical providers should have total visibility into 
the continuum of care across the battlefield, and from theater to 
sustaining base. New medical devices introduced to OIF provide field 
medics with blood-clotting capability; light, modular diagnostic 
equipment improves the mobility of our medical forces; and individual 
protective armor serves to prevent injuries and save lives.
    DOD has been performing health assessments on servicemembers prior 
to and just after deployment for several years now. These assessments 
serve as a screen to identify any potential health concerns that might 
warrant further medical evaluation. This includes screening the mental 
well-being of all soldiers, sailors, airmen, and marines in the Active 
Force, Reserves, and National Guard.
    Servicemembers receive pre-deployment health assessments to ensure 
they are fit to deploy and post-deployment health assessments to 
identify any health issues when they return. The DOD maintains 
deployment health records in the individual's permanent health record 
and centrally archives electronic copies of the health assessment for 
easy retrieval. We have an aggressive quality-assurance program to 
monitor the conduct of these assessments.
    Beginning in 2005, we added an additional health assessment, the 
post-deployment health reassessment, or PDHRA, which we conduct 3 to 6 
months after deployment. The PDHRA is designed to identify health and 
adjustment concerns that servicemembers may not notice or mention 
immediately upon the return from deployment. For the period of June 1, 
2005, to February 12, 2007, 244,933 servicemembers have completed a 
post-deployment health reassessment, with 27 percent of these 
individuals receiving at least one referral for additional evaluation.
    Mental health services are available for all servicemembers and 
their families before, during, and after deployment. servicemembers are 
trained to recognize sources of stress and the symptoms of depression, 
including thoughts of suicide, in themselves and others, that might 
occur because of deployment. Combat-stress control and mental 
healthcare are available in theater. In addition, before returning 
home, we brief servicemembers on how to manage their reintegration into 
their families, including managing expectations, the importance of 
communication, and the need to control alcohol use.
    During redeployment, we educate servicemembers and assess them for 
signs of mental health issues, including depression and Post-Traumatic 
Stress Disorder (PTSD), and physical health issues. During the post-
deployment reassessment, we include additional education and assessment 
for signs of mental and physical health issues. The Services began 
initial implementation of this program in June 2005, and we are working 
toward Department-wide implementation.
    After returning home, servicemembers may seek help for any mental 
health issues that may arise, including depression and PTSD, through 
the MHS for Active duty and retired servicemembers, or through the VA 
for non-retired veterans. TRICARE is also available for 6 months post-
return for Reserve and Guard members. To facilitate access for all 
servicemembers and family members, especially Reserve component 
personnel, the Military OneSource Program--a 24/7 referral and 
assistance service--is available by telephone and on the Internet. In 
addition, we provide face-to-face counseling in the local community for 
all servicemembers and family members. We provide this non-medical 
counseling at no charge to the member, and it is completely 
confidential.
    To supplement mental health screening and education resources, we 
added the Mental Health Self-Assessment Program in 2006. This program 
provides web-based, phone-based and in-person screening for common 
mental health conditions and customized referrals to appropriate local 
treatment resources. The program also includes parental screening 
instruments to assess depression and risk for self-injurious behavior 
in their children, along with suicide-prevention programs in DOD 
schools. Spanish versions of the screening tools are available, as 
well.
    Pandemic influenza represents a new threat to national security. 
With our global footprint and far-reaching capabilities, we are 
actively engaged in the Federal interagency effort to help prevent, 
detect and respond to the threat of avian influenza, domestically and 
internationally. The President's National Strategy for Pandemic 
Influenza includes the DOD as an integral component in our Nation's 
response to this threat. One example of this integrated response is 
DOD's medical watchboard Web site, established in 2006, to provide 
ready access to pandemic influenza information for DOD servicemembers, 
civilians, and their families; DOD leaders; and DOD healthcare planners 
and providers. The DOD Watchboard is linked to PandemicFlu.gov for one-
stop access to U.S. Government avian and pandemic influenza 
information.
Taking Proper Care of the Wounded
    The Department is committed to providing the assistance and support 
required to meet the challenges that confront our severely injured and 
wounded servicemembers, and their families.
    The Department is working on a number of measures to evaluate and 
treat servicemembers affected or possibly affected with traumatic brain 
injury (TBI). For example, in August 2006, we developed a clinical-
practice guideline for management of mild TBI in theater for the 
Services. We sent detailed guidance to Army and Marine Corps line 
medical personnel in the field to advise them on ways to deal with TBI. 
The clinical-practice guideline included a standard Military Acute 
Concussion Evaluation form to assess and document TBI for the medical 
record. We are also conducting research in the inpatient medical area. 
Furthermore, to enhance the Periodic Health Assessment, Post-Deployment 
Health Assessment and Post-Deployment Health Reassessment, we directed 
inclusion of questions on TBI to capture data that will contribute to a 
better understanding of TBI identification and treatment. In addition, 
these questions will help identify servicemembers possibly exposed to 
events that caused TBI that were not documented at the time of 
exposure.
    Each Service has programs to serve severely wounded from the war: 
the Army Wounded Warrior Program (AW2), the Navy SAFE HARBOR program, 
the Air Force Helping Airmen Recover Together (Palace HART) program, 
and the Marine4Life (M4L) Injured Support Program. DOD's Military 
Severely Injured Center augments the support provided by the Services. 
It reaches beyond the DOD to other agencies, to the nonprofit world and 
to corporate America. It serves as a fusion point for four Federal 
agencies--DOD, the VA, the Department of Homeland Security's 
Transportation Security Administration (TSA), and the DOL.
    The Military Severely Injured Center unites Federal agencies 
through a common mission: to assist the severely injured and their 
families. The VA Office of Seamless Transition has a full-time liaison 
assigned to the center to address VA benefits issues ranging from 
expediting claims, facilitating VA ratings, connecting servicemembers 
to local VA offices, and coordinating the transition between the 
Military and the VA systems. The DOL has assigned three liaisons from 
their REALifelines program which offers personalized employment 
assistance to injured servicemembers to find careers in the field and 
geographic area of their choice. REALifelines works closely with the 
VA's Vocational Rehabilitation program to ensure servicemembers have 
the skills, training, and education required to pursue their desired 
career field. The Department of Homeland Security's TSA has a 
transportation specialist assigned to the center to facilitate travel 
of severely injured members and their families through our Nation's 
airports. The Center's TSA liaison coordinates with local airport TSA 
officials to ensure that each member is assisted throughout the airport 
and given a facilitated (or private) security screening that takes into 
account the member's individual injuries.
    The Military Severely Injured Center has coordinated with over 40 
nonprofit organizations, all of which have a mission is to assist 
injured servicemembers and their families. These nonprofits offer 
assistance in a number of areas from financial to employment to 
transportation to goods and services. Many are national organizations, 
but some are local, serving service men and women in a specific region 
or at a specific military treatment facility. Some of the many 
organizations that are providing assistance are the Wounded Warrior 
Project, the Injured Marine Semper Fi Fund, the VFW, the American 
Legion, Disabled American Veterans, the Coalition to Salute America's 
Heroes, and, of course, the Service Relief Societies. There are 
hundreds of other nonprofits who offer assistance to military families 
in general that are part of the America Supports You network 
(www.americasupportsyou.mil).
    The Department continues to sponsor Operation Warfighter (OWF), a 
temporary assignment or internship program for servicemembers who are 
convalescing at military treatment facilities in the National Capital 
Region. This program is designed to provide recuperating servicemembers 
with meaningful activity outside of the hospital environment that 
assists in their wellness and offers a formal means of transition back 
to the military or civilian workforce. The program's goal is to match 
servicemembers with opportunities that consider their interests and 
utilize both their military and non-military skills, thereby creating 
productive assignments that are beneficial to the recuperation of the 
servicemember and their views of the future. Servicemembers must be 
medically cleared to participate in OWF, and work schedules need to be 
flexible and considerate of the candidate's medical appointments. Under 
no circumstance will any OWF assignment interfere with a 
servicemember's medical treatment or adversely affect the well-being 
and recuperation of OWF participants.
    In 2006, 140 participants were successfully placed in OWF. Through 
this program, these servicemembers were able to build their resumes, 
explore employment interests, develop job skills, and gain valuable 
Federal Government work experience to help prepare them for the future. 
The 80 Federal agencies and subcomponents acting as employers in the 
program were able to benefit from the considerable talent and 
dedication of these recuperating servicemembers. Approximately 20 
permanent job placements resulted from OWF assignments upon the 
servicemember's medical retirement and separation from military 
service.
    The American public's strong support for our troops shows 
especially in their willingness to help servicemembers who are severely 
injured in the war and their families, as they transition from the 
hospital environment and return to civilian life. Heroes to Hometowns' 
focus is on reintegration back home, with networks established at the 
national and State levels to better identify the extraordinary needs of 
returning families before they return home. They work with local 
communities to coordinate government and non-government resources 
necessary for long-term success.
    The Department has partnered with the National Guard Bureau and the 
American Legion, and most recently the National Association of State 
Directors of Veterans Affairs, to tap into their national, State, and 
local support systems to provide essential links to government, 
corporate, and nonprofit resources at all levels and to garner 
community support. Support has included help with paying the bills, 
adapting homes, finding jobs, arranging welcome home celebrations, help 
working through bureaucracy, holiday dinners, entertainment options, 
mentoring, and very importantly, hometown support.
    The ability of injured servicemembers to engage in recreational 
activities is a very important component of recovery. We continue to 
work with the United States Paralympics Committee and other 
organizations so that our severely injured have opportunities to 
participate in adaptive sports programs, whether those are skiing, 
running, hiking, horseback riding, rafting, or kayaking. We are also 
mindful of the need to ensure installation Morale Welfare and 
Recreation (MWR) fitness and sports programs can accommodate the 
recreational needs of our severely injured servicemembers. At 
congressional request, we are studying the current capabilities of MWR 
programs to provide access and accommodate eligible disabled personnel.
    Regarding the recent concerns about the Walter Reed Army Medical 
Center, the Army and the Department have taken swift action to improve 
existing conditions, enhance services provided at Walter Reed, and 
identify areas meriting further study and improvement. Army leadership 
initiated immediate steps to control security, improve access, and 
complete repairs at identified facilities and sought to hold 
accountable those personnel responsible to provide for the health and 
welfare of our Nation's heroes.
    On March 1, 2007, Secretary Gates commissioned an independent 
review group (IRG) to evaluate and make recommendations on this matter. 
The IRG will conduct its work and report its findings to the Secretary 
of Defense by April 13, 2007. The report will include:

        <bullet> An assessment of current procedures involved in the 
        rehabilitative care, administrative processes, and quality-of-
        life for injured and ill members, including an analysis of what 
        these servicemembers and their families consider essential for 
        a high-quality experience during recovery, rehabilitation, and 
        transition.
        <bullet> Alternatives and recommendations to correct 
        deficiencies and prevent them from occurring in the future.

    The Department will be relentless in its actions--engaged, action-
oriented, and focused on making measurable improvements. Goals will be 
clear and milestones will be established. We will regularly inform the 
public and the people we serve--the soldiers, the families, military 
leaders, Congress, the Secretary, and the President--on our progress.
    There are a number of disturbing elements to the conditions at 
Walter Reed, yet we are confident that each of these items is fixable 
with sustained leadership and oversight. The Department, with the 
assistance of the Secretary's independent review group, will come 
forward with revised approaches to addressing the more complex 
personnel and medical issues. The problems before us can be categorized 
and assessed as follows:
    Physical Facility Issues
    In the case of substandard housing, the Army has been able to 
quickly implement a corrective action plan. Some of those actions have 
already occurred with facility repair and improvements. Clearly, other 
facility improvements may require more comprehensive repairs that may 
take longer. We are confident the Army is taking steps to ensure that 
any needed improvements will be made.
    Process of Disability Determinations
    The critical first step in assessing this process will be to 
identify the desired outcome. Both servicemembers and the Department 
have expectations, including: full rehabilitation of the servicemember 
to the greatest degree medically possible; a fair and consistent 
adjudication of disability; and, a timely adjudication of disability 
requests--neither hurried nor slowed due to bureaucratic processes.
    The fundamental problems did not result from a lack of available 
resources. The main effort here must be focused on the processes being 
analyzed and assessed for their value and alternatives. The processes 
must be redrawn with the outcomes we have in mind, with as much 
simplicity and timeliness as possible. We are working hard to implement 
solutions to issues identified in the March 2006 Government 
Accountability Office Report 06-362. Most important, we have set forth 
a process for updating DOD directives/instructions that promulgate 
disability policies. We will publish a draft revised Disability 
Evaluation System overarching policy before the end of April.
    Process of Care Coordination
    Again, the quality of medical care delivered to our servicemembers 
is exceptional. Independent review supports this assertion. Yet, the 
process of coordinating delivery of services for members in long-term 
outpatient, residential rehabilitation needs attention. The Army will 
assess, and we will review, the proper ratio of case-managers-to-
wounded servicemembers. We will also assess the administrative and 
information systems in place to properly manage workload in support of 
the soldiers.
    The planned consolidation of health services and facilities in the 
National Capital Region will enable the Department to best address the 
changing nature of inpatient and outpatient healthcare requirements, 
specifically the unique health needs of our wounded servicemembers and 
the needs of our population in this community. The BRAC decision also 
preserves a precious national asset by sustaining a high-quality, 
world-class military treatment facility with a robust graduate medical 
education program in the Nation's Capital. The plan is to open this 
facility by 2011. In the interim, we will not deprive Walter Reed of 
resources to function as the premier medical center it is. In fact, in 
2005 we funded $10 million in capital improvements at Walter Reed's 
Amputee Center--recognizing the immediate needs of our warrior 
population. We are proud of that investment in capacity and technology. 
We simply will not allow the plans for a new medical center to 
interfere with the ongoing facility improvements needed in the current 
hospital.
    In the current spate of news reports on Walter Reed, the trust that 
we have earned through our many medical achievements has been damaged. 
Everyone's efforts will be focused on repairing and re-earning that 
trust. Our civilian and military leaders have remained steadfast in 
both their support of what we have accomplished, and their belief that 
these matters can be fixed. U.S. military medicine and our medical 
personnel are a national asset, representing a readiness capability 
that does not exist anywhere else, and--if allowed to dwindle--could 
not be easily reconstituted. We must preserve this asset.
DOD-DVA Sharing
    DOD works closely with the VA at many organizational levels to 
maintain and foster a collaborative Federal partnership. We have shared 
healthcare resources successfully with the VA for 20 years, but many 
opportunities for improvement remain. Early in this administration we 
formed the DOD-VA Joint Executive Council, which meets quarterly to 
coordinate health and benefit actions of the two cabinet departments.
    The recently updated VA/DOD Joint Strategic Plan supports the 
common goals from both the VA Strategic Plan and the MHS Strategic Plan 
and incorporates them into the goals and objectives of the councils and 
their associated work groups.
    Health care resource sharing incorporates everything from general 
and specialized patient care, to education and training, research and 
development, and healthcare administrative support. At the end of 
fiscal year 2006, DOD military treatment facilities and Reserve units 
were involved in sharing agreements with 157 VA medical centers.
    The NDAA for Fiscal Year 2003 required VA and DOD to undertake 
significant collaborative initiatives. Section 721 of that Act required 
that the departments establish, and fund on an annual basis, an account 
in the Treasury, referred to as the Joint Incentive Fund (JIF). The JIF 
is intended to eliminate budgetary constraints as a possible deterrent 
to sharing initiatives, by providing earmarked funding to cover the 
start-up costs associated with innovative and unique sharing 
agreements. The 2006 projects cover such diverse areas of medical care 
as mental health counseling, Web-based training for pharmacy 
technicians, cardio-thoracic surgery, neurosurgery and increased 
physical therapy services for both DOD and VA beneficiaries.
    Section 722 of the same act mandated the departments execute no 
fewer than three health care coordination demonstration projects over a 
5-year period. There are seven sites currently testing initiatives, 
such as the Bi-Directional Health Information Exchange, Laboratory Data 
Sharing Initiative and Joint Market workload data analysis. The 
demonstration projects will generate valuable lessons learned for 
future DOD and VA sharing initiatives across the country.
    The goal of seamless transition is to coordinate medical care and 
benefits during the transition from active duty to veteran status in 
order to ensure continuity of services and care. Seamless transition 
efforts have made it possible for servicemembers to enroll in VA health 
care programs and file for VA benefits prior to separation from Active 
duty status.
    DOD and the VA implemented the Army Liaison/VA PolyTrauma 
Rehabilitation Center Collaboration program--also called ``Boots on the 
Ground''--in March 2005. The intent of this program is to ensure that 
severely injured servicemembers who are transferred directly from a 
military treatment facility to one of the four VA PolyTrauma Centers, 
in Richmond, Tampa, Minneapolis, and Palo Alto, are met by a familiar 
face and a uniform. A staff officer or non-commissioned officer 
assigned to the Army Office of the Surgeon General is detailed to each 
of the four locations. The role of this Army liaison is primarily to 
provide support to the family through assistance and coordination with 
a broad array of issues, such as travel, housing, and military pay. The 
liaisons also play a critical role in the rehabilitation process, by 
promoting resiliency in servicemembers. Finally, it is important that 
these servicemembers and their families realize that we appreciate 
their service.
    The next program is the Joint Seamless Transition Program, 
established by VA in coordination with the military Services, to 
facilitate and coordinate the timely receipt of benefits for severely 
injured servicemembers while they are still on Active duty. There are 
12 VA social workers and counselors assigned at 10 military treatment 
facilities, including Walter Reed Army Medical Center and the National 
Naval Medical Center in Bethesda. They ensure the seamless transition 
of healthcare, which includes a comprehensive plan for treatment. 
Veterans Benefits Administration counselors visit all severely injured 
patients and inform them on the full range of VA services, including 
readjustment programs and educational and housing benefits. As of 
December 15, 2006, VA social worker liaisons had processed 6,714 new-
patient transfers to the Veterans Health Administration at the 
participating military hospitals.
    The DOD and VA information-technology communities have made 
considerable progress toward and will continue joint pursuit of 
information-management and technology initiatives that will 
significantly improve the secure sharing of appropriate health 
information.
    The Federal Health Information Exchange (FHIE) supports the monthly 
electronic transfer of health information from DOD to VA at the time of 
the servicemember's separation. The data contained in this transfer 
include: laboratory and radiology results, as well as discharge 
summaries, admission, disposition and transfer information, and 
patient-demographic information. Healthcare providers within the 
Veterans Health Administration and benefits counselors within the 
Veterans Benefits Administration access this information via the 
Computerized Patient Record System (CPRS) and Compensation and Pension 
Records Interchange (CAPRI), respectively. As of the end of fiscal year 
2006, DOD had transmitted health data on more than 3.6 million 
patients. DOD also uses FHIE to transmit data to the VA regarding VA 
patients who are receiving care within military treatment facilities. 
DOD has sent more than 1.8 million individual transmissions.
    FHIE is also being used as a platform from which DOD transmits pre- 
and post-deployment assessment information for separated servicemembers 
and demobilized reservists and guardsmen. The DOD has electronically 
transmitted more than 1.4 million assessments on more than 604,000 
individuals to the VA. DOD added data from the post-deployment health 
reassessment in fiscal year 2006.
    Building from the FHIE, which is a one-way flow of information, DOD 
and VA have developed and begun deployment of the Bi-Directional Health 
Information Exchange (BHIE). This exchange enables near-real-time 
sharing of allergy, outpatient prescription, and demographic data 
between DOD and VA for patients treated in both DOD and VA. BHIE is 
operational at all VA Medical Centers and at the 14 military treatment 
facilities with the highest incidence of returning OEF/OIF 
servicemembers and the highest number of visits for VA beneficiaries in 
DOD facilities.

          QUALITY OF LIFE FOR THE MILITARY AND THEIR FAMILIES

    This is the sixth year of sustained combat and the resiliency of 
servicemembers and their families is nothing less than remarkable. The 
Department makes family support a priority and has redesigned and 
boosted family support in a number of ways to recognize that families 
also serve and sacrifice.
Communication with loved ones
    Military spouses indicate that being able to communicate with their 
servicemember is the number one factor in being able to cope with 
deployments. Back home, computers and Internet service at base 
libraries, family support centers, and youth centers ensure families 
can send and receive e-mails from their loved ones who are deployed. 
Phone banks with Internet hook ups are readily available in base camps. 
Free morale calls are also regularly available in theater. Morale 
programs include 145 free MWR-operated Internet cafes in Iraq and 30 
Internet cafes in Afghanistan. Mobile Internet cafes offer Internet 
Protocol phone service at less than $.04 per minute. The cost of phone 
calls is now much reduced through work with telecom companies, and our 
exchanges provide unofficial telephone service at low international per 
minute rates for deployed members on land and sea.
Communication strategy
    The cornerstone of our communication strategy is Military OneSource 
(www.militaryonesource.com or 1-800-342-9647), which has quickly become 
the trusted source of information and assistance for servicemembers and 
their families. Military OneSource is a 24-hour information and 
referral service. It provides information and assistance on a wide 
range of issues, including parenting, child care, educational services, 
financial information and counseling. Individualized assistance is 
available by telephone, e-mail, or the Internet. Department survey 
results indicate that one in five servicemembers used Military 
OneSource in the previous 12 months. The current call volume is almost 
1,000 calls per day. In fiscal year 2006, there was an average of 
125,000 online visits per month. The 2006 Army Family Action Plan 
Conference designated Military OneSource as the number one program in 
support of mobilization, deployment and family readiness.
    The second part of our communication strategy is Military 
Homefront, (www.MilitaryHOMEFRONT.dod.mil). Our award-winning, ``best 
in government'' quality-of-life web portal is a user-friendly site that 
connects all DOD quality-of-life information on-line. The site reaches 
out to our men and women in the military, to their families and to 
service providers. In fiscal year 2006, there were over 25 million hits 
and 1.5 million visitors.
    Two new applications, Military Installations and Plan-My-Move, add 
a new dimension to the Homefront. For the first time, servicemembers 
can access the online Plan-My-Move; it provides tools for budget 
planning, household goods inventories and much more. Military 
Installations provides directions to programs, services, and facilities 
for military bases, National Guard offices and VA facilities worldwide.
Counseling
    Family assistance and military member counseling is in increased 
demand--more than doubling over the last year. This short term, 
situational and problem-solving nonmedical support is designed to help 
servicemembers and their families cope with the normal reactions to 
stressful situations. All military Services, including the National 
Guard and Reserve component, are actively using this resource; it is 
intended to augment existing military support services during the 
cycles of deployment and reintegration. Up to six sessions of 
counseling per situation can be requested by individuals and families. 
The counseling, provided by licensed and credentialed professionals, is 
confidential and optimally available within a 30 minute drive time of 
the individual requesting services. Counselors are trained to assist 
families with life management issues such as reunion expectations, 
loneliness, stress, long separations, differences after a year apart, 
effects of deployment on children, loss and grief, and how best to 
reintegrate into family life. Financial counseling is also available to 
help with today's complex financial decisions and the added 
complication of family separations.
Child Care
    Military parents rely on child care and youth programs during 
deployments to help them manage their rigorous work schedules. Since 
the beginning of OEF/OIF, the Department funded $228 million in 
additional child care, with an end result of creating approximately 
7,000 child care spaces in 37 child care centers and 42 additions/
renovations at high personnel tempo locations. Further, an additional 4 
million hours of care were provided as a result of the increase in 
funding. In fiscal year 2006, the Department moved forward with the 
emergency intervention strategy to address the most pressing child care 
needs at locations impacted by high deployments and rebasing. To 
continue the effort, the Department dedicated $82 million toward the 
purchase of modular facilities, renovations, and expansion of current 
facilities.
    DOD supports the child care needs of Reserve component families 
through several initiatives: Operation: Military Child Care is a DOD 
partnership with a national non-profit organization that helps 
families/child guardians locate child care at reduced rates in their 
own communities when they are unable to access child care on military 
installations; Operation Military Kids is the Army's collaborative 
effort with community agencies to support the `suddenly military' 
Reserve component children and youth before, during, and after the 
deployment of a parent or loved one. In fiscal year 2006, more than 
29,000 youths in 34 states participated in Operation Military Kids 
activities; in 2007, a new Coaching for Young Families initiative will 
provide 20 full-time positions offering counseling support to families 
with young children in high deployment areas. Twelve of the 20 
consultants will work at National Guard and Reserve component 
locations.
Casualty Assistance
    Each Service has its own customs, but all see assistance to 
families of the fallen as a top priority. The Army, Navy, and Marine 
Corps assign a uniformed member to assist the family, while the Air 
Force provides assistance through a full time civilian Casualty 
Assistance Representative. The Services have developed programs to 
provide personal assistance as long as the families desire contact and 
stand ready to respond whenever a concern arises.
    In March 2006, the Department published ``A Survivor's Guide to 
Benefits, Taking Care of Our Own.'' The guide details the Federal 
benefits available to families of servicemembers who die on active 
duty, to include coordinated benefit information from the DOD, VA, and 
SSA. This guide, that was updated last June and November, is on the 
Military Homefront Web site, where it is always available in its most 
current version.
    For Service casualty staff and military widows, the Department 
created ``The Days Ahead, Essential Papers for Families of Fallen 
servicemembers,'' a tool designed to assist families in organizing the 
avalanche of paper work that is necessary as a family applies for and 
receives Federal benefits as a result of an active duty death.
Transportation of Fallen Loved Ones
    With the enactment of section 562 of the NDAA for Fiscal Year 2007, 
effective 1 January 2007, dedicated military or military-contracted 
aircraft is the primary mode of air transportation of remains that are 
returned to the United States from a combat theater of operations 
through the mortuary facility at Dover Air Force Base (AFB). Commercial 
air may only be authorized at the request of the person designated to 
direct disposition. The Department has recently expanded this provision 
to include transportation for all personnel who die of their wounds or 
injuries sustained in a combat theater of operations regardless of 
whether the remains are processed through Dover AFB.
    A member of the Armed Forces, in an appropriate grade, escorts the 
fallen servicemember's remains continuously until arrival at the 
applicable destination. At the arrival airfield, an honor guard detail 
is available to render appropriate honors and participate in the off-
loading of the flag-draped casket from the aircraft to awaiting ground 
transportation for onward movement to the funeral home or cemetery.
    Since families still sometimes choose the use of commercial air, 
the Department continues to work with the commercial airline industry 
to ensure that all actions are taken to ensure our fallen are handled 
with the highest level of respect. The airline industry responded to 
this request for support with a multitude of courtesies.
Expedited Citizenship
    Gaining citizenship for a non-U.S. citizen servicemember is not 
only a satisfying, and often a life-long goal for that individual, it 
also provides a stepping stone for members of the family to become 
citizens. The Department works closely with the Department of Homeland 
Security's Citizenship and Immigration Service (CIS) to expedite 
citizenship applications for non-U.S. citizens who serve honorably in 
our Armed Forces. CIS established an office in 2002, dedicated to work 
all military citizenship applications. Since this office was 
established, 35,818 servicemembers have obtained citizenship and the 
average processing time has been reduced from 9 months to less than 60 
days. At DOD's request, CIS recently entered into an agreement with the 
FBI to permit the use of military member fingerprints provided at the 
time of enlistment for processing military member citizenship 
applications. The Department also continues to work closely with the 
CIS to conduct naturalization interviews and swearing-in ceremonies 
overseas and onboard ships. Over 3,194 military members have been 
naturalized at overseas ceremonies conducted since October 1, 2004.
National Guard and Reserve Family Support
    This past year has seen a maturing of existing programs, new 
initiatives, and integrated support systems to respond to the special 
needs of families, especially National Guard and Reserve families 
located significant distances from military installations. Per 
direction in the NDAA for Fiscal Year 2007, the Department is designing 
a regional joint family support model. Two critical components of the 
model involve building coalitions and connecting Federal, State, and 
local resources and nonprofit organizations to support Guard and 
Reserve families. Best practices and lessons learned from 22 Inter-
Service Family Assistance Committees and the Joint Service Family 
Support Network will guide the planning process. Minnesota's, ``Beyond 
the Yellow Ribbon'' reintegration program will serve as a model with a 
funded Community Reintegration Coordinator position. Hawaii and Oregon 
have volunteered to be models. These are States where we can build on a 
successful infrastructure to deliver a wide range of family assistance 
to expand our reach to the Guard and Reserve.
Financial Readiness
    The Department considers the personal financial stability of 
servicemembers and their families a significant factor in military 
preparedness. Financial readiness remains a top priority for the DOD 
and we aggressively promote a culture within the military that values 
financial competency and responsible financial behavior. The 
Department's Financial Readiness Campaign encourages servicemembers to 
achieve good credit, save on a regular basis, obtain good interest 
rates on loans, and take advantage of the opportunity to participate in 
the Thrift Savings Plan (TSP) and the Servicemembers' and Veterans' 
Group Life Insurance (SGLI).
    The Financial Readiness Campaign includes partnerships with other 
Federal, corporate, and non-governmental organizations to help military 
members and their families manage their finances. While trends in the 
past couple of years show more servicemembers are able to save and 
fewer are having financial problems, a third of E1s-E4s still indicate 
that they have financial problems. It is important that we continue 
efforts to provide access to cost-effective financial readiness tools 
and products, and protect members from predatory lenders.
    Education is our first line of defense. In 2006, the Services 
provided more than 11,800 financial management classes at their 
installations around the world and trained more than 324,000 
servicemembers (approximately 24 percent of the force), as well as 
19,400 family members. Our campaign partner organizations, such as 
those represented by our on-installation banks and credit unions, 
conducted an additional 1,300 classes, serving a total of 60,600 
servicemembers and their families.
    Our 23 financial readiness partners are invaluable in providing 
both education and counseling to our servicemembers and families and in 
offering affordable, easily accessible financial products. The 
Financial Literacy and Education Commission provides educational and 
training materials through the Web site www.mymoney.gov. The Commission 
also supports a toll-free number and consolidates education and 
training materials available through the Federal agencies that have 
been widely advertised and linked to DOD and military service Web 
sites. The InCharge Institute provides access to credit counseling/debt 
management, and publishes a quarterly magazine Military Money in 
partnership with the National Military Family Association. The National 
Association of Securities Dealers Foundation funds a multi-year 
awareness and education program to supplement programs provided by the 
military Services, including a scholarship program for military 
spouses, through partnership with the National Military Families 
Association, to accredit them as `financial counselors' in return for 
volunteer hours in military communities. Our military relief societies 
continue to provide outstanding educational materials and counseling, 
as well as financial assistance when our servicemembers are in need.
    As we push our campaign into 2007, the Department provides free 
Federal and State online tax preparation and filing through Military 
OneSource for all members regardless of component or activation status. 
This service includes free telephonic access to trained financial 
professionals who can answer many tax questions. The Department 
encourages servicemembers to add any refunds to a savings account. The 
Department sponsored ``Military Saves'' Week in February, in 
conjunction with the Consumer Federation of America's nationwide 
``America Saves'' campaign. This was an intense week of training and 
encouragement to start reducing debt and save for the future. Members 
can set a savings goal by registering on www.militarysaves.org.
Predatory Lending
    The Department delivered a report to Congress last August about the 
impact of predatory lending practices on members of the Armed Forces 
and their families. The report showed the Department is fully engaged 
in educating servicemembers and their families, and that the banks and 
credit unions on military installations, along with the Military Aid 
Societies, are providing alternative loans. However, we also found that 
we did not have adequate methods for controlling the prevalence or the 
impact of high cost short-term loans.
    The NDAA for Fiscal Year 2007 gives the Department an opportunity 
to preclude many of the predatory lending practices from impacting 
servicemembers and their families. The NDAA sent a clear message that 
servicemembers should consider alternative loans and counseling to 
resolve their credit problems instead of perpetuating them through 
sources of high cost credit.
    DOD staff has met with members of Federal regulatory agencies and 
has defined a game plan to establish a regulation that can focus the 
provisions of the statute on the issues associated with predatory 
lending, without impacting the access of servicemembers and their 
families to beneficial forms of credit.
Commercial Insurance Solicitation
    DOD Instruction 1344.07, Personal Commercial Solicitation on DOD 
Installations, became effective on July 10, 2006. The new Instruction 
requires installations to report any withdrawal or suspension of 
solicitation privileges to their Service headquarters and to the Office 
of the Secretary of Defense (OSD). OSD maintains a DOD-wide list of 
insurance and investment companies and agents who are barred or banned 
from doing business on any DOD installation. Installation commanders 
must review this list prior to approving any new requests to solicit on 
the installation. Any changes to this list are also reported to 
appropriate State insurance and Federal securities regulators.
    The instruction also contains policy on the use of nongovernmental 
organizations to provide financial education to servicemembers, and 
policy to preclude commercial sponsorship of morale, welfare, and 
recreation programs or events from being used to obtain personal 
contact information to foster future solicitations. Of particular note, 
on-base solicitors are now required to provide prospective clients with 
a Personal Solicitation Evaluation form that will provide feedback to 
installation officials on how the solicitation was conducted. The 
evaluation form is designed to detect policy violations and will help 
installations better enforce on-base commercial solicitation rules.
Domestic Violence
    Domestic Violence statistics are slightly lower than last year. The 
Department remains steadfast in its commitment to strengthen its 
response to domestic violence and continues to make substantial efforts 
to improve training of key staff. During the past year, we conducted 
six domestic violence training conferences, three of which were offered 
to joint gatherings of commanding officers, Judge Advocates, law 
enforcement personnel, and victim advocates. We continue implementation 
of the restricted reporting policy for incidents of domestic violence. 
This policy offers victims the option of seeking medical and victim 
advocacy assistance without making a report to the victim or abuser's 
commander or law enforcement. This confidential assistance is crucial 
for victims who may be concerned about their safety, the military 
career of the family-member offender, or the family's financial 
welfare. The Department continues to expand its victim advocacy 
program, which provides access to on-call victim advocates and shelters 
to assist victims of domestic violence. During the past year we 
launched a Web-based domestic violence training curriculum for 
commanding officers that addresses their responsibilities when 
responding to incidents of domestic violence.
    In partnership with the Family Violence Prevention Fund, we 
developed and launched a national public awareness campaign to prevent 
domestic violence. The campaign is designed as a prevention message to 
educate service men and women and their families about domestic 
violence and increase awareness of domestic violence prevention 
resources. In partnership with the Office on Violence Against Women of 
the Department of Justice, we have continued several joint initiatives, 
including training for victim advocates and law enforcement personnel. 
Additionally, we are conducting domestic violence coordinated community 
response demonstration projects in two communities near large military 
installations. The goal of the projects is to develop a coordinated 
community response to domestic violence focusing on enhancing victim 
services and developing special law enforcement and prosecution units. 
Finally, we are participating in the President's Family Justice Center 
Initiative. The initiative provides funding through the Office on 
Violence Against Women for 15 centers in select communities nation-
wide. The Department partnered with four centers near military 
installations to address domestic violence.
Military Children's Education
    The Department shares a strong interest in quality elementary and 
secondary education for military children with our partners in State 
and local education systems. One of the major factors in sustaining the 
All-Volunteer Force is providing quality educational experiences for 
military children.
    Our DOD schools have high expectations for the over 91,000 students 
enrolled in our 208 schools located in 12 countries, 7 States, and 2 
territories. DOD students are among the highest performing in the 
Nation as measured by norm-reference assessments like the TerraNova and 
the Nation's report card, the National Assessment of Education 
Progress. Our students consistently score above the national average at 
every grade level and in every subject area. A key ingredient to this 
success is the partnership that exists among schools, parents, and 
military commands, focusing on superior student achievement. DOD 
schools are also leading the Nation in closing the achievement gap 
between white and non-white students. African-American and Hispanic 
students in DODEA schools consistently outperform their counterparts in 
the 50 States in reading and math.
    In January 2007, the Peabody Center for Education Policy at 
Vanderbilt University provided DOD with an updated review of their 2001 
study, commissioned by the National Education Goals Panel, on the high 
academic achievement in the Department of Defense Education Activity 
(DODEA) Schools. The Department is proud to report that 6 years after 
the initial findings, DODEA student data reveals that the trend of 
outstanding academic achievement among all students in general, and 
among minority students in particular, enrolled in DODEA schools 
continues. Using National Assessment of Educational Progress data, the 
follow-up Vanderbilt University study documents that the trend of high 
academic performance of students enrolled in DODEA schools persists 
beyond their initial 2001 review, and, in fact, that the achievement 
gap continues to grow narrower than the national average. The 
achievement gaps between white and minority students remain much 
smaller than the national averages. The DODEA writing scores are the 
second highest in the Nation, climbing from 33 percent to 38 percent of 
students at or above proficiency. Further, the DODEA reading scores 
have risen to an impressive first in the Nation with 40 percent of 
DODEA students scoring at or above proficiency. These results compare 
favorably to the national averages at 30 percent of students at or 
above proficiency in both writing and reading. The report conjectured 
that the foundation upon which DODEA high achievement persists relies 
upon the core and quality features embedded within the institutional 
structures, instructional practices, and social and economic conditions 
within the DODEA schools and communities they serve.
    The DOD school system has responded to the President's National 
Security Language Initiative, which promotes the study of critical need 
languages in grades K-12. DODEA has launched a foreign language program 
that will initially introduce DOD strategic foreign languages, such as 
Mandarin Chinese, to selected elementary and secondary schools in the 
DODEA system.
    The NDAA for Fiscal Year 2007 directed the Department to ease the 
transition of military students from attendance at DOD schools to 
attendance in schools of local educational agencies (LEAs). DODEA will 
share its expertise and experience in developing rigorous and 
successful academic programs, teacher professional development, and 
distance learning technology capabilities with stateside school 
districts impacted by base closures, global rebasing, and force 
restructuring. The Department identified 17 communities in 14 States 
that will experience a large number of students transitioning into 
their schools because of large scale relocation and rebasing. DODEA has 
begun building partnerships with affected stateside school systems to 
assist them in expanding quality instructional programs. The ultimate 
goal of the program is to ensure that a high quality educational 
program is provided to all military dependents living both inside and 
outside the gates of military installations.
    As an initial step in sharing best practices with LEAs, last 
November the Department sponsored a Conference on Education for 
Military-Connected Communities, which brought together teams comprised 
of military, civilian, school and business leaders from the 17 
communities that will experience an increase in military dependent 
students due to the large scale rebasing effort. Over 200 participants 
heard from experts who provided participants with a list of resources 
for their communities to using during transition.
    The Department is also sharing information on the unique 
characteristics of military dependent students with military and 
community leaders, military parents and school superintendents who work 
with these students. To communicate effectively with military parents, 
teachers and students, the Department provides information on our Web 
site www.militarystudent.org about the impact of deployments on 
children, resources to assist in separations and transitions, and best 
practices in quality education.
    Along with toolkits and outreach through DODEA, the Department is 
making the Johns Hopkins Military Child Initiative available to 
military-connected communities and LEAs. The John Hopkins Center for 
Schools Impacted by Children of the Military focuses on meeting the 
needs of children and youth least likely to feel connected to school 
(i.e., children of military families who live in highly mobile 
circumstances). The Center's approach is being shared with impacted 
schools and military parents to improve student success, school/family/
community partnerships and student engagement.
Spouse Education and Careers
    Trying to sustain a career is a major issue facing military 
spouses. The majority of the 700,000 military spouses of Active duty 
personnel are in the civilian workforce. In the 2006 Survey of Spouses, 
83 percent of spouses report that developing a career is a personal 
goal. Perhaps even more important to the Department, research indicates 
that a military spouse's support for a career in the Armed Forces is a 
top factor in the retention decision of a married servicemember.
    Unfortunately, military spouses are a disenfranchised population, 
generally not included in our Nation's major labor and workforce 
development opportunities. Frequent relocations result in denial of 
opportunities ranging from eligibility for in-State tuition and State 
unemployment compensation to achievement of tenure. For those spouses 
whose employment requires costly certification and/or licensure 
requirements, the state-to-state moves are enormously expensive, 
sometimes precluding a career. Military spouses are excluded from 
calculation of the National unemployment rate; thus, many State and 
local workforce investment boards are reluctant to serve military 
spouses. The unemployment rate for military spouses, at 12 percent, is 
much higher than the National unemployment rate. Further, our research 
shows that military spouses earn about $3.00 per hour less than their 
civilian counterparts.
    At the same time, military spouses are better educated than their 
civilian ``look-alikes:'' 7 of 10 spouses have some college education. 
About 20 percent of spouses are enrolled in post-secondary schools; 
another 51 percent would like to be in school.
    The Department is committed to helping military spouses pursue 
rewarding careers and achieve educational and training goals. We are 
actively working with DOL to ensure military spouses can receive 
education and training support via Workforce Investment Act funds. 
Further, we are partnering with the DOL and national associations 
around careers in high-growth industries with mobile and portable 
careers, such as medical transcription, financial services, education, 
and real estate. The DOD/DOL collaborative Web site 
(www.milspouse.org), which assists spouses with resume development, 
locating careers, identifying available training and linking to One 
Stop Career Centers, continues to be a great resource for our military 
spouses with almost 7 million Web site hits in fiscal year 2006.
    When asked what would have helped them find work after their most 
recent permanent change of station move, approximately a third of the 
spouses surveyed in the 2006 Survey of Spouses indicated that easier 
transition of certifications would have helped, and 27 percent 
indicated that financial help with transferring certifications was 
lacking. We have identified a range of popular spouse careers that have 
State-specific licensing requirements and have designed strategies to 
address them, initially focusing on teaching and real-estate. Six 
States have now adopted the American Board for Certification of Teacher 
Excellence (ABCTE), a national passport teaching credential. Spouses 
with an ABCTE credential will not have to be recertified in these 
States. The Department also uses the Spouse-to-Teacher program to 
support military spouses in their pursuit of K-12 teaching degrees and 
positions in public and private schools.
    Re/MAX launched a program, Operation Re/MAX, that provides military 
spouses the opportunity to achieve a career in the real estate 
industry. Since August 2006, there have been almost 2,000 inquiries 
from military spouses and there are over 800 Re/MAX offices offering to 
hire military spouses.
    Our efforts to raise employer awareness through our partnership 
with military.com, a division of monster.com, have proven to be a great 
success. Via this Web site portal www.military.com/spouse, 155,000 
military spouses have posted their resumes and conducted over 3 million 
job searches of Federal and private sector jobs. There are now over 300 
spouse-friendly employers actively recruiting military spouses for 
their vacant positions; these organizations can post jobs at no cost 
and may search this exclusive database for military spouse candidates.
Transition Assistance Program (TAP)
    Returning to private life after serving in the military is a 
complex undertaking. To better meet the needs of servicemembers, 
including the Guard and Reserve, DOD, with the assistance of the DOL 
and VA, is designing a new dynamic automated Web-based system that will 
revolutionize the delivery of transition assistance and information. We 
have nicknamed the new portal: ``TURBO TAP.'' The portal architecture 
will become the backbone of the DOD TAP process. The primary feature of 
``Turbo TAP'' will be to allow each servicemember to receive customized 
accounts of benefits from DOD, DOL, and VA. Individuals may return to 
their account to refresh their memory or take advantage of a benefit at 
a later date. The portal will augment the personal service provided by 
our transition counselors. Further, the current preseparation guide for 
active duty personnel, and a new transition assistance guide 
specifically for the Guard and Reserve will be released soon.
Voluntary Education
    The Department's off-duty, voluntary education program constitutes 
one of the largest continuing education programs in the world. Each 
year approximately 450,000 servicemembers enroll in postsecondary 
courses leading to associate, bachelors, masters, and doctorate 
degrees. Colleges and universities, through an extensive network, 
deliver classroom instruction to hundreds of military members around 
the world through traditional and distance learning instruction. In 
fiscal year 2006, Service personnel enrolled in 798,972 courses and 
received 43,467 degrees and diplomas. Despite the challenges of war, 
degrees have increased as military personnel finish coursework in 
traditional classrooms (on and off base), as well as on state-of-the-
art hand-held delivery systems such as personal digital assistants and 
iPods. In support of the intent of President's National Security 
Language Initiative and Defense Language Transformation, we expanded 
our tuition assistance policy to allow servicemembers to take 
strategically needed language courses unrelated to a degree. We also 
worked with major book distributors and some of our major academic 
partners to reduce out-of-pocket expenditures related to the ever-
increasing cost of text books, resulting in a savings to servicemembers 
of over 30 percent annually.
State Liaison Initiatives
    In 2004, DOD approached the National Governors Association to 
request assistance in supporting aspects of quality-of-life for 
servicemembers and their families that could be influenced best through 
the actions of State governments. In the past 2 years, Governors and 
State legislators have embraced these opportunities to show their 
support for servicemembers and their families. The Department 
concentrated discussions on 10 key issues: (1) assistance to Guard and 
Reserve members and families, (2) assistance to the severely injured, 
(3) in-State tuition rates for servicemembers and their families, (4) 
school transition assistance for children of military families, (5) 
employment assistance for military spouses, (6) unemployment 
compensation for military spouses, (7) limits on payday lending, (8) 
absentee voter assistance, (9) growth of foreign language education, 
and (10) increases in child care assistance for Guard and Reserve 
families.
    Governors and other State policymakers have taken these issues 
seriously: for example, 30 States are providing in-State tuition rates 
to servicemembers and their families while assigned to a State as a 
non-resident, and continuing this support for family members enrolled 
in school if the servicemember is reassigned out of State. Additional 
information on the progress of the key issues is provided to state 
policymakers and others at www.USA4MilitaryFamilies.org.
Morale Welfare and Recreation (MWR)
    MWR programs enhance the social fabric of a military community by 
providing activities normally found in ``hometown communities,'' such 
as libraries, fitness centers, bowling, golf, parks and sports fields. 
Some servicemembers returning from the intensity of war miss the 
adrenaline-high experienced while living in constant danger. As a 
consequence, they may seek out risky and sometimes self-destructive 
activities. We are providing high adventure MWR Return and Recreate 
programs as safer, supervised alternatives: rock climbing, mountain 
biking, jet skiing, white-water rafting, paintball, and windsurfing.
    The continued vitality of military MWR programs depends on 
consistent appropriated fund support to Category A (mission sustaining) 
and Category B (community support) MWR activities and a predictable 
nonappropriated fund revenue stream from Category C (revenue-generating 
MWR activities). Each of the Service's MWR funds is currently in sound 
financial condition. However, we are concerned about the impact of BRAC 
and Global Rebasing: overseas locations produce a significant portion 
of MWR revenues and exchange profits used to support capital 
replacement programs. At current performance levels, MWR will not 
generate sufficient funds to fully sustain future capitalization 
requirements and we must identify and use other revenue-generating 
opportunities to fill this gap.
Professional Entertainment
    Entertainment helps build morale for deployed servicemembers. 
Nowhere is this support more important than in the austere locations 
where servicemembers are performing duty in support of the global war 
on terror. Armed Forces Entertainment (AFE) continues to provide much 
welcomed celebrity and professional entertainment to our forces 
overseas.
    In 2006, AFE conducted 118 tours with 1,433 shows in 25 countries. 
Eighteen of those tours were with the United Service Organizations' 
coordination. From 2002 through 2006, the Robert and Nina Rosenthal 
Foundation worked closely with the Country Music industry to provide 76 
celebrity entertainment shows at no cost to military personnel and 
their families. The resulting Spirit of America Tour provides a brief 
reprieve from the stresses of deployments at military installations 
within the continental United States.
Exchanges and Commissaries
    The commissary and exchange are valued contributors to the quality-
of-life of our servicemembers and their families. They provide a safe 
and convenient community hub, particularly in overseas areas.
    Commissaries help military families save over 30 percent on grocery 
and household necessities. The Defense Commissary Agency (DECA) makes 
sure that familiar name brands are available for military families at 
active duty installations around the world. The Department's challenge 
is to sustain the value of the commissary to our servicemembers without 
increasing the cost to the taxpayer. DECA, with oversight by the 
Commissary Operating Board, is becoming a state-of-the-art retail 
enterprise and is increasingly efficient and effective at delivering 
the benefit. Commissary customer satisfaction continues to surpass the 
supermarket industry. Moving forward, DECA will pursue new ways to 
support military families who don't live on or near military 
installations and explore cooperative efforts with the military 
exchanges that enhance overall quality-of-life.
    The Armed Service Exchanges provide over $300 million to help 
support morale, welfare and recreation programs. The Exchanges are 
using technology--independently and with each other--to improve value 
to their customers and to lower operating costs.

                               CONCLUSION

    Mr. Chairman, we want to thank you and members of this subcommittee 
for your advocacy on behalf of the men and women of the DOD.
    We established our survey program to listen to our military and 
civilian personnel. We believe they are telling us that we have a 
stable, satisfied, and committed Total Force.
    Eighty percent of active duty members believe they are personally 
prepared, and two-thirds believe their unit is prepared, for their 
wartime jobs. These views have held steady from the start of Operation 
Iraqi Freedom (March 2003) through the latest survey (August 2006). 
Although deployments can place a strain on servicemembers and their 
families, two-thirds of members deployed since the start of Operation 
Iraqi Freedom indicated that access to the Internet and e-mail while 
away have greatly improved their quality-of-life. More than half of 
members (53 percent) who used Military OneSource in the past year (most 
of whom accessed the program via the Internet) were satisfied with the 
resource. In terms of compensation, more than three-fifths of 
servicemembers reported being financially comfortable in April 2006, 
and four-fifths indicated saving a portion of their household income. 
More than two-thirds of servicemembers were satisfied with their 
medical (72 percent) and dental (68 percent) benefits, and more than 
three-quarters (77 percent) rated their health benefits better relative 
to their high school classmates. Overall, in August 2006, 57 percent of 
servicemembers indicated they are likely to stay on Active duty. Based 
on research using prior surveys, 90 percent of servicemembers who 
indicate they are likely to stay actually do stay. Therefore, we feel 
confident that almost three-fifths of our current Active duty force 
will stay in the military.
    After showing decreases between May 2003 and November 2004, Reserve 
retention intentions have stabilized and are currently at 67 percent. 
Between December 2005 and June 2006, reports of family support to stay 
in the National Guard/Reserve increased, and stress levels decreased. 
The June 2006 survey results show that approximately two-thirds of 
members say they have not been away longer than expected, and average 
nights away and time away decreasing the desire to stay in the military 
decreased from December 2005. Results from this survey also show that 
roughly two-thirds of reservists working for employers consider them to 
be supportive of their military obligations. Where employment problems 
have occurred and reservists have sought assistance, roughly two-thirds 
turned to ESGR. Of those who contacted ESGR, 62 percent reported they 
were satisfied with the manner in which their request for assistance 
was handled.
    In the past year, we also fielded special surveys to spouses so we 
could fully understand the impact of deployments on the family. Results 
indicate that 61 percent of Active duty spouses and 75 percent of 
Reserve spouses support their husband or wife staying in the military. 
These results are encouraging, as spouses' reports of their support are 
even higher than members' assessments of spouse support. We plan to 
continue fielding regular surveys of spouses to better understand the 
issues facing today's military families.
    Although we have challenges ahead managing our civilian workforce--
assimilating them into jobs previously performed by the military, 
implementing a new personnel system, and replacing retiring personnel--
the outlook is very encouraging. Since we began surveying civilians in 
the fall of 2003, we have learned that large majorities are satisfied, 
and their satisfaction levels on a number of indicators are rising. 
Roughly three-fourths are satisfied with working for their 
organizations (73 percent) and their jobs (78 percent). The majority of 
employees are satisfied with the type of work they do (83 percent), 
quality of coworkers (67 percent), quality of supervisor (67 percent), 
and total compensation (64 percent). Approximately 90 percent 
consistently report they are prepared to perform their duties in 
support of their organization's mission, and over half are satisfied 
with management and leadership.
    In conclusion, we continue to have a dynamic, energetic, adaptable 
All-Volunteer Total Force. With your help we are confident we can 
sustain that Total Force. These volunteers have performed magnificently 
under the most arduous and perilous of circumstances. They have not 
failed us; we must not fail them.

    Senator Ben Nelson. Secretary Hall?

   STATEMENT OF HON. THOMAS F. HALL, ASSISTANT SECRETARY OF 
                  DEFENSE FOR RESERVE AFFAIRS

    Mr. Hall. Chairman Nelson, thank you for the opportunity to 
appear. I appreciate what you and the other members of the 
committee have done, and continue to do, of our young men and 
women serving today.
    I'm not up to Dr. Chu's record of nine appearances, but I 
believe this is my fifth, since I'm into my fifth year; and I 
believe what I have seen is considerable progress on the way in 
which we train, compensate, mobilize, and utilize our Guard and 
Reserve. I'm very encouraged by the progress that we have made.
    I served for 38 years of Active Duty, and I served in a 
draft military. I can tell you that the young men and women 
today, as all volunteers, are absolutely superb. We've 
mobilized almost 550,000 since the beginning of the war. We 
have 74,000 guardsmen and reservists mobilized as of today. 
But, most significantly, that's 120,000 less than we had at the 
highwater mark, almost five or six Army divisions less. So, we 
are reducing the stress on the force.
    The Secretary of Defense has also published a new 
mobilization memo on January 19. Soon after coming aboard, he 
received advice and counsel, and as a result, we are limiting 
our total mobilizations to 1 year, we are setting metrics for 
both our Active and our Guard and Reserve for how, and when, 
they should deploy. We're looking at mobilizing by units. We 
are looking at reducing, if not eliminating, the stop-loss 
policy. For those people that might go more frequently, we're 
looking at a compensation policy.
    I might add, I just returned from a speaking engagement 
this weekend, one of many, and I have yet to find throughout 
the United States any guardsmen, reservists, family, or 
employers that don't support the new mobilization policy. They 
think it is a move in the right direction.
    Finally, I would say that I have recently chaired the 
working group appointed by the Secretary of Defense to analyze 
Mr. Punaro's Commission on the Guard and Reserve. In 
particular, there are 23 recommendations. Tomorrow, I will 
deliver my report to the Secretary of Defense on that 
commission. We were given 30 days, but we finished in 14. The 
import of that is that I know that the Secretary of Defense is 
anxious to quickly implement, in policy, the changes that he 
agrees with, and quickly work with you on legislation to change 
the things that he needs.
    Thank you, again, for the opportunity to appear.
    Senator Ben Nelson. Thank you.
    Dr. Jones?

STATEMENT OF STEPHEN L. JONES, DHA, PRINCIPAL DEPUTY ASSISTANT 
            SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

    Dr. Jones. Thank you, Mr. Chairman. I would also like to 
thank you for the opportunity to be here and discuss the 
Nation's military health system.
    America's military health system is unquestionably the 
finest in the world. Our medical professionals have performed 
superbly on the battlefield, and their efforts have given us 
the lowest death-to-wounded ratio and the lowest disease 
nonbattle injury rate that we have witnessed in history. Once 
our medics are on the scene, a remarkable 98 percent of those 
treated survive.
    Today I'd like to touch basically on three areas: One, our 
fiscal year 2008 budget, critical and near-term financial 
issues; two, the long-term plans to strengthen our healthcare 
system; and three, our efforts to provide even a more 
integrated joint healthcare delivery system.
    Earlier this month, as you mentioned in your statement, Mr. 
Chairman, Dr. Chu and Dr. Winkenwerder appeared before the full 
Senate Armed Services Committee to address the shortcomings in 
the outpatient housing and care coordination for our wounded 
servicemembers at Walter Reed. Due to swift action by Secretary 
Gates in the establishment of an independent review group, 
combined with the DOD/VA Commission led by former Senator Dole 
and Secretary Shalala, we are already focusing on major 
bureaucratic impediments we must remove to provide our 
servicemembers and their families with the responsive, well-
coordinated, and professional healthcare services that they 
expect and they deserve.
    We are not confining our review to just Walter Reed, but 
are conducting a broad review of all medical facilities, across 
all Services. We are examining closely the disability 
determination process, with the goal of ensuring fair, 
consistent, and timely adjudication of disability reviews 
combined with clear, regular communications with servicemembers 
and their families.
    Although our reviews require additional time to develop 
solutions in the long-term, I do want to iterate my belief 
about what has not caused the problem. The Base Realignment and 
Closure (BRAC) decision to close Walter Reed remains the 
correct one. Our servicemembers and all of our beneficiaries 
need a modern medical facility designed for health care 
delivery for the 21st century. The decision to integrate 
clinical operations of both the Bethesda and Walter Reed 
medical centers on the campus at Bethesda is based on a number 
of compelling factors.
    One, better quality. The merged medical campus will allow 
us to sustain leading graduate medical education and more 
easily integrate and share staff with the National Institutes 
of Health, which is just across the street.
    Patient access. In studying the demographics of the region, 
the new Fort Belvoir and the new Walter Reed National Military 
Medical Center will place our facilities where our population 
lives. From patient satisfaction, there is no empty space on 
Walter Reed, and if we were to increase capacity to conduct 
major renovations in that medical center, we would have to go 
wing by wing, and renovate while patients are being treated 
there, which would be disruptive to patient care, and also very 
costly because it's a very old chassis.
    Secretary Gates, in a recent statement, and at the request 
of Senator Warner, of course, has asked us to look at 
accelerating the new Walter Reed National Military Center, and 
those evaluations are underway at this time, Mr. Chairman.
    In addition to addressing the critical issues that have 
surfaced the last 2 months, we must still attend to operating 
the rest of our health care system. With our fiscal year 2008 
healthcare budget estimated at $40 billion, we need to bring 
our rapidly-growing costs under control. As we discussed 
earlier, Mr. Chairman, you're aware that if left unchanged, the 
cost to our taxpayers, by 2015, will be $64 billion, rather 
than $40 billion that we have today. This would approach 12 
percent of the DOD budget, versus the present 6 percent, which 
was in 2001; and we're at about 8 percent at our present 
funding level.
    In the meantime, we're doing everything we can to control 
our cost growth internally. We are executing our new TRICARE 
regional contracts more efficiently, we're demanding greater 
efficiency within our own medical facilities. However, one 
area, pharmacy, is particularly noteworthy. Nearly 6.7 million 
beneficiaries use our pharmacy benefit. In fiscal year 2006, 
our total pharmacy cost was more than $6 billion. If we did 
nothing to control our pharmacy cost, we project that those 
costs alone would reach $15 billion by 2015. We're taking every 
action for which we have authority, promoting our mandatory 
generic substitution policy, joint contracting with the VA, 
launching a mail-order promotion campaign, and receiving 
utilization rebates from pharmaceutical manufacturers to lower 
costs. These efforts are working. Recent legislation passed by 
Congress and other regulations limit our ability to control 
costs in the fastest growing area of pharmacy, the retail 
sector. In retail, our products cost us 50 percent more than 
the same drugs dispensed through our military treatment 
facilities or mail-order venues.
    You can help us by allowing the Department to make 
appropriate changes in the structure of our pharmacy benefit. 
These changes will accelerate use of our new home-care delivery 
program, enhance the use of generics, and give us greater 
leverage when negotiating with pharmaceutical manufacturers.
    Another area which I want to touch on is better integration 
of our healthcare system. The BRAC legislation is helping us 
drive and encouraging that integration. The medical 
infrastructure we are creating through the BRAC will better 
serve our beneficiaries through the following: improve access 
to care, allow for enhanced graduate medical education, allow 
for joint medical training for enlisted personnel, co-locate 
our medical headquarter elements, and, through the creation of 
the medical center, which we talked about earlier, create a 
Walter Reed National Military Medical Center.
    Senator, it's an honor for me to work with the military 
medical staff members who I associate with daily. They are 
exceptional and provide superb high-quality medical care, and 
we are pleased that we believe they are serving our missions of 
our servicemembers while they are at war.
    Thank you, sir.
    Senator Ben Nelson. Thank you, Dr. Jones.
    Senator Collins, do you have an opening statement that 
you'd like to make?
    Senator Collins. No, thank you, Mr. Chairman.
    Senator Ben Nelson. Okay, thank you, to the panel.
    My first question will go to Dr. Chu, relating to the 
physical disability evaluation system. Servicemembers with a 
disability rated 30 percent or higher qualify for medical 
retirement. Those with less are separated with severance pay. 
The Center for Naval Analysis (CNA) reviewed the disability 
ratings of all Services and reports that 26.7 percent of airmen 
determined to be unfit for duty receive disability ratings of 
30 percent or higher. The other Services award ratings of 30 
percent or more to far fewer servicemembers. The Army awards 
this 4.3 percent of the time; the Navy, 4.1 percent of the 
time; and the Marines, 2.7 percent. Have you gone through a 
review of each of the Services' disability evaluations systems 
to see why there is such a disparity in disability ratings of 
30 percent or more between the Air Force and the other 
Services?
    Dr. Chu. We have looked at this issue. This system is 
decentralized under broad policy guidance from the Office of 
Secretary of Defense. Let me start with that guidance.
    We are about to issue revised guidance that I think will 
bring greater uniformity of result and improved process from 
the perspective of all stakeholders in this important set of 
decisions.
    Yes, it is decentralized; therefore, you would expect to 
see some variation by Service. I'm not sure I would necessarily 
agree with the specific figures that CNA has there.
    I do know that it is interesting--and this is in contrast 
to the recent Government Accountability Office report--that 
there is a fair amount of stability within any one Service in 
the pattern of decisions, year over year; plus the fact that 
the bulk of decisions accrue from nonwar issues, that they are 
there in peacetime. A significant fraction, of course, are 
decisions about persons who have reached 20 years of service, 
retiring by virtue of longevity, not by virtue of disability. 
That is one reason that you will see some differences in 
Service figures, because the fraction of each cohort that 
reaches retirement eligibility does differ across the Services. 
There is in DOD a presumption of fitness to serve, if you have 
served for 20 years, in terms of offering a disability rating.
    Senator Ben Nelson. Now, in regard to that, if someone came 
with a 30 percent disability, and they're not retiring, would 
they receive a 30 percent disability from the Army? But what 
might they receive from the VA if they were unable to continue 
to serve?
    Dr. Chu. That's an important question, sir, as you are 
suggesting. As you appreciate, the statutes governing 
disability ratings for the two departments differ. Our statute 
emphasizes fitness to serve. The VA statute emphasizes loss of 
civilian earnings power, for which physical condition is a 
proxy. So, it is not surprising that you will get different 
ratings out of the two systems, particularly for those 
individuals being evaluated at the retirement--normal 
retirement point--in other words, people who have served 20 
years or more and who are retiring by virtue of years of 
service.
    A further reason for differences between the two Cabinet 
agencies, as you appreciate, is that the VA--ours is a one-time 
evaluation, a snapshot at the time of departure; the VA 
evaluation, however, is, properly, continuous. So, if the 
condition worsens or the effects of age exacerbate the 
condition, the VA does change the rating generally in the 
upward direction over time.
    I do think there is a fundamental question here, as we 
testified earlier to the full committee, as I know you 
appreciate, and that is: Why does the country have three 
different systems to compensate for disability in military 
Service? Social Security pays in some instances. There's one 
set of constraints about what that benefit can look like. VA 
pays in many other circumstances. DOD pays in many of those 
same circumstances. I understand, from the recipient's 
perspective, this is confusing. Should we be looking, long-
term, after the various review panels have reported, at some 
unification of these three systems, and some clarity about the 
principles that together they should follow, as opposed to 
separate and different principles--is that a meritorious step? 
I think that's one of the big questions out there for us to 
consider.
    Senator Ben Nelson. What do you think the likelihood is 
that you could get a single system, given the differences?
    Dr. Chu. I think this goes fundamentally to the 
responsibilities on Capitol Hill and on Pennsylvania Avenue, 
and that is, can we agree on the set of principles under which 
the systems should run? In other words, is there a single 
cohesive set of principles that they are to follow? If we can 
get that agreement, I think we can devise a set of mechanisms 
that would be effective, and perhaps much less confusing and, 
one would hope, less frustrating to the beneficiary population.
    Senator Ben Nelson. Now, is it possible to go ahead and 
begin some sort of preliminary work to see what might be 
developed with principles first, and then an effort toward 
smoothing out the differences, to the extent possible?
    Dr. Chu. Yes, sir. I think we have three important sources 
of findings that can help us. In 2003, if I recall the date 
correctly, Congress required there be constituted a Commission 
on Veterans Disability. It has been working, under the 
chairmanship of retired Lieutenant General Terry Scott, these 
last several years. It has a reporting date of October 2007. I 
think that will be an important set of evidentiary findings 
from a group that has been working this problem for some time. 
Second, of course, we have the two more recently appointed 
groups, the group that is the commission created by the 
President, co-chaired by Senator Dole and Secretary Shalala, 
and then the group appointed by DOD, with former Army 
Secretaries Marsh and West as the co-chairmen. They report much 
more rapidly.
    In addition, the VA Secretary chairs a task force asking 
``what can we do within existing law?'' We are, likewise, 
conducting similar reviews inside DOD.
    But the short answer is yes, sir, I think we can begin that 
task sooner rather than later.
    Senator Ben Nelson. All right. Would we be able to get the 
seamless transition in the process, as well? In other words, if 
you get a nearly single system, will that carry over, so when 
somebody becomes a veteran through retirement, as opposed to 
being wounded and unable to continue in the position?
    Dr. Chu. Sir, my personal belief is that, almost by 
definition if we have a single system, many of the current 
seams would disappear. There will still be record-transfer 
issues, there will still be issues how to manage cases as you 
move from one status to another. I think some of this can be 
solved with existing administrative authority. We have already 
been working, as I know you appreciate, with the VA for several 
years now on how we can make the existing system more seamless 
in character. I think we've made significant progress in that 
regard with the benefits delivery and discharge program, for 
example, with trying to create a single examination as the 
standard going forward with memorandums of agreement at every 
location in the United States now. There is more to be done on 
that front.
    Senator Ben Nelson. Dr. Jones, DOD has been working hard to 
implement a reliable, effective electronic health record 
system, called Armed Forces Health Longitudinal Technology 
Application (AHLTA). In your joint written testimony, you 
stated that the military health system has, ``successfully 
completed worldwide deployment of AHLTA.'' If this system is so 
good, why is it so difficult for DOD to provide military 
medical records to the VA in a timely manner? Is the AHLTA 
system ready to be merged with the VA's electronic records 
system to create a joint records system? If not, what more 
needs to be done to get this accomplished?
    Dr. Jones. Senator, as of November 2006, we did complete 
AHLTA worldwide, which means it's presently in all of our 138 
facilities. AHLTA, traditionally, the first phase is an 
outpatient facility, outpatient module, which, of course, 
allows us to operate on the battlefield and get that 
information back to the providers in Landstuhl, and, of course, 
back at Walter Reed or Bethesda. The VA system traditionally 
has been an inpatient system. Again, they are inpatient-based, 
historically. If you look at our priorities at the military 
health system, our next priority is an inpatient system, an 
inpatient module, that would be placed into AHLTA. The VA, 
their system, their VistA system, I understand is based on an 
older operating system called MUMPS, and they will have to 
rejuvenate that system. So, our two secretaries have asked that 
we, between the VA and DOD, do a study to see if we can't 
possibly draw up requirements where we could use the same 
system, and we're presently doing that.
    Then, our third challenge, Senator, would be, how do we 
communicate with those private physicians and private 
hospitals? Many of our beneficiaries use TRICARE, and we would 
like to be able to get those medical records back into AHLTA 
from the private sector. Of course, that's a longer-term 
solution.
    In the interim, our information technology folks in both 
the VA and DOD have been working very hard to transfer data. We 
have presently transferred 3.6 million records, which VA has 
access to those who have retired or separated from service. We 
have a number of projects ongoing which provide realtime data 
back and forth in a number of facilities. We are giving that 
great priority.
    Senator Ben Nelson. With the effort underway to merge, 
what's the timeline, if you have a hard timeline, do you 
anticipate the merger?
    Dr. Jones. The study that we are presently doing, we hope 
that that will be completed by this summer. Of course, if we 
get the green light that those requirements are like enough for 
us to have one inpatient record, then we would--again, 
implementing that, doing the necessary development work to make 
that happen, sir.
    Senator Ben Nelson. Okay.
    Secretary Hall, in your capacity as Assistant Secretary of 
Defense for Reserve Affairs--I'm going to read you the 
recommendation from the Commission on the National Guard, some 
of the recommendations, ``The Commission on the National Guard 
and Reserves recently submitted its second report to Congress. 
In the report, the Commission recommended that the grade of the 
chief of the National Guard Bureau should be increased to four 
stars, but that the chief should not be made a member of the 
Joint Chiefs of Staff.'' Now, in your view and in your 
position, are these your views, as well?
    Mr. Hall. As I mentioned, I chaired the working group on 
not only these 2, but the other 21 recommendations. I will 
submit my report tomorrow with my thoughts and comments on 
those, to the Secretary of Defense. I think it would be 
premature for me to discuss those. But I will tell you what the 
Secretary of Defense has said on the record on both of those 
issues, and he's said that, I think, in testimony and before 
two public forums, so these were what he said. I think I can 
correctly indicate. He said that if the position of the Chief 
of the National Guard Bureau has the responsibilities attached 
to it that rises to the four-star rank, he would support that. 
On the second one, he said he did not support membership of the 
Chief of the National Guard Bureau on the Joint Staff. Those 
are his two public statements on that. The rest of them, we 
will have to see after the report goes in.
    Senator Ben Nelson. Okay. So, your views are consistent 
with that conclusion?
    Mr. Hall. I support the Secretary's views on that, 
certainly. [Laughter.]
    Senator Ben Nelson. Just wanted to see if we could get you 
to stumble.
    Mr. Hall. This is my fifth hearing, so I certainly support 
those. [Laughter.]
    Senator Ben Nelson. You've been learning.
    Senator Collins?
    Senator Collins. Thank you very much, Mr. Chairman.
    Dr. Jones, I want to ask you about an issue that some Guard 
members in Maine have raised to me about what they believe is a 
gap in our system of military health care. I'm not certain 
their understanding is correct, but, if it is, it suggests 
there are situations where those who serve and have been 
injured fall through the cracks. So, I want to describe what 
these Guard members told a member of my staff.
    They pointed out that when an Active Duty servicemember 
returns from overseas and requires either physical or mental 
health care, he or she goes to the military medicine system and 
relies upon that structure. Similarly, when a reservist or a 
National Guard member who has suffered injuries--whether 
they're physical injuries or mental injuries--while on Active 
Duty, while they were deployed, and those are serious enough 
that the Guard member or reservist is separated from the 
military, he or she can turn to the VA system for treatment. 
But these Guard members who talked to my staff believe that 
there's a gap that occurs when a reservist or a National Guard 
member returns--who has suffered physical or mental injuries, 
but goes back to the civilian job and continues to drill or 
participate with the Reserves or Guard. They believe that that 
individual falls through the cracks, that they're not eligible 
for the Active Duty military system, they're not eligible for 
the VA system. Are they correct in telling me that?
    Mr. Hall. I would say we--because of what Congress passed, 
the Guard and Reserve--the TRICARE Select, last year, made 
available to all members of the Guard and Reserve, TRICARE 
Select for them and their families, regardless of whether they 
are drilling, on Active Duty, whatever the status. For a pay of 
28 percent, you can enroll either yourself or your family, so 
you may go into that system. Prior to that, we did not have 
that. But that will allow--and that's to be implemented--it's 
being worked on now, will be implemented in the fall, by which 
they can remain in the TRICARE system for this pay, even if 
they're in a drilling status or Active Duty.
    Senator Collins. I was aware of that, but that's if they 
buy into the TRICARE system. I'm talking about a guardsmen who, 
let's say, has post-traumatic stress disorder (PTSD), has come 
back, is now re-employed in the civilian sector, does not 
participate in TRICARE, let's say, is uninsured in the civilian 
job. How does that person get treatment for injuries that were 
suffered while that person was on Active Duty, the lingering 
impact?
    Dr. Chu. Senator, as I suspect you are aware, they are, on 
a lifetime basis, whether drilling or not, eligible for VA care 
for any service-connected disability
    Senator Collins. Even though they haven't separated.
    Dr. Chu. Even though they--VA care is based upon the fact 
that you were injured on Active Duty. In addition, you have a 
2-year window after release from Active Duty in which you do 
not have to have demonstrated the ailment was service-
connected, you merely have to say, ``I think it was.'' You can 
show up at the VA. The VA opens generously its services to you. 
In further addition, on the TRICARE front, Congress, within the 
last few years, changed the statute so you have 6 months' 
coverage of TRICARE after release from Active Duty. So, taking 
it from the other way around--the 6 months TRICARE coverage 
after release from Active Duty--there's 2 years, essentially no 
questions asked, if it is even believed to be service-
connected, VA. Once it's established it's service-connected, 
then you have a lifetime entitlement to VA care. So, if you 
have Maine Guard personnel who are complaining, I think the 
challenge is to us, how do we communicate better?
    Senator Collins. Right.
    Dr. Chu. We'll certainly take that back for action. How do 
we communicate better? ``Here is how we deal with the issue,'' 
and maybe we should start with that, ``You have a problem and 
you're in this status, here's what you do,'' because there is 
recourse.
    Dr. Jones. Senator, we'll be glad to get with your staff 
and get particulars. If there's some way that we can be of 
assistance, we will do so.
    Senator Collins. That would be helpful. This came to us, as 
I said, from the Veterans Coordinating Committee in Maine. It 
sounds like there's not a full understanding of what's 
available.
    Dr. Jones. Senator, I might mention one other thing.
    Senator Collins. Yes.
    Dr. Jones. Congress, last year, of course, mandated that we 
set up a Mental Health Task Force, and that Mental Health Task 
Force has been meeting now, and will be reporting, I think, 
June/July, to the Secretary. We believe that we are, of course, 
providing adequate mental health care and coverage; however, 
this task force has been out there, been on 30 bases and 
facilities, so we will look forward to their report. Of course, 
again, they might bring up gaps that we need to look at, and we 
will do so.
    Senator Collins. Thank you.
    Another issue that I'm hearing more and more about from my 
constituents is the prevalence of traumatic brain injury (TBI) 
from explosions in Iraq that have been misdiagnosed as PTSD. A 
neurologist from Maine met with me a couple of weeks ago who 
personally had a case where there was a physical injury that 
had not been caught, and, thus, was not being appropriately 
treated. That's very disturbing, obviously, and, because of the 
number of improvised explosive devices (IEDs) in Iraq, I 
suspect we're seeing more and more TBI. What plans do you have 
to either do better screening for TBI or to have some other way 
to make sure that we're screening for this? Because it's been 
called ``The Silent Killer.'' It's difficult to detect and 
diagnose, and I'm very concerned about this, based on the 
conversations that I've had with this neurologist.
    Dr. Jones. Senator, we, too, are concerned. As you say, 
with the number of IEDs, this is getting to be a number of our 
wounded warriors impacted by that. We have invested--I say 
``we,'' DOD and VA--considerable resources over the last 10 to 
15 years looking at TBI. But much more needs to be done. We 
have added screening questions now to our post-deployment 
assessments and our post-redeployment reassessment programs. 
We've also charged the Army, along with our Deputy Assistant 
Secretary for Force Health Protection, to look at all of the 
various programs that we have in the TBI area, and to look at a 
comprehensive approach. Again, the way ahead, as you suggest, 
and in fact, we had the discussion with the surgeons general 
this morning about that. Don Arthur, the Surgeon General of the 
Navy, he had TBI, so he has a personal professional interest in 
this. He also will be working with us to develop a plan, 
hopefully which we will have ready by August 2007.
    Senator Collins. Thank you.
    Mr. Chairman, I know that you have a whole other panel, so 
I'll submit my other question for the record.
    But just so you know what I would have asked, it has to do 
with the disparity between benefits for Guard members and 
reservists versus Active Duty now that we're treating them so 
much more alike than ever before. I will submit that one to the 
record, because I know we're going to have more votes.
    Thank you. I'm very pleased to hear about the screening 
questions on post-deployment. That is exactly what this 
physician suggested needed to be done, and I think that's 
really going to help. So, thank you.
    Dr. Jones. Thank you.
    Senator Ben Nelson. Thank you, Senator. Your other 
questions will be included in the record.
    Senator Collins. Thank you.
    Senator Ben Nelson. I've gotten the message that Senator 
Graham is unable to be with us.
    Also, we have received a statement from Misti K. Stevens 
regarding funding for DOD schools, and if there is no 
objection, her statement will be included in the record.
    Thank you.
    [The information referred to follows:]

    To the Honorable Chairman, Minority Leader, and Members of the 
Armed Services Committee, Department of Defense Education Activity 
(DODEA) schools have provided a quality education for military 
dependents through out their history. Nevertheless inadequate funding 
is threatening the standard of education the stateside branch of this 
organization, Domestic Dependent Elementary and Secondary Schools 
(DDESS), is able to provide. In fact, budget cuts have resulted in 
hazardous school environments and substandard learning opportunities 
for military dependents. Increased funding is necessary for DDESS to 
provide this crucial benefit which is well earned by our soldiers and 
their family members.
    As parents, educators and students we are troubled by the decreased 
funding for DDESS. DODEA through DDESS provides a consistent 
curriculum, a superior education as is witnessed by higher standardized 
test scores, and produces a higher percentage of graduating seniors who 
go on to attend college. The demands on military children are unique, 
for example the average military dependent will attend three high 
schools prior to graduating and will endure at least one 6-month to 12-
month hazardous duty deployment of a parent during their high school 
career. The importance of the uniformity in curriculum, transition 
counseling, and graduation requirements provided by DODEA schools is 
essential to create an optimal learning environment for these students.
    DDESS budget cuts this year are restrictive and diminish the 
ability of administrators and faculty to provide the high standard of 
education expected of DODEA schools. While not isolated the schools 
located at Fort Campbell provide a prime example of the effects of 
inadequate appropriations. Fort Campbell High School (FCHS) had an 
operating budget of $85,000 for the 2005/2006 school year; the same 
school has received $8,300 for operational expenses as of March 2007 
for the 2006/2007 school year. The entire Fort Campbell schools which 
comprise 8 schools and a populace of 4,415 students as of March 16, 
2007 has received $108,000 for the 2006/2007 operating costs, $24.46 
per student compared to an appropriation of $7,259 per student in the 
neighboring community Clarksville County school district. Consequently, 
teacher training has stopped, transportation for study trips is no 
longer available, and funding for additional supplies ranging from 
copier paper, sheet music for chorus and toilet paper has become a 
personal economic burden to parents and administrators.
    At Mahaffey Middle School, garbage cans catch water from a leaking 
roof while a broken heating and air conditioning system produces sauna 
like conditions in some classrooms while other classes have no heat. 
These moisture problems have created issues with mold necessitating the 
removal of floor tiles which cannot be replaced due to funding 
restrictions and a false ceiling has been placed over the molded 
ceiling of the cafeteria until funding can be found to repair the roof. 
Overcrowding is yet another issue created by the lack of funding. FCHS 
was built to house 490 students; current student enrollment is 594 with 
as many as 641 students this year. There is an expected increase of 10 
to 15 percent next year. At the same time the teacher student ratio has 
increased to 1 teacher for every 30 students for the fifth grade 
students at Lucas Elementary. Furthermore, the lack of appropriations 
has led to the cancellation of all study trips, scholastic or 
extracurricular within the Fort Campbell school system. The consequence 
of budget cuts is military students are subjected to a substandard 
learning environment.
    As a Nation, we communicate several important messages to military 
dependents. One is, ``America Supports You,'' yet another is the role 
your parents play in the military is vital to the survival of our 
country. We also stress the importance of an education. Senators, we 
also teach students that actions speak louder than words. Inadequate 
funding for DDESS schools conveys a lack of support for military 
members and their families and declares that an optimal education of 
military dependents is no longer important to our country. Military 
students pay a high price for our country's safety and they deserve the 
funding required to provide teacher training, transportation for study 
trips, and the maintenance of school buildings.
            Sincerely,
                                   Misti K. Stevens

                     BIOGRAPHY OF MISTI K. STEVENS

    Misti Stevens has her BS in History graduating summa cum laude and 
her Masters degree in Secondary Education (magna cum laud). She has 
worked in a variety of capacities as a teacher, AVID tutor and 
volunteer in DODDs (Hanau, Heidelberg, and Darmstadt, Germany), 
Leavenworth, KS; Fort Leonard Wood, MO; Edwards Air Force Base, CA; and 
Fort Campbell, KY. Mrs, Stevens is a member of the Military Child 
Education Coalition and has played an active role in Army Family Action 
Planning in the areas of education and youth services. Mrs. Stevens has 
also held a number of positions in Parent Teacher Student Organizations 
across the globe and is a military spouse of 17 years with 2 children, 
ages 14 and 16, who together have successfully attended 15 different 
schools. Mrs. Stevens MeD includes research comparing DODEA and public 
schools in the Fort Leavenworth area and IEPs. After numerous 
interviews she is writing on the behalf of educators, administrators, 
and parents of various ranks throughout the Fort Campbell community.

    Senator Ben Nelson. I think there is one further question 
pertaining to cross-leveling.
    Secretary Chu, you were quoted in the Commission report 
explaining the cross-leveling issue as ``a difference in 
perspective between the operational chain of authority in the 
military service and the personnel community.'' Maybe you can 
help explain what you mean by that statement.
    Dr. Chu. Yes, sir. But let me preface it by saying that the 
Secretary has made the decision that, going forward for Reserve 
units, we will aim at mobilizing on a unit basis; in other 
words, that we should end cross-leveling as a practice, as far 
as Reserve components are concerned.
    The origin of my statement to the Commission is the reality 
that, at any moment in time, a unit has a certain number of 
people who are either missing, so a billet is not filled or 
unable to deploy for whatever reason. The Army standard is that 
Active units should have less than 4 percent in the last 
category. So the personnel community often does have to move 
people from another unit to the deploying unit, whether it's 
Active or Reserve. So, from the personnel community's 
perspective, cross-leveling is a natural phenomenon, done all 
the time, to put the unit in the right shape.
    Senator Ben Nelson. Right.
    Dr. Chu. In fact, many Army units are deploying at more 
than 100 percent strength, which means, by definition, you have 
to move extra people into the unit.
    The operational community tends to see the unit as a single 
entity, and it is somewhat opaque to that community how that 
came to be. In other words, how did those people show up? Why 
are they here? Why, when I have a formation in the morning, is 
100 percent strength standing in front of me? That was the 
difference in perspective I was trying to describe. The 
operational community would like to see it treated as a unit, 
does not like to see movement in and out, because, of course, 
that presents leadership and training challenges, but the 
reality from the personnel community is that we move people all 
the time.
    Senator Ben Nelson. Do you think that the security of the 
unit is at risk, in part because of the fact that it's a 
synthetic unit, as opposed to one that has been training and 
deployed, maybe, on other occasions, or having at least trained 
together and have operated together?
    Dr. Chu. The cross-leveling, to the extent that it was done 
in the past, was typically done before the unit training--and 
speaking now specifically of Reserve units--deployment of 
Reserve units--before the unit training began. So, it should be 
completed before the training occurs. The training by itself 
provides an opportunity for the unit to come together and to 
understand how it's going to work as an effective single body.
    Further, this is the personnel community's perspective; it 
depends, obviously, on the practice and the issues that occur 
on the battlefield--but we do send replacements to units in 
order to bring them back to the strength at which they need to 
be in order to operate effectively. So, again, there's always 
an integration and leadership challenge when that occurs.
    Mr. Hall. Could I comment just a second on that?
    Senator Ben Nelson. Yes, please.
    Mr. Hall. In my Active Duty time, I commanded a lot of 
units and a lot of squadrons, and deployed frequently, and I 
never deployed with the same unit the next year that I had the 
year before. I found that the single most important factor in 
success of a unit, and cohesion, is leadership. You were given 
new people. You were expected to exert leadership.
    Senator Ben Nelson. Okay, thank you.
    Do you feel that our troops being deployed have adequate 
training, equipment, and preparation to be deployed now?
    Dr. Chu. Yes, sir, that is our standard, that they should 
have the gear they need when they are in theater. That does not 
always mean they have that same gear back in the United States; 
and so, there may be fewer items to train on in the training 
status. They do complete, typically, training in Kuwait before 
they go into Iraq. So, again, how they leave the United States 
is not quite the status that they achieve when they arrive in 
the actual area of operations.
    But, yes, sir, that is our standard. They should be.
    Mr. Hall. I might mention I went to Kuwait, up on the 
Udairi Range, just before our troops pass over into Iraq, and I 
went out and asked each and every one of them, ``Do you feel 
you have the equipment? Do you feel you have the training?'' 
Then, what we do is visit the units after they come back, and 
ask them, ``What training did we give you that was not so 
useful? What was the most useful training?'' So, we use that as 
a measure, and I'm confident that we are very close in what we 
need to do, based upon their answers, that they have the right 
equipment and the right training, both before and after they 
go.
    Senator Ben Nelson. Okay. Thank you.
    Secretary Jones, in terms of what we're attempting to do to 
smooth the relationships between the DOD and VA agencies, do 
you think we're on the right road to getting that smooth, so 
that all those differences can be either corrected or modified, 
to some extent, so that they're not as burdensome to our 
forces?
    Dr. Jones. Mr. Chairman, I think with the Joint Executive 
Council (JEC), the Health Executive Council (HEC), and the 
Benefits Executive Council (BEC) we have a closer working 
relationship with the VA. We have a strategic plan, which has 
over 20 elements and goals in it, which we monitor every day. 
If you look on the ground, as well as in headquarters, the 
local folks in the markets and the local folks here in town 
want to make it work, and I believe we're making significant 
progress.
    Senator Ben Nelson. We all understand that Dr. Chu's been 
here nine times, and I suspect it'll be ten, and we'll be 
asking you for an update, at that time, expecting to hear that 
all these things have been resolved. [Laughter.]
    Dr. Jones. Yes, sir.
    Senator Ben Nelson. All right. Thank you. The first panel 
is excused.
    Dr. Chu. Aye-aye, sir. Thank you. [Pause.]
    Senator Ben Nelson. At this time, I'd like to welcome our 
second panel, consisting of the military personnel chiefs of 
each of the military branches: Lieutenant General Michael D. 
Rochelle, the United States Army; Vice Admiral John C. Harvey, 
Jr., the United States Navy; Lieutenant General Ronald S. 
Coleman, the United States Marine Corps; and Lieutenant General 
Roger A. Brady, the United States Air Force.
    We salute your dedicated service to your respective 
Service, and to the men and women of the armed services and 
their families, and I say welcome and thank you for being here 
today.
    At this point, we would accept your oral comments. If you 
have written comments that you want to be submitted, please let 
us know and we will submit them for the record, unless you 
state otherwise.
    General Rochelle, please let us know what's happening in 
your branch.

  STATEMENT OF LTG MICHAEL D. ROCHELLE, USA, DEPUTY CHIEF OF 
                 STAFF, G-1, UNITED STATES ARMY

    General Rochelle. Mr. Chairman, thank you so much for the 
opportunity.
    I'll respectfully submit for the record my written 
comments.
    Chairman Nelson and distinguished members of the 
subcommittee, thank you for the opportunity to appear before 
you today representing the more than 1 million young men and 
women who are proudly serving in this great Army of yours. I 
am, indeed, privileged and honored to represent them today.
    This All-Volunteer Force is proving itself each and every 
day. I say that for my comrades sitting here--and their 
coastguardsmen, marines, airmen, and sailors who are serving as 
well. But, as I speak to you today, nearly 600,000 soldiers are 
serving on Active Duty in 80 countries, soldiers from every 
State and territory, soldiers from every corner of this great 
Nation and country, proudly serving the people of the United 
States, and doing so with honor and distinction. We are one 
Army, with Active and Reserve Forces serving together around 
the globe, and we are truly Army strong.
    Success of the All-Volunteer Army starts with recruiting, 
Mr. Chairman. We compete today for very high quality human 
resources in a tough market, a robust economy, and with 
pressures from both industry and an improving economy, and very 
low unemployment rates.
    In 2006, the Army achieved great success, with more than 
175,000 qualified men and women answering the call to duty. The 
Active Army enlisted more qualified personnel, men and women, 
than any previous year since 1997. This year, the total Army 
recruiting mission is over 171,000 recruits; as always, 
exceeding the combined recruiting missions of all the other 
Services.
    The Army National Guard and the Army Reserve are applying 
several innovative measures to bring fully qualified men and 
women into the Reserve component. Last year, the Army National 
Guard achieved its best recruiting effort in the last 14 years, 
and we will closely monitor Reserve component, Army Reserve 
recruiting, as well as National Guard recruiting, and ensure 
that they are resourced for success, employing a number of best 
practices of the Army National Guard to bolster Army Reserve 
recruiting efforts.
    With over half the year remaining, I remain very optimistic 
that we will exceed our goals in the Active component and the 
National Guard.
    Fiscal year 2006 presented challenges in healthcare 
recruiting, and I would be delighted to address those, subject 
to your questions.
    Any recruiting program is most effective when equipped with 
the right mix of incentives. The Army's program is no 
different. Thanks to this body, sir, many new incentives 
enacted include the increased enlistment age, which brought 
nearly 600 new soldiers into the Army; the expansion of the 
$1,000 referral bonus to $2,000, which gained us nearly 2,500 
qualified soldiers in uniform; and the increase in the bonuses 
above $20,000--cash bonus--which resulted in over 5,000 
soldiers enlisted. Additionally, the Army implemented the first 
pilot program, granted us under the National Defense 
Authorization Act (NDAA) for Fiscal Year 2006--recruiting 
incentive authority, called the Recruiter Incentive Pay 
Program. This year, we will implement the next, and that is the 
Officer Accession Bonus Program. With congressional support for 
the required incentive trust fund this year, the Army expects 
the Army Advantage Fund to be a large market impact for Army 
recruiting.
    Finally, I'd like to assure you of the quality of our 
soldiers. Without exception each soldier who enlists in the 
Army is qualified for his or her military occupational 
speciality. Since the inception of the All-Volunteer Force, we 
have maintained the DOD-quality standards which are much more 
stringent than standards in statute. We do not, and will not, 
seek different standards.
    Thanks to your assistance with recruiting incentives, and 
thanks to the patriotism of the next greatest generation, we 
are meeting our recruiting goals and will grow the force to 
547,000 by fiscal year 2012.
    Our efforts to maintain your All-Volunteer Army require 
your continued support, Mr. Chairman. For the appropriate 
levels of authorities and resources, we need full support for 
the funding requested in the fiscal year 2007 supplemental and 
the fiscal year 2008 President's budget to support the Army 
manning requirements. I ask for your continued commitment to 
encourage all who are qualified to answer this Nation's call to 
duty.
    Once again, sir, I thank you for the opportunity to appear 
before you today.
    [The prepared statement of General Rochelle follows:]

           Prepared Statement by LTG Michael D. Rochelle, USA

    Chairman Nelson, Senator Graham, and distinguished members of the 
subcommittee, thank you for providing me opportunity to appear before 
you today on behalf of America's Army. The Army, over 1 million strong, 
serves proudly around the globe. As our Army is growing to meet today's 
demands, we are grateful to this committee for improving incentives and 
bonuses to attract and retain the very best soldiers. I take tremendous 
pride in this All-Volunteer Force and all it has accomplished for our 
great Nation.
    This is an All-Volunteer Force. We compete in a very tough market 
within a robust economy. We rely on your support to help the Army grow. 
Your continued support gives us the necessary tools to attract and 
retain the soldiers who serve our great Nation. Through your continued 
support, our Army will grow to meet the needs of the Nation and to 
defend America in the long war on terrorism.
    Our soldiers are this generation's heroes. They continue to make 
history, demonstrating to America that her Army is the best in the 
world. This generation shows that America can call upon the All-
Volunteer Force time and time again to persevere in prolonged conflict. 
With your continued assistance, we will achieve the right mix of 
incentives to compensate, educate, and retain the best and brightest 
our Nation has to offer.
    The soldier remains the centerpiece of our Army. As I speak to you 
today, more than 600,000 soldiers serve on active duty. We have more 
than 243,000 soldiers--Active, Guard, and Reserve--in 76 countries, and 
another 8,000 soldiers securing the homeland. Soldiers from every State 
and territory . . . soldiers from every corner of this country . . . 
serve the people of the United States with honor and distinction. 
Soldiers fight in Iraq and Afghanistan in support of the global war on 
terrorism. Soldiers participate in homeland security activities. 
Soldiers support civil authorities on a variety of missions within the 
United States.
    More than ever before, we are one Army, with Active and Reserve 
Forces serving together around the globe.
    Additionally, a large Army civilian workforce (over 240,000), 
supports our Army--to mobilize, deploy, and sustain the operational 
forces--at home and abroad. Our soldiers and Department of Army 
civilians remain fully engaged around the world. They remain committed 
to fighting and winning the global war on terrorism.
    With help from this body, the Army continues to meet challenges in 
the Human Resources environment. In recent years, your support for 
benefits, compensation, and incentive packages ensured the recruitment 
and retention of a quality force. Today, I will provide you with an 
overview of our current military personnel posture and programs, and 
the status of our benefits and compensation packages as they relate to 
building and maintaining a quality force.

                               RECRUITING

    Our Nation is blessed with the world's finest Army. It is an All-
Volunteer Army that is being recruited under conditions not foreseen 
when the draft ended in 1973. Our soldiers must be confident, adaptive, 
and competent. They must be able to handle the full complexity of 21st 
century warfare in our combined, joint, and expeditionary force. They 
are the warriors of the 21st century and they became heroes when they 
enlisted.
    Recruiting these qualified young men and women in a highly 
competitive environment is extremely challenging. Competition with 
industry, an improving economy, lower unemployment, decreased support 
from key influencers, the media, and the continuing global war on 
terrorism, present significant challenges. Thanks to your support and 
the efforts of our recruiting force, the Army achieved great success in 
fiscal year 2006. The fiscal year 2006 recruiting year ended with the 
Active component making over 100 percent of its mission, U.S. Army 
Reserve accomplishing 99.5 percent, and the Army National Guard 
accomplishing 98.6 percent. This data reflects the U.S. Army Recruiting 
Command recruiting mission accomplishments and does not include 
accessions attributed to Active component to Reserve component or 
Individual Ready Reserve (IRR) to Selected Reserve Transitions. These 
results are a significant improvement over fiscal year 2005 recruiting 
results. Although these successes are noteworthy, we must all remain 
committed to meeting the challenges in the foreseeable future.
    To date, the Active Army and the Army National Guard have met their 
recruiting missions. The Active component finished February 2007 with a 
year-to-date achievement of 108 percent. The United States Army Reserve 
finished February 2007 with a year-to-date achievement of 94 percent. 
The Army National Guard finished February 2007 with a year-to-date 
achievement of 105 percent. Two components, Active and National Guard, 
are projecting successful annual missions for fiscal year 2007. The 
mission of the Army Reserve remains the most challenging of all three 
Army components this year. U.S. Army Recruiting Command and the 
Department, with help from the Army Reserve Command, are working 
together on incentives and policy changes to mitigate risk and increase 
success. With just over one half of the recruiting year remaining, the 
Army is optimistic we will meet our recruiting goals.
    Some Members of Congress have expressed concern over the quality of 
the force, when viewed by the Department of Defense (DOD) standard of 
high school diploma graduates and Test Category IV soldiers. However, 
all soldiers who enlist into the Army are qualified for their 
respective military occupation specialties--their jobs. No exceptions.
    Across America, there is an increasing trend in alternatives to the 
traditional high school. Our ability to recruit in the current 
environment--which is unprecedented in the history of the All-
Volunteer-Force--requires innovation, as well as perseverance.
    We must recognize that those who volunteer to serve during these 
difficult times, have distinct qualities all their own. Once accepted, 
the Army molds them into a precious resource--the American soldier.

                   INCENTIVES AND ENLISTMENT BONUSES

    The Army must maintain a competitive advantage to attract high 
quality applicants. Bonuses are the primary and most effective 
competitive advantage the Army can use to attract quality soldiers. 
These bonuses help us to compete within the market and prepare for 
future conditions. The bonuses and incentives are key in filling 
critical Military Occupation Specialties in an increasingly college-
oriented market and meet seasonal (``quick-ship'') priorities.
    College attendance rates are at an all-time high and continue to 
grow. With nearly 70 percent of the Nation's high school graduates 
intent on college attendance within the year of graduation, the Army 
College Fund is a proven performer. The Army College Fund allows 
recruits to concurrently serve their country while meeting their 
desires to attend college.
    The Loan Repayment Program, with a maximum of $65,000 payment for 
already accrued college expenses, is another incentive we offer within 
this competitive market. This Loan Repayment Program is the best tool 
for those with college education credits and student loans. Over the 
past 4 years, approximately 27 percent of Army recruits have some post-
secondary education credits and we expect that trend line to increase.
    Other recently passed legislation assisting our recruiting mission 
includes: the increased enlistment age which brought nearly 600 
soldiers into the Army; the expansion of the $1,000 Referral Bonus to 
$2,000 increased accessions by nearly 2,500 qualified soldiers since 
enactment last year; and the increase in bonuses above $20,000 resulted 
in over 7,200 soldiers signing up.
    Further assisting our efforts to attract and retain officers, is 
the expanded Student Loan Repayment Program. It now includes officers, 
and permits repayment of a broader variety of student loans.
    The temporary Recruiting Incentives Authority under the National 
Defense Authorization Act (NDAA) of 2006 permits the Department of the 
Army to develop and test four new pilot programs for recruiting. The 
Army implemented the first pilot program, the Recruiter Incentive Pay 
Program, on June 6, 2006, and plans to implement the second, an Officer 
Accession Bonus Program not later than this summer.
    The Army Advantage Fund (AAF) is a third incentive. It will provide 
a choice between a down payment for a home loan or seed money for a 
small business loan to new soldiers. The Army expects AAF to be a major 
recruiting market attraction--the next Army College Fund. Key to 
establishment of the AAF is the creation of an investment fund. With 
congressional support for the Army Incentive Fund, currently projected 
for NDAA 2008, we will move another step in the right direction toward 
growing the All-Volunteer Force.
    Collectively, the authority to pilot these incentives are key to 
fiscal year 2007 mission achievement, and will set conditions for 
continued success in fiscal year 2008 and beyond. We rely heavily on 
your continued support for the authorities and resources necessary to 
recruit and retain the All-Volunteer Army.

                           ENLISTED RETENTION

    The Active Army achieved all retention goals for the past 9 years, 
a result that can be directly attributed to the Army's leadership and 
the motivation of our soldiers to accept their ``Call to Duty.'' The 
Active Army retained 67,307 soldiers in fiscal year 2006, finishing the 
year 105 percent of mission. The Army Reserve finished the year 
achieving 103 percent of mission and the Army National Guard finished 
at 118 percent of mission.
    In fiscal year 2007, the Active Army must retain 62,200 soldiers to 
achieve overall manning levels. This year's retention mission is just 
as challenging as the previous year's. We believe however, that we will 
accomplish this mission. Thus far, the Active Army achieved 109 percent 
of its year-to-date mission, the Army Reserve achieved 110 percent of 
its year-to-date mission, and the Army National Guard achieved 127 
percent of its year-to-date mission. Once again, a robust bonus program 
is important to continuing success in the Army's retention goals.
    We must be no less innovative in our incentives to retain soldiers 
to fight the ongoing global war on terrorism. We continue to review the 
impact of our Reenlistment Bonus Programs on retention and additionally 
use a deployed reenlistment bonus as a tool to attract and retain 
quality soldiers with combat experience. This bonus targets eligible 
soldiers assigned to units in Iraq, Afghanistan, and Kuwait. Soldiers 
can receive a lump sum payment up to $15,000 to reenlist while deployed 
to Iraq, Afghanistan, or Kuwait. The average lump sum payment is 
currently $10,400. All components benefit from this program, and 
results show the highest rates of retention among deployed soldiers.
    Retention rates of units engaged in Operations Enduring and Iraqi 
Freedom continue to exceed 100 percent. During fiscal year 2006, the 
4th Infantry Division and the 101st Airborne Division achieved 124 
percent and 132 percent of their respective retention missions while 
deployed. Currently, elements of the 1st Armored Division are deployed 
and have achieved 137 percent of their retention mission.
    Moreover, the Army has not seen a decline in retention rates from 
units that have deployed multiple times. For example, the 10th Mountain 
Division has deployed elements of its command several times since 2001, 
and has currently achieved 162 percent of its retention mission.
    Although we have seen no downward trends in overall retention, we 
monitor our mid-career reenlistment rates closely. We adjusted our 
incentive programs to target this population of soldiers. Multiple 
deployments appear to be impacting mid-career soldiers between their 
6th and 10th year of service more than any other population. Retention 
rates of mid-career soldiers has increased from 82 percent to over 93 
percent in March. We do know that soldiers are most concerned with the 
limited time at home between deployments. They would like more 
predictability on deployments, and more time, at least 24-months with 
their families, before their next deployment.
    Additionally, all components employ positive levers, including 
Force Stabilization policy initiatives, updates to the reenlistment 
bonus program, targeted specialty pays, and policy updates to 
positively influence the retention program. We will achieve fiscal year 
2007 retention success in the Active Army, the Army National Guard, and 
the United States Army Reserve.

                    OFFICER RETENTION AND ACCESSIONS

    To man the future force, the Army must increase company grade 
officer retention to keep up with the growth brought about by 
modularity. Although the fiscal year 2006 loss rates for company grade 
officers was below the 10 year average of 8.5 percent, we must continue 
to reduce this loss rate to 5 percent. A retention strategy focused on 
near-, mid-term, and long-term retention will assist our Army to retain 
more of its best and brightest officers.
    The Army has successfully grown the officer corps over the last 
several years through increased officer promotion selection rates and 
earlier pin-on time to captain and major. For example, the captain 
promotion pin-on time has dropped from 42 months to 38 months, and the 
major promotion pin on time dropped from 11 years to 10 years. 
Additionally, promotion selection rates to captain and major are 
between 95-98 percent. While promotion rates are high, we continue to 
select the ``best qualified'' officers.
    The Army developed a menu of options that is available to officers 
upon promotion to captain and prior to their completion of their active 
duty service obligation. This menu provides officers a choice of 
incentives in exchange for an additional 3 years of active duty 
service. Officers can elect to get their post or branch/functional area 
of choice; attend a military school or obtain language training; attend 
a fully-funded graduate degree program; or receive a $20,000 Critical 
Skills Retention Bonus.
    Further, the Army implemented a pre-commissioning program in fiscal 
year 2006, allowing cadets to select a branch, post, or graduate school 
for an additional service obligation of 3 years. This program has 
proven successful in just 1 year, with 1,100 participating in fiscal 
year 2006 and 1,600 expected to participated in fiscal year 2007. The 
Army expects this program to drop loss rates of United States Military 
Academy (USMA) and Reserve Officers' Training Corps (ROTC) scholarship 
source of commissioned officers beginning in fiscal year 2010 when 
these officers would have completed their normal ADS0 (4 years for ROTC 
scholarships and 5 years for USMA). Now, these officers will retain at 
7 and 8 years respectively.
    USMA cadets may agree to serve 3 years beyond their 5-year 
obligation; scholarship ROTC cadets agree to serve their 4-year 
obligation plus an additional 3-year of active duty service; and 
nonscholarship officers agree to serve their 3-year active duty 
obligation plus additional 3 years. In fiscal year 2006, over 1,100 
cadets from USMA and ROTC signed up for this program. In fiscal year 
2007, we expect over 1,500 cadets to sign up for one of these programs, 
increasing the retention rate for USMA and ROTC year group cohort to 58 
percent by year 10.
    In 2006, we offered an additional 200 fully funded graduate school 
opportunities to serving captains, beyond the 412 graduate school 
opportunities we previously provided. Officers participating in this 
program serve an additional 3 months for each month they attend school. 
We plan to send another 200 officers to graduate school in academic 
year 2007.
    In October 2006, the Army established an Officer Retention Branch 
as part of a new campaign designed to retain more of our best officers. 
Unit commanders are getting more involved in officer retention. We 
intend to manage this program like we manage the enlisted personnel 
retention program.
    The Army is confident that the implementation of these strategies 
will rapidly grow the officer force and will enable us to meet our 
manning needs by fiscal year 2010 vice fiscal year 2013 or later if we 
relied on traditional approaches for growing the force.
    To meet the long-term needs of a larger officer corps, the Army is 
increasing its Army Competitive Category (ACC) officer accession 
mission by up to 300 officers each year, over the next 3 years. 
Accessions will increase from 4,600 in fiscal year 2006 to 4,900 in 
fiscal year 2007, 5,200 in fiscal year 2008 and 5,500 in fiscal year 
2009 and beyond. This increase in officer accessions will ensure the 
Army has enough captains and majors 4-10 years from now.
    In fiscal year 2006, IAW title 10 authority, USMA increased the 
number of officers they accepted into their 4-year degree program. This 
will result in an additional 100 officers produced through USMA in 
fiscal year 2010 and beyond.
    In addition, we are leveraging other accession programs such as the 
``Blue to Green'' Inter-service Transfer Program. To date, we have 
accessed over 325 officers into the Army from the Air Force, Navy, and 
Marines. We expect to access another 200 officers from the other 
Services in fiscal year 2007. We have also partnered with the Merchant 
Marine Academy and have contacted over 10,000 former officers that have 
separated in the past 24-months to offer them the opportunity to serve 
again.
    Through continued service, approximately 250 Reserve component 
officers volunteered to transfer to the Active component. Additionally, 
we encourage those who served honorably to serve again through a 
retiree recall or a call to active duty. Today, we have approximately 
700 retirees serving on active duty in a retiree recall status.
    Our current officer accession mission is the highest in 30 years. 
To assist in meeting this mission we will rely heavily on OCS. Though 
we increased accessions in USMA (by 100 in fiscal year 2006) and ROTC, 
those commissioning sources have longer lead times to produce officers. 
OCS is critical in meeting today's manpower needs. Since it takes time 
to increase production through USMA and ROTC (e.g. 2-4 years), as a 
short-term measure, the Army intends to maximize production from 
Federal OCS with 5 companies. Federal OCS production is expected to 
increase from 1,435 in fiscal year 2006 to 1,735 in fiscal year 2007 
and 1,985 in fiscal year 2008 to fiscal year 2010. The OCS bonus will 
help attract NCOs to go to OCS and become officers, especially as we 
increase the fiscal year 2008 OCS mission from 1,700 to 1,950. Further, 
increases in ROTC production are planned over the next 4-years from 
4,000 in fiscal year 2007 to 4,200 in fiscal year 2008, 4,500 in fiscal 
year 2009 and 5,100 by fiscal year 2010. Provided resources continue to 
flow, ROTC production is expected to reach 5,350 by fiscal year 2011. 
As ROTC production increases, more officers will be sent to the Reserve 
components and we project that we will be able to begin reducing 
Federal OCS production by roughly 200.

                               STOP LOSS

    The global war on terror demands trained, cohesive, and ready 
units. Stop Loss is a management tool that effectively sustains a force 
that has trained together, to remain a cohesive element throughout its 
deployment. Stemming from statutory authority, (section 12305, title 
10, U.S.C), the Army's Stop Loss policy is very limited in size and for 
a very short duration on average. Losses caused by noncasualty oriented 
separations, retirements, and reassignments have the potential to 
adversely impact training, cohesion, and stability in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF).
    Although there is not a specific end date for the current use of 
Stop Loss, the Army is committed to minimizing its use. Initiatives 
such as Force Stabilization (3-year life cycle managed units), 
modularity, and the program to Rebalance/Restructure the Active 
component/Reserve component for mix should alleviate stress on the 
force and will help mitigate Stop Loss requirements in the future.

                 INDIVIDUAL READY RESERVE MOBILIZATION

    The mission of the Individual Ready Reserve (IRR) is to provide a 
pool of soldiers who are ``individually ready'' for call-up. In January 
2004, the Army began our current IRR mobilization effort. We use the 
IRR primarily to fill deploying Reserve component forces supporting OIF 
and OEF, and to fill individual augmentation requirements in Joint 
organizations supporting combatant commanders.
    The IRR has improved the readiness of deploying Reserve component 
units and has reduced required cross-leveling from other Reserve 
component units. This effort allows the Army to preserve units for 
future operations.
    As of March 11, 2007, there are 2,071 IRR soldiers on active duty 
supporting the global war on terrorism--234 are supporting Worldwide 
Individual Augmentation requirements, 208 are supporting the 09L 
Linguist Program, 2 are replacements, and 1,627 are fillers. Another 
1,475 IRR soldiers have received mobilization orders, and are pending 
mobilization between now and January 27, 2008.
    The IRR also contributed to the manning of joint headquarters 
elements such as the Multi-National Force-Iraq, Combined Forces 
Command-Afghanistan, and others. This talent pool allows the Army to 
balance the contributions of the Active and Reserve components in these 
headquarters.
    The Army will continue to use the IRR and is implementing several 
initiatives to transform the IRR into a more viable and ready prior-
service talent bank.
    Until now, a large number of IRR soldiers were either unaware of 
their service obligations or were not qualified to perform further 
service. Soldiers within the IRR are now identified as ``Individual 
Warriors.'' We initiated a program where IRR soldiers will participate 
in virtual musters, attend annual readiness processing, and participate 
in training opportunities to maintain their military occupational 
specialties.
    To improve soldier understanding of service commitments, the Army 
will develop and deliver expectation management briefings and 
obligation confirmation checklists to all soldiers at initial 
enlistments/appointments and, again, during transition beginning 3rd 
quarter 2007. The Army is also conducting systematic screening to 
reconcile records and identify non-mobilization assets which will 
likely result in a reduction in the current IRR population and aid in 
establishing realistic readiness reporting.

                   MILITARY BENEFITS AND COMPENSATION

    A strong benefits package is essential to recruit and retain our 
quality force. The administration and Congress have provided very 
competitive compensation and entitlements programs for our soldiers and 
their families and we sincerely appreciate this support to our soldiers 
and families.
    With help from Congress, the Army continues to develop programs to 
address our unique challenges with recruiting and retention. Congress 
has provided us the flexible tools we need to encourage our young men 
and women to enlist in the Army. The referral bonus and the bonus for 
servicemembers who agree to transfer between Armed Forces are two 
critical authorities that provide the Army the necessary assistance to 
meet its recruiting goals.
    The extension of the pay table beyond 30 years and lifting the cap 
on retired pay percentage multiplier has enabled additional successes 
with retention.
    The Army regularly looks for ways to compensate our soldiers for 
the hardships they endure while serving under the most dangerous 
conditions. The Department has requested an increase in Hardship Duty 
Pay from $750 to $1,500 and authorized payment in lump sum. We are 
continually seeking ways to appropriately compensate soldiers for the 
hardships they endure.
    The Army appreciates your emphasis and interest in soldiers and 
families, and their need for financial support when they suffer a 
combat injury or become a casualty. Soldiers perform best when they 
know their families are in good care. Many of our surviving families 
remain in Government housing for an extended period during their 
recovery from the loss of their spouses. This facilitates a transition 
from the Service, and allows their children to continue the school year 
with the least amount of disruption. The changes to survivor benefits 
ensure all soldiers and their families are treated fairly and 
equitably. The Army also implemented the Combat-related Injury 
Rehabilitation Pay (CIP) and continues to monitor pay and personnel 
issues for our wounded warriors. Recent enhancements to survivor 
benefits and other entitlements for our wounded soldiers demonstrate 
recognition of their sacrifices and a commitment to care for our own.

                               WELL BEING

    A broad spectrum of services, programs, and initiatives from a 
number of Army agencies provide for the well-being of our people while 
supporting the combatant commander in conducting Joint and coalition 
warfighting missions. Our well-being efforts are focused on 
strengthening the mental, physical, spiritual, and material condition 
of our soldiers, civilians, and their families, while balancing 
demanding institutional needs of today's Army.

                             SEXUAL ASSAULT

    The Army continues to operate and improve its comprehensive Sexual 
Assault Prevention and Response (SAPR) Program. Its primary goal is to 
create a climate where soldiers live the Army Values. Such a climate 
does not tolerate sexual assault crimes or attitudes and behaviors 
which condone them. Further, the climate encourages soldiers who have 
been victims of assault to come forward, without fear, knowing they 
will receive the help and care they deserve.
    Calendar year 2006 represents the first full year the Army SAPR had 
Sexual Assault Response Coordinators (SARC, civilian), military 
deployable SARC advocacy support, and the restricted reporting option. 
These changes allow soldiers to receive medical care, counseling, and 
advocacy services without undergoing a criminal investigation.
    Based on the initial assessments of the program, the Army has made 
significant progress, including: the publication of a comprehensive 
policy; the expansion of the victim advocacy component of the program; 
and the proliferation of required training throughout Army units, Army 
schools, and Army response groups.
    Recently reports of sexual assaults have risen within the Army. 
While this overall increase in reported sexual assaults is of concern, 
the Army attributes this rise partially to the implementation of the 
Army's SAPR Program and the increasing culture of awareness and 
response. To date, our efforts have empowered more soldiers to come 
forward and report these crimes. Our leaders will continue to hold 
offenders accountable and ensure victims receive the care they need. 
Over 42 percent of all sexual assault investigations completed by the 
Criminal Investigation Division (CID) in 2006 were dismissed as 
unsubstantiated, unfounded, or lacking sufficient evidence. In 2006, 
there were 1,618 reported cases across the Army. This represents a 30 
percent increase over 2005, and includes 300 restricted reports. Of the 
515 calendar year 2006 case dispositions where the commander could take 
action, over one quarter (26 percent, 136 case dispositions) were 
completed by December 31, 2006. The remaining 74 percent (379) are 
still pending.
    While the increase in reported cases may not represent an increase 
in the number of actual assaults, it does indicate the magnitude of a 
problem that continues to exist. Sexual assault has consistently been 
cited as the most under-reported violent crime in the United States.
    We will persist in our efforts to improve the Army's prevention 
efforts in addressing sexual assault. As we execute the Army's SAPR 
Program and we continue to assess its effectiveness, we will make every 
effort to improve it and make further progress toward our goal of 
eliminating sexual assault in the Army.

                       SUICIDE PREVENTION PROGRAM

    The loss of any American soldier's life is a great tragedy and a 
matter of concern regardless of the cause. In the case of suicide, the 
United States Army is committed to providing prevention and 
intervention resources.
    For 2006, the Army sustained 98 active duty confirmed suicides 
(with 3 possible cases still pending), 88 in 2005, 67 in 2004, 78 in 
2003, 70 in 2002, and 51 in 2001. Although experiencing a relatively 
high number of confirmed suicides since the beginning of the global war 
on terrorism, the Regular Army average rate per 100,000 soldiers is 
11.3 for the last 5 years (2001-2005), which is lower than the rate of 
12.1 that existed prior to the war. The Regular Army rate is also 
considerably lower than the national demographically-adjusted rate of 
19.9 per 100,000.
    Our goal is to provide our soldiers and families the best available 
support to overcome the stresses that military service entails. We 
continue to work through training, counseling, and intervention 
measures to help find alternative and appropriate ways of stress 
management. Our goal is to minimize suicidal behavior and subsequently 
the risk of suicides across the Army.

                   U.S. ARMY WOUNDED WARRIOR PROGRAM

    Soldiers suffering from severe injuries or illnesses in support of 
the global war on terrorism deserve the highest priority from our Army 
for support. These heroes need services associated with healing, 
recuperation and rehabilitation, evaluation for return to duty and, if 
required successful transition from active duty to civilian life. The 
Army Wounded Warrior Program takes to heart the Warrior Ethos, ``I Will 
Never Leave a Fallen Comrade.'' To date, the U.S. Army Wounded Warrior 
Program (AW2) Program assisted over 1,500 soldiers. As soldiers 
progress through their care and rehabilitation, AW2 facilitates 
communication and coordination among the soldier, their families, and 
relevant local, Federal, and national agencies and organizations.
    The soldiers and their families gain information concerning 
available resources and opportunities for their future. Additionally, 
the soldiers gain priority access to services they may require through 
the assistance of a dedicated Soldier Family Management Specialist 
(SFMS). Since October 2005, we increased the number of SFMS from 9 to 
47, with plans to hire an additional 2 SFMS. This reduces the average 
caseload to 32 soldiers for every SFMS. Our SFMS are currently embedded 
in 11 Military Medical Treatment Facilities and 16 VA Medical Centers 
located throughout the United States. We anticipate future expansion. 
This decentralization of operations allows our SFMS to co-locate with 
our soldiers and families nationwide for optimal support.
    To date, AW2 assisted 34 soldiers for Continuation on Active Duty 
or in an Active Reserve Status (COAD/COAR). In conjunction with the 
Soldier's Career Managers at the U.S. Army Human Resources Command, a 
5-year assignment plan was developed for each soldier.
    AW2 actively seeks employment and educational opportunities for our 
soldiers and their families. During the past year, AW2 conducted more 
than 120 office calls with interested employers. An interactive geo-
employment locator is included in the AW2 Web site. AW2 participated in 
many Federal and State sponsored conferences and seminars to remain 
current on the latest developments and programs to assist the severely 
injured soldiers. Additionally, the AW2 staff networks with grass roots 
community organizations to discover new possibilities for the soldiers.
    To ensure soldiers receive the best treatment available, the AW2 
program has several initiatives working at this time. Initiatives 
include a third Wounded Warrior Symposium tentatively scheduled for 
summer or fall 2007, and the implementation of a Pilot Program with the 
National Organization on Disability (NOD). This program aligns an 
employment expert with a Soldier Family Management Specialist to 
enhance their ability to assist soldiers seeking employment.
    Additional initiatives include a cooperative review with the 
Department of Veterans Affairs (VA) of the current transition process 
of our soldiers from the military to VA health care system. AW2 is 
involved with the Veterans Advisory Committee on Rehabilitation, The 
Surgeon General's Traumatic Brain Injury Task Force, the Physical 
Disability Evaluation Transformation Initiative and the Office of 
Secretary of Defense/Health Affairs Family Transition Initiative. AW2 
is facilitating a DOD sanctioned study by the RAND Corporation to learn 
about severely injured and wounded soldiers' experiences in returning 
to duty.

                 PHYSICAL DISABILITY EVALUATION SYSTEM

    Consistent with the Vice Chief of Staff of the Army's action plan 
to fix the infrastructure of the current disability evaluation system, 
the Army's Physical Disability Action Plan is well underway and moving 
toward full implementation. We are committed to the well-being of our 
soldiers and are working toward the goal of a seamless transition 
between the Army and the VA. Our goal is to streamline the process and 
to eliminate confusion for our soldiers and their families. The Human 
Resources Community is actively engaged and focused on four objectives, 
which include: equity for soldiers in the disability rating process; 
disability system infrastructure support improvements; timely and 
accurate administrative processing and enhanced information 
dissemination. Additionally, the Army leadership established the Task 
Force Med Hold Brigade and is rapidly resourcing many of the personnel, 
infrastructure, and support needs originally identified by the senior 
leadership. We are ensuring that our wounded warriors are treated the 
way they so richly deserve and the way the Nation rightfully expects. 
We are grateful to Congress for your concern and attention paid to 
soldiers--and will continue to keep Congress informed as we improve 
these identified challenges.

              CENTCOM REST AND RECUPERATION LEAVE PROGRAM

    A fit, mission-focused soldier is the foundation of our combat 
readiness. For soldiers fighting the global war on terrorism in the 
USCENTCOM area of responsibility, the Rest and Recuperation (R&R) Leave 
Program is a vital component of their well-being and readiness.
    Every day, flights depart Kuwait City International Airport 
carrying hundreds of soldiers and DOD civilians to scores of leave 
destinations in the continental United States and throughout the world. 
Such R&R opportunities are essential when units are deployed and 
engaged in intense and sustained operations. Since September 25, 2003, 
a total of 460,850 soldiers and DOD civilians have participated in this 
highly successful program. They benefit from a break from the tensions 
of the combat environment and from the opportunity to reconnect with 
family and loved ones. The R&R Leave Program is an integral part of 
operations and readiness, and is a significant contributor to our 
soldiers' success.

                        DEPLOYMENT CYCLE SUPPORT

    Deployment Cycle Support (DCS) is a comprehensive process that 
ensures soldiers, DA civilians, and their families are prepared and 
sustained throughout the deployment cycle. It provides a means to 
identify soldiers, DA civilians, and families who may need assistance 
with the challenges inherent to extended deployments. The goal of the 
DCS process is to facilitate soldier, DA civilian, and family well-
being before, during, and after the deployment cycle.
    All soldiers deployed away from home station for 90 days or more 
complete the DCS process. Services for DA civilians and families are 
integrated in every stage of the process, and they are highly 
encouraged to take advantage of the resources provided.
    As of February 7, 2007, 480,704 soldiers completed the in-theater 
redeployment stage DCS tasks.

                           EQUAL OPPORTUNITY

    Recent newspaper reports and a Federal Bureau of Investigation 
(FBI) report concerning gangs leave the impression that gang activity 
in the U.S. Army is widespread and out of control. Reviews of both the 
recent media and FBI reports indicate that the problem was often 
overstated. In 2006, CID adopted the National Crime Information Center 
definition of a Gang and Gang Activity. This led to an increase in 
reporting over previous years. While the Army cannot state with 
certainty that no gang members exist within our Army, within our Army 
communities there are no data to support the presence of gang 
activities. The overall assessment by CID of gang activity threat in 
the Army remains low. CID and Military Police present awareness 
briefings that identify possible gang association by soldiers. 
Additionally, education, awareness, and vigilance remain the best tools 
in combating gang activities and involvement by soldiers and family 
members.

                          RETIREMENT SERVICES

    Once a soldier, always a soldier. Our efforts extend beyond our 
active duty population. The Army counts on its retired soldiers to 
continue to serve as mobilization assets and as volunteers on military 
installations. Retired soldiers are the face of the military in 
communities far from military installations. As key influences they 
often act as adjunct recruiters, encouraging neighbors and relatives to 
become part of their Army. They speak from experience.
    Retired soldiers and family members are a force of more than one 
million strong with nearly 800,000 retired soldiers and their spouses 
and family members receiving retired pay.

                               CONCLUSION

    America's Army is strong. We continue to meet our worldwide 
commitments and provide the best led, best trained and best equipped 
soldiers to combatant commanders. We need the continued support of 
Congress for the resources to maintain and grow our Army over the long 
war.
    Just as important is your support as national leaders to affect 
influencers and encourage all who are ready to answer this Nation's 
call to duty. To ensure our Army is prepared for the future, we need 
full support for the issues and funding requested in the fiscal year 
2007 supplemental and the fiscal year 2008 President's budget to 
support the Army manning requirements given the current operational 
environment.
    I thank you for the opportunity to appear before you today and I 
look forward to answering your questions.

    Senator Ben Nelson. Thank you, General.
    Admiral Harvey?

  STATEMENT OF VADM JOHN C. HARVEY, JR., USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Harvey. Thank you, sir.
    I have submitted a statement and would request that it be 
entered in the record.
    Senator Ben Nelson. It will be.
    Admiral Harvey. Sir, again, thank you for the opportunity 
to appear before you today. We are extremely grateful for your 
sustained support for the United States Navy which enables us 
to get the job done for this Nation every day around the globe. 
The men and women of our Navy continue to perform exceptionally 
well, helping to bring certainty to an uncertain world. Our 
Navy total force continues to perform its traditional at-sea 
role as we see today with the dual battlegroup operations being 
carried out in the Persian Gulf at a particularly sensitive 
time, while increasing our support in nontraditional missions, 
as we see today with over 12,000 sailors on the ground in Iraq 
and Afghanistan contributing to operations there. Our challenge 
is clear: sustain our core capabilities and readiness while 
building a future fleet increasingly capable of applying 
influence from the sea, in the littorals, and ashore.
    For the past 5 years, our focus has been on sizing the 
force, ensuring we had the right number of billets and filling 
every billet with a sailor. Today, we are focusing on shaping 
and stabilizing the force, ensuring we have the right fit 
between the knowledge, skills, and abilities required by a 
billet and those possessed by the sailor filling that billet, 
ensuring that we can easily adjust both, based on changes in 
future warfighting requirements. This shift in focus from fill 
to fit requires profound changes in the way we do business, in 
our recruiting, personnel management, distribution, training, 
and compensation processes, in order to meet the challenge of 
delivering tomorrow's force.
    It is one of my core beliefs that Cold War era recruiting 
and retention strategies will not sustain us into our future, 
given a shrinking talent pool with decreased propensity for 
military service. Changing demographics reflecting significant 
growth in immigrant and minority populations present both 
challenges and great opportunities to capitalize on America's 
growing diversity, and will yield a stronger, more cohesive, 
and more capable fighting force. Low unemployment and sustained 
economic growth are increasing the competition for the best and 
brightest talent in our Nation. Meeting our recruiting goals 
for a high quality force that we must have in the future is 
becoming increasingly challenging, particularly in specific 
critical skill areas.
    Retention dynamics are also changing, as a new generation 
of sailors, influenced by a variety of career choices, offering 
portable incentive packages and exceptional training and 
education opportunities are less likely to remain with a single 
employer for a long career. They will opt instead for frequent 
job changes over that career.
    While our existing pay and compensation, personnel 
management, and retirement systems have served us 
extraordinarily well over many generations, it is now time to 
consider comprehensive reform. It is imperative that we 
establish a competitive, fair, and flexible construct 
responsive to today's rapidly changing operational and market-
based environment. We seek your support for military pay 
reforms essential to keeping faith with our troops and 
responding to changing circumstances. Consolidating more than 
60 existing special incentive pays into roughly 8 pays, with a 
sufficient expenditure ceiling, would offer a host of 
advantages in efficiency, flexibility, and effectiveness.
    Improved agility is also needed in our personnel management 
authorities, policies, and practices. For example, existing 
Defense Officer Personnel Management Act (DOPMA) grade 
limitations inhibit our flexibility to align our personnel to 
current and projected force-structure requirements. We have 
become a far more joint and senior force, reduced in size, but 
with a vastly increased warfighting capability. As our end 
strength stabilizes, our need for more senior and experienced 
sailors to serve in this joint force continues to increase. We 
are currently operating at the very limits of our statutory 
control grade limits. Consequently, we are suppressing billet 
grades to comply with our statutory constraints.
    Similarly, adjustments to military-grade authorities are 
important in recognizing the contemporary responsibilities of 
our senior enlisted force, particularly those in the top two 
enlisted ranks. A modest increase in authorization would 
address emerging requirements for senior enlisted leadership 
for an increasing number of high-tech less-manpower-intensive 
units featuring robust capability.
    Limited military personnel demonstration authority similar 
to that authorized for civilian personnel would allow us to try 
different approaches to contemporary problems, identify the 
best of breed, and present the solution to you in Congress in 
the course of seeking new legislation. Such pilot authority can 
accelerate productive change in shaping and developing our 
military force.
    As we build the future Navy and prepare our people to meet 
the demands of this very dynamic and dangerous world, we will 
continue to improve total force readiness, stabilize our force, 
and increase our capability to respond whenever and wherever 
called upon.
    Thank you, again, sir, for your unwavering support for our 
sailors. I am now prepared to answer any questions you may 
have, sir.
    [The prepared statement of Admiral Harvey follows:]
          Prepared Statement by VADM John C. Harvey, Jr., USN
    Chairman Nelson, Senator Graham, and distinguished members of the 
Personnel Subcommittee, thank you for providing me with this 
opportunity to appear before you today.
    The one constant in our world today is change. The post-September 
11 security environment has extended Navy missions to include both 
traditional and nontraditional operations. In addition to our core 
missions we are responding to multifaceted security challenges related 
to the global war on terror. We find ourselves working with familiar 
allies, former adversaries, and an expanding set of global partners.
    In the past year, 51,943 Active component officers, 293,818 Active 
component enlisted, 12,740 Reserve component officers, 56,647 Reserve 
component enlisted, and 174,416 civilians in our Navy helped bring 
certainty to an uncertain world. They provided ``boots on the ground'' 
support to combat operations in Iraq and Afghanistan. They delivered 
food and shelter to the victims of the earthquake in Pakistan. They 
fought piracy and participated in Theater Security Operations in the 
Horn of Africa. They provided medical care and comfort to citizens in 
Indonesia, Malaysia, Bangladesh and the Philippines. They protected the 
seas and seized illegal drugs in the Caribbean. They stood watch on 
ships in the Persian Gulf providing a formidable deterrent to Iran. 
They flew combat sorties in Operations Enduring Freedom and Iraqi 
Freedom, provided security for oil platforms and conducted civil 
affairs missions in Afghanistan.
    The men and women of the Navy's Total Force--Active and Reserve 
sailors, civilians, and contractors--are the United States Navy. In 
2006, this nation and the world asked much of the United States Navy--
and Navy answered that call.
    The challenge for Navy today is to sustain our core capabilities 
and readiness while at the same time build the future naval fleet and 
develop a Navy workforce that can operate, fight and lead in a variety 
of challenging environments. Our goal is to ensure naval power and 
influence can be applied at or from the sea, across the littorals, and 
ashore, wherever and whenever required.
    The rapidly expanding requirements posed by the Nation's maritime 
strategy demand that Navy be composed of a more capable and versatile 
workforce. This workforce is, and will be, a diverse Navy Total Force, 
collectively possessing the wide array of knowledge, skills and 
abilities required to deliver critical warfighting capability to the 
joint force.
    We recognize that this requires a profound change in the way we do 
business--that the recruiting, personnel management, training, and 
compensation systems of the past will not deliver the workforce of the 
future.
    Recruiting and retention strategies that were effective during the 
Cold War, when we had a robust labor market, will not sustain us during 
this long war when there is a shrinking talent pool and decreased 
propensity to join the military. Major demographic shifts, reflecting 
an influx of new immigrants and growth in minority populations, will 
require that we focus on the talent resident in the diversity of our 
population and how we gain access to that talent. To the degree that we 
represent our Nation, we are a far stronger, more relevant Navy Total 
Force.
    A stronger economy, with low unemployment and positive economic 
growth, means there will be greatly increased competition for the best 
talent in our Nation. Recruiting the Total Force will become even more 
challenging with slower overall population growth and an aging 
workforce.
    The dynamics of retention have shifted from long-term commitments 
to a new generation, most of whom expect to change employers, jobs and 
careers several times in their working life, and are clearly motivated 
differently than previous generations. They have more choices than ever 
before, and are more technologically savvy. They expect innovative and 
flexible compensation policies, a commitment to continuing education 
and professional development opportunities.
    Our Basic Pay Table that was first conceived in 1922 and an officer 
personnel management system codified in the late 1970's. Our current 
military retirement compensation principles were essentially 
established in 1870 based upon a voluntary retirement of officers at 30 
years of service and fixed retirement pay at 75 percent of the 
officer's base pay. Perhaps it is time to re-examine existing 
compensation policies with an eye towards establishing a construct that 
is competitive, fair, flexible, and sufficiently responsive to an ever-
changing operational and market-based environment.
    As we build the Navy of the future and prepare our people to answer 
the challenges of our dynamic, dangerous world, we must continue to 
improve our Total Force readiness, stabilize our workforce, and develop 
policies that bring forth the promise of our people, ensuring full 
development of their personal and professional capabilities.

                       NAVY TOTAL FORCE READINESS

    We are a maritime nation. Throughout American history, naval forces 
have played a key role in fighting wars, defending freedom of the seas, 
and providing a formidable deterrent to aggression. Our Navy is the 
world's preeminent sea power. We are always ready and able--anytime, 
anywhere.
    America's All-Volunteer Force has been an overwhelming success. 
This force has proven to be successful not only during peacetime, but 
also during sustained periods of conflict. Our Navy Total Force serves 
because they want to serve. Young Americans are choosing military 
service, even during these trying and uncertain times. We are 
attracting better educated and more highly-skilled recruits far more 
representative of the diversity of our great Nation than at the end of 
the Vietnam-era draft. The sailors we need are ``staying Navy.''
    In 2006, Navy achieved 100 percent of our Active component enlisted 
recruiting goal, and 104 percent of our Active component enlisted 
retention goal. We met 88 percent of our Active component officer 
accession goal, and 99 percent of Active component officer end strength 
goal.
Global War on Terror-Centric Communities
    While we met individual recruiting and retention goals for most 
ratings and designators in the Active and Reserve components, our 
engagement in the long war has increased operational tempo (OPTEMPO) 
and clearly stressed the readiness of global war on terror-centric 
communities. These communities include: Naval Construction Force 
(SEABEEs), Naval Special Warfare (NSW) and Naval Special Operations 
(NSO) (SEALs, EOD, SWCC), and our health professionals. We have been, 
and continue to be, concerned about the long-term strength and health 
of these communities. We have identified programs to help address the 
challenges, and we are optimistic about meeting future commitments.
Naval Construction Force
    Our SEABEE force is in very high demand and continues to be under 
considerable stress due to the increased number and length of 
operational commitments. Despite this challenge, the Naval Construction 
Force (NCF) sets the example in volunteerism, as evidenced by higher-
than-planned reenlistment and retention rates, and high volunteer rates 
for multiple Operation Iraqi Freedom (OIF)/Operation Enduring Freedom 
(OEF) tours. On average, 18 percent of the NCF Reserve component forces 
going into OIF/OEF have volunteered for a second or third mobilization 
to theater. The latest approved Reserve component SEABEE rotation into 
OIF had a 39-percent volunteer rate for a second or greater deployment.
    Navy deployed 8 Active and 12 Reserve Naval Mobile Construction 
Battalions (NMCB), with their associated regiments (2 Active and 4 
Reserve). To meet global war on terror requirements, there are two 
NMCBs in OIF, one in OEF, one in PACOM, and one with a nominal presence 
in EUCOM. This is a Total Force deployment of both Active Duty and 
Reserve NMCBs.
    We have identified the need to expand the number of battalions and 
enhance our Reserve mobilization plans. As a result, for 2007, Navy 
added a ninth Active component NMCB. We are also pursuing a detailed, 
phased remobilization plan for use by the Reserve component NMCB in 
fiscal year 2009. We believe this integrated deployment plan for the 
NCF is sustainable through fiscal year 2014.
Naval Special Warfare and Special Operations
    Our NSW and NSO communities not only face the pressures of high 
OPTEMPO, but are further stressed by specific recruiting and retention 
challenges. The health of the NSW/NSO communities is critical to the 
Navy's success in the global war on terror and requires us to place 
special emphasis on the overall readiness of these highly specialized 
communities.
    In 2006, recruiting efforts resulted in NSW/NSO attaining 55 
percent of a QDR based increased goal. Navy met 37 percent of Explosive 
Ordinance Disposal (EOD), 59 percent of SEAL, 65 percent of Special 
Warfare Combat Crewman (SWCC), and 46 percent of Diver recruiting 
goals. As of December 2006, we had retained 79 percent of EOD, SEAL, 
SWCC, and Diver Sailors in Zone A (between 17 months and 6 years of 
service), 82 percent in Zone B (between 6 and 10 years of service), and 
89 percent in Zone C (between 10 and 14 years of service).
    To improve recruiting and retention in the NSW/NSO communities, 
Navy doubled the size of the recruiting force whose primary mission is 
NSW/NSO accession. We increased Enlistment Bonuses for each of the 
communities: $40,000 (SEAL), $18,000 (SWCC), $30,000 (EOD), and $25,000 
(Diver). SEAL Motivators have been assigned for all 26 Navy Recruiting 
Districts (NRD) to test and mentor potential NSW/NSO applicants. Each 
NRD designated a military member to assist SEAL Motivators in 
supporting applicants.
    In 2007, we will take additional steps to enhance NSW/NSO 
recruiting efforts. Commander, Navy Recruiting Command (CNRC) will 
reassign additional recruiters to the NSW/NSO recruiting effort. Six 
selected NRDs will designate one recruiter per zone for NSW/NSO leads 
identification. This designation realigns 52 recruiters from other 
recruiting efforts. A SEAL Working Group (SWG) will address all current 
and future SEAL recruiting issues. The SWG is headed by Navy's senior 
SEAL officer and CNRC. We are also piloting a NSW/NSO recruit division 
at Recruit Training Command to increase camaraderie, improve RTC 
Physical Screening Test (PST) pass rate, and reduce program attrition.
    The unique skill sets of the NSW/NSO communities demand the most 
extensive Navy training, and require exceptionally bright, physically 
fit and mentally tough individuals. Recently, it has been a challenge 
to provide a sufficient quantity of qualified applicants able to pass 
the NSW/NSO PST at Recruit Training Command (RTC). To improve readiness 
in the NSW/NSO communities, Navy implemented initiatives in physical 
training preparedness to ensure candidates are physically able to pass 
the PST at RTC.
    Health Professionals
    Navy remains committed to providing quality care for all 
beneficiaries and continuing to support OIF/OEF with medical personnel. 
One of the main challenges has been ensuring sufficient numbers of 
health professionals in critical wartime specialties. We continue to 
focus on refining and shaping our force to recruit, train, and retain 
the right mix of uniformed and civilian health providers thus 
sustaining the benefits of our healthcare system while meeting 
operational commitments.
    Generally, medical professionals do not consider the military for 
employment. Civilian medical professional salaries are still more 
lucrative than military pay and continue to outpace the offer of 
financial incentives (bonuses and loans) to our target market. 
Excessive education debt load is a major concern for medical 
professionals who turn to low-interest education loans outside the 
military. Other challenges include concerns over excessive deployments/
mobilization, especially in meeting Reserve component goals, and fear 
over the potential loss of private practices.
    In 2006, the Navy achieved 75 percent of Active component medical 
specialty mission, a 17-percent improvement over fiscal year 2005. We 
achieved 45 percent of Reserve component medical specialty mission, a 
27-percent decline from fiscal year 2005.
    In the Active component, we achieved 70 percent of Medical Corps 
(MC) accession goal, 75 percent of Dental Corps (DC) goal, 83 percent 
of Medical Services Corps (MSC) goal, and 92 percent of Nurse Corps 
(NC) goal. The Health Professions Scholarship Program (HPSP), the 
student pipeline for the majority of Navy physicians and dentists, is 
cause for concern. MC HPSP recruiting achieved just 66 percent of goal. 
DC HPSP recruiting achieved 76 percent of goal.
    In the Reserve component, we met 24 percent of MC accession goal, 
46 percent of DC goal, 29 percent of MSC goal, and 85 percent of NC 
goal. Five year Active component retention rates for these communities 
stand at 75 percent for MC, 51 percent for DC, 83 percent for MSC, and 
65 percent for NC.
    We are much more optimistic with our recruiting efforts of Hospital 
Corpsman (HM). We met 99 percent of Active component enlisted HM 
recruiting goal and 94 percent of Reserve component enlisted HM 
recruiting goal. From January 2006 to January 2007, we retained 52 
percent of HM sailors in Zone A, 55 percent in Zone B, and 84 percent 
in Zone C. HM is slightly below overall Navy retention rates for Zone B 
but is increasing. The other two HM zones are either at or exceed 
overall Navy retention rates and exceed goal.
    This past year, Navy implemented numerous incentives for health 
professionals, including tuition assistance, bonuses, financial aid 
incentives, and loan repayment programs. Our Medical, Dental, and MSC 
(Optometry) Health Professional Scholarship Program (HPSP) provides 
full tuition, books, and a monthly stipend to students. Navy's 
Financial Assistance Program (FAP) provides medical/dental residents a 
monthly stipend and an annual grant.
    Retention beyond the first career decision point is a significant 
challenge for the Dental Corps. More than 70 percent of Dental Officers 
leave the Navy at this point. Navy has funded, and is about to 
implement, a Critical Skills Retention Bonus (CSRB) for General Dental 
Officers with 3 to 8 years of service. This 2-year $40,000 bonus is 
expected to address Navy's retention for these officers. With 
enhancements included in the National Defense Authorization Act (NDAA) 
for Fiscal Year 2007, we are contemplating implementation of future 
Dental Corps Accession Bonus increases. The NDAA for Fiscal Year 2006 
authorized oral surgeons a $25,000 per year Incentive Special Pay, 
which 69 out of 70 eligible oral surgeons accepted in August 2006. Navy 
is currently contemplating a recommendation to authorize a $60,000 4-
year CSRB to abate a shortage of clinical psychologists within our 
mental health system.
    Navy currently provides bonuses for the Nurse Corps Direct 
Accession (DA) Program at $15,000 for a 3-year obligation, and $25,000 
for a 4-year obligation. Navy has combined the 3-year accession bonus 
with the Health Professional Loan Repayment Program, which offers 
$32,000 for a 2-year commitment, creating an extremely successful 
incentive package. Combined with a 3-year accession bonus, the officer 
incurs a combined active duty obligation of 5 years. We anticipate that 
Nurse Corps will meet its direct accession goal for the first time in 4 
years. We also have a $20,000 Critical Skills Accession Bonus for 
Medical/Dental HPSP recipients. We provide a $30,000-$60,000 sign-on 
bonus and/or affiliation bonus for specific medical/dental specialties.
    We appreciate congressional support for the numerous Medical 
Recruiting and Retention incentive enhancements enacted in the NDAA for 
Fiscal Year 2007. Such enhancements, coupled with an increase of over 
$21,000 in medical special and incentive pays between fiscal year 2006 
and fiscal year 2007 are expected to contribute in a significant way to 
attainment of medical recruiting and retention goals.
Language, Regional Expertise and Culture
    Because the global war on terror is truly global and stretches far 
beyond Iraq and Afghanistan, Navy continues to focus significant effort 
on transforming and enhancing our expertise in foreign language, 
regional expertise and cultural awareness.
    Navy implemented a Language, Regional Expertise and Culture (LREC) 
strategy that galvanizes and aligns related efforts across the Navy 
Total Force. We surveyed existing language proficiency within the 
workforce, increased bonuses for language competencies, initiated a 
focused effort in heritage recruiting, established a new Foreign Area 
Officer (FAO) community, and implemented training and education 
programs in regional issues.
    Navy conducted a foreign language census of the workforce, which 
yielded over 138,000 assessments of proficiency in over 250 different 
languages, many in global war on terror-related dialects and many at 
the native-level skill. To systematically capture foreign language 
proficiency in the future, Navy began mandatory foreign language 
screening at military accession points.
    Navy has tripled foreign language bonus rates (up to $1,000 per 
month for more than one language) and extended eligibility for the 
Foreign Language Proficiency Bonus (FLPB) beyond Navy career linguists 
(e.g., cryptologists and FAOs) to include any sailor, Active component 
or Reserve component, with fluency in critical languages. Since June 
2006, Navy FLPB applications have grown almost 200 percent, with 
approximately 3,000 payments made each month, and increasing at a rate 
of roughly 200 per month.
    The Heritage Recruiting Program accesses sailors from the Nation's 
immigrant communities with native-level language skill. The program 
offers a special enlistment bonus of up to $10,000 for qualified 
language proficiency, and attempts to place sailors in occupational 
specialties offering the greatest opportunity for their use.
    A forward leaning FAO community was established within the 
Restricted Line, accessing an initial cadre of 74 FAOs. We plan to 
access 50 officers a year with a goal of maturing the FAO community to 
400 officers by 2015. We are currently exploring development of a 
Reserve component FAO program and are in the early stages of defining 
the Reserve component FAO requirement. We will realign and redistribute 
existing PEP billets, as feasible, to accommodate new and changing 
international relationships with existing and emerging partners.
    The Naval Post Graduate School Regional Security Education Program, 
which deploys faculty to carrier and expeditionary strike groups 
underway, was expanded in scope and fully funded across the Fiscal 
Years Defense Program. Naval War College (NWC) integrated regional 
content into its senior and intermediate resident curricula, providing 
students with the equivalent of a minor in one of five major regions of 
the world. Instruction is tailored for online delivery to primary 
officers (O1-O3 and CWO) and senior enlisted. NWC has programmed to 
further adapt the instruction for junior and middle enlisted in fiscal 
year 2008. The newly established Center for LREC in Pensacola, Florida, 
coordinates delivery of culture and survival-level language training 
for individual and unit deployers.
Individual Augmentation
    Many communities of our Navy Total Force, beside the global war on 
terror-centric communities, are supporting the global war on terror. As 
of December 28, 2006, we have deployed or mobilized 45,194 sailors--
12,124 Active component and 33,070 Reserve component--as Individual 
Augmentees (IAs) since the beginning of OEF. Almost 75 percent of IAs 
are employed using their core Navy competencies such as, electronic 
warfare, airlift support, cargo handling, maritime security, medical 
support, explosives engineering, construction.
    Under the umbrella of Task Force Individual Augmentation (TFIA), a 
collaborative effort involving Fleet and major headquarters commanders, 
we have made significant progress improving notification, processing, 
deployment support, and recognition of duty for IAs. We increased 
average notification time from less than 30 days to over 60 days. Navy 
leveraged Active-Reserve Integration (ARI) efforts by processing all 
active duty sailors on IA tours through one of four Navy Mobilization 
Processing Sites (NMPS). We established an Expeditionary Combat 
Readiness Center within the Naval Expeditionary Combat Command to serve 
as a primary interface with IAs and their families. Navy is ensuring 
Sailors serving on IA remain competitive for advancement by providing 
specialty credit for IA tours, points toward advancement, and 
flexibility in exam taking.
    We will continue efforts to enhance predictability and stability 
for IAs and their families. Our goal is to do everything we can to 
enable them to plan--professionally and personally--for these tours. 
Navy will give priority for follow-on assignments, preclude back-to-
back deployments and increase geographic stability. We are developing 
options for shifting the sourcing of all joint warfighting requirements 
into mainstream detailing processes, providing transparency, and 
ensuring longer ``lead times'' to improve Sailor readiness and family 
preparedness.
Sailor Readiness and Family Preparedness
    Sustaining combat readiness--Fleet readiness--now and in the 
future, starts with our sailors and their families. We remain committed 
to ensuring that sailors are physically, mentally and professionally 
prepared to fulfill their missions, and that their families are 
prepared for the challenges associated with lengthy separations. As 
members of the Navy community, our family members are entitled to 
quality programs and resources to support them and meet their needs 
while their loved ones are deployed.
    Navy continues our emphasis on sailor readiness and family 
preparedness through targeted efforts in fitness, education, and 
professional development, financial management training, support to 
disabled and injured sailors, and child and youth programs.
    Fitness
    Navy established new fitness standards, training and support. 
Improved remedial programs assist sailors in meeting new physical 
fitness assessment standards. We introduced state-of-the-art fitness 
equipment and support services to all Navy afloat commands, as well as 
sites ashore in the 5th Fleet area of responsibility. In the future, 
all Navy fitness centers will establish programs and services to 
increase physical activity and nutrition awareness for our Total Force.
    Education and Professional Development
    The Advanced Education Voucher (AEV) program was implemented to 
provide off-duty educational opportunities and financial assistance to 
senior enlisted personnel (E7-E9) in pursuit of Navy-relevant post-
secondary degrees. We increased the number of semester credit hours of 
advanced education available through the Tuition Assistance (TA) 
program, and continue paying up to $250 per semester hour.
    Financial Management Training
    With the help of congressionally-supported regulation, we are 
protecting sailors and their families from predatory lending practices 
through an aggressive plan to improve financial literacy. Our personal 
financial management career life-cycle training continuum was revamped. 
Accredited financial counselors are now positioned at all Fleet and 
Family Support Centers. A series of communications and advocacy 
campaigns will heighten awareness of predatory lending at all levels of 
leadership. Senior Navy leadership will continually monitor trends and 
partner with key financial organizations to improve the financial 
literacy of sailors and their families. We will work closely with the 
other Services, OSD staff, FDIC, FTC, and other regulatory agencies to 
develop and implement regulations for predatory lending restrictions 
enacted in the NDAA for Fiscal Year 2007.
    Support to Injured Sailors
    Through our Safe Harbor Program, Navy provided 114 severely injured 
sailors, including 103 Active component and 11 Reserve component, 
timely access to available resources and support. Currently, 92 sailors 
are being actively tracked and monitored including 34 severely injured 
last year in OIF/OEF. We offer pre/post separation case management and 
deployment health assessments. Navy coordinates benefits with the 
Departments of Veterans Affairs and Labor, and other service providers. 
The Task Force Navy Family Functional Plan, based on lessons learned 
from the aftermath of hurricanes Katrina and Rita, enhances our 
response capabilities for future catastrophic events.
    Child and Youth Programs
    We are offering quality child and youth care programs to Navy 
families, which meet or exceed the national accreditation standards, 
and satisfy 69 percent of the potential need for child and youth 
program spaces. Given the additional spaces achieved by congressional-
sponsored military construction projects and other OSD sponsored 
facilities, the Navy will achieve 71 percent of the potential need for 
child and youth program spaces in 2007.
    The positive impact of these programs is reflected in the 
stabilization of Navy's divorce rates, declining rates of alcohol and 
drug abuse, as well as a lowering of the number of substantiated cases 
of spouse or child abuse.
    Basic Housing Allowance
    We welcome Congress' decision to return funding for Basic Allowance 
for Housing and Facilities, Sustainment, Restoration, and Modernization 
to the traditional Defense Appropriations accounts in fiscal year 2008, 
and we hope that Congress will afford us with ample transfer authority 
during fiscal year 2007 to effectively manage these accounts.
Sea-Shore Rotation
    Enhancements to our Sailor readiness and family preparedness are 
critical because we are a sea-centric force. Navy's first priority is 
to properly man sea duty and frontline operational units. This means 
placing a higher priority on utilizing sailors ``at sea.'' As the 
number of Navy missions and operations increases, and as we continue to 
make adjustments to stabilize the Navy workforce, we have, and will 
continue to, become more sea-centric.
    Initial analysis indicates that while it will be possible to 
sustain a more sea-centric military workforce, it will be more costly. 
This is due not only to normal cost-of-living increases, but also to 
increased costs of compensation, training, and recruiting and retention 
incentives.
    Navy continues to evaluate options for rotation of the workforce as 
we become more sea-centric. We are in the early stages of determining 
how to transition our current sea-shore rotation business practices to 
achieve four desired outcomes for our people: geographic stability, 
deployment predictability, increased professional and personal 
development, and continually satisfying work.
    The Navy's Total Force is ready. We are meeting most recruiting and 
retention goals, addressing stress in global war on terror-centric 
communities and for IAs, developing new capabilities and communities, 
and preparing our sailors and their families for a more sea-centric 
force.
    It is not enough to be ready today. We must look forward and 
predict our future requirements. We must continuously assess the size 
of our total Navy workforce, and make the necessary course corrections 
to shape and stabilize our workforce based on anticipated future 
requirements.
         sizing, shaping, and stabilizing the navy total force
    For several years, our focus was on sizing the force--ensuring we 
had the right number of billets, and filling every billet with a 
sailor. Today, we are focusing on shaping and stabilizing the force--
ensuring we have the right fit between the knowledge, skills and 
abilities required by a billet and those possessed by the sailor 
filling that billet, and ensuring we can easily adjust either based on 
changes in warfighting requirements.
    The goal of sizing the force is to determine the right number of 
billets required to meet current and future warfighting requirements. 
The goal of shaping the force is to ensure we have the right type of 
individual available in our workforce to fill those billets. The goal 
of stabilizing the force is to have a personnel management system that 
can proactively respond to changes in warfighting requirements.
    Sizing the Total Force
    After the initial post-September 11 workforce surge, Navy started 
reducing end strength in a controlled manner commensurate with 
reductions in force structure and our infrastructure. We were reducing 
manpower in conjunction with a decrease in the number of ships and 
aircraft. We were focused on reducing the number of people in each 
component of the Total Force.
    In 2006, Navy shifted from this platform-based manpower 
determination approach to capability-based personnel management. Based 
on extensive analysis of the current and future warfighting needs, we 
forecasted that the Active component manpower required to provide the 
necessary capabilities is approximately 322,000 for a force structure 
of 313 ships and approximately 3,800 aircraft. As a result, we are now 
``exiting the glide slope''; that is, we are planning to stabilize the 
Navy Active component workforce around 322,000 by fiscal year 2013.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our analysis also allowed us to evaluate the quality of fit between 
the work that needed to be done and the skill sets of the sailors 
assigned to do that work. In some cases, we identified work currently 
performed by sailors that could be done more efficiently by employing 
new technologies, decommissioning manpower-intensive platforms, 
improving training or work processes, or altering the mix of military, 
civilian, and contractor resources.
    As we move toward an Active component workforce of approximately 
322,000 in fiscal year 2013, we will decrease Active component strength 
by approximately 14 percent between 2003 and 2008. It is extremely 
important to note, however, that during this reduction, the overall 
cost of our manpower will rise by almost seven percent. Not only will 
accessing and retaining our Sailors be generally more expensive, but, 
as skill requirements increase, the cost to train, educate and retain 
them will increase, as well. It is imperative that our force be 
effective and cost-efficient as we ``exit the glide slope.'' We can not 
afford--operationally or fiscally--anything less.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Shaping the Total Force
    In order to shape an appropriately skilled Active component 
workforce sized at 322,000, Navy must utilize all force-shaping tools 
at our disposal. We must also look for new strategies such as DOPMA 
grade-relief and innovative compensation programs. We need to apply 
both small adjustments and major course corrections in order to shape 
our force into a smaller, more effective and cost-efficient Total 
Force.
    Rating Merger
    Navy reviewed its ratings (i.e., job specialties) to ensure we 
provide the fleet with the right skill mix and reduce redundancies. 
Since 2003, the total number of enlisted ratings has been reduced from 
81 to 77. Twelve ratings were disestablished through mergers that 
better reflect sailors' skill sets and duties performed. Eight ratings 
were established to align ratings to changing technology and emerging 
skill sets.
    Rating Conversion
    Perform to Serve (PTS) is a rating conversion program that permits 
sailors in overmanned ratings to switch to other ratings that are 
undermanned. The goal is to align our Navy personnel inventory and 
skill sets through a centrally managed reenlistment program, and to 
instill competition in the retention process. Since inception 4 years 
ago, more than 6,400 sailors have been guided to undermanned ratings, 
and more than 98,800 have been approved for in-rate reenlistment.
    Voluntary Separation
    Voluntary Separation Pay (VSP), enacted in 2006, has been a useful 
addition to our force shaping tools by providing a financial incentive 
to elicit voluntary separations by officers in carefully targeted 
communities. VSP has been used to separate 132 officers from an 
eligible pool of 208. Navy greatly appreciates the additional 
flexibility that Congress enacted in the NDAA for Fiscal Year 2007, 
which will permit Navy to extend the use of VSP to select enlisted 
personnel and apply it to members with between 6 and 20 years of 
service.
    MIL-CIV Conversion
    Conversion of military billets, not focused on inherently military 
work, to civilian billets enhances our ability to align military 
personnel to warfighting functions. This year, we will target 
nonwarfighting functions previously staffed and performed by military 
personnel, for conversion. We will transfer some commissioned U.S. 
vessels to Military Sealift Command (civilian mariners). Our focus will 
be on mil-civ conversions for medical and legal services, aviation 
support and maintenance, training support, and headquarters 
administrative functions.
    Law and Regulation
    DOPMA and the Goldwater/Nichols Act, both conceived and enacted in 
the Cold-war era, make it difficult to efficiently align our personnel 
to current and projected force structure requirements. Navy has become 
a far more joint and senior force, reduced in size, but with increased 
warfighting capability. As Navy end strength stabilizes, the need for 
more senior and experienced officers will continue to increase. Navy is 
currently operating at, or very near, statutory control-grade limits 
across the board and, consequently, is suppressing billet grades 
through the programming and budgeting process in order to comply with 
DOPMA constraints. In fiscal year 2008, Navy is seeking relief from 
current control-grade limits to enable us to properly man our billet 
structure while providing a reasonable amount of flexibility to respond 
to continually emerging external control grade requirements.
    Incentives
    The Assignment Incentive Pay continues to be an effective market-
based incentive to elicit volunteers for difficult-to-fill jobs in 
critical, but less desirable locations. Navy recoded approximately 
8,800 billets from a nonmonetary incentive (overseas shore duty with 
sea duty credit) to a normal shore tour with a monetary incentive.
    Sea Duty Incentive Pay (SDIP) will soon be implemented as a pilot 
program to incentivize enlisted Sailors in sea-intensive ratings to 
volunteer for longer sea duty. Sailors will either extend their 
assignment at sea, or curtail their assignment ashore, returning to sea 
duty. SDIP is aimed at increasing assignment flexibility to support the 
Navy's move toward a more sea-centric force.
    Retention Shaping Tools
    Selective Reenlistment Bonus (SRB), our primary retention tool, 
allows us to optimize the Navy workforce by targeting personnel with 
precise, in-demand skills and experience to reenlist. Navy's maximum 
SRB payment is currently set at $75,000, allowing sufficient 
flexibility to increase the bonus ceiling as retention needs dictate 
over the next several years. This cap increase has been extremely 
valuable in retaining experienced nuclear-trained personnel and SEALs.
Stabilizing the Total Force
    In the past year we have seen remarkable developments in the global 
security environment. It is clear that the security challenges of this 
century will be multifaceted and wide-ranging. If we are to respond to 
this rapidly-changing environment, we must have a capability-based 
personnel management system that is proactive, agile and cost-
efficient. Such a system will allow a stabilized force that can rapidly 
adjust to new requirements. A key to establishing this system is a 
single, centralized analytical construct that is Navy-wide and balances 
warfighting requirements, personnel, and costs.
    In 2006, the Navy's Manpower, Personnel, Training, and Education 
(MPT&E) Domain became the Single Manpower Resource Sponsor. The OPNAV 
N1 organization became the single point of responsibility for oversight 
of resourcing and manning all Navy, Active and Reserve, end strength. 
This consolidation of planning, programming, budgeting and execution 
authority places all Navy billets and positions into a single 
analytical framework. Having centralized authority and accountability 
enables Navy leadership to look across the entire Service to identify 
and prioritize the work to be performed in delivering warfighting 
capability. Our analytical framework links people to work, work to 
platforms, and platforms to capabilities resulting in far better 
ability to fit our people directly to warfighting capability.
    In 2007, as the Single Manpower Resource Sponsor, OPNAV N1 will 
assume a more robust assessment responsibility through close liaison 
with Resource Sponsors, Appropriation Sponsors and the warfighting 
Enterprises through all phases of the Planning, Programming, Budgeting 
and Execution System process. I intend to expand our focus beyond 
military personnel to include the Navy's civilian workforce as well.
    The transition from FILL--a sailor in every billet--to FIT--the 
right person (military, civilian or contractor) in the right position--
is just the beginning. Navy has developed strategies and action plans 
to enable sustainment of the changes we have made to-date, and carry us 
through to match the rapidly changing demands sure to come.

                STRATEGIES FOR THE FUTURE NAVY WORKFORCE

    Sometimes we still think of the 21st century as the future. It is 
not. It is today. Sailors, Navy civilians, and contractors who will 
respond to uncertain future missions are entering the workforce and 
Navy today. What we do today--the decisions we make--will dictate our 
situation tomorrow, and determine what we are capable of in the future.
    To inform, guide and ensure these decisions enable us to sustain 
the ready, stable Navy workforce we need in the future, we have defined 
a number of strategies and action plans to transform the Navy Total 
Force. These strategies address: the long term vision of Navy MPT&E; 
leveraging the diversity of our Total Force; executing Spiral One Sea 
Warrior; integrating education and training across Navy; better 
preparing and positioning the Navy to support Joint missions, and 
integrating our Active and Reserve military force.
Strategy for Our People
    To sustain a stable Total Force, we must transform into a 
capability-driven, competency-based, diverse, Total Force that is 
agile, effective, and cost-efficient.
    In 2006, we developed the MPT&E Strategic Vision. This vision sets 
the course along which Navy's Total Force management will evolve over 
the next 10 years. It describes our environment of uncertainty and 
changing operations, a more competitive marketplace and rising fiscal 
constraints. It defines six strategic goals that, when achieved, will 
enable us to be responsive and effective in the future.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our six strategic goals for 2016 are:

        <bullet> An Effective Total Force. Workforce components--Active 
        and Reserve sailors, Federal civil employees, and contractors--
        will be viewed as one, integrated team that supports required 
        warfighting capability.
        <bullet> Capability-driven. Navy workforce requirements will be 
        based on current and future joint warfighting needs as dictated 
        by the national defense strategy.
        <bullet> Competency-based. Navy work and workforce will be 
        defined, described and managed by the knowledge, skills, and 
        abilities that enable performance required for mission 
        accomplishment.
        <bullet> Competitive in the marketplace. We will continuously 
        revise and update our policies and practices to deliver 
        necessary and comprehensive pay and compensation structures 
        such as life-long learning, career choice and improved family 
        support.
        <bullet> Diverse. We will have a culture of inclusion that 
        encourages and enables all sailors and civilians to reach their 
        full professional and personal potential.
        <bullet> Agile and cost effective. We will deliver additional 
        capability from a smaller, yet increasingly talented, educated, 
        and integrated workforce.

    In 2007, we intend to define specific approaches and action plans 
to achieve our six strategic goals. We will develop roadmaps that 
define the specific tasks and activities that must be undertaken to 
ensure we are making decisions that move us forward toward our vision. 
These roadmaps will include precise objectives that enable measurement 
and accountability.
Diversity Campaign Plan
    Diversity is a strategic imperative for our Navy. Our diversity 
program leverages the different characteristics and attributes of 
individual sailors and civilians. It enhances the contribution of our 
diverse force to mission readiness.
    We defined the Navy's Diversity Campaign Plan. This plan consists 
of three Phases: Phase I-Assessment; Phase II-Decisive Action, and 
Phase III-Sustainment and Accountability. Phases I and II are complete. 
We are now in Phase III.
    The goals of this plan are to: (1) institutionalize a culture that 
values and fully leverages the unique attributes of the Navy's 
workforce, (2) attract and retain the best talent of our Nation, and 
(3) provide opportunity for all to succeed and advance.
    In Phase I, we took a fix--to get a Navy-wide snapshot of where we 
are in diversity, specifically looking at how recruiting, retention, 
and promotion practices have resulted in current demographics. As a 
result, five focus areas were identified for further analysis and 
action: Accountability; Outreach; Mentoring; Training, and 
Communication. Our focus was on operationalizing diversity as a 
frontline issue by involving all Navy leadership in the effort. We 
attempted to understand why we have diversity shortfalls in some 
communities, ratings and occupations, and how we can best improve and 
sustain representation in those areas.
    During Phase II, we performed root cause analysis and implemented 
decisive corrective actions to institute enduring change. We identified 
diverse affinity groups and other organizations that Navy would engage 
or increase engagement with to institute an outreach regimen and build 
a sustained engagement strategy. A mentoring program was conceived that 
is formalized but voluntary for mentors and proteges and incorporates 
one-on-one group and peer-to-peer mentoring. An overarching 
communication strategy was prepared to deliver a coherent and 
consistent message to the force.
    In Phase III, we are committed to sustainment and accountability. 
Our focus is on continuing and enduring actions which are critical to 
our long term success. Navy will communicate a coordinated and 
consistent strategic diversity message. There will be CNO Enterprise/
Community accountability reviews, which will improve outreach--moving 
from episodic to sustained engagement. We will launch a service-wide 
mentoring program, and ingrain diversity throughout the learning 
continuum, empowering our leadership Navy-wide to reinforce the 
strategic imperative of diversity in today's Navy.
Spiral One Sea Warrior
    Our new generation of sailors expects to be more involved in making 
their career and life decisions. As a result, we are moving from a 
schedule-based requisition legacy system to sailor choice and 
partnership, a sailor-centered model.
    The Sea Warrior family of career management tools is based on 
entrepreneurial efforts of Revolution in Training, Project SAIL and 
Improving Navy's Workforce, which helped us precisely understand the 
work that we need to do, and how we can best match the sailor to that 
work.
    Like other elements of Sea Power 21, Sea Warrior is a conceptual 
framework to deliver a capability. Our long range vision--an easy to 
use, integrated and responsive family of career management, training, 
and education systems for sailors to invest in and direct their 
careers, education, and professional development--remains unchanged. In 
the near-term, we are focused on access and delivery, performance, and 
policy to support one primary product--interactive detailing.
    In 2006, Navy applied programmatic discipline to place more rigor 
into specific content development. We stood up a program office within 
PEO-EIS and deepened partnerships with key Navy organizations. We also 
unbundled existing products (Navy Knowledge Online, SMART transcripts, 
Navy Credentialing Opportunities Online (COOL)) to field Sea Warrior 
Spiral One--Career Management System (CMS) with Interactive Detailing 
capability.
    In the future, we intend to continue to test, evaluate, and deliver 
proven products to sailors. Sea Warrior will be established as a 
program of record for POM-10. Testing starts this year with a tightly 
defined control group to use the system and provide us valuable 
feedback to improve upon this capability. The ability to apply for 
billets online using CMS-Interactive Detailing (consistent with policy 
and access) will be delivered to our sailors by June 2009. In future 
spirals, we will build on lessons learned and as access and systems 
capability improve, we will move from a policy focus to individual 
sailor and access and capability focus. As each build reaches maturity 
(and passes strict quality acceptance tests for accuracy, ease-of-use, 
and technical robustness), we will open its use to wider audiences.
Navy Education Strategy
    Developing a Total Force that is ready any time, anywhere starts 
with education. Education provides the foundation for development and 
enhancement of the critical thinking skills necessary to confront 
uncertainty, and adapt and respond quickly and decisively. Education is 
a strategic investment for Navy's Total Force. It provides preparation 
for enduring missions that are well-known, plus yet-to-emerge missions 
we know are certain to come.
    In 2006, the Navy conducted a study that sought to establish a 
requirements and career progression framework and lay the groundwork 
for an education strategy within that framework. The study included 
intensive discussions with Navy leaders, unintended consequence 
analysis of prospective education initiatives, and a literature review 
and exploratory data analysis.
    In 2007, the Navy will conduct a follow-on study that includes 
extensive data gathering, model building, and data analysis. The goal 
is to develop a comprehensive Navy Education Strategy that: supports 
the Navy Total Force, enhances warfighting proficiency; strengthens 
joint, multi-national and interagency operations; addresses enduring, 
emergent and future requirements, and exploits learning strategies and 
best practices.
Path to Jointness
    The Navy is committed to developing joint leaders--both in the 
officer and senior enlisted communities. We are pursuing a ``Path to 
Jointness'' that will improve how we plan, prepare and assign Navy 
leadership talent to joint positions in a way that maximizes the Navy's 
contribution to joint, interagency, and multi-national coalition 
partners.
    In 2006, we made significant progress on the policy initiatives 
linking career progression and assignment with the Chairman's Vision. 
We defined the professional military education (PME) requirements for 
the ranks of E-1 through 0-8 across the entire Active and Reserve 
military forces. Navy has revised the process to select and assign 
officers who have clearly demonstrated the potential to assume 
positions of strategic and operational leadership of staff 
responsibilities as appropriate to their grade in Navy, Joint, 
interagency and multi-national billets. The Navy now requires 
completion of Intermediate PME, including JMPE Phase I for selection to 
URL 0-5 Command by fiscal year 2009 screen boards (which are actually 
held in fiscal year 2008).
    In 2007, we intend to continue our efforts on the ``Path to 
Jointness'' by expanding our efforts to the Total Force, and monitoring 
our policy and process changes to ensure compliance and effectiveness. 
We will expand our efforts by providing the appropriate PME to the 
entire Active and Reserve Total Force, and ensuring graduates are 
tracked and assigned to billets that exploit their education and 
accelerate their development as joint leaders. Our effectiveness will 
be tracked by the number and percentage of PME graduates assigned to 
career milestone billets. We have set a requirement for 100 percent 
fill of Navy resident student billets at all Joint, Service, and 
foreign war colleges.
Active-Reserve Force Integration
    Navy continues to make significant strides in achieving a true 
Total Force through ARI. ARI aligns Active and Reserve component units 
to achieve unity of command. It leverages both budgetary and 
administrative efficiencies, and ensures that the full weight of the 
Navy resources and capabilities are under the authority of a single 
commander.
    Strength planners and community managers, both Active and Reserve, 
are being collocated and are implementing the same business rules and 
models to manage our Navy's manpower from a Total Force perspective. 
Active and Reserve regions have been aligned under the five CONUS Navy 
Region Commanders and Naval District Washington, to improve 
communications and provide mutual support, optimizing our resources and 
making them more accessible across the Navy.
    Navy Reserve Centers have been redesignated as Navy Operational 
Support Centers (NOSCs). Their mission is to meet the requirements of 
the fleet and combatant commanders by providing integrated operational 
support to supported Navy and joint commands worldwide.

                               CONCLUSION

    Your Navy is ready. We are ready now and we will be ready tomorrow. 
We are recruiting and retaining the best and brightest talent our 
Nation has to offer. Our sailors, our civilians, and their families, 
are physically and mentally prepared. We have sized and shaped our 
force based on current and projected warfighting requirements. We are 
building a more flexible personnel management system that can rapidly 
respond to the ever-changing security environment. Our strategies for 
the future are defined and executing.
    The United States Navy has a proud history of accomplishing its 
maritime core missions-forward presence, crisis response, sea control 
and power projection. This past year, our Total Force not only lived up 
to, but surpassed, this standard, accomplishing our traditional 
missions, as well as supporting the nontraditional missions of the long 
war--counterinsurgency, counterterrorism, civil-military operations and 
nation-building. We also provided desperately needed humanitarian 
assistance around the globe.
    The challenge before us is the uncertain world. We do not know 
which of these missions we may be called upon to perform in the future. 
The Nation needs a strong Navy--with unmatched capability, global 
reach, persistence presence, agility and unequaled lethality. Our 
Navy's Total Force must be ready today and in the future to respond 
whenever, wherever we are called upon to do so. That is our heritage, 
that is our tradition and that is exactly what we will do.

    Senator Ben Nelson. Thank you, Admiral.
    General?

     STATEMENT OF LT. GEN. RONALD S. COLEMAN, USMC, DEPUTY 
  COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES 
                          MARINE CORPS

    General Coleman. Good afternoon, sir. I have submitted a 
statement.
    Senator Ben Nelson. It will be included in the record.
    General Coleman. Yes, sir. Thank you, sir.
    Chairman Nelson, Senator Graham, and distinguished members 
of the subcommittee, it is a privilege to appear before you 
today to discuss the Marine Corps policy and program.
    I want to first thank you for all your continued support of 
our marines and their families. The commitment of Congress to 
increasing the warfighting and crisis-response capabilities of 
our Nation's Armed Forces and to improve the quality-of-life 
for marines is central to the strength that your Marine Corps 
enjoys today. I would like to make three points.
    First, in fiscal year 2006, the Marine Corps exceeded its 
mission in both recruiting and retention. In doing so, we 
continue to exceed DOD-quality standards in recruiting. We also 
achieved over 90 percent military occupational speciality match 
in first-term enlistments, and over 94 percent in career force.
    Second, in fiscal year 2007, the Marine Corps is off to a 
strong start in both recruiting and retention. We were 
initially on pace to meet or exceed our fiscal year 2006 
results. As part of the plan to increase our end strength to 
202,000 by fiscal year 2011, we're now planning to increase our 
end strength to 184,000 by the end of fiscal year 2007. 
Consequently, we recently increased both our recruiting and 
retention missions significantly. These new missions will 
present challenges for recruiters, commanders, and career 
retention specialists, but we believe we will meet the 
challenge. Key to our success will be the additional funding 
that we have applied to both our enlisted bonus and Selective 
Reenlistment Bonus Program.
    Third, the increased Marine Corps end strength will enable 
your Marine Corps to better train across the warfighting 
spectrum, respond to other conflicts and crises, and reduce the 
strains on our marines and units. Meeting the end strength 
growth requirements will require us to continue to increase our 
recruiting and retention goals. The Marine Corps will also 
increase the number of recruiters, expand marketing and 
advertising efforts, and increase enlistment and reenlistment 
incentives. We ask for your support in authorizing and funding 
these programs. With these important tools, we will be able to 
continue to attract and retain the best and brightest.
    Thank you. Your Marine Corps remains the Nation's force in 
readiness and will continue to fill its mission of being the 
most ready when the Nation is least ready.
    I look forward to answering your questions.
    [The prepared statement of General Coleman follows:]

         Prepared Statement by Lt. Gen. Ronald S. Coleman, USMC

    Chairman Nelson, Senator Graham, and distinguished members of the 
subcommittee, it is my privilege to appear before you today to provide 
an overview of your Marine Corps personnel.

                              INTRODUCTION

    We remain a Corps of Marines at war with over 33,700 marines 
deployed to dozens of countries around the globe. The young men and 
women who fill our ranks today recognize the global, protracted, and 
lethal nature of the challenges facing our Nation, and their dedicated 
service and sacrifice rivals that of any generation preceding them.
    Thanks to you, ladies and gentlemen, your marines know that the 
people of the United States and the Government are behind them. The 
continued commitment of Congress to increasing the warfighting and 
crisis response capabilities of our Nation's Armed Forces, and to 
improve the quality-of-life of marines, is central to the strength that 
your Marine Corps enjoys today. The Nation is receiving a superb return 
on its investment in the world's finest expeditionary force.
    This past year, you have seen evidence of this not only in Iraq and 
Afghanistan, but in Lebanon, where we were partners in the largest 
noncombatant evacuation since Vietnam; in the southern Pacific, as part 
of humanitarian assistance and relief efforts in the wake of multiple 
natural disasters; and throughout the world in our theater security 
cooperation engagements. We know the future will remain challenging--
not only in the current conflicts, but in subsequent campaigns of the 
long war on terror. I am confident that with your continued support, 
your corps will remain the Nation's force in readiness and will 
continue to fulfill its congressionally mandated mission of being the 
most ready when the Nation is least ready.

                      RIGHT-SIZE OUR MARINE CORPS

    To meet the demands of the ``Long War'' and other crises that 
arise, our corps must be sufficiently manned, trained, and equipped. 
Like the Cold War, the ``Long War'' is a continuing struggle that will 
not be measured by the number of near-term deployments or rotations. To 
meet our challenges, we must ensure that our personnel policies, 
organizational construct, and training are able to operate at a 
``sustained rate of fire.''
Strain on the Individual
    Marines are resilient warriors and are willing and able to absorb 
increased deployment stress without outward symptoms. However, any 
deployment causes stress as members are away from their families and in 
dangerous environments. Families worry about their loved one's safety 
and spouses have to care for their children alone. As members deploy 
multiple times, these stresses are multiplied. Nevertheless, despite 
the current unparalleled Personnel Tempo, the morale of our marines and 
their families remains high.
    To avoid an adverse toll on our marines and their families, and to 
prevent a decrease in readiness, the Secretary of Defense established a 
1:2 deployment-to-dwell ratio goal for all Active component forces. 
This ratio relates to how long our forces are deployed versus how long 
they are at home--the goal being for every 6 months a marine is 
deployed, they will be back at their home station for 1 year. We need 
to relieve the strain on those superb Americans who have volunteered to 
fight the Nation's battles.
Strain on the Institution
    The current deployment cycle requires commanders to focus on those 
skill sets required to accomplish the mission in Iraq and Afghanistan. 
This emphasis, along with the added requirement for individual 
augments, training team requirements, and the need to deploy many units 
for missions outside of their normal functions has caused deterioration 
in other skill sets. The result of this strain is limitation in the 
Marine Corps' ability to provide trained forces to project power in 
support of other contingencies. To fulfill our mandate to be ``most 
ready when the Nation is least ready,'' our deployment cycles must not 
only support training for irregular warfare, they must also provide 
sufficient time for recovery, maintenance, and training for other 
contingency missions.
Reducing the Stress
    The proposed increase to our Active component end strength to 
202,000 marines by fiscal year 2011 will go a long way to reducing the 
strain on the individual marines and the institution. It will enable us 
to build capacity to fight the ``Long War'' and to better train and 
respond to other crises. It will also help us meet the Secretary of 
Defense's goal 1:2 deployment-to-dwell ratio.
    Our first task will be to build 3 new infantry battalions and their 
supporting structure--approximately 4,000 marines. We will then 
systematically build the additional individuals and units on a schedule 
of approximately 5,000 per year. This plan will gradually increase the 
deployment-to-dwell ratio of some of our habitually high operational 
tempo units such as ground reconnaissance, light armored 
reconnaissance, assault amphibian, combat engineer, military police, 
signals intelligence, unmanned aerial vehicle, helicopter, air command 
and control, combat service support and explosive ordnance disposal 
units.
    Increasing end strength to 202,000 will be achieved by through 
increased Active component accessions and increased retention. These 
mission increases will be significant and will require additional 
compensation incentives. We have developed a number of Assignment 
Incentive Pay based initiatives that will be critical to our increased 
retention missions, and we ask for congressional support for these 
programs.
Reserve Component End Strength
    Our efforts in the ``Long War'' remain a Total Force effort. Recent 
policy changes within the Department of Defense (DOD) will allow us to 
use the Reserve Forces as they were structured to be employed--to 
augment and reinforce our Active component forces. To this end, our 
goal is to obtain a 1:5 deployment-to-dwell ratio within our Reserve 
component. We believe our current authorized Reserve component end 
strength of 39,600 selected Reserve marines is adequate. As with every 
organization within the Marine Corps, we continue to review the make-up 
and structure of the Marine Corps Reserve in order to ensure the right 
capabilities reside within the Marine Forces Reserve units and our 
Individual Mobilization Augmentee program across the force.
Funding
    The Marine Corps greatly appreciates the increased end strength to 
180,000 in the National Defense Authorization Act for Fiscal Year 2007. 
Our program of record requires that we internally fund any end strength 
in excess of 175,000 marines. We are resourcing these additional costs 
through supplemental funding.
Compensation
    The vast majority of our personnel budget is spent on entitlements, 
including compensation. Compensation is a double-edged sword in that it 
is a principal factor for marines both when they decide to reenlist and 
when they decide not to reenlist. Private sector competition will 
always seek to capitalize on the military training and education 
provided to our marines--marines are a highly desirable labor resource 
for private sector organizations. The targeted pay raise effective 1 
April 2007 has allowed the Department to accomplish its efforts in 
bringing all pay grades up to the 70th percentile of comparably 
educated civilian pay levels. We look forward to the product of the 
thorough analysis being conducted by Quadrennial Review of Military 
Compensation review of the Defense Advisory Committee on Military 
Compensation recommendations.
    The continued support of Congress for appropriate increases in 
basic pay and a sound, comprehensive compensation and entitlements 
structure greatly assists efforts to recruit and retain the quality 
Americans you expect in your corps.

                               RECRUITING

Active Component
    In fiscal year 2006, the Marine Corps achieved 100.1 percent of the 
enlisted shipping (accession) objective. Over 95 percent of those 
shipped to recruit training were Tier 1 high school diploma graduates 
and 68 percent were in the I-IIIA upper mental group testing 
categories. In short, we accomplished our recruiting mission and 
exceeded DOD quality standards. To meet the Marine Corps' proposed end 
strength increase, annual total force accessions missions must steadily 
grow from 38,217 in fiscal year 2006 to 45,000 in fiscal year 2010. 
Fiscal year 2007 total force accessions mission is 39,927. As of March 
1, 2007, we have shipped (accessed) 13,568 recruits to basic training 
which represents 102 percent of our mission fiscal year to date. 
Although challenging, we anticipate meeting our annual recruiting 
mission. With regard to our self-imposed contracting mission, we are 
ahead of our current plan for the year and expect to meet our 
objectives. Our Officer Selection Teams were also successful accessing 
1,494 second lieutenants in fiscal year 2006, 101 percent of mission, 
and we are on course to make our officer accession mission in fiscal 
year 2007.
Reserve Component
    For the Reserve component, the Marine Corps achieved its fiscal 
year 2006 Reserve enlisted recruiting goals with the accession of 5,880 
non-prior service marines and 3,165 prior service marines. As of 1 
March 2007, we have accessed 1,874 non-prior service and 1,746 prior 
service marines, which reflects 35 percent and 50 percent of our annual 
mission, respectively. Again, we expect to meet our Reserve recruiting 
goals this year. Officer recruiting and retention for our Selected 
Marine Corps Reserve units is traditionally our greatest challenge, and 
remains the same this year. To help address this issue, we have 
initiated a Reserve officer commissioning program exclusively to 
address the company grade officer shortfall. Under this program, 
individuals will attend Officer Candidates School, The Basic School, a 
Military Occupational Specialty school, and return to a Reserve unit to 
serve. When coupled with the continued selected Reserve officer 
affiliation bonus provided in the National Defense Authorization Act 
for Fiscal Year 2007, we believe we will have established a method to 
retain officers leaving active duty and attract qualified officer 
applicants into the Reserve ranks.
Accomplishing the Mission
    To assist in meeting our growing recruiting mission, the Marine 
Corps plans to increase the number of recruiters, retain experienced 
recruiters, increase enlistment incentives, and expand marketing and 
advertising efforts. The recruiting environment continues to be highly 
challenging. Private sector opportunities, low unemployment, declining 
propensity for military service, the global war on terror, and the 
higher costs in advertising require innovation in marketing the Marine 
Corps. We strive to emphasize intangible benefits by projecting the 
Marine Corps message of ``Tough, Smart, Elite Warrior,'' and the 
``transformation'' that a young man or woman experiences in becoming a 
marine. The Corps continues to explore the best means to communicate 
and appeal to the most qualified young men and women of the millennial 
generation. We endeavor to educate the parents of potential applicants. 
Parents continue to have the greatest influence on young men and women 
in their decision to serve their country, and it is important that we 
inform them of the benefits of serving in the Marine Corps.
    Our message is reinforced through marketing and advertising 
programs--paid media, leads for recruiters, and effective recruiter 
support materials. Paid advertising remains the most effective means to 
communicate our message and, as a result, is the focus of our marketing 
efforts. As advertising costs increase, it is imperative that our 
advertising budgets remain competitive to ensure that our recruiting 
message reaches the right audience. Marine Corps recruiting success in 
the past is a direct reflection of a quality recruiting force and an 
effective and efficient marketing and advertising program. We would 
like to thank Congress for their continued support of the ``No Child 
Left Behind Act'' which provides recruiters access to high schools and 
student directory lists critical to recruiting quality applicants.
    Finally, a very important factor in our success lies in ensuring 
clear and direct responsibility and oversight. The Commanding Generals 
of our two Marine Corps Recruit Training Depots also serve as the 
Commanding Generals of our Eastern and Western Recruiting Regions. 
Having the same individual responsible for quality recruiting and 
entry-level basic training is key to recruiting and making marines. 
Consistent with this, our recruiters' commitment to recruiting a 
quality force is reinforced by the fact that they are held accountable 
for their recruits' performance as they earn the title marine and 
complete ``boot camp.''

                               RETENTION

    Retention remains an important pillar of building and sustaining 
your Marine Corps. Our manpower system must match skills to sustain the 
operating forces. The Marine Corps endeavors to maintain stable, 
predictable retention patterns. However, civilian opportunities abound 
for marines as employers actively seek our young Marine leaders for 
private sector employment. Leadership opportunities, our core values, 
and esprit de corps are the reasons dedicated young men and women 
reenlist after their initial commitments to defend our Nation.
Enlisted Retention
    The Marine Corps is a young service by design and retaining the 
highest quality marines to lead our force remains of paramount 
importance. I am pleased to report that in fiscal year 2006, the Marine 
Corps achieved 101.9 percent of its first-term retention goal and an 
impressive 115.8 percent for the Career Force. Both goals were 
accomplished in June 2006, which was 3 months before the end of the 
fiscal year.
    The mid-year course correction to achieve a 184,000 end strength by 
the end of fiscal year 2007 will be challenging. On 4 March 2007, the 
FTAP retention goal increased from 6,096 to 8,298 causing the FTAP rate 
to readjust from 91.9 percent to 67.5 percent. The Marine Corps has 
historically reenlisted approximately 25 percent of its first-term 
force and the new target will require 33 percent this fiscal year. The 
STAP retention goal also increased from 6,461 to 7,800 causing the STAP 
rate to readjust from 57.2 percent to 47.4 percent. Our continuing 
retention success will be largely attributed to two important enduring 
themes: Marines want to stay marines because of the superb leadership 
in our officer and staff noncommissioned officer ranks, and marines 
desire to remain part of a `band of brothers.'
    The Marine Corps makes wise use of Selective Reenlistment Bonus 
(SRB) funding provided by Congress. Your Marine Corps' baseline SRB 
budget last year was $53 million and the Marine Corps spent an 
additional $32 million in supplemental funding to achieve its retention 
goals. This fiscal year we have $55 million for SRB in the baseline. 
However, because of our increased retention goals, we will need 
significant additional supplemental funding; we are thankful for your 
support for this funding. To support our fiscal year 2007 growing end 
strength, we are supplementing the SRB Program by offering $10,000 
Assignment Incentive Pay for fiscal year 2007 reenlistments. For fiscal 
year 2008, the President's budget provides the Marine Corps a baseline 
SRB funding of $214 million; we will again need additional supplemental 
funding for our end strength retention incentives.
    As we continue the ``Long War'' and grow the Marine Corps to an end 
strength of 202,000, the challenge to keep the most qualified marines 
must be met with increased SRB funding. Your continued congressional 
SRB support with added supplemental funding will ensure the Marine 
Corps has the necessary combat trained marines for the ``Long War'' and 
the other contingencies that may arise in support of our great Nation.
Officer Retention
    I am happy to report that the Marine Corps continues to achieve our 
goals for officer retention. We are retaining experienced and high 
quality officers. Our aggregate officer retention rate was 91.0 percent 
for fiscal year 2006, which is above our historical average. Current 
officer retention forecasts indicate healthy continuation rates for the 
officer force as a whole.
Reserve Retention
    Concerning our Reserve Force, we satisfied our manpower 
requirements by retaining 80 percent in fiscal year 2006; the fifth 
consecutive year above our pre-September 11 historic norm of 70.7 
percent. For the current year, Reserve officer retention has thus far 
remained above historical norms. Enlisted Reserve retention is 
currently lower than has been seen in the last 2 years, and is being 
monitored very closely. It is important to note that higher planned 
retention in the Active component will reduce the number of personnel 
transitioning into the Selected Marine Corps Reserve. To address the 
potential impact of our increased retention and increased Active 
component end strength, the Marine Corps Reserve is aggressively 
pursing options to increase retention within the Reserve component, to 
include increasing the number and dollar amount of reenlistment 
incentives with a focus on units identified for future deployment in 
our Long War Force Generation Model.

                          MARINE CORPS RESERVE

    This year marks the sixth year that our Reserve component has 
augmented and reinforced our Active component in support of the global 
war on terror. Thanks to strong congressional support, the Marine Corps 
has staffed, trained, and equipped its Reserve to respond to crises 
around the world. Our Reserve component possesses capabilities to fight 
across the full spectrum of conflicts to support our Marine Air Ground 
Task Forces. As of 28 February 2007, 41,560 Reserve marines have been 
mobilized since September 11. The Marine Corps Reserve continues to 
recruit and retain quality men and women willing to serve in our 
military and help our Nation fight the global war on terror. These men 
and women do so while maintaining their commitments to their families, 
their communities, and their civilian careers.
    More than 4,700 Reserve marines are currently on active duty with 
nearly 3,500 serving in Reserve ground, aviation, and combat support 
units, while over 1,200 serve as individual augments in both Marine 
Corps and joint commands. Seventy-four percent of all mobilized 
reservists have deployed to the Central Command area of operations. To 
support ongoing mission requirements for Operation Iraqi Freedom, the 
Marine Corps Reserve provides approximately 10 percent of our Total 
Force commitment.
    We are currently working closely with the Department of the Navy 
and OSD on the development of the new activation policy. This policy, 
in conjunction with our Long War Force Generation Model will greatly 
improve our ability to provide our Reserve marines with advance 
notification of activation.
    As previously mentioned, recruiting and retention remain a 
significant interest as the Marine Corps Reserve continues its support 
for the global war on terrorism. The funding increases and flexibility 
inherent in the Reserve incentives you provided in the National Defense 
Authorization Act for Fiscal Year 2007 are invaluable assets to assist 
in our continued recruitment and retention mission. The increased bonus 
amounts not only generate greater interest in Reserve affiliation, but 
also provide financial assistance during the critical period of 
transition from active duty to Reserve service.
    Healthcare remains an essential part of mobilization readiness for 
our Reserve component. The new streamlined healthcare benefit that 
Congress authorized this fiscal year will help ensure that our Selected 
Marine Corps Reserve members, and their families, have access to 
affordable healthcare as they do their part to prosecute the global war 
on terrorism. Increased access and flexibility to healthcare for these 
families assists in alleviating one of the most burdensome challenges 
facing families of deploying Reserve marines.
    The long-term success and sustainability of our Reserve Forces is 
directly related to our ability to prepare and employ our forces in 
ways that best manage limited assets while meeting the expectations and 
needs of individual marines and their families. In an effort to ensure 
a well-balanced total force and address any potential challenges that 
may arise, we are constantly monitoring current processes and policies, 
as well as implementing adjustments to the structure and support of our 
Reserve Forces.

                            CIVILIAN MARINES

    Civilian marines continue to provide an invaluable service to the 
Corps as an integral component of our Total Force. Working in true 
partnership with marines, civilian marines will continue to play in 
important role in supporting the mission of the Marine Corps and the 
global war on terror. Our vision for the future not only defines what 
the Marine Corps will offer its civilian marines, but what the Corps 
expects from them.
Marine Corps Civilian Workforce Campaign Plan
    Marines, more than ever before, recognize the importance of our 
civilian teammates and the invaluable service they provide to our Corps 
as an integral component of the Total Force. To that end we continue to 
mature and execute our Civilian Workforce Campaign Plan, a strategic 
road map to achieve a civilian workforce capable of meeting the 
challenges of the future. We are committed to building leadership 
skills at all levels, providing interesting and challenging training 
and career opportunities, and improving the quality of work life for 
all appropriated and non-appropriated civilian marines.
National Security Personnel System
    The Marine Corps is committed to the successful implementation of 
the National Security Personnel System (NSPS). The NSPS will enable the 
Marine Corps to better support the warfighter by providing a civilian 
workforce that is flexible, accountable, and better aligned to the 
Marine Corps mission. The Marine Corps is actively participating with 
DOD in the development and implementation of this new personnel system 
and is cooperating with the sister Services to ensure civilian marines 
and other civilian employees are afforded the training opportunities 
and support necessary for a successful transition. The Marine Corps is 
dedicated to providing all available resources to the NSPS 
implementation effort while maintaining high operational performance. 
Marine Corps implementation of NSPS began with Headquarters, Marine 
Corps (HQMC) converting approximately 900 non-bargaining civilian 
employees on 21 January 2007.
Military-to-civilian conversions
    Military-to-civilian conversions continue to provide a valuable 
source to send additional marines back to the operating force in 
support of our warfighting initiatives and help reduce stress. We will 
continue to pursue sensible conversions and remove marines from billets 
that could be capably filled by civilian marines.

                         INFORMATION TECHNOLOGY

    We continue to transform our manpower processes by exploiting the 
unique benefits of the Marine Corps Total Force System (MCTFS), via our 
fully integrated personnel, pay, and manpower system. The MCTFS 
seamlessly serves our Active, Reserve, and retired members, both 
officer and enlisted; provides total visibility of the mobilization and 
demobilization process of our marines; and ensures proper and timely 
payments are made throughout the process. This fiscal year, MCTFS 
continues to obtain a pay accuracy rate of 99.9 percent for our Active 
component and 99.7 percent for our Reserve component.
    MCTFS is the backbone that has allowed the Marine Corps to develop 
the Total Force Administration System (TFAS), a virtual administration 
center that moves Marine Corps pay and personnel administration to a 
predominately self-service, virtually paperless, Web based environment. 
This capability allows global access to pay, personnel tools, and 
personal information viewed electronically in a secure environment. 
During 2006, individual marines and their leaders leveraged MCTFS' 
capabilities, using TFAS via Marine Online, a Web based application, to 
automatically process more than 1.4 million transactions, including 
over 84 percent of our annual leave events.
    MCTFS' integrated environment also directly feeds our Operational 
Data Store Enterprise and Total Force Data Warehouse, a shared data 
environment of current and historical individual and aggregate data. 
This unique capability allows analysts to quickly respond to a myriad 
of data analysis and requests. Our Manpower Performance Indicators 
present this data in a tailorable, easy to read, graphical format to 
operational commanders and headquarters planners, via the World Wide 
Web. We continue to program technology investments that build on these 
integrated capabilities, ultimately providing greater effectiveness and 
efficiencies with a goal of further decreasing Marine administrative 
support and redirecting this structure to warfighting capabilities. 
Proper management of our manpower requirements and processes requires 
continued investment in modern technologies; we remain committed to 
these prudent investments.

               TAKING CARE OF OUR OWN--THE ``NEW NORMAL''

    Upon successful recruitment and retention of high quality marines, 
the Marine Corps seeks opportunities to enhance the experience of being 
a U.S. marine. It is widely recognized that lasting intangible benefits 
are gained through duty and commitment. These positive experiences are 
further intensified by the assurance that the Marine Corps ``takes care 
of our own.''
    Marines and their families have long been accustomed to rapid and 
frequent deployments. Over time, the Marine Corps has developed a 
flexible and evolutionary infrastructure to support our way of life and 
the ``normal'' operations of our expeditionary force. Marines and their 
families have been well served, but we must continuously assess our 
support programs and capabilities to ensure sufficiency and relevance.
Assessment & Improvement
    Going forward, it is becoming more evident that what was once 
characterized as ``surge'' support requirements of Operation Iraqi 
Freedom and Operation Enduring Freedom should now more appropriately be 
viewed as ``normal'' operations of the Marine Corps--albeit a ``new 
normal.'' With this view, in January 2007, we conducted a Wounded 
Marine and Family Support Forum for the purpose of assessing the 
quality and consistency of our support programs. Over 100 major command 
representatives convened in Alexandria, Virginia, to examine seven 
program areas for wartime applicability and consistency of support 
across the Marine Corps. Areas reviewed included: wounded warrior 
support, post-traumatic stress disorder, and traumatic brain injury, 
casualty notification and support, marine and family pre-deployment 
training, Marine and Family Services Programs, special needs families, 
and the Key Volunteer Program. As may be expected, we found some 
program inconsistencies that will require greater analysis, further 
program development, and in some cases increased resources. 
Recommendations subsequently approved for action will take advantage of 
ad hoc best practices and be directed for implementation Marine Corps-
wide. Execution will remain the responsibility of our Commanders, but 
they will be supported with good guidance along with standard templates 
and tools that will ensure we continue the proud Marine Corps tradition 
of ``taking care of our own.''
    In addition to the efforts described above, the quality-of-life in 
the Marine Corps survey and study will be administered later this year. 
This same survey was previously conducted in 1992, 1998, and 2002. The 
purpose of the survey is to gain insights from marines and their 
families on their perceptions of quality-of-life. Eleven ``life 
domains'' covering all aspects of quality-of-life; including pay and 
compensation, military life, family life, housing, heath care, etc. 
will be surveyed for levels of satisfaction. We will use the results of 
the survey to support Marine Corps desired outcomes for recruitment, 
retention, and readiness.
Importance and Role of Marine Leaders
    Marine leaders, at all levels, have the greatest opportunity to 
directly engage marines and their families through active listening and 
appropriate referral to an array of support agencies and services. In 
this capacity, Marine leaders set an environment where it is ``okay to 
ask for help.'' As described previously, we must provide good guidance, 
tools, and templates our leaders can use for immediate and lasting care 
of marines and families. Our ``Leaders Guide for Managing Marines in 
Distress'' is an example of an innovative tool for leaders engaged in 
the ``new normal'' operation. The guide, which is updated regularly, is 
an online and pocket version resource for Marine leaders in the 
effective management of stress-related problems (i.e. suicide, 
substance abuse, financial problems, and domestic abuse), including 
combat/operational stress.
    Marines and marine families have demonstrated great strength and 
resiliency. In fact, for the past 5 years, our rates of domestic abuse 
and child maltreatment; incidents of drug use, divorce, and suicide 
have remained comparatively low. We remain vigilant in monitoring 
trends and will continue to provide appropriate support mechanisms to 
help marines and their families prevent and, when necessary, overcome 
problems that may arise.
Casualty Assistance
    The Marine Corps ethos of ``taking care of our own'' is never more 
relevant than when we care for our fallen Marines and their survivors. 
Whether the death is combat-related or comes after a long and well-
lived life, each marine death is a tragic or significant loss to the 
survivors, the corps, and our Nation. We steadfastly endeavor to honor 
their sacrifices with sincerity and continued remembrance. Our Casualty 
Assistance Calls Officers are trained to treat next of kin and other 
family members as they would their own family. Providing casualty 
assistance always begins with the basic tenet that there is no standard 
casualty call; each case is distinct and families grieve in their own 
way and time. Assistance to families is carefully measured to 
facilitate their transition through the stages of grief and the 
completion of the casualty assistance process.
    In the past few years, we have been careful to incorporate best 
practices or adapt our casualty assistance process to better meet the 
needs of our surviving families. In fact, over 150 key personnel 
involved in the Marine Corps casualty process from commands around the 
Marine Corps met in December 2006 to receive professional development 
and discuss casualty assistance issues. We have also instituted a long-
term case management system for surviving families. Finally, as part of 
the Wounded Marine and Family Support Forum, we also identified some 
additional CACO training requirements that we will soon resolve.
    We will continue to lean forward and aggressively assess our 
quality-of-life and support services. As necessary, our programs will 
evolve to an appropriate wartime footing.
Marine for Life--Injured Support.
    The Marine For Life Injured Support program continues to assist 
seriously and very seriously injured marines, sailors who served with 
the marines, and their families pending the upcoming implementation of 
the Wounded Warrior Regiment, whose mission will be to track and assist 
wounded marines and sailors to add additional discipline and continuity 
to taking care of the injured. The Marine for Life program provides 
support from the time of injury through transition from military 
service, or re-integration to duty. Marine For Life provides support 
tailored to an individual's needs, including pre- and post-service 
separation case tracking, assistance with the physical evaluation 
boards' process, and an interactive Web site that acts as a 
clearinghouse for all disability and benefit information. The program 
also provides employment assistance through a pre-existing Marine For 
Life network, which establishes local coordination with veterans, 
public, private, and charitable organizations that provide support to 
our injured warriors. Marine For Life integrated Marine Corps and 
Department of Veterans Affairs' (VA) efforts to seamlessly transition 
handling of Marine cases into the VA by assigning a Marine field grade 
officer to the VA Headquarters' Seamless Transition Office. This 
integrates marines into the VA system and provides service oversight of 
Veterans Health Administration care and Veterans Benefits 
Administration benefits delivery. The Marine For Life program provides 
the direct point of contact for problem resolution for marines within 
the VA system. The scope of services and capabilities that the Marine 
For Life program currently delivers is expected to continue and expand 
in a more robust manner when the Wounded Warrior Regiment stands up.

                               CONCLUSION

    As we continue to fight the ``Long War,'' our Services will be 
required to meet many commitments, both at home and abroad. We must 
remember that marines, sailors, airmen, and soldiers are the heart of 
our Services--they are our most precious assets--and we must continue 
to attract and retain the best and brightest into our ranks. Personnel 
costs are a major portion of the DOD and Service budgets, and our 
challenge is to effectively and properly balance personnel, readiness, 
and modernization costs to provide mission capable forces.
    Marines are proud of what they do! They are proud of the ``Eagle, 
Globe, and Anchor'' and what it represents to our country. It is our 
job to provide for them the leadership, resources, quality-of-life, and 
moral guidance to carry our proud Corps forward. With your support, a 
vibrant Marine Corps will continue to meet our Nation's call as we have 
for the past 231 years!
    Thank you for the opportunity to present this testimony.

    Senator Ben Nelson. Thank you, General Coleman.
    General Brady?

  STATEMENT OF LT. GEN. ROGER A. BRADY, USAF, DEPUTY CHIEF OF 
     STAFF, MANPOWER AND PERSONNEL, UNITED STATES AIR FORCE

    General Brady. Mr. Chairman, thank you for the opportunity 
to be here today to talk with you about your Air Force.
    Let me begin by thanking you and the committee for the 
tremendous support you have provided for our airmen over many 
years. The Air Force has been compelled to make difficult 
decisions to optimize the dollars available in our budget. Our 
need to recapitalize an aging fleet, coupled with a continued 
high operations tempo, led to a lesser-of-evils decision to 
manage the risk of significantly reducing our end strength. 
While we're not totally comfortable with this drawdown, we 
cannot compromise on recapitalization.
    Our modernization effort remains critical to providing 
combatant commanders with the warfighting capabilities required 
to prevail in the operating domains of air, space, and 
cyberspace.
    The Air Force has been very successful in meeting the ever-
increasing demands of the global war on terror while also 
transforming into a more agile and capable force. This success 
can be attributed, in large measure, to our Air Force 
expeditionary force rotation construct that operates on a 20-
month life cycle. Despite a very high operations tempo, through 
the Air Expeditionary Force (AEF) construct we have met all 
combatant commander requirements, maximized quality-of-life by 
introducing predictability, integrated Air Reserve component 
forces to meet requirements, and avoided the use of stop loss.
    As the U.S. Army and U.S. Marine Corps plan for significant 
increases to bolster combat capability, we should be aware that 
there will be a commensurate requirement for an increase in Air 
Force manpower to ensure the effectiveness of the 
interdependent joint team.
    Our air mobility units are intrinsically tied to supporting 
ground forces with the mobility required to deploy and be 
supplied anywhere in the world. Our weather teams, tactical air 
controllers, and other forces are embedded with, or closely 
tied to, ground forces. Your Air Force provides the full range 
of air assets as part of the interdependent joint fight, 
including special forces and intelligence, surveillance, and 
reconnaissance assets.
    Critically important since inception of the global war on 
terrorism has been care of our wounded in action, seriously 
injured, and ill airmen and their families. Palace HART, which 
stands for Helping Airmen Recover Together, is our Air Force 
program for taking care of wounded warriors. Immediately upon 
learning of injury to an airman, a family liaison officer from 
the airman's unit is assigned to the airman's family. This 
airman maintains close contact with the family and helps them 
with whatever they need, and serves as a personal contact to 
ensure the family and the airman can access all the support 
they need. This individual is the wingman who remains with the 
airman and the family from initial notification to recovery. 
Palace HART follows airmen and their families for up to 5 years 
beyond separation from the service, to assist with extended 
transition assistance, employment applications, civilian job 
searches, financial planning and assistance, relocation, and 
integration back into the civilian community.
    Today's airmen are performing at the high standards that 
have been our hallmark for as long as there have been American 
airmen. Our airmen are fully prepared and engaged today, and we 
must continue to invest in the tools they need to ensure 
tomorrow's air space and cyberspace dominance. Your Air Force 
has taken prudent actions to ensure we remain the most 
respected air and space force in the world.
    We appreciate your unfailing support for the men and women 
of our Air Force, and I look forward to your questions.
    [The prepared statement of General Brady follows:]

          Prepared Statement by Lt. Gen. Roger A. Brady, USAF

                              INTRODUCTION

    Mr. Chairman and distinguished committee members, thank you for the 
opportunity to be here today. Our airmen have been continuously 
deployed and globally engaged in combat missions for more than 16 
straight years--since the first F-15 touched down in Saudi Arabia in 
August 1990. Today, airmen are fully engaged in the interdependent 
joint fight and stand prepared for rapid response and conflict across 
the globe.
    Our priorities are clear: winning the global war on terror and 
preparing for the next war; developing and caring for our airmen to 
maintain our competitive advantage; and modernizing and recapitalizing 
our aircraft and equipment to meet 21st century challenges. We have 
been involved in a critical recapitalization and modernization effort 
for our aging air and space force. Budgetary pressures forced difficult 
choices to ensure that the Air Force would maintain the right balance 
across our personnel, infrastructure, readiness and investment 
portfolios.
    The Air Force undertook significant personnel reductions to 
generate funds to reprogram toward systems recapitalization and 
modernization, congruent with our three key mission priorities. While 
this has been difficult, it has also provided the impetus for a hard 
look at our business processes and organizational structure. At the 
same time, we have placed equal emphasis on improving the education, 
training, and care of our airmen.

                             FORCE SHAPING

    When the Air Force began to develop a long-term force structure 
plan, we started with divestment of legacy aircraft. While we have 
achieved some success, significant investment gaps remain. Moreover, 
the costs of personnel continue to rise. Personnel costs have increased 
significantly in the past decade. In early 2006, budget guidance 
directed additional end strength reductions over the FYDP. We 
approached force shaping with two priorities. First, the reduction will 
result in a balanced force. We will increase manning in stressed career 
fields and expand opportunities for career development and training. 
Second, we will optimize voluntary actions before implementing 
involuntary reduction programs. Our goal is a lean, more capable, more 
lethal Air Force, organized, trained, and equipped for our global, 
expeditionary mission.
    We tailored our personnel mix to the new security environment by 
using a variety of force shaping tools across the personnel inventory. 
We authorized implementation of annual Force Shaping Boards (FSBs) for 
officers with less than 5 years of service. The fiscal year 2006 FSB 
identified officers in overage career fields for separation while 
balancing career fields and officer commissioned year groups. Prior to 
the board, eligible officers were offered voluntary options to 
transition to other forms of service in and out of the Air Force. The 
Air Force also waived most Active Duty Service Commitments (ADSC) to 
allow officers to separate early. In addition, the Air Force is 
offering Voluntary Separation Pay to officers in overage career fields 
who have 6 to 12 years of service. The expanded authority granted in 
the National Defense Authorization Act for Fiscal Year 2007 gives us 
additional flexibility which we appreciate. We also convened a 
Selective Early Retirement Board to identify retirement-eligible 
officers for early retirement. Again, our goal was to shape the force 
by using a variety of tools across the officer force rather than have 
only one segment bear the brunt of reduction activity.
    To achieve the required reductions of enlisted airmen, the Air 
Force instituted a date of separation rollback for personnel with 
limitations on their assignment or enlistment eligibility. We also 
offered a limited number of ADSC waivers for eligible members in 
overage career fields. These initiatives to shape the enlisted force 
join the tools already in place: Career Job Reservations, reduction in 
accessions, and the Noncommissioned Officer Retraining Program.
    These reductions are difficult but necessary to ensure the Air 
Force maintains the right size and mix of forces to meet the fiscal and 
global challenges of today and tomorrow.
    Our Airman & Family Readiness Flights stand ready to assist our 
airmen and their families with the transition back to the civilian 
community. Preparation counseling provides information and referral for 
benefits, services, and resources. Assistance includes individual 
transition plans, Federal and private employment resources and 
recruiting events, resume preparation, and electronic job searches. Our 
partnership with the Departments of Labor and Veterans Affairs also 
provide for seamless assistance for VA benefits claims, disability 
assistance and state employment assistance.

                      PERSONNEL SERVICES DELIVERY

    To achieve the Secretary of Defense's objective to shift resources 
``from bureaucracy to battlefield,'' we are overhauling Air Force 
personnel services. Our Total Force (Active Duty, Air Force Reserve, 
Air National Guard, and Civilian) Personnel Services Delivery 
initiative dramatically modernizes the processes, organizations and 
technologies through which the Air Force supports our airmen and their 
commanders.
    Our goal is to deliver higher-quality personnel services with 
greater access, speed, accuracy, reliability, and efficiency. The Air 
Force plans to program the resulting manpower savings to other 
compelling needs over the next 6 years. This initiative enhances our 
ability to acquire, train, educate, deliver, employ, and empower airmen 
with the needed skills, knowledge, and experience to accomplish Air 
Force missions.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Our civilian workforce is undergoing a significant transformation 
with implementation of the DOD National Security Personnel System 
(NSPS). NSPS is a simplified, more flexible civilian personnel 
management system that improves the way we hire, assign, compensate, 
and reward our civilian employees. This modern management system 
enhances the Air Force's responsiveness to the national security 
environment, preserves employee protections and benefits, and maintains 
the core values of the civil service.
    NSPS design and development has been a broad-based, participative 
process that included employees, supervisors and managers, unions, 
employee advocacy groups and various public interest groups. As of 18 
March 2007, the Air Force has implemented the human resource and 
performance management provisions for 38,918 eligible non-bargaining 
unit employees.
    NSPS is the most comprehensive new Federal personnel management 
system in more than 50 years, and it's a key component in the DOD's 
achievement of a performance-based, results-oriented Total Force.

                               RECRUITING

    As we prepare for an uncertain future, we are transforming the 
force to ensure we have the right sized and shaped force to meet 
emerging global threats with joint and battle trained airmen. We are 
becoming a smaller force, with a critical need for specific skills. We 
recruit, train and educate our airmen for the complex, multinational, 
and interagency operations of today, and with an eye on tomorrow.
    Our recruiting force has met our recruiting mission through great 
persistence and dedication. From 2001 through 2006, we had a recruiting 
mission of 158,533 and accessed 160,603 for 101 percent of mission 
accomplishment. For 2007, the active duty mission requirement is 27,800 
and 6,486 new Airman have accessed up to this point with 12,122 waiting 
to enter Basic Military Training (BMT). We're on track to meet our 
goals. To date for fiscal year 2007, we've accessed 100 percent of our 
active duty goal, and accessed 101 percent and 104 percent of our 
Reserve and Guard accession goals, respectively.
    Our Recruiting Service continues to find the right person, for the 
right job, at the right time and this is ever evident in our most 
critical warfighter skills. Recruiting Service has filled every 
requirement for Combat Controller; Pararescue; Tactical Air Control 
Party; Survival, Evasion, Resistance, and Escape; and Linguist since 
2001. This has been accomplished through hard work and the significant 
assistance of Congress. These individuals are offered an Initial 
Enlistment Bonus (IEB) ranging from $3,000 to $12,000, depending on the 
job and length of enlistment.
    The majority of our officer programs have met with mission success, 
but medical recruiting and retention remain a challenge. We are 
exploring options such as accession bonuses and enhanced college loan 
repayment programs, to better attract healthcare professionals.

                               RETENTION

    In fiscal year 2007, we continued to manage and shape the force 
across and within skill sets to meet Air Force needs. Maintaining 
retention at acceptable levels through targeted retention programs such 
as Critical Skills Retention Bonus, Selective Re-enlistment Bonus, IEB, 
and Special and Incentive pays continues to be critical to this effort. 
Force shaping ensured active duty end strength met our long-term 
requirements. This effort is successful in no small measure because of 
your budgetary support.
    Active duty Air Force and ANG met their overall officer and 
enlisted retention goals for fiscal year 2006. The Air Force Reserve 
met its officer retention goal but fell slightly short of its enlisted 
retention goal by 0.8 percent, attaining 99.2 percent of its goal. Even 
with these successes, some enlisted specialties in the active Air Force 
such as Air Traffic Control, Linguist, and Survival Evasion Resistance 
and Escape, for example did not achieve their overall retention goal. 
We will continue to offer these specialties a myriad of bonuses in 
addition to enhanced promotion opportunity.
    Our most critical warfighting skills require a special retention 
focus to maintain combat capability due to critical manning and 
increased operations tempo demands placed on career fields including 
Pararescue, Combat Control, and Explosive Ordnance Disposal. Your 
budgetary support for these retention programs is critical to 
effectively manage the force and retain needed warfighting capability. 
Critical Skills Retention Bonus programs are judiciously and 
effectively targeted to provide the most return-on-investment in both 
dollars and capability.
    Our warfighting airmen are committed to serving, including those 
experiencing high deployment rates. Combatant commander requirements 
and the global war on terrorism place high demands on pilots, 
intelligence, maintenance, civil engineers, and communication officers 
as well as enlisted airmen in aerospace maintenance, supply, 
transportation, munitions and weapons, fire protection, services, and 
security forces. Despite an increased operations tempo and deployment 
rate, retention statistics for these career fields mirror the Air Force 
average. A key element for our overall success in retention is our 
ability to continue to offer bonuses and incentives where we have 
traditionally experienced shortfalls.

                           FORCE DEVELOPMENT

    Spanning 6 decades of Air Force history, particularly over the past 
16 years, our airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundation for this well-deserved reputation is the quality and 
frequency of the training and education we provide. Our Air Force 
training initiatives continue to evolve, improving our ability to 
develop and retain the world's best air, space, and cyberspace 
warriors--expeditionary, knowledge-enabled, ethical, and prepared for 
the interdependent fight.
    As part of our Air Force Transformation, we changed Air Force BMT 
curriculum to stress an expeditionary mindset in all phases of 
training, providing airmen with more expeditionary capability from day 
one. These changes are the most significant in BMT history. The Air 
Force basic training experience now mirrors the AEF cycle with 
predeployment, deployment, and reconstitution phases. We emphasize 
basic war skills and practical application throughout BMT. Finally, we 
have added ``Airman's Time,'' mentoring sessions in which our veteran 
instructors share their real world experiences, relate daily training 
events to warrior and airmanship qualities, and reinforce the Core 
Values expected of all airmen.
    We are moving beyond traditional Air Force and joint warfighting 
skills development. Our educational programs provide increased 
opportunities for airmen to receive focused cultural and language 
training, facilitating greater professional interaction, deeper 
understanding, and more effective operations.
    The expanded instruction includes cultural awareness, regional 
affairs, and foreign language proficiency. All Air Force Academy cadets 
and Reserve Officer Training Corps (ROTC) non-technical scholarship 
cadets will be required to take language courses. Additionally, both 
Academy and ROTC cadets have increased opportunities for Foreign 
Language and Area Studies degrees and have expanded Cultural Immersion 
and Foreign Exchange Programs. Our enlisted BMT also will provide 
instruction on cultural sensitivity.
    Once in the Air Force, each level of officer and enlisted 
professional military education (PME) provides additional cultural/
regional instruction and some foreign language instruction, developing 
leaders who can articulate U.S. policy and operate effectively in 
foreign settings. Furthermore, we will increase Developmental 
Educational opportunities for global skills, including overseas PME and 
the Olmstead Scholars Program. We will then vector these airmen into 
Political-Military Affairs or Regional Affairs Strategist career 
tracks, maximizing America's return-on-investment.

                           CARING FOR AIRMEN

    The Air Force is wisely shifting a portion of funding from manpower 
and base operating support to address our critical recapitalization 
requirements. However, we understand that to maintain combat capability 
we must continue to balance our modernization of our weapons systems 
with development of airmen who are ready, willing, and able to employ 
them. To that end, we are finding innovative ways to transform our 
community support services and programs while avoiding unnecessary 
impacts to services delivered. One way we are transforming is through 
the headquarters realignment of Air Force Services from Logistics to 
Manpower and Personnel. This transition opens the door to increased 
efficiencies and a more seamless approach to customer service. We 
remain committed to ensure the needs of our airmen and their families 
are met.
    Taking care of our seriously wounded, injured, or ill airmen is a 
top priority. We continue to expand the Air Force Survivor Assistance 
and Palace HART Programs in an effort to provide the best possible 
individual service to these airmen and their families. The heart of the 
Survivor Assistance Program is the Family Liaison Officer (FLO) who is 
assigned to each patient for the duration of their need. The FLO serves 
as a single point of contact between the airmen and the numerous 
helping agencies. Our FLOs provide a critical resource to deal with the 
unfamiliar routine of the recovery process and prevents the Airman from 
being lost in the bureaucracy.
    Similarly, the Palace HART Program assigns a Community Readiness 
Coordinator (CRC) when a servicemember casualty notification is made. 
The CRC works closely with the FLO to ensure the combat related injured 
or ill servicemember and their family receives complete information and 
entitlements. Later, if the member is not returned to active duty, the 
Palace HART Program assists with Federal employment, entitlements and 
benefits information, financial resources, family support, and more. 
The member is tracked monthly for 5 years after separation or 
retirement.
    Our Fit to Fight program and food service operations are 
cornerstones of combat capability. Airmen who are well-fed and 
physically fit are healthier, think more clearly, handle more stress, 
and are better able to complete the mission despite reduced sleep and 
extended hours. This translates directly to increased combat capability 
from our most important weapon system--our people.
    We are also focused on providing quality, available and affordable 
child and youth development programs to airmen and their families 
through an extensive system of programs and services both on and off 
the installations. A recent national study highlighted the DOD child 
care program as leading the Nation in quality standards and effective 
oversight. We are proud of the Air Force's contribution to this program 
and believe that our child care program is a critical factor in helping 
airmen remain focused on the mission.
    Our Airman and Family Readiness professionals are helping airmen 
and their families adapt to the realities of life in an Expeditionary 
Air Force. They do this through personal and family readiness 
counseling, personal financial management, Air Force Aid assistance, 
spouse career planning, and transition and relocation assistance. 
Experts in the Equal Opportunity and Sexual Assault Prevention and 
Response arenas help every airman exercise positive and productive 
interpersonal relationships, in both professional and personal 
interactions. The Air Force is a family, and our clubs and recreation 
programs foster and strengthen those community bonds, and promote high 
morale and an esprit de corps vital to all our endeavors.
    Additionally, we are equally committed to ensuring that all airmen 
are well trained and provided with modern, safe and efficient equipment 
and facilities to complete their mission. We provide life-sustaining 
support, such as food service and lodging, to our troops in the field 
and essential community programs to our airmen and their families back 
home. Through innovative systems and programs and the hard work of our 
dedicated personnel we continue to provide critical mission capability 
for our commanders and vital support for our members and their 
families.

                               CONCLUSION

    Today's airmen are performing at the high standards that have been 
our hallmark for as long as there have been American airmen. Our airmen 
are fully prepared and engaged today, and we must continue to invest to 
ensure tomorrow's air, space, and cyberspace dominance. We have taken 
prudent actions to ensure your Air Force remains the most respected air 
and space force in the world.
    We appreciate your unfailing support to the men and women of our 
Air Force, and I look forward to your questions.

    Senator Ben Nelson. Thank you, General.
    General Rochelle, what is the Army's actual end strength 
today?
    General Rochelle. The Army's actual end strength today, 
sir, is 507,000.
    Senator Ben Nelson. Can we reach 518,000 by the end of this 
fiscal year?
    General Rochelle. Sir, we can reach 518,000, and we plan to 
reach 518,000, by the end of this fiscal year.
    Senator Ben Nelson. If we scale down the presence in Iraq 
in the next year, I think, as the American people expect, would 
you believe that 547,000 will be the right number for our end 
strength at that time?
    General Rochelle. Sir, I wish I could predict the future 
that accurately, but I'm afraid I cannot. My commitment is to 
get us to 547,400, and then see where we are strategically, see 
where our Nation stands with respect to the global war on 
terror, and then take it from there.
    Senator Ben Nelson. With respect to the recruiting goals, 
as of January 2007, the Army's end strength is about 502,000, 
going to 518,000, but how can the Army increase its end 
strength by 7,000 per year without increasing the recruiting 
goal?
    General Rochelle. I'm glad you asked that question, Mr. 
Chairman. It's a combination of three things.
    Senator Ben Nelson. Okay.
    General Rochelle. First of all, what we anticipate to be 
very successful in recruiting, above the 80,000 regular-Army 
mission that U.S. Army Recruiting Command has; second, 
extraordinarily successful retention rates, and most 
especially, those retention rates are highest across our 
deployed and recently deployed forces; and third, 
extraordinarily successful--success in lowering attrition in 
initial-entry training, down from 2004, about 18.4 percent, to 
7 percent today.
    Senator Ben Nelson. I heard you say that you're not 
lowering your standards. Several colleagues have raised 
questions about whether or not that is the case--raising 
questions, in the sense of saying, ``I hope that in changing 
the admission requirements, it doesn't actually lower the 
standards.'' Can you assure me and my colleagues that we're not 
dumbing-down just to try to make the goals?
    General Rochelle. Sir, one can make a case, depending upon 
your point of departure. I had the good fortune of commanding 
U.S. Army Recruiting Command in 2004, when, based upon market 
conditions, based upon unemployment rates, based upon how close 
we were at that point to September 11, if you will, it was easy 
to bring our quality marks extraordinarily high. We are in a 
different climate today. Admiral Harvey spoke to it quite well. 
Propensity is declining.
    Now, let me go back to the point of departure. The point of 
departure should be from DOD standards with respect to high-
school-degree completion rates, I to IIIA upper-middle category 
rates, and Category IV rates. We will meet all of those, as I 
said in my oral statement.
    Senator Ben Nelson. Okay, thank you.
    General Rochelle. Yes, sir.
    Senator Ben Nelson. Continuing, General Rochelle, Secretary 
Gates ordered the Services to report to him, by the end of 
February, their plan for--I think his word was ``minimizing'' 
the use of stop loss. Does the Army have a plan to minimize its 
use of stop loss? Can you tell me where we are in that process 
right now?
    General Rochelle. Sir, we have submitted a proposal to the 
Office of the Secretary of Defense laying out our plan to 
minimize stop loss. There is no mandate to eliminate stop loss. 
I'd like to make that a matter of the record nor is there a 
mandate, as I said. But we have submitted that plan to the 
Secretary of Defense. It includes many things, such as 
attempting to ensure that we are not assigning individuals to a 
unit that is in the ready phase. Mr. Chairman, that becomes a 
challenge, however, given the fact that we are now accelerating 
many of our units. But those are the types of things that we 
are proposing.
    Senator Ben Nelson. All right.
    General Rochelle. We believe we can minimized stop loss.
    Senator Ben Nelson. What would ``minimize'' consist of? 
Using it less, for a shorter period of time? Or what does 
``minimizing'' consist of?
    General Rochelle. Excellent question, Mr. Chairman. Let me 
give you my definition.
    At any given time between our Active component and our 
Reserve component, both elements of the Reserve component, the 
Army has roughly 10,000 soldiers who are stop-lossed; 7,000 of 
those are Active, 3,000 are Reserve and National Guard. 
``Minimizing,'' in my definition, means that we reduce those 
numbers across both components, to the optimum levels possible.
    Senator Ben Nelson. Okay. Thank you.
    General Rochelle. Yes, sir.
    Senator Ben Nelson. Admiral Harvey and General Brady, as 
you are reducing your end strength, are you of the opinion that 
you're not reducing or drawing down too fast?
    General Brady?
    General Brady. I think that our drawdown plan has been 
driven, in large measure, by our need to recapitalize a 
rapidly-aging fleet. We have accelerated our drawdown to 
accommodate that reality. What we have done is to make sure 
that, as we draw down, we are focusing on retaining those 
skills in the appropriate numbers to make sure that we support 
the Air Expeditionary Force. In other words, the support of the 
warfighter forward is our primary responsibility, and we've not 
compromised any in that regard, nor in the training of the 
people that are going forward to do that. So, as I mentioned in 
my oral statement, this is a challenge, and we shouldn't fool 
ourselves. We think we are managing some risk in doing this. 
But it is the budgetary situation that we find ourselves in.
    Senator Ben Nelson. But you do believe you're managing the 
risk that this presents.
    General Brady. Yes, sir, we do.
    Senator Ben Nelson. Admiral Harvey, the same question.
    Admiral Harvey. Yes, sir. We started down this road about 4 
years ago. To the point you made in your statement about the 
war being with us for 4 years, at that time we had five carrier 
battle groups forward deployed, with a sixth coming out the 
gate, 80,000 sailors deployed to support the opening stages, 
the opening first months of Operation Iraqi Freedom. We had 
300,000 sailors ashore in that force, about 385,000 total. 
Today, we have 342,000 on the Active component. We have five 
carrier battle groups underway, three forward-deployed, two in 
training. We have the requisite number of sailors ashore to do 
the work ashore. So, the drawdown has been carefully mapped 
out, and we've followed that path pretty religiously for the 
last 4 years. It's focused first on the work. What is it we 
have to do? We now have the BRAC's infrastructure is known. We 
have a fleet target of about 313 ships, about 3,800 tactical 
aircraft, so we know the operational structure we have to 
maintain, and we have our revolution in training that we've 
been working through for 4 years that significantly reduced the 
amount of support structure, support sailors we had to have to 
sustain the combat capability we are deploying.
    So, sir, we'll never be comfortable, but I am confident 
that I can look you and our sailors in the eye and say we are 
proceeding with dispatch, but we are also proceeding carefully. 
We measure this out before we go. We know where we're going. 
We're confident we're going to reach our end state of about 
322,000 sailors and still be able to deliver the combat 
capability this Nation demands, and give our sailors a quality 
of service that they deserve.
    Senator Ben Nelson. Managing the risk is what this is going 
to be about, and I wish you well, and I certainly am hopeful 
that you'll be able to do so, because we have so much depending 
on it.
    Admiral Harvey. Yes, sir.
    Senator Ben Nelson. General Rochelle and General Coleman, 
we're concerned about the continuing reports of sexual assault 
on our servicemembers, especially those who were assaulted by 
fellow servicemembers while deployed. The victims of sexual 
assault frequently suffer long-term effects, including PTSD 
from the assault. An article in the March 18, 2007, New York 
Times magazine describes the impact of sexual assaults in 
service and combat zones on female servicemembers. Are the Army 
and Marine Corps aware of these sexual assaults occurring in 
the combat zones, as I'm sure you are, but at the level that 
they seem to be occurring? Are you aware of the many reports 
made by the female servicemembers stating that they suffer from 
PTSD as a result? Finally, what is being done to help stop the 
sexual assaults, to the extent it's possible to reduce them, 
and to help female servicemembers who have been victims of such 
sexual assaults?
    I'll start with you, General Coleman. Give General Rochelle 
a break here for a little bit.
    General Coleman. Yes, sir. Thank you, sir. Unfortunately, 
the numbers are up. I would venture to say that part of the 
reason is because we have encouraged our marines to come 
forward. I would say the good news is that they are coming 
forward. The bad news is that they're coming forward, because 
one sexual harassment case is one too many. We are holding our 
servicemembers accountable for every case that is 
substantiated, and we will continue to do all that we can to 
ensure that it does not happen again.
    Senator Ben Nelson. Without being naive, is additional 
training one of the ways to at least curb or reduce the number 
of assaults?
    General Coleman. Yes, sir, that's absolutely right. We are 
training. I just think that you could never train too much in 
those instances. I'm a father with five daughters. I don't 
think that you could ever justify a sexual assault or sexual 
harassment. But I can tell you, your Marine Corps is doing all 
that they can to continue training and also continue to 
encourage victims to come forward.
    Senator Ben Nelson. General?
    General Rochelle. Chairman Nelson, the Army is absolutely 
committed to making sure that we do not only everything we can 
to prevent sexual assault and sexual harassment, but, equally, 
that we are providing victims of sexual assault with every 
remedy possible to make them whole.
    You mentioned training, and I think that's where the Army 
is perhaps in the forefront. I make no comparison to my sister 
Services and my brothers sitting here. But we have recently 
prepared a very, very good training video, the opening comments 
of which are given by our Vice Chief of Staff of the Army, 
General Dick Cody, and the closing comments are given by the 
Sergeant Major of the Army, Sergeant Major Kenneth Preston, 
that is going to be incorporated in our existing training 
vehicles that will be Army-wide, and we are integrating those 
with a review of all of our sexual harassment and sexual 
assault training vehicles and tools.
    Senator Ben Nelson. Are you pursuing vigorously reporting 
and prosecution, wherever appropriate?
    General Rochelle. Sir, we are. We are investigating with 
our Criminal Investigation Division all unrestricted reports. 
Those are reports that go into our criminal systems and come up 
through command channels. I'm pleased to say that the 
restricted reporting procedure that went into effect in 2005 
appears to have given not only greater awareness, which is what 
General Coleman spoke to--greater awareness to what sexual 
assault is, what it looks like, and certainly what sexual 
harassment looks like.
    General Coleman. Sir, if I could add, in every case in the 
Marine Corps where a case of sexual assault was substantiated, 
disciplinary action was taken; and, most frequently, courts-
martial.
    Senator Ben Nelson. What about follow-up care to the victim 
of such assaults? Is that being pursued, as well?
    General Rochelle. Sir, it is, to include counseling, as 
well as, obviously, any physiological care that's required, 
but, most especially, counseling, and by case managers, a 
little bit like we--the case-manager model that we use for our 
wounded warriors, that is being provided, as well.
    General Coleman. Same thing, sir.
    Senator Ben Nelson. Same?
    General Coleman. We do have follow-up.
    Senator Ben Nelson. I have a few other questions, but I 
think we could submit them for the record.
    Is there anything else that you'd like to tell the 
subcommittee on the record regarding preparation or other 
requirements that you might think that we should be 
considering?
    General Rochelle. Mr. Chairman, I'd like to take an 
opportunity, since you've opened the floor--and I appreciate 
it. First of all, I'd just simply like to say, for the record, 
that the Army is doing everything possible we can do to make 
our wounded warriors whole, in every sense of the word. The 
earlier panel, you addressed some questions to those 
distinguished gentlemen regarding the Medical Evaluation Board 
(MEB), Physical Evaluation Board (PEB)--I wish to assure you, I 
wish to assure our soldiers, family members, and the American 
people that we are absolutely committed, through compassion for 
our soldiers, we value what they bring to the table for the 
American people, and we certainly respect their sacrifices. As 
General Cody has said, as the Chief of Staff of the Army has 
said, as Acting Secretary of the Army Pete Geren has said, we 
will get this right. We're committed to doing that. Thank you.
    Senator Ben Nelson. Thank you, General.
    Any other comments?
    Admiral Harvey. Yes, sir. Just two points, sir, now that 
you've offered the opportunity. I would just ask that we 
continue to receive not only the support of this committee, but 
also the support, wherever we can, for the concept of service. 
This is an All-Volunteer Force, an All-Recruited Force. The 
propensity to enlist, in every demographic group in this 
Nation, has never been lower since we started measuring that 
propensity. The propensity of those who influence these young 
men and women to consider military service has also never been 
lower. It is a daunting situation that we face each day, and, 
certainly in my own part, the first thing I think about in the 
morning when I get going is recruiting, and it's the last thing 
I think about in the night when we're done. So, it is a very, 
very difficult environment we're in, and we're going to need 
the support, not just of this Congress, sir, but we need the 
understanding of this Nation for what an All-Volunteer Force is 
about, and what it takes to sustain that force.
    On one smaller point, sir, I know we're going to go into 
great detail on the processes that you mentioned in the earlier 
panel about MEBs, PEBs. As we go through that and seek to 
streamline, make it easier for the individual who is faced with 
that process to navigate that process and get to the right 
result, we can get it fast, and we can get it wrong. The 
existing process provides an awful lot of opportunities for 
each sailor to contest a finding at every point along the way. 
As we seek to gain efficiency, I don't want to place at risk 
that ability for every step in that tough process sometimes--
that our sailors can stand up and say, ``No, I disagree,'' and 
we provide that individual counsel and counseling in how to 
make that disagreement public. So, those rights need to be 
protected as we seek to make this process smoother and more 
efficient overall, sir.
    Senator Ben Nelson. I would agree.
    General Coleman. Sir, I'd like to jump on the bandwagon of 
the recruiting. As the Army and the Marine Corps increase in 
strength--and the four of us are all--our Services are all 
after the same great young men and women--it's important that 
all folks know that it's a noble thing to serve your country. 
So, if we could continue to have your support in that line, I'd 
certainly appreciate it.
    Then there's nothing more important than the ability of 
Congress to provide the funds available to ensure that our men 
and women have the right equipment at the right time at the 
right place. If we can continue that, that's all we can ask, 
sir.
    Thank you, sir.
    Senator Ben Nelson. Thank you, General. There's no question 
but that preparation, training, and equipping the men and women 
that we ask to serve has to be one of the highest priorities 
that this committee can ever consider.
    General Brady. Sir, two quick points, and it gets to care 
of wounded. We don't have as many wounded as the ground forces 
have, but we do have what we consider a significant number. We 
are aware also that despite our best efforts, there will be a 
horror story out there, and we are proactively looking for that 
horror story. We are having our own audit agency look at our 
process, in terms of MEBs, PEBs, to make sure that we're doing 
that in the best interest of the servicemember.
    I'd like to also make a final statement that picks up on 
the point you just made, and that is--we talk a lot about 
quality-of-life, and that's important, but an important aspect 
of quality-of-life is making sure that our soldiers, sailors, 
airmen, marines, and coastguardsmen have the equipment and the 
training that allows them to prevail in the battlespace. That 
means the best equipment we can give them. So, recapitalization 
and providing equipment cannot be overstated.
    Senator Ben Nelson. Thank you very much, all of you, and to 
all the men and women that you're recruiting and all those who 
are serving abroad and at home, we appreciate very much that 
service. As important as compensation and all the things that 
you have to deal with in order to attract the right men and 
women to join the Services, there is nothing more important 
than patriotism. What we really have to do is continue to 
encourage people to think of what public service is, but also 
what serving their country is, when it comes to the military. 
So, I thank you for what you're doing, and I wish you the best 
of luck. We're all counting on you to be able to make the 
military as strong as it can possibly be, with the right men 
and women.
    Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Claire McCaskill

                            PATIENT FEEDBACK

    1. Senator McCaskill. Dr. Jones, the ability to freely transfer 
medical records between the Veterans Affairs (VA) and the Department of 
Defense (DOD) has been a long sought after capability. However, while 
the DOD and the VA have developed systems for electronic medical 
recordkeeping, the ability to share medical records has defied the two 
agencies. When do you think the capability to share electronic medical 
records will be achieved?
    Dr. Jones. In fact, the DOD and the VA share a significant amount 
of health information today. Beginning our electronic sharing in 2002, 
the Departments constantly seek to expand the scope of our 
capabilities. By the end of 2007, DOD will be sharing electronically 
with VA nearly every health record data element identified in our VA/
DOD Joint Strategic Plan (JSP) for health information transfer. By 
2008, we will be sharing the remaining health record data elements 
identified in the VA/DOD JSP.
Currently shared electronic medical record data:
         Inpatient and outpatient laboratory and radiology results, 
        allergy data, outpatient pharmacy data, and demographic data 
        are viewable by DOD and VA providers on shared patients through 
        Bidirectional Health Information Exchange (BHIE) from 15 DOD 
        medical centers, 18 hospitals, and over 190 clinics and all VA 
        facilities.
         Digital radiology images are being electronically transmitted 
        from Walter Reed Army Medical Center (WRAMC) and National Naval 
        Medical Center (NNMC) Bethesda to the Tampa and Richmond VA 
        Polytrauma Centers for inpatients being transferred there for 
        care.
         Electronic transmission of scanned medical records on 
        severely injured patients transferred as inpatients from WRAMC 
        to the Tampa and Richmond VA Polytrauma Centers.
         Pre- and Post-deployment Health Assessments (PDHAs) and Post 
        Deployment Health Reassessments (PDHRAs) for separated 
        servicemembers and demobilized Reserve and National Guard 
        members who have deployed.
         When a servicemember ends their term in service, DOD 
        transmits to VA laboratory results, radiology results, 
        outpatient pharmacy data, allergy information, consult reports, 
        admission, disposition and transfer information, elements of 
        the standard ambulatory data record, and demographic data.
         Discharge Summaries from 5 of the 13 DOD medical centers and 
        hospitals using the Clinical Information System (CIS) to 
        document inpatient care are available to VA on shared patients.
Enhancement plans for 2007:
         Expanding the digital radiology image transfer capability to 
        include images from WRAMC, NNMC, and Brooke Army Medical Center 
        (BAMC) to all four VA Polytrauma Centers.
         Expanding the electronic transmission of scanned medical 
        records on severely injured patients from WRAMC, NNMC, and BAMC 
        to all four VA Polytrauma Centers.
         Making available discharge summaries, operative reports, 
        inpatient consults, and histories and physicals for viewing by 
        all DOD and VA providers from inpatient data at all 13 DOD 
        medical centers and hospitals using CIS.
         Expanding BHIE to include all DOD facilities.
         Making available encounters/clinical notes, procedures, and 
        problem lists to DOD and VA providers through BHIE.
         Making available theater outpatient encounters, inpatient and 
        outpatient laboratory and radiology results, pharmacy data, 
        inpatient encounters to include clinical notes, discharge 
        summaries, and operative reports to all DOD and VA providers 
        via BHIE.
         Beginning collaboration efforts on a DOD and VA joint 
        solution for documentation of inpatient care.
Enhancement plans for 2008:
         Making available vital sign data, family history, social 
        history, other history, and questionnaires/forms to DOD and VA 
        providers through BHIE.
         At Landstuhl Regional Medical Center, Germany, making 
        available discharge summaries, operative reports, inpatient 
        consults, and histories and physicals to VA on shared patients.

    2. Senator McCaskill. Dr. Jones, what are the major obstacles, what 
resources do you need to accomplish this goal, and do you have them?
    Dr. Jones. Our current and planned sharing initiatives described in 
our answer to your first question are funded with one exception. We 
mentioned that we are beginning collaboration efforts on a DOD and VA 
joint solution for documentation of inpatient care. A comprehensive 
electronic health record (EHR) to include inpatient care is DOD's goal; 
however, the first priority for Armed Forces Health Longitudinal 
Technology Application, the DOD EHR, was to address ambulatory care. VA 
is embarking on a modernization of its EHR to include the inpatient 
component.
    Since each Department was planning a new inpatient electronic 
record acquisition or modernization, DOD and VA have initiated this 
joint assessment project. We anticipate a contract award to a study 
support contractor in May 2007. A 6-month study will produce an initial 
recommendation on the feasibility of a joint acquisition/development 
strategy for an inpatient EHR. The Departments will then pursue follow-
on activities to evaluate alternatives for funding and for selecting a 
technical solution over a subsequent 6-month period.

    3. Senator McCaskill. Dr. Jones, a recent New York Times article 
highlighted the challenges faced by women veterans in the wake of 
combat service. What programs exist within DOD to address the unique 
treatment requirements, especially in psychological treatment fields, 
of women soldiers?
    Dr. Jones. The following DOD programs address the unique deployment 
health concerns for all servicemembers. One must note that Post-
Traumatic Stress Disorder (PTSD) and sexual assault are not gender 
specific and affect both male and female servicemembers.

         The PDHA is a screening program during in-theater medical 
        out-processing or within 30 days after returning to home 
        station. The purpose of this screening is to review each 
        servicemember's current health, mental health, or psychosocial 
        issues commonly associated with deployments, special 
        medications taken during deployment, possible deployment-
        related occupational/environmental exposures, and to discuss 
        deployment-related health concerns. Positive responses require 
        further assessment and/or referrals for medical consultation 
        and information on other resources available to help resolve 
        any post-deployment issues.
         The Post-deployment Health Reassessment (PDHRA) program is 
        designed to identify and address health concerns, with specific 
        emphasis on mental health, that have emerged over time since 
        deployment. The PDHRA provides for a second health assessment 
        during the 3- to 6-month time period after return from 
        deployment. The PDHRA is offered to all servicemembers who have 
        returned from operational deployment, including all Active 
        Duty, National Guard, and Reserve members, as well as those who 
        have separated or retired since their return from deployment.
         The DOD Sexual Assault Prevention and Response Program is 
        designed to prevent and eliminate sexual assault within the 
        Department by providing comprehensive procedures to better 
        establish a culture of prevention, response, and accountability 
        that enhances the safety and well-being of all DOD members.
         DOD established protocol to ensure a consistent level of care 
        and support for victims of sexual assault, and implemented a 
        fundamental change in how the Department responds to sexual 
        assault by instituting the option of confidential reporting for 
        victims of sexual assault. With a restricted reporting option, 
        the sexual assault victim can confidentially disclose the 
        details of the assault to specified individuals and receive 
        medical treatment, mental health/counseling, and advocacy 
        without automatically triggering the official investigative 
        process. Restricted reporting also provides victims the time, 
        care, and empowerment to consider changing to unrestricted 
        reporting and pursuing an investigation at a later date. 
        Regardless of which type of reporting is chosen, medical 
        services offered to victims of sexual assault include the 
        ability to elect a Sexual Assault Forensic Examination (SAFE) 
        in addition to the general medical management related to sexual 
        assault response. Case Management services are provided for 
        victims choosing unrestricted reporting, to include 
        coordination with the victim advocate, military criminal 
        investigator, military law enforcement, health care provider 
        and mental health/counseling services, chaplain, command legal 
        representative or staff judge advocate, and the victim's 
        commander. The team carefully considers and implements 
        immediate, short-term, and long-term measures to help 
        facilitate and assure the victim's well-being and recovery from 
        the sexual assault.

    4. Senator McCaskill. Dr. Jones, do you think the Department has 
dedicated sufficient treatment and research resources to women soldiers 
in the wake of their particularized needs following combat service? 
What more do you think we should be doing?
    Dr. Jones. PDHA screening and the PDHRA Program reaches all 
servicemembers regardless of gender. Health care issues that are 
identified through screening are assessed and referrals for appropriate 
care are initiated. Data from the PDHA and PDHRA are sent to the Army 
Medical Surveillance Activity for inclusion in the Defense Medical 
Surveillance System. Force health data, service data, and gender-
specific health data, both in-theater and in-garrison, are examined and 
compared.
    There are a number of research projects that have been completed or 
are currently in progress that address force health protection and 
readiness deployment issues. Research programs in this area are to 
safeguard the health of servicemembers before, during, and after 
deployment. PTSD is a major area of focus, with several studies looking 
at both men and women veterans. One study investigates cognitive-
behavioral treatment for PTSD in women; however, most studies are not 
gender specific.
    The Defense Advisory Committee on Women in the Services is 
currently conducting focus group research looking at women's health 
care in Operation Iraqi Freedom (OIF)/Operation Enduring Freedom (OEF). 
Research findings and recommendations for women's health care in-
theater will be provided to the Under Secretary of Defense for 
Personnel and Readiness at the completion of the study.
    In June 2006, the DOD Sexual Assault Prevention and Response 
Program was revised to provide victims with the option of restricted or 
unrestricted reporting. The restricted report allows the victim to 
obtain medical services and counseling and the collection of forensic 
evidence without disclosure to law enforcement or the chain of command. 
Victims who come forward and report, either by restricted or 
unrestricted reporting, can access medical and other services needed 
for treatment and recovery. Across DOD, sexual assault response 
coordinators and victim advocates were hired and trained, and are 
available at all locations, including deployed areas. Resources are 
available for reporting and treatment of sexual assault victims, when 
they are reported.

    5. Senator McCaskill. Dr. Jones, I recently proposed an amendment 
to the Fiscal Year 2007 Wartime Supplemental Appropriations Bill that 
would have required a study on the mental health care and readjustment 
needs of servicemembers returning from service in Iraq and Afghanistan. 
This study was to be conducted by the National Academy of Sciences and 
was to be modeled on the landmark 1983 National Vietnam Veterans 
Readjustment Study, a study that was not conducted until 15 years after 
the height of the Vietnam conflict.
    Can you tell me whether you think sufficient research resources are 
being dedicated to studying the landmark injuries of these wars, such 
as PTSD and Traumatic Brain Injury (TBI)?
    Dr. Jones. Both the DOD and the VA are focused on OEF/OIF 
servicemembers and veterans and their health issues, as well as health 
outcomes. In DOD, we conduct health assessments as servicemembers leave 
the theater of operations and 3 to 6 months after they return home. 
These health assessments are scrutinized for the symptoms or concerns 
that may be related to the deployment. Physical health issues such as 
TBI and mental health issues such as PTSD are at the top of the list of 
concerns. We are not only interested in determining if symptoms are 
present, but also in determining the functional capabilities of each 
individual. If further medical evaluation or treatment is recommended, 
we work to track and determine health outcomes, such as return to duty 
or medical retirement/separation. We share with VA the names and social 
security numbers of the OEF/OIF veterans who leave Active Duty, 
including those who return to National Guard or Reserve status. VA 
notifies these individuals of their earned VA benefits, advises of the 
availability of 2 years of VA medical care for issues that may be 
related to their deployment, and tracks their use of VA medical 
services.
    The VA and DOD are coordinating on how to design or develop better 
systems, including research initiatives by experts in and out of the 
Federal Government to continue to monitor and enhance health outcomes 
for these OEF/OIF servicemembers.

    6. Senator McCaskill. Dr. Jones, have we sufficiently empowered 
scientifically based, independent research agencies to conduct this 
research?
    Dr. Jones. The DOD has an aggressive research program, including 
many initiatives in the Peer Review Medical Research Program, and we 
actively solicit the assistance of the National Institutes of Health to 
assist our research efforts.

    7. Senator McCaskill. Dr. Jones, do you believe now is the time to 
embark on a broad, landmark study of reintegration and mental health 
treatment for our returning combat veterans?
    Dr. Jones. Any executable research premise must be validated by a 
scientific process. Today, some 800,000 OEF/OIF veterans have left 
Active Duty after returning from theater and returned to the civilian 
world. Over half of those individuals continue to be members of the 
National Guard or Reserves. Some 500,000 Active Duty servicemembers 
have deployed to OEF/OIF at least once and returned to their duty 
stations.
    To study the reintegration of these individuals would require the 
development of measurable criteria for successful versus unsuccessful 
reintegration, the willingness of these individuals to participate in 
such a study, defining a comparison population, and then a many year or 
decades long study to reach a conclusion. Locating and contacting those 
individuals who are no longer on Active Duty may be problematic.
    A study on mental health treatment would require developing a 
definition of ``mental health treatment,'' building a centralized list 
of individuals who are getting ``mental health treatment,'' and looking 
at medical outcomes. Other considerations include the protection of 
personal health information and potential concerns about being included 
on such a national list. In our society, the majority of ``mental 
health treatments'' is given in primary care, not necessarily by mental 
health providers. Other related support is provided by clergy, online 
resources, and telephone help centers.
    The 2005 RAND Corporation study, ``How Deployments Affect 
Servicemembers'', produced specific recommendations regarding family 
support, communications, stress management, mental health care, 
adaptive training, less ambiguity in deployment dates, and compensation 
adjustments that may mitigate some adverse effects of combat 
deployments, and facilitate reintegration of combat veterans.
    The ongoing Millennium Cohort Study will also contribute vital 
information about the long-term effects of military and combat service, 
with recurring assessments of the cohort through 2022.

    8. Senator McCaskill. Dr. Jones, in my review of the recent scandal 
at WRAMC and within military health care, I was particularly disturbed 
by the lack of empowerment of many military health care patients. 
Negative feedback appeared to be insufficiently solicited and, even 
more troubling, often ignored or dismissed. Knowing that patient 
feedback is critical to monitoring the successes and failures in a 
treatment system, has the Department considered enacting a Department-
wide patient feedback system that will both provide important feedback 
to providers but also permit grading of various military medical 
treatment facilities on successes and failures across uniform areas of 
evaluation?
    Dr. Jones. The Military Health System has long used surveys to 
solicit feedback from its patient population. We are developing new 
surveys to specifically study the care of our wounded warriors. The 
Wounded Warrior Telephone Survey will be in the field in early May 
2007. The purpose of the survey is to provide quick, ``pulse'' 
information to identify the health care and transitional experiences of 
servicemembers and their families, post operational deployment. The 
survey results are expected in late June 2007. Additionally, we are 
developing a comprehensive mail/Web-based survey to gather more 
detailed information from our wounded warriors. This survey will be in 
the field in July 2007. The mail/Web-based survey results are expected 
in early September 2007.

    9. Senator McCaskill. Dr. Jones, if patient satisfaction surveys 
are used within DOD hospitals, to what extent are they used, to what 
extent are they uniform, and how have you used these surveys in making 
management decisions?
    Dr. Jones. Patient satisfaction surveys are performed on an ongoing 
basis by both the TRICARE Management Activity (TMA) and the Services, 
with management decisions made at the Service and TRICARE Regional 
Office level. Customer (patient) satisfaction is one of the top line 
measures in our Balanced Score Card that is reviewed quarterly by 
senior leadership. TMA conducts patient satisfaction surveys, to 
include the Health Care Survey of DOD Beneficiaries, the TRICARE 
Inpatient (Obstetric, Medical, and Surgical) Satisfaction Survey, and 
the TRICARE Outpatient Satisfaction Survey in Military Treatment 
Facilities (MTFs) and the network. The Services currently conduct 
numerous surveys, to include the provider level satisfaction survey in 
MTFs.

                        RECRUITING IMPROPRIETIES

    10. Senator McCaskill. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, I 
have previously questioned General Casey, the nominee to be Chief of 
Staff of the U.S. Army, about improprieties conducted by recruiters. 
Specifically, I was concerned about misrepresentations made by 
recruiters to potential recruits about what the nature of the recruits' 
potential service would be--whether it be the dangers they will be 
exposed to, the potential for overseas deployment, the job they will 
receive, or otherwise. Can you please clarify what your Service is 
doing to ensure that the information provided to potential recruits is 
accurate and truthful?
    General Rochelle. Trust is the bedrock of Army culture and a 
fundamental characteristic of the Warrior Ethos. Leaders and soldiers 
throughout our Army share your concern regarding the cases of improper 
misrepresentation of the risks associated with answering our Nation's 
call to duty during this time of sustained conflict, regardless of how 
few they may be. The Army will not tolerate such behavior from our 
recruiters, has made this point known to all, and commanders will take 
the appropriate actions to punish those who willfully violate the 
sacred trust placed in us by the American public. We fully understand 
that volunteering to serve in the Army is a person's commitment to 
defending this Nation and believe that each person must be made aware 
of both the benefits and risks that this commitment entails.
    Admiral Harvey. Navy leadership shares your concerns about 
recruiter improprieties and their impact on the public trust. Recruiter 
ethics and the assurance that accurate enlistment information is 
provided to every Navy applicant are clearly defined in Navy 
instructions, which guide the actions of our recruiting personnel. This 
includes, but is not limited to, recruiting ethics and providing 
enlistment information regarding military service obligation, 
enlistment programs, incentives, and Navy life.
    General Coleman. Our recruiters receive extensive training 
concerning ethics and representing the Marine Corps truthfully. Our 
Service has always had a reputation for deployments into harms way. 
Therefore, we do not see this type of misrepresentation as an issue for 
the Marine Corps. We do understand that misunderstandings can occur and 
occasionally recruiter misconduct occurs. However, this is the 
exception and not commonplace.
    General Brady. Air Force Recruiting Service has a zero-tolerance 
policy and will not accept any recruiter purposefully misleading an 
applicant. Potential recruits are provided in writing information 
pertaining to the recruiting process and a contract confirming their 
selected job choice.
    Every potential recruit is briefed on the job selection process and 
is guaranteed either a specific job or general job area based on their 
qualifications. Before being assigned a job or general area the recruit 
must confirm and sign for the job offered, even if it is on their list 
of choices. In addition, we have applicants read and sign a statement 
confirming they understand that we are an expeditionary force, that 
overseas deployment is likely, and that they have the potential of 
deploying as part of an Army unit.
    Through initial and recurring training, our recruiters are trained 
on appropriate recruiting procedures and are consistently reminded of 
how purposely providing misinformation risks morale, good order and 
discipline, and unit cohesion, as well as damage Air Force image. While 
the percentage of recruiters actually found to have purposely passed on 
misleading information is negligible, once found, they have been 
administratively disciplined, removed from position or, in extreme 
cases, court-martialed.
    Air Force recruiting policies and procedures are continuously 
reviewed to ensure our airmen uphold the highest moral and ethical 
standards. We believe our current procedures deter recruiters from 
providing inaccurate information and encourage them to provide accurate 
and truthful information to potential recruits.

    11. Senator McCaskill. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, a 
recruiting battalion in the U.S. Army has decided, on a pilot basis, to 
place cameras in their recruiting stations. While I understand that 
much recruiting takes place away from the recruiting station, this 
endeavor strikes me as beneficial in multiple ways. For example, it 
protects recruiters from any potential violence that might be directed 
at them by those who might make the military a target in light of 
ongoing world events. Further, it protects potential recruits who will 
know that the conduct of the recruiter in their presence will be 
recorded and should there be an impropriety, it will be documented. The 
camera, in this sense, will also serve as a deterrent. Can you discuss 
whether you think this is a valuable idea and whether it might be worth 
considering expanding the pilot and/or the practice? What would the 
costs be to enact such a measure?
    General Rochelle. The United States Army Recruiting Command will 
conduct a Security Camera Surveillance Pilot Program in its New York 
City Battalion and expects to have security cameras installed in 38 of 
the battalion's stations by the end of May 2007. In high-crime incident 
areas, the employment of security cameras is a prudent practice; 
however, the security situation across the command does not warrant the 
universal installation of security cameras. In fiscal year 2006, the 
Army experienced less than 30 cases of vandalism/theft at its 
approximately 1,700 recruiting stations, nationwide. In light of this 
relative low-incident rate, the $5 million cost to install security 
cameras in all recruiting stations would exhibit poor stewardship of 
the funds the American people entrust to us for the defense of the 
Nation. As you have stated in your question, recruiting activities for 
the most part occur away from the station and the minimal deterrent 
effect that cameras will have on recruiting impropriety does not merit 
the cost of the program. Furthermore, the limited assistance cameras 
will provide leaders in identifying recruiting improprieties will pale 
in comparison to the loss of trust that we will experience from our 
subordinates. Technology will never be able to serve as a surrogate for 
the Army values of Loyalty, Duty, Respect, Honor, or Integrity nor can 
it replace the benefits of effective leadership.
    Admiral Harvey. While there may be many advantages to installing 
cameras in recruiting stations, much of the recruiting process and 
associated dialogue occurs away from the station. Remote monitoring of 
individual recruiting stations could improve the safety of personnel 
and property, act as a deterrent to improprieties, allow for analysis 
of walk-in traffic into the station, and provide use of the video 
footage as a training tool. Conversely, remote monitoring can present 
an appearance of distrust in honest and trustworthy personnel, and 
possibly raise questions regarding the personal privacy of potential 
applicants.
    While installation of cameras may provide a means of increased 
security at recruiting stations, the DOD currently has a security 
contract with the Army Corps of Engineers, which has added security 
mitigations to more than half of Navy Recruiting Stations (NRS). Under 
this contract, additional stations will receive security mitigations 
each year in order of priority based upon determination of associated 
risk.
    In some cases, installation of cameras may also deter some 
recruiting irregularities; however, since the nature of the recruiting 
business often calls for much of the associated dialogue to occur in 
locations outside of the recruiting stations, this would not offer a 
failsafe solution to mitigating improprieties.
    A current Army pilot program uses local systems with Digital 
Versatile Disc (DVD) recordings that are mailed to a central location 
at an approximate cost of $1,800 per unit for equipment installation 
and $700 annually for purchase of DVDs, mailings, et cetera. This would 
equate to a start-up cost of $2.5 million, with an annual operating 
cost of $1 million to equip 1,400 NRS. This system has inherent 
problems associated with the possible compromise of DVDs on which 
possible improprieties may have been documented. While web-based real-
time video feed would be a preferred application, the associated cost 
would increase significantly. We have estimated the initial cost of 
equipping 1,400 NRS with monitoring capability and video storage at 
$13.7 million for hardware installation with an annual operating cost 
of $370.5 million for data feed processing equipment at Navy Recruiting 
Command Headquarters. This approach would also require 30 additional 
personnel (26 network technicians, 2 network engineers, and 2 data 
management technicians).
    While I remain committed to taking all reasonable measures to 
eliminate recruiter improprieties, I do not currently view the use of 
video surveillance as a practical or cost effective approach.
    General Coleman. We do not see this to be an effective measure for 
deterring such activity. As stated in the question, much of the 
recruiting and discussions with applicants take place away from the 
recruiting offices. We also do not see this as a deterent to any type 
of protest against recruiters. Those who protest often seek media 
coverage. The cost of such a program would far outweigh any potential 
benefit. The cost of such an endeavor would require extensive analysis 
and is not currently available.
    General Brady. Air Force recruiters maintain the highest standards 
of our Service. In addition to internalizing the Air Force core values 
of Integrity, Service, and Excellence, all 1,200 recruiters have taken 
an Air Force Recruiter Pledge (signed and displayed in each office) to 
never mislead, lie to, or take advantage of a recruit. The pledge 
ensures that every recruit is treated as a future brother- or sister-
in-arms. The integrity a recruiter introduces as the first ``voice'' of 
the Air Force serves as the benchmark. The stakes are high and so are 
our standards. Because of these high recruiting standards and the cost 
of installing and maintaining these systems, the Air Force is not 
considering adding cameras in recruiting stations at this time.
    The Air Force applauds the Army for taking measures it deems 
necessary to ensure the safety of its soldiers. The Air Force feels it 
has all the necessary measures and policies already in place to ensure 
the safety of both the recruits and the recruits.
    Our estimates show that camera installation cost is $300 per office 
(for two cameras at each location). Based on our total number of 
offices, that Air Force Recruiting Service would spend approximately 
$360,000 for installation. Setup and monitoring would increase the cost 
considerably, and an additional system would be required to record the 
footage. In light of the cost of implementation and the high standards 
our recruiters already uphold, we believe placing cameras in Air Force 
recruiting stations will provide little added value.

    12. Senator McCaskill. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, on 
several occasions, news agencies have conducted investigations using 
hidden cameras to view recruiter practices presented to a potential 
recruit. Unfortunately, these investigations have uncovered troubling 
practices by individual recruiters on several occasions. Does your 
Service's recruiting command conduct similar investigations using fake 
recruits to provide a check on recruiters?
    General Rochelle. No, the United States Army does not employ this 
practice.
    Admiral Harvey. Navy Recruiting Command does not employ this method 
as a means of monitoring the practices or performance of Navy 
recruiters.
    Nonetheless, we take very seriously the issue of recruiting 
improprieties and have robust methods for providing recruiters with 
direction, support, and counseling to reduce the likelihood of their 
compromising their own personal integrity or the public trust in Navy 
recruiting.
    Formal opportunities are available to new recruits, upon reporting 
to Recruit Training Command to report instances of, or perceived, 
possible recruiter impropriety. All such allegations are thoroughly 
investigated by the Navy Recruiting Command Inspector General, who 
maintains a database to record, track, and identify isolated or 
systemic problem areas.
    Navy Recruiting Command headquarters staff personnel routinely 
inspect each Navy Recruiting District to ensure that policies are being 
scrupulously followed, to report any irregularities, and, where 
irregularities are discovered, to initiate appropriate corrective 
actions and training.
    General Coleman. No, Marine Corps Recruiting Command does not do 
similar investigations to check on recruiters.
    General Brady. No, we do not implement that practice. While some 
military recruiters have been called into question by news agencies 
using hidden cameras techniques, to date, no Air Force recruiters have 
been implicated during these interviews. In fact, several news agencies 
have praised Air Force recruiters for being honest and ``upfront about 
the dangers of enlisting and the benefits of serving.''

             MILITARY PAY AND PERSONNEL PROCESSING SYSTEMS

    13. Senator McCaskill. Secretary Chu, the DOD has embarked on an 
expansive effort to develop a uniform personnel and pay processing 
system. It is my understanding, however, that the Defense Integrated 
Military Human Resources System (DIMHRS) (Personnel/Pay) has 
experienced significant development problems. Can you update me on the 
status of the DIMHRS system and challenges that remain?
    Dr. Chu. DIMHRS has not experienced significant development 
problems. It has experienced significant programmatic problems. The 
DIMHRS program was initiated in February 1998. The development contract 
was not awarded until September 2003. By that time, the funding stream 
no longer matched the revised development schedule. The Navy was the 
acquisition agent for DIMHRS from 1998 until 2005. In 2005, the DIMHRS 
program was not funded and there were many critical vacancies in the 
program management staff, including both the Program Manager and the 
Technical Director. The Department turned the program over to the 
Defense Business System Acquisition Executive (DBSAE) in the Business 
Transformation Agency (BTA). At that time, the DBSAE had to completely 
revalidate the program, the contracts, the costs, and the schedule. The 
program is now in the process of being re-baselined.
    Although there are no problems with the development, there are some 
critical challenges that we face. Our legacy military personnel and pay 
systems are out of date and expensive to maintain. The Department wants 
to be aggressive in turning these systems off and migrating to DIMHRS--
but any migration of this type involves a lot of work that is not 
related to the development of the new system. As with all migrations, 
there are two primary challenges.
    The first challenge is loading legacy data into the new system. All 
of the data on the careers of the current military personnel must be 
loaded into the new system from a large set of legacy systems. For each 
piece of data that is to be loaded, the authoritative source must be 
identified and an interface must be built to transfer the data from the 
legacy system to the new system. Conflicting data must be reconciled 
prior to loading; the more complex the legacy environment, the more 
complex the task.
    The second challenge is change management. DIMHRS incorporates 
several transformational improvements, such as the integration of 
personnel and pay, the ability to provide cross-service support, and 
new self-service capabilities. The new system will look and feel 
different from the old systems and there will be new, streamlined 
processes. The Services are meeting the challenge with change 
management programs to educate and train their personnel on the new 
business rules, the new procedures, and the use of the new system.

    14. Senator McCaskill. Secretary Chu, what has been done to address 
concerns raised by the Government Accountability Office (GAO) about 
DIMHRS?
    Dr. Chu. The original report, ``DOD Systems Modernization: 
Management of Integrated Military Human Capital Program Needs 
Additional Improvements,'' was completed December 14, 2004. There were 
a number of recommendations; the DOD did not fully concur with all of 
the recommendations. The GAO began a follow-up review in December 2006 
that has not been completed. However, we continue to work the original 
recommendations as appropriate.
    The recommendation of establishing a DOD-wide integrated governance 
structure for DIMHRS that vests an executive-level organization or 
entity representing the interests of all program stakeholders with 
responsibility, accountability, and authority for the entire DIMHRS 
(Personnel/Pay) program was addressed with the establishment of the 
Defense BTA. On October 7, 2005, the Deputy Secretary established the 
BTA and transferred the DIMHRS Program to the BTA. On December 1, 2005, 
the Deputy Secretary directed a series of actions relative to the 
DIMHRS program that included detailed analysis in the form of Service 
assessments. The Army's detailed analysis was completed in September 
2006. The Air Force assessment began in January 2006 and was completed 
November 2006. The initial Navy assessment concluded in June 2006 and 
results were presented to the Defense Business Systems Management 
Council on July 26, 2006. The program is still in the process of re-
baselining with the Army scheduled to implement DIMHRS (Personnel/Pay) 
in August 2008, followed by the Air Force in November 2008.
    Specifically, we are working closely with the BTA, the Defense 
Business Systems Acquisition Executive and the DIMHRS Enterprise 
Program Manager (EPM) to jointly ensure an integrated, coordinated, and 
risk-based approach to all DIMHRS (Personnel/Pay) definition, design, 
development, and deployment activities is employed.
    The DIMHRS (Personnel/Pay) requirements were complete and correct 
to the extent that any documentation can be correct before the transfer 
to the BTA. The design was fully traceable to the requirements, 
including the applicable financial system and accounting requirements. 
The rest of the documentation of requirements for DIMHRS was an 
innovative and unprecedented effort to ensure full traceability from 
documentation of requirements through design, development, and 
maintenance.
    The DIMHRS requirements are consistent with the Business Enterprise 
Architecture for military personnel and pay. We continue to monitor 
legislative and policy changes that may affect DIMHRS (Personnel/Pay) 
requirements. When changes are required the appropriate change requests 
are created and submitted to the EPM for the next Configuration Control 
Board.
    Finally, to address the recommendation for an integrated master 
schedule, the EPM developed an Integrated Master Program Schedule. This 
schedule is being used to guide design, development, and deployment to 
the Services and the Department. The EPM is in the process of 
establishing the baseline for Initial Operating Capability (IOC) and 
all future requests will be queued for a release after IOC to the first 
Service.

    15. Senator McCaskill. Secretary Chu, it has been brought to my 
attention that the Marine Corps developed an interim personnel and pay 
system known as the Marine Corps Total Force System (MCTFS). I have 
been informed that MCTFS has proven a very successful, integrated 
system and that the Navy is interested in fielding MCTFS while they 
await final development and fielding of DIMHRS. Can you comment on 
whether you think the fielding of MCTFS to the Navy would be cost 
effective in light of the future expected fielding of DIMHRS?
    Dr. Chu. The Marines have an integrated personnel and pay system 
that works very well for them. MCTFS uses Marine Corps data and Marine 
Corps business rules and therefore needs a lot of enhancements and 
modifications to be used by the Navy. As I understand it, the Navy 
plans to use MCTFS as an interim system and then migrate to DIMHRS.
    If MCTFS were to be the final Navy solution, there are 
considerations in addition to the costs. One of the most critical 
deficiencies of our current processes for managing military personnel 
and pay is that we cannot provide cross-Service support. This is a 
highly important core requirement for the integrated personnel/pay 
capability--both for the servicemembers and for the joint commanders 
and warfighters. When our servicemembers who are assigned to units 
managed by other Services must go to their parent Service locations to 
receive basic personnel and pay support, it is primarily an 
inconvenience when they are at a U.S. location, but it can put them at 
serious risk in a hostile environment. Similarly, at Joint Commands, 
the Services must provide duplicative capabilities so that each Service 
can provide personnel and pay support to its assigned personnel. This 
is inefficient at best. Further, the use of different systems makes it 
very difficult to get a useful view of the entire set of resources in a 
theater of operations.
    While the Navy could modify MCTFS for an integrated personnel and 
pay capability for Navy and Marine Corps personnel, it would not 
provide cross-Service support without significant and extremely complex 
additional modifications.
    If the Navy were to use MCTFS for its integrated personnel and pay 
system while the Army and the Air Force used DIMHRS, it is clear that 
cross-Service support would not be available except within the 
Department of the Navy and between the Departments of the Army and Air 
Force. That is not in the best interests of either the Department or 
our servicemembers.

    16. Senator McCaskill. Secretary Chu, do you expect DIMHRS to 
provide equally successful pay and personnel processing as MCTFS has 
provided to the Marine Corps? If not, have you considered employing 
MCTFS in place of DIMHRS?
    Dr. Chu. DIMHRS has been designed to provide integrated personnel 
and pay capability that is as fully successful or more successful than 
MCTFS. The Department did consider using MCTFS before embarking on the 
DIMHRS program. There were several reasons why the Department decided 
not to use MCTFS.
    MCTFS uses Marine Corps data and Marine Corps business rules and 
processes. It is very easy to note that a system works for one Service, 
but very difficult to implement that same system in another Service 
without extensive modification either of the system or of the 
processes, data, and business rules of the receiving Service. As an 
example, the Defense Joint Military Pay System (DJMS) was an Air Force 
pay system, using Air Force business rules and Air Force data. In 1991, 
the decision was made to use DJMS for the Army and Navy. It was first 
implemented in the Army (in 1992) and Army pay essentially broke down. 
It took several years to figure out all of the problems with the 
imbedded business rules and data differences between Army and Air 
Force. (Similar data had different meanings; the Army did not collect 
some data; and many imbedded business rules were different, creating 
problems in implementation.) One simple example: When Air Force 
personnel were up for re-enlistment, they had to make their re-
enlistment decision 120 days before the end of their current 
enlistment. Army personnel were able to make that decision at the last 
minute--when Army personnel made their decision after the Air Force 
cut-off date, the system prepared to cut them off and then, at the end 
of their current enlistment, they were kicked out of the system. They 
could not be simply re-entered into the system because of the imbedded 
Air Force business rules. There were several hundred issues like this 
that needed to be resolved. Since we would have to go through this kind 
of process anyway, it seemed more sensible to adopt joint business rule 
standards (and recognize when Service-specific rules were required) 
than to be forced into decisions based on system performance rather 
than the right way to do business. The Army and Navy still use 
extensive manual work-arounds to use DJMS.
    MCTFS does not support Guard personnel or many specific specialties 
of the other Services (for instance the medical specialties). This 
means that there would have to be new code written for the special 
business rules associated with the Guard and associated with the 
specialties not in MCTFS.
    While MCTFS has some enhanced front-end access developed in recent 
years, the underlying core software is still primarily the common 
business oriented language and assembler language. The Department 
analyses led them to decide to use commercial off-the-shelf (COTS) and 
found a COTS product that could be adopted with little modification to 
support military business rules.
    At this point, the common business rules and data have already been 
defined and coded in DIMHRS (based on joint analysis and workshops with 
all 10 DOD components). It would not make sense to stop and start over.
    ``Equal capability'' does not mean identical processing rules. For 
instance, MCTFS requires dual input of data for pay impacting 
information. To mirror this capability in DIMHRS would require 
extensive modification of the COTS product. In fact, DIMHRS uses the 
COTS capability that is considered a best practice--to review and 
correct data by exception rather than require dual entry of all data. A 
comparison of capabilities should be focused on functional outcomes, 
not on how the systems process data.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                         MENTAL HEALTH SERVICES

    17. Senator Pryor. Dr. Jones, when our soldiers who are deployed in 
combat fall victim to improvised explosive devices (IEDs), many times 
it is the concussion impact, not shrapnel, that causes the most 
significant injury. These head traumas consequently require a lengthy 
and specialized rehabilitation to return our wounded servicemembers to 
a normal cognitive thought process and speech capability. What steps do 
you plan to take to resolve the significant lack of psychologists and 
psychiatrists to treat these servicemembers?
    Dr. Jones. Professional mental health provider staffing currently 
ranges by specialty from 75 to 85 percent of authorized billets in the 
Service branches. The Services have, at their disposal, the use of 
Critical Skills Retention Bonuses and educational loan payback 
incentives to adjust incentives to retain needed personnel. 
Psychiatrist retention is also incentivized with physician bonuses. 
Mental health providers play a role in the management of those with 
Traumatic Brain Injuries, as well as other specialized therapists who 
provide intensive rehabilitation treatments such as speech and other 
occupational therapies. In addition, primary care providers provide 
mental health service and support in our system, often administering 
psychotropic medication, including antidepressants, which are helpful 
for those with mood and anxiety disorders associated with their 
injuries.

                           SERVICE COMMITMENT

    18. Senator Pryor. General Brady, a few years ago the Air Force 
changed its Active Duty service commitment for pilots from 8 years to 
10 years. What factors contributed to this decision?
    General Brady. The Air Force has used both analysis and our 
experience with pilot retention over the years to determine the best 
mix of commitment and incentives to ensure we have a force ready to go 
to war. Over time, pilot retention varies with ``market conditions'', 
principally the hiring practice of civilian airlines. We have concluded 
that for the current market conditions, a 10-year commitment followed 
by a 5-year bonus/commitment combination is best for ensuring we retain 
that ``go to war'' force.

    19. Senator Pryor. General Brady, what is the current pilot bonus?
    General Brady. The current pilot bonus is $25,000 per year in 
return for a 5-year commitment.

    20. Senator Pryor. General Brady, do navigators and other flight 
crew members have a similar bonus?
    General Brady. Navigators do not receive a bonus. Navigators were 
offered a bonus from fiscal year 2003 through fiscal year 2005; 
beginning in fiscal year 2006, navigators were no longer offered a 
bonus due to healthy career field manning. Air battle managers receive 
a bonus of $15,000 per year in return for a 5-year commitment.

                            EARLY SEPARATION

    21. Senator Pryor. General Rochelle, what are some of the reasons 
surveyed for those personnel who elect to separate before retirement 
(both officer and enlisted)?
    General Rochelle. The fall 2006 Sample Survey of Military Personnel 
has identified (from a list of 58 aspects of Army life) the following 
as the most important reasons for officers and enlisted soldiers for 
leaving or thinking about leaving the Active component Army before 
retirement:
    Concerning the population of commissioned officers and warrant 
officers, the amount of time separated from family (30.4 percent) was 
the overall leading indicator of dissatisfaction with military service. 
The next are of concern was amount of enjoyment from job (7.8 percent). 
The third leading indicator of dissatisfaction was amount of pay 
(basic) (6.3 percent). Finally the overall quality of Army life (6.0 
percent) was the fourth highest reason of dissatisfaction.
    For the enlisted soldier population, the amount of time separated 
from family (20.9 percent) was the overall leading indicator of 
dissatisfaction with military service. The next leading indicator of 
dissatisfaction was amount of pay (basic) (14.4 percent). Finally, the 
overall quality of Army life (11.3 percent) was the third highest area 
of concern for this population.
                                 ______
                                 
            Questions Submitted by Senator Lindsey O. Graham

                 MENTAL HEALTH SELF-ASSESSMENT PROGRAM

    22. Senator Graham. Secretary Chu, last year in our oversight 
hearing, I sought assurance from you and Dr. Winkenwerder that our 
government was doing everything possible to ensure that our wounded, 
having received the best battlefield lifesaving care in the world, 
would not fall through the cracks. Where did we fail and why?
    Dr. Chu. I believe our wounded servicemembers are receiving the 
best battlefield lifesaving care in the world, but issues have been 
raised about the challenges that these servicemembers and their 
families face here at home. It is for this reason that we initiated the 
Military Severely Injured Center in February 2005. Despite our best 
efforts to publicize its services, it is clear we did not reach all we 
should.
    We are pleased that the Independent Review Group and the 
Presidential Task Force have been thorough and quick in their 
assessments of the challenges our servicemembers face, and have made 
recommendations to improve our processes. We look forward to additional 
input from the President's Commission and other ongoing reviews. We are 
working to coordinate our medical, personnel, and disability evaluation 
systems to work in unison to serve the needs of our wounded and ill 
servicemembers.


                          CARE FOR THE WOUNDED

    23. Senator Graham. Dr. Jones, we have heard from wounded soldiers 
and their families who believe that they were prematurely moved to the 
temporary or permanent retired lists as a result of their injuries. Are 
you aware of these concerns?
    Dr. Jones. I am aware of servicemembers and their families who 
believe they were moved too quickly, I am aware of servicemembers, and 
their families who believe it took too long. The important factor in 
this process is communication between the care providers and the 
servicemember and his or her family--communication based on the 
condition of that servicemember and the time the healing will take. 
When there is clear understanding by the servicemember and the family, 
there should not be concern that the action is too quick or too slow.

    24. Senator Graham. Dr. Jones, being placed on the temporary or 
permanent retired lists can affect health care benefits. In the case of 
SGT Eric Edmondson, a soldier from the 172nd Stryker Brigade in Alaska, 
DOD extended him on Active Duty, so he could obtain care at a civilian 
rehabilitation institute that was not available in DOD or the VA, and 
would not have been available to him as a retiree. Why would we 
discriminate in terms of health care between a wounded member extended 
on Active Duty and a member on the temporary retired list, who are both 
fighting to recover from wounds and injuries in war?
    Dr. Jones. Rehabilitation therapy covered under the TRICARE Basic 
Program is available to both Active Duty servicemembers and retirees, 
and includes physician-prescribed therapy to improve, restore, or 
maintain function, or to minimize or prevent deterioration of patient 
function. Rehabilitation therapy under the TRICARE Basic Program must 
be medically necessary, appropriate, and consistent with accepted norms 
for medical practice in the United States. The care must be rendered by 
an authorized provider, necessary to the establishment of a safe and 
effective maintenance program, and must not be custodial or otherwise 
excluded from coverage.
    Covered rehabilitation services for TBI patients may include 
physical, speech, occupational, and behavioral services. Cognitive 
rehabilitation strategies may be integrated into these components of a 
rehabilitation program, and may be covered under the TRICARE Basic 
Program when cognitive rehabilitation is not billed as a distinct and 
separate service. Under the TRICARE Basic Program, cognitive 
rehabilitation defined as ``services that are prescribed specifically 
and uniquely to teach compensatory methods to accomplish tasks which 
rely upon cognitive processes'' are considered unproven and are not 
covered when separately billed as distinct and defined services. To 
provide some comparison, coverage of cognitive rehabilitation by major 
health insurers is mixed. For example, Cigna, Aetna, and UniCare cover 
cognitive rehabilitation for TBI when it is determined to be medically 
necessary. Cigna excludes coverage of cognitive rehabilitation for mild 
TBI. Regence and Blue Cross/Blue Shield consider cognitive 
rehabilitation to be investigational and do not provide coverage for 
it. There is no Medicare National Coverage Determination for cognitive 
rehabilitation for TBI.
    In determining whether a medical treatment has moved from unproven 
to proven, TRICARE reviews reliable evidence, as defined in 32 Code of 
Federal Regulations Part 199. Research study of cognitive 
rehabilitation in neurological conditions including TBI is limited by 
differences between patients, and by variation in the type, frequency, 
duration, and focus of cognitive rehabilitation interventions. The 
TRICARE determination that cognitive rehabilitation for TBI is unproven 
is supported by a 2002 Technical Assessment performed by Blue Cross/
Blue Shield (updated in 2006), and by a 2004 Technical Assessment by 
Hayes Incorporated also updated in 2006. Medical evidence is dynamic 
and evolving. We know that some care that is considered unproven today 
will in the future achieve the required evidence threshold and become 
covered under the TRICARE Basic Program. Care that is likely to become 
proven is periodically reevaluated to ensure that TRICARE coverage is 
current and consistent with the latest evidence. The DOD has 
commissioned a formal technical assessment of the current scientific 
evidence supporting cognitive rehabilitation intervention for TBI. This 
evaluation will be completed in August 2007. The Department will 
reevaluate its coverage policy for cognitive rehabilitation under the 
TRICARE Basic Program at that time.
    Post-acute, community reentry programs, work integration training, 
and vocational rehabilitation are also excluded from coverage under the 
TRICARE Basic benefit.
    Beneficiaries, including Active Duty servicemembers, may receive 
rehabilitation services in direct or purchased care facilities. Active 
Duty servicemembers may also receive TBI rehabilitation in specialized 
VA treatment centers. In most cases, patients will be referred to a 
rehabilitation facility that has agreed to participate in the TRICARE 
network. Both Active Duty and non-Active Duty beneficiaries may be 
referred for care in a non-network facility when there are no available 
network facilities able to meet the identified medical needs of the 
patient in the area where the patient lives or needs to receive care.
    With the exception of benefit limitations based on Federal statute, 
any restrictions or limitation of the TRICARE Basic Program may be 
waived for Active Duty servicemembers under the Supplemental Health 
Care Program (SHCP) in order to assure adequate availability of health 
care services to Active Duty servicemembers or to keep or make the 
Active Duty servicemembers fit to remain on Active Duty. The Department 
recognizes that as a determination is made that an Active Duty patient 
will not be able to return to Active Duty service, and transition is 
made from Active Duty to retired status, potential coverage differences 
between the SCHP and the TRICARE Basic Benefit may result in 
discontinuity in care for combat-wounded servicemembers. The Department 
is exploring the feasibility of testing strategies for mitigating 
potential disruption in care using demonstration authority.
    In our experience, the VA health benefit is intentionally 
structured to provide robust care to disabled veterans with long-term 
rehabilitation, and other care needs. Specific questions about VA 
coverage of civilian TBI rehabilitation may best be addressed by the 
VA.

                            DOD HEALTH CARE

    25. Senator Graham. Secretary Chu and Dr. Jones, your testimony 
confirms that the budget request assumed savings of nearly $2 billion 
before either the GAO or the DOD health care task force weighs in with 
their findings and recommendations. It is difficult to accept the 
notion that you are sincere about a debate on the future of health care 
benefits when you use the budget ax before that debate has begun. What 
new ideas, if any, have you come up with for increasing efficiencies in 
the DOD health care system before we tax our retirees with higher fees 
and copayments?
    Dr. Chu and Dr. Jones. No, the savings are for the next fiscal year 
(2008). If we can reach agreement with Congress on how to proceed, 
significant savings are possible.
    At the same time, the Military Health System is continuously 
pursuing opportunities to look for efficiencies to reduce the cost of 
health care services. We have worked diligently on improving the 
TRICARE contracts to make them more cost-effective and will continue to 
do so; we have looked at our pharmacy operations and found ways to 
improve our formulary management; and, we have undertaken, along with 
the Service medical departments, a comprehensive look at the military 
and civilian mix of personnel to find those opportunities to address 
our labor costs. Of course, none of this will be sufficient to stem the 
increasing rate of health care costs that the Department faces, and we, 
like others in our government, need to face the challenge of balancing 
the government and beneficiary cost structure.

                     EMPLOYER INCENTIVE FOR TRICARE

    26. Senator Graham. Dr. Jones, last year, at the Department's 
request, Congress enacted legislation that prohibits employers from 
providing financial incentives to military retirees to use TRICARE 
instead of employer-provided health care. One of the unanswered 
questions was how DOD would treat ``cafeteria plans'' under this new 
authority. I want to be clear that our expectation is that DOD should 
implement this authority in a manner that is consistent with Medicare, 
on which the legislation was modeled. Have you consulted with the 
Centers for Medicare and Medicaid Services as we directed in 
implementation of this authority, and will you assure this committee 
that DOD will implement it in the same manner as Medicare?
    Dr. Jones. As enacted, Section 707 extends to TRICARE the same 
prohibition on offering financial or other incentives not to enroll in 
a Group Healthcare Plan (GHP) that currently apply to Medicare under 
section 1862(b)(3)(C) of the Social Security Act (42 United States Code 
1395y(b)(5)). The Department has reviewed the Medicare prohibition on 
GHP incentives, and intends to follow closely those rules in applying 
the comparable prohibition to TRICARE. In general, CMS does not treat 
cash payments to an employee as improper incentive so long as such cash 
payment is based on the employee's election as part of a cafeteria plan 
offered by the employer and that plan comports with section 125 of the 
Internal Revenue Code (IRC). The Department intends to follow closely 
the policies that CMS has instituted to address this issue.
    DOD will soon issue an interim final rule (IFR) to codify all rules 
and governing authorities pertinent to effectuating the requirements of 
Section 707 and will include the treatment of cafeteria plans and other 
employer-provided incentives under the Department's implementation of 
the provision. The IFR will closely track CMS regulations. Employers 
will be prohibited from offering TRICARE-eligible employees financial 
or other benefits not to enroll or to disenroll from the employer's 
group health plan that is or would be primary to TRICARE. Cafeteria 
plans that comport with section 125 of the IRC will be permissible.

                           PHARMACY BENEFITS

    27. Senator Graham. Dr. Jones, last year I thought we had arrived 
at a consensus on the need to make better use of mail-order pharmacy in 
DOD. Have you seen any increase in the rate of use of mail order?
    Dr. Jones. In February 2006, TRICARE Management Activity, along 
with the assistance of our various contracted partners, focused 
multiple educational efforts to encourage the use of our mail-order 
pharmacy point of service by our DOD beneficiaries. Over the last year, 
we have seen a steady increase in the rate of use of mail order. When 
comparing March 2006 to March 2007, we saw an increase from 647,921 
prescriptions to 765,485 prescriptions (15.4 percent). To put this in 
perspective, for the same time period, our prescription workload at the 
MTFs decreased by 3.6 percent and our retail point of service increased 
by 1.2 percent. In March 2006, the mail-order venue comprised 6.2 
percent of all prescriptions filled, whereas in March 2007, this number 
had increased to 7.3 percent. When you normalize the prescriptions to 
an equivalent number of days (in this case 30 days), mail order 
increased 16.4 percent, MTFs decreased 1.8 percent, and retail 
increased 1.7 percent for this same period.
    Another way we measure utilization of the pharmacy benefit across 
our three points of service is the number of beneficiaries that use a 
point of service from month to month. Many of our beneficiaries use 
multiple points of service in a month due to various reasons. When 
comparing March 2006 against March 2007, we see signs of encouragement. 
The number of beneficiaries that utilized mail order increased by 14.8 
percent, whereas the numbers of beneficiaries that utilized the MTFs 
decreased by 4.9 percent and the retail utilizers increased by 7 
percent. Overall, 8.2 percent of our beneficiaries that filled a 
prescription in March 2007 utilized the mail-order point of service 
versus 7.2 percent in March 2006. In addition, since January 2007, the 
number of beneficiaries that have enrolled into the mail-order system 
has averaged over 18,000 per month. We will continue to encourage 
greater use of the home delivery point of service through educational 
campaigns that promote its substantial benefits.

    28. Senator Graham. Dr. Jones, your testimony says that you need 
more help from Congress in making changes in the pharmacy benefit. What 
help are you seeking?
    Dr. Jones. In order to more effectively manage the DOD Pharmacy 
Benefit, assistance in the form of legislative change is needed. These 
changes include:

         End the fiscal year 2007 freeze on adjustments to pharmacy 
        co-payments.
         Eliminate the non-formulary cost sharing cap.

                 Current statutes cap the maximum beneficiary cost 
                share for non-formulary drugs. This limits DOD's 
                ability to establish a wider co-payment differential 
                between retail and mail-order points of service. It 
                also limits DOD's ability to incentivize the use of 
                less costly generics and preferred brand name formulary 
                products.

         Index pharmacy cost shares to health care inflation.
         Require exclusive use of TRICARE mail-order or MTFs for 
        filling selected generic and brand name maintenance 
        medications.

                 The current pharmacy benefit statute requires uniform 
                formulary drugs be generally available at all three 
                points of service.
                 In fiscal year 2006, if the top 10 maintenance 
                medications filled at the retail point of service had 
                been filled through the TRICARE mail-order program or 
                at MTFs, the Department's potential cost avoidance was 
                estimated at over $185 million.

                           DOD-VA TRANSITION

    29. Senator Graham. Secretary Chu and Dr. Jones, as a member of the 
Senate Committee on Veterans Affairs, we hear a lot of talk about 
seamless transition for members from DOD to VA. But based on 
information we hear from military families, this transition misses the 
mark far more than it hits the mark. Why don't DOD and VA have a 
universal single medical exam upon separation from the military, and 
why aren't those exam results available electronically for every 
separating member?
    Dr. Chu and Dr. Jones. The DOD and the VA have been working 
diligently to define the parameters that each Department requires a 
separation physical examination for DOD and a compensation and pension 
physical examination for VA. We are developing an integrated physical 
examination process that would include, for many members, a single 
examination as the servicemember separates from Active Duty and 
registers with the VA for care and, perhaps, disability compensation.
    The complexity of transition of medical care from DOD to VA is 
directly related to the medical status of the individual servicemember. 
Those with more complex and severe medical problems require more than 
just a separation physical examination. Their ``medical exam'' includes 
intense specialty evaluations particular to their medical conditions. 
There is, of course, no such thing as a ``universal single medical 
examination'' suitable for all patients. DOD and VA are acutely focused 
on the coordinated transition of severely wounded and injured 
servicemembers from inpatient care in DOD to inpatient care in VA and 
often back to DOD again. The transition of paper and EHRs is a critical 
part of that, as well as doctor-to-doctor information transfer. VA has 
social workers and disability advisors working in 10 MTFs to help 
expedite the inpatient transfer process to VA Polytrauma Centers. 
Similarly, DOD has Active Duty personnel assigned to help the 
servicemembers and their family members with the transition as they 
arrive at the VA medical centers. The VA social workers in DOD MTFs 
have assisted over 7,600 servicemembers with making outpatient 
appointments at VA's medical facilities as they transition their care 
from DOD to VA.

    30. Senator Graham. Secretary Chu and Dr. Jones, why is DOD still 
unable or unwilling in many cases to share health records with the VA 
electronically?
    Dr. Chu and Dr. Jones. In fact, the DOD and VA share a significant 
amount of health information today. Our electronic sharing began in 
2002, and the Departments are constantly seeking to expand the scope of 
our capabilities. By the end of 2007, DOD will be sharing 
electronically with VA nearly every health record data element 
identified in our VA/DOD JSP for health information transfer. By 2008, 
we will be sharing the remaining health record data elements identified 
in the VA/DOD JSP.
Currently shared electronic medical record data:
         Inpatient and outpatient laboratory and radiology results, 
        allergy data, outpatient pharmacy data, and demographic data 
        are viewable by DOD and VA providers on shared patients through 
        BHIE from 15 DOD medical centers, 18 hospitals, and over 190 
        clinics and all VA facilities.
         Digital radiology images are being electronically transmitted 
        from WRAMC and NNMC Bethesda to the Tampa and Richmond VA 
        Polytrauma Centers for inpatients being transferred there for 
        care.
         Electronic transmission of scanned medical records on 
        severely injured patients transferred as inpatients from WRAMC 
        to the Tampa and Richmond VA Polytrauma Centers.
         Pre- and PDHAs and PDHRAs for separated servicemembers and 
        demobilized Reserve and National Guard members who have 
        deployed.
         When a servicemember ends their term in service, DOD 
        transmits to VA laboratory results, radiology results, 
        outpatient pharmacy data, allergy information, consult reports, 
        admission, disposition and transfer information, elements of 
        the standard ambulatory data record, and demographic data.
         Discharge Summaries from 5 of the 13 DOD medical centers and 
        hospitals using the CIS to document inpatient care are 
        available to VA on shared patients.
Enhancement plans for 2007:
         Expanding the digital radiology image transfer capability to 
        include images from WRAMC, NNMC, and BAMC to all four VA 
        Polytrauma Centers.
         Expanding the electronic transmission of scanned medical 
        records on severely injured patients from WRAMC, NNMC, and BAMC 
        to all four VA Polytrauma Centers.
         Making available discharge summaries, operative reports, 
        inpatient consults, and histories and physicals for viewing by 
        all DOD and VA providers from inpatient data at all 13 DOD 
        medical centers and hospitals using CIS.
         Expanding BHIE to include all DOD facilities.
         Making available encounters/clinical notes, procedures, and 
        problem lists to DOD and VA providers through BHIE.
         Making available theater outpatient encounters, inpatient and 
        outpatient laboratory and radiology results, pharmacy data, 
        inpatient encounters to include clinical notes, discharge 
        summaries, and operative reports to all DOD and VA providers 
        via BHIE.
         Beginning collaboration efforts on a DOD and VA joint 
        solution for documentation of inpatient care.
Enhancement plans for 2008:
         Making available vital sign data, family history, social 
        history, other history, and questionnaires/forms to DOD and VA 
        providers through BHIE.
         At Landstuhl Regional Medical Center, Germany, making 
        available discharge summaries, operative reports, inpatient 
        consults and histories, and physicals to VA on shared patients.

              REDUCTION IN AGE OF RETIREMENT FOR RESERVES

    31. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, what 
is your view of the potential impact on recruitment, retention, and 
manpower management of the Reserve and Guard should Congress legislate 
lowering the age of retirement?
    General Rochelle. The Army is continuing to analyze projected 
impact of lowering the retirement age for Reserve component soldiers 
but our initial review of the numbers shows that there are over 4,000 
Army Reserve and over 7,000 ARNG soldiers spread across all specialties 
who would become immediately eligible for retirement once such a change 
was approved. If all of them chose to retire from service there would 
be a significant impact on our Reserve component mission.
    From a manpower management standpoint, reducing the retirement 
eligibility age will decrease the predictability of soldier inventory 
size and increase the potential turbulence when distributing and 
employing the Reserve component. Although the increased amount of time 
between retirement eligibility and pension payout may encourage service 
beyond the eligibility age, there is no data on which to base projected 
inventory.
    From the perspective of recruiting, it is possible that the lower 
retirement eligibility age will be attractive to Reserve component 
soldiers with civilian careers that continue beyond military service. 
At this time it is speculative until the Army surveys soldier's 
attitudes in the present Reserve Force or the population of eligible 
candidates for Service.
    Admiral Harvey. Reducing the age at which a reservist can collect 
retirement pay would inhibit the Navy Reserve's ability to meet force 
management objectives.
    A recent study conducted by RAND found that reducing the age for 
the receipt of retired pay only marginally affects retention, and 
overall reduces the number of years a reservist will serve. This 
proposal would substantially increase costs--funds that could be put to 
better use to improve readiness and purchase much needed equipment.
    Reserve members who volunteer for extended periods of Active Duty 
already receive a substantial increase in their military retired pay 
because of their additional service. Moreover, the Uniformed Services 
Employment and Reemployment Rights Act requires employers to credit, 
for the purpose of qualifying for an annuity under a retirement plan 
offered by the employer, periods of military service as serving with 
the employer. This allows reservists to use the same period of time to 
qualify for a retirement under two separate retirement systems.
    General Coleman. Recruiting does not use retirement as a selling 
point. We sell the intangibles of being a marine: pride of belonging, 
tough, smart, elite, warrior. We feel this would have little to no 
effect on recruiting.
    General Brady. Changes to retirement eligibility for Reserve and 
Guard must be considered in the context of the Total Force, to include 
the effect on recruiting and retention and the larger issue of what it 
does to the growing cost of manpower. Some analysis has indicated that 
lowering the age of retirement would increase overall costs, and there 
could be adverse impacts on retention of highly-experienced airmen. 
This issue requires further study.

                DOD POLICY RESOLUTION AND IMPLEMENTATION

    32. Senator Graham. Secretary Chu, with respect to the Joint 
Executive Committee (JEC) and injured servicemembers, would you please 
provide a list of policy issues that have been addressed by the JEC and 
the resolutions that have been implemented based on their work?
    Dr. Chu. The JEC has established a Coordinated Transition Working 
Group to examine and make recommendations for improvements to the 
transition process. For example:

         The Joint Seamless Transition Program is a collaborative 
        effort between the Services and the VA to facilitate and 
        coordinate a more timely receipt of benefits for severely 
        injured servicemembers while they are still on Active Duty. 
        There are 12 VA social workers and counselors assigned at 10 
        MTFs, including WRAMC and the NNMC in Bethesda.
         The Army Liaison/VA PolyTrauma Rehabilitation Center 
        Collaboration is a ``Boots on the Ground'' program stood up in 
        March 2005 to serve severely injured servicemembers who need a 
        long recovery and rehabilitation period. These individuals are 
        transferred directly from an MTF to one of the four VA 
        PolyTrauma Centers in Richmond, Tampa, Minneapolis, or Palo 
        Alto.
         The Transition Assistance Program is an integral part of the 
        pre-separation counseling program, in which VA counselors 
        advise separating servicemembers on VA health care and 
        compensation.
         The Cooperative Separation Physical Examination and Benefits 
        Delivery at Discharge (BDD) program addresses the disadvantages 
        of the previous procedures, in which servicemembers were 
        required to undergo two physical examinations within months of 
        each other. Servicemembers can begin the claims process with VA 
        up to 180 days prior to separation through VA's BDD program at 
        any of the 140 sites where local agreements have been 
        established.
         The jointly staffed Military Severely Injured Center, 
        established in February 2005, operates a hotline center which 
        functions 24 hours a day, 7 days a week. Servicemembers or 
        family members can call a toll-free number and speak to a care 
        manager, who becomes their primary point of contact over time.
         The DOD has also successfully added the capacity to send 
        electronic pre- and PDHA information to the monthly patient 
        information being sent to the VA. The PDHRA is also being 
        electronically transmitted to VA.
         DOD transmits a monthly list to the VA Office of Seamless 
        Transition containing the demographic and contact information, 
        and a brief explanation of medical condition of servicemembers 
        who have been referred to a Physical Evaluation Board. As of 
        the end of fiscal year 2006, DOD has transmitted information on 
        over 13,000 individuals.
         The Center for the Intrepid is a jointly staffed state-of-
        the-art outpatient facility to rehabilitate wounded OEF/OIF 
        servicemembers and veterans who sustain severe traumatic or 
        burn injuries and subsequent functional loss, with resultant 
        amputations or limb salvage procedures.
         DOD electronically transmits radiology images for 
        servicemembers being transferred from WRAMC and NNMC to all 
        four VA Polytrauma Centers. WRAMC currently transmits to the 
        Tampa, Richmond, and Palo Alto VA Polytrauma Centers, with 
        plans in place to add Minneapolis. NNMC currently transmits to 
        the Tampa and Minneapolis VA Polytrauma Centers; testing will 
        soon be in place with Richmond and Palo Alto. This capability 
        will also be added to BAMC within the next 2 months.

    Scanned medical records are being electronically transmitted from 
WRAMC to three of the four VA Polytrauma Centers, with plans to soon 
add Minneapolis. Next steps are to add this capability to NNMC and 
BAMC.

    33. Senator Graham. Secretary Chu, is there an entity within the 
DOD that is empowered to resolve service-wide policy problems that 
arise on a day-to-day basis with regard to injured servicemembers? If 
so, please explain in what way and how often they communicate with the 
VA office of seamless transition.
    Dr. Chu. Each military Service has specific entities (Army Wounded 
Warrior Program, Navy Safe Harbor Program, Marine Injured Marines for 
Life Program, and Air Force Palace Hart Program) that respond to 
injured servicemembers and their families on problems or day-to-day 
concerns that are raised.
    In addition, the DOD Military Severely Injured Center serves as a 
safety net to these Service programs, providing services for any 
military member. All of these programs communicate regularly and 
frequently with the VA Office of Seamless Transition. There are DOD 
personnel assigned to the VA Office of Seamless Transition to expedite 
this communication.

               NATIONAL GUARD AND RESERVE FAMILY SUPPORT

    34. Senator Graham. Secretary Chu, in last year's conference 
report, we required DOD to establish new regional centers to increase 
family support for members of the Guard and Reserve. Where do you stand 
on implementation of that authority?
    Dr. Chu. DOD appreciates the support of Congress on this initiative 
and has aggressively begun implementation of the Joint National Guard 
and Reserve Family Assistance Program (Yellow Ribbon Reintegration 
Program). Several governors are on board and support this new program. 
States most interested are Arkansas, Nebraska, Minnesota, Oregon, Ohio, 
Indiana, Hawaii, New Hampshire, Virginia, West Virginia, and Colorado, 
as well as the National Capital Region. We have conducted focus groups 
with high stake individuals representing various State National Guard 
programs, Reserve programs, and Active Duty family programs. We have 
placed a full-time counselor in Minnesota to begin the preliminary 
needs assessment and to begin strengthening and integrating the local 
and State support systems into a comprehensive support community that 
will guide our practice for other locations. We plan to provide mobile 
support services and delivery systems to reach families throughout the 
area. Further, we plan to connect the right resources to the right 
people at the right time through a ``high-tech, high touch'' Web-
enabled community that will connect military families with each other 
and with supportive resources 24/7 regardless of where they live.

    35. Senator Graham. Secretary Chu, are families of the Guard and 
Reserve better off today than they were 5 years ago?
    Dr. Chu. Yes, Guard and Reserve families are much better off and 
more strongly supported than they were 5 years ago.
    The families of our National Guard and Reserve members who are 
being called upon to support the war on terrorism, homeland defense, 
and other military operations have access to many more Federal, State, 
and local resources than were available 5 years ago.
    The operational tempo for today's National Guard/Reserve is higher 
than at any time since the Korean War. This not only affects the 
member, but also his or her family.
    The mission of National Guard and Reserve family programs is to 
prepare, support, and sustain families when the military member is 
activated and/or deployed. Support is facilitated through education, 
outreach services, and partnerships by leveraging resources, training, 
and constantly capitalizing on new capabilities, concepts, and 
technological advances.
    The National Guard has a strong Joint service family support 
network, organized in each State and territory by the National Guard 
State Family Program Director, and reinforced by a Wing Family Program 
Coordinator at each Air National Guard Wing. The Joint Forces 
Headquarters within each State, territory, and the District of Columbia 
are responsible for coordinating family assistance for all military 
dependents, regardless of service and component, within the State and 
in the geographically dispersed areas beyond the support capability of 
military facilities.
    Vital to a unit commander's family support program are volunteers 
and the Family Readiness Network-unit level Family Readiness Group 
volunteers provide the vitality of the program.
    The Family Assistance Centers (FACs) are regionally based and are 
the primary entry point for all services and assistance that any 
military family member may need during the deployment of the 
servicemember. Services are provided regardless of the sponsor's 
service or component. Services include the preparation (pre-
deployment), sustainment (actual deployment), and reunion phases 
(reintegration). The primary services provided by the FACs are 
information, referral, outreach, and follow-up to ensure a satisfactory 
result.
    Military Family Life Consultants (MFLCs) are another resource 
available to National Guard and Reserve families. The goal of the MFLC 
is to prevent family distress by providing education and information on 
family dynamics, parent education, available support services, and the 
effects of stress and positive coping mechanisms.
    Military OneSource (www.militaryonesource.com) is a key resource 
available to National Guard/Reserve members and their families. 
Military OneSource supplements existing family programs with a 24-hour, 
7-day a week, toll-free information, and confidential referral 
telephone line and internet/web-based service. It is available at no 
cost to Guard and Reserve members and their families regardless of 
their activation status. Military OneSource provides information 
ranging from everyday practical advice to deployments/reintegration 
issues and will provide referrals to professional civilian counselors 
for assistance.
    Regional Joint Family Support Model. This model is being designed 
as required by the National Defense Authorization Act for Fiscal Year 
2007. Critical components of the model involve building coalitions and 
connecting Federal, State, and local resources and nonprofit 
organizations to support Guard and Reserve families. Best practices 
learned from 22 Inter-Service Family Assistance Committees and the 
Joint Service Family Support Network will guide the planning process. 
Minnesota will serve as a model.

                          TRICARE FOR RESERVES

    36. Senator Graham. Secretary Hall, I have heard from Reserve and 
Guard senior officers that word is slow in getting out about new 
TRICARE benefits that are supposed to be available by October 1, 2007. 
Some even speculate that the Department may be deliberately holding 
back as a way to save money. What are the extent of your activities to 
make sure that every eligible member of the Guard and Reserves receives 
timely information on new TRICARE benefits?
    Secretary Hall. The Department closely monitored the National 
Defense Authorization bill as it evolved throughout the legislative 
cycle last year, and planning began in earnest before the President 
signed it into law on October 17, 2006, with the revised program taking 
effect on October 1, 2007. We have provided information to the Reserve 
component personnel community so they can begin informing their 
members.
    Additionally, the Department is drafting implementing rules and 
regulations, revising departmental policy, modifying the TRICARE 
regional contracts, reprogramming information systems, developing 
informational materials, updating website content, training the Reserve 
personnel community, and training TRICARE customer service personnel.
    Once the infrastructure is fully operational so Reserve and Guard 
members can complete TRS request forms online through the Guard/Reserve 
Web portal, TRICARE regional contractors will be ready to receive and 
process them as well as have customer service staff fully trained to 
assist members. We anticipate reaching this milestone this summer. At 
that time, the Department will formally announce the revised program 
and formally release information to Selected Reserve members so they 
may apply for the benefit if they are interested. Our concern is that 
announcing the program much earlier would only frustrate members who 
may be interested in purchasing their healthcare through the TRS 
program when the application process has not been fully 
operationalized. There is no attempt to conceal this new benefit; and 
in fact many members are already aware of the forthcoming changes to 
the program.

                              DOD SCHOOLS

    37. Senator Graham. Secretary Chu, the committee has received 
testimony that describes hazardous school environments in DOD schools, 
both in the continental United States and overseas, due to budget cuts. 
Have you directed a survey of DOD school facilities to identify 
conditions in DOD schools?
    Dr. Chu. The DOD Education Activity (DODEA) conducts two different 
types of surveys to determine the condition of school facilities. In 
addition to these surveys, the local installation conducts two 
inspections per year focusing on life safety, physical security, 
sanitation, and bioenvironmental issues identifying all deficiencies 
and their relative priority for repair.

          1. Triennial Facility Survey: This thorough survey reviews 
        over 30 building and exterior components (i.e., roofs, 
        plumbing, electrical, sidewalks, et cetera.) based upon an up-
        to-date industry standard process. Included is an inspection of 
        the condition of existing asbestos in the schools. From this 
        assessment, a condition code is calculated and converted to the 
        Department's Quality Rating format for reporting, and funding 
        prioritization purposes.
          2. Annual Project Development Process: Every year, the school 
        administrator, the Area DODEA Facilities Engineer, and a 
        representative from the base community engineering office, walk 
        through the schools to develop a list of facilities 
        requirements. These requirements are prioritized and funded 
        based upon their urgency.

    DODEA balances facilities requirements along with core educational 
requirements when developing funding levels. There remains a facilities 
requirements listing, but all safety and security projects are given 
priority.

    38. Senator Graham. Secretary Chu, we have been informed that Fort 
Campbell budget cuts have resulted in reduction in teachers, sharing 
text books, and cancellation of after school activities, in spite of 
increasing enrollments. Are you aware of these concerns, and what steps 
have you taken to improve funding for DOD schools?
    Dr. Chu. The Department recognizes the DODEA's fiscal year 2007 
shortfall, and we are working with DODEA to correct it. A reprogramming 
request for $35 million is forthcoming which will provide the funding 
needed to keep textbook purchases, teacher professional development, 
and other school activities on schedule.
    When developing the fiscal year 2007 President's budget 2 years 
ago, the Department expected savings from the closure of overseas 
schools, but force re-stationing did not keep pace with the plan. The 
reprogramming request referenced above will better align DODEA's 
funding level with its actual requirements.
    The instructional program delivered by DODEA educators remains at 
the highest quality level even under a constrained budget environment. 
There has been no reduction in the number of teachers as a result of 
budget concerns.
    DODEA's fiscal year 2008 President's budget request contains $2.5 
million in additional funding to accommodate the increased enrollment 
at Fort Campbell schools. This funding will go towards temporary 
classrooms and other educational support costs.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    39. Senator Graham. Secretary Chu, the committee is concerned that 
the Services are being forced to absorb training and implementation 
costs associated with implementation of National Security Personnel 
System (NSPS), and that the Department has not requested new funds to 
ensure effective implementation. What visibility do you have into the 
actual implementation costs of NSPS within the components?
    Dr. Chu. The Department is funding the NSPS development, 
implementation, and life cycle maintenance costs within the DOD's top 
line. DOD policy requires the components to track NSPS implementation 
costs. Reporting occurs in the following categories:

         Design and Implementation
         Training Development and Delivery
         Design of Modifications to the DOD automated Human Resources 
        System
         Program Evaluation
         Program Office Operations

    Components track costs within their official accounting systems and 
report costs to the Program Executive Office NSPS on a quarterly basis. 
The following costs have been reported:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                    Fiscal      Fiscal
                                                   Year 2005   Year 2006
------------------------------------------------------------------------
Design and Implementation.......................       7.098       7.713
Training Development and Delivery...............       9.767      21.820
Modifications to DOD HR System..................       4.345       8.167
Program Evaluation..............................        .303       1.131
Program Office Operations.......................      10.993      21.183
                                                 -----------------------
  Total Implementation Costs....................      32.506      60.014
------------------------------------------------------------------------

    Collection of NSPS Implementation costs for fiscal year 2007 is 
ongoing.

    40. Senator Graham. Secretary Chu, what kinds of training and 
professional development needed for a high quality workforce are being 
sacrificed as components absorb the cost of implementation of NSPS?
    Dr. Chu. A portion of component training dollars has traditionally 
been set aside to address new program requirements. NSPS is a new 
program and workforce training is critical if the DOD employees are 
going to successfully adapt to the new system. As such, DOD managers 
and supervisors are ensuring NSPS training is given equal focus and 
attention with other mission related training priorities. We are 
committed to funding delivery of training without sacrificing other 
required programs.
    NSPS implementation supports and encourages a high performing 
workforce and organizations are providing even more opportunities for 
employees at all levels to learn new skills and behaviors. Overall, the 
intensified focus on the technical as well as the behavioral training 
needed to fully succeed in the workplace is a win-win for employees and 
managers.

    41. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, 
employee buy-in is the most important factor in the success of NSPS. 
What are you doing to track the outcome of the initial implementation 
of NSPS so that we can honestly tell employees whether they are better 
off under NSPS?
    General Rochelle. The NSPS is a significant change for employees 
and supervisors. We did not expect rapid acceptance with initial 
implementation or after a single performance rating cycle. It will take 
more experience than we have thus far among the relatively small Spiral 
1.1 workforce to see effects. The DOD is centrally monitoring component 
implementation activities and collecting data about workforce attitudes 
and personnel actions under NSPS. We look forward in the coming months 
to seeing the results of the Department-wide attitude survey conducted 
late last year. Army's first organization, the Civilian Human Resources 
Agency, some 2,400 employees, converted last April. Preliminary results 
on the first payout under NSPS indicate supervisors made distinctions 
in performance and rewarded employees based on their contributions.
    Admiral Harvey. The DOD and Department of the Navy are collecting 
and monitoring a large variety of information to determine if the 
desired outcomes and guiding principles identified in the Requirements 
Document were met. Information gathering will include statistics, and 
will be supplemented by surveys that allow employees, supervisors, and 
leadership to comment on the NSPS processes and implementation.
    These first surveys and statistics will serve as initial data 
points for a baseline evaluation that is timely communicated to the 
workforce. It will provide an analysis of employees' performance 
ratings to salary growth, and indicators on how the workforce is faring 
under NSPS. In addition, the evaluations will address other matters 
such as:

         Retention and loss rates for higher and lower performers.
         Usage patterns for NSPS hiring, assignment, and conversion 
        authorities.
         Equity analyses of performance, pay, and selection patterns.
         Supervisor opinions about pay flexibility and candidate 
        quality.
         Employee opinions about performance expectations, feedback, 
        and links to organization goals and rewards.
         Comparison of average compensation increases under NSPS to 
        estimated increases had employees not converted to NSPS.

    It will take more than one performance cycle for us to truly 
evaluate how well NSPS is working and where adjustments may be needed 
for long-term sustenance.
    General Coleman. In conjunction with the DOD and Department of the 
Navy evaluation plans, the Marine Corps will be tracking and collecting 
a large variety of information from which detailed assessments will be 
made of the NSPS initiatives to determine if they provide the desired 
outcomes and meet the guiding principles set forth in its requirements 
document. Evaluation is a long-term activity to ensure there is 
sufficient experience with the system before judgments are made. Short-
term analyses let DOD and the Navy monitor implementation and make 
minor adjustments.
    The first surveys and the first statistics serve as initial data 
points; it will take more than one performance cycle for us to truly 
evaluate how well NSPS is working and where adjustments will be needed 
for long-term sustenance. In the meantime, we will collect data and be 
prepared to make a comprehensive evaluation. This evaluation will 
include the relationship of employees' performance ratings to salary 
growth and whether they are better off under NSPS as well as other 
matters such as:

         Retention and loss rates for higher and lower performers.
         Usage patterns for NSPS hiring, assignment, and 
        conversionauthorities.
         Equity analyses of performance, pay, and selection patterns.
         Supervisor opinions about pay flexibility and candidate 
        quality.
         Employee opinions about performance expectations, feedback, 
        and links to organization goals and rewards.
         Comparison of average compensation increases under NSPS to 
        estimated increases had employees not converted to NSPS.

    General Brady. NSPS is a major cultural change for DOD and it will 
take more than one performance cycle to truly evaluate how well NSPS is 
working and where adjustments will be needed for long-term sustainment. 
Employee buy-in evolves over time as the workforce sees NSPS working as 
designed. As NSPS is embedded in our management processes and the 
workforce gains greater experience and understanding of it we expect to 
see an upward trend in acceptance. We are measuring employee acceptance 
via attitude surveys, focus groups, and targeted interviews. We are 
tracking a variety of workforce and financial data and publicizing such 
data for employees' information.

                      ARMED FORCES RETIREMENT HOME

    42. Senator Graham. Secretary Chu, the committee is deeply 
concerned about continuing reports of quality of care problems at the 
Armed Forces Retirement Home (AFRH). The Department's stance is 
defensive. Timothy Cox, the Chief Operating Officer for the AFRH, said 
that the accusations are ``without merit,'' and he has blasted the GAO 
for making ``inflammatory allegations'' without investigating them. We 
expect a thorough and independent review of quality of care issues at 
the AFRH. What are you doing to achieve that?
    Dr. Chu. The Comptroller General noted in his letter dated March 
19, 2007, that the allegations by unnamed ``health care professionals'' 
were not conclusions or findings resulting from a GAO investigation. 
Nevertheless, the Department has oversight responsibility for AFRH and 
takes these allegations very seriously. Michael Dominguez, Principal 
Deputy Under Secretary of Defense for Personnel and Readiness, assumed 
personal responsibility for investigating them. This is an update on 
actions that have been taken to date.
    On March 20, Mr. Dominguez asked the Assistant Secretary of Defense 
for Health Affairs to assemble an experienced medical team to conduct 
an unannounced inspection, within 24 hours, to identify and fix any 
medical care practices deemed to be substandard, deficient, or that 
would jeopardize resident health care. He directed Tim Cox, the Chief 
Operating Officer, to provide full access to AFRH facilities, staff, 
records, and the residents. On March 21, a four-person medical team 
from the DOD's TRICARE Management Activity conducted this unannounced 
inspection beginning at 9 a.m. We received their report on March 22. 
During their inspection, the team could find no evidence to corroborate 
inferior care; the facility appeared clean and well run with well 
cared-for residents. The team suggested that the allegations will 
likely be discredited, except for that of a maggot-infested pressure 
sore--AFRH investigated this one incident last year, and appropriate 
disciplinary action was taken and properly documented.
    The medical team also recommended a more thorough and detailed 
inspection take place as soon as possible. The Department then notified 
the Joint Commission on Accreditation of Healthcare Organizations 
(JCAHO)--an independent non-governmental organization--and welcomed a 
no-notice review by them. JCAHO arrived unannounced on March 23 to 
conduct an independent review. We received their report on April 9. 
There were four unrelated findings but the JCAHO surveyor did not 
substantiate any of the serious allegations listed in the GAO letter.
    Also on March 21, in cooperation with DOD Public Affairs, 
interested news media were given access to AFRH. Staff were made 
available for walking tours and interviews with Tim Cox, Chief 
Operating Officer, as well as with residents. We are mindful that AFRH 
is our residents' home and have tried to be as unobtrusive as possible.
    On March 22, Mr. Dominguez sent a letter to each resident and 
immediate family members/concerned parties informing them of the 
allegations and actions taken. He reminded them of the AFRH complaint 
hotline--1-866-769-2068--and encouraged use of this anonymous reporting 
mechanism to register concerns and noted that he personally reviews 
these calls. To date, the hotline has not received any calls related to 
the allegations.
    On March 23, Mr. Dominguez and Leslye A. Arsht, the Deputy Under 
Secretary of Defense for Military Community and Family Policy, along 
with Phil Grone, the Deputy Under Secretary of Defense for 
Installations and Environment, conducted an on-site review at AFRH with 
professional staff members from the House and Senate Armed Services 
Committees and House Veterans Affairs Committee. We are following up on 
the feedback from the congressional staff, however, we saw no evidence 
of the substandard conditions alleged in the GAO letter, and we found 
the facilities and grounds to be clean and well-maintained.
    Finally, we asked the DOD's Inspector General (IG) to conduct 
follow-up interviews with the health care professionals who made the 
initial allegations to better determine their source. In an April 19, 
2007, briefing, the Acting Deputy Director, DOD IG reported that the 
health care professionals had repeated their allegations to the IG 
investigators, but again they have not been substantiated, and the DOD 
IG is continuing the investigation. Simultaneously, Mr. Dominguez 
tasked his staff to identify and compare standard business practices 
related to the medical and nonmedical allegations. He is also awaiting 
a recommendation from Tim Cox, Chief Operating Officer, AFRH, as to 
whether to seek additional independent accreditation/review (similar to 
JCAHO) for independent and assisted living, and will expedite this 
decision.
    Based on our preliminary review, we do not see a crisis at AFRH, 
and most of the allegations that were made to the GAO had been surfaced 
before. In an old historic facility such as AFRH there are many 
structural problems we need to work on, and plans are in place to move 
forward on these. I will provide updates as our investigation unfolds 
and our follow-on recommendations.
    We are grateful for our veterans' dedicated service to our Nation 
and can assure you we put their safety, health, and security first and 
foremost.

               HEALTH CARE BENEFIT CHANGES UNDER TRICARE

    43. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, last 
year the Vice Chiefs of Staff of each Service testified in support of 
Secretary Rumsfeld's plan to rapidly increase TRICARE fees for military 
retirees. Have challenges in recruitment and retention, or the problems 
at WRAMC, caused you to rethink the wisdom of making health care 
entitlements more expensive for retirees? If so, why? If not, why not?
    General Rochelle. The growing costs of health care and the TRICARE 
program continue to challenge the DOD. Important changes are needed to 
sustain TRICARE as a superior healthcare program. DOD healthcare costs 
have nearly doubled in the past few years--from $8.6 billion in fiscal 
year 2001 to $15.9 billion (requested) in fiscal year 2008. This growth 
is primarily do to unfinanced expansion of health benefits for all 
beneficiaries; advances in medical practice, including new technologies 
and pharmaceuticals; and, healthcare inflation. Additionally, the DOD 
will contribute $10.9 billion to the Medicare-eligible Retiree 
Healthcare Accrual Fund in fiscal year 2008 to pay for future retirees' 
healthcare within the TRICARE program. Note that most of DOD's health 
spending is not for Active Duty military and their families or for 
deployed medical operations. These beneficiaries generally rely on DOD 
as the sole provider of healthcare. Most of our health spending is for 
health benefits for military retirees and their beneficiaries.
    To address the projected growth in healthcare spending, the 
administration proposed increasing fees on retirees in fiscal year 
2007. Although these proposals were rejected by Congress, health care 
spending will continue to consume a larger portion of the Department's 
total obligation authority unless action is taken to address the 
expansion of health benefits. We support DOD's ongoing dialogue with 
Congress to ensure continuation of our superior military healthcare 
benefit. The interim report from the DOD Task Force on the Future of 
Military Health care is due May 31, 2007; the Task Force' work is to be 
completed in December 2007. We, along with others within the 
Department, await the interim Task Force report, which will address the 
issue of TRICARE cost-sharing. This will serve as a basis for our 
continued work with Congress on how TRICARE benefit changes should be 
shaped.
    Admiral Harvey. The DOD is firmly committed to protecting the 
health of our servicemembers and to providing world-class healthcare to 
its more than 9 million beneficiaries.
    However, the Department is challenged by the growing costs of the 
Military Healthcare System (MHS), requiring important changes in 
TRICARE to sustain a long-term superior benefit. This will require the 
help and support of Congress. My understanding is that the Department 
is awaiting receipt of an interim report of the DOD Task Force on the 
Future of Military Healthcare as a basis for dialogue with Congress on 
what shape these changes will take.
    DOD leadership remains resolute in the commitment to place the 
health benefit program on a sound fiscal footing to preclude the 
otherwise inevitable consequences. Costs have more than doubled in 6 
years--from $19 billion in fiscal year 2001, to $39 billion in fiscal 
year 2007--despite MHS management actions to make the system more 
efficient. DOD projects program costs to taxpayers of at least $64 
billion by 2015. Further, healthcare costs may be expected to consume a 
growing slice of the Department's budget, reaching 12 percent by 2015 
(as compared to 4.5 percent in 1990).
    General Coleman. The Military Health System provides the Nation's 
best health benefit program for those who continue to wear the uniform, 
retirees, and their families. TRICARE is the ``gold standard'' health 
care benefit, which must be sustained. Healthcare is not without cost. 
Military Health Program costs have doubled from $19 billion in fiscal 
year 2001 to $38 billion in fiscal year 2006, representing an increase 
from 6 percent to 8 percent of total DOD spending. Estimates indicate 
these costs could reach $64 billion in 2015, more than 12 percent of 
the DOD budget, an increase that is unsustainable without major impacts 
in other areas of current and future force readiness. Such growth is 
clearly faster than overall budget growth and could affect future 
investments in manpower end strength, readiness, warfighting and 
infrastructure. It is critically important that we place the health 
program on a sound fiscal foundation for the long-term, so that we can 
sustain the benefit and the vital needs of our military to recruit, 
train, equip, and protect our servicemembers who support daily our 
national security responsibilities throughout the world.
    However, we ``cannot/should not'' break our promises to our 
``retirees'' with respect to ``their perceived/promised'' health care 
benefit. There are approximately 76,000 retired Active Duty and Reserve 
Marines under the age of 65 who potentially would be affected by 
increased premiums and shoulder an ``unfair'' burden.
    We are also concerned about the impact of increased TRICARE fees on 
our ``future'' retirees, many of whom we are now trying to retain as 
the Marine Corps grows to 202,000. One of the primary reasons for 
reenlisting is ``quality health care'' and increasing premiums for 
retirees will have a negative impact on current reenlistments. 
Additionally, the military's life-time medical benefits, as well as the 
military retirement system, are strong motivational forces for the 
thousands of young men and women who join our ranks each year. We 
should not lose sight of these aspects. Today's high operational tempo/
wartime environment would be a poor time to ``devalue'' the retirement 
benefits for our current or future retirees and send a negative signal 
about the value of their retirement benefit.
    General Brady. Challenges in recruitment and retention or the 
problems at WRAMC are unrelated to and should not be directly linked to 
any effort focused on raising premiums for health care entitlements. 
The fiscal year 2008 budget request assumes savings of $2.2 billion 
from reform proposals (as projected last year for fiscal year 2008); we 
await the interim report of the DPD Task Force on the Future of 
Military Health Care as a basis for dialogue with Congress on how these 
should be shaped.

              REDUCTION IN AGE OF RETIREMENT FOR RESERVES

    44. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, what 
is your view of the potential impact on recruitment, retention, and 
manpower management the Reserve and Guard of lowering the age of 
retirement?
    General Rochelle. The Army is continuing to analyze projected 
impact of lowering the retirement age for Reserve component soldiers 
but our initial review of the numbers shows that there are over 4,000 
Army Reserve and over 7,000 ARNG soldiers spread across all specialties 
who would become immediately eligible for retirement once such a change 
was approved. If all of them chose to retire from service there would 
be a significant impact on our Reserve component mission.
    From a manpower management standpoint, reducing the retirement 
eligibility age will decrease the predictability of soldier inventory 
size and hence increase the potential turbulence when distributing and 
employing the Reserve component. Although the increased amount of time 
between retirement eligibility and pension payout may encourage service 
beyond the eligibility age, there is no data on which to base projected 
inventory.
    From the perspective of recruiting, it is possible that the lower 
retirement eligibility age will be attractive to Reserve component 
soldiers who tend to parallel civilian careers that continue beyond 
military Service. That possibility will remain speculative until we 
have been able to survey soldier attitudes in the present Reserve Force 
or the population of eligible candidates for service.
    Admiral Harvey. A recent study conducted by RAND found that 
reducing the age for the receipt of retired pay only marginally affects 
retention, and overall reduces the number of years a reservist will 
serve. This proposal would substantially increase costs--funds that 
could be put to better use to improve readiness and purchase much 
needed equipment.
    Reserve members who volunteer for extended periods of Active Duty 
already receive a substantial increase in their military retired pay 
because of their additional service. Moreover, the Uniformed Services 
Employment and Reemployment Rights Act requires employers to credit, 
for the purpose of qualifying for an annuity under a retirement plan 
offered by the employer, periods of military service as serving with 
the employer. This allows reservists to use the same period of time to 
qualify for a retirement under two separate retirement systems.
    General Coleman. The Marine Corps has reviewed several proposals, 
both internal and external, to reduce the Reserve retirement age. The 
most recent was April 2006 under S. 2449 in the 109th Congress. The 
Marine Corps did not concur with the proposal to reduce the Reserve 
retirement age to 55 based on the cost, impact of the force, and lack 
of evidence that the proposal would have on shaping the force.
    At the time of that proposal, the DOD projected cost would be $600 
million in the first year and $6.6 billion over the next 10 years. If 
health care entitlements were included with the decrease in retirement 
age, the costs would increase to $900 million and $10.6 billion 
respectively according to the 2004 DOD Report to Congress titled 
Reserve Personnel Compensation Review.
    Proposals that gradually reduce the retirement age for service in 
support of contingency operations have certain merit and 
philosophically support the continuum of service concept. However, 
further study is required. While it may serve as a retention incentive, 
it might also negatively affect promotion opportunities of mid-career 
personnel.
    Currently, there is no evidence that the proposals that call for 
the lowering the retirement age to 55 will help shape the force or 
increase recruitment. In fact, during recent years, attrition has 
remained below historic norms.
    General Brady. Changes to retirement eligibility for Reserve and 
Guard must be considered in the context of the Total Force, to include 
the effect on recruiting and retention and the larger issue of what it 
does to the growing cost of manpower. Some analysis has indicated that 
lowering the age of retirement would increase overall costs, and there 
could be adverse impacts on retention of highly-experienced airmen. 
This issue requires further study.

                 RESTRICTED REPORTING OF SEXUAL ASSAULT

    45. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, the 
committee has heard of instances in which State law may limit 
implementation of the DOD policy on restricted reporting of sexual 
assault. Are you aware of any instance in which State law governing 
mandatory reporting of sexual assault has placed military personnel at 
a disadvantage in not being able to exercise the option of restricted 
reporting as permitted under DOD policy?
    General Rochelle. The Army is not aware of any specific instance 
where a soldier was unable to exercise the restricted reporting option 
due to a State law which required mandatory reporting. However, the 
Army is aware that some States do have mandatory reporting requirements 
for rape, and/or injuries that may be sustained in conjunction with a 
sexual assault. California enacted one of the most restrictive of these 
State laws. California law requires medical personnel who treat a rape 
victim to make a report to their local law enforcement agency. A legal 
review of the California law by the DOD General Counsel office 
determined that it does apply to health care providers who are working 
in DOD military medical treatment facilities in that State.
    The California law, and other less stringent State laws, may 
prevent servicemembers from exercising their restricted reporting 
option. One of the means used throughout DOD to mitigate this issue is 
the use of memoranda of agreements (MOA) between our installation and 
local civilian medical facilities, law enforcement agencies, and rape 
crisis centers. In some States where the reporting requirements are 
less stringent, these MOAs are sufficient. However, local MOA either 
may not be sufficient to mitigate the strict California and similar 
statutes or local authorities may decline to enter into MOAs.
    Admiral Harvey. Commander, Navy Installations Command advises that 
the Navy is unaware of specific members who were placed at a 
disadvantage in not being able to exercise the restricted reporting 
option. However, Navy restricted reporting data suggests that State 
mandatory reporting laws by medical providers may have a suppressive 
effect upon reporting by Active Duty victims who might otherwise make 
restricted reports under DOD policy. For example, the rates of 
restricted reporting per 10,000 Navy members for CY06 were 1.8 reports 
in Virginia, in contrast with 0.13 reports in California. Analysis of 
State laws conducted for the DOD Sexual Assault Prevention and Response 
Office indicated that California law requires medical providers to 
report treatment of any physical injury resulting from assaultive 
conduct to law enforcement, in contrast with Virginia, where medical 
providers are required to report only treatment of wounds inflicted by 
specific weapons.
    General Coleman. The majority of the States have various degrees of 
statutory reporting requirements and there is potential for medical 
personnel to interpret these statutes to require sexual assault 
reporting to local law enforcement. Three States (Massachusetts, 
California, and Kentucky) have laws which mandate sexual assault 
reporting. The California law is of particular concern to the Marine 
Corps in view of the number of Marine Corps installations in the State. 
California law eliminates restricted reporting and, therefore, 
disadvantages Marine Corps personnel. California Penal Code requires 
medical personnel to report sexual assault to local law enforcement 
personnel as a condition to legally practice medicine. Accordingly, 
victims may not seek medical care in California without having their 
case reported to law enforcement. Other States that could present an 
obstacle to restricted reporting are Florida, Georgia, Ohio, Michigan, 
New Hampshire, and Pennsylvania. In these States, if a victim suffers 
non-accidental or intentional injuries in addition to the sexual 
assault, medical personnel must report the incident to law enforcement. 
However, we are not aware of any case where Marine Corps personnel 
could not take advantage of restricted reporting. We recommend 
coordination with DOD's Sexual Assault Prevention and Response Office 
for information on the individual States' reporting requirements.
    General Brady. A conflict can arise between State statutes and the 
restricted reporting option when it is necessary to have a SAFE 
conducted in a civilian facility off the installation. While restricted 
reporting offers the option to have a SAFE completed without command 
and law enforcement being notified, the civilian hospital conducting 
the SAFE must comply with any State reporting statutes. These statutes 
can require law enforcement be notified when specified conditions 
exist. Several major commands have reported instances where this 
conflict has occurred.
    Laws that require medical personnel to report that they have 
treated a competent, adult sexual assault victim fall into four 
categories: (1) laws that require medical personnel to report treatment 
of rape victims; (2) laws that require reporting of non-accidental or 
intentional injuries, that may include rape; (3) laws that require 
reporting certain specified injuries, such as injuries caused by 
weapons, that may pertain to sexual assault victims; and (4) laws 
regarding SAFEs that may also contain reporting requirements. In 
addition, there are State licensing requirements for medical 
professionals which may contain reporting obligations.
    Our Sexual Assault Prevention and Response professionals have been 
and will continue to partner with Air Force legal and medical personnel 
on how best to resolve this important issue. In some States, resolution 
of the conflict between the State reporting requirements and restricted 
reporting has not been possible. If that occurs, we ensure the victim 
is fully advised of the situation so that the victim can make an 
informed decision as to whether to have a SAFE completed.

               CIVILIAN CONVERSIONS OF MEDICAL PERSONNEL

    46. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, in 
spite of certifications provided by each Service Secretary that 
civilian conversions have not eroded the quality of military health 
care, we continue to hear that such conversions result in unfilled 
medical positions. Major General Pollack, Acting Surgeon General of the 
Army, recently informed the committee that the inability to hire 
civilian medical personnel for converted military billets at WRAMC 
contributed substantially to staffing shortages at WRAMC. Is it time to 
stop and reassess the validity of this process for medical personnel?
    General Rochelle. We do not want to stop the backfilling of 
military positions with civilians when operational demand requires us 
to realign the military. However, we recognize the need to reassess our 
plans and programs and are currently re-evaluating select medical 
military-civilian conversions. Military-civilian conversions play a key 
role in increasing Army operational capabilities. Backfilling medical 
positions in the Institutional Army with civilians and realigning the 
military positions to the operational Army affects dwell times and 
helps reduce stress on the force. Eliminating military-civilian 
conversions as a tool for retaining civilian capability in our medical 
facilities when military are realigned to meet operational requirements 
as required by operational demand could lead to shortfalls in medical 
capacity. We have, to date, filled 30 converted positions for fiscal 
year 2007. We currently have 41 unfilled nursing assistant and health 
aid technician positions, for which we have commitments to hire for 17. 
We are taking steps to fill the remaining positions by expanding our 
use of recruitment, retention, and relocation incentives. The average 
fill time for converted military positions at WRAMC has been 70 days in 
administrative, nursing, dental assistant, operating room technician, 
medical supply specialist, and engineering technician positions.
    Admiral Harvey and General Coleman. Navy has certified that 
continuing conversions planned for fiscal year 2005 and fiscal year 
2006 will not adversely affect cost, quality, or access. To date, 
military to civilian conversion success has been 84 percent for fiscal 
year 2005 and 53 percent for fiscal year 2006. Navy cannot forecast, 
with confidence, the future market of health professionals. As the 
medical labor market tightens, we anticipate hiring will become 
increasingly difficult.
    Since 2005, Navy has experienced difficulty in hiring qualified 
individuals for certain specialties such as dentists, dental 
assistants, nurses, lab technicians, and pharmacists. The market for 
these specialties is especially constrained. Some medical specialties, 
such as radiology, are expensive, while others include mid- to low-
paying jobs in which the applicant pool cannot support the increasing 
demand. Failed security screenings, physical disqualifications, and 
hiring lag issues have all exacerbated the situation. Hiring into some 
specialties may become so difficult in the civilian market that 
reconsideration of some conversions may become necessary.
    Navy is constantly reassessing its military-to-civilian conversion 
process. We have adopted a forward looking approach to investigating, 
requesting, and implementing hiring flexibilities to include title 38, 
U.S.C., special hire, and direct hire authorities. Navy is currently 
reviewing hiring policies and procedures in an attempt to streamline 
the process. If the labor pool is available, cost effective, and does 
not adversely impact operational readiness or quality or access to 
healthcare, we would plan on continuing to convert positions.
    General Brady. As of March 31, 2007, the Air Force Medical Service 
(AFMS) has filled 245 of 403 positions converted in fiscal year 2006 
and 230 of 813 positions converted in fiscal year 2007. An additional 
963 positions will be converted in fiscal year 2008. The AFMS has the 
following concerns regarding the process:

         A hiring freeze during fiscal year 2006 negatively impacted 
        AFMS ability to fully execute military-to-civilian conversions.
         The ability to execute military to civilian conversions is 
        dependent on the location of conversion and availability of 
        potential candidates.
         Under-execution causes decreased production yielding less 
        efficient MTFs.

    Given these concerns, we do not believe additional military to 
civilian conversions should be pursued until we can accurately assess 
the effectiveness of the process. The AFMS is requesting the Air Force 
Audit Agency perform an audit of the fiscal year 2006-fiscal year 2008 
Enhanced Planning Process to review and assess effectiveness of 
recruitment, ability to access interested and available candidates; 
timeliness of backfilling vacancy after initial military to civilian 
hire; access to care, and net savings (MILPERS versus O&M Civilian Pay) 
at hospitals, medical centers, and designated clinics.

    47. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, how 
close to reality for the medical professions is Dr. Chu's testimony 
that ``the average costs of civilians are less than the average costs 
of military?''
    General Rochelle. Analysis conducted during the Department's most 
recent Medical Readiness Review (MRR) showed that the conversion of 
11,949 medical military billets to civilian performance (to include 
1,288 physicians, 794 dentists, 837 nurses, and 840 other medical 
officers) would produce average savings of $22,900 per year short-term, 
and $30,100 per year long-term, for each billet converted. The average 
savings of a civilian replacement for other Government agencies is 
$4,500 per year short-term and increases to $20,700 per year long-term. 
The analysis includes a full accounting of the costs of military and 
civilian medical personnel that has both: short-term costs such as pay, 
health insurance, retirement, education, training, and recruitment; and 
deferred costs such as health benefits, separation pay, and 
unemployment and survivor benefits. In their 2006 report on ``Military 
Personnel: Military Departments Need to Ensure That Full Costs of 
Converting Military Health Care Positions to Civilian Positions Are 
Reported to Congress,'' the GAO endorsed the Department's approach for 
costing military to civilian conversions. However, it is important to 
note that the Army is doing military-to-civilian conversions to 
increase operational capability.
    Admiral Harvey and General Coleman. Based on the hiring experience 
in fiscal years 2005 and 2006, Navy Medicine found that the conversions 
did not increase cost overall and access to care has stayed within 
standards.
    The issue with military-to-civilian conversions is not as much a 
matter of pricing accuracy as it is rather the availability of labor in 
the local markets where Navy Medicine is hiring. Between 2005 and 
present, Navy Medicine has experienced difficulty in hiring medical 
professionals in certain specialties, to include dentists, dental 
assistants, nurses, lab technicians, and pharmacists. The market for 
these specialties is especially constrained. Other converted positions 
include mid-to-low paying jobs and we are finding that the labor supply 
cannot support the increasing labor demand. Other aspects such as 
failed security screenings, physical qualifications, and hiring lags 
contribute to the hiring challenges.
    General Brady. In general terms this may be true for enlisted 
specialties, nonprofessionals, and paraprofessionals. However, for 
professional capabilities and skill sets (i.e., Physicians, Nurses, and 
Dentists) civilians may actually be more expensive particularly in high 
cost markets (Seattle, Washington D.C., Bay Area, Denver) or in low 
density specialties areas. The ability to execute military to civilian 
conversions is also dependent on the location of conversion and 
availability of potential candidates.

          DRUG AND ALCOHOL USE BY SOLDIERS IN MEDICAL HOLDOVER

    48. Senator Graham. Dr. Jones, what are the issues of drug use by 
soldiers in medical holdover?
    Dr. Jones. Soldiers in medical holdover are subject to the same 
regulations as all military members on Active Duty. Illegal drug use is 
not an accepted behavior. Routine random urine drug screening and 
command-directed urine drug screening programs are in place.

    49. Senator Graham. Dr. Jones, what are the issues of alcohol abuse 
by soldiers in medical holdover?
    Dr. Jones. Alcohol abuse by servicemembers on Active Duty, 
including those in medical holdover, is a DOD concern because it may 
affect the health and safety of those individuals who abuse alcohol. 
Programs to deglamorize alcohol use and educate servicemembers to seek 
care and counseling for alcohol abuse are prominent in each Service, 
installation, and unit.

    50. Senator Graham. Dr. Jones, regarding use of illegal drugs, is 
there a drug problem at WRAMC?
    Dr. Jones. Although any wrongful use of illegal substances is 
problematic, the overall statistics for the Medical Hold (MH) and 
Medical Holdover (MHO) group of servicemembers are about the same as 
the rest of the Army. In fiscal year 2006, the combined data collected 
from MH and MHO was:

          Total Samples Collected: 773
          Total Positive Results: 14
          Percentage Positive: 1.8 percent

    The comparable statistic for total Army was 1.7 percent. 
Statistically, the MH and MHO positive rate for illicit drugs was 
essentially a match to the total Army rate in fiscal year 2006.
    The fiscal year 2007 combined data shows that the positive rate was 
cut in half for MH and MHO during the first half of the fiscal year.

          Total Samples Collected October 2006 through March 2007: 353
          Total Positives: 3
          Percentage Positive: 0.8 percent

    The Army Substance Abuse Program at WRAMC attributes the reduction 
in positive testing results to the increased vigor of the Medical 
Center Brigade testing program. Deterrence of drug usage in response to 
an increased possibility of detection through random drug testing is a 
well known outcome in Army drug testing programs. The Army Substance 
Abuse Program at WRAMC provides a number of services to support the MH 
and MHO soldiers.

         A quality Outpatient Treatment Program for substance abuse 
        disorders
         Referral as needed to higher levels of care in the military 
        and civilian communities
         Coordination with Inpatient Psychiatric services to support 
        servicemembers who have both a substance problem and 
        psychiatric issues
         Close coordination with commanders to manage servicemembers 
        who are enrolled in the substance abuse treatment program
         Alcohol and Drug Awareness Education Classes for MH and MHO 
        staff and patients on request
         Participation in the orientation of MH and MHO soldiers
         Installation campaigns which focus on alcohol and drug abuse

    51. Senator Graham. Dr. Jones, how many soldiers have tested 
positive for using illegal drugs while in a medical hold or medical 
holdover status?
    Dr. Jones. Soldiers in medical hold and medical holdover are 
subject to the same regulations as all military members on Active Duty. 
Illegal drug use is not an accepted behavior. Routine random urine drug 
screening and command-directed urine drug screening programs are in 
place. However, at the DOD level, we do not track positive drug tests 
by the individual's presence on a medical hold or medical holdover 
list.

    52. Senator Graham. Dr. Jones, what actions did the Army take in 
cases of those who tested positive, if any, for use of illegal drugs?
    Dr. Jones. The Army processes all incidents of illegal drug use in 
strict compliance with the Uniform Code of Military Justice--regardless 
of a soldier's duty status. Medical holdover soldiers are held to the 
same standards as their Active Duty counterparts.

    53. Senator Graham. Dr. Jones, is there a pervasive problems of 
illegal drug use in medical holdover throughout the Army?
    Dr. Jones. There is no pervasive problem of illegal drug use in 
medical holdover throughout the Army.

             RECRUITMENT AND RETENTION OF MEDICAL PERSONNEL

    54. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, we 
are now more than a year into the debate about how to improve 
recruiting and retention of medical personnel in both the Active and 
Reserve components. What actions have you undertaken in fiscal years 
2007 and 2008 to address this critical need within the Services?
    General Rochelle. Currently, the Army employs health professional 
scholarship, financial assistance, loan repayment, and Reserve 
component specialized training assistance programs in conjunction with 
student stipends, accession bonuses, and Incentive Specialty Payments 
(ISPs) to augment our recruiting efforts to achieve medical personnel 
accession goals for fiscal year 2007. Likewise, we utilize ISPs and 
Critical Skill Retention Bonuses (CSRBs) to assist in retaining those 
health professionals currently answering the Nation's Call to Duty.
    Additionally for fiscal year 2008, the Army plans to implement the 
following initiatives: 1) expand the Referral Bonus Program to include 
AMEDD applicants upon congressional authorization approval, 2) increase 
health professional scholarship stipends, and 3) increase outreach for 
accessioning (i.e., touring with the new Team Medic Support Vehicle). 
Specifically to address the concerns with nursing shortfalls, the Army 
plans to increase the Army Nurse Accession Bonus from $25,000 to 
$30,000; allow officers serving in other Army specialties to obtain an 
entry-level nursing degree while remaining on Active Duty; and expand 
the CSRB for nurses to include other nursing specialties.
    We continue to review the benefits of implementing a AMEDD Officer 
Accession Bonus Pilot Program that would pay applicants up to $6,000 
for completing the entire accession process within 90 days, expanding 
or increasing targeted incentives, and offering civilian doctors the 
opportunity to serve a reduced 2-year military service obligation in 
lieu of the statutory 8-year service obligation term.
    Admiral Harvey and General Coleman. Navy has established a focused 
Medical Capabilities Working Group (MCWG) to develop a strategy for 
building and sustaining the necessary medical capability for the Navy 
of 2013. Rising civilian sector competition and wages caused by the 
surge in demand for health care services to support an increasingly 
aging national population adds difficulty to the recruiting and 
retention of medical professionals. While this MCWG develops a 
comprehensive strategy, we have:

         deployed a Medical Speaker's Bureau to send Navy doctors, 
        dentists, and Medical Service Corps (MSC) officers in critical 
        skills to meet and recruit prospects at medical university 
        campuses (BUMED provided $100,000 in Temporary Additional Duty 
        funds to support this effort);
         hired, trained, and put in place 22 medical officer 
        recruiters on Active Duty for Special Work (ADSW) orders to 
        bolster our total force (Active and Reserve) medical officer 
        recruiting efforts;
         refocused advertising/marketing plans on medical recruiting. 
        These included email, direct mailings, influencer packages, job 
        postings on Monster.com, and new print ads for Nursing, 
        Dentistry, and Physicians;
         expanded Reserve component (RC) eligibility for the $10,000 
        Affiliation Bonus to all health professions officers 
        (physician, dentist, nurse, and MSC) in non-wartime critical 
        specialties;
         initiated a Critical Skills Accession Bonus (CSAB) for Health 
        Professional Scholarship Program (HPSP) students on a limited 
        basis due to resource constraints.

    Current medical professional retention incentives include:

         Medical Corps: Multiyear Special Pay (MSP), Incentive Special 
        Pay (ISP), Variable Special Pay (VSP), Additional Special Pay 
        (ASP), and Board Certified Pay (BCP);
         Dental Corps: Dental Officer Multiyear Retention Bonus 
        (DOMRB), Incentive Special Pay (ISP) for Oral and Maxillofacial 
        Surgeons, Additional Special Pay (ASP), Critical Skills 
        Retention Bonus (CSRB) for general dentists, and Board 
        Certified Pay (BCP);
         Nurse Corps: Nurse Anesthetists Incentive Special Pay (ISP), 
        and Board Certified Pay (BCP);
         Medical Service Corps: Optometry Pay, Optometry Retention 
        Bonus (ORB), Pharmacy Officer Special Pay (POSP), and Non-
        Physician Healthcare Provider Board Certified Pay (BCP).

    We have also recommended the designation of Clinical Psychologists 
and junior Nurse Corps Officers within selected year groups as having a 
critical skill for the purposes of establishing a critical skills 
retention bonus.
    Congress also included additional authorities in the National 
Defense Authorization Act (NDAA) for Fiscal Year 2007. Within resource 
constraints, we are moving forward to put many of these authorities in 
place to confront the mounting readiness challenges we face in the 
health professions. These include:

         Increase in the Health Professions Scholarship Program (HPSP) 
        stipend from $15,000 to $30,000;
         Direct accession bonus of up to $400,000 for physicians and 
        dentists;
         Increase in the Health Professions Loan Repayment (LRP) from 
        $22,000 to $60,000;
         Increasing the Financial Assistance Program (FAP) grant from 
        $30,000 to $45,000.

    We also note, with appreciation that both House and Senate 
introduced versions of the NDAA for Fiscal Year 2008 include the 
following additional authorities we requested to address health 
professions readiness concerns:

         Increase in incentive special pay and multiyear retention 
        bonus for medical officers of the Armed Forces;
         Increase in dental officer additional special pay;
         Accession bonus for participants in the Armed Forces health 
        professional scholarship and financial assistance program.
    General Brady. We have allocated our available special and 
incentive pay dollars to optimize return on investment during the 
period. Supported by the Air Force Recruiting Service and AFMS, the Air 
Force Personnel Directorate (AF/A1) has also championed the need for 
additional dollars for medical accession bonuses and health professions 
scholarships at both the Air Force and OSD/(Health Affairs) levels. AF/
A1 is also in the process of standing up the Recruitment and Retention 
Investment Strategy Council, which will oversee medical personnel 
investment strategies, balance recruiting and retention, to provide a 
total mission-ready force.

    55. Senator Graham. Lieutenant General Rochelle, Vice Admiral 
Harvey, Lieutenant General Coleman, and Lieutenant General Brady, are 
any additional authorities needed to assist you?
    General Rochelle. We do not foresee requiring additional 
authorities for fiscal year 2007 or fiscal year 2008; however, your 
assistance in ensuring the current proposed initiatives are approved 
and fully funded is critical in taking the right steps towards 
addressing the medical personnel requirements of the Army. 
Additionally, the Army's ability to compete with the civilian market 
requires that you remain receptive to future requests that may arise to 
ensure we remain postured to meet the medical needs of our soldiers 
during this sustained conflict.
    Admiral Harvey. I appreciate the outstanding support Congress 
provided through enactment of new or enhanced authorities included in 
the NDAA for Fiscal Year 2007, intended to bolster medical recruiting, 
such as new accession bonuses, increased limits for loan repayment, and 
increased stipends for participants in the health professional 
scholarship and financial assistance programs. Within resource 
constraints we are moving forward to put many of those authorities in 
place to confront the mounting readiness challenge we face, 
particularly within the health professions.
    I also note, with appreciation, that Senate- and House-introduced 
versions of the NDAA for Fiscal Year 2008 include the following 
additional authorities we requested to address specific health 
professions readiness concerns:

         increase in incentive special pay and multiyear retention 
        bonus for medical officers,
         increase in dental officer additional special pay,
         accession bonus for Armed Forces health professional 
        scholarship and financial assistance program participants.

    We are continuing to evaluate other possible initiatives that would 
assist in health professions recruiting, such as:

         initial accession bonus for Clinical Medical Service Corps 
        Officers,
         increase in the accession bonus cap for registered nurses 
        accepting a commission,
         increase in the accession bonus cap and stipend for nursing 
        students,
         bonus for successful referrals into Navy medical programs, 
        and
         utilizing the Health Professional Scholarship Program (HPSP) 
        for certain undermanned Clinical Medical Service Corps 
        communities.

    General Coleman. USMC M&RA needs several new authorities in order 
to better carry out its mission:
    First, we need the authority to pay IRR marines for taking the time 
to complete electronic screening. This is a NDAA for Fiscal Year 2008 
initiative that would compliment our current in-person muster program. 
It will enable us to pre-screen members of the IRR without the high 
cost and time commitment of a muster. We are thankful for its inclusion 
in H.R. 1585 and S. 567, as introduced.
    Second, we would also like to see tax-free Selective Re-enlistment 
Bonus (SRB) authority. This would remove the current inequities in the 
SRB program. Currently, some marines are denied the tax-free benefit 
solely because their deployment time does not coincide well with their 
end of active service date, neither of which is in their control; one 
day may very well make the difference between a marine being taxed on 
his or her SRB or not. Most marines will have deployed during their 
prior enlistment so the date of that deployment should not be a limiter 
to the tax-free benefit, and those few marines who do not deploy during 
their current enlistment will inevitably deploy in support of the 
Commandant's program to get ``every marine into the fight.'' 
Furthermore, many marines currently try to delay their decision to re-
enlist until they are in a tax-free status, reducing the predictability 
of reenlistments which complicates manpower planning. SRB is a tool to 
increase retention. As such, all marines entitled to SRB should be 
entitled to the tax-free benefit.
    Third, USMC M&RA would like expanded authority to pay a regular re-
enlistment bonus. This would assist with our retention efforts, made 
even more challenging by the recent increase in authorized end 
strength. This bonus would be significantly less than the current SRB 
we offer for special skills. Marines who qualify for both would only be 
entitled to the higher of the two.
    Finally, the USMC needs a permanent increase in General Officers 
(GOs) in order to more effectively carry out its mission. An increase 
in Active GOs from 80 to 90 and in Reserve GOs from 10 to 12 is 
requested. This will enable us to fill all of our GO requirements, some 
of which are currently gapped, and to enable all of our GOs better 
opportunity to compete for joint positions.
    General Brady. At this time, our limiting factors are more 
frequently dollars for execution than shortfall in authority. As 
mentioned above, we are pursuing additional dollars to support both 
accession bonuses for medical personnel and an increased number of 
Health Professions Scholarships. Both initiatives, when funded, should 
have a substantial impact on our medical personnel shortages.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

                                BENEFITS

    56. Senator Collins. Secretary Hall, on March 15, outgoing Army 
Chief of Staff General Schoomaker told this committee that 55 percent 
of our Nation's total Armed Forces are now National Guardsmen and 
reservists. That to me is a staggering statistic. If we are going to 
rely so heavily on these citizen soldiers, at least in the short-term, 
I believe we need to reevaluate the benefits provided to these men and 
women.
    I, along with a number of my colleagues in the Senate, am concerned 
with the growing disparity between Active Duty and Reserve component 
educational benefits. We have mobilized National Guardsmen and 
reservists serving side-by-side with Active Duty servicemembers in Iraq 
and Afghanistan, and I have heard a number of senior defense officials 
say that you simply cannot tell the difference between Active Duty 
servicemembers and Reserve component forces in theatre.
    Yet, today, Selected Reserve educational benefits pay 29 cents to 
the dollar compared to those of the Active component. Moreover, many 
National Guardsmen and reservists today don't have time to use the 
educational benefits available to them because they are being mobilized 
so frequently.
    What are your thoughts on this issue and are there any changes you 
think may be warranted given how much we are asking of the Reserve 
component forces today in the global war on terror, both at home and 
abroad?
    Secretary Hall. The Reserve components have comprised over 50 
percent of our Armed Forces for several years. There is no doubt that 
they are an integral and vital component of our military capability. 
They have been called upon in unprecedented numbers beginning with the 
first Persian Gulf War, and they have performed magnificently. 
Moreover, they are enlisting and reenlisting during these challenging 
times such that the Department is meeting its strength goals.
    One of the incentives that has helped us in meeting our strength 
goals since 1984 is the Montgomery GI Bill for the Selected Reserve 
(MGIB-SR). This educational assistance program not only provides a 
strong recruiting incentive, it also helps us retain personnel because 
to use the benefit, an individual must serve a minimum of 6 years and 
continue to serve. However, there is an exception to the requirement 
for continued service in the Selected Reserve for a member who has 
served on Active Duty. Not only is the delimiting date extended by the 
amount of time served on Active Duty plus 4 months, but the MGIB-SR 
benefit can be used following separation from the Selected Reserve as 
well for a period of time that equals the amount of time served on 
Active Duty plus 4 months. Thus, a member who is called away from his 
or her studies does not lose that period of eligibility because of 
military service. Moreover, the rotation goals set by the Secretary of 
Defense are designed to provide a significant period between 
involuntary mobilizations--5 years. This provides ample time for 
Selected Reserve members to use the educational assistance programs 
available to them. While a member may voluntarily perform more duty, 
the minimum training requirement prior to the year leading up to 
mobilization is only 39 days a year.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                         MILITARY HEALTH SYSTEM

    57. Senator Chambliss. Secretary Chu and Secretary Hall, you 
mention in your written statement regarding Reserve component retention 
that you ``are closely monitoring retention/attrition particularly for 
those members who have been mobilized and deployed to support 
operations in Iraq and Afghanistan.'' At this point, what type of 
information are you finding as you monitor this situation and do you 
see any trends that are noteworthy?
    Dr. Chu and Secretary Hall. Measuring all losses, regardless of 
reason, from the Reserve components, we are pleased to report that 
enlisted attrition remained below established ceilings for fiscal year 
2006, continuing a very positive trend. As a matter of fact, the 
composite (officer + enlisted) attrition rate of 18.4 percent was the 
lowest it has been since fiscal year 1991. Through February 2007, 
enlisted attrition is on track to remain below established ceilings for 
each Reserve component. We are closely monitoring retention/attrition, 
particularly for those members who have been mobilized and deployed to 
support operations in Iraq and Afghanistan and have seen a propensity 
by these veterans to continue to serve. A recent study revealed that 
Reserve members who were mobilized and deployed into the theater of 
operations were retained at similar rates to those not mobilized, and 
at higher rates than those mobilized but not deployed.

                              DOD SCHOOLS

    58. Senator Chambliss. Secretary Chu, I am pleased to see that you 
focus on education of military children in your written statement, and 
that you note the challenge that DOD is creating for numerous local 
communities who will be absorbing thousands of military dependent 
students as a result of Base Realignment and Closure (BRAC), global 
rebasing, and force restructuring. I note that the President's fiscal 
year 2008 budget request includes $2.4 million to allow DOD to share 
expertise and experience with local, non-DOD schools impacted by these 
changes, to help these schools properly prepare for and educate these 
military dependent students. However, I also note that the Department 
also lists a $62.6 million unfunded requirement for this issue. In my 
home State of Georgia, Fort Benning will experience an influx of 
approximately 6,000 DOD personnel plus associated contracts as a result 
of BRAC. This influx is going to severely strain the local school 
districts that do not have the resources to construct new schools or 
hire new teachers in advance of arriving students. What specifically 
would this $62.6 million unfunded requirement pay for?
    Dr. Chu. The 2006 NDAA authorized the DODEA to establish 
partnerships with local and State educational agencies to promote 
quality education for military dependent students. The DODEA fiscal 
year 2008 budget includes $2.4 million of the unfunded requirement of 
$62.6 million to conduct initial assessments of school district needs 
and to begin developing partnerships with the affected school systems. 
Of course, DOD cannot build schools, estimated to cost billions of 
dollars, to help with this influx. Instead, DODEA will share its 
expertise in the areas of high quality educational programs, academic 
support, educator placement, and implementation of the President's 
Foreign Language Initiative to increase foreign language proficiency 
(especially in Mandarin Chinese and Arabic) in local education 
agencies.

    59. Senator Chambliss. Secretary Chu, why is it an unfunded 
requirement versus in the budget request?
    Dr. Chu. The 2006 NDAA recently authorized the DODEA to establish 
partnerships with local and State educational agencies to promote 
quality education for military dependent students. In response, the 
$2.4 million requested in the DODEA fiscal year 2008 budget provides 
start-up funding for this effort.

    60. Senator Chambliss. Secretary Chu, is DOD planning to fund this 
effort in future years in order to further address this issue?
    Dr. Chu. The Department will request funding in subsequent years to 
coincide with planned troop movements to assist with the transition of 
military children by sharing educational excellence with local 
education agencies. The goal of this effort will be to ensure that a 
high quality educational program is provided to all military dependents 
living both inside and outside the gates of military installations.

                       MANNING AND STRESS ISSUES

    61. Senator Chambliss. General Brady, some Air Force specialties 
such as security forces are experiencing deployment stress due to heavy 
deployed requirements. What is the Air Force doing to alleviate manning 
shortages and career-field stress related to increased deployments?
    General Brady. The Air Force is aggressively balancing assigned 
personnel across specialties while we size the overall force in 
accordance with our modernization/recapitalization plans. We have 
determined to fund manpower needs to meet future core Air Force mission 
capabilities while filling combatant commander needs in lieu of (ILO) 
Army and other sourcing requirements. In other words, the Air Force is 
not growing personnel inventories in heavily sourced specialties, like 
security forces, just to fill ILO taskings. The Air Force is also 
maximizing the number of qualified people eligible to deploy to reduce 
the tempo in stressed specialties across force. In particular for 
security forces, schoolhouse production is currently maxed-out, 
training roughly 5,000 new students each year to enter the Total Force. 
Re-enlistment bonuses are being offered to two of the three security 
forces specialties, and to other stressed specialties to improve 
retention in these crucial warfighting skills.

    [Whereupon, at 5:35 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, APRIL 18, 2007

                       U.S. Senate,        
          Subcommittee on Personnel and    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

JOINT HEARING WITH THE SUBCOMMITTEE ON READINESS AND MANAGEMENT SUPPORT 
  TO RECEIVE TESTIMONY ON THE READINESS IMPACT OF QUALITY OF LIFE AND 
  FAMILY SUPPORT PROGRAMS TO ASSIST FAMILIES OF ACTIVE DUTY, NATIONAL 
                 GUARD, AND RESERVE MILITARY PERSONNEL

    The subcommittees met, pursuant to notice, at 3:07 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the Subcommittee on Personnel) 
presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Akaka, Inhofe, Chambliss, and Graham.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, professional staff member; Gerald J. Leeling, 
counsel; and Michael J. McCord, professional staff member.
    Minority staff members present: Derek J. Maurer, minority 
counsel; Lucian L. Niemeyer, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: David G. Collins and Benjamin L. 
Rubin.
    Committee members' assistants present: Darcie Tokioka, 
assistant to Senator Akaka; Benjamin Rinaker, assistant to 
Senator Ben Nelson; Gordon I. Peterson, assistant to Senator 
Webb; Clyde A. Taylor IV, assistant to Senator Chambliss; and 
Adam G. Brake, assistant to Senator Graham.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. The Personnel and Readiness and 
Management Support Subcommittees of the Senate Armed Services 
Committee meet together this afternoon to consider the impact 
of quality of life and family support programs on the readiness 
of Active Duty, National Guard, and Reserve personnel.
    We're holding this joint hearing of our two subcommittees 
at the recommendation of Senator Akaka, who is chairman of the 
Subcommittee on Readiness and Management Support. I think, 
Senator Akaka, this is a great idea, and I appreciate very much 
your suggesting it.
    We all understand that our military personnel cannot focus 
on the mission at hand if they are distracted with worries 
about whether their families are being taken care of. Taking 
good care of military families translates directly to improved 
military readiness. It's our intent to support policies and 
programs that foster a family-friendly environment for our 
military families. So, Senator Akaka, thank you for your 
leadership on this.
    It's certainly appropriate that we hold this hearing on 
family readiness during April, as April is the month of the 
military child. Military parents have the very difficult and 
challenging task of raising children during these highly 
stressful times of deployment, redeployment, extended 
deployment, and reintegration into home life upon return from 
deployment. The Secretary of Defense just recently announced 
that the Army combat tours will be extended from 12 to 15 
months. What impact will this have on our military families? 
I'll be interested in hearing whether the Army is making a 
special effort to address the needs of the families of the 
servicemembers who just learned that they will be coming home 3 
months later than they had planned. What will the families have 
to say about this recent change? Parenting is challenging 
enough without these additional stresses. Military parents need 
help, especially during these trying times, and that's what 
this hearing is all about.
    Today, we'll hear from Senator Chambliss about his proposal 
to reduce the age at which certain National Guard and Reserve 
retirees are eligible to receive retired military pay.
    Next, we will hear from the Department of Defense (DOD) and 
from the military services about programs and policies that 
they have in place to help our military families.
    Following their testimony, we will hear from military 
spouses, who have a great deal of experience in dealing with 
the challenges faced by military families, and the National 
Military Family Association (NMFA), as well.
    We hope to hear from them about the effectiveness of the 
various programs for dealing with the unique stresses of 
military life, especially during deployments. We also would 
like to hear about other programs, including programs sponsored 
by civilian communities that reach out to our military families 
and contribute to their quality of life and financial 
readiness. Then, finally, we'd like to know if there are any 
gaps, or areas that these programs don't address.
    I plan to introduce our witnesses as their panel is called 
to testify.
    Senator Akaka, do you have an opening statement?

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Yes, Mr. Chairman, but I'd be willing to go 
after the ranking member.
    Senator Graham. No, it's fine.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Nelson, I want to thank you for agreeing to hold 
this joint Personnel and Readiness and Management Support 
hearing today. I'm very, very pleased that the members of the 
Readiness and Management Support Subcommittee are joining today 
with Senator Graham, the ranking member, and Senator Inhofe, 
here, and another witness, Senator Chambliss, to participate in 
this hearing in support of our military families in order to 
illustrate how important family readiness is to the readiness 
of our military forces and to examine what we can do to improve 
family readiness.
    We have a large military population, from all four 
Services, living in Hawaii, and I was glad to see that the four 
Services and the National Guard and Reserves are represented 
here by spouses. They are valued members of our community. I 
know that it is not only our men and women in uniform, but also 
their families, who serve our Nation and who bear the brunt of 
the heavy demands placed on our military.
    Just as we are responsible for the well-being of our 
servicemembers, likewise we have a responsibility for their 
families. As chairman of the Readiness and Management Support 
Subcommittee, I asked that we hold this hearing today, because 
I'm convinced that how well we care for the families of our 
servicemembers directly affects the quality of our military. I 
really believe our military leaders understand this, as well.
    Two days ago, the Army announced a series of belt-
tightening measures to deal with the unexpected costs of the 
President's so-called ``plus-up'' of forces to Iraq. The Army 
specifically exempted family support programs from any 
reductions.
    I also know that our Personnel Subcommittee, chaired by 
Senator Ben Nelson, has the most expertise on the programs that 
affect our families. So, I'm very pleased that we could work 
out this joint hearing with them, and want to thank, again, 
Senator Ben Nelson and Senator Graham for agreeing to hold this 
hearing with us.
    I want to welcome the witnesses for all of our panels this 
afternoon, especially those of you that have traveled far to be 
with us today. We have three panels and many witnesses today, 
so I will not take up valuable time by mentioning everyone 
individually, but I want you all to know, especially witnesses 
on the final panel, how much we appreciate both your being with 
us today and how much you do for your country through your 
families.
    I look forward to hearing from our colleague Senator 
Chambliss, our witnesses from DOD, and spouses, on our third 
panel. We have a wide range of issues to discuss today, from 
childcare and schools to counseling services to housing, and I 
could list many more.
    I hope that our witnesses today will be able to speak to 
two topics of particular interest to me:
    First, the unique financial stresses that military 
families--Active Duty personnel, National Guard, and Reserves--
may face, in particular due to deployments, and whether 
financial planning services are widely available to these 
military families to meet these challenges.
    Second, I think we need to discuss not only what is the DOD 
doing for military families, but what role does the local 
community play in supporting military families, both in the 
Active Duty, as well as National Guard and Reserves. What role 
should it play? How much community involvement do military 
families really want?
    I will be especially interested in hearing from our final 
panel on this. Do our military families want as much 
interaction with, and assistance from, the civilian community 
as possible, or do they prefer to take care of their own?
    So, with these questions, let me say that I look forward to 
discussing this with our witnesses during our course of this 
hearing.
    Again, Mr. Chairman, I want to thank you so much for 
holding this hearing.
    Senator Ben Nelson. Thank you, Senator Akaka.
    Senator Graham, you're no stranger to this. If not for the 
change in November, you would still be the chairman and I would 
be the ranking member. Senator Chambliss has also been the 
chairman when I was the ranking member, so you certainly are no 
stranger, either.
    So, Senator Graham, do you have some opening remarks?

             STATEMENT OF SENATOR LINDSEY O. GRAHAM

    Senator Graham. Yes, thank you.
    To our panel members, welcome, and I look forward to 
hearing from you and having some questions.
    To Senators Akaka and Nelson, congratulations for taking 
over the respective subcommittee gavels. It was an honor and a 
pleasure to have chaired the Personnel Subcommittee and to work 
very closely with Senator Nelson, who is an absolute joy to 
work with. I have a feeling that even though our titles may 
have switched, the work product will be the same.
    We accomplished a lot in the 109th Congress, and I look 
forward to continuing that, because the fight is stronger. The 
pressure on families is stronger in this Congress than it was 
in the last Congress, with no end in sight. So, that's why this 
hearing is so important, that we have a ready force, and you 
can't have a ready force without their families being well 
taken care of. The two go together.
    As to Senator Chambliss, I am very pleased that he was able 
to come here today to talk about a measure that he's been 
championing. He's the co-chairman of the Senate Reserve Caucus, 
with Senator Pryor. It's about the dilemma the country faces 
with our National Guard and Reserves. They're being used in 
historic numbers, in multiple deployments, akin only to World 
War II. We have a system that hasn't changed in 30 years, in 
many ways, and now is the time to look at the retirement system 
for the Guard and Reserve, in light of the war that's going to 
go on for a very long time in Iraq, that I believe is just one 
battlefront on this war. You could not win the war, and 
maintain our national security, without the Guard and Reserves. 
It's long overdue that we've looked at changing the benefits. 
The Guard Commission has been formed, and they've made 
recommendations. But Senator Chambliss's idea of lowering the 
retirement age, based on participation by the Guard member and 
reservist, is a great idea, and we need to embrace it as a 
Congress.
    It's been 5 years since the attacks on September the 11th. 
We have an All-Volunteer Force. There's 1,600 citizens of South 
Carolina in the 218th Brigade Combat Team, Army National Guard, 
going off to Afghanistan. I was in Iraq recently, and there's a 
lot of South Carolina roots in our military, both civilian and 
military members serving. Every State has been touched. The 
Guard and Reserve are indispensable. But the active duty 
families have gone through very difficult times, multiple 
deployments, no end in sight, and this is the opportunity for 
this country--I'm always asked, What can we do? What can we do? 
How can we help the military? Well, today is about finding out 
what we can do better than we're already doing. If it takes 
more money, so be it. This is the best investment America will 
ever make. Keeping families intact and safe and secure while 
their loved ones are off on the battlefield, that's the least 
we can do, and I am committed, working with my colleagues, to 
make sure we do it in a way that will make America proud.
    Thank you very much, Mr. Chairman.
    Senator Ben Nelson. Well, thank you, Senator Graham.
    Senator Inhofe, do you have an opening statement?
    Senator Inhofe. Yes, just very brief.
    What Senator Graham said, I agree with. We have that 
commitment to the quality of life. I chaired the Readiness and 
Management Support Subcommittee, with Senator Akaka, back in a 
previous life when we were in the majority. So, we've been 
living with these issues for a long time.
    The personnel issues, the quality-of-life issues, are, in 
fact, readiness issues and very significant. What I want our 
witnesses, particularly on the second panel, to address is two 
things. First of all, in the beginning of this administration, 
what, 6 years ago, plus, one of the commitments was to do 
something about eliminating inadequate family housing, in order 
to revitalize housing. Then, along came September 11, and we 
had to make up for what we lost back in the 1990s, when we 
dramatically cut back on our funding. I can remember--they call 
them sustainment, restoration, and modernization (SRM) accounts 
now; they used to be real property maintenance (RPM) accounts--
they were actually robbing those accounts, not putting roofs on 
barracks in order to buy enough bullets to train with. So, 
that's how critical it was, and so, I say--a lot of times, 
where you have to take the money from is quality-of-life, and 
we can't afford to do it. But I hope that the second panel will 
address that, because the funding is going to be very difficult 
to increase funding there, because everything else is bleeding 
at the same time--our modernization program, our force 
strength, and other accounts that have to be funded.
    So, it's a difficult task, and I think all of us--all five 
of us--realize how important quality-of-life is to sustain this 
force that we have.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator Inhofe.
    Our first witness today has already been introduced, but 
not sufficiently. Senator Chambliss has special status here 
today, because he's a member of both the Personnel and the 
Readiness and Management Support Subcommittees. As I mentioned, 
at one time he chaired the Personnel Subcommittee.
    In fact, I understand that, in June 2003, he actually 
chaired a hearing on family issues, very similar to this 
hearing, except that that hearing was held at Warner Robins Air 
Force Base in Georgia.
    So, Senator Chambliss, we're glad to have you here as a 
witness, and we're very anxious to learn about your 
legislation.
    Senator Chambliss. Chairman Nelson, thank you very much for 
that generous introduction there.
    I'm just very pleased to be here on the same dais today 
with these other two panels, particularly this third panel. All 
of us who serve on the Armed Services Committee know and 
understand that the commitment by individuals who join the 
military is a family commitment, and certainly these spouses 
here are military heroes, just like their husbands. So, I'm 
very pleased to have the opportunity just to be in their 
presence.
    Ladies, thank you all very much for what you do for 
America.
    Chairman Nelson, Chairman Akaka, Senator Ensign, Senator 
Graham, and Senator Inhofe, I do remember our days on the 
Personnel Subcommittee together. Ben, you were a great ally, 
and we got a lot accomplished back then, and you're doing a 
terrific job in starting out in the right direction here as the 
new chairman. Danny, congratulations to you, also. As a member 
of the Readiness and Management Support Subcommittee, I have 
significant interest, parochially and otherwise, in readiness 
issues. So, you've been a great ally, and I certainly look 
forward to working with you.
    I am here today to talk about my bill, which is S. 648, the 
National Guard and Reserve Retirement Modernization Act. The 
retirement benefit for members of the Reserve components is a 
readiness issue, and it is a family issue, and it's appropriate 
that we discuss this issue today at this joint hearing.
    During the Cold War and up until 1989, the Reserve 
components were activated for an average of approximately 1 
million man-days per year. This represented the steady state 
for our reservists, who contributed primarily through weekend 
and 2-week drills, with occasional longer deployments in 
support of operational missions.
    During the 1990s, the Reserve components were activated for 
an average of 13 million man-days a year. This increase 
reflected President Clinton's focus on global peacekeeping and 
peace enforcement in places like Bosnia and Haiti, but also 
Operations Northern and Southern Watch, patrolling the no-fly 
zones in Iraq. The Air Force, in particular, was taxed during 
this time, and began, during that time, to transition from a 
strategic to an operational Reserve Force.
    In his statement before this committee on March 28, 2007, 
Under Secretary of Defense for Personnel and Readiness, Dr. 
David Chu, stated, ``Since September 11, 2001, an annual 
average of about 60 million duty days have been performed by 
Reserve component members, the equivalent of adding over 
164,000 personnel to the Active strength each year. This 
represents almost a fivefold increase since the 1990s, and a 
6,000-percent increase since the end of the Cold War. Almost 
565,000 Reserve component members have served in support of the 
current contingency since September 11, 2001.''
    DOD's decision to increase the Active Force in the Army and 
Marine Corps might relieve some of this stress on the Guard and 
Reserve; however, no one, including myself, believes that the 
way we use our Guard and Reserve Forces is going to return to 
anywhere close to its previous levels.
    In fact, yesterday, General Barry McCaffrey testified that 
we cannot view our Reserve Forces as an alternative force that 
is not engaged in operational missions, as we did in the past. 
They are part of the fight, and, according to General 
McCaffrey, will likely grow to 20 to 30 percent of our deployed 
combat forces over the long term.
    Individuals who sign up to join the Guard and Reserve today 
do so knowing that they are going to combat. They sign up 
expecting that their Reserve assignments will call them away 
from their home for significant periods of time. That was not 
true 15, nor even 5, years ago. It is a testament to the 
quality of people in our Nation, and to the leadership of the 
DOD, that, generally speaking, the military has done an 
admirable job of managing, recruiting, and retention in the 
Reserve component since the beginning of the global war on 
terrorism. However, I believe the Reserve components will be 
operating in an extremely challenging recruiting and retention 
environment from now on. I believe that it is going to get 
harder and harder to recruit and retain the necessary personnel 
that our Nation requires in the National Guard and Reserve.
    As recent studies on this issue have articulated, the long-
term effects on the increased deployments and utilization will 
have on Guard and Reserve recruiting and retention are almost 
completely unknown. But I would wager that the effect will be a 
significant increase in the difficulty of attracting new 
recruits, as well as an increase in retaining mid-career 
personnel over the long haul.
    Given these factors, it would be shortsighted and 
irresponsible for us not to plan ahead. Several defense experts 
have testified, before the full committee, that we must use 
every tool at our disposal to recruit and retain the troops we 
need to defend our Nation. Now is the time to do that, not 
several years from now, when we are trying to fix a problem 
that could have been fixed if we had been proactive when we 
should have been.
    Conceptually, the nature of the Reserve retirement benefit 
is based on at least two factors:
    The first factor is, what is the adequate compensation, in 
terms of a financial annuity and nonfinancial benefits, for 
those servicemembers who have successfully completed 20 years 
of service in the Reserve component? This is basically a 
question of, what is fair, given the role we have asked these 
personnel to play, and the role they have carried out in 
service to our Nation?
    The second factor is, what kind of benefit will effectively 
shape the Reserve Force in a way that allows us to meet the 
requirements we have placed on the Reserve components without 
creating any unintended side effects, such as negatively 
affecting the makeup of the Active-Duty Force? This is a 
pragmatic question that is based largely on what we want the 
force to look like, and who and what kind of people we want to 
retain.
    In this new world of an operational, versus a strategic, 
Reserve, the answer to both of these questions has changed. 
That is why we need to modernize the retirement for National 
Guard and Reserve personnel.
    First, and as I stated earlier, the rate at which our 
Nation is using members of the Guard and Reserve has not 
increased linearly over the last 15 years, it has increased 
exponentially. The role of the Guard and Reserve has 
fundamentally changed, and what constitutes a fair compensation 
should fundamentally change as a result.
    Second, the Guard and Reserve Force structure is clearly 
being shaped by our servicemembers' response to deployments and 
the risk of deployments. When deciding whether to stay in the 
Reserve component or not, servicemembers are asking a different 
set of questions, such as: ``Will I be deployed? How often will 
I be deployed? For how long will I be deployed?'' Members of 
the Guard and Reserve serve voluntarily, but they expect 
compensation for their service, and they expect compensation 
that takes into account the disruption in their personal and 
professional lives. As this disruption grows, which it has, the 
compensation should grow, as well.
    Some studies have indicated that the most effective tool to 
attract and retain personnel, particularly more junior 
personnel, is through cash bonuses. In fact, these bonuses have 
been effective in recent years in helping the Services meet 
their recruiting and retention goals. I support continuing cash 
payments to these folks in order to sign them up, as well as to 
retain them.
    However, in terms of a long-term strategy that is good for 
our military and good for our country, I have fundamental 
problems with this approach. Cash bonuses can motivate 
behavior. However, I would much rather motivate behavior over 
the long term by providing an early retirement benefit based on 
continuous service and deployments than motivate it by 
appealing to someone's impulses.
    In my mind, a deferred benefit that incentivizes 
participation and retention over the long term and rewards 
personnel for extended separations from their jobs and family 
is the right approach. This will have the added benefit of 
retaining the people who we truly need to retain, and that is 
mid-career experienced personnel who have been deployed and 
whose experience we need to keep in the Guard and Reserve. The 
people who, in all likelihood, have competing demands on their 
life, without an additional incentive, will leave the service.
    Currently, National Guard and Reserve members are the only 
Federal retirees--and I emphasize this--they are the only 
Federal retirees who must wait until age 60 to collect 
retirement pay. My bill would reduce the age for receipt of 
retirement pay by 3 months for every 90 days a Guard or Reserve 
member spends on Active Duty in support of a contingency 
operation or on Active Duty for purposes of responding to a 
national emergency. The maximum age reduction would be down to 
age 50, and the adjustment would include volunteers, as well as 
those involuntarily activated. The bill would include any duty 
performed since September 11, 2001.
    As you can see, this is a targeted benefit which rewards 
those who have served for significant periods in support of a 
contingency operation. It is not a handout to members of the 
Guard and Reserve for simply showing up.
    Soon after he was sworn in as Secretary of Defense, 
Secretary Gates announced that he would mobilize Guard and 
Reserve personnel as units, rather than individuals, and that 
it would be the Department's policy to not mobilize them for 
more than 2 consecutive years, rather than 2 cumulative years, 
as the policy had been under Secretary Rumsfeld.
    In light of this fundamental change in policy, we don't 
really know--and, more importantly, reservists, themselves, 
don't really know--how often they're going to be used. This 
uncertainty will clearly have an effect on both recruiting and 
retention, something my bill aims to address.
    There is an additional reason why an enhanced retirement 
benefit is the right approach, and that is because the Guard 
and Reserve members who we are mobilizing are sacrificing their 
civilian careers, including their retirement benefit, by being 
called away from their civilian jobs. I believe that, in large 
part, employers are understanding and supportive of Guard and 
Reserve members. But, nevertheless, for a Reserve member who 
spends significant time away from his or her civilian job, that 
job is going to be affected. The right compensation for that 
effect is an improvement in the Reserve retirement benefit to 
offset the long-term effect on a servicemember's civilian 
career.
    The largest source of recruits for the Reserve components 
has historically been people leaving Active Duty. However, 
given the current role of the Reserve components, many 
personnel leaving Active Duty are going to choose not to 
affiliate with the Guard and Reserve, because they simply stand 
to be deployed again. My bill addresses this problem by 
providing an additional incentive in the event a servicemember 
does get deployed. This is especially essential for older 
servicemembers, who are not as incentivized by cash bonuses, 
and are, instead, looking for a longer-term benefit.
    For members with significant time in the Active Force, my 
bill will provide an additional incentive for them to join the 
Reserve component, and stick with it over the long haul, so our 
Nation will not lose the benefit of their experience.
    One argument I have heard against this bill from DOD, and 
even from some of my fellow Senators, is that we should not 
equalize the benefits of the Active and Reserve components. I 
agree that these benefits should not be equalized. However, I 
think that any objective observer would, without question, 
conclude that my bill does not even come close to doing this.
    For example, under my bill, a servicemember who completes 
20 years of total service, 10 of them in the Reserve, would 
have to deploy for 5 years to collect a retirement annuity at 
age 55. The same person who spent 20 years of total service, 
all in the Active component, could retire as early as age 40, 
and would receive almost twice the annuity the Reserve member 
would receive. That is the case for a reservist who is 
mobilized for 5 years. The average reservist would get a far 
lesser retirement benefit.
    My bill would not equalize the benefits, but would, 
instead, provide an incentive for prior Active Duty personnel 
to join the Reserve, and, for current reservists to stick with 
it until at least the 20-year point.
    Gentlemen, I would have to tell you since we have been 
actively promoting this, I cannot go anywhere, either inside of 
Georgia or outside of Georgia, that a member of the Guard and 
Reserve does not come up to me, introduce themselves, and say, 
``I know what you're trying to do to help out our Guard and 
Reserve from an early retirement standpoint. I'm in the Guard 
or Reserve, and it is the number-one issue for me and my 
family.''
    Mr. Chairman, the topic of today's joint Subcommittee 
hearing is the readiness impact of quality-of-life and family 
support programs to assist families of Active Duty, National 
Guard, and Reserve military personnel. In the end, we are here 
today to determine how we can best support our military 
personnel and their families. That is what my bill does. An 
improved retirement benefit for the National Guard and Reserve 
will produce a higher quality-of-life, leading to better 
recruiting and retention trends, and a better-shaped Guard and 
Reserve Force.
    Cash bonuses can be effective, and they are effective, but 
they are not the way to provide a better quality-of-life over 
the long term for our Reserve component personnel who, today, 
are sacrificing their civilian careers, and the benefits they 
accrue through those careers, for the sake of our Nation. This 
legislation represents the right approach at the right time.
    The Naval Reserve Association, the Reserve Enlisted 
Association, the Reserve Officers Association, and the National 
Guard Association of the United States have all extended 
support for this bill. For the record, Mr. Chairman, I would 
like to include a copy of a letter signed by the 33 members of 
the Military Coalition in support my bill.
    Senator Ben Nelson. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Chambliss. Mr. Chairman, thank you for the 
opportunity to testify. I'm happy to answer any questions that 
you or any member of the committee might have.
    Senator Ben Nelson. Thank you, Senator Chambliss.
    Do any of the members of the committee have any questions? 
[No response.]
    I think you've laid it out very well. I think we fully 
understand it and appreciate very much your leadership in this 
area. Thank you for your kind comments, and we appreciate your 
being here with us today.
    Senator Chambliss. Thank you, Mr. Chairman.
    Senator Ben Nelson. In Senator Ensign's absence, due to a 
prior obligation, without objection I'm adding his questions to 
be submitted for the record.
    Now, let's see, the second panel will be coming forward 
now.
    Today, we have witnesses from the DOD and from the military 
Services to describe the programs that are available for 
military families. We welcome the Honorable Mike Dominguez. Am 
I close? Dominguez?
    Mr. Dominguez. Dominguez.
    Senator Ben Nelson. That's it, Dominguez, the Principal 
Deputy Under Secretary of Defense for Personnel and Readiness; 
Dr. Lynda Davis, Deputy Assistant Secretary of the Navy for 
Military Personnel Policy; John McLaurin, Deputy Assistant 
Secretary of the Army for Human Resources; and Lieutenant 
General Roger Brady, Deputy Chief of Staff of the Air Force for 
Manpower and Personnel.
    We have your prepared statements, which will be included in 
the record, and what we would like is if you would take the 
opportunity to make a brief opening statement, then we will go 
to the questions.
    Secretary Dominguez?

STATEMENT OF HON. MICHAEL L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER 
        SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Mr. Dominguez. Chairman Nelson and Chairman Akaka, I thank 
you and the distinguished members of the subcommittees. Thank 
you for the opportunity to meet with you today and discuss the 
programs we have to support military families.
    I want to start first with some current events.
    Earlier today, I held a press conference announcing 
Secretary Gates' decisions on the awarding of administrative 
absence to members of the Armed Forces that are deployed or 
mobilized in advance of the 1-year for Active service, ``1 year 
deployed and 2 years back home'' standard; and, for the Guard 
and Reserve, it was the standard he set of 1 year mobilized for 
every 5 years back home. So, he committed to doing a program to 
recognize people when he was forced, through national security 
demands, to break that contract. I announced that today, and I 
had given a heads-up to your staff that that was happening.
    The second is that, as Senator Chambliss recognized, we 
have a recent decision to extend Active Duty Army deployments 
in Iraq and Afghanistan to 15 months. The thing that did for 
military families, though, is provide predictability. 
Predictability's important to our servicemembers, and this 
decision provides that planning stability for our families.
    Next, we are fully investigating the care provided to our 
wounded, including the component of that care that is outreach 
and support for their family members. We're taking measures to 
correct problems, as we identify them. We are working with and 
supporting the reviews to the presidential commission, 
Secretary Gates's independent review group, Secretary 
Nicholson's task force, and General Scott's Veteran's 
Disability Commission.
    Now, that's the summary of current events. I just wanted to 
get you up to date on those.
    The Social Compact, which we published in 2002 and 
modernized in 2004, describes the array of programs we have in 
place to support the men and women in uniform and their 
families. DOD has worked aggressively to transform services to 
families facing the challenges of war. We understand how hard 
it is for military families to cope with the high pace of 
deployments and extensions.
    Communications between troops and families back home have 
been made more affordable and more available.
    Military OneSource is an incredible toll-free and Internet 
resource that offers both troops and family members the option 
of speaking to a qualified counselor or consultant, 24 by 7, 
from any location in the world. It is a portal, providing 
access to a vast array of useful information, tools, and 
assistance.
    We have addressed the stressful effects of repeated 
deployments and extensions through increased availability of 
family assistance counseling, to include financial counseling.
    For the families back home, we have moved forward with an 
emergency intervention strategy to address the most pressing 
childcare needs at locations affected the most by high 
deployments and rebasing.
    Providing the same level of support to the geographically 
dispersed Guard and Reserve component families as we provide to 
families living near military installations is challenging. 
Technology is a part of the solution, as so many military 
families obtain information over the Internet. Military 
OneSource has been an enormous support to the Guard and Reserve 
families.
    A joint family readiness program is being implemented, 
modeled after Minnesota and New Hampshire National Guard 
programs. Six pilot programs are in progress.
    States are forming integrated interservice family 
assistance committees to facilitate access to information 
services and resources.
    The recently announced extension of current and future 
tours to 15 months will be hard on families, and we are 
stepping up the availability of training and counseling support 
for volunteers to ameliorate that challenge and deal with it.
    Much of this has been made possible by your support of the 
emergency supplemental funding for the war effort. We 
particularly appreciated the expanded authority to build 
childcare centers that you have provided in the past.
    In the past year, we also fielded special surveys to 
military spouses, so we could more fully understand the impact 
of deployments on families. Results indicate that 61 percent of 
Active Duty spouses, and 75 percent of Reserve component 
spouses, support their husband or wife staying in the military. 
These results are encouraging. They're not adequate, but they 
are encouraging.
    The partnership between the American people and the noble 
warfighters and their families is built on the understanding 
that families also serve. We appreciate the service and 
sacrifice of our military families. They sustain our troops on 
the battlefield.
    Before I close, I want you to know that we are in the 
process of implementing the predatory lending law that you have 
been so instrumental in establishing. We appreciate your strong 
support, and it will make a difference to the financial well-
being of the force.
    Sir, I look forward to your questions.
    [The prepared statement of Mr. Dominguez follows:]

              Prepared Statement by Hon. Michael Dominguez

    Mr. Chairman and distinguished members of this subcommittee, thank 
you for this opportunity to discuss our programs supporting the well-
being of military families. Let me begin by addressing issues recently 
in the news.

                             CURRENT EVENTS

    Last week, Secretary of Defense Gates announced his decision to 
extend from 12 to 15 months the tours for Active Army soldiers in 
Central Command. That was a difficult decision for the Secretary as 
these longer tours will be hard on Army families. While a 15-month tour 
is an unpleasant prospect, we hope this decision will allow most 
soldiers a full year at home between deployments and will preclude the 
need for unplanned tour extensions during a deployment. As a result, 
Secretary Gates was able to provide a measure of predictability and 
stability for soldiers and their families.
    We are fully investigating the care provided to our wounded, 
including outreach to and support for families. Earlier this week, we 
received the report of the Independent Review Group established by 
Secretary Gates. We appreciate their work and are moving quickly to 
evaluate their recommendations. We also await the findings of the 
President's Commission on Care for America's Returning Wounded 
Warriors, Secretary Nicholson's Interagency Task Force on Returning 
Global War on Terror Heroes, and the Veterans' Disability Benefits 
Commission. As these or our own investigations identify areas demanding 
improvement we will act--and that includes seeking legislation from the 
Congress, should that be necessary.
    Last year, Congress passed legislation to eliminate predatory 
lending to members of the Armed Forces. Last week, the regulations 
called for in the law were published in the Federal Register, beginning 
a 60-day comment period. We are on track to have those regulations in 
effect by October 1, 2007, as intended by Congress. Elimination of 
predatory lending will make a big difference to the financial well-
being of our young enlisted families. Thank you for your strong 
support.
       families: the heart and soul of troops on the battlefield
    This is the sixth year of sustained combat and the resiliency of 
servicemembers and their families is nothing less than remarkable.
    Our military families are the heart and soul of troops on the 
battlefield and when they call back home they want to hear, ``We're 
doing fine . . . we miss you but we are doing fine.'' The Department 
made family support a priority and redesigned and boosted family 
support in a number of ways to recognize the crucial role families play 
in supporting servicemembers on the battlefield.
    Of paramount importance to those deployed is to know that their 
families have good support and someone to reach out to while they are 
away. Without a doubt, families also serve and sacrifice.

             WHAT MAKES A DIFFERENCE FOR FAMILIES BACK HOME

Communication with their loved ones:
    Military spouses indicate that being able to communicate with their 
loved one is the number one factor in being able to cope with 
deployments. Back home, computers and Internet service at base 
libraries, family support centers, and youth centers ensure families 
can send and receive e-mails from their loved ones who are deployed. 
This communication is essential to morale and to our ability to sustain 
deployments.
    In the deployed environment, phone banks with Internet hook ups are 
readily available in base camps. Free morale calls are also regularly 
available in theater. Morale programs include 145 free morale welfare 
and recreation (MWR)-operated Internet cafes in Iraq and 30 Internet 
cafes in Afghanistan. Mobile Internet cafes offer Internet Protocol 
phone service at less than 4 cents per minute. The cost of phone calls 
is now much reduced through work with telecom companies. Telephone 
calls once a dollar or more a minute are now down to 19 cents a minute. 
Our exchanges also provide unofficial telephone service at low 
international per minute rates for deployed members on land and sea (19 
cents in Iraq and Afghanistan and 45 cents aboard ship).
Communication strategy:
    In partnership with the military Services, the Department leveraged 
the power of technology to provide servicemembers and their families 
with reliable information, as well as someone to talk to 24/7. Our new 
capability is two pronged. Through our Military Homefront web portal 
and our toll-free call center and interactive Web site, Military 
OneSource, we provide credible, confidential support in a convenient 
and efficient manner. The success of our technological outreach 
services has been phenomenal.
    The cornerstone of our communication strategy is Military OneSource 
(www.militaryonesource.com or 1-800-342-9647). Military OneSource has 
quickly become the trusted source of information and assistance for 
servicemembers and their families. Military OneSource is a referral 
service that provides information and assistance on a wide range of 
issues. Topics include parenting, child care, educational services, 
financial information, and counseling. Individualized assistance is 
available by telephone, email, or the Internet. Department survey 
results indicate that one in five servicemembers used Military 
OneSource in the previous 12 months. The current call volume is almost 
1,000 calls per day. In fiscal year 2006, there were on average 125,000 
on-line visits per month.
    The 2006 Army Family Action Plan Conference designated Military 
OneSource as the number one program in support of mobilization, 
deployment, and family readiness. The organization praised Military 
OneSource as a benchmark program that is not dependent on family 
geographic location or branch of Service, or component (Active or 
Reserve) within a Service.
    The second part of our communication strategy is Military 
Homefront, (www.MilitaryHomefront.dod.mil). Our award-winning, ``best 
in government'' quality-of-life web portal is a user friendly site that 
provides easy access to all of the on-line information about the 
Department's quality-of-life programs. In fiscal year 2006, there were 
over 25 million hits and 1.5 million visitors.
    Two new applications, Military Installations and Plan-My-Move, add 
a new dimension to the Homefront. For the first time, servicemembers 
can access the on line Plan-My-Move, interactive moving program that 
provides tools for budget planning, customized calendars, household 
goods inventories, and much more. Military Installations provides 
directions to programs, services and facilities for military bases, 
National Guard offices, and Department of Veterans Affairs (VA) 
facilities worldwide. Military Installations allows families to find 
relocation information tailored to their specific needs, whether they 
are moving overseas, moving a family member with special needs, moving 
with children, or seeking employment for a spouse after a move. These 
programs are part of our commitment to military families, and provide 
information families need to deal with their mobile military lifestyle. 
These services can also be accessed through Military OneSource.
Counseling:
    Demand for family assistance and military member counseling more 
than doubled over the last year. The Department is aggressively and 
very successfully addressing the stressful effects of repeated 
deployments by increasing availability of family assistance counseling. 
This short-term, situational, non-medical problem-solving support is 
designed to help servicemembers and their families cope with normal 
reactions to stressful situations. All the military Services use this 
resource that is intended to augment existing military support services 
during the cycles of deployment and reintegration. Counseling support 
is available both on and off military installations in the United 
States and overseas. Up to six sessions of counseling per situation can 
be requested by individuals and families. The counseling, provided by 
licensed and credentialed professionals, is confidential and optimally 
available within a 30-minute drive time of the individual requesting 
services. Counselors are trained to assist families with life 
management issues such as reunion expectations, loneliness, stress, 
long separations, differences after a year apart, effects of deployment 
on children, loss and grief, and how best to reintegrate into family 
life. Financial counseling is also available to help with today's 
complex financial decisions and the added complication of family 
separations.
    Counseling support is designed to be extremely responsive and 
flexible in order to meet emergent needs. For example, during the 
recent extensions of the Stryker Brigade at Fort Wainwright and Fort 
Richardson, AK, the 1st/34 Brigade from the Minnesota Army National 
Guard, and the Third Brigade of the 10th Mountain Division at Fort 
Drum, counselors were immediately deployed--at the request of the home 
station commanders--to support the families.
    Counselors are also available to meet returning aircraft when 
servicemembers arrive at home from deployment. Counselors speak at 
Family Readiness Support Groups and townhall meetings. Psycho-
educational presentations are provided by counselors to help 
servicemembers and families understand the emotional challenges they 
may experience during the current high-stress military environment. The 
counselors also provide support to the Department's summer youth 
programs, the National Guard Summer Programs, and the National Military 
Family Association Operation Purple camps. Services are available to 
children, parents, and staff.
    Our families are managing successfully. New research shows that 
divorce rates are no higher than they were 10 years ago, when demands 
on the military were less intense. Commitment remains strong from both 
family members and servicemembers. Still, even resilient warriors and 
families sometimes need professional assistance to sustain continued 
deployments. Non-medical counseling is helping young families cope and 
is often that necessary ounce of prevention that enables them to cope 
successfully with the challenges of military life.
Child Care:
    Military parents rely on child care and youth programs during 
deployments to help them manage their rigorous work schedules. Upon 
deployment, the remaining parent becomes a single parent. Forty-two 
percent of E1-E4 servicemembers reported that managing child care 
schedules was a moderate to very serious concern during their last 
deployment. Therefore, having affordable, available child care is an 
important stress reliever for many families.
    In fiscal year 2006, the Department moved forward with the 
emergency intervention strategy to address the most pressing child care 
needs at locations affected by high deployments and rebasing. To 
continue the effort, the Department dedicated $82 million toward the 
purchase of modular facilities, and to renovation and expansion of 
existing facilities. This intervention will create approximately 7,000 
additional child care spaces in 37 new child care centers and 
additions/renovations to child care centers at 42 high personnel tempo 
locations.
    Providing child care for the Reserve and Guard presents challenges. 
Difficulties arise because of many factors; families do not generally 
receive services from an Active Duty installation and support systems 
available in the community may not be sufficient when a servicemember 
deploys. The Department supports the child care needs of Reserve 
component families through several initiatives to include:
    Operation: Military child care is a Department partnership with a 
national nonprofit organization that helps families/child guardians 
locate child care at reduced rates in their own communities when they 
are unable to access child care on military installations.
    Operation Military Kids is the Army's collaborative effort with 
community agencies to support the `suddenly military' Reserve component 
children and youth before, during, and after the deployment of a parent 
or loved one. In fiscal year 2006, more than 29,000 youths in 34 States 
participated in Operation Military Kids activities.
    In 2007, a new Coaching for Young Families initiative will provide 
20 full-time positions offering counseling support to families with 
young children in high deployment areas. Twelve of the 20 consultants 
will work at National Guard and Reserve component locations.

                    CHALLENGES OF DEPLOYMENT AND WAR

    Extensions of deployments are particularly stressful to families 
who desire predictability of return and to troops who do not want to 
disappoint their families. Properly handling notification of military 
members and families in case of an unplanned deployment extension is 
essential and every effort is made to notify members and then, 
expeditiously, families. The speed with which the news media can 
disseminate information can make it difficult for the chain-of-command 
to provide the first notification to families of a deployment 
extension. We are reviewing our processes to ensure that we get news to 
the families first whenever we can.
Health Care:
    We know that everyone who goes to war changes. We also know that 
families, particularly those who live far away from a military base, 
may feel alone and worried about their loved ones who are deployed, 
injured, wounded or sick.
    In addition to the TRICARE Prime and TRICARE Standard benefit, 
TRICARE beneficiaries who need assistance with depression, stress-
related illness, chemical dependency, alcohol-abuse problems or other 
related issues should know that TRICARE offers a wide range of mental-
health care services. Access to those services, also known as 
behavioral health care, is easy and convenient.
    To supplement the TRICARE benefit, the military health system added 
the Mental Health Self-Assessment Program (MHSAP) in 2006. This program 
provides military families, including National Guard and Reserve 
families, Web-based, phone-based and in-person screening for common 
mental-health conditions and customized referrals to appropriate local 
treatment resources. The program includes screening tools for parents 
to assess depression and risk for self-injurious behavior in their 
children. The MHSAP also includes a suicide-prevention program that is 
available in Department schools. Spanish versions of these screening 
tools are available.
    For families who are visiting a loved one who is severely injured, 
wounded or sick, the military health system is developing the Family 
Transition Initiative. Working jointly with the VA, our mission is to 
improve the transition process for families of seriously injured 
inpatient servicemembers who are transferring to VA Polytrauma Centers. 
The Department and VA will recommend a systematic approach to prepare 
and support patients and families during the transition of inpatient 
care between the two departments. We are currently conducting an 
inventory of existing Department and VA family support programs and 
will base recommendations on the programs that work best.
    The Family Transition Initiative is also addressing the 
communications gaps and addressing such issues as allowing family 
members to meet staff members from a new facility before transition. We 
are also addressing the fact that family members may also have health 
care needs while visiting their loved ones. Family members may not be 
eligible for TRICARE or VA benefits, and we must ensure their health 
care needs are met.
    The Department and VA will deliver a report to the Health Executive 
Council with recommendations for the Family Transition Initiative by 
June 2007.
Casualty Assistance:
    The Department takes very seriously its responsibility to provide 
assistance to families of fallen servicemembers and continues to 
explore new methods, procedures, and policies to enhance the current 
level of assistance. Each Service has its own customs, but all see 
assistance to families of the fallen as a top priority. The Army, Navy, 
and Marine Corps assign a uniformed member to assist the family, while 
the Air Force provides assistance through a full time civilian Casualty 
Assistance Representative and a family liaison officer. The Services 
have developed programs to provide personal assistance as long as the 
families desire contact and stand ready to respond whenever a concern 
arises.
    The Department collaborates with the VA, the Social Security 
Administration (SSA) and multiple non-governmental agencies and family 
advocacy groups to improve support to families. In March 2006, the 
Department published ``A Survivor's Guide to Benefits, Taking Care of 
Our Own''. It was subsequently updated in June and in November. This 
guide is on the Military HOMEFRONT Web site, and is always available in 
its most current version. The guide details the Federal benefits 
available to families of servicemembers who die on Active Duty, to 
include coordinated benefit information from the DOD, VA, and SSA.
    For Service casualty staff and military widows, the Department 
created ``The Days Ahead, Essential Papers for Families of Fallen 
servicemembers'', a tool designed to assist families in organizing the 
avalanche of paper work that is necessary as a family applies for and 
receives Federal benefits as a result of an Active Duty death. Spouses 
who receive ``The Days Ahead'' notebook will also receive a print copy 
of the most recent version of ``A Survivor's Guide to Benefits'' and 
another excellent resource, ``The Military Widow'' by Joanne Steen and 
Regina Asaro; the first book specifically focused on the unique 
challenges women face when they become military widows.
Transportation of Fallen Loved Ones:
    The Department believes that the return of the remains of our 
fallen to their families must be handled as expeditiously as possible, 
with the utmost care, dignity and respect. In the past, when the return 
of the fallen included air transportation, the primary mode of air 
transportation was scheduled commercial service. With the enactment of 
section 562 of the John Warner National Defense Authorization Act for 
Fiscal Year 2007, effective 1 January 2007, dedicated military or 
military-contracted aircraft is the primary mode of air transportation 
of remains that are returned to the United States from a combat theater 
of operations through the mortuary facility at Dover Air Force Base 
(AFB). Commercial air may only be authorized at the request of the 
person designated to direct disposition. The Department has recently 
expanded this provision to include transportation for all personnel who 
die of their wounds or injuries sustained in a combat theater of 
operations regardless of whether the remains are processed through 
Dover AFB.
    A member of the Armed Forces, in an equal or higher grade, escorts 
the fallen servicemember's remains continuously until arrival at the 
applicable destination. At the arrival airfield, an honor guard detail 
is available to render appropriate honors and participate in the off-
loading of the flag-draped casket from the aircraft to awaiting ground 
transportation for onward movement to the funeral home or cemetery.
    Since families still sometimes choose the use of commercial air, 
the Department continues to work with the commercial airline industry 
to ensure that all actions are taken to ensure our fallen are handled 
with the highest level of respect. The airline industry responded to 
this request for support in a very positive way. Examples include: seat 
upgrades for escorts for easy exit to perform their duties, airplane 
access for honor guards to participate in the off-loading of the flag-
draped casket from the aircraft, coordinated access to the airport 
tarmac for the escort, honor guard details, family members, the funeral 
home hearse, and in many cases community based support groups wishing 
to show their respect and participate in the arrival of a local hero. 
When such access to the airplane or tarmac has not been possible 
because of security or safety requirements, several airlines responded 
by producing transport carts dedicated specifically for the movement of 
servicemember remains.
    Recently, the Department initiated an ``Honor Cover'' for the 
standard air tray required in the transport of caskets. The honor cover 
has a rendering of the American flag on the top and the Department's 
seal on each end. This cover provides greater visibility and conveys 
the appropriate level of respect to the fallen while in transit.
Expedited Citizenship:
    Gaining citizenship for a non-U.S. servicemember is not only a 
satisfying, and often a life-long goal for that individual--it also 
provides a stepping stone for members of the family to become citizens, 
an opportunity that will benefit generations to come. For those who 
serve their country, obtaining citizenship should be achievable in a 
reasonable amount of time. The Department works closely with the 
Department of Homeland Security's U.S. Citizenship and Immigration 
Services (USCIS) to expedite citizenship applications for non-U.S. 
citizens who serve honorably in our Armed Forces. USCIS established an 
office in 2002, dedicated to work all military citizenship 
applications. Since September 11, 2001, nearly 32,000 servicemembers 
have obtained citizenship as of March 19, 2007, and the average 
processing time has been reduced from 9 months to less than 60 days. 
USCIS has entered into an agreement with the FBI to permit the use of 
military member fingerprints provided at the time of enlistment for 
processing military member citizenship applications. This eliminated 
the need for servicemembers to travel, in some cases hundreds of miles, 
to be fingerprinted at a USCIS office and has further reduced 
citizenship application processing time.
    The Department also continues to work closely with USCIS to conduct 
naturalization interviews and swearing-in ceremonies overseas and 
onboard ships. As of March 19, 2007, over 3,400 military members have 
been naturalized at overseas ceremonies conducted since October 1, 
2004.
Military Severely Injured Center:
    The Department is committed to providing the assistance and support 
required to meet the challenges that confront our severely injured and 
wounded servicemembers and their families during the difficult time of 
transition. Each Service has programs to serve severely wounded from 
the war: the Army Wounded Warrior Program (AW2), the Navy Safe Harbor 
program, the Air Force Helping Airmen Recover Together (Palace Hart) 
program, and the Marine4Life (M4L) Injured Support Program. DOD's 
Military Severely Injured Center augments the support provided by the 
Services. It was established in December 2004 and continues to be even 
more robust today. It reaches beyond the DOD to coordinate with other 
agencies, to the nonprofit world, and to corporate America.
    It serves as a fusion point for four Federal agencies--DOD, the VA, 
the Department of Homeland Security's Transportation Security 
Administration, and the Department of Labor.
    Federal Partners. The Military Severely Injured Center unites 
Federal agencies through a common mission: to assist the severely 
injured and their families.

        <bullet> The VA Office of Seamless Transition has a full-time 
        liaison assigned to the Center to address VA benefits issues 
        ranging from expediting claims, facilitating VA ratings, 
        connecting servicemembers to local VA offices, and coordinating 
        the transition between the military and the VA systems.
        <bullet> The Department of Labor (DOL) has assigned three 
        liaisons from its Recovery & Employment Assistance Lifelines 
        (REALifelines) program which offers personalized employment 
        assistance to injured servicemembers to find careers in the 
        field and geographic area of their choice. REALifelines works 
        closely with the VA's Vocational Rehabilitation program to 
        ensure servicemembers have the skills, training, and education 
        required to pursue their desired career field.
        <bullet> The Department of Homeland Security's Transportation 
        Security Administration has a transportation specialist 
        assigned to the Center to facilitate travel of severely injured 
        members and their families through our Nation's airports. The 
        Center's TSA liaison coordinates with local airport TSA 
        officials to ensure that each member is assisted throughout the 
        airport and given a facilitated (or private) security screening 
        that takes into account the member's individual injuries.

    Nonprofit Coordination. The MSI Center has coordinated with over 40 
nonprofit organizations, all of which have a mission to assist injured 
servicemembers and their families. These nonprofits offer assistance in 
a number of areas from financial to employment to transportation to 
goods and services. Many are national organizations, but some are 
local, serving service men and women in a specific region or at a 
specific Military Treatment Facility. Some of the many organizations 
that are providing assistance are the Wounded Warrior Project, the 
Injured Marine Semper Fi Fund, the VFW, the American Legion, Disabled 
American Veterans, the Coalition to Salute America's Heroes, and, of 
course, the Service Relief Societies. There are hundreds of other 
nonprofits who offer assistance to military families in general that 
are part of the America Supports You network 
(www.americasupportsyou.mil).
Operation Warfighter:
    The Department sponsors Operation Warfighter (OWF), a temporary 
assignment or internship program for servicemembers who are 
convalescing at military treatment facilities in the National Capital 
Region. This program is designed to provide recuperating servicemembers 
with meaningful activity outside of the hospital environment that 
assists in their wellness and offers a formal means of transition back 
to the military or civilian workforce. The program's goal is to match 
servicemembers with opportunities that consider their interests and 
utilize both their military and non-military skills, thereby creating 
productive assignments that are beneficial to the recuperation of the 
servicemember and their views of the future. Servicemembers must be 
medically cleared to participate in OWF, and work schedules need to be 
flexible and considerate of the candidate's medical appointments. Under 
no circumstance will any OWF assignment interfere with a 
servicemember's medical treatment or adversely affect the well-being 
and recuperation of OWF participants.
    In 2006, 140 participants were successfully placed in OWF. Through 
this program, these servicemembers were able to build their resumes, 
explore employment interests, develop job skills, and gain valuable 
Federal Government work experience to help prepare them for the future. 
The 80 Federal agencies and subcomponents acting as employers in the 
program were able to benefit from the considerable talent and 
dedication of these recuperating servicemembers. Approximately 20 
permanent job placements resulted from OWF assignments upon the 
servicemember's medical retirement and separation from military 
service.
    The core of OWF is not about employment, however; placing 
servicemembers in supportive work settings that positively assist their 
recuperation is the underlying purpose of the program. The Department 
works very closely with DOL's REALifelines program in this effort.
Heroes to Hometowns:
    The American public's strong support for our troops shows 
especially in their willingness to help servicemembers who are severely 
injured in the war and their ever-supportive families, as they 
transition from the hospital environment and return to civilian life. 
Heroes to Hometowns' focus is on reintegration back home, with networks 
established at the national and State levels to better identify the 
extraordinary needs of returning families before they return home. They 
work with local communities to coordinate government and non-government 
resources necessary for long term success.
    The Department has partnered with the National Guard Bureau and the 
American Legion, and most recently the National Association of State 
Directors of Veterans Affairs, to tap into their national, State, and 
local support systems to provide essential links to government, 
corporate, and nonprofit resources at all levels and to garner 
community support. Support has included help with paying the bills, 
adapting homes, finding jobs, arranging welcome home celebrations, help 
working through bureaucracy, holiday dinners, entertainment options, 
mentoring, and very importantly, hometown support.
    Many private and nonprofit organizations have set their primary 
mission to be support of severely injured veterans. One example, the 
Sentinels of Freedom in San Ramon, California recruits qualifying 
severely injured to their community with ``scholarships'' that include 
free housing for 4 years, an adaptive vehicle, a career enhancing job, 
educational opportunities, and comprehensive community mentoring. 
Through a coordinated effort among local governments, corporations, 
businesses, nonprofits, and the general public, six scholarships have 
already been provided in the San Ramon Valley and in March, Sentinels 
of Freedom announced plans to expand the program nationwide.
    The ability of injured servicemembers to engage in recreational 
activities is a very important component of recovery. We continue to 
work with the United States Paralympics Committee and other 
organizations so that our severely injured have opportunities to 
participate in adaptive sports programs, whether those are skiing, 
running, hiking, horseback riding, rafting, or kayaking. We are also 
mindful of the need to ensure installation Morale Welfare and 
Recreation (MWR) fitness and sports programs can accommodate the 
recreational needs of our severely injured servicemembers. At 
congressional request, we are studying the current capabilities of MWR 
programs to provide access and accommodate eligible disabled personnel.
National Guard and Reserve Family Support:
    Families who previously had limited exposure to military systems 
now must deal with the likelihood of multiple and longer deployments 
for the servicemember. This past year has seen a maturing of existing 
programs, new initiatives, and integrated support systems to respond to 
the special needs of families, especially National Guard and Reserve 
families located significant distances away from military 
installations. Connecting Reserve Component families with the services 
they need presents a particular challenge. Whether those services are 
family support, child care or transition assistance (including 
assistance for the severely injured), the Department is bridging the 
gap between services provided for Active Duty members and Guard and 
Reserve.
    Per direction in the National Defense Authorization Act for Fiscal 
Year 2007, the Department is designing a regional joint family support 
model. Two critical components of the model involve building coalitions 
and connecting Federal, State, and local resources and nonprofit 
organizations to support Guard and Reserve families. Best practices and 
lessons learned from 22 Inter-Service Family Assistance Committees and 
the Joint Service Family Support Network will guide the planning 
process. Minnesota's, ``Beyond the Yellow Ribbon'' reintegration 
program, researched by the University of Minnesota, will serve as a 
model with a funded Community Reintegration Coordinator position. 
Hawaii and Oregon have volunteered to be models. These are States where 
we can build onto a successful infrastructure to deliver a wide range 
of family assistance to expand our reach to the Guard and Reserve. We 
appreciate the opportunity to bridge the gaps and augment existing 
programs, and thank Congress for recognizing this need.

         THE BACKBONE OF MILITARY COMMUNITY AND FAMILY SUPPORT

    Quality of life programs for servicemembers' and their families' 
lives have made great strides during the past few years. The Department 
recognizes that military members have difficult, complicated jobs to do 
under extremely arduous conditions. We continue to explore ways to 
improve programs in support of quality of life. Any or a combination of 
the following initiatives could raise the quality of life for military 
families and, therefore, affect readiness, recruiting, and retention.
Financial Readiness:
    The Department considers the personal financial stability of 
servicemembers and their families a significant factor in Military 
preparedness--financial stability equates to mission readiness. As 
such, financial readiness remains a top priority for the Department and 
we are aggressively promoting a culture within the military that values 
financial competency and responsible financial behavior. The 
Department's Financial Readiness Campaign encourages servicemembers to 
achieve good credit, save on a regular basis, obtain good interest 
rates on loans, and take advantage of the opportunity to participate in 
the Thrift Savings Plan (TSP) and the servicemembers' and Veterans' 
Group Life Insurance (SGLI).
    The Financial Readiness Campaign includes partnerships with other 
Federal, corporate, and non-governmental organizations to support both 
military members and their families on how to manage their finances. 
Key techniques include proactive and preventive measures: encouraging 
savings and reducing debt. We know that being free of credit card debt 
is a goal for 79 percent of military spouses who must often hold the 
financial reins of the family during deployment. However, while trends 
in the past couple of years show more servicemembers are able to save 
and fewer are having financial problems, a third of E1s-E4s still 
indicate that they have financial problems. It is important that we 
continue efforts to provide access to cost-effective financial 
readiness tools and products, and protect members from predatory 
lenders that can place servicemembers in a dangerous and sometimes 
unrecoverable spiral of debt. For example, 10 percent of E1s-E4s 
reported they obtained a payday loan in the past year. As we have seen, 
the personal and professional stressors of poor financial management 
can dramatically affect family quality of life, and ultimately, our 
mission readiness.
    Education is our first line of defense. In 2006, the Services 
provided more than 11,800 financial management classes at their 
installations around the world and trained more than 324,000 
servicemembers (approximately 24 percent of the force), as well as 
19,400 family members. Our campaign partner organizations, such as 
those represented by our on-installation banks and credit unions, 
conducted an additional 1,300 classes, serving a total of 60,600 
servicemembers and their families. These classes help equip our men and 
women with the necessary tools to achieve financial freedom and avoid 
the financial traps that befall many of their contemporaries outside of 
the military.
    Our 23 financial readiness partners are invaluable in providing 
both education and counseling to our servicemembers and families and in 
offering affordable, easily accessible financial products. The 
following highlights some of this organizational support:

          -  The Financial Literacy and Education Commission provides 
        educational and training materials through the Web site 
        www.mymoney.gov. The commission also supports a toll-free 
        number and consolidates education and training materials 
        available through the Federal agencies that have been widely 
        advertised and linked to the Department's and military service 
        Web sites.
          -  The InCharge Institute provides access to credit 
        counseling/debt management, and publishes a quarterly magazine 
        called Military Money in partnership with the National Military 
        Family Association.
          -  The National Association of Securities Dealers Foundation 
        has funded a multi-year awareness and education program to 
        supplement programs provided by the military services. Included 
        are multimedia public service announcements through sources 
        such as Armed Forces Radio and Television Services, Service 
        command information publications, magazines and radio; an 
        interactive Web site--www.saveandinvest.org; sponsorship of a 
        scholarship program for military spouses through partnership 
        with the National Military Families Association to accredit 
        them as `financial counselors' in return for volunteer hours in 
        military communities; and education for military service 
        financial counselors and educators.
          -  Our military relief societies, of course, continue to 
        provide outstanding educational materials and counseling, as 
        well as financial assistance when our servicemembers are in 
        need.

    As we push our campaign into 2007, the Department provides free 
Federal and State on-line tax preparation and filing through Military 
OneSource for all members regardless of component or activation status. 
This service includes free telephonic access to trained financial 
professionals who can answer many of the tax questions that our 
servicemembers and families may have. The Department encourages 
servicemembers and their families to use the Military OneSource free 
tax preparation service and to add any refunds to a savings account.
    The Department sponsored ``Military Saves'' week in February, in 
conjunction with the Consumer Federation of America's nationwide 
``America Saves'' campaign. This is an intense week of training and 
encouragement for our military members and families to start reducing 
their debt and saving for their future. Members can set a savings goal 
by registering on www.militarysaves.org.
Domestic Violence:
    Domestic violence statistics are slightly lower than last year. The 
Department remains steadfast in its commitment to strengthen its 
response to domestic violence and continues to make substantial efforts 
to improve training of key staff. During the past year, we conducted 
six domestic violence training conferences, three of which were offered 
to joint gatherings of commanding officers, Judge Advocates, law 
enforcement personnel, and victim advocates. These conferences 
addressed each group's responsibilities in responding to domestic 
violence in accordance with new domestic violence policies issued by 
the Department.
    We continue implementation of the restricted reporting policy for 
incidents of domestic violence. This policy offers victims the option 
of seeking medical and victim advocacy assistance without making a 
report to the victim or abuser's commander or law enforcement. This 
confidential assistance is crucial for victims who may be concerned 
about their safety, the military career of the family-member offender, 
or the family's financial welfare. The Department continues to expand 
its victim advocacy program, which provides access to on-call victim 
advocates and shelters to assist victims of domestic violence.
    During the past year we also launched a Web based domestic violence 
training curriculum for commanding officers that addresses their 
responsibilities when responding to incidents of domestic violence. 
Commanding officers may now log-on anywhere in the world and receive 
training on responding to domestic violence.
    In partnership with the Family Violence Prevention Fund, we 
developed and launched a national public awareness campaign to prevent 
domestic violence. The campaign is designed as a prevention message to 
educate Service men and women and their families about domestic 
violence and increase awareness of domestic violence prevention 
resources.
    In partnership with the Office on Violence Against Women of the 
Department of Justice, we have continued several joint initiatives, 
including training for victim advocates and law enforcement personnel. 
Additionally, we are conducting domestic violence coordinated community 
response demonstration projects in two communities near large military 
installations. The goal of the projects is to develop a coordinated 
community response to domestic violence focusing on enhancing victim 
services and developing special law enforcement and prosecution units. 
Finally, we are participating in the President's Family Justice Center 
Initiative. The initiative provides funding through the Office on 
Violence Against Women for 15 centers in select communities nation-
wide. The Department partnered with four centers near military 
installations to address domestic violence.
Military Children's Education:
    The Department shares a vested interest in quality elementary and 
secondary education for military children along with our partners in 
State and local education systems. One of the major factors in 
sustaining the All-Volunteer Force is providing quality educational 
experiences for military children.
    The Department's schools have high expectations for the over 91,000 
students enrolled in our 208 schools located in 12 countries, 7 States, 
and 2 territories. The Department's worldwide school system serves as a 
model education system for the Nation and is without question a 
``career satisfier'' and high priority for servicemembers and families. 
The Department's students are among the highest performing in the 
Nation as measured by norm-reference assessments like the TerraNova and 
the Nation's report card, the National Assessment of Education 
Progress. Our students consistently score above the national average at 
every grade level and in every subject area. A key ingredient to this 
success is the partnership that exists among schools, parents, and 
military commands that focus on superior student achievement. 
Department schools are also leading the Nation in closing the 
achievement gap between white and non-white students. Diversity is one 
of the strengths of the system. African-American and Hispanic students 
in DODEA schools consistently outperform their counterparts in the 50 
States in reading and math.
    The Department's school system has responded to the President's 
National Security Language Initiative, which promotes the study of 
critical need languages in grades K-12. The DODEA has launched a 
foreign language program that will initially introduce strategic 
foreign languages (e.g., Mandarin Chinese) to selected elementary and 
secondary schools in the DODEA system.
    Public Law 109-364 recently directed the Department to ease the 
transition of military students from attendance at DOD schools to 
attendance in schools of local educational agencies (LEAs). DODEA will 
share their expertise and experience in developing rigorous and 
successful academic programs, curriculum development, teacher 
professional development, and distance learning technology capabilities 
with stateside school districts impacted by base closures, global 
rebasing, and force restructuring. The Department identified 17 
communities in 14 States that will experience a large number of 
students transitioning into their schools because of large scale 
relocation and rebasing. DODEA has begun building partnerships with 
affected stateside school systems to assist them in developing 
instructional programs similar to those in the DODEA schools. The 
ultimate goal of the program is to ensure that a high quality 
educational program is provided to all military dependents living both 
inside and outside the gates of military installations.
    As an initial step in sharing best practices with LEAs, the 
Department sponsored a Conference on Education for Military-Connected 
Communities, which brought together teams comprised of military, 
civilian, school and business leaders from the 17 communities that will 
experience an increase in military dependent students due to the large 
scale rebasing effort. Over 200 participants heard from experts who 
provided participants with a list of resources for their communities to 
using during transition.
    The Department is also sharing information on the unique 
characteristics of military dependent students with military and 
community leaders, military parents and school superintendents who work 
with these students. To communicate effectively with military parents, 
teachers, and students, the Department has included helpful information 
on our Web site: www.militarystudent.org about the impact of 
deployments on children, resources to assist in separations and 
transitions, and best practices in quality education. A toolkit was 
developed by a joint service task group and disseminated on compact 
discs and the Web site to help families, military commanders and school 
leaders understand education options and help schools provide a smooth 
transition for military dependent students.
    Along with toolkits and outreach through DODEA, the Department is 
making the Johns Hopkins Military Child Initiative (MCI) available to 
military-connected communities and LEAs. The John Hopkins Center for 
Schools Impacted by Children of the Military focuses on meeting the 
needs of children and youth least likely to feel connected to school 
(i.e., children of military families who live in highly mobile 
circumstances). Their approach is being shared with impacted schools 
and military parents to improve student success, school/family/
community partnerships and student engagement.
Family Members with Special Needs:
    The Exceptional Family Member Program has operated for over 20 
years to ensure that the needs of family members who have specialized 
medical requirements or who require special education are considered 
during the assignment process. The EFMP identifies family members who 
have specialized medical or educational needs, and documents their 
specific requirements (medication, specialty care, special education 
requirements, physical accommodations). The military health system and 
the DOD schools coordinate all overseas assignments to ensure that the 
necessary medical and educational services are available to meet the 
family members' needs prior to approving overseas travel.
    Exceptional Family Member Program managers operate in all Army and 
Marine Corps family centers to assist military families with special 
needs. The EFMP managers help families identify and access resources. 
Additionally, the Army has instituted a new respite care program to 
mitigate deployment related stress for families with special needs.
    The Department has published the DOD Special Needs Parent Toolkit, 
which is available on-line at the MilitaryHomefront Web site and 
through Military OneSource. The toolkit provides families with an 
introduction to services available to them both through the military 
and through State and local community programs. We have provided a 
series of Military OneSource webinars aimed at families with special 
needs that have covered topics such as the Parent Toolkit, record 
keeping, advocacy, and moving with a special needs child. The 
MilitaryHomefront publishes a monthly newsletter to families with 
special needs who have registered for the newsletter. The newsletter 
provides families with up to date information about programs and 
services available to them, and about other issues of interest to 
families with special needs.
Spouse Education and Careers:
    Trying to sustain a career while serving the country is a major 
issue facing military spouses. Nearly half of all spouses report their 
job or education demands were a problem during their spouse's 
deployment. Military spouses are not unlike their civilian counterparts 
as they are major contributors to the family's financial well-being. 
The majority of the 700,000 military spouses of Active Duty personnel 
are in the civilian workforce. In the 2006 Survey of Spouses, 
regardless of their current employment status, 77 percent of spouses 
report they want and/or need to work to supplement their family income 
or stay in the career of their choice. The vast majority (83 percent) 
of spouses report that developing a career is a personal goal. Perhaps, 
even more important to the Department, research indicates that a 
military spouse's support for a career in the Armed Forces is a top 
factor in the retention decision of a married servicemember.
    Unfortunately, military spouses are a disenfranchised population as 
they are generally not included in our Nation's major labor and 
workforce development opportunities. Frequent relocations result in 
denial of opportunities ranging from eligibility for in-State tuition 
and State unemployment compensation to achievement of tenure. For those 
spouses whose employment requires costly certification and/or licensure 
requirements, the State-to-State moves are enormously expensive, 
sometimes with the expense of discontinuing a career. The unemployment 
rate for military spouses, at 12 percent, is much higher than the 
national unemployment rate. Further, our research shows that military 
spouses earn about $3.00 per hour less than their civilian 
counterparts.
    At the same time, military spouses are better educated than their 
civilian ``look-alikes'', as seven of ten spouses have some college 
education. While about 20 percent of spouses are enrolled in post-
secondary schools, another 51 percent would like to be in school. 
However, the overwhelming majority of these spouses, nearly three-
fourths, cite the cost of education as the reason they are not in 
school.
    While the Department is committed to helping military spouses 
pursue rewarding careers and to achieve educational and training goals, 
we realize that these issues can only be addressed by partnering with 
the States, the private sector, and other Federal agencies. We are 
actively working with DOL to ensure military spouses can receive 
education and training support via Workforce Investment Act funds. 
Further, we are partnering with DOL and national associations around 
careers in high-growth industries with mobile and portable careers such 
as medical transcription, financial services, education, and real 
estate. The DOD/DOL collaborative Web site (www.milspouse.org) which 
assists spouses with resume development, locating careers, identifying 
available training and linking to One Stop Career Centers, continues to 
be a great resource for our military spouses with almost 7 million Web 
site hits in fiscal year 2006.
    When asked what would have helped them find work after their most 
recent permanent change of station (PCS) move, approximately a third of 
those spouses surveyed in the 2006 Survey of Spouses indicated that 
easier transition of certifications would have helped, and 27 percent 
indicated that financial help with transferring certifications was 
lacking. We have identified a range of popular spouse careers that have 
State-specific licensing requirements and have designed strategies to 
address them, initially focusing on teaching and real-estate. Six 
States have now adopted the American Board for Certification of Teacher 
Excellence (ABCTE), a national passport teaching credential. Spouses 
with an ABCTE credential will not have to be re-certified in these 
States, which will result in less unemployment time. The Department 
also implemented the Spouse-to-Teacher program that supports military 
spouses in their pursuit of K-12 teaching degrees and positions in 
public and private schools. We are also working closely with colleges 
and universities to offer more scholarships, grants, and reduced 
tuition for servicemembers' spouses.
    Re/MAX launched a program, Operation Re/MAX, which provides 
military spouses the opportunity to achieve a career in the real estate 
industry. Since August 2006, there have been almost 2,000 inquiries 
from military spouses and there are over 800 Re/MAX offices offering to 
hire military spouses.
    Our efforts to raise employer awareness through our partnership 
with military.com, a division of monster.com, have proven to be a great 
success. Via this Web site portal: www.military.com/spouse, 155,000 
military spouses have posted their resumes and conducted over 3 million 
job searches of Federal and private sector jobs. There are now over 300 
spouse-friendly employers who are actively recruiting military spouses 
for their vacant positions; these organizations can post jobs at no 
cost and may search this exclusive database for military spouse 
candidates. Spouses may search public and private sector jobs by 
military installation locations.
Advisory Groups:
    At the OSD level, we take advice and counsel from internal 
organizations on which military families serve, to include the DODEA 
advisory councils on dependents education, a commissary council and an 
exchange council. The Defense Advisory Committee on Women in the 
Services (DACOWITS), whose charter includes quality of life support and 
membership includes military spouses, has advised us on such programs 
as child care services.
    At the Services level, the Army Family Action Plan (AFAP) is a well 
organized grass roots program that has reached down to installation 
level and brought issues to Army and OSD leadership for the past 25 
years. The AFAP process, which is highly prized and respected within 
the Department, has resulted in numerous legislative and policy changes 
impacting military families. Both the Army and the Marine Corps have 
chartered family readiness advisory councils, whose membership is 
comprised solely of military spouses and volunteers. These councils 
assess and recommend solutions for evolving family issues.
    Finally, several non-governmental organizations serve to advocate 
for military families and influence family policies. Prominent among 
these is the National Military Family Association who has an excellent 
track record of working with Congress as well as with the Department.
Youth Partnerships:
    Last year, eKnowledge Corporation, a leading supplier of 
interactive test preparation products for college entrance exams, along 
with a group of patriotic NFL players, donated $6.9 million to pay for 
multimedia SAT/ACT test preparation products worth $200 to military 
servicemembers and their families. During 2006, more than 48,000 free 
SAT/ACT multimedia CD & DVD test preparation programs were donated to 
servicemembers and their families worldwide. Over the past several 
months, eKnowledge and the NFL players have received tens of thousands 
of letters and emails from servicemembers expressing appreciation for 
the valuable SAT/ACT test preparation projects. Based on the tremendous 
response from servicemembers and their families, eKnowldege and the 
participating NFL players announced that they will extend the free SAT/
ACT donation program through 2007, with a total financial commitment of 
$10 million.
    It is with great pride that Military Youth programs worldwide can 
now take advantage of their affiliation with the Boys & Girls Clubs of 
America by participating in the Major League Baseball  S.T.A.R. Award 
program. This MLB award program is designed to recognize youth ages 10 
to 18 year-round for their youth sports, fitness, and social recreation 
achievements. Any youth who demonstrate the four MLB S.T.A.R. Award 
characteristics: Sportsmanship, Team spirit, Achievement and 
Responsibility is qualified to be nominated. Whether on the baseball 
field, at the swimming pool, in the games room or in the dance studio, 
it is these attributes that help our military youth succeed at anything 
they do regardless of where they live around the world. Each 
participating youth program will be allowed to select one outstanding 
youth who best embodies all four characteristics. That youth will 
receive a trophy and become eligible for State, regional, and national 
competition. Later this year, six deserving youth, one from each of 
BGCA's five regions and an overseas military site representative, will 
be selected to attend the MLB All-Star Game. One national winner will 
be invited to the MLB World Series game.
State Liaison Initiatives:
    In 2004, the Department of Defense approached the National 
Governors' Association to request their assistance in supporting those 
aspects of quality of life for servicemembers and their families that 
could be influenced best through the actions of State governments. In 
the past 2 years, the Department has found Governors and State 
legislators have embraced these opportunities to show their support for 
servicemembers and their families.
    The Department has concentrated discussions on 10 key issues at the 
State level: (1) assistance to Guard and Reserve members and families, 
(2) assistance to the severely injured, (3) in-State tuition rates for 
servicemember and their families, (4) school transition assistance for 
children of military families, (5) employment assistance for military 
spouses, (6) unemployment compensation for military spouses, (7) limits 
on payday lending, (8) absentee voter assistance, (9) growth of foreign 
language education, and (10) increases in child care assistance for 
Guard and Reserve families.
    Governors and other State policymakers have taken these issues 
seriously and provided support through State resources. For example, 
the States are providing over 720 benefits to members and families of 
the Guard and Reserve--an increase of over 200 benefits since 2004; for 
example, a total of 30 States (an increase of 9) are providing in-State 
tuition rates to servicemembers and their families while assigned to a 
State as a non-resident, and continuing this support for family members 
enrolled in school if the servicemember is reassigned out of State. 
Additional information on the progress of the key issues is provided to 
State policymakers and others at www.USA4MilitaryFamilies.org.
    Several Governors have established councils and committees to 
advise them on establishing initiatives to support the military 
community within their States. Many Governors have also initiated 
legislative packages to enhance quality of life for servicemembers and 
their families on a number of the 10 key issues.
    Additionally, the Department is partnering with national 
associations representing State governments to obtain support. For 
example, the Department is working with the Council of State 
Governments to establish an interstate compact designed to assist 
children of military families with the challenges that come from 
frequent transfers between school systems. This compact is designed to 
ameliorate differences in school systems ranging from differing age 
requirements to start kindergarten through varying requirements to 
graduate from high school.
    The Department has found its collaboration with Governors and State 
legislators to be an important aspect to supporting servicemembers and 
their families who make daily sacrifices to fulfill their commitment to 
defending the Nation. We anticipate these collaborative relationships 
will continue to produce important benefits for servicemembers and 
their families.
Morale Welfare and Recreation (MWR):
    MWR programs enhance the social fabric of a military community by 
providing activities normally found in ``hometown communities,'' such 
as libraries, fitness centers, bowling, golf, parks, and sports fields. 
These programs and activities impact the quality of life of our 
military families each and every day.
    Fitness Programs
    All of the military Services continue to expand robust fitness 
programs designed to sustain a physically fit, healthy force. Long term 
plans are being made to modernize the fitness infrastructure. The 
Services requested 79 fitness center construction projects between 
fiscal year 2007 and fiscal year 2013.
    Libraries
    Virtual resources, such as the Army's General Library Information 
System, and the Air Force's Learning Resource Centers provide access to 
academic materials regardless of location.
    Five Department recreational libraries will participate in the 
National Endowment for the Arts (NEA) ``Big Read'' initiative. The Big 
Read is a community reading project which began 1 year ago and is 
expanding to encompass military bases located in close proximity to 
civilian communities that have already agreed to participate. These 
communities were provided funding by the NEA for a month long festival 
in which interested participants are encouraged to read the same novel. 
Military bases will be provided 100 copies of the selected books for 
base library circulation.
Exchanges and Commissaries:
    The commissary and exchange are among the most valued contributors 
to the quality of life of our servicemembers and their families. They 
provide a safe and convenient community hub, particularly in overseas 
areas.
    Commissaries would help military families save over 30 percent on 
grocery and household necessities, even including the commissary 
surcharge and commercial sales taxes. The Defense Commissary Agency 
makes sure that familiar name brands are available for military 
families at active duty installations around the world. The 
Department's challenge is to sustain the value of the commissary to our 
servicemembers without increasing the cost to the tax payer. The 
Defense Commissary Agency, with oversight by the Commissary Operating 
Board, is becoming a state-of-the-art retail enterprise and continues 
to make steady progress toward becoming increasingly efficient and 
effective at delivering the benefit. Commissary customer satisfaction 
continues to surpass the supermarket industry. Moving forward, DeCA 
will pursue new ways to support military families who don't live on or 
near military installations and explore cooperative efforts with the 
military exchanges that enhance overall quality of life.
    The Armed Service Exchanges provide military families with 
merchandise and services at a 16 to 20 percent savings, not including 
sales tax savings, and provide over $300 million to help support 
morale, welfare and recreation programs. The Exchanges operate on 
military installations, on board ships, in deployed locations, 
contingency operations, disaster relief areas, and through catalog and 
internet shopping. The Exchanges are re-engineering using technology--
independently and with each other--to improve value to their customers 
and to lower operating costs. Moving forward, the exchanges are 
concentrating on improvements to logistics, systems, and supply chain 
management, where there are many opportunities for cooperative efforts.

                               CONCLUSION

    The Social Compact, published in 2002 and modernized in 2004, 
reiterated the compact between the Department of Defense, its 
warfighters, and those who support them--one that honors their service, 
understands their needs, and encourages them to make national defense a 
lifelong career. The array of quality of life programs covered by the 
Social Compact recognizes the challenges of military life and the 
sacrifices servicemembers and their families make in serving their 
country. The partnership between the American people and the noble 
warfighters and their families is built on a tacit agreement that 
families also serve. Our military families are the heart and soul of 
our troops on the battlefield. Without a doubt, families also serve and 
sacrifice.

    Senator Ben Nelson. Thank you, Mr. Secretary.
    Dr. Davis?

STATEMENT OF LYNDA C. DAVIS, DEPUTY ASSISTANT SECRETARY OF THE 
               NAVY FOR MILITARY PERSONNEL POLICY

    Dr. Davis. Thank you, Senators.
    Chairman Nelson, Chairman Akaka, Senators Graham and 
Chambliss, thank you for the opportunity to speak with you 
today on behalf of the Department of the Navy. I'll be speaking 
to you about the Navy and the Marine Corps, as I have 
responsibility for oversight of both services, their Active 
Duty personnel, and the support for their families.
    I'd like to mention, also, that I'm speaking as a former 
soldier who was deployed and had to have the experience of my 
son and, at that time, my two sons and my spouse react to my 
deployment, also, as someone who chose to curtail her military 
career at the point at which we adopted a child, and as someone 
who's a very proud mother of a member of the Pennsylvania Army 
National Guard. It's my honor to be here today.
    You raised several questions about the effectiveness of our 
quality-of-life programs, and I'd like to address those, just 
briefly. But, first of all, I think it's important to discuss 
something Senator Akaka alluded to, in terms of the community 
support and what constitutes family support.
    We believe, in the Department of the Navy, that support 
services are important to be delivered before, during, and 
after deployment, depending on the specific needs of the 
family, but they're delivered in concentric circles of care. 
They start at the unit level. That is the level, after all, at 
which the commander is the most aware of the requirements of 
the individual sailor, soldier, in our case, or marine, and 
also at which we have unique special programs, like the Navy 
Ombudsman Program and the Marine Corps Key Volunteer Programs. 
Our commanders are very engaged in family support; in fact, 
extending letters regularly to the family members from Iraq, 
with a variety of information, including some on predatory 
lending.
    As we move out from this concentric circle of family 
support beyond the unit, it extends to the installation, and 
that's where you have the excellent programs through Fleet 
Family Support Services or the Marine Corps Service Centers. We 
also draw on the support that's provided through the Navy or 
the Marine Corps, generally, through things such as our 145 
Navy Reserve Centers that are in every single State. Each of 
your States have one of those centers that serve not only the 
Navy reservists, who are geographically remote, their families 
are oftentimes, but it also serves the Marine Corps. We 
consider them to be purple assets, in that they're available to 
any servicemember. We certainly see that this concentric 
circles of support for the family would not be possible without 
all the assets Mr. Dominguez mentioned, in terms of those 
directly from the DOD.
    Also, we feel that the support is essential to the family 
from the other Federal agencies, such as the Department of 
Veterans' Affairs (VA) and Department of Labor, and also from 
State agencies, such as the State rehabilitative directors, if 
that becomes necessary during a member's service.
    Finally, our partnership in these concentric circles of 
care, or what I like to allude to as a web of inclusion for the 
family, can't be achieved without our veterans benefit 
organizations, our veterans service organizations, and our 
community-based organizations. So, they are essential for us to 
provide the full continuum of care to our family members.
    Addressing the effectiveness of our quality-of-life 
programs, we also had a recent Navy spouse survey that showed 
that 59 percent of enlisted spouses, and 81 percent of officer 
spouses, their family members felt that they were prepared for 
deployment; however, those numbers are not quite sufficient to 
what we'd like, and we are engaging in making sure that our 
deployment support is especially strong for unique communities 
that experience a high operations tempo (OPTEMPO) personnel 
tempo (PERSTEMPO), or our high-impact communities. That would 
be groups like the corpsmen, the 8404s who deploy with the 
Marines, our SEAL communities, and our individual augmentees. 
Those and a few others experience high stress, and we need to 
make sure they receive all the support they need.
    In keeping with looking at our effectiveness, our Secretary 
has recently, in March, instituted a Department Inspector 
General (IG) assessment of all facilities, health care, medical 
care, and administrative activities that relate to support for 
those in combat during deployment, for those wounded, and for 
the families. That is ongoing, in addition to the IG reviews of 
the quality-of-life programs when they visit the installations.
    The Marine Corps is also doing a quality-of-life survey, 
this year, which they administer regularly, to make sure that 
we're keeping pace with the effectiveness of our programs.
    The stresses of deployments was another issue you raised in 
your letter of invitation. To effectively operate this web on 
inclusion for quality-of-life I referred to, we recognize that 
there are special stresses during deployment, and those 
stresses have to do with not only the general cycle-of-life 
issues, like, ``Are you aware of your benefits?'' but, because 
of the high OPTEMPO and PERSTEMPO, there's additional stresses, 
particularly to the dependent children and the spouse. So, we 
have programs that we have, for instance, Senator Inhofe 
mentioned the childcare issue, and I'm conducting an assessment 
of the military construction (MILCON) prioritization of funds 
for childcare and other quality-of-life programs right now to 
make sure that it does not get shortchanged in our requirements 
for our primary mission, which is defense.
    Also, when there is a deployment, we recognize that the 
children oftentimes do exhibit stress reactions. We have, at 
our military treatment facilities, our 60 Fleet Family Support 
Centers and our 18 Marine Corps installations, a triage 
approach to making sure that if we haven't thoroughly been able 
to prevent challenge to the child, in terms of a stress 
reaction, that they're seen immediately by the mental health 
civilian and military professionals in mental health, and, if 
necessary, they're referred through TRICARE, to specialists in 
the community.
    The Marine Corps Lifestyle Insights, Networking, Knowledge, 
and Skills program also provides assistance to family 
dependents for preparation for the 15- to 17-year-old children 
for the challenges of deployment. The Navy and Marine Corps 
partners with the Boys and Girls Clubs to provide youth 
programs for them so that they're active and engaged with peers 
during the deployment cycle.
    We also are very appreciative of the relationship with the 
Association for Child Care Resources and Referral Agency, which 
has allowed us to have additional childcare to support the 
spouse of the deployed individual during the times when they 
may be employed or just need a break.
    Financial hardships was an issue that was mentioned. We 
recognize this is a greater challenge during deployment, 
oftentimes. Our Navy-Marine Corps Relief Society is an 
essential partner with us, and they provide grants to parents 
of the wounded, for instance, on invitational travel orders. 
They provide support for spouses and families who have lost 
wages. In Hawaii, for instance, the Fleet Family Support at 
Pearl Harbor, in order to address financial hardships, has a 
Million Dollar Sailor program that they have a special 2-day 
program to provide education and consumer awareness issues. 
Predatory lending is one of the issues they specifically 
address. The Navy leads in enrollment of Active Duty sailors in 
the Thrift Savings Plan.
    Finally, I'd just like to wrap up my comments by saying 
that, when we discuss families, I like to emphasize that 
families are not simply the spouses and dependent children. As 
I've been able to visit, especially, those who are combat 
wounded at Bethesda and other medical treatment facilities, 
I've been able to see the parents. A lot of our marines are 
single, and the family is their nondependent parent. Sometimes, 
in our community of care for the family or the wounded 
individual, that may even extend to siblings or to close 
friends. So, I think we have to look at what constitutes the 
notion of a family.
    I thank you very much for your leadership and your caring 
and our joint commitment as we work to make sure family support 
services are quality, and delivered on time.
    Thank you.
    [The prepared statement of Dr. Davis follows:]

                 Prepared Statement by Dr. Lynda Davis

    Chairmen Nelson and Akaka, Senators Graham and Ensign, 
distinguished members of the Personnel and Readiness & Management 
Support Subcommittees, thank you for the opportunity to appear before 
you today.
    Support and services for our Navy and Marine Corps families is a 
fundamental function of the Department of the Navy (DON) and the 
cornerstone to ensuring quality of life and mission readiness of our 
sailors and marines. Family support is a DON Objective recently 
reinforced by the Secretary of the Navy, the Chief of Naval Operations 
and the Commandant of the Marine Corps in a 23 August 2006 tri-signed 
memo. Its realization is supported not only by the Services but through 
a network of partnerships with our Veterans Service Organizations, 
Veterans Benefits Organizations and Community Based Organizations. 
Successful family support programs require this ``web of inclusion.''
    The DON has outstanding family support programs to assist our 
families as they navigate through the military life cycle. Our programs 
address everyday life issues through services such as life skills 
education classes, spouse employment assistance, counseling services, 
information and referral, relocation and transition assistance, as well 
as the specialized assistance needed before and after deployment and 
when a sailor or marine is wounded. Key to the delivery of this myriad 
of family support services are the Navy and Marine Corps delivery 
centers. The Navy has 60 delivery sites serviced by a Fleet and Family 
Support Center (FFSC) or a satellite office. The Marine Corps Community 
Services (MCCS) provides Marine and Family Service assistance at all of 
their 18 installations. I'd like to highlight a few of the programs we 
offer our families.

                OMBUDSMAN/KEY VOLUNTEER NETWORK PROGRAMS

    The Navy's Ombudsman Support and the Marine Corps' Key Volunteer 
Network (KVN) and Lifestyle Insights, Networking, Knowledge and Skills 
(L.I.N.K.S.) Programs are important resources for our families, 
especially during deployments. The Navy currently has approximately 
2,200 trained Ombudsmen and the Marine Corps has approximately 3,000 
KVNs. Ombudsmen and key volunteers facilitate the flow of information 
between commands and family members. The Navy's recently revised 
Ombudsman Instruction and Manual expands training for our Ombudsmen to 
include providing assistance to families of sailors who have been 
deployed as Individual Augmentees (IAs) as well as information on how 
to recognize combat operational stress and resources available to 
families requesting assistance. To support the enhanced training needs 
of the Ombudsman Program, the Navy provides priority child care for 
spouses who attend required Ombudsman training.
    For Reserve families, the Marine Corps KVN and L.I.N.K.S., as well 
as the Navy Ombudsmen, provide training guides to address Reserve 
families' remote access requirements. These special military spouse/
family volunteer initiatives have attracted the support of many Navy 
and Marine Corps national service organizations (e.g., Navy-Marine 
Corps Relief Society) who are important service delivery partners.

                           NEW PARENT SUPPORT

    Our FFSCs and Marine and Family Service Centers have programs in 
place for new parent support and training. Parenting for a young couple 
can be daunting in conjunction with the rigors of military life, so the 
family centers provide educational programs to assist sailors, marines, 
and their spouses in adjusting to parenthood. About 1,500 parents are 
served per year through these programs.

                        CHILD AND YOUTH PROGRAMS

    Taking care of our young family members requires a broad spectrum 
of programs and dedicated, professional staff. The DON offers child 
development programs, school-age care and youth programs. To meet the 
unique needs of our children and youth coping with deployed parents, we 
have partnered with community based organizations and programs such as 
``Military Child Care in Your Neighborhood'' for children ages zero to 
5 years and the ``Mission Youth Outreach Program'' for children ages 6 
through 12. For parents who work extended hours, shift work, or serve 
as watch standers, Navy and Marine Corps have expanded child care 
facility hours of operation on base and provide extended child care 
opportunities through our family child care homes. Options include 
emergency drop-in child care at no or reduced cost, respite care for 
parents needing some time away from their children and our Navy 24/7 
Child Care Homes located in Norfolk and Hawaii. Both Navy and Marine 
Corps have also been able to provide spaces through temporary modular 
child care center facilities funded by your support of DOD's emergency 
intervention program. Navy and Marine Corps also have strong programs 
reaching out to our youth. We are affiliated and very active with the 
Boys and Girls Clubs of America. The Navy is providing teen employment 
opportunities during summer months with our on base programs such as 
our child development and youth centers, morale, welfare and recreation 
programs and the Navy's Fleet and Family Support Centers.

                  FAMILY MEMBER EMPLOYMENT ASSISTANCE

    Due to the mobile lifestyle and expeditionary roles of our Sailors 
and Marines, our spouses face unique employment challenges. We 
recognize that spouse employment is a key quality of life issue as well 
as a retention consideration. Our Navy and Marine Corps family centers 
provide an employment assistance program that includes workshops on the 
status of the current labor market, salary and wage trends in 
particular areas, career counseling, resume writing, job interview 
techniques and job searches.

                        PROFESSIONAL COUNSELING

    The Navy FFSCs and the Marine and Family Service Centers provide a 
range of counseling services for families to assist them in coping with 
deployment, everyday issues, and the special challenges of a mobile 
force. Our centers have licensed counselors who provide short-term, 
individual, couples, family and group counseling to address 
relationships, crisis intervention, stress management, substance abuse, 
occupational issues, as well as grief support after the loss of a loved 
one. We are experiencing an increase in counseling services to families 
during the post-deployment phase. In support of the increased 
deployment and longer deployment cycles, these counseling services are 
an invaluable supplement to the counseling services provided by our 
uniformed mental health personnel.

                           DEPLOYMENT SUPPORT

    Our centers play a key role in preparing our families for 
deployment. Pre-, mid- and post-deployment programs are offered to 
sailors, marines, and their families. The Navy sends ``return and 
reunion'' teams out to meet ships returning from deployment. The teams 
stay with the ship until it arrives at its home port. These teams 
provide sailors and marines a variety of programs to include: how to 
reintegrate into their families, the techniques of stress management, 
how to adjust to a new baby, and money management. The Navy FFSP is 
working with our Special Warfare and Expeditionary Forces (e.g., SEALs) 
to place support staff onsite to assist families in these high 
operational tempo (OPTEMPO) communities. The FFSCs are now providing 
services to civilian families who have a civilian deployed spouse in 
support of the global war on terrorism.

                         INDIVIDUAL AUGMENTEES

    Many sailors and marines are supporting the global war on terrorism 
when deployed or mobilized as IAs. The Navy has established an 
Expeditionary Combat Readiness Center within the Naval Expeditionary 
Combat Command to serve as a primary interface with IAs and their 
families. We continue to address key issues of predictability and 
stability for our Service families, especially those of the IAs. The 
Navy FFSP has developed IA handbooks for both the commands that are 
deploying sailors as well as for their families. These comprehensive 
handbooks provide information on how to successfully manage these 
deployments, resources for assistance, and guidance provided to 
families of all deployed servicemembers on recognizing the signs of 
Combat Stress and Post Traumatic Stress Disorder. Again, the Navy 
provides priority child care for families of IAs when they attend 
command-sponsored meetings.

                      CARE FOR FAMILIES OF WOUNDED

    Our family support programs are expanding in real time to meet the 
needs of our wounded sailors, marines, and their families. Caring for 
sailors and marines who have been injured, sometimes very severely, is 
requiring knowledge on medical care, administrative processes, and 
rehabilitative services that has never before been needed by our 
families and their loved ones. Additional programs and resources for 
our injured and their families include: the Navy Safe Harbor program 
and the Marine Corps Wounded Warrior Regiment (Marine 4 Life). In 
addition to these two cornerstones of service care and continuity 
throughout the treatment process, the Marine Liaisons based in our 
Military Treatment Centers provide personalized support for injured 
servicemembers and their families, helping them navigate the continuum 
of care from inpatient to outpatient status and from the DOD Military 
Treatment Facility to the VA facility. As an example of our ongoing 
partnerships with non-governmental agencies, the Navy-Marine Corps 
Relief Society is a key partner providing an important ``Visiting Nurse 
Program.'' The visiting nurses go to the homes of our wounded and 
provide education and arrange for respite care for family members.

                          FINANCIAL MANAGEMENT

    Because our Services are comprised of many young members who may 
not yet have sound financial management skills, financial readiness is 
an important part of military readiness. Ensuring families are 
financially stable prior to deployment enhances mission readiness for 
our sailors, marines, and their families. Our family support centers 
offer robust personal financial management programs that provide 
education, training and counseling emphasizing long-term financial 
responsibility. DOD and the Services have developed partnerships with 
Federal, corporate and private organizations to assist families in 
managing their finances. Training for financial responsibility begins 
at recruiting commands and extends throughout the servicemember's 
career. Navy-Marine Corps Relief Society, Navy Mutual Aid, and our 
Veteran's Service Organizations provide financial assistance to 
families who may experience financial difficulty.

                          ADDITIONAL RESOURCES

    Since family needs may arise at anytime of the day or night, DOD 
and the DON have numerous Web sites and hotlines to help fill the gap. 
An excellent resource is a Web site created by the Deployment Health 
Clinical Center which provides services and resources online as well as 
by phone to help close the gap for families who may not be able to 
access family support centers. Both the Navy and Marine Corps family 
centers have robust Web sites easily accessible by families. The links 
are: Navy--www.ffsp.navy.mil. Marine Corps--www.usmc-mccs.org/family.

                               CONCLUSION

    Department of the Navy family programs are a vital part of our 
overall personnel readiness and are key to recruiting and retention. 
When a sailor or marine knows that his/her family is being cared for he 
or she can concentrate on their mission. This is the primary objective, 
thus our sailors, marines, and their families will continue to have our 
commitment to the highest levels of the full range of quality support 
services. The DON will provide Navy and Marine Corps families the 
support programs to help them cope successfully with the challenges 
they may encounter during their spouses' military career.

    Senator Ben Nelson. Thank you, Dr. Davis.
    Mr. McLaurin?

 STATEMENT OF JOHN McLAURIN, DEPUTY ASSISTANT SECRETARY OF THE 
                    ARMY FOR HUMAN RESOURCES

    Mr. McLaurin. Chairman Nelson, Chairman Akaka, Senator 
Graham, and Senator Chambliss, good afternoon. I appreciate the 
opportunity to testify before you today to discuss family 
readiness.
    In an All-Volunteer Force, caring for Army families plays a 
vital role in sustaining the commitment of our soldiers. For 
deployed soldiers, it is essential they know that their 
families have strong support networks while they're away.
    Our leaders, from installation level to the Chief of Staff 
of the Army, recognize the importance to not only sustain our 
robust family programs, but also to augment them as necessary, 
to address emerging needs. We continuously analyze feedback 
from a variety of soldier and family surveys, senior spouses, 
and commanders to ensure our soldiers' and families' needs are 
met.
    Recognized as a driving force behind hundreds of 
legislative, regulatory, and policy changes, as well as program 
and service improvements over the last 24 years, the Army 
Family Action Plan is one of our most significant and effective 
ways for soldiers and families to raise issues to senior 
leadership for resolution.
    At the November 2006 worldwide conference, we added another 
work group to this vital process, to identify the concerns and 
issues of our wounded warriors and their families.
    Recognizing the significant impact of deployment extensions 
on families, the Army is dedicated to providing the highest 
level of support to soldiers and family members upon the 
announcement of involuntary extensions. In light of the recent 
policy change to extend all Army tours to 15 months, General 
Casey has directed an immediate assessment of the impact of 
this extension on all Army programs and policies.
    When troop deployments were extended on very short notice 
last year, headquarters Army quickly established and deployed a 
multidisciplinary tiger team to Fort Wainwright, AK, and Fort 
Drum, NY, to support commanders' efforts to successfully deal 
with the resulting myriad of soldier and family issues.
    Incorporating lessons learned, the Tiger Team SmartBook is 
now used as a tool by commanders at every level to anticipate 
and determine the support necessary in the event of a 
deployment extension. The headquarter's Tiger Team stands ready 
to immediately assist commands faced with extended deployments.
    As articulated in the 2007 Army Posture Statement, the Army 
honors our commitment to care for our soldiers and their 
families, and to continually work to match the quality of life 
that our soldiers and families enjoy to the highest quality of 
service that they now provide to the Nation.
    I'd like to highlight a few of our key programs and 
services.
    Our Army Community Service (ACS) Organization has the 
primary responsibility to provide personal and family readiness 
support to commanders, soldiers, and families. Proactive in 
preparing and sustaining families, family readiness groups 
provide mutual support and assistance in a network of 
communications among the family members, chain of command, and 
community leaders.
    For geographically dispersed units, the Virtual Family 
Readiness Group Web System provides all the functionality of a 
traditional family readiness group in an ad hoc and online 
setting.
    We recognize our programs and services cannot be solely 
installation-centric. By consolidating Active and Reserve 
component program information and cross-training staff, we seek 
to reduce duplication and confusion.
    When fully implemented, the integrated, multicomponent 
Family Support Network will provide a comprehensive approach 
for community support and services to meet the diverse needs of 
Active and mobilized Guard and Reserve families.
    By utilizing the wealth of resources available in the 
civilian sector, we have established partnerships with 26 
corporate and military employers through the Army Spouse 
Employment Partnership. This initiative focuses on improving 
spouse employment opportunities, especially for our career 
spouses, who often must quit their jobs to accompany their 
soldier spouse to the next assignment. We believe increased 
spouse employment opportunity supports retention and 
contributes to family financial stability by helping spouses 
maintain careers.
    One partner, Dell Incorporated, established a Virtual Call 
Center pilot at Fort Hood, TX, back in 2005, allowing spouses 
to work from home. Dell has now implemented a from-home 
program, hiring 29 spouses to provide customer service from 
their homes. In 2006, our partners hired over 5,000 military 
spouses, bringing the total number employed by the partners to 
16,000.
    Family readiness, Senator Akaka, also entails providing 
soldiers with financial readiness training and counseling. 
Classes in personal financial management are provided during 
basic and advanced training, and again at a soldier's first 
duty station. During 2006, the ACS conducted over 14,000 
classes, with close to 320,000 in attendance. Soldiers who 
completed this course were significantly less likely to need 
financial counseling. Those who completed the counseling showed 
a significant decrease in indebtedness and increased savings.
    Taking care of families includes ensuring access to 
quality, affordable, available, and predictable child and youth 
programs. Soldiers can focus on the mission, knowing their 
children are thriving in our child and youth programs, and are 
adjusting as they move from school to school. As the need for 
child and youth programs continues to increase, the Army has 
taken a number of actions to assist in meeting this need.
    We have provided over 2 million hours of free and reduced-
patron-fee hourly and respite childcare to families of deployed 
soldiers. Installation child development centers and family 
childcare homes have extended operating hours, beginning as 
early as 4:30 in the morning and ending late in the earning, 
and even into the weekends. Active Duty geographically 
dispersed and Reserve component deployed families are able to 
access child care support and pay reduced childcare fees. 
Operation Military Child Care helps families locate childcare 
at reduced rates in their local community, when they're unable 
to access childcare on the installations. At present, the Army 
has over 2,200 children receiving the childcare subsidy.
    In closing, I thank you for this opportunity to appear 
before you today to discuss family readiness. On behalf of the 
acting Secretary of the Army, the Chief of Staff of the Army, 
myself, and, most especially, Army families all over the world, 
I thank you for your already strong support. On all of our 
behalfs, I ask only for your continued strong support.
    I look forward to answering your questions.
    [The prepared statement of Mr. McLaurin follows:]
               Prepared Statement by John P. McLaurin III

                      INTRODUCTION AND BACKGROUND

    Good afternoon Chairmen Nelson and Akaka, Senators Graham and 
Ensign, and distinguished members of the Subcommittees. I appreciate 
the opportunity to testify before you today to discuss the family 
readiness for Army families of Active Duty, Army National Guard, and 
Army Reserve personnel.
    In an All-Volunteer Force, caring for Army families plays a vital 
role in sustaining the commitment of our soldiers. As General Casey, 
Chief of Staff Army, stated when speaking to the Army on April 11, 
``You and your families carry a heavy burden in today's war, with a 
hard road ahead.'' For deployed soldiers, it is essential that they 
know that their families have strong support networks while they are 
away. Our leaders from installation level to the Chief of Staff Army 
recognize the importance to not only sustain our robust family 
programs, but also to augment them as necessary to address emerging 
needs. One of General Casey's initiatives is to ``Enhance quality 
support to soldiers and families to preserve the strength of an all 
volunteer force.'' We continuously analyze feedback from a variety of 
soldier and family surveys, senior spouses, and commanders to ensure 
our soldiers and their families are well taken care of and their needs 
are met.
    In light of the recent policy change to extend all Army tours to 15 
months, General Casey has mandated an immediate assessment of the 
impact of this extension on all Army programs and policies. We 
recognize that never has the importance of family readiness and 
supporting programs been greater. It is even more critical that Army 
Family Programs and Child and Youth Services continue to meet the needs 
of our Active Duty and Reserve component families. As articulated in 
the 2007 Army Posture Statement, the Army honors our commitment to care 
for our soldiers and their families and unceasingly works to match the 
quality of life that our soldiers and families enjoy to the quality of 
service they provide to the Nation.
    Continued engagement in the long war is transforming the way the 
Army delivers family readiness programs, particularly for those 
families not living on or near military installations. Our programs can 
no longer be solely installation centric.
    We have integrated numerous Army-wide well-being functions into a 
comprehensive framework to better enable us to focus resources, measure 
success, and address the needs of an Army at war that is simultaneously 
transforming. These programs help to reduce the stress of daily 
challenges as well as provide assets to assist families to cope 
successfully and sustain their resilience.

                            FAMILY READINESS

    Services delivered through Army Family Programs are critical to the 
well-being of soldiers and families, and directly influence the Army's 
ability to sustain mission readiness during times of peace, war and 
national crisis. We do not want to put soldiers in a position of having 
to choose between the profession they love and the well-being of the 
families they love. The successes of our past in responding to the 
diverse needs of soldiers and families, along with our roadmap for the 
future, create an environment where soldiers have confidence in the 
systems we have developed to provide that support. The following serves 
to highlight a few of our key programs and services.
    Our Army Community Service (ACS) organization has the primary 
responsibility to provide personal and family readiness support to 
commanders, soldiers, and families. Extremely proactive in preparing 
and sustaining families, the ACS staff teaches life skills and provides 
ongoing training for the Unit Family Readiness Team (unit commander, 
rear detachment commander, Family Readiness Group (FRG) leaders, and 
family members). FRGs provide mutual support and assistance, and a 
network of communications among the family members, chain of command 
and community resources. FRGs conduct activities that support the 
unit's mission, ease the strain and stress associated with separations 
due to military missions, and provide a communication network. We have 
published guidance on FRG operations and provided useful and practical 
techniques for handling deployments for commanders, soldiers, spouses, 
and children.
    The Operation Resources for Educating about Deployment and You (OP 
READY) training program assists commanders in meeting family readiness 
objectives. Training programs include: Family Readiness Group Leader, 
Rear Detachment Commander, Family Assistance Center Operations, Army 
Family Readiness, Trauma in the Unit, Soldier/Family Deployment 
Survival, Reunion and Homecoming and Children and Deployment. OP READY 
is available through ACS and Reserve Component Family Program staff. 
Each OP READY topic includes separate materials for units, families, 
and instructors.
    Family Readiness Centers are places where families of deployed 
soldiers can gather for meetings, receive the latest information, and 
socialize with other family members. Facilities may contain computer 
equipment with web and e-mail access to facilitate family member 
communication with the deployed soldier, as well as video 
teleconferencing equipment linking on a coordinated schedule with the 
deployed unit. These are controlled and manned by either the ACS or the 
major deployed unit's rear detachment, or a combination of both, and in 
some communities are co-located with ACS.
    Implemented Army-wide in February 2006, the Virtual Family 
Readiness Group (vFRG), currently supports about 650 Army units and 
continues to receive positive feedback from users. The vFRG web system 
provides all of the functionality of a traditional FRG in an ad-hoc and 
on-line setting to meet the needs of geographically dispersed units and 
families across all components of the Army. The unit's vFRG links the 
soldier, family, FRG leader, unit commander, rear detachment, and other 
family readiness personnel on their own controlled access Web portal to 
facilitate the exchange of information and provide a sense of 
community, using technology to automate manual processes and provide 
enhanced services and communications. The unit commander is responsible 
for maintaining the vFRG content and user access.
    The Army Family Team Building Program builds stronger, more self-
reliant families by providing education and readiness training that is 
particularly targeted to family members at every level, to include 
junior enlisted spouses who are new to the Army and its ways. Demand 
for classes increases during deployment and times of crisis when 
families need current information and strengthened coping skills.
    Our 95 garrison ACS directors reach out to the Army National Guard 
and Army Reserve units in their geographic areas of responsibility to 
assist Reserve Component family program personnel with providing 
information, training, and other deployment readiness assistance. Our 
Integrated Multi-Component Family Support Network (IMCFSN) provides a 
seamless customer-focused network of services to Army families, 
regardless of component. The IMCFSN delivery concept is accomplished by 
training Active Army, Army National Guard, and U.S. Army Reserve 
service providers on all authorized services and programs available to 
soldiers and families by each component. When fully implemented, the 
IMCFSN will provide a comprehensive multi-agency approach for community 
support and services to meet the diverse needs of Active and mobilized 
Guard and Reserve Army families. It will reduce duplication of effort 
and provide geographical support where families live. Networked systems 
will contribute to information superiority by providing families access 
to online knowledge sources and interconnecting people and systems 
independent of time, location, or Service component. The IMCFSN will 
ensure services are available throughout the Army for predictable full 
spectrum support.
    One of our concerns is that the Army's current deployment posture 
has taxed the resources of Rear Detachment (RD) and FRG leaders. 
Although spouse volunteer leaders are using a variety of strategies to 
share the workload, the nature of today's expeditionary Army makes 
running FRGs a daunting task. Family Readiness Support Assistants 
(FRSAs) provide administrative and logistical support to volunteer FRG 
leaders, (e.g., maintaining telephone trees, family data cards, 
scheduling speakers for FRG meetings, etc), which allows FRG leaders to 
focus on assisting families. Commanders are currently absorbing the 
cost of these assistants. The Army is working to institutionalize this 
support resource and establish battalion level FRSA positions Army-
wide.
    Another valuable online tool for families is MyArmyLifeToo.com. 
Launched in 2005, it provides single portal access to current 
information about Army life. Heavily used by families, the site has had 
over 28 million ``hits'' since its inception. In addition, over 55,000 
soldiers and families have signed up to receive the monthly e-
newsletter. Military families also have two additional Department of 
Defense (DOD) resources--Military Family Life Consultants (MFLC) and 
Military OneSource (MOS). The MFLCs provide much needed, on-demand 
personal support to soldiers and families by providing outreach through 
direct consultation, classes, groups, and individual sessions. 
Extremely flexible, the program allows the Army to deploy and redeploy 
these consultants where and when needed for up to 90 days. Topics 
include: emotional well being; relationships; marriages; parenting; 
deployment; change management; stress management; and grief and loss. 
When an installation identifies specific needs, they may request 
consultants with these specific skills. The consultants also provide 
assistance to ACS and Child and Youth Services staff to alleviate 
emotional burnout and family distress.
    Another DOD resource, Military OneSource (MOS), is a 24/7 toll free 
information and referral telephone line and Internet/Web based service 
that is available to soldiers, and their families. This service 
augments our installation family support services by providing 
telephonic and Internet access to families living off installations. 
MOS can also arrange for up to six face-to-face counseling sessions if 
requested. A very valuable resource, MOS staff disseminated information 
at 384 Army pre- and post-deployment briefings and events attended by 
more than 150,000 soldiers and family members last year.
    We also recognize the wealth of resources available in the civilian 
sector. As a result, we have aggressively cultivated partnerships to 
improve services to families. For example, the Army Spouse Employment 
Partnership (ASEP) initiative focuses on improving spouse employment 
opportunities for our Army spouses, especially our career spouses who 
often must quit their jobs to accompany their Active Duty soldier 
spouse to the next assignment. We believe increased spouse employment 
opportunities support soldier retention and contribute to family 
financial stability by helping spouses maintain careers. Since its 
inception in 2003, ASEP has linked 26 corporate and military employers 
with us to provide job and career opportunities to military spouses. 
Current Partners are: Adecco USA; Affiliated Computer Services, Inc.; 
Army and Air Force Exchange Service (AAFES); Army Career and Alumni 
Program (ACAP); Army Civilian Personnel Office; BellSouth; Boys & Girls 
Clubs of America; Computer Sciences Corporation; Concentra, Inc.; CVS/
pharmacy; Defense Commissary Agency (DeCA); Dell, Inc.; EURPAC Service 
Inc.; H&R Block; Home Depot; Humana Military Healthcare Services; 
Lockheed Martin; Manpower, Inc.; Sabre Holdings/Travelocity; Sears 
Holdings; Social Security Administration; Sprint; Starbucks Coffee Co; 
Stratmar Retail Services; Sun Trust Bank; and United Services 
Automobile Association. One ASEP partner, Dell, Inc., established a 
Virtual Call Center pilot at Fort Hood, TX, in 2005 allowing spouses to 
work from home. The company has now implemented a ``From Home 
Program'', hiring 29 spouses and providing them training and equipment 
to work in virtual customer service from their homes. MyArmyLifeToo.com 
and the military spouse job search Web site, www.msjs.org, provide 
portals for military spouses to develop their resumes and apply for 
jobs. In fiscal year 2006, ASEP partners hired over 5,000 military 
spouses, bringing the total of spouses employed by ASEP partners to 
16,000. The Council of Better Business Bureaus, a key community 
partner, works with military installations and local Better Business 
Bureaus to resolve consumer issues affecting military personnel and 
their families.
    Recognized as a driving force behind hundreds of legislative, 
regulatory and policy changes, and program and service improvements 
over its 24-year history, the Army Family Action Plan (AFAP) enables 
our soldiers and families to raise issues to senior leadership for 
resolution. AFAP is recognized and strongly supported by local commands 
as well as senior Army leadership. Installations and headquarters 
monitor issues and their progress through regular guidance, direction, 
and leadership approval. AFAP recognizes that as the operational tempo 
of the Army changes, we need to adapt our programs and policies to 
continue to meet the needs of our soldiers and families. Each year, the 
conference pursues resolution of critical quality-of-life issues. For 
example, at the November 2006 worldwide AFAP conference, we added a 
workgroup to this vital process to represent our wounded warriors. Our 
soldiers and families know AFAP is their ``voice'' in the Army's 
future.
    Another program the Army has initiated to obtain relevant and 
current feedback from families is the Army Family Readiness Advisory 
Council (AFRAC). Meeting twice yearly, the AFRAC is co-chaired by the 
spouses of the Chief of Staff Army and Vice Chief of Staff Army. 
Membership is comprised of the following: spouses of Army Command 
Deputy Commanders/Chief of Staff; Command Sergeants Major; Director, 
Army National Guard and Chief, Army Reserve; Army National Guard and 
Army Reserve Command Sergeants Major; rotating Army Service Subordinate 
and Direct Reporting Units reps (Commander, Command Sergeants Major 
Spouses); rotating Army 2-star Joint Command representatives (Commander 
and Command Sergeant Major Spouse); Sergeant Major of the Army (DA-
level) representative; and a selected junior spouse. The AFRAC members 
look at issues that impact quality of life from a strategic and global 
Army-wide perspective and advise senior leadership on the direction of 
Army Family Programs; assess and recommend solutions for evolving 
family issues; establish short and long range goals and objectives; 
serve as advocates for Family Program services, initiatives and 
volunteers; and assist in the implementation of family programs. The 
Council serves to enhance soldier readiness, retention and mission 
efficiency, increase program effectiveness, and connect families to the 
Army.
    The Survey of Army Families (SAF) is another tool the Army uses to 
gauge the attitudes and behaviors of civilian spouses of Active Duty 
soldiers. Recent in-depth analyses of 2004/2005 SAF V data, provided by 
the U.S. Army Research Institute for the Behavioral and Social Sciences 
and the Army's Family and Morale Welfare and Recreation Command 
(FMWRC), confirm the importance of MWR and family programs to soldier 
readiness and retention. Significant findings include:

        <bullet> Spouse knowledge and use of Army support assets and 
        being comfortable dealing with Army agencies are keys to 
        positive deployment adjustment.
        <bullet> Army recreation services are the second most commonly 
        used non-medical service during deployment, with 42 percent of 
        spouses using this installation program. Thirty-four percent 
        indicated they increased their use during the deployment, and 
        62 percent said they are satisfied with the services they 
        received.
        <bullet> Sixty-eight percent of spouses who used ACS personal 
        and financial assistance programs during deployment found these 
        services helpful, the highest rating of satisfaction for 
        deployment related services in the survey.
        <bullet> As a result of deployment, depression and school 
        problems affect about one in five children. Parents believe 
        their youngest children cope most poorly with the deployment 
        separation, especially preschoolers under age 6.
        <bullet> Perceptions about the Army as a good place for younger 
        children are linked to soldier retention: 86 percent of the 
        spouses who think the Army is good for younger children want 
        their soldier to stay in the Army, while only 51 percent of 
        spouses who think the Army is not good for their children want 
        their soldier to remain in the Army.

    The Army's Recreation program provides a variety of activities 
designed to support the families of deployed soldiers. Begun at 
Schofield Barracks when the 25th Infantry Division was notified that 
they would be deploying, Army libraries now offer ``Read to the Kids.'' 
This program allows the families to stay connected through a deployed 
parent recorded story time during their months of separation. Soldiers 
deployed in Iraq and Afghanistan and their families are also able to 
share ``video messages'' during the deployments. Automotive centers 
provide auto storage areas where spouses can store vehicles with 
problems until their spouse returns. Some installations also provide 
auto repair and towing services for family members of deployed soldiers 
to insure they have safe, reliable service. Sports and fitness offers 
targeted classes for family members, scheduled at times and locations 
which best meet their needs.
    To support our Wounded Warriors, the Army Wounded Warrior (AW2) 
program employs specially trained personnel in the role of Soldier 
Family Management Specialists (SFMS). As the soldier's primary 
advocate, the SFMS assists in meeting the soldier and family's needs 
throughout the treatment, rehabilitation, and transition processes. 
Support offered includes assistance with financial issues, pay 
problems, administrative support requirements, and explanation of the 
physical disability evaluation process. When the soldier transitions 
from the Army into the community, the SFMS serves as the soldier's 
Veterans Affairs (VA) advocate. They also provide a link for the 
soldier and family to various Federal, State, and local aid programs, 
benefits, and support organizations. After the soldier and their family 
have completed transition, the SFMS continue to reach out to the 
soldier and family to ensure continued advocacy and support.
    The Department of the Army is dedicated to providing the highest 
level of support to soldiers, family members, and installation 
infrastructures upon the announcement of involuntary extensions. Army 
deployed a multi-disciplinary Tiger Team from Headquarters Army to 
172nd Stryker Brigade at Fort Wainwright, AK, and 10th Mountain 
Division at Fort Drum, NY, to support these commander's efforts to 
successfully deal with the myriad of family issues resulting from the 
unit deployment extensions. Incorporating lessons learned, we have 
developed a Tiger Team Smart Book as a tool for commands at every level 
to anticipate and determine the support necessary in the event of a 
deployment extension. The primary objective of the Tiger Team Smart 
Book is to synchronize, standardize, and streamline procedures to 
effectively and efficiently support soldiers and families through this 
difficult time. The Tiger Team will continue to provide assistance as 
needed to the additional units facing extended deployments.
    Although families are resilient, they are not on their own. They 
are part of the Army family and we take care of them by providing 
support and meaningful opportunities for social bonding. There must be 
sufficient infrastructure, independent of volunteer support, properly 
resourced to deliver consistent quality services in a seamless manner.
    The Army will continue to offer quality programs and services to 
families, which will positively affect retention. Family well-being and 
quality-of-life are critical to the readiness of our soldiers and have 
a profound effect on decisions regarding whether the soldiers will 
remain in the Army or leave it when their enlistments or obligations 
are over. Adaptive and resilient, the Army family will continue to 
thrive as the expeditionary Army sustains an operational tempo that 
continues to be challenging.

                  CHILD AND YOUTH SERVICES INITIATIVES

    Quality, available, affordable, and predictable child and youth 
programs, delivered in an integrated system of facility based, home-
based and off-post programs, allow soldiers to focus on their missions, 
knowing their children are thriving in our child and youth programs and 
are adjusting as they move from school to school. As a quantifiable 
force multiplier, these programs are crucial in reducing the conflict 
between soldiers' parental responsibilities and unit mission 
requirements. The 2005 Survey of Army Families indicated that the 
``predictable and consistent services provided by Army Child and Youth 
Programs reduce the stress children and youth experience when a parent 
is deployed''. Further, parent responses in the Survey indicate the 
``Army provides a supportive environment and services designed to 
promote positive adjustments and strengthen child well-being during the 
period of deployment separation''.
    There are many military-unique factors that make child care and 
youth supervision options a necessity to support our soldiers. For 
instance, military families are often younger families with children 
and are living away from their own extended families and neighborhoods. 
Military families need care for infants and toddlers which is the very 
age group that care is least available off post. Military duties 
require child care and youth supervision options 10-14 hours per day 
including early morning, evenings, and weekends as well as round-the-
clock care--sometimes for an extended period of time. The lack of care 
options at remote sites and overseas creates challenges between mission 
requirements and parental responsibilities. Parents who are either 
single and dual military and those families whose spouses are deployed 
making them temporarily single parents have distinctive needs. One 
additional military unique factor includes the mobile military 
lifestyle with its frequent relocations resulting in challenging school 
transitions--especially for teens.
    Child and youth programs play a vital role in supporting families 
affected by the global war on terror. Families tell us that the 
extraordinary efforts our child and youth staff and family child care 
providers make a difference in their ability to cope with the stress of 
family separation. Telling, too, is the fact that many of the staff and 
providers are also dealing with the deployment of their own spouses.
    As the need for child and youth programs for both deployment 
support and day-to-day workforce child care continue to increase and 
change, the Army has taken a number of actions not only to meet this 
need but also to meet extended deployment needs and close installations 
in Europe.
    The Army has provided over 2 million hours of free and reduced 
patron fee hourly and respite child care to families of deployed 
soldiers since the beginning of Operations Enduring Freedom and Iraqi 
Freedom. Installation child development centers and family child care 
homes have extended operating hours. Often beginning as early as 4:30 
a.m. and going until late into the evening to support shift workers, 
child and youth employees and family child care providers support 
families of deployed soldiers. The staff often works at night and on 
weekends to provide care during family readiness group meetings and 
special events held by the installation to support families of deployed 
servicemembers.
    Family child care providers frequently provide additional evening 
hours of care taking the children to ball practice, choir, helping with 
homework, and volunteering to coach youth sports teams whose coaches 
are deployed. In short, child and youth employees and family child care 
providers are making every effort to provide a predictable and 
consistent level of program availability to enhance the lives of 
children who desperately need this support. The respite care provided 
gives parents time to attend to personal needs or take breaks from the 
stresses of parenting. Partnerships with organizations like the Boys 
and Girls Clubs of America and 4-H enhance School Age Services 
programs, and Teen and Youth Centers and offer value-based programs to 
help youth deal with the stress associated with parental deployments.
    Army also responded to the child and youth requirements resulting 
from the deployment extensions of the 172nd Stryker Brigade at Fort 
Wainwright, AK, and 10th Mountain Division at Fort Drum, NY. At each 
location, child and youth services programs and hours of operation were 
expanded to meet the unique needs of these families. In Alaska, Child 
and Youth Services staff from other Army installations volunteered to 
be temporarily assigned to Fort Wainwright to ease the burden and 
stress of the existing child and youth staff, many of whom had spouses 
who were extended. The lessons learned are applicable to the recently 
announced 15 month deployment requirements.
    To support deployment requirements, Active Duty geographically 
dispersed and Reserve component deployed families are able to access 
child care support and pay reduced child care fees when soldier parents 
deploy. Operation: Military Child Care, a DOD partnership initiative 
with a national nonprofit organization, helps families locate child 
care at reduced rates in their local community when they are unable to 
access child care on military installations. Since the inception of 
Operation: Military Child Care in February 2005, over 5,000 DOD 
children have participated. Army currently has over 2,200 children 
receiving the child care subsidy.
    In conjunction with the National 4-H Office, the Army's Operation 
Military Kids (OMK) initiative is a collaborative effort in 34 States 
to support the children and youth of our Reserve component soldiers. 
This vital Army partnership with the Department of Agriculture is a 
success story that engages main stream America in directly supporting 
our military youth. Most recently, the OMK team in Minnesota responded 
to the child and youth needs of families affected by the extension of 
its National Guard soldiers. Mobile Technology labs are used to 
communicate with deployed parents, provide professional development for 
school personnel, and support other OMK activities to help ease the 
stress on families. In fiscal year 2006, more than 29,000 youth 
participated in OMK events and services conducted in their local 
communities.
    While providing extensive deployment support to Active and Reserve 
component families, Army transformation and the expeditionary force is 
altering the way the Army has traditionally delivered child care 
services. Increasingly, we find the on-post, Army-operated child care 
programs insufficient to meet the growing demand for services. To 
increase child care availability, several community initiatives have 
been developed to meet the child care needs of our families.
    Military Child Care in Your Neighborhood assists geographically 
dispersed Active Duty families locate child care spaces in their 
community. These child care spaces are targeted to meet the child care 
needs of recruiters, Reserve Officer Training Corps instructors, MEPCOM 
personnel and soldiers on independent duty assignments living in 
communities that are not within reasonable commuting distances to 
military installations.
    Army Child Care in Your Neighborhood supports families living in 
the immediate catchment areas surrounding some of our installations 
where there are long waiting lists for care on the installation. Army 
has programs underway at the most heavily impacted transformation 
installations: Fort Riley, KS; Fort Carson, CO; Fort Drum, NY; Fort 
Hood, TX; Fort Campbell, KY; and Fort Bliss, TX.
    Under these programs, services are outsourced through a national 
nonprofit organization that assists families locate child care when 
they are unable to access child care on military installations. 
Families pay reduced fees based on total family income for child care 
services delivered through state licensed/regulated and nationally 
accredited or credentialed community child care programs.
    As part of the 2006 DOD emergency intervention strategy, nine 
highly impacted Army transformation locations procured 18 Child Care 
Interim Facilities to serve as a viable solution to meet the child care 
needs until permanent facilities can be constructed (a total of 1,800 
additional spaces). The facilities are located at Fort Bliss, TX; Fort 
Campbell, KY; Fort Carson, CO; Fort Drum, NY; Fort Hood, TX; Fort 
Lewis, WA; Fort Riley, KS; Fort Stewart and Hunter Army Airfield, GA. 
Permanent construction projects are programmed in the Future Years 
Defense Plan to replace these interim facilities by 2013. Using the 
authority granted by section 2810 of the National Defense Authorization 
Act for Fiscal Year 2006, Army is adding 10 permanent modular child 
care facilities at Fort Bragg, NC; Fort Lee, VA; Fort Lewis, WA; Fort 
Polk, LA; Fort Sill, OK; Tobyhanna Army Depot, PA; Anniston Army Depot 
and Redstone Arsenal, AL; Detroit Arsenal, MI; and Picatinny Arsenal; 
NJ.
    Another factor in retention of soldiers and families is the 
availability of quality schools in the civilian community. Army is 
working with the DOD and Department of Education to ensure that its 
families are prepared for successful school transitions from one 
location to another in support of the mobile and transforming Army. 
Developed in 2005 to address Base Realignment and Closure and Army 
transformation needs, the Army School Transition Plan includes 
strategies for successful transition of more than 55,000 Army-connected 
students from schools in continental United States and overseas 
locations to be able to adapt to the mobile and changing military 
lifestyle. Better transitions mean a smoother move and settling in for 
the family, which in turn supports their stability and security. The 
soldier, therefore, can concentrate upon the unit's mission.
    The plan focuses on coordination with national, State, and local 
education agencies to integrate military-connected students into local 
school systems. The Army, the DOD and Department of Education are 
working in partnership with affected local education agencies to 
identify best practices on how to accommodate the influx of 
transitioning students.
    During the past few years, many school systems have demonstrated 
their commitment to respond to the needs of our Army children. 
Superintendents, principals, and counselors welcome information about 
how to support our children, including military support services 
available for their use. Teachers and counselors are extremely positive 
and demonstrate a genuine interest in the well-being of our Army 
children.
    Army Child and Youth Programs are vital to the readiness, retention 
and well-being of soldiers and their families. Army must continue on a 
path to meet the enduring child care and youth supervision needs of a 
transforming and growing Force and also meet the mobilization and 
contingency child and youth needs of an Army at war. To do this 
requires robust programs delivered by a system of Army operated 
programs on post and by Army sponsored programs provided off post. Only 
through this integrated approach can Army provide the child and youth 
services and programs our soldiers need and deserve.

                               CONCLUSION

    Army family readiness and child and youth programs are absolutely 
essential to the well being of our soldiers and their families and 
ultimately the sustainment of the force. Army leadership is committed 
to providing a comprehensive framework of predictable and available 
programs and services on and off the installation that prepare and 
support soldiers and families to successfully meet the challenges of 
current and future deployments.
    The Nation has received an excellent return on its investment in 
our families. On behalf of Army families all over the world, I ask for 
your continued strong support of our family, child and youth programs.
    I thank you for the opportunity to appear before you today, and I 
look forward to answering your questions. Army Strong!

    Senator Ben Nelson. Thank you, Mr. McLaurin.
    General Brady?

  STATEMENT OF LT. GEN. ROGER A. BRADY, USAF, DEPUTY CHIEF OF 
 STAFF FOR MANPOWER AND PERSONNEL, HEADQUARTERS, UNITED STATES 
                           AIR FORCE

    General Brady. Chairman Akaka, Chairman Nelson, 
distinguished committee members, I appreciate the opportunity 
to appear before you today to talk about Air Force family 
readiness programs.
    Let me begin by thanking you for the tremendous support you 
have consistently provided for our airmen and their families. 
The sacrifices our airmen, their spouses, and children make 
throughout a typical career are enormous. As our operations 
tempo increases and deployments lengthen, our Air Force 
families are presented with many unique challenges not often 
experienced by their civilian counterparts.
    We have over 30,000 total-force airmen deployed in support 
of the global war on terror. In many respects, the families of 
these deployed airmen are at war, also. To meet their needs, we 
support our Air Force community with programs and services for 
both married and single total-force airmen, whether at home or 
deployed. From childcare and youth programs to reintegration 
programs for returning deployers and their families, your Air 
Force remains committed to ensuring our airmen and their 
families have the right tools to cope with the many challenges 
they face.
    I would agree wholeheartedly with Dr. Davis that support to 
families is important before, during, and after deployments. In 
fact, it's my belief that the programs that we provide after 
deployment are sometimes the most important in dealing with the 
stresses that reunited families have.
    I am extremely proud of the hard work and dedication put 
forth by our support personnel to make our mission, and, 
therefore, the Air Force mission, happen every day all over the 
world. We recognize this would not be possible without the 
tremendous support from these subcommittees, and we thank you.
    You have my written statement, and I welcome your 
questions.
    [The prepared statement of General Brady follows:]

          Prepared Statement by Lt. Gen. Roger A. Brady, USAF

    Thank you, Chairman Akaka and Chairman Nelson and distinguished 
committee members for the opportunity to appear before you today to 
discuss Air Force Family Readiness Programs. The statement ``We recruit 
the member, but we retain the family'' is not a cliche but has been a 
reality in the Air Force for many years. The quality of life we provide 
for our airmen and their families is a distinct determining factor in 
how long they remain in our service.
    The sacrifices our airmen, their spouses, and children make 
throughout a typical career are enormous. As our operations tempo 
increases and deployments lengthen, our Air Force families are 
presented with many unique challenges not experienced by their civilian 
counterparts. We have over 30,000 Total Force airmen deployed in 
support of the global war on terror, and in many respects, the families 
of these deployees are at war too. To meet their needs, our Air Force 
community support programs and services are there for both married and 
single Total Force airmen, whether at home or deployed.
    In particular, the Air Force developed the Heritage to Horizon 
initiative to strengthen all predeployment, deployment, and post 
deployment airmen and family wellness programs. Specific areas of 
improvement include a standardized predeployment checklist and 
education, mandatory, comprehensive redeployment services, post-
deployment health assessment and reassessment, non-clinical counseling, 
and reunion challenges that the airman and family face. Many of these 
programs are outlined in more detail below. Together they demonstrate 
the Air Force's strong commitment to ensuring our airmen and their 
families have the right tools to cope with the challenges that may 
arise from deployments.

                               CHILD CARE

    Readily available, high quality and affordable child care and youth 
programs are a workforce issue with direct impact on mission readiness. 
Airmen must balance the competing demands of parenting and military 
service. This is particularly challenging in today's environment of 
higher operations tempo, increased mobilization, and longer periods of 
time away from home. We are committed to serving these airmen and their 
families by reaching out and assisting all members of the total force 
through robust child and youth programs wherever the member resides.
    Our Air Force Home Community Care program reduces out-of-pocket 
expenses for Air Reserve component members by providing free in-home 
quality child care during their scheduled drill weekends. This program 
provides the same quality child care available to airmen assigned to or 
living on a military installation. This past year, the Home Community 
Care program provided more than 10,000 child care hours, enabling our 
Air Reserve and Air Guard's mission readiness. As one Air Guard member 
concluded, ``This is an invaluable asset to a dual military couple! 
Drills have always been a headache for child care and it is great to 
have someone to count on for these times! Thank you, Thank you, Thank 
you!'' Another Air Guard member shared, ``The Air Force's Home 
Community Care program is greatly appreciated. If not for this program, 
I would have to consider leaving the Air National Guard.''
    Air Force Active Duty families are also eligible for the Military 
Child Care in Your Neighborhood program designed to meet the child care 
needs of servicemembers living in areas where on-base military child 
care is not available. This program supports military families with 
locating and paying the cost of high-quality child care outside 
military installations. It also provides eligible members with a 
subsidy for 60 days while a nonmilitary spouse is looking for work.
    Similarly, the Air Force Expanded Child Care programs provides 
18,000 hours each month of child care during nontraditional work hours 
at no cost to the military member. These programs enable airmen to 
obtain high quality child care even when the mission requires duty 
hours at night or on weekends. In addition, the Returning Home Care 
program provides 16 hours of free child care per child to Active Duty, 
Air National Guard, and Air Force Reserve members returning to their 
home stations after deployment in support of contingency operations. 
The Air Force Family Child Care Subsidy program saves families an 
average of $143 per child per month by subsidizing the care received in 
an Air Force home when a slot is unavailable at the child development 
center. This program is of particular help to those airmen with 
children under the age of 3 or children with special needs, and to 
those airmen who work shifts outside of a normal duty day.
    A recent national study highlighted the Department of Defense (DOD) 
child care program as leading the Nation in quality standards and 
effective oversight. We are proud of this honor and believe that our 
child care is extremely important to our single and dual military 
parents, enabling them to focus on the mission. Unfortunately, we still 
have approximately 5,000 children on our waiting lists. To reduce this 
shortfall for our airmen, we are adding 2,176 child care spaces using 
emergency intervention funding from the Office of the Secretary of 
Defense. Child and youth programs are vital to our readiness and we ask 
for your continued support.

                      YOUTH PROGRAMS AND SERVICES

    Our youth programs focus on children elementary age through teens. 
They are a key component of our strategy to support the quality of life 
of airmen and their families. Our two ongoing partnerships with Boys & 
Girls Clubs of America and the U.S. Department of Agriculture's 4-H 
program provide additional means to reach families living both in 
communities and on active installations. The Mission: Youth Outreach 
program provides a 1-year free membership in a local Boys & Girls Club. 
Through this important program, Active Duty, Guard, and Reserve 
families who do not live near a military installation still have a safe 
and positive place for their youth to spend their out-of-school time. 
Our partnership with 4-H fosters the development of 4-H clubs on Air 
Force bases, and specially appointed State Military Liaisons reach Air 
Guard and Reserve families with these quality youth programs.
    We offer a variety of summer camp opportunities including 
residential camps, specialty camps, and other base specific camp 
programs. For the Guard and Reserve youth, our base youth programs have 
partnered with the National Military Family Association to provide 
residential youth camps during the summer. Over 5,000 Air Force youth 
participated in camps last year designed to help them achieve their 
potential, develop their self-esteem and build their resistance to 
negative pressures.

                           OUTREACH PROGRAMS

    Taking care of our Air Force family members back home and helping 
to keep them in contact with the deployed member is extremely important 
to the morale and well being of our airmen. The Air Force provides 
numerous programs to assist airmen and their families cope with the 
stresses of deployment. Our support for spouses and families during 
deployment includes free e-mail access, phone and video calls, support 
groups within units or at central locations, and newsletters. These 
important programs help to keep families connected with their deployed 
spouse and up-to-date on programs offered by the installation. In 
addition, we provide workshops and seminars on topics such as financial 
survival during deployment, career planning and development for 
spouses, ``suddenly single'' parenting skills, and how to keep long-
distance relationships healthy. Airman & Family Readiness Centers 
(A&FRCs) work with Family Member Programs and other support units on 
installations to sponsor special activities for children such as Junior 
Personal Deployment Functions which help young family members adapt 
better to their parents deploying by understanding what their parent 
experiences in preparation for deployment.
    Our A&FRCs also sponsor Heart Link Spouse Orientations designed to 
``blue'' spouses who are new to a military life style. This day-long, 
fun-filled program helps spouses understand the Air Force mission and 
how they and their military spouse support that mission. Through games 
and interactive events, they learn about all the benefits and services 
provided to them by the Air Force. Our installation commanders open the 
program by giving a mission briefing and then close the day with the 
presentation of a Heart Link spouse coin and the singing of the Air 
Force song! The success of this program has been tremendous as measured 
by pre- and post-assessments, as well as a 90-day follow-on survey to 
ask if the program impacted their opinions about the Air Force. One 
spouse of a pilot said, ``After learning about how the Air Force took 
care of me and my family, I now support my husband's continuation with 
an Air Force career.''
    Our Stay Connected deployment kits provide children and parents 
with a way to maintain a solid connection while they are separated 
during deployments. Since April 2006, over 13,000 of these kits have 
been provided to airmen and their families. In the words of one Reserve 
spouse, ``Thanks again from all of us who are trying to make their 
deployment over there easier. I know my husband enjoyed the message I 
made him on the recorder pen, and I play the one from him almost 
everyday.''
    Providing free calling cards is another way we are facilitating 
better communication between deployed airmen and their loved ones. The 
Air Force Aid Society distributed almost 79,000 $20 calling cards to 
Air Force Active Duty, Guard, and Reserve personnel during fiscal year 
2006--a total value of $1.6 million. These cards were vital in helping 
families not only stay in better contact, but also saved them money on 
telephone bills. During the same period, the Veterans of Foreign Wars 
distributed approximately 19,000 additional calling cards to Air Force 
personnel at an estimated value of $135,000.
    The Give Parents A Break program offered through Child Development 
Programs provides senior leadership and others in the referral network 
a way to offer no-cost child care to help support military members 
needing relief from the demands of parenting and military life such as 
deployment-related stress. The Child Care for PCS Program helps relieve 
some of the stress felt by families (E-5s and below) in the process of 
a PCS move. Families receive 20 hours of child care before departing 
and after arriving at the new base. Supporting the need for family 
members to be contributing citizens, the Child Care for Volunteers 
program provides child care services for individuals engaged in 
supporting activities that benefit the Air Force community.
    As part of a DOD-wide deployment support initiative, Whiteman Air 
ForceB will test the Parents as Teachers (PAT) Heroes at Home program. 
PAT Heroes at Home is an early childhood parent education program aimed 
at improving parenting practices and increasing school readiness and 
success. This free program involves monthly personal visits with a 
certified parent educator. During these visits, the educator shares age 
specific information and activities that encourage development. Group 
parent meetings are held to discuss popular parenting topics along with 
weekly playgroups. At least once each year developmental and health 
screenings are conducted using standardized screening tools and vision 
and hearing checklists. Parent educators also link families to service 
providers, agencies and other local resources that offer services 
beyond the scope of PAT/Heroes at Home.
    At Eglin Air Force Base, FL, we are also testing another DOD-wide 
program: the Coming Together Around Military Families initiative. This 
program is designed to strengthen the resilience of young children and 
their families who are experiencing trauma, grief, and loss as a result 
of a servicemember's deployment. The program provides training for 
professionals working in child care, mental health, health care and 
A&FRCs. These professionals play an important role in supporting 
families with very young children who experience the emotional or 
physical loss of a parent due to deployment, illness, injury, or death. 
This program will also provide parent resources and training for base 
professionals as well as outreach efforts to Guard and Reserve 
communities. Activities include a coming together campaign that will 
include messages to parents on supporting young children through 
deployment, relocation and other transitions.

                   COMMUNITY PARTNERSHIPS FOR SUPPORT

    Within the DOD, our Exchange and Commissary partners also provide 
numerous services for families of those deployed. The commissaries 
actively participate in all pre-deployment briefs and at A&FRC 
briefings aimed at Guard and Reserve families. In addition, the new 
Defense Commissary Agency Internet initiative, the Virtual Commissary, 
is primarily designed to take the commissary to those Guard and Reserve 
families who do not live near a commissary and to those deployed to 
forward areas. This program when fully operational will allow 
authorized patrons to order from a selection of commissary items at 
commissary prices, plus a fee for shipping, handling, and delivery, to 
be delivered to their location.
    The Army and Air Force Exchange Service (AAFES) provides support 
directly to deployed personnel with approximately 450 associates 
currently deployed in support of Operation Enduring Freedom and 
Operation Iraqi Freedom. AAFES also offers programs that allow family 
members and other U.S. citizens to show their patriotic spirit. AAFES 
sells prepaid calling cards at www.aafes.com to anyone wishing to 
donate to ``Help Our Troops Call Home.'' Since the inception of the 
program in 2004, more than 192,000 cards have been purchased to help 
servicemembers stay in touch with family and friends. There is also a 
link on the Web site for purchasing gift certificates for deployed 
troops that can be redeemed in any military exchange in the world. 
Americans have generously contributed in excess of $1.7 million for 
these ``Gifts from the Homefront.'' AAFES also provides the Patriot 
Family Connection which allows the American public to send troops 
messages of support that are seen and heard in exchanges throughout the 
contingency theater and overseas.
    Working in partnership with the civilian community, Operation 
Military Child Care (OMCC) provides child care fee assistance for 
National Guard and Reserve who are activated or deployed and whose 
children are enrolled in non-DOD licensed child care programs. OMCC 
provides help in locating licensed child care options in the member's 
community and offers reduced child care fees through a subsidy. Members 
are eligible to participate during the period of deployment and for 60 
days after their return. OMCC also provides a subsidy for 60 days while 
a nonmilitary spouse is looking for work
    Also in partnership with the civilian community and DOD, Air Force 
programs provide families of severely injured military members with 
assistance to find and pay for safe, licensed child care services for a 
period of 6 months during their period of recuperation. The program is 
available nationwide wherever the injured member is receiving either 
in-patient or out-patient medical care.

                           SPOUSE EMPLOYMENT

    Military families often require two incomes to achieve their 
aspirations, similar to American families as a whole. Frequent moves 
can inhibit a military spouses' ability to start and sustain a career, 
even though approximately 80 percent of military spouses have some 
college. Our spouses often suffer long periods of unemployment and, 
therefore, loss of income.
    Another issue that affects the financial stability of military 
families is that spouses are often not eligible for unemployment 
compensation after PCS moves. Statutes or policies of many States view 
a spouse leaving a job due to a military move as a voluntary separation 
when, in fact, they have no choice in the matter. Granting eligibility 
to working spouses who relocate due to PCS provides a much needed 
financial bridge for military families both during mandatory moves and 
while spouses seek suitable employment at the new location. Of the 
States with Active Duty Air Force bases, 12 offer full unemployment 
compensation to military spouses who PCS, others evaluate on a case-by-
case basis, and 5 offer no unemployment compensation to PCSing spouses. 
DOD, through the quality-of-life liaisons, is working with senior 
military leadership to educate State legislators on the need to promote 
legislation that will support full unemployment benefits for PCSing 
military spouses.
    Differing licensing requirements can limit advancement or deter re-
entry into the workforce at a new location. DOD has identified 
locations where there are licensing barriers and is developing policy 
recommendations for licensing and credentialing requirements across 
States for high demand, or shortage of, careers and jobs. We need to 
encourage states to sponsor model programs to assist military spouses 
and develop policies that promote timely transfer of employment, 
including elimination of cross-State certification barriers, and 
adopting high quality alternative certifications when possible.
    To assist spouses in the employment process, the Air Force Spouse 
Employment Program provides consultation and resources to help spouses 
quickly reenter the job market at new locations. A&FRC staff provide 
information and referral at both the losing and gaining installations 
to prepare spouses for each new job search. Staff network with local 
employers and human resource professionals to insure the most up-to-
date job search information is available. For young spouses, the 
program assists in career planning for a mobile lifestyle and provides 
resource information and education on virtual career potentials.

                          FINANCIAL MANAGEMENT

    The A&FRC Personal Financial Management Program provides education 
and one-on-one counseling for all financial related issues from basic 
budgeting to consumer education to investing. Nationally certified 
financial consultants on staff at the A&FRCs provide mandatory 
financial education during basic training and at First Term Airman 
Centers. Information on payday lending and other interest-based loans 
are part of that training. Additional education opportunities are 
provided during transition and relocation seminars. A myriad of 
workshops for other audiences and the general public include investment 
planning and the Air Force Thrift Savings Plan.
    The Air Force Aid Society is the official charity of the Air Force. 
In addition to emergency financial assistance, the Air Force Aid 
Society provides education grants for spouses and family members. They 
also provide over $2 million of Community Enhancement Programs yearly. 
As well as the phone cards for deploying members, those programs 
include: Bundles for Babies (financial planning for parenthood), Car 
Care (preventive vehicle check-up and oil changes for deployee's 
spouses), Wellness and Respite Care, Youth Employment Skills, Spouse 
Employment Training, and numerous child care programs.

                               COUNSELING

    The A&FRC professionals offer services that provide information, 
foster competencies and coping skills, and offer consultation and 
assistance that help airmen and their families deal with the competing 
demands of the Expeditionary military mission and family 
responsibilities. Additional services offered enhance the well-being 
and readiness of airmen and family members and include personal and 
family readiness counseling, financial planning and management, 
emergency financial assistance, spouse career planning and development, 
and transition and relocation assistance.
    To help ensure they are prepared, all deployed airmen are required 
to attend pre-deployment counseling. Spouses are strongly encouraged to 
attend. These one-on-one or group sessions are focused on personal 
planning, combat stress education and prevention, dealing with 
separation, children's issues and community resource access. A&FRCs 
also provide one-on-one and small group consultation as requested for 
airmen, spouses, and families during the entire redeployment process. 
In addition, many installations, through combined efforts of A&FRCs, 
Chaplains, and Family Member Programs, offer day-long or weekend 
retreats and other events as part of redeployment for families and 
couples.

                         REINTEGRATION PROGRAMS

    Reintegration and redeployment support begins for airmen while in 
the area of responsibility when chaplains or mental health staff 
provide initial information and resources and airmen complete a post-
deployment health assessment. Families can begin reintegration planning 
by working within spouse support groups and with A&FR staff focusing on 
developing communication skills and realistic expectations for the 
reunion process and homecoming. At home station airmen complete formal 
redeployment processing and take advantage of programs and services to 
help them reconnect with family workplace, and community.
    The need for an airman and family readiness presence in the AOR has 
long been a subject of discussion. As a pilot program we have deployed 
two members, one civilian and one military, for a period of 120 days to 
Al Udeid AB, Qatar. Their focus is on deployment support issues, 
reintegration, connectivity with families back home, Air Force Aid 
Society issues and relationship building. They work in close concert 
with chaplains and life skills to provide reintegration services to 
assigned personnel, as well as to personnel returning from Iraq and 
processing through Al Udeid. Significant work will also be done in the 
area of personal financial management--both one-on-one counseling and 
classroom instructions--and in other areas such as Transition, 
Relocation, Employment Assistance counseling and skill building. The 
positive impact of this initiative cannot be overemphasized. Not only 
will we be able to assist our airmen and their families with common 
deployment issues, we will also provide a significant resource to 
deployed leadership and airmen by providing standard A&FRC support in a 
myriad of areas where assistance is needed even at a deployed location. 
Our presence will be a force multiplier and, ultimately lessen the 
workload on A&FRCs Air Force-wide and facilitate a smooth transition 
back to home station for our deployed airmen.

AIR FORCE SURVIVOR ASSISTANCE PROGRAM AND PALACE HELPING AIRMEN RECOVER 
                                TOGETHER

    The Air Force Survivor Assistance Program aims to provide the best 
possible individual service to airmen who are seriously wounded, 
injured, or ill and families who have lost a loved one. The heart of 
this program is the family liaison officer (FLO) who is assigned to 
each patient for the duration of their need. The FLO serves as a single 
point of contact between the family and the numerous helping agencies. 
Our FLOs assist the family in arranging transportation, child care, or 
even care for a family pet. They do whatever is needed for as long as 
needed to help reduce the stress on the airmen and families during this 
difficult time.
    When an airman is wounded, ill, or injured in the war zone the 
Survivor Assistance Program swings into action. Within hours, we begin 
tracking medical status and evacuation plans to regional medical 
facilities or back to the United States for treatment. At each stop 
along the way we ensure a FLO is there to meet the airman and assist 
with any needs he or she may have. This often includes arranging local 
transportation and accommodations for family members, working through 
required paperwork, as well as being a friendly face for the airman. 
When families travel to visit their seriously wounded or injured 
relative in a strange town, the FLO is there to provide needed 
assistance. The FLO is not expected to be the expert in each area, but 
is trained to find the right answers for the families he or she is 
working for. Our FLOs provide a critical resource to deal with the 
unfamiliar routine of the recovery process and prevent the airman from 
being lost in the bureaucracy.
    Our service reaches worldwide to ensure all of our wounded, injured 
and ill members are equally well cared for. For example, then Staff 
Sergeant Israel Del Toro was badly burned as the result of an IED 
attack in Afghanistan. He was in intensive care and in a coma at Brooke 
Army Medical Center in San Antonio, TX, and remained in that condition 
for 4 months. In the meantime, his wife and family needed to be 
relocated from Italy, where Sergeant Del Toro was stationed. His wife 
was not a U.S. citizen and her application for registration, which had 
been filed at the U.S. Embassy in Italy, could not be located. In 
keeping with the motto of ``whatever the family needs,'' the FLO worked 
with the State Department to locate immigration paperwork for the 
spouse, worked to process her application, made housing arrangements 
for the family, and provided temporary lodging for other relatives. The 
FLO also secured permanent housing for the family on Randolph Air Force 
Base, arranged the shipment of their household goods, organized a crew 
to assist placing their furniture in their new home, and picked up 
their car from the port. In addition, the FLO retrieved the family dog 
from the airport, enrolled the spouse in driver education and English 
classes, and arranged transportation for hospital visits, shopping 
trips and many other needs. Sergeant Del Toro's story illustrates how 
important the FLO can be to a family and is typical of the dedication 
and devotion our Air Force FLOs exhibit when they are taking care of 
one of their own.
    Unfortunately, the extent of some injuries does not allow our 
wounded heroes to remain on Active Duty status. We have taken steps to 
alleviate many concerns these brave warriors have regarding their 
future careers after they suffer debilitating injuries. The Air Force 
began the Palace Helping Airmen Recover Together (HART) program a few 
years ago to provide long-term case management assistance to severely 
wounded Air Force members who are not able to remain on active duty. 
Like the FLO, the Palace HART program assigns a Community Readiness 
Coordinator (CRC) when servicemember casualty notification is made. The 
CRC works closely with the FLO to ensure the combat related injured or 
ill servicemember and their family receives complete information and 
entitlements. Our CRCs provide these airmen and their families with 
individual transition, employment, relocation, financial, and other 
forms of assistance, and ensure Palace HART members and their families 
are referred to the correct benefit agencies for assistance. 
Additionally, the CRCs advocate for these members with government and 
civilian agencies to ensure they are making a successful transition to 
civilian life. We have made a commitment to follow-up on our medically 
separated or retired wounded members for a period of 5 years. This will 
help ensure they are receiving the assistance they deserve for the 
sacrifices they made for all Americans.
    We continue to work through the Services, the Department of 
Veterans Affairs (VA), and other agencies, both governmental and 
nonprofit, to ensure a seamless transition from Active Duty service and 
the military medical system to their communities and VA and local 
medical services. Some medically separated or retired members do not 
desire continued employment with the Air Force. However, these men and 
women in uniform have much to offer their communities. The Air Force 
will keep its commitment to these members and their families.
    I am extremely proud of the hard work and dedication our personnel 
put forth daily to not only prepare our airmen for deployment but also 
ensure we are supporting their families before, during and after. The 
stories and insights I've shared with you today demonstrate that our 
professionals never forget the importance of what we are charged with 
accomplishing. Through innovative systems and programs, the hard work 
of our dedicated personnel, and the support of the community, we 
continue to provide critical mission capability for our commanders and 
vital support for our members and their families. The entire Air Force 
support team makes our mission, and therefore the Air Force mission, 
happen every day all over the world. We recognize this would not be 
possible without tremendous support from the Readiness and Management 
Support and Personnel Subcommittees. We thank you and look forward to 
working with you as we press forward in helping to sustain America's 
Air Force.

    Senator Ben Nelson. Thank you, General Brady.
    Senator Akaka, I think I'd like to have you start with your 
questions first.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to ask some questions about cost-saving 
measures with the Army. As I mentioned in my opening statement, 
earlier this week the Army announced it was beginning a series 
of cost-saving measures to deal with the needed costs of plus-
up of forces in Iraq until additional supplemental funding is 
enacted. The Army took similar measures last year, when a 
supplemental was not enacted until mid-June.
    The Notice to Congress we received 2 days ago stated that 
the Army would ensure, ``uninterrupted support to the families 
of our deployed soldiers.'' This could be read in two ways. Mr. 
McLaurin, is the Army position that these belt-tightening 
measures will exempt only family support programs for deployed 
soldiers, or does the Army intend to exempt family support 
programs for all Army families from funding cuts and 
restrictions?
    Mr. McLaurin. Senator Akaka, it is my understanding that, 
in fact, we are exempting the family support programs. As I 
think everyone understands and appreciates, all of our force 
supports the global war on terrorism, and it's just a question 
of when, and not, particularly now, they're going to be 
deployed. It is almost impossible, in my view, to maintain an 
effective family support readiness program if you have to 
ratchet it up and down, depending on who is involved with it. 
Those programs need to be there for all our soldiers and their 
families all of the time.
    Senator Akaka. I'm concerned that the DOD, in particular 
the Army, is developing a habit of making major changes in 
force structure and basing without adequate planning. We have 
seen this in the so-called modular conversion of brigades and 
the relocation of forces from overseas. We are seeing it again 
in the Army and Marine Corps grow-the-force proposals before us 
now. At best, facilities such as schools and housing may be 
ready just in time, but the DOD now seems to view the use of 
temporary facilities as normal and even preferable to taking 
time to build permanent facilities and new housing before the 
troops arrive.
    Mr. McLaurin, what input does the family support, human 
resources, and community has the Army planned for such actions? 
Are the Army's plans based entirely on operational needs, or is 
any consideration given to the impact on families? Can you give 
us an example of how any of the basing and force structure 
plans I just mentioned was changed to take account of family 
considerations? Finally, did your office attempt to put family 
considerations on the table inside the Army?
    Mr. McLaurin. Sir, those family considerations are, and 
have been, on the table for quite some time. Both the previous, 
and now the current, Chief of Staff of the Army are very 
family-oriented, and they actually personally ensure that those 
items are taken into consideration.
    I cannot give you a specific example, as you request. 
However, I can assure you that, from the Installation 
Management Command CG to the G-4 of the Army and the G-1 of the 
Army, as well as the Family and Morale Welfare and Recreation 
Command representatives, all have their voices heard. When the 
considerations were given to what the requirements were for the 
new brigades, for example, there is a specific component in 
there for quality-of-life programs. So, they are, in fact, 
taken into consideration.
    Senator Akaka. My final question, Mr. Chairman.
    I understand that the Services do provide some family 
assistance to the National Guard and Reserves. However, what 
I've noticed is that this support tends to be in the form of 
brochures, pamphlets, or Web sites. What method, or methods, 
are being used by the DOD and Services to ensure that Active 
Duty personnel, National Guard, and Reserves know about this 
information. For instance, it is my understanding that some 
families are unaware that there are programs and organizations 
that may be of assistance to them as their servicemember is 
deployed, even though there are these informational documents 
and Web sites available.
    Mr. McLaurin. Sir, I can answer for the Army, and I'm sure 
my colleagues here can answer for the other Services. We make a 
very concerted effort to ensure that the Reserve components are 
included in our planning. The Integrated Multicomponent Family 
Support Network that is being put together now has 
representatives from both the Reserve and the Guard on it to 
ensure, in fact, that not only are they part of the planning 
process, but the goodness that they offer, because they have 
very good robust programs, themselves, out there, and they can 
actually reach out to the various States who have 
individualized programs and find the best practices out there. 
Hopefully we can incorporate them into the overall Army 
support. Because, after all, sir, we are one Army.
    Senator Akaka. Thank you for your responses.
    Mr. Chairman?
    Senator Ben Nelson. Thank you, Senator Akaka.
    Secretary Dominguez, an August 2006 DOD report identified 
several types of lending practices it considered predatory. One 
is the military installment loan. Now, DOD asked for 
legislative authority to regulate predatory lending practices 
that target military personnel and their families, and Congress 
gave DOD that authority. DOD has just published draft 
regulations implementing this authority. However, these draft 
regulations will still permit military installment loans. So, 
my question is fairly simple. Why do the DOD draft regulations 
allow military installment loans, a practice that DOD has 
described previously as predatory?
    Mr. Dominguez. Sir, we, in compliance with the legislation, 
consulted with the Federal agencies that regulate the financial 
industry, and, with them, drafted regulations which are in the 
Federal Register now for comment. So, we're in the process of 
receiving those comments and considering them.
    It's important to understand that in the regulations we 
drafted, it also put the issue of predatory lending and 
predatory practice on the agenda for oversight by the Federal 
agencies that have regulatory oversight, so this is now one of 
the things they must check, and will check, in the industries 
that they regulate. It allows for us to go back and tighten the 
regulations if we miss something or if behavior out there 
warrants it. We had to walk a pretty fine line to try and 
preclude people exploiting servicemembers, at the same time 
allow and enable the financial services industry to offer 
products that were of use to members of the Armed Forces and 
the wider consumer community. There are places where that's a 
fine line to walk, and we tried to strike that balance.
    The bottom line is, the regulations are still amendable to 
change, and we designed into the regulatory process our ability 
to go back and tighten a hole if the behavior and financial 
management of the financial services industry warrants it.
    Senator Ben Nelson. Well, I understand that, but doesn't it 
seem a bit inconsistent to identify installment loans as a 
predatory practice, or a practice to probably avoid for your 
own financial security, and yet, you're treating them as okay? 
I guess maybe I'm still confused. I know what your authority 
is, and I know what regulatory bodies try to work with it, as 
well--banking regulations, insurance regulations on insurance 
products. But what did the DOD find out about installment 
loans, that they didn't know when they thought they were bad?
    Mr. Dominguez. Right. Sir, I'll take that one for the 
record, and get back to you on that.
    [The information referred to follows:]

    Prior to engaging in drafting the regulation, the Department 
requested input from the public on the statute. Trade associations and 
financial institutions advised that the regulation needed to be clear 
concerning when the provisions of the statute applied and how to 
identify the covered borrower. During our consultation with the Federal 
Regulatory Agencies, they reiterated the need for ``clear lines'' 
around definitions of covered consumer credit and the impacted 
creditors, or the Department risk unintended consequences that could 
negatively impact favorable financial products for servicemembers and 
their families.
    The initial version of the regulation has focused on credit 
products that have, in general practice, terms that can be detrimental 
to military borrowers. There are installment loans with favorable terms 
and some with terms that can increase the interest rate well beyond the 
limits prescribed by 10 United States Code Sec. 987. Isolating these 
detrimental credit products without impeding the availability of 
favorable installment loans was of central concern in developing the 
first iteration of the regulation. No sufficiently succinct definition 
could be developed for ``military installment'' loans that did not also 
include other installment loan companies.
    Including installment loans as covered credit required all 
financial institutions to accomplish several additional actions that 
could cause them to limit their credit offerings to military consumers:

        <bullet> Identify the military borrower. The Department is 
        working on the first iteration of the process to identify 
        covered borrowers. Experience will tell us where we may have 
        problems associated with the proposed process.
        <bullet> Limits on refinancing. This would create several 
        unintended consequences for military borrowers seeking 
        consolidation loans and favorable terms through refinancing.
        <bullet> Limits on use of deposits, savings, allotments, and 
        electronic funds transfers. Military borrowers could lose 
        favorable loan conditions as a result of these restrictions.

    The Department's intent is to balance protections with access to 
favorable credit. The protections posed in the statute can assist 
servicemembers, if applied prudently. The first iteration of the 
regulation applies these protections to forms of credit that have 
proven to be accessed by servicemembers who need forms of financial 
assistance other than high cost short term loans to resolve their 
financial problems. These loans can be succinctly defined in order to 
preclude potential unintended consequences.
    The Department will continue to pursue protections for 
servicemembers and their families through surveillance of the 
marketplace, asking for feedback from counselors, and through surveys. 
This review will provide evidence of how best to apply the protections 
in the statute to problematic credit products.
    Additionally, the Department will continue to work with State and 
Federal regulatory agencies to ensure that other existing protections 
are applied to negative circumstances experienced by servicemembers and 
their families. Situations where installment companies exceed state 
usury caps can be brought to the applicable state agencies for review 
and action.
    Through a combination of the Department of Defense regulation and 
assistance from State and Federal regulators, the Department will 
continue to pursue appropriate protections for servicemembers and their 
families.

    Senator Ben Nelson. I don't want to burn up all of our 
time, but I appreciate it.
    Mr. Dominguez. All right.
    Senator Ben Nelson. I'm not trying to put you on the spot.
    Mr. Dominguez. No, that's quite all right, sir.
    Senator Ben Nelson. Okay.
    Mr. McLaurin, the Secretary of Defense recently announced 
this extension of service for Iraq and Afghanistan. Can you 
tell me how the families were notified of the decision? Were 
they told before the Secretary of Defense announced it in a 
press conference? Just let me know exactly how they were 
informed.
    Mr. McLaurin. Sir, it's my understanding that they----
    Senator Ben Nelson. I'm sure they'll tell me, when they get 
here, but I just wanted to----
    Mr. McLaurin. I have no doubt whatsoever, sir. [Laughter.]
    Senator Ben Nelson. Yes.
    Mr. McLaurin. To my knowledge, I don't believe that they 
were informed beforehand. I know that afterwards there was 
communication directly with the commanders in the field. I 
would presume, although I do not know and I would not want to 
misstate, that the commanders in the field were the ones that 
informed them. However, the news networks are very good, so it 
would not surprise me if they did not learn from the news 
sources before they actually learned from the unit commanders.
    Senator Ben Nelson. They are very good. Either that or 
we're very bad.
    Mr. McLaurin. Sir, there are two ways to look at that.
    Senator Ben Nelson. General Brady and Dr. Davis, as both 
the Air Force and Navy reduce the size of your Active and 
Reserve Forces, airmen and sailors will face unique stress as 
their military careers come to an end much earlier than many of 
them expected or hoped would happen. What programs do you have 
in the Air Force and Navy to address the needs that this early-
out has created?
    General Brady. Go ahead, ma'am.
    Dr. Davis. One of the things we're doing, Senator, is 
accelerating the participation of the members in the Transition 
Assistance Program (TAP) that we have now available for them, 
so they get career counseling, they get financial advice, they 
get housing, they get job placement support, resume, et cetera, 
et cetera, to help them. Also, for those who might be Navy 
personnel who are wounded, we have special relations with the 
Department of Labor and with employers, such as Northrop 
Grumman, to make sure that we are giving them every opportunity 
to develop skills, have the access to the employment and 
training that they need, and then to be able to be placed in a 
partnership with an industry like Northrop Grumman. Or, in 
Cisco--we've done it--we've just established a relationship, 
last week, with Cisco for that type of training.
    Senator Ben Nelson. Is there a follow-up to see how many of 
them are actually placed or find additional employment once 
they leave? Do we have any statistics as to----
    Dr. Davis. We don't----
    Senator Ben Nelson.--how successful----
    Dr. Davis. I do not have those statistics yet, sir. It may 
be too early, but I will make sure that you have that as we 
move along with this, as we have the drawdown and we deliver 
the services to see if they're effective and what the outcome 
is for the individual sailor.
    Senator Ben Nelson. I'd like to know how that works. There 
are placement programs and there are placement programs.
    Dr. Davis. Right.
    Senator Ben Nelson. So, we want to be able to evaluate it.
    Dr. Davis. Yes, sir.
    Senator Ben Nelson. General Brady, what about yours?
    General Brady. Much like Dr. Davis said, we have TAPs, as 
well, that provide all kinds of counseling, resume preparation, 
all of that sort of thing that you would expect in a transition 
program, which has been very effective.
    Regarding our wounded, we have also committed to any of our 
wounded that when it is finally determined that they cannot 
medically stay on Active Duty, if they want to stay with us and 
work, they can, and several of them have. We have several of 
our seriously wounded airmen now serving with us as civilians, 
some of them in very close to the same capacity that they were 
on Active Duty, security forces, et cetera. So, that's been a 
successful program that some of our young folks that have been 
wounded have taken us up on.
    As the personnel guy in the Air Force, I get calls from all 
kinds of retired generals who want to hire bright young people 
that are getting out. So, they're always trying to get me to 
put them in touch with those people. Obviously, there are 
Privacy Act issues there, but what we have done is, we have 
made sure that our young people who may be leaving, if they are 
willing to put their contact information on a Web site where 
industry can find them, we are doing that. That's working, as 
well. We--just like the Navy does, we have some very bright 
people who are leaving, and they're going to continue to serve 
in the civilian community, and there are employers out there 
who want them.
    Again, we do not, either, at this point--I think it is--as 
Dr. Davis suggested, we don't have statistics, really, on 
employment. But we'll provide them as we get them.
    Mr. Dominguez. Sir, if I might----
    Senator Ben Nelson. Secretary?
    Mr. Dominguez. One of the employers who wants these people 
is the DOD, and, in particular----
    Senator Ben Nelson. I know, they're going from blue to 
green.
    Mr. Dominguez. Yes, sir.
    Senator Ben Nelson. I know.
    Mr. Dominguez. Right. That's what I was going to mention, 
is that that blue-to-green option is available. The Congress 
provided financial incentives to do that. We have some fabulous 
people who want to continue to serve and want to make the Armed 
Forces a career, and have made the transition, and are making 
great contributions to the Army and the Marine Corps, and we're 
very grateful for their willingness to take that extra 
challenge.
    Senator Ben Nelson. Dr. Davis, do you know about, from the 
Marine Corps' point of view?
    Dr. Davis. Oh, yes, sir. I do not have the statistics on 
the blue-to-green effort, but I will provide those for you, 
sir.
    [The information referred to follows:]

    The total Blue-to-Green program statistics, as of May 8, 2007, are 
as follows:
    Enlisted: Army reported 811 enlistments (Air Force: 305; Marine 
Corps: 79; Navy: 410; Coast Guard: 17).
    Officers: Army reported 364 interservice transfers (Air Force: 229; 
Marine Corps: 5; Navy: 119; Coast Guard: 2; Health Professional 
Services: 1; Service Academy Cross Commission: 8).

    Dr. Davis. Another employer is the civilian side of the 
DOD, as well as the other Federal agencies, and we're working 
on a program with that. Of course, as veterans, or in a veteran 
capacity, they get special points for employability.
    Senator Ben Nelson. Sure.
    Dr. Davis. We're also watching, sir, the effect of the 
drawdown on our diversity missions within the Department.
    Senator Ben Nelson. Secretary Dominguez, can you get us the 
information from the Army, so we can have both the----
    Mr. Dominguez. On the blue-to-green, sir?
    Senator Ben Nelson. Blue-to-green.
    Mr. Dominguez. Oh, yes, sir. We'll be able to provide the 
total statistics. I think the last time I looked at it, it was 
somewhere around 300 people had transitioned. So, what--and 
it's not a huge number.
    Senator Ben Nelson. Okay.
    Mr. McLaurin. I can give you----
    Mr. Dominguez. Is it more than that now?
    Mr. McLaurin.--the figures for the Army now. It's around--
the last time I looked, about 320 captains and lieutenants. I 
personally sign off on each one of those, so I do keep track of 
that.
    Senator Ben Nelson. Okay.
    Mr. McLaurin. But there is a great number that have 
volunteered to come over to the Army, and we're proud to have 
them.
    Senator Ben Nelson. As the transition has occurred--it is 
not over yet--you would expect that there would be more as you 
get toward the end, that they might be willing to take it, too.
    Mr. McLaurin. Yes, sir. We welcome them.
    General Brady. For the Air Force, there is a whole range of 
things that people can do. Obviously, we would like for them to 
go to our Guard and Reserve. Some of them are going to other 
Government agencies. Other agencies in the Government who like 
people who show up on time and are drug-free and have a 
security clearance, are attractive to lots of Government 
agencies, and as well as the blue-to-green program, which 
several hundred of our people have taken. So, there are a range 
of options, including Civil Service, as was mentioned, that are 
available to our people.
    Senator Ben Nelson. Let's see, any further questions, 
Senator Akaka?
    Senator Akaka. No further questions.
    Senator Ben Nelson. Thank you. I appreciate it very much.
    Oh, excuse me, I didn't see Senator Chambliss.
    Senator Chambliss?
    Senator Chambliss. I was trying to be obscure over here, 
Mr. Chairman. [Laughter.]
    Senator Ben Nelson. Sure. You were.
    Senator Chambliss. I just have a couple of questions.
    Secretary Dominguez, the Army requires each soldier who 
redeploys from theater to undergo a postdeployment health 
reassessment 90 to 180 days after they return. These health 
assessments are not always done in person, but can be done over 
the phone and by contractors, versus a military person. This is 
not ideal, and allows for many conditions to be overlooked and 
go unreported which might surface, months or years later. 
Specifically related to some of the most common conditions, 
such as post-traumatic stress disorder (PTSD) and traumatic 
brain injury (TBI), it is hard, if not impossible, to diagnose 
those conditions over the phone. Do you believe DOD should 
require these assessments to be conducted in person by military 
personnel? How can we ensure that soldiers actually complete 
these health assessments? Should DOD require predeployment 
screening for PTSD and TBI, in an attempt to determine which 
personnel might be predisposed to these conditions?
    Mr. Dominguez. Sir, let me start with a little bit of the 
facts, as I know them. We do a predeployment screening. So, 
that predeployment health assessment is accomplished for 
everyone before they go over. That's a face-to-face, nose-to-
nose thing. Then they get a postdeployment assessment. So, 
that's--as they come back, very shortly after their return, 
there is that. What you're talking----
    Senator Chambliss. That's face-to-face.
    Mr. Dominguez. To my knowledge, sir, it is face-to-face. 
Now, I'll have to take this for the record and get back to you 
on this, because it was my understanding these programs were 
face-to-face, that there was a human being talking to another 
human being and evaluating them against several criteria that 
are contained on that health assessment form.
    [The information referred to follows:]

    The Post-Deployment Health Assessment (PDHA) and the Post-
Deployment Health Reassessment (PDHRA) must be completed by all 
servicemembers returning from deployment. Both require a trained health 
care provider to review the concerns identified on the questionnaire 
and discuss with the servicemember his or her responses, along with 
general physical health and mental health concerns. For the PDHA, the 
health care provider interview will be direct, face-to-face. For the 
PDHRA, 3 to 6 months later, the health care provider interview will be 
face-to-face, whenever possible, but it isn't always possible because 
of the multiple locations of the Reserve component servicemembers 
across the United States and territories. However, health care 
providers are required to contact each returning servicemember.
    Another program available to both Active and Reserve component 
servicemembers and their families is the Mental Health Self-Assessment 
Program. An innovative tool in the Defense Department's ``Continuum of 
Care Toolbox,'' it provides a guidepost to help direct users to the 
next step of care, but does not involve in-person contact with a health 
care provider. It offers anonymous, self-directed mental health and 
alcohol screening by web and phone, as well as through special events 
held at installations and Reserve units.

    Mr. Dominguez. The one you are particularly speaking of is 
the one that's again, it's a postdeployment reassessment, done 
up to 6 months later, and it was specifically in place in order 
to be able to pick up those items that might take longer to 
mature.
    Now, I think the more important issue is that the 
reassessments are done by someone who has the clinical skills 
to be able to pick it up, whether they're a military person, a 
Government civilian, or a contractor, as long as they are 
capable of understanding what's presenting themselves in this 
human being that they're engaged with.
    It does seem to me that the face-to-face piece of this is 
important, and I was under the impression that that is, in 
fact, how that was conducted.
    I do want to point out that we have deployed, recently, a 
self-assessment that's available to people over the Internet 
that's actually been used, because it's private and 
confidential, and it can help you understand yourself, what 
you're feeling, what's happening, and whether or not you need 
help. Then it guides you to where you can get that. That's 
turned out to be a tool that many of our people are using.
    Senator Chambliss. Yes. Well, if you will, check that, 
because my understanding that what you refer to is the 
reassessment.
    Mr. Dominguez. Right.
    Senator Chambliss. In a number of instances, it is being 
done by telephone versus face to face.
    Mr. Dominguez. Dr. Davis may know something more about 
that, sir.
    Dr. Davis. Sir, the screening tools, themselves, can be 
done online or by the individual, paper-to-pencil, but they are 
not a diagnostic tool, they are the first screen that the 
individual completes so we have a continuity of record of 
change in behavior. So, the individual is able to identify some 
symptoms for themselves. As soon as anyone identifies a ``yes'' 
that would indicate they have a problem sleeping, they have a 
problem with loss of memory, that individual is immediately 
referred to a licensed, certified clinician, who then has a 
face-to-face meeting with them to start the process of 
diagnosis and treatment referral, et cetera. So, we do not rely 
on that as the only method for----
    Senator Chambliss. All right. Well, my main point is, I 
want to make sure we have confidence in that system and that 
we're not letting something slip through the cracks there. If 
somebody's not--I don't know how you would respond at a--
somebody looking at it over the Internet. A response over the 
Internet might not pick it up. But I sure want to make sure 
that we have all the confidence in the world that's going to 
work and is working.
    Mr. Dominguez. You were right on target with that, Senator, 
and the chain of command is important here, including for Guard 
and Reserve members--right?--so that one of the concerns of 
commanders is making sure you're coming to muster after your 
time away so that we can get eyes on you and we can talk to 
you. So, there's been a lot of talk in the Department about 
making sure we have commanders and first sergeants and whatever 
reaching out and talking to people after they've been deployed. 
Particularly important in the Guard and Reserve, where you're 
not coming to work every day for us. So, we share your concern 
there, that that's working.
    I think we have reasonable confidence, but I'll get more 
information for you, sir.
    [The information referred to follows:]

    It is the Department of Defense's (DOD) policy that all 
servicemembers complete the Post-Deployment Health Reassessment (PDHRA) 
3 to 6 months after returning from deployment using a standard 
questionnaire. A trained health care provider will review and discuss 
with the servicemember his or her responses on the PDHRA form, along 
with general physical health and mental health concerns. The health 
care provider interview will be direct, face-to-face, whenever 
possible, but it is not always possible because of the multiple 
locations of the Reserve component servicemembers across the United 
States and territories. However, we offer a call center to ensure that 
we reach those servicemembers who are unable to complete a face-to-face 
interview.
    The DOD has implemented a Deployment Health Quality Assurance 
program, which soon will expand to a more thorough Force Health 
Protection Quality Assurance program. In this program, the Services 
monitor and evaluate their compliance with the policies, including the 
completion of the PDHRA forms and the health care provider interviews. 
In addition, the Force Health Protection and Readiness office monitors, 
reviews, and oversees the Services quality assessment programs, to 
include site visits. These efforts allow us to ensure that 
servicemembers complete the actions required by our policy. Rosters 
generated from individuals completing the Post Deployment Health 
Assessment (PDHA) are used to track compliance with completing a post 
deployment health assessment 3 to 6 months later.
    The Department does screen for conditions that would limit 
deployment. More importantly, we want to screen for Traumatic Brain 
Injury (TBI) during the interdeployment period, not at the last minute 
during the predeployment assessment, to allow for adequate evaluation 
and treatment. Therefore, we are adding a full suite of TBI screening 
questions to every servicemember's annual periodic health assessment. 
This allows us to identify issues prior to deployments, causing less 
operational impact. In addition, we are adding the same TBI screening 
questions at the time of accession, as well as to the PDHA and the 
PDHRA.
    The DOD issued a Deployment Limiting Mental Health Conditions 
Policy in November 2006 that requires screenings for mental health 
issues before deployment. These screenings require a medical records 
review and a brief predeployment interview that asks the servicemember 
if there are conditions or concerns they might want to disclose that 
are not already in their medical records.

    Senator Chambliss. Okay.
    Currently, DOD does not offer attractive enough incentives 
to hire the doctors and nurses they need to execute their 
mission, and it has an overly burdensome bureaucratic hiring 
and contracting process that prevents military bases from 
getting the military, civilian, and contract health providers 
they need, when they need them. My staff visited three Army 
hospitals in Georgia the week before Easter, and every hospital 
commander mentioned this as a major problem that limits their 
ability to treat soldiers at their posts.
    Do you agree that this is a problem and that a fundamental 
change is necessary? What recommendations do you have for 
streamlining this process and providing the necessary 
authorities to get the personnel required? Do you believe that 
existing law regarding service obligations for new physicians 
should be changed?
    Mr. Dominguez. Sir, let's see, there are many different 
aspects of that question, but I think Congress recently helped 
us with the ability to do bonuses for members of the medical 
profession. So, this is something we do watch pretty carefully. 
It is a challenge to get the physicians and nurses and these 
medical professionals in. Dentists are a challenge. But we do 
have some tools, and I think at present, it's up to us to use 
those aggressively. Now, we are looking at this issue right now 
in the Department, and haven't come to any particular 
conclusions on it.
    With regard to hiring Federal civilians, we are excited 
about the prospect of conversion to the National Security 
Personnel System (NSPS), because that system allows us to move 
to market-sensitive pay. It's much more flexible, in terms of 
being able to pay a market rate in a specific locale for a 
shortage specialty. So, we're hopeful that the conversion to 
NSPS will actually help us with the Federal civilian side of 
the thing.
    I've not heard any problems with our ability to get 
contract help. In addition to that, I think commanders of 
hospitals all across this country have established 
extraordinarily imaginative and innovative relationships with 
the health care network around the base to try and tap into 
that network through TRICARE, to be able to take advantage of 
health care when there is a shortfall in our internal military 
treatment facilities.
    Senator Chambliss. As I say, my staff picked up on this 
when they were down at Fort Benning, Fort Gordon----
    Mr. Dominguez. Right.
    Senator Chambliss.--and Fort Stewart. So, you might touch 
base with those medical commanders.
    Mr. Dominguez. Sure will.
    I do want to make one point, this came up in a discussion 
of the Secretary's Independent Review Group yesterday, in their 
testimony over in the House, and this is an idea we've been 
intrigued by for a while, which is this issue of allowing 
medical professionals to join the Armed Services with a shorter 
service obligation, and not worry about being able to serve to 
a 20-year retirement, because, for many of them, that's not 
what they're after; they've already had their successful 
profession, and now they're seeking an opportunity to give 
service back to the Nation. Our rules can preclude them from 
doing that. That's something that I think does need some 
thought, and I promise to work with you on that, Senator, to 
find a way to enable those patriots to help us out, where we 
need it.
    Dr. Davis. Senator, the Department of the Navy's retiree 
council is looking at a way in which we can return medical 
personnel to some form of service to the country, and one of 
them is modeling after the Department of Health and Human 
Services Retiree Medical Corps, to specifically use them to 
augment the services we provide. But I would just--even though 
the bonuses and additional incentive pay for high-skilled, 
stressed, specializations--child psychiatry--have been very 
beneficial, I think it's incumbent upon all of us to look at 
the personnel needs that will go along with your first question 
about the diagnosis and sufficient treatment of the PTSD. It's 
lucky that the Navy's Surgeon General is heading a servicewide 
group with the VA to look at all mental health issues and how 
we can recommend to make sure that we're adequately screening, 
pre- and post-deployment, that we have the baselines, and that 
we're treating with the right number of personnel. But it is a 
challenge.
    Senator Chambliss. Clearly, one of the largest problems 
confronting our wounded troops returning from theater is 
diagnosing and treating TBI. I'm concerned that no established 
procedures or validation process exists for effectively 
diagnosing TBI. Would it be helpful for health care providers 
conducting post-deployment health screening to ask a list of 
specific questions to ascertain whether a servicemember is 
suffering from TBI? Or what else can DOD do to more effectively 
detect, monitor, and treat TBI?
    Mr. Dominguez. Sir, the first item is that this is an area 
that will require a lot more research. We are way into the 
leading edge of our science and knowledge right now about TBI, 
and there's a lot of work that has to be done. Dr. 
Winkenwerder, the former Assistant Secretary of Health Affairs, 
initiated a lot of things, took action to get some of this 
underway. What he has done already is, together with the VA, he 
has promulgated some clinical-practice guidelines for PTSD 
assessments and for TBI assessments. So, those guidelines for, 
``Here's what you look for,'' have been put out in the field to 
physicians in both VA and the DOD to do exactly what you have 
said, which is to help cue them into what to look for, so they 
can begin to make an assessment about the potential for mild 
TBI and PTSD.
    We have established a TBI Task Force to look at this. Then 
there's a Mental Health Task Force that Congress commissioned a 
year ago that is due out in May. This TBI Task Force is to try 
and coordinate and integrate all of the things we're doing 
across DOD and VA and other Federal agencies to make sure that 
the research is aligned and practices--the best practices in 
the current clinical practices are disseminated, and that we 
have a feedback loop that we know that what we are doing is 
effective, and we're growing and learning as we understand more 
about this particular injury. A lot of work to be done yet, 
sir.
    Senator Chambliss. I have had the privilege of visiting 
Bethesda and Walter Reed from time to time, and it seemed like 
every one of those soldiers, marines I talked to, has either a 
low-grade or severe TBI, and, when you hear how they got 
injured, it's pretty easy to understand why.
    I would just caution us to make sure that, particularly on 
this reassessment online that we make sure we're doing 
everything possible there to plug in the right kinds of 
questions for symptoms on late-developing TBI.
    Mr. Dominguez. Yes, indeed. Now, one of the things that 
we're also doing is trying to capture and record in theater 
when you are subject to an event that might have produced TBI. 
That is a hard thing to do, and the battlefield is chaotic, but 
we're trying to implement procedures now. So, we know that 
Private Dominguez was subjected to a blast. We'll know if he 
had a concussion or if he was knocked out or if they just rang 
his bell for a while, and now--he's back into the fight. So, 
we're trying to capture that and document that stuff about the 
servicemember, so that goes back and then gets incorporated 
into the medical record. Tough challenge, but it's one of those 
things we need to do, because that's a trigger or a cue to the 
health professionals, say, ``Okay, this person is at risk for, 
maybe, demonstrating some of these symptoms for--so, get your 
antennae out here and watch this person.''
    Senator Chambliss. Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator Chambliss.
    Secretary Dominguez, Senator Ensign was unable to be here 
because of a prior commitment. He has asked that a couple of 
his questions be submitted for the record, and they'll be sent 
to you. One is on the funding for schools. He notes that the 
sustainment, restoration, and modernization of schools has 
fallen short by up to 36 percent of the goals established by 
DOD, and obviously he's asking why. On military construction 
funding for schools, the actual funding for the military 
construction, as opposed to the modernization, has decreased by 
over 60 percent, from $99.4 million in 2006 to $37.9 million in 
the budget request for fiscal 2008. So, these will be submitted 
to you for a response.
    Mr. Dominguez. Be glad to answer those, Senator.
    Senator Ben Nelson. Sure.
    I want to thank the panel for your indulgence today, and 
for your questions. Dr. Dominguez, it seems like you were in 
the barrel for a little while this afternoon, but I'm sure 
you'll acquit yourself very well on these answers that you 
submit for the record.
    Mr. Dominguez. Oh, yes, sir. I look forward to it. I really 
appreciate the opportunity to be here, sir.
    Senator Ben Nelson. Okay, thank you. Thank you, General.
    Now, our third panel, of spouses, consists of Joyce Raezer, 
who is the recently promoted chief operating officer of the 
NMFA. Congratulations, Ms. Raezer, on your promotion; I'm 
delighted that you're willing to be here, testify today, even 
though your role in the NMFA has changed. The NMFA is one of 
the most active organizations focused on the needs of military 
families, and we give great credence to your views, so we're 
looking forward to that.
    We also have several spouses of servicemembers, who have a 
great deal of experience in dealing with the kinds of issues 
our military families are facing today.
    Connie McDonald is an Army spouse of 27 years, and 
currently lives at Fort Hood, TX. The McDonalds have two 
children. Connie has served as a volunteer and as a staff 
member with several ACS programs, including Army Family Action 
Plan, Army Family Teambuilding, and Family Readiness Groups. 
Her husband is a brigadier general on his second deployment to 
Iraq.
    Welcome.
    Mrs. McDonald. Thank you.
    Senator Ben Nelson. Paula Sumrall is the wife of an Alabama 
National Guardsman who currently serves as the assistant to the 
Chairman of the Joint Chiefs of Staff for National Guard 
matters. Ms. Sumrall brings a career's worth of experience as a 
National Guard family member.
    Welcome.
    Mrs. Launa--is that right?
    Mrs. Hall. That's right.
    Senator Ben Nelson. Launa Hall grew up as a family member 
in the Air Force, and is married to an Air Force officer 
currently assigned to the Pentagon. Mrs. Hall is an active 
family member volunteer. Her husband has just returned from his 
second deployment, so she'll have some, I think, really current 
experiences that she may be willing to share with us.
    Mrs. Mary Piacentini?
    Mrs. Piacentini. Piacentini.
    Senator Ben Nelson.--Piacentini--Piacentini?
    Mrs. Piacentini. Piacentini.
    Senator Ben Nelson. Welcome, Mary. [Laughter.]
    She's the spouse of an Army Reserve Command sergeant major, 
and is also the mother of a servicemember. She'll be able to 
give us a great deal of perspective on the issue facing Army 
Reserve families, based on her long association with the Army 
Reserve, at many levels.
    Now, Ms. Raezer has submitted a prepared statement on 
behalf of the NMFA, and it'll be included in the record. In 
light of their volunteer status, we didn't ask the other 
witnesses to submit written statements, but if anyone has a 
written statement, you might mention that so it can be 
submitted for the record.
    Mrs. McDonald, you're first up.

 STATEMENT OF CONNIE McDONALD, SPOUSE OF AN ARMY SERVICEMEMBER

    Mrs. McDonald. Thank you very much, Senator Nelson. It's a 
privilege to be here, and Senator Akaka, I appreciate your 
interest in Army families, for sure.
    Thanks for the introduction. I'm going to add a little 
caveat, that, in that 27 years, that's consisted of 17 moves to 
10 different Army installations, 3 outside of the United 
States. Currently, Fort Hood is home.
    But I will tell you, amongst all of those changes, one 
thing hasn't changed, and that's--the Army is people. How the 
Army cares for its people has remained a top priority.
    You've heard, from previous testimony, that the Army has an 
extensive array of support and services, refined over years, as 
a result of lessons learned from prior deployments and other 
family separations. Our Army family programs work very 
effectively and remain a mainstay in the family support 
network.
    One of the most important sources of support for families 
comes from the imaginative ideas of family members working with 
supportive garrison command staffs at installations across the 
Army. ACS staffs at each installation provide training to 
support family readiness groups, rear detachment commanders. 
From deployment briefings to reunion training, ACS programs and 
services assist family readiness groups and rear detachment 
commanders in their support to families.
    The addition of the family readiness support assistance has 
been crucial in helping to alleviate the strain on these 
dedicated folks. The power of this collective creative strength 
combined with the willingness to serve others is making a 
positive difference each and every day. Family members and 
community staff are readily assisting each other and families 
during this difficult and challenging time.
    I do want to reiterate that Mr. McLaurin's testimony spoke 
to many of the programs that we have within the ACS and outside 
of that, as well. One, in particular, that he spoke of was the 
Army Family Action Plan, and that's where I have a lot of 
background. It's a proponent for change and progress, and that 
proponent is talked--it's interesting, in the testimonies 
today, to hear that some of the things that--questions that you 
all have asked actually have come up through the Army Family 
Action Plan. One of those examples is, our last conference, we 
included the--our great heroes, the American wounded warriors, 
and in--the first issue that came up as a priority for our 
delegation--and our delegation comes across the Army and 
represents the demographics of our Army family is--the TBI 
rehabilitation program was our number-one issue. That was--
Army, delegationwide, considers this an important issue.
    Among those other: traumatic servicemembers group life 
insurance, annual supplement, a copay for replacement parts for 
our wounded soldiers who have lost their limbs. There is also 
an issue on convicted sex-offender registry for outside the 
continental United States, specifically. Our list of strengths 
and challenges we do at the conference, where we ask for our 
constituency to turn around and say what is good now and what 
is hard now. We have a list of those, as well, and we have that 
in the packet for you. Indeed, we have a written statement for 
you that I have, on my impressions on how the programs are 
going.
    I do want to tell you that our process in the Army Family 
Action Plan starts at the installation, but comes all the way 
up to a General Officer Steering Committee that is chaired by 
our Vice Chief of Staff of the Army. In that process, it's 
always interesting to see the passion that comes up with 
prioritization. It's not asking for the moon. It's, ``This is 
what we'd like most.'' Each conference also identifies four 
most valuable services provided by the Army, the most critical 
issues that are currently being worked, again, the strengths 
and weaknesses of what we've been going through as deployments. 
This information is given to the commanders as a snapshot of 
how things are right now. What does it look like? A dipstick 
to, say, a customer's comment card. That information is used, 
and it's brought to the forefront.
    Because this program is set up the way it is, it's one of 
the few programs--and I think maybe the Army may be unique in 
this--that it's a grassroots program, where the customer talks 
directly to senior leadership, and senior leadership responds 
back. That's a wonderful program, and we're very thrilled with 
it, and glad to hear that a lot of the things that you have 
concerns about, we also have involved in that program.
    It's recognized across the Army as a vital program for 
leadership. The folks who are the constituents of it know that 
they have a voice to leadership, and that is important to us. 
So, again, in your packet, there's some information about that 
program.
    One of the other programs we have, that meets twice yearly, 
is the Army Family Readiness Advisory Council, or AFRAC. It's 
consisting of senior spouses to include the spouse of the Chief 
of Staff of the Army and the Vice Chief of Staff of the Army, 
spouses of Army commands and command sergeants major spouses, 
Reserve component included. That program does a lot of looking 
into how are we doing and getting back feedback. It's a two-way 
street.
    Again, I want to reiterate Mr. McLaurin's testimony about 
the many programs we have, and it is an impressive list. But 
one thing I would like to let you know is that, although Army 
families are resilient and have a great history of getting 
things done, we can't do it alone, and we shouldn't have to. 
Army family programs enhance that resiliency by providing care, 
support, training, and meaningful opportunities for social 
bonding. There must be a sufficient infrastructure, independent 
of volunteer support, properly resourced to deliver consistent 
quality services to all components in a seamless manner.
    Our families and family program staffs are doing heroes' 
work, and they are tired. Continued support from our country is 
imperative. Every day, I see the toll this operational tempo is 
taking on families and supporting staff. I have concern about 
compassion fatigue among our families and our invaluable family 
program staff members. Everyone's heart is with us, and family 
program staffs continue to do what they can with what is 
available, but their fight should be for our soldiers and our 
families, not for resources.
    I did want to let you know that there are a lot of 
community supports. Senator Akaka, you had questioned about 
that. I will tell you, the great town of Killeen has a grouping 
of programs called ``Beyond the Yellow Ribbon.'' One of the 
things that is a great initiative that they've taken on, that 
is very useful, is the local water company, on their bill every 
month, sends out the ACS programs that are available to Army 
families. That was just an initiative on their part. The great 
town of Lawton, Oklahoma, is a phenomenal support for the 
military families at Fort Sill, as well.
    So, there's tremendous community resources out there, and I 
do believe that our families do want to be a part of the 
community, as well as part of the installation.
    I appreciate your interest in Army families, and I look 
forward to any questions you may have.
    [The prepared statement of Mrs. McDonald follows:]

                 Prepared Statement by Connie McDonald

    Good afternoon, I'm Connie McDonald, the wife of BG Mark McDonald 
who is currently with III Corps serving his second tour in Iraq. Today 
I am here to talk with you as a military spouse of 27 years, and I 
appreciate the opportunity to share with you what I think are some 
great programs the Army has put in place to support families. As a 
military spouse I have moved 17 times, calling 10 different Army 
installations ``home'', right now ``home'' is Fort Hood, TX. Our two 
children have grown up in the Army culture during a time of dramatic 
change for this country and the world. But over the years there is one 
thing that has not changed--and that is--that the Army is people--and 
how the Army cares for its people remains a top priority.
    You have heard from previous testimony that the Army has an 
extensive array of support and services, refined over years as a result 
of lessons learned from prior deployments and other family separations. 
Army family programs work very effectively and remain a mainstay in the 
family support network.
    One of the most important sources of support for families comes 
from the imaginative ideas of family members working with supportive 
garrison commanders' staff at installations across the Army. Army 
Community Service staff at each installation provides training to 
support Family Readiness Groups, and Rear Detachment Commanders. From 
deployment briefings to reunion training, ACS programs and services 
assist FRGs and Rear Detachment Commanders in their support to 
families. The addition of the Family Readiness Support Assistants has 
been crucial in helping to alleviate the strain on these dedicated 
folks. The power of this collective creative strength, combined with a 
willingness to serve others, is making a positive difference each day. 
Family members and community staff are readily assisting each other and 
families during this difficult, challenging time.
    I would like to tell you about a program I consider to be one of 
the strongest tools a commander has at his or her disposal, I'd like to 
take a few minutes to tell you about this unique program--The Army 
Family Action Plan (AFAP). The AFAP began as the result of spouses who 
believed that the voice of the Army family needed a platform to be 
heard by senior leadership--these spouses called together people from 
various demographic groups and solicited their views regarding the most 
significant issues affecting the well-being of Army families. Quickly 
this grew to include soldiers, Active as well as Reserve component, 
Department of the Army Civilians, and retirees. Its 24-year history of 
success is a testament to the commitment the Army has made to its 
family. No other service has a process like this--where the grassroots 
can identify a concern and recommend a solution directly to leadership 
for resolution--a customer comment card, if you will.
    How does the Army do this? With dedicated staff and a host of 
volunteers the process begins at the installation where forums are held 
to identify issues and concerns affecting standards of living on the 
installation. Delegates, who are selected as a cross section of the 
installation's population, gather in workgroups to discuss and then 
prioritize issues for leadership to resolve. Issues cross a variety of 
categories from medical and dental concerns, pay and entitlements, to 
child care and family support. Not surprisingly, about 85 percent of 
the issues are truly local installation issues for the garrison 
commander and his/her staff to ``fix''.
    When issues are determined to be out of the local resources ability 
to resolve, they are sent to the next level where Army Commands, Army 
Service Subordinate Commands and Direct Reporting Units convene forums 
to discuss and prioritize issues that will then be submitted to 
Headquarters Department of Army for the annual worldwide symposium. 
Again, the workgroup discussion and prioritization process is repeated 
adhering to the delegate model used at the installations. Those issues 
are presented to the most senior Army leadership for resolution. Each 
year, the conference pursues resolution of critical quality of life 
issues. In this testimony for the record, a chart showing the diversity 
of these issues is available for you. It is impressive. The 
headquarters monitors the issues and their progress through a strict 
protocol of regular guidance, direction, and leadership approval at 
semi-annual General Officer Steering Committee meetings. Itself a 
proponent for change and progress, AFAP also recognizes that as the 
operational tempo of the Army changes, there is a need to adapt 
programs and policies to continue to meet the needs of our soldiers and 
families. Two examples of that flexibility are: 1) Outside the 
continental United States commanders may submit concerns directly to 
the General Officer Steering Committee for consideration; 2) at the 
November 2006 HQ conference, a Wounded Warrior workgroup was added to 
address concerns/issues impacting their quality of life. Each 
conference also asks delegates to identify the four most valuable 
services provided by the Army, the most critical issues currently being 
worked from earlier conferences and strengths and challenges associated 
with deployment and family support. This information is used to give 
commanders a ``snap shot'' of what is important to his constituents and 
allows commanders to have real-time information the ``people's 
perspective'' of adjustments and improvements that will increase 
recruitment, retention, and work-life satisfaction.
    AFAP is recognized and supported by local commands as well as 
senior Army leadership and is the force behind hundreds of legislative, 
regulatory and policy changes, and program and service improvements. 
Our soldiers, retirees, civilians, and families know AFAP is their 
``voice'' in the Army's future. Leadership has embraced this innovative 
program.
    A second program the Army has initiated to obtain input from 
families is the Army Family Readiness Advisory Council (AFRAC) which 
meets twice yearly. The AFRAC is co-chaired by the spouse of the Chief 
of Staff and Vice Chief of Staff of the Army. Membership is comprised 
of the following: spouses of Army Command Deputy Commanders/Chief of 
Staff; Command Sergeants Major; Director, Army National Guard and 
Chief, Army Reserve; Army National Guard and Army Reserve Command 
Sergeants Major, rotating Army Service Subordinate and Direct Reporting 
Units reps (Commander, Command Sergeants Major Spouses); rotating Army 
2-star Joint Command representatives (Commander and Command Sergeant 
Major Spouse); SMA (DA-level) representative, and select volunteers. 
The AFRAC members look at issues that impact quality of life from a 
strategic and global Army-wide perspective. Advise senior leadership on 
the direction of Army Family Programs, assess and recommend solutions 
for evolving issues; establish short and long-range goals and 
objectives, serve as advocates for family programs. The council serves 
to enhance soldier readiness, increase program effectiveness, and 
connect families to the Army.
    Although Army families are resilient, and have a history of getting 
things done, we can't do it alone and shouldn't have to. Army family 
programs enhance that resiliency by providing care, support, training, 
and meaningful opportunities for social bonding. There must be 
sufficient infrastructure, independent of volunteer support, properly 
resourced to deliver consistent quality services to all components in a 
seamless manner.
    Our families and family program staffs are doing ``heroes work'' 
and they are tired. Continued support from our country is imperative. 
Every day I see the toll this operation tempo is taking on families and 
supporting staff. I have concerns about compassion fatigue among our 
families and our invaluable family program staffs. Everyone's heart is 
still with us and family program staffs continue to do what they can 
with what is available--but their fight should be for our soldiers and 
Army families, not for resources.
    This concludes my prepared testimony, I am happy to address your 
questions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Ben Nelson. Thank you. The packet that you 
mentioned will be made part of the record, without objection.
    Mrs. Sumrall?

    STATEMENT OF PAULA SUMRALL, SPOUSE OF A NATIONAL GUARD 
                         SERVICEMEMBER

    Mrs. Sumrall. First, let me say that I come from a 
background that is perhaps a little bit different from a lot of 
the folks here who are full-time military spouses. My husband 
is a full-time guardsman, at this point, but previously he was 
a traditional guardsman. He's been in the Guard for 40 years. 
During that time--we've been married 19 years--we've moved 11 
times, because he's been full-time Guard. I taught school for 
30 years, a good number of those years with DOD schools in 
Germany. So, I'm very familiar with military children, both 
from the Active component, as well as working in the public 
school system with Reserve component children.
    I am the training coordinator for the Northern Virginia 
ESGR, so that means--Employer Support for Guard and Reserves--
and that means that I have also dealt somewhat with the job 
issues of our military members, Reserve components, who are 
coming back, looking for employment or looking to change jobs.
    I'm also in contact with a lot of parents of guardsmen, in 
that I am currently writing a book for the parents of 
guardsmen, like Vicki Cody did for Big Army. So, I have had a 
tremendous influx of e-mails from a lot of these folks, 
especially from the Red Bull Brigade, out of Minnesota, that 
extend it. So, I get it from all angles here.
    I'm a little concerned that I hear Guard mentioned in a lot 
of things, but I don't really know that their concerns and that 
their problems are fully understood, much less addressed.
    Geography always creates a big problem for the National 
Guard members. We may have people--for example, in the 20th 
Special Forces, we draw people from nine different States. In 
2002 when they first deployed to Afghanistan, it was very 
difficult to stay in touch with all of the family members, just 
simply because of the wide spread of where they were. Even 
within States, you may have someone, say, that drills in 
Montgomery, Alabama, but they live in Mobile. That means that 
those families probably have never even met. So, when you talk 
about the continuity and the flow of what goes on within the 
Active component family programs, in the Guard we just simply 
don't have that, and probably never will, despite the fact that 
we tend to pull together and make the best of a bad situation.
    I will give you an example of some of the things I've seen 
the Guard have to go through.
    Prior to my husband's current position, he was at Central 
Command, in Florida, deployed most of the time. I had the 
privilege of sitting in Tampa with four hurricanes, one right 
after the other--Charlie, Frances, Jean, and Ivan. I saw any 
number of Florida guardsmen that were activated for this--
whichever one, sent off. Their families were left wherever they 
were, no power, the trees dumped across the cars, the roof 
missing. They were unable to get to their families to assist 
them. Now, I point this out, because a lot of the focus is on 
deployment, which is, of course, a very significant and 
important thing. But the Guard serves another function, and 
when you stop and you think that you have families that are 
sitting there with no power, they can't keep the baby's milk 
cool, all of this kind of stuff, this impacts on our families. 
If you come from an area where you've had to go and deal with 
the tornados or the floods or the snowstorms or the forest 
fires, it's not just a certain area of our country that's 
impacted, it's all of our guardsmen.
    When you look at most of the programs that focus on 
families, the focus is the spouse and the kids, not the 
parents. This is the reason I'm writing the book, and there's 
obviously a big need for this, to include not only the 
immediate family that's right there, physically, with the 
soldier or the airman, but the extended family. This is another 
issue that Guard faces.
    I will tell you right now that one of the primary things I 
think that I would say that needs to be fixed is that we hear a 
lot of this about the coming back, the transition assistance 
when our soldiers and airmen first come back. One of the 
biggest problems that the National Guard has is the time spent 
at the demobilization station is simply too brief. They don't 
have people there who understand the situation in the area that 
they're coming from.
    For example, Fort Dix, NJ, you arrive. They--let's say, 
maybe, 4 in the morning. By 7 or 8 o'clock, they're starting 
briefings. Someone at Fort Dix, NJ, cannot tell you what the 
job opportunities are in Wetumpka, AL. They don't know.
    We need someone, back at the home level, that can address 
job issues, that can address medical issues that are pertinent 
for that area. We need an extended time for that. Now, this 
would require money, of course. But to--and one of the things, 
too, that I've heard big complaints about is that at least 50 
percent--and that's a modest estimate, because I have heard as 
high as 85--at least 50 percent of the DD-214s are incorrectly, 
incompletely done at that demobilization site. So, that creates 
another problem when our guardsmen return home.
    The fact that the soldier is not usually right there, 
located immediately with their family members, they're unable 
to make the best decisions with regard to health and dental 
care. I don't know who handles that type of thing at your 
house, but, I guarantee you, at my house, I do it. If I were 
not there to tell my husband, ``Oh, no, honey, you'd better 
sign up for this, or you'd better look at this,'' there could 
be a problem. So, that's another one of the problems about 
that.
    When you have people coming in, especially Guard folks, who 
are not used to this military mindset, the main thing they want 
to do is get home. They're tired. I, frankly, don't see how the 
Active component manage to digest all of what they need to when 
they come back at a demobilization. So the Guard really has it 
tough, because it's just a different thing.
    Recently, there was a poll taken of Guard families, and 
most of them, surprisingly--to us even--that they don't 
consider themselves military families. They're part of 
communities. Their churches, their schools, their places of 
business are somewhere other than Fort Hood, Fort Dix, Fort 
Campbell. They're part of a community, and they're feeling a 
disconnect there, when they come in, because their coming home 
is different from when the Active component does.
    I think that's probably about the most that I could say. I 
mean, I would like to be able to tell you great and wonderful 
things. I can tell you some great and wonderful things. But I'd 
rather you know what needs to be fixed.
    Senator Ben Nelson. Yes.
    Mrs. Sumrall. Thank you.
    Senator Ben Nelson. Thank you.
    Mrs. Hall?

 STATEMENT OF LAUNA HALL, SPOUSE OF AN AIR FORCE SERVICEMEMBER

    Mrs. Hall. Good afternoon, Senators. Thank you so much for 
this opportunity to speak with you. I'm very honored to be 
here.
    My name is Launa Hall. I've seen military life from a lot 
of angles, beginning with my birth, at Webb Air Force Base. My 
father flew C-130s in Vietnam, and went on to serve for 20 
years. I served, myself, for almost 6 years, as a junior 
officer. I met my husband in Reserve Officer Training Corps, 
and he's currently an Active Duty Air Force officer. He's 
deployed twice, and has just returned from one of those 
deployments.
    The Air Force has moved me 19 times in my life. I've lived 
on base, off base, in geographically remote locations, 
stateside and overseas. I've used the facilities and services 
at scores of bases. My friends, neighbors, the people I work 
with and volunteer with are largely military families. I'm 
comfortable saying that I know this lifestyle. In fact, it's 
the only life I've known.
    This lifestyle is increasingly characterized by 
deployments, as I don't need to tell you. The more our airmen 
deploy, the more likely they are to miss major events in their 
families' lives, such as the birth of their children. That's my 
special area of concern, is women giving birth while their 
servicemembers are deployed.
    Typically, this woman is not only separated from her 
husband, but she's far from her own family, too. Also, 
typically, Air Force spouses will rally to her side, with 
meals, babysitting for any older children, and maybe even labor 
support during her birth, because that's the way we care for 
each other.
    But I feel that this is too important an issue to rely upon 
the bigheartedness of volunteers. It's too much to assume other 
military spouses are just going to cover it when they're 
dealing with the deployment of their own airmen or they're in 
the middle of a move or they're at least enduring a scorching 
operations tempo.
    A pregnant deployed military spouse needs a doula. That's 
d-o-u-l-a, doula. New term. Very old concept. It's a labor 
assistant to be with that woman when we've taken her husband 
away. A birth doula is a certified labor support professional, 
trained and experienced in childbirth, who accompanies the 
mother in birth and provides emotional support, physical 
comfort, and information. Study after study show that parents 
who receive doula support feel more secure and cared for during 
their birth, they're more successful in adapting to their new 
family dynamics, and they have less postpartum depression. Ask 
a woman who's employed the services of a doula, and she's 
likely to tell you that her doula was essential.
    The unusually high stress of a birth in a family divided by 
deployment demands the professional quality support of a birth 
doula, and, furthermore, a postpartum doula who's trained and 
certified to assist that new mother in baby-care and self-care, 
and identify a mom who needs treatment for postpartum 
depression. If this sounds like a lot of support, I agree, it 
is, and spouses in these special circumstances need no less.
    I'm not the first one to think of this. Naval Hospital 
Charleston trained corpsmen to be doulas. The reports I read 
indicated great success with that program, though it was 
eventually discontinued, as many good ideas are, for lack of 
staffing.
    Operation Special Delivery is a network of certified doulas 
who give away their professional services for free to pregnant 
spouses of deployed servicemembers. Because military spouses 
who are also doulas tend to be the ones who's hearts lead them 
to this kind of volunteer work, what we're basically talking 
about here is military spouses giving away their income as 
doulas. While this group does phenomenal work for free--and we 
should send flowers to every last one of them--they are too few 
to meet the number of requests they receive. In fact, in the 
larger military communities, they don't come anywhere close. 
It's an unmet need, Senators.
    Instead of expecting a pregnant spouse to cobble together a 
supported birth with volunteers and untrained friends, and 
maybe her mom flying in for a few days, let's fund a doula for 
her. Let's mitigate the stress she's under. Let's allow the 
father-to-be, that deployed airman, to relax and to focus on 
his mission knowing that a trained labor support professional 
is at his wife's side before, during, and after the birth of 
their baby.
    On a different note, my personal experience of base support 
during my husband's deployment was outstanding. Programs at the 
Airman and Family Readiness Center and the Youth Center kept me 
well informed of resources available to me, and kept my 
husband, our two children, and me in contact with calling cards 
and access to morale calls. An Internet cafe at his deployed 
location, where we could hook up our Web cams. While I didn't 
end up needing a lot of the resources available to me, I 
absolutely knew that I could have picked up the phone with any 
issue, and I knew who to call, and I would have been flooded 
with assistance. More to the point, my husband knew that, 
allowing him to focus on his mission.
    The Air Force has a reputation of solid support for their 
families, and it's well-deserved. I'd like to see it furthered 
in the special circumstances of deployed families having 
babies.
    Thanks for listening. I'd be honored to answer any 
questions about this issue I brought up regarding doulas, any 
specific military hospital issue that I'd like to let you know 
about, if I have the chance, and any other family support 
topics. Thanks, again.
    Senator Ben Nelson. Thank you.
    I'm going to try it again.
    Mrs. Piacentini. Okay.
    Senator Ben Nelson. Mrs. Piacentini?
    Mrs. Piacentini. Perfect.
    Senator Ben Nelson. Thank you. [Laughter.]

    STATEMENT OF MARY PIACENTINI, SPOUSE OF AN ARMY RESERVE 
                         SERVICEMEMBER

    Mrs. Piacentini. Thank you for giving me the opportunity to 
be here this afternoon. I appreciate that.
    I am the spouse of an Active Reserve soldier for the 
Military Intelligence Reserve Command. He is at Fort Belvoir. 
We've been here for 6 months. Prior to our coming to the 
Virginia area, he was the Command Sergeant Major at the United 
States Army Reserve Command in Atlanta, Georgia, Fort 
McPherson.
    At that time, I was given the opportunity to be a full-
fledged volunteer and part of the family programs for the Army 
Reserve, being a representative for them and also for the 
families. I was able to come in contact with family members, 
not just spouses, but parents, grandparents, aunts, uncles, and 
siblings. Over 4 years, I traveled extensively to meet with 
them to see what their issues were, how things were going, what 
was good, what was not good.
    From all of my travels, I found that in the Army Reserve 
we're geographically dispersed, as the Guard is, and we don't 
have access to the same facilities and resources that the 
Active Army has, and the other military institutions.
    Our Family Programs Office does the best they can with the 
resources that they have, of having personnel out there, but I 
found, in the field, the communication wasn't the best, because 
they just cannot stretch their arms far enough and wide enough. 
That does come down to resources in the way of money, of 
getting enough personnel out there.
    The Army Reserve has recently been able to bring onboard, 
in their family programs, about 100 or so new individuals to 
help with family programs, and that will be a tremendous boost 
for families. But my concern is, as the families' concern is, 
that the information and the one-on-one contact with the Army 
Reserve is not being made with the families, because there 
aren't enough people, bottom line, face to face.
    Another issue that affects them is the medical resources 
and not understanding the medical resources. I have also had a 
current experience with the Army medical system. I am a medical 
professional, myself--working in the private sector--and I have 
found that dealing with the military health institution is not 
quite user-friendly, not only for the soldier--they're used to 
it--but for the civilian and family member. Being a health 
professional, I feel that standard of care is the same whether 
it's an Army hospital or a private hospital, and I think the 
Army falls short there.
    I am also the mother of a first lieutenant. He is with the 
4th Infantry Division out of Fort Hood. His last deployment was 
a very stressful time for me, but I got through it with a lot 
of communication. As a seasoned Army Reserve spouse and now 
Army mother, I was able to ask my son the questions I needed, 
to get the resources I needed. But those questions aren't out 
there for the average Army military family to use and to get 
the help they need.
    We need to do a much better job in getting information out 
to everyone, not just Active Army, but the Army Reserve, 
National Guard, everyone. It's not always getting out there.
    As I have noticed, living on an Army installation through 
different periods of our Active Army life, that resources are 
dwindling on the installations, and I'm seeing quality-of-life 
activities cut or curtailed. I see that as being unfortunate 
for the military families. So much is being taken away from 
them to fund other things, and that's understandable, but when 
you do cut the available resources and activities for military 
families, you are actually cutting off the leg or the line that 
will connect the soldier to the military. Family readiness is 
soldier retention.
    I want to thank you for your time today. I, too, didn't 
want to be a downer on important issues, but these are the 
major issues. A lot of good is being done, but there is also a 
lot of work to be done. I hope that the funds are there, and 
they increase, for both the soldier and the families. We need 
to keep our families intact so our soldiers can do their 
mission.
    Thank you.
    Senator Ben Nelson. Thank you.
    Ms. Raezer? Welcome back, and congratulations.

  STATEMENT OF JOYCE WESSEL RAEZER, CHIEF OPERATING OFFICER, 
              NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Raezer. Thank you, Senator Nelson. I appreciate the 
kind words. I also appreciate this invitation from you and 
Senator Akaka, on behalf of the NMFA and the families we serve, 
to sit on this panel with these wonderful spouses to talk to 
you about the state of military family readiness today.
    These spouses--and, in fact, all the other military family 
volunteers--are on the front lines of family readiness. As they 
prepare for deployment, endure the challenges of deployment, 
which include deaths and injuries in the unit, and then recover 
from a deployment, even while they know it's soon time to 
prepare for another deployment, they remain the glue that holds 
their community together.
    They, and all families, are force multipliers, and, as 
such, families need and deserve a military support structure 
that ensures a consistent level of resources to provide robust 
quality-of-life, family health, and family readiness.
    I'd like to echo Connie McDonald's remarks about the 
importance of the community. Families also need the help and 
comfort of their local communities and, indeed, the whole 
Nation, so that everyone understands and supports their 
sacrifice.
    NMFA's extensive written statement details many things that 
we hear from families about what programs are working well, 
what gaps must be filled, what new challenges are emerging. 
NMFA has been gratified to see the emergence of a broad 
spectrum of programs and initiatives designed to improve family 
readiness and reach out to families. You've heard about many of 
those today. Military OneSource, expanded access to child care 
services, increased counseling resources, outreach to National 
Guard and Reserve families are making a difference in 
connecting families with each other and appropriate support--
not reach everybody, but definitely making a difference.
    But, while wonderful, many of these programs and the 
offices and agencies responsible for them are not yet well 
coordinated, often leaving families confused about where to go 
for the appropriate information and assistance. Multiple 
deployments, repeated extensions, a lack of predictability, and 
diminished time at home between deployments continue to take 
their toll on military families.
    In measuring that toll, NMFA often looks at two segments of 
our community: family volunteers and the children of 
servicemembers. We believe the training and support system for 
volunteers, like these spouses we have here today, has not kept 
pace with the demands placed on them by our military, by other 
families, and by our volunteers themselves. In addition to a 
more robust training and support structure, these military 
officer and enlisted spouses, and the parents who volunteer 
with many of our Guard and Reserve units, must be able to 
depend on professional support personnel tasked to back them up 
and ensure families in crisis receive appropriate assistance.
    Military parents are increasingly concerned, not just for 
the well-being of their children today while dealing with 
deployment, but also for the unknown in the future. They ask, 
``What will the long-term effects of multiple deployments, 
frequent separations from their parent, and the worry for their 
deployed parent safety be for military children?''
    NMFA is doing its small part to support the children of 
deployed servicemembers through it's Operation Purple camps. In 
the summer of 2007, we will be serving 3,500 children of 
deployed servicemembers in 26 States. We're pleased the 
military services have stepped up their child and youth support 
services. But we need more research to help all of us 
understand the effects of deployment on children, anticipate 
the long-term issues, and develop better support programs to 
help parents help their children. Parents and children need 
better access to the full spectrum of mental health services. 
These services must also be available for the most vulnerable 
of our families, those whose servicemember has been injured or 
wounded, or whose servicemember has paid the ultimate sacrifice 
for our Nation.
    While all of us in the family readiness arena must focus on 
deployment and crucial family needs related to a long war, we 
cannot forget that, in times of war, the military's bedrock 
quality-of-life programs become even more vital to families and 
contribute to their readiness. To ensure servicemembers remain 
focused on the mission, families must have: quality, affordable 
housing in a safe neighborhood; high-quality, caring schools 
for their children; access to a doctor's appointment when they 
need it. I'm sorry Senator Chambliss is gone, because we, too, 
have heard problems about contracting issues in military 
hospitals, and believe that's why so many of our families have 
such a hard time getting an appointment when they need it. So, 
we congratulate him for his work in researching this issue.
    Families also need topnotch affordable childcare, and 
education and career opportunities for the military spouse. 
They must be assured that when the military orders them to 
move, their valued possessions will be handled with care, and 
their out-of-pocket costs are low. They not only must have 
opportunities to improve their financial savvy, but also be 
protected from the predators who take advantage of their youth, 
arrogance, and trusting nature to separate them from their 
hard-earned pay.
    Senator Nelson, we, too, share the concerns you voice about 
the proposed regulations for the Talent-Nelson Act, and we 
appreciate your continued interest in that. We have included 
some of our thoughts on those regulations in our statement, on 
page 11.
    We especially ask you to see that critical base operations 
and quality-of-life programs are not robbed to meet war needs. 
Please ensure that the measures undertaken today in the 
interest of cutting costs and improved efficiency do not also 
destroy the military community.
    Given that our military has been in war status for more 
than 5 years, NMFA also thinks it's time for the Office of the 
Secretary of Defense and the Services to evaluate all those new 
programs and initiatives they've created to meet wartime needs, 
and that they currently fund through those wartime supplemental 
appropriations. Military family readiness programs and quality-
of-life facilities require dedicated, ongoing funding, not 
emergency funding. Thus, we hope DOD would incorporate the most 
effective of the initiatives created to meet war emergencies 
into the ongoing array of military quality-of-life programs, 
and budget for them through the regular DOD budget process. 
NMFA is concerned that if these programs remain tied to wartime 
funding, they might go away while families still need them.
    The NMFA appreciates your understanding that strong 
families equal a strong force and that family readiness is 
integral to servicemember readiness. The cost of that readiness 
is a cost of the war and a national responsibility. We thank 
you for shouldering that responsibility, just as servicemembers 
and their families are shouldering theirs.
    Thank you, again.
    [The prepared statement of Ms. Raezer follows:]

               Prepared Statement by Joyce Wessel Raezer

    Chairman Akaka, Chairman Nelson, and distinguished members of these 
subcommittees, the National Military Family Association (NMFA) would 
like to thank you for the opportunity to present testimony today 
discussing the tie between military readiness and the readiness of 
military families. Once again, we thank the members of the Senate Armed 
Services Committee for your focus on the many elements of the quality 
of life package for servicemembers and their families: access to 
quality health care, robust military pay and benefits, support for 
families dealing with deployment, and special care for the families of 
those who have made the greatest sacrifice.

                               READINESS

    Webster defines readiness as ``the quality or state of being 
prepared or capable of promptly reacting.'' Military readiness must 
include quality training, state-of-the-art equipment, highly motivated 
personnel, and a strong commitment to the ideals of service and 
country. Developing quality training and procuring equipment are fairly 
straightforward processes. Benchmarks are easily determined and results 
are easily measured. Motivation, dedication, and commitment, however, 
are not so simply procured. Servicemembers must have faith in their 
leadership in order to willingly step into harm's way for the good of 
the Nation. This faith is cultivated in a variety of ways. Perhaps none 
is as important as the belief that the family will be taken care of 
while the servicemember is supporting the mission and defending the 
Nation. A key component of readiness is motivation. A key component of 
motivation is family support and security.
    As we speak, policy changes are being implemented that will affect 
many military families. The Army is extending Active Duty deployments 
by 3 months, from 1 year to 15 months. Several National Guard units are 
being readied for a second deployment, on an accelerated timetable from 
the guideline calling for 1 year deployed and 5 years at home. 
Readiness is threatened because of a shortage of equipment for training 
and the fact that training itself is being shortened. The readiness of 
the world's greatest fighting force is being threatened. How does 
family readiness work to make a difference, to make our warriors ready?
    Servicemembers and their families feel that they are partners with 
DOD and the Federal Government in their service to the Nation. DOD 
recognized this partnership several years ago in its development of the 
social compact. It is important for servicemembers and families to see 
that promises are kept, that families have time to rebuild 
relationships after deployment, that retirees have access to affordable 
military health care, that the wounded and their families are well 
cared for, and that the survivors of those who have made the supreme 
sacrifice are cherished and honored.
    We often hear of how the military ``grows their own''. Many 
children of military families follow their parents into a life of 
military service. If they perceive a degradation of benefits and 
programs for their parents' generation, if they remember their 
childhood as a time of stress and separation from their parent, will 
they continue to volunteer for this life of selfless service? NMFA 
asserts that keeping promises and setting realistic expectations is 
essential to maintaining the readiness of a quality force.

                HOW DO FAMILIES CONTRIBUTE TO READINESS?

    Families are an integral part of the military readiness equation, 
as supporters of the servicemember and of his/her mission. It has 
become common for speakers before this committee to highlight that 
today's military ``recruits the servicemember and retains the family.'' 
Spouses also point out this link. As one applicant for this year's NMFA 
spouse scholarship program wrote: ``Who holds down the fort while our 
soldiers and sailors are deployed? Who gives them encouragement and 
support as they face the daily challenges of the military? The spouse. 
Happiness often lies in personal development, and one happy military 
couple means one motivated who is ready to respond to the call of 
duty.''
    The Nation has an obligation to support the quality of life for 
servicemembers and their families not only because it is the right 
thing to do, but because strong quality of life programs aid in the 
retention of a quality All-Volunteer Force. At a recent hearing, Master 
Chief Petty Officer of the Navy Joe R. Campa, Jr. summed up the 
importance of caring for families: ``Quality of life does affect 
retention and it impacts recruiting. Young Americans deciding whether 
the Navy is right for them look at quality of life initiatives as 
indicators of the Navy's commitment to sailors and their families. Our 
goal is to leave no family unaccounted for or unsupported. Our vision 
of today's Navy family is one who is self-reliant yet well connected to 
our Navy community and support programs.''
    Military families are proud of their servicemembers and of their 
service to the Nation. Family members serve as well. Last year, General 
Peter Pace, Chairman of the Joint Chiefs of Staff, told a group of 
military families: ``Spouses and families serve this country as well as 
anybody that's ever worn the uniform. In some ways it's harder for the 
folks back home than it is for the troops deployed in places like 
Afghanistan and Iraq.''
    Family members serve in a myriad of ways even while existing in 
their own constant state of readiness. As they prepare for deployment, 
endure the challenges of deployment, and then recover from a deployment 
even while they know it will soon be time to prepare for another, they 
remain the glue holding their community together. Among the hardest 
working are the family members who volunteer as family support staff in 
commander's programs--the Family Readiness Group Coordinators, Key 
Volunteers, Ombudsmen, and Key Spouses. The family readiness volunteers 
do not work alone, but enlist the help of other volunteers to make 
phone calls, plan meetings, organize fund raisers, and gather folks to 
fill the never ending parade of care packages to their deployed 
servicemembers. In addition to providing support to their unit and its 
families, military family volunteers continue to serve the installation 
community in ways they always have: as Red Cross workers, home room 
moms, thrift shop volunteers, chapel religious education teachers, 
spouse club members. They perform these duties as single parents, who 
have the added job of providing a sense of normalcy and comfort to 
others dealing with the stress of deployment. Those left behind step up 
and take over as soccer coaches, scout leaders, and serve in other 
community support positions left vacant by deployed servicemembers. 
General and Flag Officer spouses serve as advisors to family groups and 
mentor younger spouses. Military family volunteers come forward, not 
only on military installations, but in towns and cities across the 
country, to serve in their local armories or Reserve centers, work with 
National Guard youth programs and reach out to other families in their 
units. In these communities, parents and siblings of deployed National 
Guard and Reserve members serve with spouses in many volunteer 
positions.
    Deployed servicemembers rely on their families for individual 
support. Letters and packages from home, phone calls, and e-mails help 
improve the morale and ease the concerns of servicemembers, allowing 
them to better deal with the chaos and danger of the combat zone. 
Servicemembers are reassured when their families feel secure, are well 
informed, and aware of support resources. If problems occur, the 
families know where to turn for help and don't need to burden the 
deployed servicemember with worries that he or she can do nothing 
about. Without these tools, if a crisis arises the alternative is for 
the servicemember to return to solve the problem.
    The Army's recently-released Third Mental Health Advisory Team 
report documents the need to address family issues as a means for 
reducing stress on deployed servicemembers. The team found the top non-
combat stressors in theater were deployment length and family 
separation. They noted that soldiers serving a repeat deployment 
reported higher acute stress than those on their first deployment. They 
found that multiple deployers felt they were better prepared due to 
improved pre-deployment training, but they also acknowledged their 
families are experiencing more stress. The study also determined that 
leading suicide risk factors were relationship issues at home and in 
theater.

          NMFA believes our Nation must make a commitment to ensure 
        military families remain strong and resilient, with the tools 
        to handle deployments and the problems that emerge so their 
        servicemembers may remain focused on the mission, secure in the 
        knowledge their families are safe and secure, both physically 
        and emotionally.

                     CHALLENGES TO FAMILY READINESS

    In this sixth year of the global war on terror, as many 
servicemembers and families are experiencing their second or third 
deployments, family readiness is more imperative than ever. The needs 
of and support required for the family experiencing repeated 
deployments are often different than those of the first deployment. The 
family that was childless in the first deployment may have two toddlers 
by now. Middle schoolers have grown into teenagers with different 
needs. Parents age and the requirements of the ``sandwich generation'' 
grow. Commanders cannot assume that ``experienced'' families have the 
tools they need to weather each new deployment successfully. The end 
strength increases in the Army and Marine Corps will bring many new 
families needing to learn the basics of military life and family 
support while experiencing their first deployments.
    The effect of multiple deployments is burning out many volunteers 
and families. At high operational tempo installations such as Fort 
Bragg, Camp Pendleton, and Fort Drum, volunteers and staff are 
constantly on alert, dealing with families at multiple stages of 
deployment. Sustaining a high level of engagement with families at rear 
detachment and installation commands is extremely draining. New 
challenges seem to constantly appear, including: the grief of unit 
families when a servicemember is wounded or killed, extensions, and 
reductions in funds and support staff. Many spouses who hear military 
and political leaders' pronouncements of a long war wonder if there is 
ever a light at the end of the tunnel.
    NMFA is especially concerned with the burnout of the most 
experienced family volunteers and the command spouses who often must 
shoulder much of the burden for the well-being of families within their 
servicemembers' commands. Senior spouses have stated to NMFA that 
training has not kept up with the challenges they encounter. Although 
the Services do a good job of providing educational opportunities for 
spouses of newly-appointed commanders, much of the training received at 
various Army senior Service courses, for example, has not changed since 
the start of the global war on terror. The reliance on military family 
member volunteers as the front line of family support and readiness has 
not changed, either, despite the increased complexity of the challenges 
they face. Military families know they now must exist in a ``new 
normal,'' in which servicemembers' repeated deployment to combat zones 
is a given. The spouse leaders they turn to for guidance and mentorship 
must have the tools and support they need to assist others. They need a 
clear picture of what is expected of them and assurance there are 
professional resources available to them.
    NMFA believes creating a three-pronged approach to unit family 
readiness might be the solution. The family readiness triad would 
consist of volunteer, Active Duty, and civilian components. The 
volunteer, such as a Key Spouse, Family Readiness Group leader, Key 
Volunteer, or Ombudsman needs standardized training from professionals 
in order to play an integral role in the command team and provide the 
communication conduit to military families. The Active Duty military 
member who is charged by the commanding officer with taking care of 
families must be trained and committed to that duty. Professional 
support by trained civilians tasked specifically to provide counseling 
and relieve the burden challenging the family volunteers must be the 
third prong of the support network.
    High operational tempo and frequent family separations test the 
mettle of military families on a daily basis. That military families 
carry a special burden is especially apparent after every announcement 
of unit extensions in a combat zone, earlier-than-scheduled 
deployments, or a surge in the number of troops into theater. When the 
deployment of the 172nd Stryker Brigade from Fort Wainwright, AK, was 
extended just before the brigade was to return home last summer, 
families experienced a myriad of emotions and crises. How did the Army 
respond to the needs of these families? It began with a 90-minute 
conference call from the brigade commander in Iraq talking with the 
family readiness group leaders, who in turn passed the information on 
to the family members in their groups. Communication and rumor control 
were crucial in this situation. The Army brought extra staff from other 
installations to help in the support and allay some of the affected 
families' stress. New family assistance centers opened at Fort 
Wainwright and Fort Richardson to help families deal with nonrefundable 
airline tickets, powers of attorney that were about to expire, 
relocation concerns, and mental health issues. The Army augmented local 
support staff with child psychologists, adolescent counselors, and 
specially-trained chaplains with advanced degrees in family counseling. 
Families appreciated the extra measure of support. These initiatives 
became a template on how to rally resources and support for units and 
installations when future unexpected events happen.
    But what happens when a surge affects National Guard or Reserve 
families who cannot rely on a military installation? Following the 
President's January announcement of the troop surge to Iraq, the 
Minnesota National Guard reached out aggressively to support affected 
families. A robust family readiness and training network had already 
been in place, supported by Minnesota Governor and Mrs. Tim Pawlenty. 
The Guard augmented this network with additional military family life 
consultants and a full-time mental-health coordinator who encouraged 
mental-health providers across the state to support deployed National 
Guard members' families. DOD also generated a Tiger Team to analyze 
needs and allocate resources to support families affected by the surge. 
With the announcement of more extensions, additional Tiger Teams were 
stood up to augment medical services, counseling resources, and legal 
services and to help with commercial obligations.
    Individual Augmentees (IAs) and their families are especially 
vulnerable to falling through the cracks. Military families who 
previously knew how to navigate their unit chain of command become 
confused about who will provide information and support when their 
servicemembers become IAs. Is it the command giving up the 
servicemember or is it the gaining command--or both? This confusion can 
lead to frustration when a problem arises and the resolution does not 
come quickly. NMFA commends the Navy for its recognition of the 
challenges faced by IA families when their servicemembers have been 
deployed as individuals or small groups in support of ground combat 
operations. The Navy is implementing a policy to address the IA 
``support'' issue. The original command support system and unit 
Ombudsman remain responsible for supporting the IA family. The 
Expeditionary Combat Readiness Center, a component of Naval 
Expeditionary Combat Command, was created to provide the communication 
link between family members and the IA. Families receive a toll free 
number and access to a Web site providing information and a comment 
section for family questions related to the deployment. The Navy 
Reserve has hired a full-time Family Support Manager to oversee Reserve 
military families' support. Five additional Family Support Managers 
will be in the field providing support to the ``Prairie Navy.'' This 
new support structure has been hard-fought because of funding 
challenges. Yet, without these innovations in Navy family support, 
servicemembers who are serving in harm's way would have to work harder 
to resolve pay problems, housing issues, and family concerns.
    NMFA is pleased to note that access to information and support has 
improved overall since the start of the war on terror. For example, the 
National Guard continues to promote the state Joint Family Assistance 
Centers as a resource for all military families. The Guard Family 
Program Web site, www.guardfamily.org, provides lists of many local 
resources. Training for Guard and Reserve family volunteers has 
improved and, in the case of the Marine Forces Reserve, Key Volunteers 
attend training side by side with the Marine Family Readiness Officers. 
This training helps to create realistic expectations on both the part 
of the professional and the volunteer.
    Recently, top military family program leaders from across the 
Services gathered at a Family Readiness Summit, convened by Assistant 
Secretary of Defense for Reserve Affairs Thomas Hall, to answer tough 
questions on how to work better together. While focusing on the Reserve 
component, delegates agreed that communication across the Services and 
components is key to bringing families the best support possible. 
Effective use of technology and partnerships with community agencies 
were listed as best practices, along with Military OneSource and the 
use of volunteers. Challenges identified include the need for 
consistent funding for family programs and full-time support personnel 
to help avoid burnout for the full-time staff and volunteers. Some 
participants expressed concern that current funding is tied to current 
operations and worried those funds will not always be available to 
address the long-term needs of servicemembers and families. 
Participants also identified the need for clear, non-confusing 
nomenclature for programs that families could recognize regardless of 
Service or component. Everyone saw reintegration as a challenge and 
expressed the concern that the single servicemember not be forgotten in 
the process. Outreach to parents, significant others, and other family 
members is essential in helping the servicemember recover from the 
combat experience. The concerns raised at this summit mirror those 
raised to NMFA by families since the beginning of Operations Enduring 
Freedom and Iraqi Freedom. NMFA has reported these findings in our 
annual congressional testimony and in the Association's published 
reports in 2004 and 2006 on families and deployment: Serving the 
Homefront and The Cycles of Deployment Survey Report. These reports are 
available in the Publications section of the NMFA Web site: 
www.nmfa.org.
    NMFA regards Military OneSource (www.militaryonesource.com), DOD's 
version of an employee assistance program, as an solid resource for 
military families, regardless of Service affiliation or geographical 
location. While DOD agencies and the OneSource contractor have 
increased their outreach efforts this year, NMFA remains disappointed 
that families' usage of OneSource is low and that OneSource is not yet 
well-integrated into other Service, component, and installation support 
systems. This integration is important not just to meet the wide-
ranging needs of today's military families, but also to make the best 
use of increasingly scarce resources at the installation level. More 
efforts must be made to enable family center personnel and unit family 
readiness volunteers to become the ``experts'' on OneSource so they can 
then encourage more families to take advantage of the service. 
OneSource must also do a better job of connecting families to support 
services already provided by DOD and the Services.

          NMFA urges these subcommittees to direct the Services to 
        develop a training system and support structure to meet the 
        needs of the senior officer and enlisted spouses who bear the 
        heaviest burden for supporting other military family unit 
        volunteers. It is essential that professional support personnel 
        are tasked to serve as back-up to unit volunteers to ensure 
        families in crisis receive appropriate assistance. The Services 
        must recognize their responsibility to reach out to families to 
        ensure families understand how to access available support 
        services.

                      CUT BACKS IN BASE OPERATIONS

    Families and the installation professionals who support families 
tell NMFA that shortfalls in installation operations funding are making 
the challenges of military life today more difficult. Families are 
grateful for the funding increases Congress has provided since the 
start of the global war on terror for deployment-related programs, such 
as counseling, family assistance for Guard and Reserve families, and 
expanding access to child care services. However, the military families 
who contact NMFA, as well as many of our more than 100 installation 
volunteers, also tell us they are worried about consistent funding 
levels for these programs, as well as for core installation support 
programs: family center staffing, support for volunteer programs, 
maintenance on key facilities, and operating hours for dining halls, 
libraries, and other facilities.
    Shortages in base operations funding are nothing new. What seems to 
make the crisis worse now is that war needs have exacerbated the 
negative effects of a long history of cutbacks. Deployed servicemembers 
expect their installation quality-of-life services, facilities, and 
programs to be resourced at a level to meet the needs of their 
families. Cutbacks hit families hard. They are a blow to their morale, 
a sign that perhaps their Service or their nation does not understand 
or value their sacrifice. They also pile on another stressor to the 
long list of deployment-related challenges by making accessing services 
more difficult. Families are being told the cutbacks are necessary in 
order to ensure funds are available for the war, and in the case of 
Army communities, the ongoing Army transformation. Just when they need 
quality-of-life programs most, families should not be asked to do 
without. Their commanders should not have to make the choice between 
paying installation utility bills or providing family support services.
    NMFA asks Congress to direct DOD to maintain robust family 
readiness programs and to see that resources are in place to accomplish 
this goal. We ask these subcommittees to exercise their oversight 
authority to ensure critical base operations programs are maintained 
for the servicemembers and families who depend on them.

                 CARING FOR MILITARY CHILDREN AND YOUTH

    At a recent hearing, the Service Senior Enlisted Advisors put child 
care as one of their top two quality-of-life concerns. Frequent 
deployments and long work hours make the need for quality affordable 
and accessible child care critical. We thank Congress for making 
additional funding available for child care since the beginning of the 
global war on terror. We also applaud several of the innovative ways 
the military Services have attempted to meet the demand, including:

        <bullet> the Navy's 24 hour centers in Virginia and Hawaii;
        <bullet> the purchase of additional child care slots in private 
        or other government agency facilities;
        <bullet> partnerships with provider organizations to connect 
        military families with providers; and
        <bullet> use of additional funding provided by Congress to make 
        improvements to temporary facilities to increase the number of 
        child care slots on military installations.

    While these efforts have helped to reduce the demand for child 
care, more is needed. NMFA understands that the House and Senate have 
included in their versions of the fiscal year 2007 Supplemental 
Appropriations bill the $3.1 billion previously cut from the fiscal 
year 2007 continuing resolution. This funding is critical to ensuring 
that the additional child care spaces required by BRAC and rebasing can 
be in place when families begin to arrive at new duty stations. In 
addition to being disappointed that the Supplemental Appropriations 
bill has not yet become law, NMFA remains concerned that, in the 
reality of scarce resources and delayed funding, child care centers 
will take a back seat to operational funding priorities. Even with 
these new centers, the Services--and families--continue to tell NMFA 
that more child care spaces are needed to fill the ever-growing demand.
    Multiple deployments have also affected the number of child care 
providers, both center and home based. Child and Youth Service (CYS) 
programs have historically counted heavily on the ranks of military 
spouses to fill these positions. Service CYS programs report a growing 
shortage of spouses willing to provide child care as the stress of 
single parenting and the worry over the deployed servicemember takes 
their toll. The partnerships between the Services and the National 
Association of Child Care Resource and Referral Agencies (NACCRRA) are 
helping and have grown over the past 2 years; however, not all families 
qualify for the subsidies and not all programs are the same. As always, 
getting the word out to families that such programs exist is 
challenging. Military OneSource must do a better job of putting the 
NACCRRA programs at the top of their list when referring families to 
child care services within their neighborhood. Too often, a family will 
call OneSource and receive the closest child care option to their home 
address, NOT to the program that is currently working with the military 
and providing subsidies.
    Unexpected extensions also wreak havoc on the availability of care. 
NMFA applauds the Army's efforts to address this shortage with an 
innovative program: CYS Transition Mobile Teams (TMT). The Army created 
the TMTs as a response to the emergency shortage of child care 
providers due to the extension of the 172nd Stryker Brigade Combat Team 
from Fort Wainwright, AK. The Army organized teams of volunteers within 
the CYS department willing to ``deploy'' to Fort Wainwright for a 
limited time to fill those shortages. This program was so successful it 
has been incorporated as a permanent aspect of the Army's CYS program.
    Innovative strategies are also needed when addressing the 
unavailability of after hour (before 6 A.M. and after 6 P.M) and 
respite care. Families often find it difficult to obtain affordable, 
quality care, especially during hard-to-fill hours and on weekends. 
Both the Navy and the Air Force have piloted excellent programs that 
provide 24-hour care. The Navy has 24-hour centers in Norfolk and 
Hawaii, which provide a home-like atmosphere for children of sailors 
working late night or varying shifts. The Air Force provides Extended 
Duty Child Care and Missile Care (24 hour access to child care for 
servicemembers working in the missile field). These innovative programs 
must be expanded to provide care to more families at the same high 
standard as the Services' traditional child development programs.
    Older children and teens cannot be overlooked. School personnel 
need to be educated on issues affecting military students and be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools too. Military parents constantly seek more resources 
to assist their children in coping with military life, especially the 
challenges and stress of frequent deployments. Parents tell NMFA 
repeatedly they want resources to ``help them help their children.'' 
Support for parents in their efforts to help children of all ages is 
increasing but continues to be fragmented. New Federal, public-private 
initiatives, and increased awareness and support by DOD and civilian 
schools educating military children have been developed; however, 
military parents are either not aware that such programs exist or find 
the programs do not always meet their needs.
    In their report: ``The Psychological Needs of U.S. Military 
Servicemembers and Their Families: A Preliminary Report''(Feb. 2007), 
the American Psychological Association states: ``Having a primary 
caretaker deployed to a war zone for an indeterminate period is among 
the more stressful events a child can experience. Adults, in the midst 
of their own distress are often anxious and uncertain on how to respond 
to their children's emotional needs. The strain of separation can weigh 
heavily on both the deployed parent and the caretakers left behind. 
Further, reintegration of an absent parent back into the family often 
leads to complicated emotions for everyone involved.'' These emotional 
challenges are further exacerbated when the servicemember's time at 
home between deployments is shortened, leaving precious little time for 
reintegration before preparations for the next deployment begin.
    NMFA is working to identify the cumulative effects multiple 
deployments are having on the emotional growth and well-being of 
military children and the challenges posed to the relationship between 
deployed parent and child in this very stressful environment. The NMFA 
Operation Purple summer camp program, currently in its fourth year, 
provides a free camp experience to military children, with priority 
given to children of deployed servicemembers. Unique in its ability to 
reach out and serve military children of different age groups (8-18), 
Operation Purple provides a safe and fun environment in which military 
children feel immediately supported and understood. Its curriculum 
focuses on giving children the tools to cope with deployment. This 
year, NMFA will also host a camp specifically for children of the 
wounded. This first of its kind camp will focus on the special needs 
and challenges faced by military children whose lives have been forever 
altered. It is our hope to reinforce coping skills and begin to collect 
data which will add to the scant literature on this subject.

          NMFA urges Congress to ensure resources are available to meet 
        the child care needs of military families. NMFA also strongly 
        requests that Congress add funding for further research on the 
        effects deployments have on children of all ages, birth through 
        teen, and support programs that increase the resiliency of the 
        military family, especially of the military spouse who plays a 
        key role in how children cope with deployments and any 
        unfavorable outcomes.

                     EDUCATION OF MILITARY CHILDREN

    As increased numbers of military families move into new communities 
due to Global Rebasing and BRAC, their housing needs are being met 
farther away from the installation. Thus, military children may be 
attending school in districts whose familiarity with the military 
lifestyle may be limited. Educating large numbers of military children 
will put an added burden on schools already hard-pressed to meet the 
needs of their current populations. Impact Aid has traditionally helped 
to ease this burden; however, the program remains underfunded. NMFA was 
disappointed to learn the DOD supplement to Impact Aid was funded at a 
compromise level of $35 million for fiscal year 2007. An additional $10 
million was provided to school districts with more than 20 percent 
military enrollment that experience significant shifts in military 
dependent attendance due to force structure changes, with another $5 
million for districts educating severely-disabled military children. 
While the total funding available to support civilian schools educating 
military children is greater than in recent years, we urge Congress to 
further increase funding for schools educating large numbers of 
military children. This supplement to Impact Aid is vital to school 
districts that have shouldered the burden of ensuring military children 
receive a quality education despite the stresses of military life.
    NMFA also encourages Congress to make the additional funding for 
school districts experiencing growth available to all school districts 
experiencing significant enrollment increases and not just to those 
districts meeting the current 20 percent enrollment threshold. We also 
urge you to authorize an increase in the level of this funding until 
BRAC and Global Rebasing moves are completed. The arrival of several 
hundred military students can be financially devastating to any school 
district, regardless of how many of those students the district already 
serves. Because military families cannot time their moves, they must 
find available housing wherever they can. Why restrict DOD funding to 
local school districts trying to meet the needs of military children 
simply because they did not have a large military child enrollment to 
begin with?

          NMFA asks Congress to increase the DOD supplement to Impact 
        Aid to $50 million to help districts better meet the additional 
        demands caused by large numbers of military children, 
        deployment-related issues, and the effects of military programs 
        and policies. We also ask Congress to allow all school 
        districts experiencing a significant growth in their military 
        student population due to BRAC, Global Rebasing, or 
        installation housing changes to be eligible for the additional 
        funding currently available only to districts with an 
        enrollment of at least 20 percent military children.

                          FINANCIAL READINESS

    Financial readiness is a critical component of family readiness. 
NMFA applauds the passage of the Talent/Nelson Amendment (Sec. 670) to 
the National Defense Authorization Act (NDAA) for Fiscal Year 2007. 
This legislation was desperately needed to protect servicemembers and 
their families from unscrupulous business practices. We are concerned, 
however, that some lenders are attempting to create loopholes to allow 
them to circumvent the intent of this important legislation. NMFA is 
very disappointed with the draft regulation recently released by DOD to 
implement this legislation. The regulation appears to be more focused 
on protecting the ability of creditors to function than with ensuring 
servicemembers and their families are protected from unscrupulous and 
predatory lenders. As currently drafted, the regulation is so narrow in 
scope that even payday lenders may be able to continue business as 
usual with only a few minor changes to their practices. Some of the 
most damaging products--privilege pay, overdraft protection, and credit 
cards with exorbitant fees--are completely excluded from the 
regulation. While DOD has not carved out banks and credit unions by 
name, the Department has certainly chosen to carve them out completely 
by product. While NMFA fully recognizes the Military Lending Act could 
impede the ability of some servicemembers and their families to obtain 
short-term loans, we believe this risk is justified given the negative 
impact of the use of predatory loans. We also believe better education 
about other available resources and improved financial education for 
both the servicemember and spouse will also reduce the risk.
    The chief complaint among lenders centers on the breadth of the 
protections. Lenders contend the legislation as written will result in 
the denial of credit to military members and their families. NMFA 
contends that legitimate lenders have no need to fear an interest rate 
cap of 36 percent. We encourage DOD to continue to make military 
families aware of the need to improve their money management skills and 
avoid high cost credit cards and other lenders. The Department must 
continue to monitor high cost, low value financial products targeted at 
military families.

          NMFA asserts that the protections provided under the Talent/
        Nelson amendment must be implemented in their entirety as 
        written. We urge Congress to oppose strongly any changes to the 
        statutory provisions enacted in the NDAA for Fiscal Year 2007 
        and to monitor DOD's implementation of the legislative 
        provision to ensure full protections are made available to 
        military families.

                    SPOUSE EDUCATION AND EMPLOYMENT

    Today's military is comprised of predominantly young adults under 
the age of 35. Sixty-six percent of military spouses are in the labor 
force, including 87 percent of junior enlisted spouses (E-1 to E-5). 
For many, working to pay bills and cover basic expenses is the primary 
reason for working. Studies show the gap between the financial well-
being of military families and their civilian peers is largely due to 
the frequent moves required of the military family and the resulting 
disruptions to the career progression of the military spouse. In a 2005 
report by the RAND Corporation: Working Around the Military: Challenges 
to Military Spouse Employment and Education, researchers found that 
military spouses, when compared to their civilian counterparts, were 
more likely to live in metropolitan areas and are more likely to have 
graduated from high school and have some college. Yet the RAND study 
found that all things being equal, military spouses' civilian 
counterparts tended to have better employment outcomes and higher 
wages. Surveys show that a military spouse's income is a major 
contributor to the family's financial well-being and that the military 
spouse unemployment rate is much higher (10 percent) than the National 
rate. The loss of the spouse's income at exactly the time when the 
family is facing the cost of a government ordered move is further 
exacerbated when the spouse is unable to collect unemployment 
compensation. Lacking the financial cushion provided by the receipt of 
unemployment compensation, the military spouse must often settle for 
``any job that pays the bills'' rather than being able to search for a 
job that is commensurate with his or her skills or career aspirations. 
This in turn hurts morale and affects recruitment and retention of the 
servicemember
    With a concern that spouses desiring better careers will encourage 
servicemembers to leave the military, DOD is acknowledging the 
importance of efforts to support spouse employment. Recent DOD 
initiatives include the collaboration between DOD and Department of 
Labor (DOL), which focuses on:

        <bullet> establishing Milspouse.org, a resource library for 
        military spouse employment, education and relocation 
        information,
        <bullet> establishing One Stop Career Centers near major 
        military installations (Norfolk, Virginia; San Diego, 
        California; Fort Campbell, Kentucky),
        <bullet> expanding opportunities for Guard and Reserve members 
        and military spouses to access training and education grants,
        <bullet> exploring options with states to offer unemployment 
        compensation to military spouses when unemployment is the 
        result of a permanent change of station (PCS) move, and
        <bullet> improving reciprocity for State certifications and 
        licensing requirements.

    Unfortunately, funds for this promising collaboration have run out 
and are not due to be reinstated. NMFA believes this lack of funding is 
a significant blow to the promise of these early initiatives. We also 
believe the DOL is best positioned to provide the coordination 
necessary with states and other agencies to promote opportunities for 
military spouse employment.
    DOD has also sponsored a partnership with Monster.com to create the 
Military Spouse Career Center (www.military.com/spouses) and recently 
announced the availability of free career coaching through the Spouse 
Employment Assessment, Coaching and Assistance Program (SEACA). 
However, with more than 700,000 Active Duty spouses, the task of 
enhancing military spouse employment is too big for DOD to handle 
alone. Improvements in employment for military spouses and assistance 
in supporting their career progression will require increased 
partnerships and initiatives by a variety of government agencies and 
private employers. NMFA applauds current partnerships through the Army 
Spouse Employment Partnership (ASEP) where currently 26 corporate and 
government partners have pledged to provide solid employment 
opportunities to military spouses. Although marketed as an Army 
initiative, all military spouses may take advantage of this program. 
Unfortunately, without the ability to track the actual hiring numbers, 
it is difficult to determine the success of these partnerships.
    Despite greater awareness of the importance of supporting military 
spouse career aspirations, some roadblocks remain. In addition to their 
inability to qualify for unemployment compensation in many states, 
military spouses may not be eligible for the many labor and workforce 
development opportunities offered in the states in which their 
servicemember is assigned. As the military streamlines operations and 
contracts out many services, military spouses may find the contract 
positions have significant disadvantages over positions as non-
appropriated fund (NAF) or civil service employees. While one could 
argue that the ability to be a contractor provides a spouse with some 
flexibility, this ``opportunity'' also brings significant monetary 
implications for the military spouse. What many spouses do not realize 
until it is too late is that, as a contractor, a spouse enjoys none of 
the regular employee benefits available through NAF or civil service 
positions. In addition, they must file quarterly tax statements to pay 
self-employment tax. NMFA asserts it is time to take a closer look at 
the efficiencies of contracting and the resulting impact on military 
spouses who frequently fill these contractor positions.
    Many military spouses trying to improve their employment prospects 
encounter another set of barriers as they seek further education. As 
one spouse stated in a recent NMFA on-line spouse education and 
employment survey: ``My resume looks like I cannot hold a job, never 
mind that I have worked since I was 15! Low salary, no time to accrue 
seniority, no time for education to improve skills all lead to low self 
esteem. Never mind that when my husband retired he had access to the 
MGIB and subsequently has finished two masters' degrees while my 
options are still limited.''
    In the 2006 DMDC Survey for Military Families, 87 percent of 
spouses report education/training is a personal goal and 54 percent 
report training would have helped during their last relocation. The 
high cost of education, the lack of uniformly-authorized in-state 
tuition, and the high cost of transferring certifications and licenses 
from State to State are challenges that must be addressed.
    NMFA has also been aware of these challenges. In 2006, the 
Association's Joanne Holbrook Patton Military Spouse Scholarship 
Program garnered slightly over 8000 applicants! An analysis of 
responses reaffirmed that military spouses have a strong commitment to 
educational advancement even as they struggle to juggle school, work 
and family, especially with today's current deployments. They 
understand that service life brings unique educational challenges, 
which often influences their career choices as well. NMFA is developing 
educational tools to enhance a spouse's ability to navigate through the 
frustrating years it can take to complete a degree. The NMFA Military 
Spouse Education Resource Guide is now in its second printing. In 
January 2007, NMFA launched its new on-line Military Spouse Education 
web section, a comprehensive resource about higher education tailored 
for the military spouse. (http://www.nmfa.org/spouseeducation). But 
even with all these initiatives and scholarship opportunities the need 
continues to be great. As one spouse put it: ``I have searched for 
education or tuition reimbursement for military spouses and I have 
found no help. I don't qualify for grants or financial aid because my 
spouse makes too much money . . . I see many scholarships for military 
children or children of the fallen but very little for spouses. How can 
a spouse further her education when there is very little help for us?''
    NMFA is pleased to report that some States are examining their in-
State tuition rules and licensing requirements to ease spouses' ability 
to obtain an education or to transfer their occupation as they move. 
NMFA is appreciative of the efforts by DOD to work with States to 
promote the award of unemployment compensation to military spouses, 
eligibility for in-State tuition, and reciprocity for professional 
licenses. DOD has also recognized that it is imperative that programs 
be developed to move the 22,500 military spouses without a high school 
degree towards General Education Development (GED) certificates and 
address the 52,000 military spouses with a high school diploma who need 
to move toward an Associate or technical degree.

          NMFA asks that the partnership between DOD and DOL be 
        realigned to give DOL the authority to serve military spouses 
        through legislative changes designating military spouses as an 
        eligible group for funds for training and education. 
        Furthermore, NMFA asks Congress to promote Federal and state 
        coordination to provide unemployment compensation for military 
        spouses as a result of Permanent Change of Station (PCS) 
        orders. NMFA asks Congress to promote Federal and State 
        coordination to make college credits and fees more easily 
        transferable and adopt State education policies that permit a 
        military spouse to qualify for in-State tuition regardless of 
        servicemember's duty location. NMFA also supports programs or 
        legislative changes that would give local Workforce Investment 
        Boards the opportunity to provide education and training 
        assistance to military spouses. Private sector employers who 
        protect employment and/or education flexibility of spouses and 
        other family members impacted by deployment should be applauded 
        as role models.

                        MENTAL HEALTH CHALLENGES

    As the war continues, families' need for a full spectrum of mental 
health services--from preventative care to stress reduction techniques, 
to individual or family counseling, to medical mental health services--
continues to grow. In a recent meeting in Alaska with Chairman of the 
Joint Chiefs of Staff General Peter Pace, military spouses asked him 
for more counseling resources to help them recognize potential 
difficulties their servicemembers were facing as a result of combat 
experience. They also asked these services be made available to 
servicemembers and commanders grappling with these problems. The recent 
press reports on Walter Reed Army Medical Center also emphasized the 
need for additional counselors and mental health services for both 
wounded servicemembers and their families.
    NMFA was dismayed to learn recently that Medicare reimbursement 
rates for mental health services were lowered, thus also lowering 
TRICARE reimbursement rates. These cuts for mental health service can 
be as high as 9 percent. Currently, California, North Carolina, and 
Kentucky have implemented the rate change. All three of these states 
contain military installations experiencing high operational tempos. 
NMFA is hearing psychiatrists will continue to see current patients, 
but will be reluctant to accept additional TRICARE patients. Given the 
shortage of mental health specialists, rate cuts will only further 
erode access to quality mental health services for military families 
during a time of war when they need them most.
    As servicemembers and families experience numerous lengthy and 
dangerous deployments, NMFA believes the need for confidential, 
preventative mental health services will continue to rise. It will also 
remain high for some time even after military operations scale down in 
Iraq and Afghanistan. NMFA has seen progress in the provision of mental 
health services, access to those services, and military servicemember 
and family well-being. However, the progress is ongoing and barriers to 
quality mental health care remain.

                             PROGRESS MADE

    NMFA has been impressed with the increased range of mental health 
support offered in theater for servicemembers, especially with the use 
of combat stress teams. Combat stress teams move out when needed to the 
unit level to provide advice, support, and counseling to soldiers who 
are having some adjustment problems or issues related to combat. They 
assess the troops, work at preventive mental health, find out what 
stresses they are struggling with, and assist the commander in helping 
the servicemembers deal with that stress.
    NMFA has often expressed concern about the deployment of 
servicemembers who had been diagnosed with mental health conditions. We 
have been especially concerned about the use of psychiatric medications 
in theater and the ability of mental health providers to monitor 
servicemembers' use of these medications and address possible side 
effect issues in a combat environment. We congratulate DOD for issuing 
policy guidance on the deployment of servicemembers with mental health 
diagnoses and the monitoring of their conditions (http://
www.ha.osd.mil/policies/2006/061107--deployment-limiting--psych--
conditions--meds.pdf). We hope this guidance will provide consistency 
among the Services in how they determine servicemembers' fitness for 
deployment and the support available to them in theater.
    Some communities have also adopted the combat stress team model to 
support the families of the deployed during periods when they know the 
unit is engaged in combat or has experienced casualties. In NMFA's 
Cycles of Deployment survey report (http://www.nmfa.org/site/DocServer/
NMFACyclesofDeployment9.pdf?docID=5401), respondents stated 
professional mental health resources need to be directed to support the 
volunteer leadership of the Family Readiness/Support Groups (FRGs). The 
Rear Detachment of the 1st Brigade of the 1st Armored Division, based 
in the Freidberg/Giessen area of Germany, made providing this support a 
community priority. It established a Combat Operational Stress Team 
made up of social workers, Alcohol and Substance Abuse Counselors, and 
other mental health providers and assigned them as resources to the 
various battalions' FRGs. By bringing these available community-based 
mental health resources to the battalion volunteers, the team could 
identify problem areas more quickly and target their support efforts. 
For example, when it was apparent that several of the survivors of 
active duty deaths were choosing to remain in Germany rather than 
immediately go back to the United States, the rear detachment formed a 
Bereavement Support Group, assisted by members of the stress team.
    The 1st Armored Division communities were also among the handful of 
Army installations to create care teams to assist families when the 
unit has a casualty. The concept behind the care team is that rear-
detachment commanders and Family Readiness Group leaders have 
volunteers ready to provide immediate support as the notification teams 
leave, rather than scrambling around. Care teams--each with two or 
three members--train to do everything from looking after children, to 
anticipating potential crises, to fending off ``concerned'' neighbors 
at a vulnerable time. Each care team goes through careful screening and 
training, then undergoes debriefings after helping families to make 
sure they do not suffer themselves from what is always an emotional 
test.
    As deployments have continued, the military Services have refined 
programs dealing with the return and reunion process. Families worry 
about how the reunion will go even as they are worrying about the 
servicemember's safety in theater. Recent concerns about military 
divorce rates have prompted even more programs aimed at couples' 
reunion and reintegration. The Services recognize the importance of 
educating servicemembers and their families about how to achieve a 
successful homecoming and reunion and have taken steps to improve the 
return and reunion process. Information gathered in the now-mandatory 
post-deployment health assessments may also help identify 
servicemembers who may need more specialized assistance in making the 
transition home. Successful return and reunion programs will require 
attention over the long-term.
    Multiple deployments are no longer the exception but rather the 
norm. Families experiencing a second or third deployment never start 
from the same place. Along with skills acquired during the first 
deployment, there are unresolved anxieties and expectations from the 
last. New families are entering the cycle, whether they are new 
recruits, servicemembers deploying with new units, or families whose 
life situations have changed since the last deployment. An example of 
the progress made in supporting the more complicated readjustments now 
becoming commonplace is the Army's new Battlemind program 
(www.battlemind.org). The Battlemind training videos, currently 
available for post-deployment training provide servicemembers with 
common scenarios they might face on their return home, as well as show 
them how skills developed on the battlefield to keep themselves alive 
may make their readjustment more difficult. NMFA is pleased future 
Battlemind programs will be aimed at helping family members with their 
readjustment.
    According to the NMFA Cycles of Deployment survey report, families 
are also concerned about the relationships among other family members 
during this critical reunion phase. How children, especially the very 
young or the teenagers, will re-connect with a parent was a common 
theme. NMFA would like to see the concept behind the couples' programs 
extended to focus on the reintegration of the entire family. As pointed 
out in the recently-released American Psychological Association report, 
(http://www.apa.org/releases/MilitaryDeploymentTaskForceReport.pdf), 
scholarly research is needed on the short- and long-term effects of 
deployment on military families, especially the children. We urge 
Congress to direct DOD to enter into research agreements with qualified 
research organizations to expand our Nation's knowledge base on the 
mental health needs of the entire military family: servicemembers, 
spouses, and children. Special attention must be paid to issues 
affecting wounded servicemembers and their families, as well as 
surviving spouses, children, and other family members. Solid research 
on the needs of military families is needed to ensure the mix of 
programs and initiatives available to meet those needs is actually the 
correct one.
    Because military families look to schools for support and because 
schools have a vested interest in ensuring children are able to focus 
on learning, NMFA recommends more resources be targeted to provide 
counseling and make available mental health services in the schools. To 
determine what is needed, an assessment should be made of existing 
mental health services provided by DOD and civilian schools serving 
large populations of military children. This assessment should also 
attempt to validate anecdotal reports that disruptions and stress among 
military children related to deployments are resulting in increased 
medication use, behavioral problems, or declines in educational 
performance.
    Information gathered in the now-mandatory post-deployment health 
assessments may also help identify servicemembers who may need more 
specialized assistance in making the transition home. Successful return 
and reunion programs will require attention over the long term, as well 
as a strong partnership at all levels between the various mental health 
arms of the DOD and VA.
    The DOD contract for Military OneSource enables servicemembers and 
families to receive up to six free face-to-face mental health visits 
with a professional outside the chain of command. NMFA is pleased DOD 
has committed to funding the counseling provided under the OneSource 
contract. This counseling is not medical mental health counseling, but 
rather assistance for family members in dealing with the stresses of 
deployment or reunion. It can be an important preventative to forestall 
more serious problems down the road.
    Since May 2004, MHN, the behavioral health division of HealthNet, 
has provided under contract with DOD short-term, solution focused, non-
medical family and daily living counseling to active duty, National 
Guard and Reserve members, and their families (continental United 
States (CONUS) and outside CONUS (OCONUS). The Military and Family Life 
Consultant (MFLC) program is preventative in nature and designed to 
reach out proactively to service personnel and their families with 
assistance as they cope with the stressors of deployment and reunion. 
The program complements existing installation resources, including 
medical, social services, alcohol and substance abuse programs, 
schools, and chaplains. Support is provided to all Service branches, 
although the greatest utilization has been by the Army, followed by the 
Marines. The program also makes available behavioral and financial 
consultants at a number of Navy installations in Hurricane Katrina-
affected areas and supports airmen and their families at a number of 
OCONUS locations. Currently, there are approximately 150 licensed 
consultants providing support in Europe, the Pacific Rim and stateside.
    While the consultants are equipped to address various needs, a 
significant amount of support is focused on coping with stress and 
marriage and family issues. Counselors generally work out of the 
military centers and are available to assist units or family readiness 
groups. They try to be visible when servicemembers are returning to 
their installations or during drill weekends for recently-returned 
Guard and Reserve members. While many servicemembers and their families 
are able to benefit solely from the support offered through the 
consultants, there are, on occasion, instances when more extensive 
support is required. In such cases, the consultants (all licensed 
social workers or psychologists) guide the member to the clinical and 
professional resources available at military installations, as well as 
via TRICARE.
    NMFA has found that families and family support professionals have 
generally welcomed these additional counseling resources to their 
communities. We believe the Marriage and Family Life Consultants are 
most effective when fully integrated into ongoing support activities on 
an installation. Thus, their success is dependent on the buy-in from 
the family center personnel. The consultants working in overseas 
communities experience a greater challenge in integrating their 
services with other installation programs. Host-nation rules generally 
limit the time these counselors may work in one location to only a few 
weeks. Thus, their effectiveness is dependent on both the willingness 
of local family center staff to use them and on the consultants' 
ability to do a smooth hand-off with their replacements. While 
important in enhancing the preventative mental health capabilities in a 
community, these consultants are not a replacement for the mental 
health providers who have been deployed. Families continue to raise 
concerns that more providers who can do long-term counseling and 
treatment are needed.

          We ask Congress to encourage DOD to expand research into the 
        emotional, educational, and deployment-related challenges 
        affecting military families. NMFA also requests that Congress 
        investigate the effects of recent TRICARE mental health 
        reimbursement rate cuts on military families' access to care.

                            BARRIERS TO CARE

    The military offers a variety of mental health services, both 
preventative and treatment, across many helping agencies and programs. 
On a typical installation, families can access stress management 
classes through the family center staff, the military and family life 
consultants, chapel programs, hospital, family readiness group 
meetings, or through orientation programs such as Army Family Team 
Building. They can find marriage and family counseling through the 
family centers, chaplains, or social workers at the military hospitals. 
They can call Military OneSource and request a visit with a counselor 
outside the military system paid through that contract. If a medical 
condition, such as depression or an anxiety disorder, is suspected, 
families can receive services, where available, through military 
treatment facilities or TRICARE civilian providers.
    As outlined above, DOD and the individual Services have added many 
deployment-related support, counseling, and stress management programs 
to supplement existing mental health programs. These programs, however, 
are primarily stand-alone. Coordination across the spectrum is rare. 
Families tell NMFA that the proliferation of programs, while beneficial 
to those who seek them out or are able to take advantage of them, has 
increased their confusion about where to go or who to see to get the 
help they need. A first step in this needed coordination would be to 
integrate training among OneSource counselors, installation-based 
family support professionals, and Family Assistance Center employees of 
the Guard and Reserve to facilitate information, collaboration, and 
counseling efforts to best support military families. A second step 
would be to increase linkages at the local level between military 
installation mental health providers, civilian providers, and school 
personnel to enhance training and access to care.
    Timely access to the proper provider remains one of the greatest 
barriers to quality mental health services for servicemembers and their 
families. NMFA and the families it serves have noted with relief that 
more providers are deployed to theaters of combat operations to support 
servicemembers. The work of these mental health professionals with 
units and individuals close to the combat action they experience have 
proved very helpful and will reduce the stress that impedes 
servicemembers' performance of their mission and their successful 
reintegration with their families.
    While families are pleased more mental health providers are 
available in theater to assist their servicemembers, they are less 
happy with the resulting limited access to providers at home. Families 
report increased difficulty in obtaining appointments with social 
workers, psychologists, and psychiatrists at their military hospitals 
and clinics. The military fuels the shortage by deploying some of its 
child and adolescent psychology providers to the combat zones. 
Providers remaining at home stations report they are frequently 
overwhelmed treating active duty members who either have returned from 
deployment or are preparing to deploy to fit family members into their 
schedules. A recent survey on counseling conducted by the European 
Command documents the access problems NMFA has heard from military 
families both CONUS and OCONUS. Many respondents stated that 
appointments are difficult to obtain, that chaplains and family center 
staff are also overworked, and that the specialized care needed for 
children and adolescents is persistently difficult to obtain.
    National shortages in this field, especially in child and 
adolescent psychology, are exacerbated in many cases by low TRICARE 
reimbursement rates, TRICARE rules, or military-unique geographical 
challenges: large populations in rural or traditionally underserved 
areas. Over the past year, several groups of civilian mental health 
providers who are willing to donate their services to servicemembers 
and family members have contacted NMFA. One of these groups is SOFAR, 
the Strategic Outreach to Families of All reservists 
(www.sofarusa.org). SOFAR providers, mostly based in New England, 
provide stress management sessions to Family Readiness Groups and 
individual counseling to family members, to spouses and children, as 
well as non-military-ID card holders, such as parents and significant 
others. The nonprofit Give an Hour (www.giveanhour.org) asks mental 
health providers to donate 1 hour per week for a year to assist 
servicemembers or family members who need these services. NMFA applauds 
the spirit to help military families that drives these ventures and 
believes that well-trained providers in these organizations can 
supplement local support services available to family readiness groups 
and unit rear detachment/party personnel, especially for isolated Guard 
and Reserve units. However, we are concerned about the difficulties in 
coordinating care provided outside the TRICARE system in case more 
serious issues emerge and the patient must come back into the system. 
While willing to see military beneficiaries in a voluntary status, 
these providers often tell us they will not participate in TRICARE 
because of what they believe are time-consuming requirements and low 
reimbursement rates. More must be done to persuade these providers to 
participate in TRICARE and become a resource for the entire system.
    NMFA also believes a legislative change is needed to expand the 
TRICARE provider base. Currently, by law, clinical social workers and 
marriage and family therapists can independently treat TRICARE 
beneficiaries for TRICARE-covered mental health conditions. Licensed 
mental health counselors are professionals with master's or doctoral 
degrees in counseling or a related discipline, training similar to that 
of clinical social workers and marriage and family therapists. They 
were excluded from the legislative authority to treat TRICARE patients 
as independent providers and may only see TRICARE patients under the 
supervision of a physician. This requirement increases the difficulty 
for TRICARE patients in accessing care, limits their choice of 
provider, and may, by providing an additional step in the process of 
obtaining care, discourage beneficiaries from seeking care. A provision 
to grant licensed mental health counselors independent practice 
authority under TRICARE was included in the House version of the NDAA 
for Fiscal Years 2006 and 2007, only to fall out of the final 
conference versions. NMFA asks Congress to try again this year to 
achieve this necessary change to expand the military medical facility 
and TRICARE provider base by authorizing independent practice by 
licensed mental health counselors.
    NMFA continues to hear that some servicemembers and families feel 
the stigma against seeking mental health care and choose to try to 
``ride out'' the rough spots on their own. We believe, however, based 
on our survey data and conversations with family members that the 
increased stress caused by multiple deployments is causing more 
families to seek help. While this increased stress in the military 
family is bad news, the good news for family support professionals who 
believe military families are reluctant to seek help for mental health 
issues is that many now recognize counseling is an option for them. 
Families perceive counseling and mental health support as especially 
helpful if it is confidential and with a professional familiar with the 
military. One spouse who met recently with General Pace in Alaska noted 
what she felt she and her servicemember spouse needed most: ``When my 
husband talks to me, I don't even know how to respond to some of the 
things he says. If they can talk among themselves, without fear of 
repercussion, maybe that would help.''
    To measure the stigma associated with seeking behavioral health 
care, the Army's Third Mental Health Advisory Team (MHAT) asked 
soldiers five different questions. The team found that the number of 
soldiers who agreed there was stigma associated with seeking this care 
decreased significantly from MHAT I to MHAT III. While these findings 
are encouraging, we include the persistent stigma as a barrier that 
must still be addressed. Commanders must be engaged in this process to 
model behaviors that promote the seeking of counseling and support.
    Many mental health experts state that some post-deployment problems 
may not surface for several months or years after the servicemember's 
return. NMFA is especially concerned that not as many services are 
available to the families of returning Guard and Reserve members and 
servicemembers who leave the military following the end of their 
enlistment. They may be eligible for transitional health care benefits 
and TRICARE Reserve Select. The servicemember may seek care through the 
Veterans' Administration, but what happens when the military health 
benefits run out and deployment-related stresses still affect the 
family? Reports of Vietnam and even World War II veterans showing up at 
VA facilities in need of counseling after viewing news reports of the 
war in Iraq remind all of us that PTSD and other mental health effects 
of the war can linger for years, thus requiring the availability of 
care for many years in the future. Congress must address not just the 
current needs of the force and families, but also their long-term need 
for continued access to services.
    We ask Congress to also address the distance issues families face 
in linking with military mental health resources and obtaining 
appropriate care. Isolated Guard and Reserve families do not have the 
benefit of the safety net of services provided by military treatment 
facilities and installation family support programs, however strained. 
They look to resources in their communities. Often, however, these 
local providers may not have an understanding of military life or an 
appreciation of the servicemember's choice to serve. Especially when 
dealing with the mental health consequences of deployment, families 
want to be able to access care with a provider who understands or is 
sympathetic to the issues they face. More education to civilian health 
care providers, as well as religious and education professionals, will 
help to broaden the support base for military families and improve the 
quality of the mental health services they receive. Alternative methods 
for providing mental health services to rural areas should be explored, 
such as telemental health.
    In the sixth year of the war on terror, care for the caregivers 
must become a priority. NMFA hears from the senior officer and enlisted 
spouses who are so often called upon to be the strength for others. We 
hear from the health care providers, educators, rear detachment staff, 
chaplains, and counselors who are working long hours to assist 
servicemembers and their families, known as compassion fatigue. Unless 
these caregivers are also afforded a respite and care, they will be of 
little use to those who need their services most.
    NMFA also sees a need for specific training in bereavement and 
other counseling for family readiness group leaders, ombudsmen, and key 
volunteers. Many widows say they suddenly felt shut out by their old 
unit or community after the death of their servicemember. Often the 
perceived rejection is caused by a lack of knowledge on the part of 
other families about how to meet the needs of the survivors in their 
midst. Because they find contact with survivors difficult, they shy 
away from it. In some communities, support groups outside the unit 
family support chain have been established to sustain the support of 
the surviving families in the days and months after the death of the 
servicemember. As part of the standardization and improvement of the 
casualty assistance process, more effort needs to be placed at the 
command level on supporting the long-term emotional needs of survivors 
and of communities affected by loss. The implementation of the Care 
Team process on a broader scale not only supports survivors, but also 
those community volunteers who bear the burden of support.
    Because the VA has as part of its charge the ``care for the widow 
and the orphan,'' NMFA was concerned about recent reports that many Vet 
Centers did not have the qualified counseling services they needed to 
provide promised counseling to survivors, especially to children. DOD 
and the VA must work together to ensure surviving spouses and their 
children can receive the mental health services they need. New 
legislative language governing the TRICARE behavioral health benefit 
may also be needed to allow TRICARE coverage of bereavement or grief 
counseling. While some widows and surviving children suffer from 
depression or some other medical condition for a time after their loss, 
many others simply need counseling to help in managing their grief and 
helping them to focus on the future. Many have been frustrated when 
they have asked their TRICARE contractor or provider for ``grief 
counseling'' only to be told TRICARE does not cover ``grief 
counseling.'' Available counselors at military hospitals can sometimes 
provide this service and certain providers have found a way within the 
reimbursement rules to provide needed care, but many families who 
cannot access military hospitals are often left without care because 
they do not know what to ask for or their provider does not know how to 
help them obtain covered services. Targeted grief counseling when the 
survivor first identifies the need for help could prevent more serious 
issues from developing later.
    Many of the issues facing survivors also face servicemembers who 
were wounded or injured and their families. Because many of these 
servicemembers are medically retired and will continue to access 
military health care benefits, in addition to VA assistance, 
appropriate mental health services must be available in both systems to 
them and their families. Counselors working with these families must 
understand the effects of trauma and help them deal with the ongoing 
challenges involved in the care of the servicemember, as well as the 
upheaval that injury has caused to the family as a whole. Mental health 
professionals must have a greater understanding of the effects of mild 
Traumatic Brain Injury in order to help accurately diagnose and treat 
the servicemember's condition. They must be able to deal with 
polytrauma--PTSD in combination with multiple physical injuries.

          DOD must balance the demand for mental health personnel in 
        theater and at home to help servicemembers and families deal 
        with unique emotional challenges and stresses related to the 
        nature and duration of continued deployments. Rear detachment 
        personnel and family readiness volunteers need mental health 
        professionals dedicated to assist them in supporting families 
        of the fallen and injured and others who may become overwhelmed 
        by the stresses of deployment. We ask Congress to encourage DOD 
        to step up the recruitment of uniformed mental health providers 
        and the hiring of civilian providers to assist servicemembers 
        in combat theaters AND at home stations to care for the 
        families of the deployed and servicemembers who have either 
        returned from deployment or are preparing to deploy. TRICARE 
        contractors should be tasked with stepping up their efforts to 
        attract mental health providers into the TRICARE networks and 
        to identify and ease the barriers providers cite when asked to 
        participate in TRICARE.

                         ACCESS TO HEALTH CARE

    NMFA thanks members of these subcommittees for their continued 
support for a robust military health care system. We ask you to 
remember the multi-faceted mission of this system. It must meet the 
needs of servicemembers and the Department of Defense (DOD) in times of 
armed conflict. The Nation must also acknowledge that military members, 
retirees, their families, and survivors are indeed a unique population 
with unique duties, who earn an entitlement to a unique health care 
program. We ask you to recognize that the military health care system, 
which showed signs of stress even before the start of the global war on 
terror, is now significantly taxed.
    NMFA and the families it serves have been gratified to see the 
medical improvements on the battlefield and in military hospitals, 
which have raised the survival rate of casualties. NMFA asserts, 
however, as we have done for several years, that access to care remains 
the number one problem facing TRICARE beneficiaries, especially those 
who depend on military treatment facilities (MTFs). We were dismayed, 
but unfortunately not surprised, by the recent press reports 
highlighting the problems wounded servicemembers face in accessing care 
at Walter Reed Army Medical Center. As we have stated in previous 
testimonies before the Personnel Subcommittee, military families often 
cite problems accessing care at MTFs. What was particularly disturbing 
to us was that we know families are willing to wait longer than they 
should for care so that servicemembers can receive first priority. 
Families have every right to be horrified, therefore, when they find 
those who bear the scars of battle are having the same or worse access 
issues.
    Recent statements by the Service Surgeons General before the new 
Task Force on the Future of Military Health Care highlighted the 
funding problems facing the direct care system. These shortfalls are 
experienced first-hand by military families enrolled in TRICARE Prime 
when they find their MTF cannot meet prescribed access standards. No 
one is more cognizant of the need for superior health care to be 
provided to servicemembers in harm's way than their families. In 
addition, no one is more willing to change providers or venues of care 
to accommodate the need for military health care providers to deploy 
than the families of those deployed. However, a contract was made with 
those who enrolled in Prime. Beneficiaries must seek care in the manner 
prescribed in the Prime agreement, but in return they are given what 
are supposed to be guaranteed access standards. When an MTF cannot meet 
those standards, appointments within the civilian TRICARE network must 
be offered. In many cases, this is not happening and families are told 
to call back next week or next month. In other cases, MTFs must send 
enrolled beneficiaries to providers in the civilian network, thus 
increasing costs to the system as a whole.
    Because operational requirements have reduced the number of 
uniformed health care personnel available to serve in the MTF system, a 
more coordinated approach is needed to optimize care and enable MTFs to 
meet access standards. We continue to hear that difficulties in the 
Service contracting process prevent MTFs from filling open contract 
provider slots and thus optimizing care within their facilities. 
Efficient contracting for health care staffing could increase the 
amount of care provided in the direct care system, thereby reducing the 
overall cost of care to the military health care system. NMFA suggests 
Congress direct DOD to reassess the resource sharing program used prior 
to the implementation of the T-Nex contracts and take the steps 
necessary to ensure MTFs meet access standards with high quality health 
care providers.
    MTFs must have the resources and the encouragement to ensure their 
facilities are optimized to provide high quality, coordinated care for 
the most beneficiaries possible. They must be held accountable for 
meeting stated access standards. If funding or personnel resource 
issues are the reason access standards are not being met, then 
assistance must be provided to ensure MTFs are able to meet access 
standards, support the military mission, and continue to provide 
quality health care.

          NMFA asks all Members of Congress to hold DOD accountable for 
        providing access to quality care to all TRICARE beneficiaries 
        and to ensure the system is adequately resourced to provide 
        that access.

                    HELP FOR FAMILIES FAR FROM HOME

    NMFA is concerned with the inequity of health care options being 
offered to pregnant spouses of servicemembers who are stationed at 
remote embassies in Africa, Eastern Europe, Asia, and other overseas 
areas. Appropriate medical care for the delivery does not exist at 
their duty station. As their delivery date approaches, pregnant women 
at remote sites in Africa and Eastern Europe are often sent to 
Landstuhl Military Medical Center in Germany to await the birth of 
their child. They may arrive as early as 6 weeks before their due date. 
They are put up in the ``Stork's Nest''--a Visiting Officers' Quarters 
in Landstuhl with other waiting mothers-to-be. If they have other 
children, they must find care for them at their home station or bring 
them with them at their own expense to Landstuhl. They endure a long 
bus ride to the hospital for appointments and another long bus ride 
back.
    What's wrong with this picture? The wife of the ambassador, consul 
or staffer working for the State Department can choose to go back to 
the States at government expense and stay with family until the birth 
of their child. So can military spouses who are stationed in Central 
and South America. In some cases, spouses in other locations will 
receive permission and funding to travel back to the states to have 
their babies; however, families report no consistency in how the policy 
is followed and who might be ``lucky'' enough to receive permission and 
funding to go to the states. Until recently, NMFA had been told this 
issue could be settled by policy within DOD Health Affairs. Now, we are 
hearing legislation is needed to give pregnant military spouses the 
choice of coming back to the states to have their child or staying 
alone in Landstuhl at the Stork's Nest while they wait to deliver.

          NMFA requests that Congress investigate the policy governing 
        OB care given military spouses in remote locations and require 
        that pregnant military spouses stationed in these locations be 
        given a choice as to where to deliver their children at 
        government expense.

                SUPPORT FOR FAMILIES WITH SPECIAL NEEDS

    NMFA is grateful to Congress for directing DOD, in Section 717 of 
the NDAA for Fiscal Year 2007, to develop a plan to provide services to 
military dependent children with autism. This complicated condition 
places a burden on many military families. Unfortunately, current 
TRICARE policies increase that burden because families cannot access 
the care their children need. Frequent military moves make it difficult 
for these children to receive a consistent level of services. 
Deployment of a servicemember removes a caregiver from the home, making 
managing therapy and doctors' appointments, negotiating with school 
officials for suitable services, and caring for other children in the 
family difficult for the parent remaining behind. In the NDAA for 
Fiscal Year 2002, Congress authorized the Extended Care Health Option 
(ECHO) to provide additional benefits to active duty with a qualifying 
mental or physical disability in recognition of extraordinary 
challenges faced by active duty families because of the servicemember's 
deployment or frequent relocations that often make accessing services 
in the civilian community difficult.
    As we stated last year, families with autistic children reported 
difficulties in obtaining Applied Behavioral Analysis (ABA) therapy 
since the implementation of ECHO. We appreciate your support of section 
717 and its recognition that DOD was not fulfilling its obligation to 
these families. We thank Congress for requiring the Department to seek 
family member input in developing its plan and are monitoring this 
process closely. DOD sought parent input through a special e-mail 
address and is also working with selected parents on aspects of the 
plan. NMFA is also gathering additional input from parents, which it 
has shared with the TRICARE Management Activity. We will be working to 
ensure the concerns of these military servicemembers and spouses are 
addressed in the plan. We also thank Service leaders, especially in the 
Marine Corps, for their interest in this issue and in ensuring the plan 
will be responsive to family and mission needs.
    We remain concerned that military servicemembers with special needs 
family members continue to battle a lack of information or support and 
are often frustrated by the failure of the military health care and 
family support systems to work together and with civilian agencies to 
support their families' needs. Like the servicemembers featured in the 
recent press reports of problems at Walter Reed, special needs military 
families often experience a system that relies on them to connect the 
dots and seek out resources rather than providing the care coordination 
they need.

          NMFA requests this subcommittee monitor DOD's development of 
        a plan to support military family members with autism and to 
        ensure servicemembers with special needs family members are 
        provided the support they need.

                             MILITARY MOVES

    NMFA is gratified that Congress set a deadline in the NDAA for 
Fiscal Year 2007 for DOD to implement the ``Families First'' program 
for Permanent Change of Station (PCS) moves. This program is long 
overdue. It will provide much needed protections to military families 
entrusting their most precious possessions to movers, as well as full 
replacement value reimbursement for goods lost or damaged in a move. We 
implore you to continue to hold DOD's feet to the fire to deliver this 
long awaited program for military families.
    We also ask Congress to recognize that military spouses accumulate 
professional goods over the course of a military career. Frequent moves 
make it difficult to establish and maintain professional materials used 
for a job or volunteer activities that will ultimately count against 
the family's weight allowance when the time to move arrives. Military 
members are permitted a professional goods weight allowance to 
compensate for the computers, books, and equipment that must accompany 
them from duty station to duty station. We request that spouses be 
provided this professional courtesy as well.
    Finally, a PCS move to an overseas location can be especially 
stressful. Military families are faced with the prospect of being 
thousands of miles from extended family and living in a foreign 
culture. At many overseas locations, there are insufficient numbers of 
government quarters resulting in the requirement to live on the local 
economy away from the installation. Family members in these situations 
can begin to feel extremely isolated; for some the only connection to 
anything familiar is the local military installation. Unfortunately, 
current law permits the shipment of only one vehicle to an overseas 
location, including Alaska and Hawaii. Since most families today have 
two vehicles, they sell one of the vehicles. Upon arriving at the new 
duty station, the servicemember requires transportation to and from the 
place of duty leaving the military spouse and family members at home 
without transportation. This lack of transportation limits the ability 
of spouses to secure employment and the ability of children to 
participate in extra curricular activities. While the purchase of a 
second vehicle alleviates these issues, it also results in significant 
expense while the family is already absorbing other costs associated 
with a move. Simply permitting the shipment of a second vehicle at 
government expense could alleviate this expense.

          NMFA requests that Congress ease the burden of military PCS 
        moves on military families by authorizing a professional goods 
        weight allowance for military spouses and by authorizing the 
        shipment of a second vehicle for families assigned to an 
        overseas location on accompanied tours.

                  WOUNDED SERVICEMEMBERS IN TRANSITION

    As revealed in the series of articles about Walter Reed Army 
Medical Center, post-deployment transitions to and from a variety of 
DOD, VA, and civilian medical facilities and between military and 
civilian life can be especially problematic for injured servicemembers 
and their families. NMFA asserts that behind every wounded 
servicemember is a wounded family. Spouses, children, parents, and 
siblings of servicemembers injured defending our country experience 
many uncertainties. Fear of the unknown and what lies ahead in future 
weeks, months, and even years, weighs heavily on their minds. Other 
concerns include the injured servicemember's return and reunion with 
their family, financial stresses, and navigating the transition process 
to the VA. The system should alleviate, not heighten these concerns, 
and provide for coordination of care that starts when the family is 
notified the servicemember has been injured and ends with the DOD and 
VA working together to create a seamless transition as the injured 
servicemember transfers from active duty status to veteran. 
Interruption in their continuity of care can occur when the transfer of 
medical records between the two health care systems does not occur 
smoothly. The lack of a standardized DOD and VA electronic health 
record prevents the seamless transfer of information, which effects the 
quality of care given and received by wounded services members. NMFA 
urges Congress to request status reports on DOD and VA's partnership 
initiatives.
    Traumatic Brain Injury (TBI) is the signature wound for Operation 
Enduring Freedom and Operation Iraqi Freedom injured servicemembers. 
Long-term effects and appropriate treatment for this condition have not 
been adequately assessed. NMFA is concerned with DOD's decision to cut 
funding for basic research by 9 percent and 18 percent for applied 
research. Accurate diagnosis and proper treatment for TBI requires 
forward leaning initiatives by DOD and VA founded on solid research.
    When designing support for the wounded/injured in today's conflict, 
the ``government''--whether in the guise of commander, noncommissioned 
officer, Service personnel office, a family assistance center, an MTF, 
or the VA--must take a more inclusive view of military families and 
remember that a successful recovery depends on caring for the whole 
patient and not just the wound. Those who have the responsibility to 
care for the wounded servicemember must also consider the needs of the 
spouse, children, and the parents and siblings of single 
servicemembers. It is time to update TRICARE benefits to meet the needs 
of this population by allowing medically-retired wounded servicemembers 
and their families to retain access to the set of benefits available to 
active duty families during a transitional period following the 
servicemember's retirement. These benefits would include the ability to 
enroll in TRICARE Prime Remote and to continue coverage of a disabled 
family member under the ECHO.
    In the past, the VA and the DOD have generally focused their 
benefit packages for a servicemember's family on his/her spouse and 
children. Now, however, it is not unusual to see the parents and 
siblings of a single servicemember presented as part of the 
servicemember's family unit. In the active duty, and Reserve 
components, almost 50 percent are single. Having a wounded 
servicemember is new territory for many families. Regardless if the 
servicemember is married or single; their families will be affected in 
some way by the injury. As more single servicemembers are wounded, more 
parents and siblings must take on the role of helping their son, 
daughter, sibling through the recovery process. Family members are an 
integral part of the health care team. Their presence has been shown to 
improve their quality of life and aid in a speedy recovery.
    Spouses and parents of single servicemembers are included by their 
husband/wife or son/daughter's Military command and their family 
support and readiness groups during the deployment. When that 
servicemember is wounded, their involvement in their loved one's life 
does not change. Spouses and parent(s) take time away from their jobs 
in order travel to Walter Reed Army Medical Center or the National 
Naval Medical Center at Bethesda to be by their loved one. They learn 
how to care for their loved one's wounds and navigate an often 
unfamiliar and complicated health care system.
    The DOD and each military Service have developed unique programs to 
assist wounded servicemembers and their families: US Army Wounded 
Warrior Program (AW2), the Marine For Life (M4L), the Navy Safe Harbor, 
Air Force's Palace HART and the DOD Military Severely Injured Center 
(MSIC). When working well, these programs deliver information and 
provide support services for the injured and their families while still 
on active duty status. NMFA thanks the Services and the DOD for their 
efforts, but believes more must be done to ensure these programs are 
working the way they were intended to meet the needs of the growing 
number of wounded servicemembers and their families. The role of the 
DOD and the VA must be clearly explained and delineated and joint 
efforts between the Services and the VA in support of the wounded 
servicemember and their families continue as a priority.
    Because the increased number of wounded and the severity of wounds 
have strained Service programs, NMFA believes the Service wounded 
servicemember programs must be augmented with expanded case management 
support. A case manager could provide individual assistance for a 
wounded servicemember and their family while moving between the DOD to 
the VA health care systems. These individuals must have an 
understanding of the unique aspects presented in these cases, such as 
DOD and VA health care systems, eligibility for benefits and services, 
and the wounded servicemember's individual health care needs.
    To support wounded and injured servicemembers and their families 
NMFA recommends Congress:

        <bullet> Extend the 3-year transitional survivor health care 
        benefit to servicemembers who are medically retired and their 
        families and direct DOD to establish a Family Assistance Center 
        at every MTF caring for wounded servicemembers.
        <bullet> Allow for the wounded servicemember and family to have 
        input into the location of rehabilitation and recovery care. 
        The health care team would provide alternative sites, other 
        MTFs, VA hospitals, and civilian center of excellence in which 
        to choose. The wishes/desires of the wounded servicemember must 
        be kept in mind (i.e. close to home) along with a discussion of 
        the potential positive/negative aspects each place offers for 
        treatment and care.
        <bullet> Create a ``case manager'' assigned to individual 
        wounded servicemembers and their families to assist in the 
        coordination of care during recovery and rehabilitation phases 
        and transition from active duty to veteran status.
        <bullet> Establish requirements for ``case workers'' to be 
        familiar with the unique aspects presented with these cases and 
        receive standardized training to aid in maintaining the 
        continuity of care and improve the servicemember's quality of 
        life.
        <bullet> Remove the TGSLI disparity for eligible servicemembers 
        enabling all those who served in support of OIF and OEF 
        regardless of location after October 1, 2001 receive this 
        benefit.

                    PAY AND COMPENSATION CHALLENGES

    NMFA thanks members of these subcommittees for their recognition 
that servicemembers and their families deserve a comprehensive benefit 
package consistent with the extraordinary demands of military service. 
We ask you to continue to evaluate changing circumstances that may 
diminish the value of that package and threaten the retention of a 
quality force. We also ask you to recognize the interaction between the 
various elements of the compensation package and how they affect 
families' eligibility for certain state and Federal programs.
    Despite regular annual pay increases, in addition to targeted 
raises, over the past several years, military pay for some 
servicemembers still lags behind civilian pay. NMFA recommends a pay 
increase of not less than 3.5 percent for fiscal year 2008. We further 
urge that future increases remain at least one-half percentage point 
above private sector pay growth until the estimated 4 percent pay gap 
is eliminated.

              MILITARY ALLOWANCES AND SAFETY NET PROGRAMS

    In congressional testimony since 2003, NMFA has raised a long-
standing frustration for military families: the confusion involved in 
how and when military allowances are counted to determine eligibility 
for military and civilian programs. NMFA again reinforces the need for 
Members of Congress, as well as state officials, to assist in bringing 
a sense of order in how military allowances are counted for Federal and 
state programs. We ask you to help ensure equitable access to these 
safety net services and protect families against disruptions in benefit 
eligibility caused by the receipt of deployment pays. No family should 
have to face the prospect of losing valuable benefits for a disabled 
child because a servicemember has received deployment orders.
    Families living off the installation are often there only because 
of insufficient on-base housing, yet endure higher expenses than 
families living on an installation. Ideally, therefore, NMFA believes 
tax free allowances such as BAH should not be counted under any safety 
net program, which is how they are now treated in determining 
eligibility for the Earned Income Tax Credit (EITC). NMFA understands 
this could increase the number of military families eligible for some 
of these programs, but believe this increase is justified given the 
need for equitable treatment of all servicemembers, as well as the loss 
of spouse income due to military relocations and high operations tempo.

          Inconsistent treatment of military allowances in determining 
        eligibility for safety net programs creates confusion and can 
        exact a financial penalty on military families. A start in 
        correcting this inequity would be to adopt a common standard in 
        how BAH should be counted in eligibility formulas and to ensure 
        that the receipt of deployment-related allowances do not cause 
        military family members to become ineligible for support 
        services, such as the Supplemental Security Income (SSI), for 
        which they would otherwise be eligible.

                       COMMISSARIES AND EXCHANGES

    The commissary is a key element of the total compensation package 
for servicemembers and retirees and is valued by them, their families, 
and survivors. NMFA surveys indicate that military families consider 
the commissary one of their most important benefits. In addition to 
providing average savings of more than 30 percent over local 
supermarkets, commissaries provide an important tie to the military 
community. Commissary shoppers get more than groceries at the 
commissary. They gain an opportunity to connect with other military 
family members and to get information on installation programs and 
activities through bulletin boards and installation publications. 
Finally, commissary shoppers receive nutrition information and 
education through commissary promotions and educational campaigns 
contributing to the overall health of the entire beneficiary 
population.
    The military exchange system serves as a community hub, in addition 
to providing valuable cost savings to members of the military 
community. Equally important is the fact that exchange system profits 
are reinvested in important Morale Welfare and Recreation (MWR) 
programs, resulting in quality of life improvements for the entire 
community. We believe that every effort must be made to ensure that 
this important benefit and the MWR revenue is preserved, especially as 
facilities are down-sized or closed overseas. Exchanges must also 
continue to be responsive to the needs of deployed servicemembers in 
combat zones.

                    TRICARE FEES--WHAT'S THE ANSWER?

    Last year's proposal by DOD to raise TRICARE fees by exorbitant 
amounts resonated throughout the beneficiary population. Beneficiaries 
saw the proposal as a concentrated effort by DOD to change their earned 
entitlement to health care into an insurance plan. NMFA appreciates the 
concern shown by Members of Congress last year in forestalling any 
premium increase, emphasizing the need for the Department to institute 
more economies, and suggesting further investigation of the issue 
through a report by the Government Accountability Office and the 
creation of a task force on the future of military health care. We 
appreciate your recognition of the need for more information about the 
budget assumptions used by DOD, the effects of possible increases on 
beneficiary behavior, the need for DOD to implement greater 
efficiencies in the Defense Health Care Program (DHP), and the adequacy 
of the DHP budget as proposed by DOD. We appreciate the continued 
Congressional oversight responsibilities of these issues, but ask for 
your help in avoiding a funding train wreck that could impede military 
families' access to quality care. NMFA urgently requests that Congress 
reinstate the $1.9 billion deducted by DOD from the budget proposal for 
the Defense Health Program to reflect its savings due to their proposed 
policy initiatives, such as increased TRICARE fees.
    As we stated last year, NMFA believes DOD has many options 
available to make the military health system more efficient and thus 
make the need for large increases in beneficiary cost shares 
unnecessary. NMFA urges Congress to request status reports on DOD's 
implementation of the cost-cutting measures included in recent NDAAs 
and to ensure the Department is exhausting all reasonable measures of 
economy prior to seeking beneficiary fee increases. We encourage DOD to 
implement cost saving measures such as: a systemic approach to disease 
management; an ongoing, aggressive marketing campaign to increase use 
of the TRICARE Mail-Order Pharmacy (TMOP); eliminating contract 
redundancies; delaying the re-competition of the TRICARE contracts; 
speeding implementation of the Uniform Formulary process; and 
optimizing MTFs.
    NMFA remains especially concerned about what we believe is DOD's 
continued intention to create a TRICARE Standard enrollment fee. The 
precursor to TRICARE Standard, the basic benefit provided for care in 
the civilian sector, was CHAMPUS, which was then, as TRICARE Standard 
is now, an extension of the earned entitlement to health care. Charging 
a premium (enrollment fee) for TRICARE Standard moves the benefit from 
an earned entitlement to an opportunity to buy into an insurance plan. 
Standard is the only option for many retirees, their families, and 
survivors because TRICARE Prime is not offered everywhere. Also, using 
the Standard option does not guarantee beneficiaries access to health 
care, which beneficiaries opting to use Standard rather than Prime 
understand. DOD has so far not linked any guarantee of access to their 
proposals to require a Standard enrollment fee.
    In the ongoing debate about whether or not to raise TRICARE 
beneficiary fees, NMFA believes it is important for everyone 
participating in that debate to understand the difference between 
TRICARE Prime and TRICARE Standard and to distinguish between creating 
a TRICARE Standard enrollment fee and raising the Standard deductible 
amount. TRICARE Prime has an enrollment fee for military retirees; 
however, it offers enhancements to the health care benefit. These 
enhancements include: lower out-of-pocket costs, access to care within 
prescribed standards, additional preventive care, assistance in finding 
providers, and the management of one's health care. In other words, 
enrollment fees for Prime are not to access the earned entitlement, but 
for additional services. These fees, which have not changed since the 
start of TRICARE, are $230 per year for an individual and $460 per year 
for a family.

------------------------------------------------------------------------
                                         Prime             Standard
------------------------------------------------------------------------
Enrollment fees.................  $230/year for an    None
                                   individual; $460/
                                   year for a family.
Annual Deductibles..............  None..............  $150/individual;
                                                       $300 for a family
Outpatient co-payment (Prime)/    $12...............  25 percent of
 cost share (Standard) for                             allowed charges
 individual providers.                                 1,2
Inpatient co-payment/cost share   None..............  25 percent of
 for individual providers.                             allowed charges
                                                       1,2
Daily inpatient hospitalization   Greater of $11 per  Lesser of $535/day
 charge.                           day or $25 per      or 25 percent of
                                   admission.          billed charges if
                                                       treated in non-
                                                       network hospital
                                                       3
Emergency Services co-payment/    $30...............  25 percent of
 cost share.                                           allowed charges
Ambulance Services co-payment/    $20...............  25 percent of
 cost share.                                           allowed charges
Preventive Examinations (such     None..............  25 percent cost
 as: blood pressure tests,                             share 1,2
 breast exams, mammograms,
 pelvic exams, PAP smears,
 school physicals) co-payments/
 cost shares.
------------------------------------------------------------------------
\1\ Providers may charge 15 percent above the TRICARE allowable and the
  beneficiary is responsible for this additional cost, making the
  potential cost share 40 percent.
\2\ If care is accessed from a TRICARE Prime/Extra network provider the
  cost share is 20 percent.
\3\ If care is received in a TRICARE Prime/Extra network hospital, the
  daily hospitalization rate is the lesser of $250/day or 25 percent of
  negotiated charges.
(For a more detailed comparison of TRICARE costs, go to: http://
  www.tricare.mil/tricarecost.cfm)

    DOD's proposal last year to increase TRICARE Prime enrollment fees, 
while completely out-of-line dollar wise, was not unexpected. In fact, 
NMFA had been surprised DOD did not include an increase as it 
implemented the recent round of new TRICARE contracts. While increases 
were at least temporarily forestalled by Congress last year, NMFA 
believes DOD officials continue to support large increased retiree 
enrollment fees for TRICARE Prime, combined with a tiered system of 
enrollment fees and TRICARE Standard deductibles. NMFA believes any 
tiered system would be arbitrarily devised and would fail to 
acknowledge the needs of the most vulnerable beneficiaries: survivors, 
wounded servicemembers, and their families.
    Acknowledging that the annual Prime enrollment fee has not 
increased in more than 10 years and that it may be reasonable to have a 
mechanism to increase fees, NMFA last year presented an alternative to 
DOD's proposal should Congress deem some cost increase necessary. The 
most important feature of this proposal was that any fee increase be no 
greater than the percentage increase in the retiree cost-of-living 
adjustment (COLA). If DOD thought $230/$460 was a fair fee for all in 
1995, then it would appear that raising the fees simply by the 
percentage increase in retiree pay is also fair. NMFA also suggests it 
would be reasonable to adjust the TRICARE Standard deductibles by tying 
increases to the percent of the retiree annual COLA.
    NMFA is dismayed DOD has taken only small steps to encourage 
migration to the TMOP. Its marketing effort to promote the use of the 
TMOP came only after NMFA and other associations raised the issue in 
congressional testimony last year in their push for the implementation 
of significant cost-saving measures prior to any increase in TRICARE 
fees. Promoting use of the TMOP makes sense, as it provides significant 
savings to beneficiaries as well as huge savings to the Department. If 
some additional cost share for the TRICARE Retail Pharmacy (TRRx) is 
instituted, NMFA believes it should not be implemented until all of the 
medications available through TRRx are also available through TMOP. 
Finally, it is well understood, and NMFA has no great argument with the 
premise, that the process of establishing a Uniform Formulary was to 
provide clinically appropriate drugs at a cost savings to the 
Department. We believe information must be gathered to determine if the 
Uniform Formulary process is meeting the desired goals.

          NMFA believes tying increases in TRICARE enrollment fees to 
        the percentage increase in the retiree COLA is a fair way to 
        increase beneficiary cost shares should Congress deem an 
        increase necessary. We encourage Congress to direct DOD to 
        continue efforts to gain real efficiencies, improve the quality 
        of care, and access. NMFA requests the Government 
        Accountability Office be asked to conduct a review to see if 
        the Uniform Formulary process is producing the savings 
        projected and the extent, if any, beneficiaries believe they 
        have been denied medications they and their provider believe 
        would be more clinically appropriate for them.

                               SURVIVORS

    Recently, a story in the Washington Post raised concerns about some 
of the difficulties families encounter in the awarding of survivor 
benefits to the children of single servicemembers. NMFA has always 
emphasized that servicemembers and families must understand there is a 
package of survivor benefits. The death gratuity was originally 
intended to act as a financial bridge, to help with living expenses 
until other benefits such as the Dependency and Indemnity Compensation 
(DIC) payment, the Survivor Benefit annuity, and Social Security 
benefits begin to be paid. The Servicemembers Group Life Insurance 
(SGLI), is, as its name implies, an insurance. The death gratuity is 
not an insurance payment, even though its $100,000 payment is bigger 
than many civilian life insurance plans. Servicemembers may thus regard 
it as just another insurance plan.
    As the law is currently written, the death gratuity must be awarded 
to the next of kin. The servicemember may designate multiple 
beneficiaries for the SGLI. If the parent or sibling of a servicemember 
is named as the single beneficiary or one of multiple beneficiaries, 
there is no stipulation in the SGLI regarding the use of that money for 
any particular purpose. It is of utmost importance, in light of the 
increased value of the survivor benefits, that the servicemember be 
informed about the difference between the death gratuity and the SGLI 
payment. It is also important that servicemembers and their families 
discuss the implications and disposition of these payments, especially 
when there is a minor child involved. With the increased amount of 
survivor benefits, it is incumbent upon single servicemembers with 
children or dual servicemember couples with children to create not only 
a family care plan, but an estate plan as well.
    NMFA is concerned that the legal necessities of appointing a 
guardian for a minor child upon the death of their single servicemember 
parent may cause a delay in accessing the death gratuity at a time when 
the family may need this bridge payment the most. Legislation to change 
the way the death gratuity is awarded must meet two goals: preserving 
the intent of the death gratuity as a payment to assist with immediate 
financial needs following the death of the servicemember AND protecting 
the benefits due the minor child. NMFA would support legislation to 
allow the designation of a parent or sibling of the servicemember as 
the recipient of a portion of the death gratuity payment if there is a 
guarantee the payment would be used as that financial bridge for the 
minor child until other benefits are awarded, with the remainder placed 
in trust for the child. The protection of the financial future of the 
child is paramount. If the servicemember wants to provide for other 
family members, the proper mechanism is to designate those family 
members as beneficiaries of all or part of the SGLI.
    NMFA appreciates the work being done by DOD and the Services to 
provide training to casualty assistance officers and to make sure 
survivors are receiving accurate information in a timely manner. The 
survivor guide published by DOD and available on-line, A Survivor's 
Guide to Benefits: Taking Care of Our Own, has already been updated 
several times as new benefits were implemented or needs for information 
identified. The Army set up the Families First Casualty Call Center, 
recently renamed Long Term Family Case Management (LTFCM), a one stop 
resolution center to assist surviving family members with questions 
concerning benefits, outreach, advocacy and support. This call center 
is available for immediate and extended family members. The DOD/VA 
committee on survivors is still meeting and reviewing concerns as they 
arise. NMFA has surfaced concerns from family members who have reached 
out to us and have been pleased at the response of all the specific DOD 
and Service casualty assistance offices to these families. 
Unfortunately, we still occasionally hear of widows or parents who 
still do not know who to call when there is a concern.
    NMFA still believes the benefit change that will provide the most 
significant long-term advantage to the financial security of all 
surviving families would be to end the DIC offset to the Survivor 
Benefit Plan (SBP). Ending this offset would correct an inequity that 
has existed for many years. Each payment serves a different purpose. 
The DIC is a special indemnity (compensation or insurance) payment paid 
by the VA to the survivor when the servicemember's service causes his 
or her death. It is a flat rate payment of $1,067 for the surviving 
spouse and $265 for each surviving child. The SPB annuity, paid by DOD, 
reflects the longevity of the service of the military member. It is 
ordinarily calculated at 55 percent of retired pay. Military retirees 
who elect SPB pay a portion of their retired pay to ensure that their 
family has a guaranteed income should the retiree die. If that retiree 
dies due to a service connected disability, their survivor becomes 
eligible for DIC.
    Four years ago, survivors of servicemembers killed on Active Duty 
were made eligible to receive SBP. The amount of their annuity payment 
is calculated as if the servicemember was medically retired at 100 
percent disability. The equation is the basic pay times 75 percent 
times 55 percent. The annuity varies greatly, depending on the 
servicemember's longevity of service.
    Surviving Active Duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SPB is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $12,804, a significant drop in income 
from what the family had been earning while the servicemember was alive 
and on Active Duty. The percentage of loss is even greater for 
survivors whose servicemembers served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses. We urge Congress to intensify efforts to eliminate 
this unfair ``widow's tax'' this year.
    NMFA believes several other adjustments could be made to the SBP. 
These include allowing payment of SBP benefits into a trust fund in 
cases of disabled children and allowing SBP eligibility to switch to 
children if a surviving spouse is convicted of complicity in the 
member's death.
    NMFA applauds the enhancement of medical benefits included in the 
NDAA for Fiscal Year 2006 making surviving children eligible for full 
medical benefits to age 21 (or 23 if they are enrolled in college) 
bringing them in line with the active duty benefit for dependent 
children. To complete the benefit package we ask Congress to allow 
surviving children to remain in the TRICARE Dental Program until they 
age out of TRICARE and, in cases where the surviving family had 
employer-sponsored dental insurance, treat them as if they had been 
enrolled in the TRICARE Dental Program at the time of the 
servicemember's death.

          NMFA recommends that surviving children be allowed to remain 
        in the TRICARE Dental Program until they age out of TRICARE 
        eligibility. NMFA recommends the DIC offset to SPB be 
        eliminated to recognize the length of commitment and service of 
        the career servicemember and spouse and relieve the spouse of 
        making hasty financial decisions at a time when he or she is 
        emotionally vulnerable. The surviving children of single 
        servicemembers who die on active duty require special 
        protections to ensure the proper financial disposition of the 
        enhanced survivor benefits. NMFA asks Congress to provide the 
        proper protections for the child(ren) if allowing a guardian to 
        receive the death gratuity and to remember the original intent 
        of the death gratuity payment was to serve as a financial 
        bridge until the initiation of the payment of the survivors' 
        benefits.

                     STRONG FAMILIES--STRONG FORCE

    Higher stress levels caused by open-ended and multiple deployments 
require a higher level of community support. We ask Congress to ensure 
a consistent level of resources to provide robust quality of life, 
family support, and the full range of preventative and therapeutic 
mental health programs during the entire deployment cycle: pre-
deployment, deployment, post-deployment, and in that critical period 
between deployments.
    Military families share a bond that is unequaled in the civilian 
world. They support each other through hardship, deployments, PCS 
moves, and sometimes, the loss of a loved one. The military community 
is close knit and must be so. It is imperative our Nation ensure the 
necessary infrastructure and support components are in place to support 
families regardless of where they happen to be located geographically. 
More importantly, we ask you and other Members of Congress to ensure 
that the measures undertaken today in the interest of cutting costs and 
improving efficiency do not also destroy the sense of military 
community so critical to the successful navigation of a military 
lifestyle.
    Educating families on what support is being provided helps reduce 
the uncertainty for families. Preparation and training are key in 
reaching families and making sure they are aware of additional 
resources available to them. While NMFA appreciates the extraordinary 
support that was made available to address the special needs of the 
families during deployment extensions and the recent ``Surge'', our 
Nation must ensure this level of support is available to all families 
day in and day out. Military family support and quality-of-life 
facilities and programs require dedicated funding, not emergency 
funding. Military families are being asked to sustain their readiness. 
The least their country can do is make sure their support structure is 
consistently sustained as well. Strong families equal a strong force. 
Family readiness is integral to servicemember readiness. The cost of 
that readiness is an integral part of the cost of the war and a 
national responsibility. We ask Congress to shoulder that 
responsibility as servicemembers and their families shoulder theirs.

    Senator Ben Nelson. Thank you.
    I want to personally thank all of you for being here, 
sharing your experiences, because they are not simply unique, 
but they're terribly important for us to understand as we look 
at the family part of the service. So, I just want to thank you 
for your articulate presentations of your experiences.
    I'm going to ask my colleague, Senator Akaka, to start with 
the questions again.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I, too, want to echo what you just said about responses to 
the statements that have been made. We wanted to hear directly 
from you and people who have the experience.
    My first question is to Mrs. Hall. I would say that I would 
invite other witnesses to comment, if they wish. But because 
you were a dependent of a servicemember, growing up, and before 
becoming a servicemember yourself, and a military spouse later 
in life, whether you feel the stresses military families are 
facing today are new or unique, or are today's challenges 
similar in mind, though perhaps not in degree, to the stresses 
you have seen throughout your lifelong connection with the 
military? In other words, do we have new problems now which 
require new solutions, or are you seeing the same issues now 
that you have seen before, in which case we should expect that 
we should have effective family support programs in place?
    Mrs. Hall. Thank you for your question, Senator.
    Of course, I'm a parent now, and I didn't used to be, when 
I was a military brat, and that makes these issues feel more 
pertinent. But my perception is that the OPTEMPO is higher, and 
the need is greater, and it feels much more pertinent for 
family support than even when I was Active Duty, several years 
back, not even going back to my childhood, but just from my 
early adult years. The need for good, solid family support to 
meet the OPTEMPO that we're at right now feels more pertinent 
than ever, sir.
    Senator Akaka. Does anyone want to comment on that?
    Mrs. Piacentini. I would, Senator Akaka.
    Senator Akaka. Yes.
    Mrs. Piacentini. I was also raised in the military. My 
mother had a great support system with the spouses around her. 
She became a great mentor for those around her. But she didn't 
face, again, the OPTEMPO that our soldiers are facing. My 
father, of course, was through the second World War, Korean 
War, the Cold War, and Vietnam. But the OPTEMPO was different, 
and I think that our families now, especially engaging so many 
Reserve and Guard members, the resources are not there for them 
to maintain and be successful military families.
    So, I feel it's much more difficult now, even with a lot of 
the Internet resources. People are still people, they still 
need other people to communicate with to get the information 
that they need.
    Senator Akaka. Thank you for that, Ms. Piacentini.
    I would--and, as I mentioned in my opening statement, I 
wanted to know your feelings about involving a community, 
whether caring for military families is strictly the role of 
DOD and the military Services, or is there not also a role for 
the larger civilian community as citizens, and especially in 
cities and counties with military installations as neighbors.
    Ms. Raezer, you did mention the community in your 
testimony, and you quote a master chief petty officer who used 
the phrase, ``self-reliant, yet well-connected.'' So, let me 
start with you.
    Are the issues we are discussing today issues the DOD, 
Congress, the military families, and groups like yours should 
solve by taking care of their own, or is there a role for the 
larger community? Do we need more help from the rest of our 
fellow citizens? Do military families want more help from their 
fellow citizens?
    Ms. Raezer. Senator Akaka, the military community does a 
wonderful job of taking care of its own. These spouses here are 
a good example of military families taking care of their own. 
But military families, to us, are our Nation's families. 
Military children are our Nation's children. Military families 
are a part of the greater community. Most of our military 
families live off the installation. Our Guard and Reserve folks 
are scattered throughout the Nation. Over 80 percent of our 
military children go to civilian public schools. We need those 
schools to embrace our children, and they have.
    One of the initiatives that our association has praised is 
DOD's America Supports You Program that highlights all of those 
community organizations, corporations, kids groups, mom-and-pop 
initiatives to support our troops. I talk to families. These 
outpourings of support, the help, whether it's quilts, whether 
it's people having a bake sale to support families and buy 
phone cards, it means a lot, because our military families are 
part of this Nation, and they want to feel that the rest of the 
Nation is behind what they do. Whether or not they agree with 
the war, they are that connection with our larger community, 
and they need that connection with the larger community. So, 
it's our responsibility, as a Nation, to reach out to these 
folks.
    Senator Akaka. Let me ask another question.
    Senator Ben Nelson. Sure.
    Senator Akaka. Military families have some unique 
challenges in financial planning--and that was mentioned, too--
especially during deployments, when the servicemembers' 
allowances go up, but so do the families' expenses. You also 
mentioned the words ``predatory lenders.'' This is especially 
true for Guard and Reserve families who may see their health 
care coverage change, depending on the deployment status. 
Recently, I organized a seminar on financial planning 
assistance just for military families in Hawaii. With an 
admiral, we worked this out, and it was a huge success. We had 
a huge turnout, which confirmed my belief that there is a big 
demand for help in managing finances.
    Do you have access to quality financial planning assistance 
from people who are familiar with both best practices in this 
area, as a whole, as well as the unique issues military 
families face?
    Mrs. Piacentini, let me start with you on that, because as 
a Reserve component family, you may not have had the support 
structure an Active Duty installation provides. Would you make 
some comment about this?
    Mrs. Piacentini. Well, absolutely. Since we are so 
geographically dispersed, we don't have access to military 
installations that often. Some areas do, but, for the most 
part, we don't, and we have to rely on our Family Programs 
Offices to send out that information. They would have 
deployment briefings, where they would bring in the financial 
experts to the units to educate those that would attend. But, 
for the most part, so many of them wouldn't attend, because 
there's a part of them that's in denial as to the fact that 
they're soldiers being mobilized and deployed. They just don't 
always--at the time that you have the resources, they're not 
always there to take the information in. Unfortunately, we 
don't have that continual follow-up to reinforce, all the time.
    The smaller communities embrace the military, I have found, 
in a much larger way throughout the community than larger 
communities. Because they are small, they know their people and 
they take care of them from all areas. So, the Army Reserves, 
unfortunately, we don't always connect often enough with 
those--and we do need the resources out there.
    Senator Akaka. Thank you.
    Mr. Chairman?
    Senator Ben Nelson. Thank you, Senator Akaka.
    I want to ask a question about Military OneSource. I've 
been told it's a very valuable resource, and it's accessible by 
military families, no matter where they're located or what 
Service they belong to. NMFA reports that Military OneSource is 
underutilized by military families. Ms. Raezer's already told 
us that. So, Ms. McDonald, have you used Military OneSource, or 
is it part of the tools that you use with your fellow spouses?
    Mrs. McDonald. It's absolutely part of the kit bag, but I 
don't dial for them. I do reference. We have military life 
consultants on Fort Hood, who use it as a reference, as well. I 
will tell you--I have a chart in front of me that can break 
down for you what kind of calls I get, but I'll tell you that 
what I'm impressed with the chart is that not as many of them 
are about deployment questions as they are about living-life 
questions. Some of them, healthcare; some of them, mental 
healthcare. Where they get referenced is not necessarily a 
phone call and I reference Military OneSource; it's when 
Specialist Jones' wife gets a success story for herself, and 
she tells Specialist Smith's wife that she had a success. So, 
it's mouth-to-mouth marketing on Military OneSource.
    Flooding the market with information is absolutely the 
first step, but confidence in the program is the second step, 
and that happens customer-to-customer. I think the senior 
leadership is very aware of it and references it often, but I 
think it's actually kind of an impressive thing that you can 
call them, from how to look for scholarships to how to change 
your tire in a rainstorm on the highway by yourself. It's an 
impressive program. I will tell you that I agree that it's 
underutilized, but I think as we continue with this, it's going 
to be mouth-to-mouth-to-mouth-to-mouth success stories that is 
going to make the next person call.
    Senator Ben Nelson. Thank you.
    Ms. Sumrall, you're stranded, by comparison. Have you had 
any experience with Military OneSource?
    Mrs. Sumrall. As a matter of fact, I have. Military 
OneSource is probably the most often-mentioned resource that 
some of these parents that have been e-mailing me have said, 
``I'm unable to, because of, I'm not close to my son or my 
daughter's unit to be able to participate in their family 
readiness group,'' and, even though they try and do this via e-
mail, to stay in touch, they have been going onto Military 
OneSource, because the word has gotten out--the Guard really 
pushes Military OneSource--and they've been able to access a 
lot of different things, and they're really, I think, intrigued 
by the fact, just like Connie said, that we have, if you need 
to find somebody to groom your dog, you can go on there and do 
that.
    I was in a meeting recently with Secretary Hall and some of 
the senior Reserve component spouses, and he asked, he said, 
``Well, is it true that they have to answer by the third 
ring?'' So, we tested it, and, sure enough, the phone was 
answered by the third ring.
    I would say it's a valuable resource, especially for Guard, 
where you have people who are in isolated communities.
    Senator Ben Nelson. Thank you.
    Anybody else have a comment about it, Military OneSource, 
or a different experience?
    Mrs. Piacentini. I've not used it, but I talk to many 
individuals who have, and they've appreciated the fact that 
they have it available to them.
    Senator Ben Nelson. Ms. Raezer?
    Ms. Raezer. What we hear from families who have used 
OneSource is that they've been very satisfied. We still 
encounter families who have never heard of it or have not used 
it. We haven't seen usage numbers in a while, but that may be 
something you could ask the Services for, for the record, 
because it's a wonderful resource. The marketing seems to go 
slow, and I think a lot of folks don't realize it's there.
    I think it's interesting, in terms of some of the things 
that folks have talked about, that people use it, and that gets 
back to that bedrock support for families. It might not be a 
deployment question that's prompting them to call, this time, 
for Military OneSource, it may be just that life-skill issue. 
But if the deployed spouse is the one who handled the life-
skill issue, who handled finding the vet for the dog when 
you've moved, then having that resource for that family is very 
important. If they're satisfied with finding the dog groomer, 
they may call back when they have another deployment-related or 
more serious problem. So, we encourage folks to use it, but 
continue to be disappointed that we still hear from many 
families who don't know about it.
    Senator Ben Nelson. I hope you'll share that number with me 
before I leave.
    Mrs. Hall. I just wanted to say, I knew about it, as well, 
when my husband recently deployed. I knew about it. I was 
briefed on it shortly before he went, and not this deployment, 
but previously, I had gone online, and surfed around and 
checked it out, and see it as a great resource. I'm inclined to 
think that perhaps younger troops, who are more used to getting 
information by surfing for it, might be more interested in it 
and more excited about it. [Laughter.]
    Senator Ben Nelson. Better than the yellow pages, 
sometimes, huh? [Laughter.]
    Senator Ben Nelson. I've been hearing that there are--and 
you've all mentioned--money shortfalls in military services, 
resulting in cutting funds, in some cases, for family programs 
on military installations.
    Ms. McDonald, have you noticed any cutbacks at Fort Hood?
    Mrs. McDonald. Sure. [Laughter.]
    Senator Ben Nelson. Okay.
    Mrs. McDonald. It's the Army's largest installation. I'm 
sure I am going to see them.
    I came into Fort Hood as a new person. In 27 years, we 
had--well, in 26 years, we hadn't been at Fort Hood, so I come 
in with a lot of experience as an Army spouse, but it is a new 
place to me. So, I guess, coming in with new eyeballs, it adds 
a good thing to it.
    Some of the cuts--the intent is that families don't see the 
cuts, but what I do is, as a volunteer who has worked with 
family programs, so I'm in there with them, and the staff 
members, if you reference something that you knew was there 
before as a volunteer, and the answer is, ``Oh, we can no 
longer get that,'' or, ``We don't have a staff member who does 
that anymore. Someone else has taken on that hat,'' my 
concern--big word, ``my'' concern--is that the ACS staff 
members are wearing way too many hats for the one person that 
they may be. We have a lot of one-person programs that need to 
be deeper. As you're getting into--and with that become--bless 
their hearts, they're in there. I mean, they have a heavy 
rucksack, and they refuse to put it down, but they're starting 
to droop. As volunteers come in, they have the same thing, 
they're living it and breathing it personally, and then coming 
in to help the programs that help folks like themselves. With 
that, I can definitely see it, but I think I see it maybe a 
little quicker than someone who's coming in to use the program, 
because they're coming in to use the program, and, as soon as 
they walk in the door, they're greeted, their questions are 
answered, I'm in the wings and can see what's going on behind 
stage. Yes, I see the cuts. They're definitely there.
    Senator Ben Nelson. Is that just generally what your 
thoughts are, as well, the rest--anyone else like to comment on 
it?
    Ms. Raezer. Our installation volunteers from across all the 
Services report things such as Mrs. McDonald mentioned, the 
Family Center staff that's not replaced when somebody leaves, 
so that people are wearing multiple hats, cutbacks in 
janitorial services and routine maintenance, and hours that are 
changed or diminished. When you're dealing with communities 
under as much stress as our communities are under, that can be 
very hard for a community.
    Senator Ben Nelson. Well, I think Senator Akaka has some 
other questions. As the co-chair here today, I'm going to turn 
it over to him, because I have to be somewhere else at 6 p.m.
    I want to thank all of you for being so frank and candid, 
but also want to thank you for your service, and for your 
spouses' service, as well. The American people support our 
military, and we want to be sure that the budget and the 
resources reflect that, as well as the attitude of the American 
people. There probably is no better way to do it than to be 
sure that the resources are there, and that the programs are 
there for families, that the compensation is appropriate for 
families. We're committed, with the Readiness and Management 
Support and the Personnel Subcommittees, to do our very best to 
get that done.
    Thank you very much, and may God bless you and keep you, 
and thank you, as I walk out the door here.
    Thank you. It's all yours.
    Senator Akaka [presiding]. Yes. Let me say, thank you very 
much, Chairman Nelson, for agreeing to hold this hearing and 
for creating it so that it has been such a success, at this 
time. So, thank you very much, Ben.
    I just have a few questions. This is something that has 
been on my mind, and this has to do with mental health 
counseling and the stigma that's attached to it. I would like 
to ask any of you who can respond, do you think servicemembers, 
spouses, or dependents feel free to seek mental health 
counseling when they need it, or is there still a stigma in our 
society, or in our military culture, that inhibits people from 
asking for this kind of help?
    Mrs. McDonald. At Fort Hood, where----
    Senator Akaka. Ms. McDonald?
    Mrs. McDonald.--I should tell you that Fort Hood puts the 
``hoo'' in ``hooah.'' [Laughter.]
    We have military life--Military Family Life Counselors. We 
call them MFLCs. Of course, we can't use regulars, we have to 
create an acronym. But--and we have a pilot program at Fort 
Hood, as well, on coaching young families, that's come in. Both 
of those are nonmedical models for support and counseling.
    I will tell you that the answer--I would love to tell you, 
Senator Akaka, the answer is simple on that, but I think it's 
as varied as our military families themselves are. I don't 
think it's the stigma within the military community alone. It 
will also be the stigma that may--they have grown up with in 
the community they're from. We are very diverse. There could be 
the idea that--I spent time as a staff member at Fort Bragg, 
and went through the--assessments of what it was like for--
mental health assessment--what did that mean for the soldier? 
The idea that you couldn't--if you can't keep your family 
happy, how can you do your mission? I think we've come a long, 
long way from that. I won't say we're done, by a longshot. But 
I do believe that the MFLCs are the step in the right 
direction, and the fact that it is a nonmedical model.
    I can call one of these folks, who rotates every 45 days--
we have three of them at Fort Hood, but we would like to have 
more--I can call one of them, and they will meet at Starbucks 
downtown. I don't have to go on the installation, and they will 
chat with me. They are almost like traffic cops to decide 
whether or not what I need is support or I need medical model 
help. It's a first step, and it's instigated by me. No one 
would know it but me. They do not keep records. I think it's a 
step in the right direction for, I think, maybe what your 
concern is. But, again, that answer is very difficult, because 
we are so very different, as human beings. The community that 
we work within, live within, would know if one of these 
counselors stayed with us the whole time, then, if I do happen 
to meet them at Starbucks for coffee, they're going to want to 
know, has Connie got problems, or has Connie got a friend that 
she's having coffee with? One of the nice things about this is 
the rotation. This program doesn't have a face, it has a 
reputation. I think that's a step in the right direction. At 
least that's the way it's sounding like at Fort Hood. We've 
just been working with this, but I do know this program--and, 
Joyce, I don't know if I'm right on this--but this program had 
great, great strengths coming out of Alaska, with the extension 
notice there.
    Senator Akaka. Yes.
    Ms. Raezer. We still see and hear about the stigma, but we 
also hear, even more often, that the issue is access to mental 
health providers. There's a national shortage of child and 
adolescent psych providers. So, that's been a concern for many 
of our families. We agree with Connie's assessment of the 
MFLCs. They're a wonderful addition to that mix on an 
installation to provide support.
    One thing that we hear, in terms of the servicemember 
seeking help, is the tone is set by the command. If the general 
comes back from deployment and says, ``I'm going to go see a 
counselor, just to talk things out,'' there's no stigma for his 
subordinates, because if the general can do it, it's okay for 
the captain and the colonel and the sergeant and the specialist 
to do it. So, we've been really excited when we hear a general 
say, ``When my folks and I come back from deployment, we are 
all going to seek counseling, just to talk to someone.'' So, 
the command has a big influence on that stigma, and getting rid 
of that stigma.
    Senator Akaka. Well, another interest that I had, I would 
like to ask anyone on our panel who can respond with your views 
on programs such as contracting out and military/civilian 
conversions. What is the impact, if any, on the families who 
depend on these services, if the provider of those services is 
a military member or a Government civilian or a contractor? 
Does it matter to you? Does service get better or worse when 
service provider positions are connected or converted from a 
military to a civilian person, or from a Government civilian to 
a contractor? I think you understand what I'm asking here, and 
would like to have your comments on that.
    Mrs. Piacentini. If I might comment.
    Senator Akaka. Mrs. Piacentini?
    Mrs. Piacentini. Yes. There is a difference. If you have a 
civilian contract or--to buy positions for a Family Programs 
Office to slot in those civilian contractors, if those civilian 
contractors have no military experience, no education in the 
military, they can't communicate with military families 
appropriately. They don't understand the lifestyle and where 
they're coming from. So, it can be a real disaster if they 
aren't the right people for those jobs. Many times, they aren't 
and the families suffer.
    Senator Akaka. Any other comment?
    Ms. Raezer. There are some things that have been a benefit 
because of the contracting out or the privatization. There's a 
lot of new housing on military installations that wouldn't have 
been there if we'd have waited for MILCON dollars to build that 
housing. The privatization initiative has helped. Many of the 
family centers, as they've done a conversion from DOD or 
service civilian employees, they've gone to contractors--we 
have many military spouses who are working as contractors--
there are sometimes some issues for them in learning how to be 
a contractor. But that has helped.
    What I said about mental health also applies to 
contracting. It goes back to the oversight and the willingness 
of the person in charge to set and enforce standards in those 
contracts.
    Senator Akaka. Yes.
    Ms. Sumrall, would you make a comment on that?
    Mrs. Sumrall. I would have to say that having lived on 
military installations, and had the services of military 
facilities and military personnel, and then to make that 
transition either of necessity or by choice, in some cases, I 
would have to say that going with someone who is not totally 
familiar with military and how things work, it does pose a 
problem sometimes. They don't understand, for example, the 
TRICARE. They may have signed up for TRICARE, and may not 
understand the difference between TRICARE Prime and TRICARE 
Standard. Then, you have a hassle about your medical claim. Or 
if you have--I know of one person who went to her private 
physician, and she made the comment about, ``Well, my husband 
is now deployed as a guardsman.'' The doctor immediately said, 
``Oh, well, let me give you some type of tranquilizer, or 
whatever, because I know you're having a rough time.'' So, I 
would say that and, to me, the thought of someone who might be 
dispensing drugs to calm someone's nerves is perhaps not the 
best thing, especially if the person doesn't need them. So, I 
think, there, that--even with Guard, that having that 
connection with someone who at least does understand the 
military, perhaps with prior military service themselves, or 
military family members or something, does make a difference. 
That's not to say that all contractors would do things like 
that. I'm sure there are some excellent ones out there. But I 
think it is something that we do need to be concerned about. 
The privatization, in some cases, of things, say, like the 
medical, is maybe a little bit scary.
    Senator Akaka. Well, this has been excellent. I just want 
to open it up, in case any of you want to make any closing 
statements. I would certainly ask for that, if you do. [No 
response.]
    Otherwise, let me tell you that this has been a great 
hearing for us, the Subcommittee on Personnel and the 
Subcommittee on Readiness and Management Support has set up 
this hearing to hear directly from you. This has been helpful 
to us. I want to also tell you that we commend you for your 
spirit and for your sacrifices and for the support that you 
give our military, because you have made a huge difference in 
the successes that we've had.
    What's coming about now is that I feel that families are so 
important to the life of our troops that we need to pay 
attention to it. This is what we're trying to do. What has 
happened here will help us determine what to do next.
    I look forward to your continuing contact, in case you do 
have other offers to make to us about helping families.
    But this is what it's all about, and I want to thank you 
again, and thank Chairman Nelson for his part in this.
    We may have another hearing on this, but I'm not certain 
about that because we're looking at particular points and areas 
here.
    Let me finish with this one, and this is about the 
predictability of deployments.
    The Army has just changed its policy on deployments to Iraq 
or Afghanistan from 12 months to 15 months. I would like to ask 
anyone on this panel to give me your view as to the importance 
of predictability of deployments. If you know upfront that it 
will be 15 months, does that help, or does that not really make 
that much difference in meeting all the challenges of that 
separation?
    Mrs. McDonald. Senator Akaka, if you don't mind, I'm a 
spouse of exactly one of those soldiers.
    Senator Akaka. Yes.
    Mrs. McDonald. He will be gone two Christmases, which 
wasn't the original plan. If you guys don't mind?
    Ms. Raezer. Go for it.
    Mrs. McDonald. I will tell you--living at Fort Hood with 
two divisions that are on a rotating basis, they replace each 
other--I will tell you that I would rather, right now, that my 
servicemember be extended to 15 months than ask the 4th 
Infantry Division to turn around and go back in less than 9. I 
think the mental health, the physical health of the soldier 
first, the family members second, and the overall health of the 
post, has to call for that.
    It takes the--the original plan was not to rotate every 
year, it was--if I remember--if I have this right, it was 2 
years home, 1 year down, 2 years home, 1 year down. At Fort 
Hood, we're not getting 2 years home. At this point, they're 
not getting 1 year home if we don't do this extension. So, if 
that's the answer, if that's the purpose of this, I think the 
guys downrange, the guys and gals downrange would rather be 
where they are, let the folks rest who need to rest, because 
one day they're going to be the ones who need to rest.
    If the predictability factor is that you tell me, as a 
family member, that there's a possible extension, which will--
by the way, no surprise--that if we got that, I would rather 
know that that extension is a possibility, and you turn around 
and guaranteeing me on predictability, that he's home for 12 
months, where I can give him chicken noodle soup and I can get 
him off on R&R, and we can use our camper, and he can be at 
home, and see some of the kids' stuff. Absolutely, the 
predictability, for me, is more--of when he's home than how 
long he's deployed. That is personal, my view, but I'm sitting 
in that hotseat, so I'm taking it on.
    Senator Akaka. Thank you.
    Mrs. McDonald. Okay.
    Senator Akaka. Mrs. Sumrall?
    Mrs. Sumrall. From the standpoint of the National Guard and 
from my volunteer service with the ESGR, I can tell you that 
knowing that the Guard and the Reserves are now going to have a 
designated time to be deployed makes a tremendous difference 
from the standpoint of the employer. Of course, that impacts on 
the family, because so many of our employers--we have some that 
are absolutely wonderful and totally supportive--but we have 
people who own small businesses, we have people who are afraid 
their company's going to downsize, we have farmers, we have a 
lot of people that, being gone for extended periods of time, 
and not knowing for sure how long that will be, if and when 
they do deploy the next time, is a very frightening factor in 
the security of the family and how they are provided for. So--
and, like I say, some of the employers are not happy at all 
about it, and we are running into situations where they're 
somewhat leery of hiring people who have any type of 
affiliation with the Guard or Reserves.
    So, I would say, from the standpoint of the financial 
security of the family, as well as job security of the deployed 
servicemember, that knowing how long a deployment is going to 
be is, just, a tremendous gift to that family, to know what to 
expect.
    Senator Akaka. Mrs. Hall?
    Mrs. Hall. When you hear about anyone else being extended, 
you think it might happen to your servicemember, too. The 
entire time my husband was gone, people would ask me, ``Oh, so 
when is he coming back?'' Every single time, I'd say, ``well, 
we think January,'' because that's the best you can do when you 
know that the possibility of an extension is out there.
    I think it has a larger effect on, just, your ability to 
plan the future and your ability to think your way through what 
this deployment's going to mean to your family. It has a larger 
effect than you even realize at the time. I think, only in 
retrospect do you realize, ``Wow, I really had no idea when 
that was going to end.'' That might be overstating it. I had a 
good idea, but I wasn't certain when it was going to end.
    In our case, he came home on time. But we certainly know 
lots and lots of Air Force people who did not come home on 
time. It sounds to me like the Air Force has a slightly 
different deployment model, in that instead of large battalions 
going out, we tend to go out one person at a time from 
different shops. So, that deployment has--if it's extended, has 
an effect more on that individual family, perhaps, than in the 
larger community. Just a perspective from the Air Force, there.
    Yes, extensions, big impact on family feeling about how 
that deployment is going.
    Senator Akaka. Ms. Piacentini?
    Mrs. Piacentini. Predictability is essential. If the Army 
Reserve can use the model that they are trying to develop, then 
the families can certainly count on when that soldier's going, 
when he or she will be home, and what they'll be doing in that 
period when they are home. As a mother of a 4th Infantry 
Division soldier, I don't want him over there longer, because 
he's my son, but if he has to go, he goes. So, as a parent, 
it--I think I look at it a little bit different than as a 
spouse, probably.
    Senator Akaka. Ms. Raezer?
    Ms. Raezer. The only thing predictable for our families 
since this war started is that the tour length is 
unpredictable. I think it has been hard. Families have been 
promised, in the past, ``The tour length will be this long.'' 
The savvy families aren't circling that end date anymore, 
they're counting off the number of days that servicemember has 
been gone, but they're not circling the end date, they are 
still going to be looking for the other shoe to drop, even with 
this latest extension.
    We are concerned about predictability. We are also 
concerned about tour length. In our surveys, families have told 
us long tour lengths, missing the two Christmases, is hard. 
We've seen information that was presented on some of the Army 
mental health studies that graphs problems in theater with 
servicemembers and their concerns, and those mental health 
issues affecting servicemembers in theater go up dramatically 
the longer the tour is.
    So, we are worried about tour length and what that will do 
to the servicemembers. How long will those servicemembers need 
to recover after being gone for 15 months? So, I think we have 
to be really careful about announcing an extension and saying, 
``This is going to make us more predictable,'' because I think 
the families are very wary, and we have to be careful about 
expectations. Somebody needs to be looking at tour lengths.
    Senator Akaka. Well, again, I want to say thank you to all 
of you. This has been tremendous. It will be helpful, again, as 
I said.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Robert C. Byrd

                        FAMILY SUPPORT SERVICES

    1. Senator Byrd. Secretary Dominguez, Dr. Davis, Mr. McLaurin, and 
Lieutenant General Brady, taking care of the families of our deployed 
National Guard and Reserve servicemembers is just as important as 
buying the equipment they need in the field. Many feel that these 
servicemembers are underserved in comparison to our Active-Duty Forces, 
not only when it comes to equipment, but also when it comes to benefits 
and family support services. In the past, what has been of paramount 
concern to the families of the West Virginia National Guard is seeing 
that their deployed family member receive proper body and vehicle 
armor. But in addition to making sure these individuals have proper 
equipment, what efforts are currently underway to improve the quality 
of family support services to the families and, in particular, what 
efforts are underway to improve access to those living in rural or 
remote areas?
    Mr. Dominguez. The operational tempo (OPTEMPO) for today's National 
Guard/Reserve is the highest it has been since the Korean War. This not 
only affects the member, but also their families. The mission of 
National Guard and Reserve family programs is to prepare, support, and 
sustain families when their military member is activated and/or 
deployed. Support is facilitated through education, outreach services, 
and partnerships by leveraging resources, training, and constantly 
capitalizing on new capabilities, concepts, and technological advances.
    The National Guard Joint Force Headquarters Commands (JFHC) within 
each State, territory, and the District of Columbia are responsible for 
coordinating family assistance for all military dependents, regardless 
of Service and component, within the State and in the geographically 
dispersed areas beyond the support capability of military facilities. 
To coordinate family assistance, each JFHC is authorized one State 
Family Support Director. The National Guard has a strong Joint Service 
family support network, organized in each State and territory by the 
National Guard State Family Program Director, and reinforced by a Wing 
Family Program Coordinator at each Air National Guard Wing. Family 
Assistance Centers are regionally based and are the primary entry point 
for all services and assistance that any military family member, 
regardless of Service or component, may need during the deployment 
process. This process includes the preparation (pre-deployment), 
sustainment (actual deployment), and reunion phases (reintegration).
    In addition, the following services are available to provide 
support to families living in remote or rural areas:

        <bullet> Military OneSource (www.militaryonesource.com) is a 
        key resource available to National Guard/Reserve members and 
        their families. One Source supplements existing family programs 
        with a 24-hour, 7 days a week, toll-free information and 
        confidential referral telephone line and internet/web-based 
        service. It is available at no cost to Guard and Reserve 
        members and their families regardless of their activation 
        status. OneSource provides information ranging from everyday 
        practical advice to deployments/reintegration issues and will 
        provide referrals to professional civilian counselors for 
        assistance.
        <bullet> Military Family Life Consultants (MFLCs) are another 
        resource available to National Guard and Reserve families. The 
        goal of the MFLC is to prevent family distress by providing 
        education and information on family dynamics, parent education, 
        available support services, and the effects of stress and 
        positive coping mechanisms.
        <bullet> As a result of section 675 of the National Defense 
        Authorization Act for Fiscal Year 2007, Joint Family Support 
        Assistance Programs are in the design phase. Critical 
        components of the model involve building coalitions and 
        connecting Federal, State, and local resources and non-profit 
        organizations to support Guard and Reserve families. Best 
        practices learned from 22 Inter-Service Family Assistance 
        Committees, the Joint Service Family Support Network, and 
        exemplary State models, such as Minnesota and New Hampshire, 
        will guide the planning process.

    Dr. Davis. The Navy has initiated a number of efforts to support 
and sustain the members and families of the Reserve community during 
this time of Reserve call-ups for the ongoing war on terrorism. The 
challenge within Navy is that Reserve members are often activated 
individually from units and are deployed solely or with one or two 
others from the same Reserve unit. The Navy calls these sailors 
``Individual Augmentees (IAs).'' This situation often leaves IA 
families in mid-America without a nearby support system of other 
families whose loved one is also activated and deployed. To address 
this, the Navy has developed three separate IA handbooks, one targeted 
for the servicemember, one for the family, and one for the command. 
These handbooks, which have been widely distributed throughout the Navy 
community, are excellent resources to support the families of the IAs. 
IAs, Reserve families, and commands have provided very positive 
feedback on the handbooks, noting their valuable resources and tips.
    Family readiness is a key enabler of sailor readiness. Navy Reserve 
Force family programs are continually improving with the assistance of 
Command Ombudsmen and the Family Support Team. One of our biggest 
challenges is the wide dispersion of Reserve component families 
throughout all States and territories, often without convenient access 
to the services provided by Navy Fleet and Family Support Centers. To 
extend services to those families, the Navy Reserve hired a full-time 
Family Support Program Manager on the Commander, Navy Reserve Forces 
Command, headquarters staff. Specific emphasis is placed on partnering 
with National Guard Family Assistance Centers. This liaison and 
improved cooperation with other Reserve components has greatly 
increased the availability and level of support for all Service 
personnel and their families. One program hosted mainly by the National 
Guard is the Inter-Service Family Assistance Committees (ISFAC). An 
ISFAC is a committee that facilitates ongoing communication, 
involvement, support, and family readiness between all branches of the 
Service in a geographic area. These committees meet on a quarterly 
basis. The goal of an ISFAC is to increase communication between all 
branches of the Service to strengthen family well-being.
    Through the ISFAC meetings, many ombudsmen and senior leadership 
become more familiar with the types of resources and services available 
at the military commands within the State and are able to provide 
families with more options on services. Many of our Navy Reserve 
families are in the Heartland of America and are not close to a Navy 
installation. Joining resources and sharing ideas with other Reserve 
components in an effort to reach out to families of all Services has 
proven to be an important aspect of family readiness throughout the 
Navy Reserve.
    The Fleet and Family Support Program Regional Directors and Center 
Site Directors continue to reach out to Reserve IA families. The 
outreach includes pre-deployment briefs to members and families, 
offering tips in terms of how to stay connected with the deployed 
sailor, outlining Navy and civilian resources available to them during 
the deployment, and assuring them that they are available for the 
families if they have any needs.
    The Command Ombudsman is another valuable resource for Reserve 
families. The Reserve Ombudsman program has grown into a robust program 
assisting families of all Reserve members and, in particular, the 
Reserve IAs and their families. Key ombudsmen from the Reserve 
community recently participated in a major ``train the trainers'' 
conference. Much of the conference addressed the unique needs of 
Reserve IAs and their families. The ombudsmen, in turn, will now train 
other Reserve ombudsmen so that all will have current, state-of-the-art 
information, resources, and tools to better serve the Reserve family.
    Educating the family is a key aspect in retaining sailors. An 
educated family is more apt to encourage the servicemember to continue 
their career in the military. Reserve ``Family Days'' are a vital link 
in assisting families to be ready. Navy Operational Support Centers 
hold Family Days to provide ``one stop shopping'' of services and 
support for sailors to get family issues in order. Family Days include 
administrative support to update family member data, SGLI, family 
member identification card processing, legal assistance (simple wills 
and powers of attorney), presentations on Military OneSource, TRICARE, 
and American Red Cross, and representation from Veterans Service 
Organizations. Family Days give family members a much better 
understanding of the benefits and entitlements available to them. This 
is a venue where ombudsmen are able to market the ombudsman program and 
educate families on the services they provide. In addition, ombudsmen 
market their program through a newsletter or introductory letter sent 
to the families.
    The Navy has also partnered with the National Association of Child 
Care Resource and Referral Agencies (NACCRRA) to provide accessible, 
affordable, and quality child care where Navy programs are not 
operated. Navy Reserve personnel often come from cities and towns 
across America that are not close to a military installation where 
affordable, quality child care is available. Consequently, there is a 
need for short-term deployment child care spaces in local communities 
where families of deployed servicemembers reside. NACCRRA is the 
national network of more than 850 child care resource and referral 
(CCR&R) agencies located in every State and most communities across the 
country. CCR&R centers help families, child care providers, and 
communities provide and plan for affordable, quality child care. This 
partnership will assist Reserve families who live in remote and 
isolated areas with no access to military child care. Subsidies may be 
available to eligible patrons depending upon total family income, 
geographic location, Navy child care fee policy, and availability of 
military funding.
    The Navy continues to identify ways to better assist our Reserve 
members and their families who serve our country with their 
contributions and sacrifices.
    Mr. McLaurin. The Army provides assistance to all soldiers and 
families through a variety of methods. The Army National Guard (ARNG) 
has operated family readiness groups and family assistance center 
operations for over 20 years. Additionally, in fiscal year 2002, the 
ARNG enhanced their Family Assistance Centers program to provide 
families with information, referral, and limited outreach to support 
families throughout the mobilization cycle regardless of component or 
Service. The Army Reserve (USAR) has a web site that allows family, 
friends, employers, volunteers, and staff to access current 
information, take online training, and locate paid staff near their 
home for assistance. There is also a feedback feature that allows 
questions and concerns to be raised and addressed. The Department of 
Defense (DOD) operates Military OneSource, which provides 24/7 contact 
with personnel to assist in providing families with required support. 
Chaplains and MFLCs are also accessible to families in the event of 
crisis situations.
    The Army has developed the Integrated Multi-Component Family 
Support Network (IMCFSN), which capitalizes on the strengths of each of 
the Army components to establish a comprehensive multi-agency approach 
for community support and services to meet the diverse needs of Active 
and mobilized Guard and Reserve Army families. The IMCFSN delivery 
concept is accomplished by training Active Army, ARNG, and USAR service 
providers on all authorized services and programs available to soldiers 
and families by each component; marketing services to families; and 
unifying collaboration of military and civilian service providers 
through an ISFAC. A pilot project confirmed that the IMCFSN can be used 
to meet the needs of geographically dispersed families. The data 
suggested that the IMCFSN provides providers, soldiers, and families a 
better understanding of services available and enhances networking 
between service providers of each component/Service. It also will 
reduce duplication of effort and provide geographical support where 
families actually live. Networked systems will provide families access 
to online knowledge sources and interconnect people and systems 
independent of time, location, or Service component. The IMCFSN will be 
implemented in fiscal year 2008.
    General Brady. As operations tempo increases and deployments 
lengthen, Guard and Reserve families are presented with many unique 
challenges not experienced by their civilian counterparts. Just as 
reservists are participating at far greater rates, family readiness 
work has grown to a 365-day a year program. The Reserves and Guard are 
working toward improving family readiness programs by making 
connections with families stronger, helping them become better 
prepared, and having a proactive outreach program to meet the needs of 
units and individuals.
    Family Readiness Offices work with other on-base organizations, as 
well as those in the community for access to child care and youth 
resources and to sponsor special activities for children and spouses of 
deployed reservists, such as family dinners, holiday events, 
recreational fairs, family days, etc.
    In particular, the Air Force Reserve is focusing on strengthening 
all predeployment, deployment, and post deployment airmen and family 
wellness programs. Reserve Family Readiness Offices provide pre-
deployment ``must know and must do'' information in preparing for 
activations and mobilizations. They also provide support for spouses 
and families during deployment that includes 100 percent contact with 
each spouse and family through phone calls, newsletters, postcards, 
free phone and video calls, and Key Family Member Support Groups. These 
important programs help to keep families connected with their deployed 
spouse and up-to-date on programs offered by the home station.
    For the geographically dispersed population of Guard and Reserve 
communities, methods of service delivery need to be quite flexible. 
Active Duty Airman and Family Readiness Centers and Reserve Family 
Readiness Offices are engaged in an active partnership to ensure all 
families are receiving services. This includes a range of support from 
individual and family life situations, crisis assistance, transition 
and employment assistance, combat-wounded to mass casualty, natural 
disaster response, relief and recovery.
    MFLCs, licensed counselors funded via a DOD contract, are used 
extensively by the Guard to provide an on-demand readiness support 
presence during drill weekends, mobilizations, or family events. 
Counselors are available to provide educational seminars for children 
and/or adults, or to meet with individuals on readiness related stress 
and issues.
    Information and education is distributed via email and websites for 
Guard and Reserve, and through Military OneSource on topics such as 
``suddenly military,'' financial survival during deployments, parenting 
skills, and how to keep long-distance relationships healthy. DOD-funded 
Military OneSource uses toll-free telephone numbers and a website to 
deliver information and services 24 hours a day, 7 days a week, from 
any location in the world. Military OneSource provides access to pre-
paid family assistance counseling services on issues ranging from 
parent-child communications to reunion and reintegration of the family 
following deployments. A separate section of Military OneSource now 
includes a page where community and military support organizations can 
post sponsored events to help connect families in their communities.
    Through partnerships with three national organizations, Air Force 
has expanded its capability to provide other family support services to 
families in remote and rural areas not served by an Active Duty, Air 
National Guard (ANG), or Air Force Reserve (AFR) base. The greatest 
challenge to providing support for airmen living in remote areas lies 
in the difficulty of identifying the family members and their needs as 
well as continued funding to support these efforts. Families are rooted 
in their local communities and use those support networks and services 
and do not necessarily identify themselves as ``military'' families. 
However, even with this challenge, Air Force Services has offered 
several successful programs to reach out and provide opportunities for 
these ANG and AFR members and their families.
    Air Force Home Community Care (HCC) program is an expanded child 
care initiative offered at 15 stateside locations. The Air Force HCC 
program provides free in-home quality child care services to ANG and 
AFR members during their scheduled drill weekends. HCC helps reduce the 
airman's out-of-pocket expenses by providing quality child care 
services to ANG and AFR members similar to those available to military 
members assigned to or living on a military installation.
    Mission Youth Outreach is a partnership between Air Force Services 
and Boys & Girls Clubs of America that provides 1-year free membership 
for youth to attend any local Boys & Girls Club in their community. 
This program provides much needed support to youth in families of AFR, 
ANG, and Active Duty military personnel who may not live near a 
military installation and need a safe and positive place for youth to 
spend their out-of-school time.
    4-H State Military Grants: Air Force Services Family Member 
Programs (FMP) partners with National 4-H Headquarters and Army Child 
and Youth Services to fund grants to States and territories 
establishing 4-H clubs on military installations, as well as providing 
support for youth of ANG and AFR members who are geographically 
dispersed. Since 4-H is located in every county in the United States, 
this partnership helps Air Force installations expand their reach and 
fosters stronger community partnerships for ANG and AFR families.
    Operation Purple Youth Camps 2006: National Military Family 
Association (NMFA) developed this free summer camp program in response 
to the need for increased support for military children, especially 
those whose parents are or will be deployed. This year, NMFA Operation 
Purple Camps hosted more than 2,500 deserving youth at 26 locations 
across 22 States. Air Force youth programs conducted 7 of these camps: 
Eglin/Hurlburt, Hill, McChord, Mountain Home, Tinker, Wright-Patterson, 
and Nellis. As a result, Air Force bases hosted 22 percent of the total 
participants.
    Military Child Care in Your Neighborhood (MCCYN) is a DOD-sponsored 
initiative designed to meet the child care needs of servicemembers 
living in off-base areas where on-base military child care is not 
available. Eligible members include recruiters, Reserve Officer 
Training Corps instructors, Military Entrance Processing Station 
personnel, and geographically dispersed members on independent duty 
assignments that cannot access the high quality, affordable care 
available on military installations. In the past, these families bore 
the full cost of their child care. Through MCCYN, Air Force families 
pay reduced fees for child care in their neighborhoods.
    Operation Military Child Care (OMCC) addresses the need for greater 
child care availability and affordability for the Total Force during 
times of increased OPTEMPO. OMCC is a DOD-funded child care subsidy 
program designed to assist all activated ANG/AFR members with child 
care costs in their local communities, in State-licensed, off-
installation family child care homes. Military members such as 
recruiters, those who are geographically dispersed, on special duty 
assignments, and all military members in Active Duty status not 
assigned near a support base are eligible for subsidized child care. 
OMCC allows the Air Force to reach numerous families and assist our 
warfighters with the high cost of off-base child care in civilian 
communities.

        PROGRAMS FOR FAMILIES OF THE NATIONAL GUARD AND RESERVES

    2. Senator Byrd. Secretary Dominguez, what challenges are currently 
being experienced by the families of the National Guard and Reserves, 
specifically as they relate to access to health care services?
    Mr. Dominguez. Families of National Guard and Reserve members 
ordered to Active Duty for a period of more than 30 days are made 
eligible in Defense Enrollment Eligibility Reporting System for TRICARE 
on the same basis as Active Duty family members (ADFM), and may 
experience challenges that are common to any ADFM. The TRICARE network 
of providers, institutions, and suppliers is established near Military 
Treatment Facilities (MTFs) and in other TRICARE Prime Service Areas 
(PSAs). Families who reside outside PSAs are offered the opportunity to 
enroll in TRICARE Prime Remote for ADFMs, as long as they were residing 
with their Reserve sponsor at the time of activation. However, they may 
need to rely upon non-network TRICARE authorized providers, 
institutions, and suppliers where they live. Scientifically, rigorous 
surveys show that 9 out of 10 civilian providers are aware of TRICARE 
and 8 of 10 accept new patients in TRICARE Standard.
    Any inpatient facility that accepts Medicare is required by law to 
accept TRICARE for inpatient care. A Medicare approved individual 
provider is considered to be TRICARE approved unless the provider has 
been sanctioned. Although access problems are rare, we continue our 
efforts to link up providers and beneficiaries.
    Any family member beneficiary may encounter challenges in learning 
to use TRICARE, but we have extensive informational materials available 
and constantly push them out in print and on the TRICARE Web site. 
These initiatives are further supported by TRICARE customer service 
personnel at MTFs and at call centers. Also, TRICARE provides briefings 
to Reserve and National Guard units.

    3. Senator Byrd. Secretary Dominguez, when our National Guardsmen 
and reservists are wounded, their families often are required to travel 
great distances to support and be with them. What programs are in place 
or are being established to make this challenge more manageable?
    Mr. Dominguez. When the National Guard and Reserve are in combat, 
they have been mobilized under Federal law and are entitled to travel 
and transportation benefits under title 37, chapter 7, section 411h. 
The military Services contact the families, arrange for their travel, 
and assist them as much as possible once they have arrived at the 
servicemember's bedside.
    Response should incorporate references to the relevant Dole-Shalala 
Commission recommendations (see family support action steps--i.e. 
establish standby plan for family support, etc).

    4. Senator Byrd. Ms. Raezer, you are in contact with the 
individuals affected by these programs and this hearing is being held 
to determine what is being done poorly, and what is being left undone 
in the support of our National Guard and Reserve families. What are the 
specific shortcomings of the current support initiatives that have come 
to your attention and how might they be addressed?
    Ms. Raezer. While support for National Guard and Reserve has 
improved dramatically since the beginning of the global war on terror, 
the challenges of distance, isolation, and unfamiliarity with the 
military lifestyle must continually be addressed. Geographically-
isolated Guard and Reserve families depend on a growing but sometimes 
still patchy military support network. These families often find 
themselves a great distance from traditional military installation-
based support facilities. They may also be far from the Guard armory or 
Reserve center where their servicemember trains. How then does the 
family learn about all their Active Duty benefits or receive answers 
about how to follow the rules? How do their children manage the stress 
of deployment when none of their classmates is experiencing the same 
thing? What happens when a deployment extension or ``surge'' affects 
National Guard or Reserve families who cannot rely on a military 
installation?
    Following the President's January announcement of the troop surge 
to Iraq, the Minnesota National Guard created the model of how States 
can and should support their military families. It reached out 
aggressively to support affected families, beefing up an already-robust 
family readiness and training network. The State Guard augmented this 
network with additional military family life health providers across 
the State. DOD also generated a Tiger Team to analyze needs and 
allocate resources to support families affected by the surge. With the 
announcement of more extensions, additional Tiger Teams were stood up 
to augment medical services, counseling resources, and legal services 
and to help with commercial obligations.
    IAs (whether Guard, Reserve, or Active Duty) and their families are 
especially vulnerable to falling through the cracks. NMFA commends the 
Navy for its recognition of the challenges faced by IA families when 
their servicemembers have been deployed as individuals or small groups 
in support of ground combat operations. Families receive a toll-free 
number and access to a Web site providing information and a comment 
section for family questions related to deployment. The Navy Reserve 
has hired a full-time Family Support Manager to oversee Reserve 
military families' support. Five additional Family Support Managers 
will be in the field providing support to the ``Prairie Navy.'' This 
new support structure has been hard-fought because of funding 
challenges. Yet, without these innovations in Navy family support, 
servicemembers who are in harm's way would have to work harder to 
resolve pay problems, housing issues, and family concerns.
    Because Guard and Reserve families do not have access to military 
support services, programs such as Military OneSource are essential. 
NMFA encourages DOD to expand outreach about this 24-7 resource for 
servicemembers and their families.
    Guard and Reserve families also need help from their communities. 
Several States have established military assistance funds. Community 
organizations provide moral support and assist when financial problems 
are caused by either a decrease in their household income or by 
paperwork complications. NMFA believes efforts to link community 
organizations--both public and private--with military families are 
critical. We applaud initiatives such as the North Carolina Citizen 
Soldier Support Program for building a network of support for isolated 
Guard and Reserve families.

                     ELECTRONIC TRANSFER OF RECORDS

    5. Senator Byrd. Secretary Dominguez, when our National Guardsmen 
return wounded or injured they have to tackle the DOD, National Guard, 
and Veterans Affairs (VA) bureaucracy when transitioning from DOD 
medical care to VA medical care and in obtaining their disability and 
compensation ratings. The electronic transfer of records between these 
agencies would dramatically expedite this process. Congress has been 
funding electronic record keeping and interoperable electronic transfer 
programs since the 1980s. Since the establishment of such a program 
would mitigate the length of time these individuals spend in 
transition, and improve the quality of their lives and the lives of 
their families, when can we expect to see an effective electronic 
records transfer program being fully implemented?
    Mr. Dominguez. The DOD and the VA share a significant amount of 
health information today. Beginning electronic sharing in 2002, the 
Departments are constantly seeking to expand the scope of their 
capabilities. By the end of 2007, DOD will be sharing electronically 
with VA nearly every health record data element identified in our VA/
DOD Joint Strategic Plan (JSP) for health information transfer. By 
2008, we will be sharing the remaining health record data elements 
identified in the VA/DOD JSP.
Currently shared electronic medical record data:
        <bullet> Inpatient and outpatient laboratory and radiology 
        results, allergy data, outpatient pharmacy data, and 
        demographic data are viewable by DOD and VA providers on shared 
        patients through Bidirectional Health Information Exchange 
        (BHIE). BHIE data are available from 15 DOD medical centers, 18 
        hospitals, over 190 clinics, and all VA facilities.
        <bullet> Digital radiology images are being electronically 
        transmitted from Walter Reed Army Medical Center (WRAMC), 
        Brooke Army Medical Center, and National Naval Medical Center 
        (NNMC) Bethesda to the Tampa, Palo Alto, Minneapolis, and 
        Richmond VA Polytrauma Centers for inpatients being transferred 
        there for care.
        <bullet> Electronic transmission of scanned medical records on 
        severely injured patients transferred as inpatients from WRAMC 
        and NNMC to the Tampa, Palo Alto, Minneapolis, and Richmond VA 
        Polytrauma Centers.
        <bullet> Pre- and Post-deployment Health Assessments and Post-
        deployment Health Reassessments for separated servicemembers 
        and demobilized Reserve and National Guard members who have 
        deployed.
        <bullet> When a servicemember ends their term in service, DOD 
        transmits to VA laboratory results, radiology results, 
        outpatient pharmacy data, allergy information, consult reports, 
        admission, disposition and transfer information, elements of 
        the standard ambulatory data record, and demographic data.
        <bullet> Discharge summaries from 8 of the 13 DOD medical 
        centers and hospitals using the Clinical Information System 
        (CIS) to document inpatient care are available to VA on shared 
        patients. These sites include the facilities in the National 
        Capitol Area, WRAMC, Malcolm Grow Medical Center, Dewitt Army 
        Community Hospital, and NNMC Bethesda.
Enhancement plans for 2007:
        <bullet> Expanding the electronic transmission of scanned 
        medical records on severely injured patients from WRAMC, NNMC, 
        and BAMC to all four VA Polytrauma Centers.
        <bullet> Making discharge summaries, operative reports, 
        inpatient consults, and histories and physicals available for 
        viewing by all DOD and VA providers from inpatient data at all 
        13 DOD medical centers and hospitals using CIS.
        <bullet> Making encounters/clinical notes, procedures, and 
        problem lists available to DOD and VA providers through BHIE.
        <bullet> Making theater outpatient encounters, inpatient and 
        outpatient laboratory and radiology results, pharmacy data, 
        inpatient encounters to include clinical notes, discharge 
        summaries, and operative reports available to all DOD and VA 
        providers via BHIE.
        <bullet> Beginning collaboration efforts on a DOD and VA joint 
        solution for documentation of inpatient care.
Enhancement plans for 2008:
        <bullet> Making vital sign data, family history, social 
        history, other history, and questionnaires/forms available to 
        DOD and VA providers through BHIE.
        <bullet> Making discharge summaries, operative reports, 
        inpatient consults, and histories and physicals available to VA 
        on shared patients at Landstuhl Regional Medical Center, 
        Germany.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor

                           SPOUSE EMPLOYMENT

    6. Senator Pryor. Lieutenant General Brady, spouse employment can 
be quite a problem for military families, especially when personnel are 
required to move frequently. New communities with different economies 
present a unique challenge to working spouses, and can be even more 
difficult when a military family is stationed overseas. What programs 
are available for military households who seek two incomes either 
domestically or abroad?
    General Brady. The Department is committed to helping military 
spouses pursue rewarding careers and achieve educational and training 
goals by partnering with the States, the private sector, and other 
Federal agencies. We are actively working with Department of Labor 
(DOL) to ensure military spouses receive education and training support 
via Workforce Investment Act funds.
    Further, we are partnering with national associations and employers 
around careers in high-growth industries with mobile and portable 
careers, such as medical transcription, financial services, education, 
and real estate to establish spouses as a target employee pool and to 
remove career licensing barriers at the State level. We have created 
``Spouses as Teachers,'' and this year expanded it beyond the United 
States to the United States European Command and United States Pacific 
Command.
    We have established a collaborative DOD/DOL Web site 
(www.milspouse.org) to assist spouses with resume development, 
identifying career opportunities, identifying and finding available 
training, and linking to One Stop Career Centers which support the 
local workforce economy for each respective location.
    To help spouses find employment when they move, we have also 
partnered with military.com, a division of monster.com, in developing 
the Web site portal: www.military.com/spouse, where spouses can post 
their resumes and conduct job searches for Federal and private sector 
jobs near their new installation.
    Spouse employment overseas continues to be a challenge, due to 
limited opportunities and Status of Forces Agreement requirements. 
Spouses are encouraged to contact their local legal office for guidance 
for home-based businesses, telework, and host nation employment.

                         REINTEGRATION PROGRAMS

    7. Senator Pryor. Secretary Dominguez, the war on terror has 
created horrific trauma to our troops engaged in combat. Many are 
returning with severe, life altering injuries that require a difficult 
and extremely challenging rehabilitation process. Reintegration 
programs are a critical factor in overcoming the adversity of being 
physically wounded, and a seamless transition for these troops is 
vitally important. In addition to survivor assistance initiatives, what 
other programs are available to support personnel who, for example, are 
confined to a wheelchair and now require wheelchair accessible housing?
    Mr. Dominguez. An integrated team of medical, social work, and 
support staff engage in discharge planning early in the hospitalization 
and recuperation phase. Each plan is tailored to meet the individual 
needs of each servicemember and his or her family. The team conducts an 
assessment-based effort to address medical care and quality of life 
issues such as:

        <bullet> Housing (is adaptive housing needed?)
        <bullet> Transportation (will vehicles need to be adapted to 
        accommodate special needs?)
        <bullet> Civilian employment of the servicemember or family
        <bullet> Child care
        <bullet> Counseling
        <bullet> Family support
        <bullet> Follow-on health care and access to appropriate health 
        care resources, as needed
        <bullet> Integration of benefits and services at the Federal 
        level by the DOD, VA, and Labor; State, regional, and local 
        level; and community-based nonprofit and volunteer 
        organizations

    ``Heroes to Hometowns'' is a DOD program in partnership with the 
American Legion, State Directors of VA, and communities across the 
Nation. The transition program for severely injured servicemembers 
returning home from Operation Enduring Freedom/Operation Iraqi Freedom 
establishes a support network and coordinates resources for severely 
injured servicemembers returning home. Information is made available 
through the Internet and other outreach activities.
    One example of this type of community involvement is the 
California-based Sentinels of Freedom. The organization created a 
program that, through local donations of time, money, goods, and 
services, scholarship recipients receive housing, transportation, 
employment, and education assistance, and connects severely injured 
servicemembers and their families to a team of caring volunteers who 
provide guidance, mentoring, and friendship during a 4-year program. To 
date, four servicemembers have been assisted with this long-term 
support; other candidates await placement.
    Other private non-support organizations provide housing (Homes for 
Our Troops), adaptive transportation (Roll-X `Vans for Vets'), therapy 
dogs (Paw-Pals.org), assistance with air travel (Hero Miles), and 
temporary lodging at military and VA facilities (Fisher House). These 
are only a few of many organizations that have partnered to provide 
support and services at the community level for severely injured 
servicemembers and their families.
    Some useful Uniform Resource Locators are:

        <bullet> www.legion.org/?content=heroes2hometown
        <bullet> cs.itc.dod.mil/files/content/AllPublic/Workspaces/QOL-
        LIBRARY-PUBLIC/MilitaryHOMEFRONT/186199.html
        <bullet> www.sentinelsoffreedom.org/
        <bullet> www.homesforourtroops.org/site/PageServer
        <bullet> www.paw-pals.org/page/page/1426468.htm
        <bullet> www.fisherhouse.org/

                     ACCESS TO HEALTH PROFESSIONALS

    8. Senator Pryor. Mr. McLaurin, traumatic brain injury and post-
traumatic stress disorder have created an increased demand for mental 
health services. In addition to clinical social workers, marriage and 
family therapists, ombudsmen, case managers, and counselors, do you 
believe there are enough licensed mental health professionals to 
provide adequate assessment, referral, and counseling for those 
servicemembers seeking mental health treatment?
    Mr. McLaurin. There are adequate counselors to provide family and 
marital counseling through MilitaryOneSource, family support, chaplain, 
and family advocacy systems. As of January 2007, the DOD total branch 
uniformed mental health clinical staffing levels are as follows: 
psychiatrists = 85 percent; clinical psychologists = 78 percent; social 
workers = 75 percent; psychiatric nurses = 129 percent; and psychiatric 
technicians = 98 percent. These statistics do not include military to 
civilian conversions, highly significant in one branch where, for 
example, civilian psychologists outnumber uniformed by almost 3:1. They 
also do not include contracted services within our MTFs or reflect the 
role of the managed care support contractor network providers.
    The final report from the Task Force on Mental Health, expected in 
June 2007, will include recommendations regarding DOD staffing of 
mental health professionals.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                              RECRUITMENT

    9. Senator Chambliss. Secretary Dominguez, at our Armed Services 
Committee hearing yesterday, General McCaffrey commented that the DOD's 
recruitment numbers are skewed for several reasons, including a lack of 
standardization in how recruits are counted, and that DOD is meeting 
recruitment goals because, among other reasons, recruitment standards 
have been lowered. Do you agree with this assessment?
    Mr. Dominguez. No, I do not agree with this assessment. DOD 
standards are explicit and stable. In fact, we have not lowered our 
quality standards since they were established in 1990. The Department's 
recruit quality benchmarks require 60 percent of the fiscal year non-
prior service accessions to score at or above average on the enlistment 
aptitude test and 90 percent of those accessions to be high school 
diploma graduates.
    With respect to our numeric counting system, the Department 
measures and reports recruiting in a standard way--total accessions 
against goals.

    10. Senator Chambliss. Secretary Dominguez, is there a standardized 
way in which DOD measures recruiting and retention for Active-Duty and 
Reserve component personnel, and if not, why not?
    Mr. Dominguez. Yes, the Department does have a standardized way in 
which it measures recruiting and retention.
    Recruiting: The Department measures and reports total accessions 
against goals. With regard to enlistment standards, the Department has 
not changed the recruit quality enlistment standards since 1990. The 
Department's recruit quality benchmarks require 60 percent of the 
fiscal year non-prior service accessions to score at or above average 
on the enlistment aptitude test and 90 percent of those accessions to 
be high school diploma graduates.
    Retention: Measuring and reporting retention is standard within 
each Service and component. The Active components measure retention 
rates, while the Reserve components assess attrition rates as a measure 
of losses.

                             CASE MANAGERS

    11. Senator Chambliss. Secretary Dominguez, at this point, I 
understand that DOD only has regulations related to the number of case 
managers required to manage personnel in a medical hold status. 
Consequently, there are no regulations for the ratio of case managers 
to personnel for Active-Duty personnel in a medical hold status. Should 
DOD establish a requirement and a standard for case managers for 
Active-Duty personnel in medical hold?
    Mr. Dominguez. The ratio for case management to personnel is not a 
one-size-fits-all answer. The DOD Medical Management Guide, dated 
January 2006. outlines a suggested caseload for case managers. The 
ratio is determined by several factors, to include the experience of 
the case manager, MTF, community-based resources, and other variables. 
Currently, DOD supports the Case Management Society of America's 
recommendations that are based on acuity of the patient as illustrated 
in the following table:

------------------------------------------------------------------------
              Level                     Amount               Type
------------------------------------------------------------------------
Acute...........................  8-10 cases........  Early injury/
                                                       illness stages
                                                       (case manager
                                                       performs all
                                                       coordination).
Mixed...........................  25-35 cases.......  Acute and chronic
                                                       cases (some
                                                       requiring semi-
                                                       annual or annual
                                                       follow-up, some
                                                       needed full-time
                                                       CM coordination).
Chronic.........................  35-50 cases.......  Cases requiring 1-
                                                       2 hours follow-up/
                                                       month.
------------------------------------------------------------------------


    12. Senator Chambliss. Secretary Dominguez, should DOD establish 
prescribed regulations related to the duties and responsibilities of 
DOD case managers of medical hold and holdover personnel, to include 
being an advocate for the patient during the process?
    Mr. Dominguez. The DOD TRICARE Management Activity Medical 
Management Guide, dated January 2006, provides guidance for case 
managers on duties and responsibilities, including special 
considerations for Active Duty servicemembers. Additionally, DOD has an 
instruction (DODI 6025.20, Medical Management (MM) Programs in the 
Direct Care System (DCS) and Remote Areas) which gives specific 
guidance on responsibilities for not only case management, but disease 
and utilization management. Additionally, there are Web-based modules 
available for case management training.

    13. Senator Chambliss. Secretary Dominguez, should there be a 
required training program for case managers and regulations that govern 
their specific responsibilities on behalf of servicemembers?
    Mr. Dominguez. Yes, the TRICARE Management Activity (TMA) provides 
MM training, which includes case management. Additionally, the DOD has 
an instruction (DODI 6025.20, MM Programs in the DCS and Remote Areas) 
which provides MTFs, case managers, and leadership specific guidance on 
responsibilities for not only case management, but disease and 
utilization management. Additionally, there are web-based modules 
available for case management training.

    14. Senator Chambliss. Secretary Dominguez, should there be a 
regulation requiring a certain percentage of case managers to be DOD 
civilians or military personnel as opposed to contractors, and in the 
event that contractors are utilized, what should be done to ensure the 
medical holdover mission is not compromised and that our soldiers 
receive the necessary advocacy when they are in a medical holdover 
unit?
    Mr. Dominguez. The need for case management services can be 
expected to change over time. Contracting creates flexibility to match 
the workforce to the local workload. Contracting for case management 
services does present a risk for relatively sudden and simultaneous 
disruptions in continuity of care as contracts are re-bid. Careful 
planning and oversight by military or civilian personnel is 
appropriate. It seems important to have a core of DOD civilian or 
uniformed case managers, potentially augmented by contractor case 
managers, depending on the OPTEMPO and clinical intensity of needs for 
the population to be served. The optimal mix of DOD uniformed, DOD 
civilian, and contractor case managers may need to be determined 
locally.

     MEDICAL EVALUATION BOARD AND PHYSICAL EVALUATION BOARD PROCESS

    15. Senator Chambliss. Secretary Dominguez, at this point VA 
personnel are rarely embedded within the Medical Evaluation Board and 
Physical Evaluation Board (MEB/PEB) process to help with the transition 
process. How might embedding VA personnel affect the MEB/PEB process 
and from our servicemembers' perspective, that this would be a good 
idea?
    Mr. Dominguez. VA participation in the process could be helpful, 
and we are working with the VA to increase their involvement. We are 
looking at increasing VA liaison personnel in our MTFs, involving the 
VA in the process to determine a single disability rating, and more VA 
visibility in case management and tracking. We are also reviewing the 
Navy's recently released Severely Injured Marines and Sailors Pilot 
Program, which examined the pros and cons of an accelerated disability 
retirement program in order to maximize compensation and benefits to 
the most severely injured. The Navy conducted this pilot program in 
collaboration with the VA.

    16. Senator Chambliss. Secretary Dominguez, how could VA personnel 
begin working with soldiers and possibly take charge of their paperwork 
and medical requirements once it is clear that a servicemember cannot 
be retained in the Service?
    Mr. Dominguez. We are looking at increasing VA liaison personnel in 
our MTFs, involving the VA in the process to determine a single 
disability rating, and more VA visibility in case management and 
tracking. We are also reviewing the Navy's recently released Severely 
Injured Marines and Sailors Pilot Program, which examined the pros and 
cons of an accelerated disability retirement program in order to 
maximize compensation and benefits to the most severely injured. The 
Navy conducted this pilot program in collaboration with the VA.

    17. Senator Chambliss. Secretary Dominguez, the MEB/PEB process 
that was established in the 1970s is out-dated and is extremely 
bureaucratic. For an Active-Duty servicemember, the process requires 
between 22 and 27 pieces of paper (although I understand you are 
whittling that down), and even more for a National Guard or Reserve 
member. How can we streamline the MEB/PEB process and what can we 
change to make it more efficient and cause it to better serve our men 
and women in uniform?
    Mr. Dominguez. The Disability Evaluation System (DES), which 
consists of the MEB and PEB processes, is complex, sometimes 
adversarial, and burdensome. Much of that is related to the statutory 
imperative for a fair and impartial system that affords due process 
protections (boards, legal representation, witnesses, an appellate 
process, etc.). The DES, as set forth in statute, allows the Department 
to provide additional guidance, but ultimately, the Secretaries of the 
Military Departments operate their DES consistent with their roles and 
missions, and apply ratings in accordance with how they interpret 
application of the VA Rating Schedule for Disabilities (VASRD).
    The complex and adversarial nature of the DES is partially a result 
of the magnitude of the benefits associated with the decisions on the 
rating. The disability rating determines whether the individual will 
separate with severance or with retirement benefits. For many, there is 
strong motivation to be declared fit to remain in uniform, despite 
injuries that would suggest otherwise.
    There are concerns that the VASRD has not kept current with the 
knowledge and service job environment, especially for brain injuries 
and pain as compared to other more physical injuries.

                        WOUNDED WARRIOR PROGRAM

    18. Senator Chambliss. Secretary Dominguez, the Army has 
established the Wounded Warrior hotline for soldiers and families to 
call to discuss any issues related to their care, and to consolidate 
issues/lessons learned. Are you satisfied with how DOD is collecting 
lessons learned in this area?
    Mr. Dominguez. Yes! The military Services continue to evaluate and 
adjust service delivery programs as the needs arise. This is most 
visible with the advent of specialized programs that, in the past 2 
years, have evolved into robust, responsive programs to support the 
severely injured: the Army's Wounded Warrior Program, the Navy's Safe 
Harbor Program, the Marine Corps' Marine4Life-Injured Support Program, 
and the Air Force's Palace Helping Airmen Recover Together Program.
    The establishment of the new United States Army's helpline is a 
good case in point. While other feedback programs were available, it 
appears that some soldiers may have been reluctant to use them. The new 
program provides avenues where soldiers can identify individual needs 
and the Army can address those needs quickly and efficiently. In the 
event systemic issues arise, the Army and other military Services 
maintain a close working relationship with the Office of the Secretary 
of Defense's Military Severely Injured Center and the Military 
Community and Family Policy office. These offices serve as a conduit 
for implementing change.

    19. Senator Chambliss. Secretary Dominguez, do you believe a 
confidentiality statement should be required?
    Mr. Dominguez. Privacy and confidentiality are essential to reduce 
the fear of stigmatization when seeking counseling services and 
support. For that reason, it is a key component of all short-term, 
situational, problem-solving, nonmedical counseling services provided 
in the DOD.
    To encourage the widest level of participation, all counseling is 
private and confidential, with the exception of mandatory State, 
Federal, and military reporting requirements such as child abuse and 
``duty to warn'' situations. Situations that meet clinical diagnostic 
criteria are referred to military medical health care providers or 
TRICARE.

    20. Senator Chambliss. Secretary Dominguez, what is DOD's feedback 
system for ensuring that lessons learned actually get acted upon and 
how lessons learned are communicated across not only the Army, but 
Defense-wide?
    Mr. Dominguez. Reviewing lessons learned to ensure corrective 
action is an integral part of military operations. At the unit level, 
after action reviews are the norm following any operation. Each of the 
military Services has robust Centers for Lessons Learned to ensure that 
systemic issues are addressed in order to benefit all who serve.
    Prior to the standup of the DOD-VA Senior Oversight Committee (SOC) 
the Office of the Secretary of Defense (OSD) Military Severely Injured 
(MSI) Center acted as a central repository of information and lessons 
learned. The MSI Center would receive and disseminate information as 
appropriate to the Services to ensure they were up to date on issues 
involving the severely injured. ``Purple issues'' or issues which 
applied to injured across the Services, were analyzed by OSD to be 
resolved through improved coordination, revised policy, and/or 
legislative relief. Today, the Service severely injured programs are in 
frequent contact with one another, sharing all pertinent information 
that might benefit the injured and their families.
    The SOC, which meets weekly, and the supporting DOD Task Force are 
now the logical venues by which lessons learned are vetted and 
distributed to both the Services and to our counterparts in VA. Each 
SOC Line of Action is supported by the work of a joint, multi-
disciplinary working group, which provides additional avenues for 
ensuring the latest is passed through the Department.
    Finally, the Joint Executive Council and its subordinate groups, 
the Health Executive Council and Benefits Executive Council, all joint 
groups with membership from DOD, the Services, and the VA, have been 
formal focal points for the collection of lessons learned since their 
inception. These are the organizations specifically established to 
ensure collaboration among the member agencies for addressing health, 
benefits, and other significant issues affecting all our servicemembers 
and veterans, to include the severely injured and their families.

                     LANGUAGE AND CULTURAL TRAINING

    21. Senator Chambliss. Secretary Dominguez, there is a desperate 
requirement for language and cultural training for servicemembers 
deploying to the U.S. Central Command area of responsibility. During 
Vietnam, I understand that some soldiers were required to receive 90 
days of immersion training. What is the current DOD requirement in this 
area and do you believe more training in this area is necessary?
    Mr. Dominguez. All troops receive the appropriate language and 
cultural awareness training prior to deploying. Approaches to this 
training vary based on mission requirements and include focused 
training provided by Mobile Training Teams and Defense Language 
Institute Foreign Language Center materials to provide tailored just-
in-time training for short-term needs. Cultural awareness (CA) 
instruction highlights the differences between Middle Eastern and 
American cultures. Language training (either Iraqi or Pashto/Dari) is 
provided to familiarize servicemembers with common phrases they will 
hear in theater. ``Smart Cards,'' laminated, tri-fold, CA information 
cards are issued to troops prior to deployment. Information on the 
cards consists of common phrases, cultural tips, instant two-way 
communications via picture symbols, etc. Combat Training Centers, home 
stations, and mobilization sites integrate CA training and language 
into Situational Training Exercises. These scenarios incorporate 
native-speaking role players to replicate the contemporary operating 
environment. Online training options, such as downloadable language and 
cultural training modules, are also available to the force.
    Language training and CA programs in support of operational 
deployments are in place. The Services are monitoring to ensure long-
term benefits, but it is still too soon to fully assess some of the 
programs' effectiveness. A general consensus reveals there is a 
positive effect, but until the programs reach full maturity, results 
will remain hard to measure. We will continue to monitor the 
effectiveness of the cultural and language training provided to 
deploying forces. Additional training will be instituted based on 
ongoing assessments of the results achieved by these programs.

                      BASE REALIGNMENT AND CLOSURE

    22. Senator Chambliss. Secretary Dominguez, the convergence of Base 
Realignment and Closure (BRAC) implementation, global restationing, and 
Army transformation is creating concerns and responsibilities for 
impacted communities. Although community growth is generally a welcome 
problem, it does bring with it some issues that need to be addressed. 
Roughly 30,000 school-aged children will be transitioning to these 
communities over the next few years, and I am greatly concerned about 
the effect on the school systems in these communities regarding the 
teacher-to-student ratio, school supplies, access to technology, space 
and classroom facilities, and basic school infrastructure. There is 
some relief through Impact Aid, but that is just a drop in the bucket 
toward making a difference in what these communities really need. 
Although the responsibility to take care of these communities doesn't 
fall specifically on DOD, the welfare of military families is a great 
concern to DOD. What discussions have gone on in relation to the issue 
of planning and assistance to local communities who will be impacted by 
BRAC and the other factors I have mentioned, and what is your office 
doing to ease this transition and ensure that the welfare of our 
military families is not compromised?
    Mr. Dominguez. Even though elementary and secondary education is 
the jurisdiction of the State and local governments, the Department 
realizes that one of the major factors in retaining the most capable 
personnel is providing quality educational experiences for 
servicemembers and their families. Therefore, the Department has a 
vested interest in quality education for military families.
    The Department is eager to support school systems that are highly 
impacted by base realignments. However, the Department recommends the 
name be changed to: ``Educational Assistance to Highly Impacted Local 
Education Agencies (LEA) per Public Law 109-364, section 574.'' In 
addition, that funding is placed in the Department of Defense Education 
Activity (DODEA) budget line for Collaboration/Presidential Initiatives 
that are intended to share educational excellence with local 
communities impacted by realignment to mitigate the pressure on LEAs. 
This is authorized by a new Public Law 109-364, section 574--``Plan and 
authority to assist local educational agencies experiencing growth in 
enrollment due to force structure changes, relocation of military units 
or base closure and realignments.'' DODEA is recognized as a high-
quality school system with exceptional student performance.
    The Department is committed to working with and assisting LEAs to 
ensure that the welfare of our military families is not compromised. 
The Department has funded such resources as the Johns Hopkins Military 
Child Initiative, to help communities and school districts provide 
support to children of military families in transition and promote 
opportunities for success.
    DODEA has also developed expertise to address the issues of both 
transition and quality education for military students. It has been 
given the legislative authority to begin providing technical assistance 
and expertise to meet some of the challenges of providing quality 
education opportunities for military students. This is available to any 
LEA that is receiving a large number of military students which 
requests this assistance.
    In addition, DOD has collected best practices from communities that 
experienced growth and offered communities and schools a wide range of 
ideas and technical assistance in identifying resources for financial 
and facilities planning that have been used successfully by growth 
communities. These practices and expertise were shared with teams from 
17 impacted communities at a November 2006 Conference on Education in 
Atlanta, GA.
    Finally, the Department's Office of Economic Adjustment is planning 
visits to impacted communities to include experts on school expansion 
and transition to be able to continue its assistance to communities who 
will receive additional military students.

                  MILITARY TREATMENT FACILITY SURVEYS

    23. Senator Chambliss. Secretary Dominguez, I understand that both 
the TMA and the individual Services conduct surveys to determine the 
level of satisfaction that servicemembers have with the healthcare they 
receive. I am concerned that the surveying being done to date occurs at 
only specific times of the year, is not ongoing, and that this critical 
feedback is not made available in a timely manner to professionals at 
the individual MTFs who could in turn use the data to make quality 
improvements as needed. What can DOD do, going forward, to gather this 
critically important patient satisfaction data on a more frequent basis 
and to ensure that the results are made available to supervisors at the 
MTFs in a timely manner?
    Mr. Dominguez. Beneficiary satisfaction surveys are currently 
conducted by TMA in the outpatient and inpatient selling in both the 
direct care and purchase care environments. Additionally, TMA surveys a 
representative sample of all 9.2 million beneficiaries with regard to 
many aspects of the health plan. All of these surveys use questions 
that are nationally validated and can be used to benchmark the 
performance of the Military Health System (MHS) to national health 
plans. The results are tied to nationally recognized and proven methods 
for effecting change, i.e., improving satisfaction.
    For all of these surveys, feedback is provided to the MTFs and 
included in the survey on at least a quarterly basis. In addition, the 
Services conduct provider level surveys that furnish outpatient, direct 
care feedback to the MTFs.
    TMA is working with the Services and the TRICARE Regional Offices 
(TROs) to develop a survey program that will continue to provide 
leadership with an organizational perspective of beneficiary 
satisfaction (currently required quarterly). In addition, TMA will soon 
begin working with the Services and the TROs to survey on a more 
frequent, granular level to provide detailed and frequent feedback on 
beneficiaries' perspectives of their health care.

    24. Senator Chambliss. Secretary Dominguez, does DOD have any plans 
to ensure administrators and supervisors in positions to affect change 
at the MTFs have access to not only their quality scores but also to 
evidence-based information and guidance they can use to make 
improvements for the benefit of the 9.3 million servicemembers and 
dependents who rely on the MHS?
    Mr. Dominguez. Health care executives, providers, and purchasers 
seek performance measures to determine the quality of care provided by 
the health care organizations in the United States. MHS staff members 
actively participate in the development, review, and acceptance of 
quality measures established by organizations such as the National 
Quality Forum and the Agency for Health Care Research and Quality. The 
DOD utilizes these nationally recognized clinical quality measures as 
well as accreditation by external agencies with industry accepted 
standards to assess the care provided in the MHS. Within DOD, the 
direct care system utilizes multiple modalities to assist 
administrators, supervisors, and clinical leaders in assessing the 
delivery of quality health care, using evidenced-based guidelines to 
improve care, and monitoring the health status of DOD beneficiaries. 
Health outcomes are the end results of health care interventions. 
Currently, DOD uses four separate and distinct programs to evaluate 
health outcomes and health care quality:

        <bullet> Joint Commission on Accreditation of Health Care 
        Organizations ORYX Performance Measures
        <bullet> National Perinatal Information Center (NPIC) Benchmark 
        Database
        <bullet> National Quality Management Program (NQMP) Special 
        Studies
        <bullet> The MHS Population Health Portal and Health Plan 
        Employer Data and Information Set (HEDIS)

    The ORYX and NPIC programs use recognized and validated measures 
that allow DOD to compare its performance to national norms. NQMP 
Special Studies use a combination of DOD-specific norms and national 
norms to assess the care provided. The availability of nationally 
comparative data allows systems to focus effort and resources on the 
areas with the greatest opportunity for improvement. It also allows 
organizations, such as the MHS, to identify, understand, and reproduce 
best practices and high functioning micro-systems. The use of consensus 
measures to identify strengths and weaknesses is only a first step. 
Consensus measures are most effective when they are closely linked to 
leadership-directed performance improvement.
    The National Committee for Quality Assurance developed the HEDIS 
to provide reliable, comparative data about health care quality, using 
data from health plans across the country. The MHS Population Health 
Portal uses methodologies similar to HEDIS to monitor how well MTFs 
deliver preventive care (e.g., breast cancer screening, cervical cancer 
screening), and how well members with acute illnesses (e.g., acute 
myocardial infarction) or chronic diseases (e.g., asthma, diabetes) are 
managed to avoid or minimize complications. Current clinical 
performance measures based on HEDIS methodologies include:

        <bullet> Cervical cancer screening rates (Pap tests)
        <bullet> Breast cancer screening rates (mammography)
        <bullet> Use of appropriate medications for people with asthma
        <bullet> Diabetes care (HbA1c testing and control, retinal 
        exams, low density lipoprotein screening and control)

    The data for these clinical performance metrics were gathered from 
an MHS electronic central database, which includes inpatient, 
outpatient, and pharmacy information. Reports on the clinical 
performance measures, with comparative data internal and external to 
the MTF, are provided to MTF and MHS leadership. Clinicians can 
continually monitor the status of the patients they serve to ensure 
their health care needs are met.
    The ready availability of performance measures through the MHS 
Population Health Portal permits visibility of clinical performance 
information at all levels of the MHS, from providers through senior 
leadership. Actionable information permits providers to deliver timely, 
evidence-based medical services. Aggregate data permit MHS leadership 
to assess the performance of the health care delivery system overall. 
Incorporation of HEDIS and ORYX measures into the MHS Balanced 
Scorecard demonstrates the importance of these measures to the 
Department.

    25. Senator Chambliss. Secretary Dominguez, what plans, if any, 
does DOD have to ensure patient satisfaction surveys are done in a more 
integrated and efficient process between the different branches of 
Service?
    Mr. Dominguez. Currently, representatives from the Services meet 
quarterly, and on an ad hoc basis as required, with TMA to integrate 
and increase the efficiency of a multi-layered beneficiary satisfaction 
survey program. Recent efforts have focused on the development of a 
common instrument to be used at the MTF provider level across the 
Services and to include specific questions common to the Services and 
TMA level surveys. TMA will continue to work with the Services to 
further integrate the important perspectives of our beneficiaries 
relative to care provided across the MHS.
                                 ______
                                 
               Questions Submitted by Senator John McCain

              DOD SCHOOL CONSTRUCTION AND RECAPITALIZATION

    26. Senator McCain. Secretary Dominguez, over the past 3 years, 
military construction funding for schools within the DODEA has 
decreased by over 60 percent from $99.4 million in 2006 to $37.9 
million in the budget request for fiscal year 2008. Even more 
disturbing, none of the funds requested for fiscal year 2008 will be 
used to replace an existing school, only to expand facilities, mostly 
overseas. Furthermore, only $2 million of the $34.5 million for new 
construction in fiscal year 2008 will be for domestic schools at a time 
when DOD plans to realign over 100,000 personnel and their families 
back to the United States from overseas locations. Why is the 
Department's military construction investment plan for DOD schools 
decreasing at a time when requirements as a result of force structure 
realignments and end strength increases are expanding, particularly for 
schools in the United States?
    Mr. Dominguez. DODEA's military construction program is developed 
from two major types of projects: (1) those that support existing 
requirements, and (2) those that support a change in requirements due 
to the troop realignment of the military Services.
    In fiscal year 2008, the projects that support DODEA's existing 
requirements had program funding of $34.5 million. Funding for existing 
requirements totaled $65.6 million in fiscal year 2006 and $46.2 
million in fiscal year 2007. Most of the requested $34.5 million in 
fiscal year 2008 is targeted for projects to replace the following 
existing facilities:

         Wiesbaden High School ($15.4 million): Project replaces the 
        existing gym, whole classroom building, and converts small gym 
        facility into cafeteria.
         Brussels Elementary/High School ($5.9 million): Project 
        replaces existing gym, music, and art facilities.
         DeLalio Elementary School, Camp Lejeune ($2.0 million): 
        Project replaces existing gym and art facilities.

    The other two projects provide multi-purpose facilities in Europe 
that support the existing educational program.
    The change in military construction requirements that support 
military troop realignments explains the more significant decrease in 
funding across the past 3 fiscal years. In fiscal year 2006 and fiscal 
year 2007, $35.8 million and $47.3 million were programmed, 
respectively, for these types of requirements. In fiscal year 2008, 
only $3.4 million is programmed for design efforts related to troop 
realignments.
    DODEA works closely with the military Services on all troop 
movements that impact DODEA school locations. Projects requiring new 
capacity as a result of military troop relocations, including 
relocations to the United States, are scheduled and funded in the 
appropriate timeframe. Note that only troop rotations to the DOD 
domestic school locations will warrant new school construction. All of 
the fiscal year 2008 projects are requirements coordinated with the 
military Services and are located on enduring installations.

    27. Senator McCain. Secretary Dominguez, does DOD maintain a set of 
standards by which all schools in the DODEA system are assessed? If so, 
can you provide those standards and an assessment of whether the 
schools in the DODEA inventory meet those standards?
    Mr. Dominguez. The Department uses Quality Ratings (Q-Rating) as a 
standard or measure to assess the condition of all of its facilities, 
including the schools in DODEA. A Q-Rating is calculated as the ratio 
of current maintenance and repair needs to plant replacement value. The 
resulting percentages are then aligned against the Department's Q-
Rating guidance to determine the overall rating of the facility. DODEA 
has been an active participant in the Q-Rating Working Group since its 
formation and has contracted independent architectural and engineering 
firms to assess school facilities since 2002. The table below provides 
a breakout of Q-Ratings for DODEA school facilities:

------------------------------------------------------------------------
                                                            Percent of
              Rating                General Description  DODEA Buildings
------------------------------------------------------------------------
Q-1..............................  Facility new or well            24.1
                                    maintained.
Q-2..............................  Facility is                     11.6
                                    satisfactorily
                                    maintained.
Q-3..............................  Facility is under               25.5
                                    maintained.
Q-4..............................  Facility should be              38.8
                                    considered for
                                    replacement.
------------------------------------------------------------------------


    28. Senator McCain. Secretary Dominguez, does the budget request 
for fiscal year 2008 for DODEA meet the budget goal established by DOD 
to invest in the recapitalization (renovation and replacement) of 
facilities at a rate equal to a 67-year total replacement cycle? If 
not, why not?
    Mr. Dominguez. When developing the fiscal year 2008 budget, the 
Department balanced DODEA's facilities requirements along with its core 
educational requirements, resulting in a shortfall in funding for 
recapitalization. There remains a facilities requirements backlog, but 
all safety and security projects are given priority. If additional 
funding becomes available, it will be directed towards DODEA's 
recapitalization requirements.

    29. Senator McCain. Secretary Dominguez, what would be the required 
annual level of investment in military construction, restoration, and 
modernization by DODEA to meet DOD's recapitalization goal?
    Mr. Dominguez. Based on the current DOD 67-year recapitalization 
goal, DODEA would require an additional $51 million in fiscal year 2008 
and $37 million in fiscal year 2009.

                FACILITY SUSTAINMENT FUNDING FOR SCHOOLS

    30. Senator McCain. Secretary Dominguez, over the past 3 years, 
funding for schools within the DODEA to support facility sustainment, 
restoration, and modernization has fallen short, by up to 36 percent, 
of goals established by the DOD for a minimally acceptable annual level 
of funding required to sustain facilities. This means that projects to 
fix roofs, repair air conditioning, and to correct critical safety 
deficiencies are being deferred in order to pay for other priorities. 
This is the same type of problem that affected Building 18 at WRAMC, 
only this time, it is the children of our servicemembers who are 
subjected to deteriorated conditions. Currently, DODEA has an unfunded 
backlog of over $33 million for critical repair projects, such as 
asbestos removal, radon and lead testing, replacement of fire doors, 
suppression and alarm systems, repair of heating boilers, in addition 
to roof replacements, floor repairs, etc. As an aside, DODEA receives 
about $1.5 billion annually in operations and maintenance funds for 
DODEA schools worldwide and, of that amount, has averaged about $65 
million annually for facility sustainment funding. Given the relative 
impact to DODEA's overall operating budget, is this risk to our 
military's children posed by deteriorated school conditions acceptable 
to the Department? If not, what is the Department's plan to address 
these critical facility requirements immediately in fiscal year 2007?
    Mr. Dominguez. The Department manages risk by conducting regularly 
scheduled inspections of DODEA school facilities. The military 
community helps inspect all DODEA facilities twice a year; once prior 
to school opening in August and the second in the spring timeframe. All 
life-safety concerns are corrected as recommended by the military 
inspectors. In addition, triennial inspections are conducted by an 
independent architectural engineering firm which assesses over 30 
building and exterior components based on an up-to-date industry 
standard process. From these annual and triennial inspections, 
deficiencies are identified and projects are funded based on critical 
life safety factors.
    There remains a facilities requirements backlog, but all safety and 
security projects are given priority. If additional funding becomes 
available during fiscal year 2007, more identified projects will be 
completed.

    31. Senator McCain. Secretary Dominguez, what would be the required 
annual level of investment in facility sustainment by DODEA to meet the 
DOD goal to include in the budget request funding for 100 percent of 
the total sustainment requirement?
    Mr. Dominguez. An additional $30 million annually would be required 
to meet 100 percent of the total sustainment requirement based on the 
DOD sustainment model.

                       CHILD DEVELOPMENT CENTERS

    32. Senator McCain. Secretary Dominguez, I noted in your witness 
statement on the subject of child care that you describe an emergency 
intervention strategy to address the most pressing child care needs at 
locations affected by high deployments and rebasing. The Department 
dedicated $82 million in part towards the purchase of modular 
facilities for 7,000 additional spaces in 37 child development centers. 
The use of modular, temporary facilities are intended to be an interim 
solution until permanent facilities, which are safer and more 
efficient, can be constructed. Can you provide a list of the locations 
where modular facilities were used to satisfy child care requirements?
    Mr. Dominguez. The Department is very appreciative of the 
flexibility this authority allowed us in increasing spaces on a rapid 
basis. The temporary program to use minor military construction 
authority for the construction of child development centers provides a 
means to increase the availability of quality, affordable child care 
for servicemembers and their families to support the global war on 
terror and an increased OPTEMPO. In addition to the 37 child 
development centers you address, spaces were also added using 42 
addition/renovation projects. The construction project locations are 
listed below (by Service):

         Army projects:

                 Fort Drum, NY (2 projects)
                 Fort Lewis, WA (3 projects)
                 Fort Riley, KS (2 projects)
                 Fort Carson, CO (3 projects)
                 Fort Stewart, GA
                 Fort Hood, TX
                 Fort Campbell, KY (4 projects)
                 Fort Bliss, TX (3 projects)
                 Hunter Air Field, GA
                 Walter Reed, Washington, DC
                 Detroit Arsenal, MI
                 Fort Bragg, NC
                 Fort Lee, VA
                 Tobyhanna, PA
                 Anniston Army Depot, AL
                 Fort Sill, OK
                 Picatinny Arsenal, NJ
                 Redstone Arsenal, AL
                 Fort Polk, LA

         Navy projects (Modular Facility Construction):

                 San Diego, CA
                 NYS Norfolk, VA (2 projects)
                 NYS Pearl Harbor, HI
                 Dallas-Reserve site, TX
                 Gulfport, MS
                 Pensacola, FL

         Marine projects (Modular Facility Construction):

                 Camp Lejeune, NC
                 Camp Pendleton, CA

         All Air Force projects, with the exception of the project at 
        Eglin Air Force Base (AFB), are permanent spaces as a result of 
        a renovation or addition to an existing facility. The project 
        at Eglin is modular facility construction:

                 Nellis AFB, NV (2 projects)
                 Seymour Johnson AFB, NC
                 Mountain Home AFB, ID
                 Offutt AFB, NE (2 projects)
                 Holloman AFB, NM (2 projects)
                 Little Rock AFB, AR
                 Moody AFB, GA
                 Hurlburt AFB, FL
                 Eglin AFB, FL
                 Edwards AFB, CA (2 projects)
                 Tinker AFB, OK (2 projects)
                 Hanscom AFB, MA
                 Travis AFB, CA
                 United States Air Force Academy, CO
                 Vogelweh Air Base (AB), Germany (2 projects)
                 Lakenheath AB, United Kingdom
                 Kadena AB, Okinawa
                 Osan AB, Korea
                 Yokota AB, Japan
                 Hickam AFB, HI (3 projects)
                 Ramstein AB, Germany (2 projects)
                 Columbus AFB, MS
                 Kirtland AFB, NM
                 Beale AFB, CA
                 Buckley AFB, CO
                 Arnold AFB, TN
                 Eielson AFB, AK
                 Geilenkirchen AB, Germany (2 projects)
                 Elmendorf AFB, AK

    Eighteen of the Army projects were constructed for immediate use in 
fiscal years 2006-2007 as a means to address the most pressing child 
care needs at locations impacted by high deployment and rebasing troop 
movements. These facilities are linked to Future Years Defense Program 
Military Construction projects and will remain operational through 
fiscal year 2013. All other modular construction under the expanded 
authority has a 50-year lifespan.

    33. Senator McCain. Secretary Dominguez, can you also provide the 
Department's investment plan to replace those temporary facilities with 
permanent construction?
    Mr. Dominguez. The National Defense Authorization Act for Fiscal 
Year 2006 expanded authority allowed the Services to construct 
facilities using operation and maintenance funds, providing commanders 
the ability to respond to urgent situations and to an increased OPTEMPO 
for the global war on terror. The Army constructed 18 interim Child 
Development Centers for immediate use in fiscal years 2006-2007. The 
intent was to address the most pressing child care needs at locations 
impacted by high deployment and rebasing troop movements. These 
facilities are linked to Future Years Defense Program Military 
Construction projects and will remain operational through fiscal year 
2013. All other construction under the expanded authority is either 
permanent modular construction or renovation/addition of an existing 
facility.
    There are 742 child care centers across the DOD. In order to 
recapitalize this large child care system, we estimate we need 
approximately 18-20 centers per year. DOD still needs approximately 
30,000 spaces.

    34. Senator McCain. Secretary Dominguez, in fiscal year 2006, this 
committee proposed a temporary authority, which later became law, to 
permit the Department greater flexibility in the use of operations and 
maintenance funds to construct child development centers. This 
authority is set to expire on September 30, 2007. Does the Department 
have a position on whether Congress should extend this temporary 
authority?
    Mr. Dominguez. All of the military Services would like an extension 
of the expanded child care construction authority contained in section 
2805 of the National Defense Authorization Act for Fiscal Year 2006. We 
will continue to submit those projects to you as required by the 
authority.
    The Department moved forward with an emergency intervention 
strategy to address the most pressing child care needs at locations 
impacted by high deployments and rebasing. We will continue to address 
child care with emergency supplemental actions.

    35. Senator McCain. Secretary Dominguez, what projects and 
locations has this authority been used?
    Mr. Dominguez. The temporary program to use minor military 
construction authority for the construction of child development 
centers provides a means to increase the availability of quality, 
affordable child care for servicemembers and their families to support 
the global war on terror and an increased OPTEMPO. Commanders can use 
operation and maintenance funding to respond to urgent situations.
    The construction projects and locations are listed below (by 
Service):

        Army projects (Modular Facility Construction):

                Fort Lewis, WA
                Detroit Arsenal, MI
                Fort Bragg, NC
                Fort Lee, VA
                Tobyhanna, PA
                Anniston Army Depot, AL
                Fort Sill, OK
                Picatinny Arsenal, NJ
                Redstone Arsenal, AL
                Fort Polk, LA

        Navy projects (Modular Facility Construction):

                NAS JRB Fort Worth, TX
                CBC Gulfport, MS
                CNET Pensacola, FL

        Air Force project is an addition to an existing facility:

                Ramstein Air Base, Germany (2 projects)

    The Department is appreciative of the flexibility this authority 
allowed us in increasing spaces on a rapid basis. The DOD is committed 
to expanding the child development system in order to meet the child 
care demand due to high deployments and OPTEMPO. Under the temporary 
minor military construction authorization, the Services initiated 
projects, which will result in an increase of 1,785 child care spaces. 
By supporting DOD families' need for child care, we contribute to the 
efficiency, readiness, and retention of the total force. Without 
extension of this authority, unmet child care needs will create stress 
on families. Specific future need for the authority is unknown, since 
Commanders use this in urgent situations, particularly as rebasing 
demographics fluctuate.

impact of 2005 defense base realignment and closures on schools in the 
                            local community
    36. Senator McCain. Secretary Dominguez, I have a question about 
the impact of the 2005 BRAC round on schools in the local communities 
around bases that will see a significant increase in student 
populations. As a result of BRAC, many military bases around the 
country are expected to see increases in military and civilian 
populations that exceed 5,000 personnel. Recent plans by the President 
to grow the Army and Marine Corps end strength in the next 5 years by 
about 91,000 personnel will result in greater population growths. As a 
result, local communities who have always worked hard to support their 
military bases, are faced with the daunting challenge of providing 
housing and schools for the incoming students. Ideally, these 
communities would like to have these additional schools constructed and 
ready to go as the student population arrives. In order to do this, 
these communities need accurate data and timelines for the student 
population's arrival into the area.
    Many communities raised a problem to the level of Congress last 
year that this planning information was not forthcoming from the DOD. 
This committee requested and received a DOD report on projected student 
populations at each location, but some of the numbers in the report 
conflict dramatically with numbers being provided to local communities 
by installation commanders. These discrepancies are paralyzing the 
local community's planning efforts and attempts to raise funds through 
bond issuances. What can the Department do right now to assist the 
local communities in their planning efforts to provide schools for our 
military's children?
    Mr. Dominguez. The data provided to Congress in the November 7, 
2006, ``Report on Assistance to Local Educational Agencies for Defense 
Dependent Education,'' was reported by each respective Service, 
calculated by the total movement of servicemembers. However, when using 
military servicemember data to evaluate the number of school age 
children of military and civilian employees who will potentially be 
moving to a particular military installation, the numbers need to be 
evaluated in the proper context. The number of military servicemembers 
moving to a particular installation may not be a true indicator on what 
is actually happening in a particular community concerning the number 
of dependents. There are many factors which go into a military member's 
decisions to move and/or when to move their dependents to the new 
location.
    The most accurate accounting of the number of students occurs 
between the local command and the local community. Housing locations 
and availability, housing construction timelines, specific demographics 
of the military members moving to a location, impact of deployment, and 
an evolving mission of the Armed Services are factors in determining 
accurate numbers of arriving students. Therefore, the Department always 
encourages the local community to plan carefully with the installation 
command to ensure the most accurate number and timeline.
    To answer the question, ``What can the Department do right now to 
assist the local communities in their planning efforts,'' the 
Department's Office of Economic Adjustment (OEA) assists communities to 
plan and carryout community activities in response to significant 
impacts associated with Defense program changes. OEA's project managers 
are currently working with 20 communities impacted by BRAC and Global 
Defense Program Review actions. The assistance includes technical, and, 
in some cases, grant assistance to local and State governments as they 
prepare to organize, plan, and implement community development 
activities in response to Defense personnel growth associated with 
military installations. Additionally, OEA is working with other Federal 
agencies to send teams to these designated communities to discuss 
community growth plans, and will include a representative from the 
Military Community and Family Policy Office in the teams, whenever 
there are concerns about school expansion.

    37. Senator McCain. Secretary Dominguez, are financial resources 
from the Federal Government available to local communities for school 
construction?
    Mr. Dominguez. The Department does not have funds that would assist 
communities in the construction of schools. School construction is 
under the jurisdiction of the local and/or State government. However, 
the Department is committed to identifying both Federal and private 
financial alternatives for communities to consider when expanding 
schools and/or districts.
    The DOD collected the best practices from communities that 
experienced growth and held a November 2006 conference in Atlanta, GA, 
that offered communities and schools a wide range of ideas and 
technical assistance in identifying resources for financial and 
facilities planning.
    Some of the information shared with the communities included 
Federal resources, such as the United States Treasury Department's 
program where LEAs can receive no-interest bonds through its Quality 
Zone Academy Bond (QZAB) Program, primarily to support facility 
renovation and repair projects. QZAB can assist LEAs in accommodating 
additional students as a result of DOD force realignments through 
renovations that increase capacity. For instance, one LEA renovated a 
building that had not previously been used as a school, converting it 
into a school building. QZAB also provides additional support, which 
can potentially alleviate the pressure on other revenue sources 
currently being programmed to accomplish repair and renovation 
projects.
    Additionally, the Department of Education shares its support for 
public school programs, such as public charter schools, and gives 
grants to States to assist the start-up costs and facilities costs of 
charter schools. Other Federal grants may provide support to LEAs, 
depending on specific community circumstances, such as the Qualified 
Public Education Facility Bond Program.
    Schools are encouraged to work with their local communities and 
develop business plans. Military impacted schools who have worked with 
their communities and examined traditional and alternative ways of 
financing have found growth to be both a positive and rewarding 
experience for military families and students.

    [Whereupon, at 6 p.m., the subcommittees adjourned.]

                                 <all>

</pre></body></html>
